                         CT
                    INSPE OR GE
             AL                        N
           CI




                                       ER
      E
     SP




                                          A L
    TRO




                                            M
                                            RA
     UB




          LE
                                       OG
               D
                   ASS                 PR
                         E T R ELIEF




SIGTARP                                          Office of the Special Inspector General
                                                 for the Troubled Asset Relief Program
Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement



                                                                  Quarterly Report to Congress
                                                                              October 27, 2011
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
CONTENTS

Executive Summary	                                                       3
  Program Updates and Financial Overview	                               10
  Oversight Activities of SIGTARP	                                      11
  SIGTARP Recommendations on the Operation of TARP	                     12
  Report Organization	                                                  12

Section 1
THE OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR THE
TROUBLED ASSET RELIEF PROGRAM	                                         13
  SIGTARP Creation and Statutory Authority	                            15
  SIGTARP Oversight Activities Since the July 2011 Quarterly Report	   16
  The SIGTARP Organization	                                            25

Section 2
TARP OVERVIEW	                                                          27
  TARP Funds Update	                                                    29
  Financial Overview of TARP	                                           32
  Housing Support Programs	                                             51
  Financial Institution Support Programs	                               75
  Asset Support Programs	                                              120
  Automotive Industry Support Programs	                                137
  Executive Compensation	                                              145

Section 3
TARP OPERATIONS AND ADMINISTRATION	                                    149
  TARP Administrative and Program Expenditures	                        151
  Current Contractors and Financial Agents	                            152

Section 4
SIGTARP RECOMMENDATIONS	                                               161
  Recommendations Aimed at Increasing Servicer Performance
    and Better Protecting Homeowners in TARP’s Housing Programs	       163
  Recommendations Regarding Community Banks	                           167
  Recommendations Regarding Treasury’s Process for Contracting for
    Professional Services Under TARP	                                  169

  Endnotes	185
APPENDICES
A. 	 Glossary	209
B. 	 Acronyms and Abbreviations	                                     213
C. 	 Reporting Requirements	                                         216
D.	 Transaction Detail	                                              220
E. 	 Cross-Reference of Report to the Inspector General Act of 1978	 293
F. 	 Public Announcements of Audits	                                 294
G. 	 Key Oversight Reports and Testimony	                            295
H.	Correspondence	                                                   297
I. 	 Organizational Chart	                                           311
EXECUTIVE SUMMARY
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   5




Through the Troubled Asset Relief Program (“TARP”), the American taxpayers
became investors in hundreds of financial institutions, the auto industry, and cer-
tain markets for asset-backed securities, and the Office of the Special Inspector
General for the Troubled Asset Relief Program (“SIGTARP”) serves on the front
line to protect those investments. SIGTARP is the only agency solely charged
with a mission of transparency, oversight, and enforcement related to the taxpay-
ers’ unprecedented investment of hundreds of billions of dollars in the private
sector. In order to fulfill its enforcement mission, SIGTARP investigates fraud,
waste, and abuse related to TARP. This month, as a result of an investigation by
SIGTARP and its Federal law enforcement partners, the first criminal charges
were filed against senior executives of a TARP bank when two senior executives
of United Commercial Bank (“UCB”) were charged in connection with an alleged
scheme to defraud investors. The Department of Treasury (“Treasury”), and by
extension the American taxpayer, became investors in UCB’s holding company
when it received more than $298 million in TARP funds. UCB was the first
TARP bank to fail and the taxpayers’ entire TARP investment is lost.
    This past quarter, SIGTARP brought transparency to some of the largest
banks’ exit from TARP as they pressured Federal banking regulators to expedite
their TARP exit because of concerns over executive compensation restrictions
and a stigma associated with TARP participation. In stark contrast, approximately
400 smaller community banks remain in TARP and SIGTARP made recommen-
dations that Treasury, in consultation with Federal banking regulators, develop
a clear TARP exit path for community banks. SIGTARP also published an audit
questioning $8.1 million in legal fees Treasury paid to law firms whose bills
included block billing, either no or vague descriptions of work performed, unsup-
ported expenses, and administrative charges not allowed under the contract.
SIGTARP also made four new recommendations to improve servicer performance
in TARP’s housing programs.


SIGTARP INVESTIGATIONS
SIGTARP is a highly sophisticated white-collar investigative agency. Since the end
of the last quarter, 13 individuals have been criminally charged and three individu-
als have been criminally convicted as a result of SIGTARP’s investigations. This
brings the total number of individuals charged criminally as a result of SIGTARP’s
investigations to 51 individuals, including charges against 36 senior officers of their
organizations. Many of these individuals are awaiting trial. However, 28 individuals
have been criminally convicted and 19 have been sentenced to prison terms, with
others awaiting sentencing. In some cases, individuals who were criminally charged
were also charged in a civil complaint. SIGTARP’s investigations have also resulted
in civil charges against 37 individuals and 18 companies.
    This month, SIGTARP agents, along with its law enforcement partners, arrested
Ebrahim Shabudin, the former executive vice president of UCB, and Thomas Yu,
the former senior vice president of UCB. The defendants are charged in a Federal
indictment in connection with an alleged fraudulent scheme that began in or about
6   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           September 2008, to hide the bank’s true financial condition from investors, deposi-
                                           tors, regulators, Treasury, and the bank’s auditor. According to the indictment, the
                                           objectives of the alleged fraud scheme were to conceal, delay, and avoid publicly
                                           reporting the bank’s number of impaired loans and the bank’s true loan loss. The
                                           objective of the alleged scheme also included misleading investors through false
                                           statements and misleading bank regulators. The indictment charged that the defen-
                                           dants used a variety of fraudulent accounting maneuvers and techniques to conceal
                                           that they falsified the bank’s books and records. In November 2008, Treasury
                                           became an investor in the bank when it received more than $298 million in TARP
                                           funds. The bank failed on November 6, 2009. FDIC, which became the receiver
                                           for the bank, estimates that deposit insurance fund losses from UCB’s failure will
                                           be $2.5 billion. The total loss to TARP is more than $298 million.
                                               This quarter, SIGTARP has taken swift enforcement action to shut down
                                           mortgage modification scams that prey on unsuspecting homeowners by taking
                                           their last dollars in exchange for false promises of a mortgage modification under
                                           TARP’s housing programs. SIGTARP agents arrested four individuals who called
                                           their organization HOPE. The defendants were charged with allegedly defrauding
                                           homeowners out of $3 million in upfront fees based on misrepresentations that
                                           the homeowners would receive a mortgage modification under HAMP. Also as a
                                           result of a SIGTARP investigation, a housing counselor was convicted of a scheme
                                           in which she gambled away money from homeowners that was earmarked for
                                           mortgage modifications. Finally, a Federal court ordered the closure of a decep-
                                           tive mortgage relief operation investigated by SIGTARP. SIGTARP will tenaciously
                                           work to shut down mortgage modification scams and hold accountable those who
                                           steal from homeowners under the false promise of a mortgage modification.


                                           TARP EXIT BY THE LARGEST BANKS
                                           Last month, SIGTARP released an audit report that shed light on the efforts by
                                           Federal banking regulators and Treasury to get the largest banks out of TARP. The
                                           report focuses on the exit path for the largest 17 TARP recipient banks—known
                                           as SCAP institutions—which received 80% of all funds under TARP’s Capital
                                           Purchase Program (“CPP”). Treasury and the Federal banking regulators conduct-
                                           ed stress tests that determined the level of capital each bank needed to be strong
                                           enough to absorb its own losses in adverse market conditions so that it would not
                                           pull down the entire financial system. They used the results of those stress tests to
                                           set the criteria for these banks to exit TARP. The strongest nine banks immediately
                                           exited TARP, leaving eight in TARP that regulators considered to be weaker, includ-
                                           ing Bank of America, Citigroup, PNC, and Wells Fargo. To meet the stress test
                                           results, regulators decided that these banks could expedite a TARP exit by issuing
                                           $1 in new common equity for every $2 in TARP repaid.
                                               Just weeks later, the Federal banking regulators relaxed the criteria, bowing at
                                           least in part to a desire to ramp back the Government’s stake in financial institu-
                                           tions and to pressure from institutions seeking a swift TARP exit to avoid executive
                                           compensation restrictions and the stigma associated with TARP. The banks resisted
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   7




regulators’ demands to raise capital. Regulators to varying degrees bent to these
concerns, with FDIC the most persistent in insisting that banks raise more com-
mon stock. The result was an ad hoc and inconsistent TARP repayment process
where only Citigroup met the 1-for-2 criteria (when it was required to meet 1-for-
1). By not waiting until the banks could meet the criteria, there was arguably a
missed opportunity to further strengthen the quality of each bank’s capital base.
     The relaxing of the exit criteria raises the question as to why Federal banking
regulators went through the trouble of conducting the stress tests and setting TARP
exit criteria based on those tests, if in the end they were not going to hold banks to
it. The lessons of the financial crisis and the events surrounding TARP repayments
and exit demonstrate the importance of establishing strong capital requirements
and holding institutions strictly accountable to them. Financial stress continues to
pose obstacles to economic recovery even for the largest banks, in part due to a 9%
unemployment rate, decreased consumer confidence in a constrained market, and
non-performing mortgage loans and related securities. The nation’s largest banks
are cutting jobs, streamlining operations through asset sales, and searching for new
sources of revenue and capital. Berkshire Hathaway Inc. announced in late August
that it would invest $5 billion in Bank of America, following a period in which Bank
of America’s stock price plummeted.
     Federal banking regulators and Treasury bear responsibility for ensuring that
the nation’s systemically important financial institutions hold enough capital to
absorb their own losses. During Congressional testimony in June 2011, then-FDIC
Chairman Sheila Bair further stressed, “The single most important element of a
strong and stable banking system is its capital base. Capital is what allows an insti-
tution to absorb losses while maintaining the confidence of its counterparties and
continuing to be able to lend.” Today, some institutions remain too big, too inter-
connected, and too essential to the financial system; their failure could potentially
trigger serious consequences to the broader economy. The greater financial system’s
need for protection against the failure of those institutions in the next possible
downturn is particularly acute.


COMMUNITY BANKS STILL IN TARP
This month, SIGTARP recommended that Treasury, in consultation with the bank-
ing regulators, develop a clear TARP exit path for community banks. A common
misperception is that most of the 707 TARP banks have paid back TARP, when
really only the largest banks have exited TARP. Smaller and medium size banks
are not exiting TARP with the same speed as the larger banks, with approximately
400 still in TARP. Of these, nearly half are not paying their TARP dividend and in
some cases, the banks are operating under an order by their regulator. Compared to
larger banks, community banks may face an uphill battle to exit TARP. Community
banks do not have the same access to capital as the larger banks. They are more ex-
posed to distressed commercial real estate related assets and non-performing loans.
    Small and medium-size banks play an important role in our nation’s economy
and are the lifeblood of many communities across the country. They provide credit
8   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           to small businesses and farmers, and serve customers in rural areas and small
                                           metropolitan areas not served by large banks. As Federal Reserve Chairman Ben
                                           Bernanke stated earlier this year, “[l]ocal communities, ranging from small towns
                                           to urban neighborhoods, are the foundation of the U.S. economy and communities
                                           need community banks to help them grow and prosper.” Furthermore, as former
                                           Kansas City Federal Reserve Bank President Thomas Hoenig noted, “Regional and
                                           community banks are also typically locally owned and managed, which means they
                                           have an immediate and vested interest in the success of their local communities.”
                                           To the extent community banks continue to face a sluggish recovery, non-perform-
                                           ing assets, and capital-raising challenges, their lending to consumers – especially to
                                           small businesses – will remain constricted.
                                               Despite the dramatic efforts to expedite the exit of the largest banks from TARP,
                                           there appears to be no corresponding concrete plan for community banks’ exit from
                                           TARP. The only exit strategy for smaller TARP banks that has been announced is
                                           the Small Business Lending Fund (“SBLF”), which is identical to TARP in one
                                           key respect: Government investment in private banks. Through this program,
                                           Treasury invested $4 billion in smaller banks. However, approximately half of those
                                           dollars went to swapping 137 TARP banks out of TARP and into this non-TARP
                                           Government program. This program ties increased lending to a dividend rate that is
                                           less than the TARP 5% dividend rate, but removes executive compensation restric-
                                           tions and any perceived TARP stigma, the two complaints SIGTARP heard from
                                           some of the largest banks. Banks that were not paying their TARP dividend were
                                           not eligible to apply for SBLF. However, 320 of the more than 500 banks then left
                                           in TARP applied to swap into SBLF. For these banks, SBLF may have been their
                                           TARP exit plan.
                                               Community banks need a clear exit path out of TARP that is put into action
                                           well before a scheduled rise in the TARP dividend (beginning in the fall of 2013 for
                                           many banks). The best exit path for community banks should involve access to new
                                           capital to replace the TARP capital. After five years, the 5% TARP dividend rate will
                                           rise to a very expensive 9%. SIGTARP is concerned that when the dividend rate
                                           increases, many of these banks will remain in TARP but still be unable to access
                                           new capital. If that is the case, many will have no means either to exit TARP or to
                                           pay their required dividend payments.
                                               Treasury should commit to prudent stewardship of its TARP investments; it
                                           must take action to ensure that as many banks as possible repay taxpayers and to
                                           prepare to deal with the banks that cannot.


                                           TARP’S HOUSING PROGRAMS
                                           The TARP-funded housing support programs continue to struggle to reach home-
                                           owners, with only $2.5 billion (5.4%) of the $45.6 billion in earmarked TARP funds
                                           having been spent. There is disappointing participation in the signature Home
                                           Affordable Modification Program (“HAMP”), due in large part to poor servicer
                                           performance. With just one year left for new mortgage modifications in HAMP, it is
                                           not too late for Treasury to make changes to the program, and there remains much
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   9




that it can do to improve. SIGTARP, through its hotline and anecdotally, continues
to hear about homeowner frustration with the performance of mortgage servicers
related to HAMP. To address these concerns, SIGTARP made four new recom-
mendations to improve servicer performance, which should lead to more families
staying in their homes. Treasury has determined not to take any further action to
implement SIGTARP’s recommendations. Treasury is giving up a chance at mean-
ingful change and sadly, it is struggling homeowners who have the most to lose.
    Treasury must take strong action to help as many additional struggling home-
owners as it can before HAMP ends. Treasury recently published an estimate that
there are 992,968 homeowners eligible for HAMP. The number of new permanent
mortgage modifications each month has hovered between 25,000 and 30,000.
While this represents real help for these homeowners, many additional homeown-
ers could receive that same help. If the current rate continues, 520,000 to 600,000
homeowners who are eligible for HAMP will not get a permanent modification
before HAMP expires. Rather than refuse to act on SIGTARP recommendations,
Treasury should force servicers to change the status quo and help as many of the
remaining eligible homeowners as possible stay in their homes.
    One of homeowners’ great frustrations with TARP’s housing programs has
been the servicers’ lack of communication or inaccurate, conflicting, and confus-
ing communication. SIGTARP recommended that Treasury require that servicer
communications with homeowners related to a change in their status or terms of
an application, modification, or any other significant change affecting the home-
owner’s participation be in writing, which could be as simple as e-mail. Written
changes help reduce the likelihood that homeowners are misinformed or confused,
and oral notification is open to abuse with compliance difficult to assess. Treasury’s
response was that it already requires servicers to communicate in writing with
the borrower an average of ten times, and that soon a single point of contact will
communicate with the borrower “by phone, in writing or through email, until a
final loss mitigation decision has been made.” Given SIGTARP’s continued Hotline
complaints, ten times is not sufficient. Additionally, Treasury’s response ignores the
concerns of participating homeowners who are receiving miscommunication from
servicers on important milestones or changes.
    There have been a number of serious homeowner complaints that many trial
modifications last beyond the intended three months, that many trial modifica-
tions fail to ever convert to permanency, and that homeowners have trouble getting
timely responses when they escalate complaints. These complaints are borne out
by hard facts, with 22% of trial modifications lasting more than six months. Also, as
SIGTARP raised in its last quarterly report, Treasury found that three of the largest
ten servicers had inadequate scores for a category called “second look,” meaning
that homeowners were wrongly denied a conversion from trial to permanent modi-
fication. However, Treasury did not withhold any incentives from these servicers
for this problem. After SIGTARP raised problems with the second-look scores,
those scores have improved, proving that more transparency can lead to servicer
improvements.
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                SIGTARP made new recommendations designed to address these complaints,
                                            including that Treasury set benchmarks on what it deems to be acceptable perfor-
                                            mance for conversion rates from trial modifications to permanent modifications,
                                            length of trial modifications, and timeline for resolving escalated cases. SIGTARP
                                            recommended that Treasury measure all servicers against those benchmarks,
                                            because without acceptable benchmarks, servicers will continue their bad practices
                                            and ultimately homeowners may suffer. When any servicer (not just the top 10)
                                            fails to perform at acceptable levels, SIGTARP recommended that Treasury vigor-
                                            ously enforce its rights, including using all available financial remedies to force ser-
                                            vicer compliance with program rules through withholding, permanently reducing or
                                            clawing back incentive payments. Treasury decided not to take any further action to
                                            implement SIGTARP’s recommendations, stating that it considered the recommen-
                                            dations closed. Treasury stated that it has “succeeded in improving servicer perfor-
                                            mance” with non-financial remedies and withholding payments (temporarily) from
                                            two servicers. Treasury stated that it will exercise its financial remedies “when nec-
                                            essary.” Given the wealth of homeowner complaints, if there are benchmarks in this
                                            area, Treasury is not adequately enforcing them against the 112 active servicers and
                                            additional financial remedies are necessary. For example, if Treasury’s benchmark
                                            for acceptable lengths of trial modifications is three to four months, SIGTARP is
                                            not aware of any repercussion for servicers who exceed that time. With less than 1
                                            million struggling borrowers remaining eligible, and a window quickly closing on
                                            the end of the program, Treasury must double its efforts to ensure that servicers
                                            comply with program requirements. If Treasury does not take action to change the
                                            status quo of its compliance program, servicers will not take action to change their
                                            status quo. Compliance with program guidelines is not, and must not be, voluntary.


                                            PROGRAM UPDATES AND FINANCIAL OVERVIEW
                                            TARP consists of 13 implemented programs. Because TARP investment authority
                                            expired on October 3, 2010, no new obligations may be made with TARP funds.
                                            However, dollars that have already been obligated to existing programs may still
                                            be expended. As of October 3, 2010, $474.8 billion had been obligated across
                                            TARP to provide support for U.S. financial institutions, the automobile industry,
                                            the markets in certain types of asset-backed securities, and homeowners. Of the
                                            obligated amount, $413.2 billion had been spent as of September 30, 2011, leav-
                                            ing $52.1 billion in three programs remaining as obligated and available to spend
                                            after accounting for reductions in exposure related to the Asset Guarantee Program
                                            (“AGP”) and the termination of equity and debt facilities for AIG and Chrysler, re-
                                            spectively, that were never drawn down. According to Treasury, through September
                                            30, 2011, 266 TARP recipients, including 10 with the largest CPP investments,
                                            had paid back all of their principal or repurchased shares, and 19 TARP recipients
                                            had made partial repayments by paying back some of their principal or repurchas-
                                            ing from Treasury some of their preferred shares, for an aggregate total of $276.3
                                            billion of repayments. According to Treasury, this left $122.4 billion in TARP funds
                                            outstanding as of September 30, 2011, after accounting for losses and write-offs.
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   11




    In addition to the principal repayments, Treasury has received interest and divi-
dend payments on its investments, as well as revenue from the sale of its warrants.
According to Treasury, as of September 30, 2011, it had received $39.8 billion in
interest, dividends, and other income, including $9.1 billion in sales proceeds that
had been received from the sale of warrants and preferred stock received as a result
of exercised warrants. At the same time, some TARP participants have missed inter-
est or dividend payments. Among CPP participants, 193 missed paying dividend or
interest to the Government as of September 30, 2011, for a total of $356.9 million
in unpaid CPP interest and dividends.


OVERSIGHT ACTIVITIES OF SIGTARP
SIGTARP actively strives to fulfill its audit and investigative functions. Since its
inception, SIGTARP has issued 16 audit reports. Two have been issued since
the end of the last quarter: “Exiting TARP: Repayment by the Largest Financial
Institutions” and “Legal Fees Paid Under the Troubled Asset Relief Program: An
Expanded Report.” Section 1 of this report “The Office of the Special Inspector
General for the Troubled Asset Relief Program” discusses SIGTARP’s recently
released audits.
    SIGTARP is a highly sophisticated white-collar law enforcement agency. As
of September 30, 2011, SIGTARP had more than 150 ongoing criminal and
civil investigations, many in partnership with other law enforcement agencies.
Since SIGTARP’s inception, its investigations have delivered substantial results,
including:

• criminal actions against 51 individuals, including 36 senior officers (CEOs, own-
   ers, founders, or senior executives) of their organizations
• criminal convictions of 28 defendants, of whom 19 have been sentenced to
   prison (others are awaiting sentencing)
• civil cases naming 37 individuals (including 25 senior officers) and 18 corporate
   or other legal entities as defendants (in some instances an individual will face
   both criminal and civil charges)
• asset recoveries of $151 million
• savings of $553 million in TARP funds that SIGTARP prevented from going to
   the now-failed Colonial Bank

    Although much of SIGTARP’s investigative activity remains confidential, over
the past quarter there have been significant public developments in several of
SIGTARP’s investigations. For a description of recent developments, including
those relating to SIGTARP investigations into United Commercial Bank/UCBH
Holdings, Inc., Home Owners Protection Economics, Inc., The Shmuckler Group,
LLC, HomeFront, Inc., and Residential Relief Foundation, LLC, see Section 1
of this report “The Office of the Special Inspector General for the Troubled Asset
Relief Program.”
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            SIGTARP RECOMMENDATIONS ON THE
                                            OPERATION OF TARP
                                            One of SIGTARP’s oversight responsibilities is to provide recommendations to
                                            Treasury so that TARP programs can be designed or modified to facilitate effective
                                            oversight and transparency and to prevent fraud, waste, and abuse. Section 4 of
                                            this report “SIGTARP Recommendations” provides updates on existing recommen-
                                            dations and summarizes the implementation of previous recommendations.
                                                This quarter, Section 4 includes discussions of SIGTARP’s new recommen-
                                            dations on Treasury’s housing programs, contracting for professional services,
                                            and community banks’ exit from CPP. In an August 31, 2011, letter to Treasury,
                                            SIGTARP made four recommendations aimed at improving transparency and ac-
                                            countability in the implementation of TARP housing programs. In its audit report,
                                            “Legal Fees Paid Under the Troubled Asset Relief Program: An Expanded Report,”
                                            released September 28, 2011, SIGTARP made five new recommendations on how
                                            Treasury should improve its handling of contracts with law firms and increase tax-
                                            payer protections. In an October 11, 2011, letter to Treasury, SIGTARP made two
                                            recommendations calling for a clear exit process for community banks from CPP.


                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            • Section 1 discusses the activities of SIGTARP.
                                            • S
                                               ection 2 details how Treasury has spent TARP funds so far and contains an
                                              explanation or update of each program.
                                            • S
                                               ection 3 describes the operations and administration of the Office of Financial
                                              Stability, the office within Treasury that manages TARP.
                                            • S
                                               ection 4 discusses SIGTARP’s recommendations to Treasury with respect to the
                                              operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through September 30, 2011,
                                            except where otherwise noted.
            THE OFFICE OF THE SPECIAL
SECTION 1   INSPECTOR GENERAL FOR THE
            TROUBLED ASSET RELIEF PROGRAM
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   15




SIGTARP CREATION AND STATUTORY AUTHORITY
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside the Government.
    TARP investment authority expired on October 3, 2010. As a result, Treasury
cannot make new purchases or guarantees of troubled assets. This termination of
authority, however, does not affect Treasury’s ability to administer existing troubled
asset purchases and guarantees. In accordance with Section 106(e) of EESA,
Treasury may expend TARP funds after October 3, 2010, as long as it does so pur-
suant to obligations entered into before that date. SIGTARP’s oversight mandate
did not end with the expiration of Treasury’s authorization for new TARP funding.
Rather, under the authorizing provisions of EESA, SIGTARP is to carry out its
duties until the Government has sold or transferred all assets and terminated all
insurance contracts acquired under TARP. In other words, SIGTARP will remain
“on watch” as long as TARP assets remain outstanding.
16   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            SIGTARP OVERSIGHT ACTIVITIES SINCE THE JULY
                                            2011 QUARTERLY REPORT
                                            SIGTARP continues to fulfill its oversight role on multiple parallel tracks: inves-
                                            tigating allegations of fraud, waste, and abuse in TARP programs; conducting
                                            oversight over various aspects of TARP and TARP-related programs and activities
                                            through audits and 85 recommendations; and striving to promote transparency in
                                            TARP and the Government’s response to the financial crisis as it relates to TARP.

                                            SIGTARP Investigations Activity
                                            SIGTARP is a highly sophisticated white-collar investigative agency. As of
                                            September 30, 2011, SIGTARP had more than 150 ongoing criminal and civil
                                            investigations, many in partnership with other law enforcement agencies in order
                                            to leverage resources throughout the Government. From SIGTARP’s inception, its
                                            investigations have delivered substantial results, including:

                                            •	 criminal actions against 51 individuals, including 36 senior officers
                                               (CEOs, owners, founders, or senior executives) of their organizations
                                            •	 criminal convictions of 28 defendants, of whom 19 have been sentenced to
                                               prison (others are awaiting sentencing)
                                            •	 civil cases naming 37 individuals (including 25 senior officers) and 18 corporate
                                               or other legal entities as defendants (in some instances an individual will face
                                               both criminal and civil charges)
                                            •	 asset recoveries of $151 million
                                            •	 savings of $553 million in TARP funds that SIGTARP prevented from going
                                               to the now-failed Colonial Bank

                                                SIGTARP investigates white-collar fraud. These investigations include, for
                                            example, accounting fraud, securities fraud, insider trading, bank fraud, mortgage
                                            fraud, fraudulent mortgage modification schemes, false statements, obstruction
                                            of justice, theft of trade secrets, money laundering, and tax crimes. Although the
                                            majority of SIGTARP’s investigative activity remains confidential, over the past
                                            quarter there have been significant public developments in several SIGTARP
                                            investigations.

                                            United Commercial Bank/UCBH Holdings, Inc.
                                            SIGTARP agents, along with its law enforcement partners, arrested Ebrahim
                                            Shabudin and Thomas Yu, two former senior executives of United Commercial
                                            Bank (“UCB” or the “Bank”). On September 15, 2011, a Federal grand jury sitting
                                            in the Northern District of California returned an indictment against Shabudin
                                            and Yu. On October 11, 2011, the United States District Court for the Northern
                                            District of California unsealed the four-count indictment which charges Shabudin
                                            and Yu with conspiracy, securities fraud, falsifying corporate books and records,
                                            and lying to auditors. Shabudin was an executive vice president at UCB and from
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   17




September 2008 through April 2009, he served as UCB’s chief credit officer and
chief operating officer. Yu was a senior vice president and from June 2008 through
June 2009, he served as UCB’s credit risk and portfolio manager.
     UCB was a commercial bank headquartered in San Francisco, California,
with branch offices throughout the United States as well as China. UCB’s hold-
ing company, UCBH Holdings, Inc. (“UCBH”), was a publicly traded company
whose shares were registered with the U.S. Securities and Exchange Commission
(“SEC”). In November 2008, Treasury became an investor in the Bank when
UCBH received approximately $298 million in TARP funds.
     The indictment alleges that Shabudin and Yu, together with others, engaged in
a fraudulent scheme that began in or about September 2008, to hide the Bank’s
true financial condition from investors, depositors, regulators, Treasury, and the
Bank’s auditor. According to the indictment, the objectives of the alleged scheme to
defraud were to conceal, delay, and avoid publicly reporting the Bank’s number of
impaired loans and the Bank’s true loan loss. The objective of the alleged scheme
also included misleading investors through false statements and misleading Bank
regulators. The indictment charged that the defendants used a variety of fraudulent
accounting maneuvers and techniques to conceal that they falsified the Bank’s
books and records. As a result, UCB is alleged to have issued false and mislead-
ing public statements and reports regarding its year-end financial condition and
performance. UCB became the first TARP recipient bank to fail when it closed on
November 6, 2009. FDIC estimates that deposit insurance fund losses will be $2.5
billion. Treasury will suffer a complete loss on its more than $298 million TARP
investment.
     The investigation is ongoing. The case is being investigated by SIGTARP, the
United States Attorney’s Office for the Northern District of California, the Federal
Bureau of Investigation (“FBI”), the Office of the Inspector General of the Federal
Deposit Insurance Corporation (“FDIC OIG”), and the Office of the Inspector
General of the Board of Governors of the Federal Reserve System (“FRB OIG”).

Home Owners Protection Economics, Inc.
On August 9, 2011, SIGTARP agents, with its law enforcement partners, arrested
Christopher S. Godfrey, Dennis Fischer, Vernell Burris, Jr., and Brian M. Kelly. On
August 3, 2011, a federal grand jury sitting in the District of Massachusetts returned
an indictment against the four defendants for allegedly perpetrating a fraudulent
home loan modification scam through a company named Home Owners Protection
Economics, Inc. (“HOPE”). The 20-count indictment charges the four with
conspiracy, wire fraud, mail fraud, and misuse of a government seal. Godfrey was
the president and Fischer was the vice president of HOPE. Burris was the manager
and primary trainer of HOPE telemarketers, and Kelly was one of the principal
telemarketers and a trainer for other HOPE telemarketers. Godfrey and Fischer
were charged with one count of conspiracy, nine counts of wire fraud, nine counts
of mail fraud, and one count of misuse of a Government seal. Burris and Kelly were
charged with one count of conspiracy, nine counts of wire fraud, and nine counts of
mail fraud.
18   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                The indictment alleges that, through a series of misrepresentations, the defen-
                                            dants and their employees induced thousands of financially distressed homeowners
                                            to pay HOPE a $400-$900 up-front fee in exchange for HOPE’s home loan modifi-
                                            cations, modification services, and “software licenses.” According to the indictment,
                                            the defendants misrepresented that, with their assistance, homeowners were virtually
                                            guaranteed to receive a loan modification under the Home Affordable Modification
                                            Program (“HAMP”), which is a federally-funded mortgage assistance program imple-
                                            mented under TARP. The indictment alleges further misrepresentations by defen-
                                            dants, including that HOPE was affiliated with the homeowner’s mortgage lender,
                                            that homeowners had been approved for a home loan modification, that homeowners
                                            could stop making mortgage payments while they waited for HOPE to arrange their
                                            loan modification, that HOPE would refund the up-front fee if the modification was
                                            unsuccessful, and that HOPE was a non-profit organization.
                                                The indictment further alleges that, in exchange for homeowners paying the up-
                                            front fees, HOPE sent homeowners a “do-it-yourself” application package that was
                                            nearly identical to the application provided free of charge by the U.S. Government
                                            through HAMP. Through these misrepresentations, it is alleged, HOPE was able to
                                            persuade thousands of homeowners collectively to pay more than $3 million in fees
                                            to HOPE.
                                                This case is being investigated by SIGTARP, the FBI, the United States Attorney’s
                                            Office for the District of Massachusetts, and the Computer Crime and Intellectual
                                            Property Section of the Department of Justice’s Criminal Division.

                                            The Shmuckler Group, LLC
                                            Howard Shmuckler, who was indicted and arrested on November 10, 2010, for
                                            an alleged mortgage modification scam investigated by SIGTARP in partnership
                                            with the Prince George’s County State’s Attorney’s Office in Maryland, has now
                                            been charged in a Federal case. On July 21, 2011, a Federal grand jury sitting in
                                            the Eastern District of Virginia returned an indictment against Howard Shmuckler
                                            for allegedly running a fraudulent mortgage-rescue business that received substan-
                                            tial fees from homeowners but failed to modify their mortgages. Shmuckler was
                                            charged with seven counts of wire fraud. On July 27, 2011, Shmuckler was ar-
                                            rested at his home in Virginia Beach, where he has been under electronic monitor-
                                            ing pending a November 2011 trial on this Maryland state charge.
                                                 According to the Federal indictment, Shmuckler owned and operated a mort-
                                            gage-rescue business known as The Shmuckler Group (“TSG”), which claimed to
                                            be the “largest, most successful group of professionals from the Legal, Banking,
                                            Mortgage, Financing, Real Estate, Government, and International Sector coming
                                            together to help homeowners keep their homes in a manageable and affordable
                                            means.” The indictment alleges that Shmuckler falsely portrayed himself to be
                                            an attorney licensed in Virginia and that he misrepresented that TSG had a 97
                                            percent success rate in obtaining loan modifications. According to the indictment,
                                            Shmuckler also instructed clients to terminate contact with their mortgage compa-
                                            nies and to stop making payments to their lenders.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   19




    The indictment further alleges that false representations by Shmuckler and
TSG employees induced homeowners to pay fees ranging from $2,500 to $25,000,
for $3 million in total proceeds. TSG is alleged to never have facilitated a single
mortgage modification. It is also alleged that the company’s loan modification suc-
cess rate was substantially less than 97 percent. 	
    The case brought in Federal court in Virginia resulted from a joint investigation
conducted by SIGTARP, FBI, the FDIC OIG, and the United States Attorney’s
Office for the Eastern District of Virginia. The case brought in state court in
Maryland resulted from a joint investigation by SIGTARP, the Office of the State’s
Attorney for Prince George’s County, and the Maryland Department of Labor
Licensing and Regulation’s Financial Regulation Division.

HomeFront, Inc.
On October 6, 2011, Lori J. Macakanja pled guilty in the U.S. District Court for
the Western District of New York to mail fraud and theft of government money.
Macakanja was formerly employed as a housing counselor by HomeFront, Inc.
(“HomeFront”), a HUD-approved housing counseling agency in Buffalo, New York.
In her role as a housing counselor, Macakanja unlawfully solicited and received
money from HomeFront clients by falsely claiming that the money would be used
for loan modifications designed to prevent foreclosure on their homes, including
mortgage modifications under HAMP. After receiving the funds, Macakanja used
the money to gamble at casinos and to pay her own mortgage, and failed to obtain
loan modifications for the victims. A total of 136 HomeFront clients were defraud-
ed with losses totaling $300,000. The charges carry a maximum penalty of 20 years
in prison, a fine of $250,000, or both. Macakanja is scheduled to be sentenced on
February 2, 2012.
    As previously reported, on January 29, 2011, a criminal complaint was filed
against Macakanja in the U.S. District Court for the Western District of New York
charging her with mail fraud and falsifying documents in connection with this
scheme to defraud struggling homeowners seeking mortgage modifications.
    This case was investigated by SIGTARP, the U.S. Postal Inspection Service
(“USPIS”), Housing and Urban Development Office of Inspector General (“HUD
OIG”), Internal Revenue Service (“IRS”), U.S. Secret Service (“Secret Service”),
and FBI.

Residential Relief Foundation, LLC
On September 30, 2011, at the request of the Federal Trade Commission (“FTC”),
the U.S. District Court for the District of Maryland shut down the operations
of Residential Relief Foundation (“RRF”); Silver Lining Services, LLC; and
their owners, James Holderness, Bryan Melanson, Michael Valenti, and Jillian
Melanson. The settlement agreement entered into between the FTC and the
defendants bans the defendants from participating in the mortgage assistance relief
and debt relief industries and imposes a judgment of more than $10.5 million
against the defendants, which is the total amount the defendants made through
their deceptive conduct.
20   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As previously reported, the civil complaint filed by the FTC as a result of an in-
                                            vestigation by SIGTARP and the FTC alleged that the defendants violated Federal
                                            law by falsely claiming that they would obtain loan modifications, including under
                                            HAMP, and significantly lower mortgage payments for consumers in return for
                                            upfront fees. Consumers, who were assured quick results and a high success rate,
                                            were charged a $1,495 up-front fee. The complaint also charged the defendants
                                            with misrepresenting an affiliation with the Federal Government, falsely claiming
                                            to have taken reasonable and appropriate measures to protect consumers’ personal
                                            information from unauthorized access, and improperly disposing of consumers’
                                            information in unsecured dumpsters, in violation of the FTC Act. The defendants
                                            engaged in their conduct amid the publicity surrounding the availability of free
                                            mortgage loan assistance and modification programs, including HAMP as imple-
                                            mented under TARP by Treasury.
                                                The settlement agreement also bars the defendants from making misrepre-
                                            sentations about any product or service, including claims about their government
                                            affiliation.
                                                The case was investigated by SIGTARP and the FTC.

                                            SIGTARP Audit Activity
                                            SIGTARP has initiated 28 audits and two evaluations since its inception. SIGTARP
                                            has issued 16 audit reports, including two since the close of the quarter ended June
                                            30, 2011. Among the ongoing audits and evaluations in process are reviews of: (i)
                                            application of the executive compensation criteria used by the Office of the Special
                                            Master for TARP Executive Compensation to determine executive compensation
                                            for seven TARP recipients that received exceptional assistance; (ii) criteria used
                                            by Treasury to select states and programs to receive money under the Hardest Hit
                                            Fund; (iii) reasons for the development of CPP conditional approvals and the role
                                            of the Federal bank regulators; and (iv) application of the HAMP net present
                                            value test.

                                            Recent Audits Released

                                            Legal Fees Paid Under the Troubled Asset Relief Program:
                                            An Expanded Report
                                            On September 28, 2011, SIGTARP released the audit report, “Legal Fees Paid
                                            Under the Troubled Asset Relief Program: An Expanded Report.” Conducted in
                                            response to a request by Senator Tom Coburn, M.D., this report addressed whether
                                            Treasury’s Office of Financial Stability’s (“OFS”) contracting processes for legal
                                            services ensure: (1) contractors submit invoices (“fee bills”) that accurately reflect
                                            the work performed; and (2) contractors charge fair and reasonable prices.
                                                Treasury has paid law firms millions of dollars for professional services related
                                            to TARP. SIGTARP audited Treasury’s processes for contracting for and pay-
                                            ment to five of these law firms. From the inception of TARP to March 31, 2011,
                                            OFS, which administers TARP, paid these five law firms more than $27 million
                                            in fees and expenses. As SIGTARP conducted its audit, it found weaknesses in
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011             21




the contract and fee bills for the law firm Venable, LLP (“Venable”). In light of             For more detail on billing problems that
the magnitude of legal fees that continue to be paid, SIGTARP decided to issue a              SIGTARP found at Venable, LLP, see
report designed to provide OFS an opportunity to quickly strengthen its policies,             the audit report “Treasury’s Process for
controls, and contracts to better protect taxpayers.                                          Contracting for Professional Services
                                                                                              Under TARP,” released on April 14,
    The four law firms covered in the new report were Simpson Thacher & Bartlett
                                                                                              2011, and discussed in SIGTARP’s April
LLP, Cadwalader Wickersham & Taft LLP, Locke Lord Bissell & Liddell LLP,
                                                                                              2011 Quarterly Report to Congress,
and Bingham McCutchen LLP. As of March 31, 2011, OFS paid these four firms
                                                                                              pages 182-185.
more than $25.5 million. SIGTARP took a sample of $9.1 million of these fees and
questioned $8.1 million (89%). SIGTARP found that their fee bills contained either
no descriptions or vague descriptions of work performed, block billing, unsupported
expense charges, and administrative charges that were not allowed under the
contract. As a result, OFS would not have been able to assess adequately the rea-
sonableness of the fees it paid. Although SIGTARP questioned fee bills from all of
the law firms audited, this does not mean that all the fees and expenses SIGTARP
questioned were unreasonable.
    The most striking examples of problematic fee bills were from Simpson
Thacher, which charged OFS $5.8 million in fees and expenses without provid-
ing any description of the work performed and without providing any receipts, or
adequate documentation, for expenses. Although OFS questioned some charges,
resulting in resubmitted bills, it still paid $5.8 million for original and resubmit-
ted bills that had no description of work and no contractually required receipts.
OFS had no way of knowing whether these fees and expenses were allocable to the
contract, and reasonable and allowable as required under Federal acquisition rules.
In addition, OFS overpaid Simpson Thacher $68,936 for its foreign subcontractor,
even though the subcontractor was not preapproved and Simpson Thacher charged
as much as $520 per hour more than the maximum hourly rate under the contract.
    SIGTARP found that OFS’ then-existing legal service contracts and review pro-
cedures at OFS caused it to fall short in comparison to the best practices identified
by SIGTARP and used by other Federal entities. Although SIGTARP concluded
that the OFS process for awarding legal service contracts provided adequate price
competition and that the process complied with Federal acquisition requirements,
SIGTARP found weaknesses in both the OFS contracts with the law firms and
OFS policies for reviewing legal fee bills. The OFS contracts for legal services with
these law firms do not contain sufficiently detailed requirements or instructions on
how law firms should prepare fee bills or how they should describe discrete tasks
within each fee bill. In addition, the OFS employees who reviewed bills were not
given specific standards or instructions on how to review legal fee bills for accuracy
and reasonableness. As a result, in some instances OFS overpaid for legal services.
    The lack of specific, documented invoice review procedures also meant that all
invoices were not subject to the same level or consistency of review. For example,
in reviewing fee bills from the law firms, some OFS employees rejected fee bills
that included labor categories such as “counsel” not included in the contract, while
others approved and paid them. One OFS reviewer paid “counsel” at partner rates
and another paid them at associate rates. SIGTARP also noted that OFS paid for
attorneys billed in labor categories other than those agreed to in the contract and
22   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            task orders. While this may have reduced OFS legal fees, the substitution of labor
                                            categories and rates after contract award was not properly documented in contract
                                            modifications.
                                                 In response to the audit, Treasury neither agreed nor disagreed with SIGTARP’s
                                            recommendations but stated that it is committed to working with SIGTARP.
                                            Treasury also stated in its response that it was well positioned to judge the qual-
                                            ity and value of assistance provided by its contracted legal staff and to ensure that
                                            taxpayer funds were used wisely.
                                                 The Federal regulations require that any fees paid be allocable to the contract,
                                            reasonable, and allowable. The bills that SIGTARP reviewed were well below
                                            industry standard. On one day Treasury received two bills from Simpson Thacher
                                            – one was for $200,000 and one was for $300,000. There is one entry on each
                                            bill listing the contract language on scope of work, with no dates or date ranges,
                                            no timekeepers listed, no individual entries, no listing of how many hours were
                                            involved, and no descriptions of work performed. These are not fixed rate contracts,
                                            but rather hourly contracts that somehow ended up at surprisingly even dollar
                                            figures of $200,000 and $300,000. Given these bills, there was no way for Treasury
                                            to know whether the work was reasonable.

                                            Exiting TARP: Repayment by the Largest Financial Institutions
                                            On September 29, 2011, SIGTARP released the audit report, “Exiting TARP:
                                            Repayment by the Largest Financial Institutions” which examined the process
                                            under which the largest banks, known as SCAP institutions, exited TARP. This
                                            report addressed the extent to which: (1) Treasury maintained a consistent and
                                            transparent role in the TARP repayment process; and (2) Federal banking regula-
                                            tors consistently coordinated and evaluated TARP repayment requests.
                                                Treasury and the Federal banking regulators conducted stress tests that de-
                                            termined the level of capital each bank needed to be strong enough to absorb its
                                            own losses in adverse market conditions so that it would not pull down the entire
                                            financial system. They used the results of those stress tests to set the criteria for
                                            these largest banks to exit TARP. The strongest nine banks immediately exited
                                            TARP, leaving eight in TARP that regulators considered to be weaker, including
                                            Bank of America, Citigroup, PNC, and Wells Fargo. To meet the stress test results,
                                            regulators decided that these banks could expedite a TARP exit by issuing $1 in
                                            new common equity for every $2 in TARP repaid.
                                                SIGTARP found that interagency sharing of data, vigorous debate among regu-
                                            lators, and hard-won consensus increased the amount and improved the quality of
                                            capital that these large banks were required to raise to exit TARP. FDIC was by far
                                            the most persistent in insisting that banks raise more common stock. The checks-
                                            and-balances that resulted from this interagency coordination helped to ensure
                                            that the nation’s largest financial institutions were better capitalized upon exiting
                                            TARP than prior to TARP. However, three aspects of the TARP exit process serve as
                                            important lessons learned from the financial crisis.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   23




•	 First, Federal banking regulators relaxed repayment criteria for banks only weeks
   after the criteria were established, bowing at least in part to a desire to ramp
   back the Government’s stake in financial institutions and to pressure by institu-
   tions seeking a swift TARP exit. Those institutions wanted to avoid executive
   compensation restrictions and the stigma associated with TARP participation.
   The large financial institutions were notably persistent in their efforts to resist
   regulatory demands to issue common stock, seeking instead more creative,
   cheaper, and less sturdy alternatives that provide less short or long term loss
   protection than common stock. Because the regulators failed to adhere to the
   clearly and recently established requirements, the process to review a TARP
   bank’s exit proposal was ad hoc and inconsistent, where only Citigroup met the
   1-for-2 criteria (when it was required to meet 1-for-1).
•	 Second, by not waiting until the institutions were in a position to meet the
   1-for-2 provision entirely with new common stock, there was arguably a missed
   opportunity to further strengthen the quality of each institution’s capital base.
   Concerned about executive compensation restrictions and a lack of market
   confidence that might result from being the last large TARP bank to exit, banks
   successfully convinced regulators that it was the right time to exit TARP, and
   that the market would not support a 1-for-2 common stock issuance.
•	 Third, SIGTARP found that Treasury encouraged TARP banks to expedite re-
   payment, opening Treasury to criticism that it put accelerating TARP repayment
   ahead of ensuring that institutions exiting TARP were sufficiently strong to do
   so safely. Treasury Secretary Timothy F. Geithner told SIGTARP that putting
   pressure on firms to raise private capital was part of a “forceful strategy of rais-
   ing capital early” and “We thought the American economy would be in a better
   position if [the firms] went out and raised capital.” The result was a nearly
   simultaneous exit by Bank of America, Wells Fargo, and Citigroup, involving of-
   ferings of a combined total of $49.1 billion in new common stock in an already
   fragile market.

    The lessons of the financial crisis and the events surrounding TARP repayments
and exit demonstrate the importance of implementing strong capital requirements
and holding institutions strictly accountable to those requirements. Some of the
nation’s largest financial institutions had too little capital before the last crisis,
which not only contributed to the crisis itself but also precipitated the subsequent
bailouts. Banking regulators leveraged TARP repayment requirements to improve
the quality of capital held by the nation’s largest financial institutions in the wake
of the financial crisis, but relaxed those requirements shortly after establishing
them. Whether these institutions exited TARP with a strong and high-quality capi-
tal structure sufficient to absorb their own losses and survive adverse market condi-
tions without further affecting the broader financial system remains to be seen.
    There will always be tension between the protection of the greater financial
system through robust capital requirements and the desire of individual financial
institutions to maximize profits. While striking the right balance is no easy task,
24   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            regulators must remain vigilant against institutional demands to relax requirements
                                            while taking on ever more risk.
                                                In response to the report, the Federal Reserve Board noted that it carefully and
                                            thoroughly analyzed requests to repay TARP and that it put limits on the extent
                                            to which institutions were allowed to substitute asset sales for common equity is-
                                            suance. FDIC did not provide a formal response because unless there are recom-
                                            mendations for agency action or there are factual errors of consequence that FDIC
                                            believes require correction, it does not typically provide a formal written response.
                                            The Office of Comptroller of the Currency (“OCC”) agreed with SIGTARP’s overall
                                            conclusion regarding the importance of implementing strong capital requirements
                                            and holding institutions accountable to such requirements. However, OCC strongly
                                            disagreed with SIGTARP’s conclusion that the repayment process was ad hoc and
                                            inconsistent. OCC also disagreed with SIGTARP’s conclusion that there was a
                                            missed opportunity to further strengthen each institution’s capital base. Treasury
                                            agreed with SIGTARP’s conclusion that interagency coordination improved the
                                            terms of TARP repayment. Treasury also noted that its involvement in the TARP
                                            exit process was motivated by a belief that stabilizing the financial system depended
                                            upon the nation’s largest financial institutions being able to raise private capital
                                            again, and that postponing the common stock offerings could have undermined
                                            investor confidence.

                                            SIGTARP Hotline
                                            One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
                                            Hotline and thus provide a simple, accessible way for the American public to report
                                            concerns, allegations, information, and evidence of violations of criminal and
                                            civil laws in connection with TARP. From its inception in February 2009 through
                                            September 30, 2011, the SIGTARP Hotline has received and analyzed more
                                            than 28,558 Hotline contacts. These contacts run the gamut from expressions
                                            of concern over the economy to serious allegations of fraud involving TARP, and
                                            a substantial number of SIGTARP’s investigations were generated in connection
                                            with Hotline tips. The SIGTARP Hotline can receive information anonymously.
                                            SIGTARP honors all applicable whistleblower protections and will provide con-
                                            fidentiality to the fullest extent possible. SIGTARP urges anyone aware of waste,
                                            fraud or abuse involving TARP programs or funds, whether it involves the Federal
                                            Government, state and local entities, private firms, or individuals, to contact its
                                            representatives at 877-SIG-2009 or www.sigtarp.gov.

                                            Communications with Congress
                                            One of the primary functions of SIGTARP is to ensure that members of Congress
                                            remain adequately and promptly informed of developments in TARP initiatives and
                                            of SIGTARP’s oversight activities. To fulfill that role, the Acting Special Inspector
                                            General and her staff meet regularly with and brief members and Congressional
                                            staff.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                   25




    Additionally, on July 25 and 28, 2011, SIGTARP’s Chief of Staff Mia Levine
presented open-ended briefings for House and Senate staff, respectively. The focus
of each briefing was SIGTARP’s July 2011 Quarterly Report.
    Copies of the written testimony, hearing transcripts, and a variety of other mate-
rials associated with Congressional hearings since SIGTARP’s inception are posted
at www.sigtarp.gov/reports.shtml.


THE SIGTARP ORGANIZATION
                                                                                              FIGURE 1.1
SIGTARP has worked to build its organization through various complementary
strategies, leveraging the resources of other agencies, and, where appropriate                SIGTARP FY 2011
and cost-effective, obtaining services through SIGTARP’s authority to contract.               PROPOSED OPERATING PLAN
                                                                                              ($ MILLIONS, PERCENTAGE OF $39.1 MILLION)
SIGTARP continues to make substantial progress in building its operation.
                                                                                                             Other Services
Hiring                                                                                                             $2.0, 5%
As of September 30, 2011, SIGTARP had 155 personnel, including two detailees
                                                                                              Advisory Services
from FHFA. SIGTARP’s employees hail from many Federal agencies, including                                 $5.1
the Justice Department, FBI, IRS-CI, Air Force Office of Special Investigations,                                  13%
the Government Accountability Office (“GAO”), the Congressional Oversight
                                                                                                                                       Salaries
Panel for TARP, the Transportation Department, the Energy Department, the                                                       55%    and
                                                                                              Interagency      23%
SEC, the Secret Service, USPS, U.S. Army Criminal Investigation Command,                      Agreements
                                                                                                    $9.1                               $21.5
Naval Criminal Investigative Service, Treasury-Office of the Inspector General,
Department of Energy-Office of the Inspector General, Department of
                                                                                                          Travel/
Transportation-Office of the Inspector General, Department of Homeland                             Transportation
Security-Office of the Inspector General, FDIC OIG, Office of the Special                               $1.4, 4%
Inspector General for Iraq Reconstruction, and HUD OIG. SIGTARP employees
also hail from various private-sector businesses and law firms. Hiring is ongo-
ing. The SIGTARP organizational chart, as of October 10, 2011, can be found in                FIGURE 1.2
Appendix I: “Organizational Chart.”                                                           SIGTARP FY 2012
                                                                                              PROPOSED BUDGET
Budget                                                                                        ($ MILLIONS, PERCENTAGE OF $46.6 MILLION)

On February 2, 2010, the Administration submitted to Congress Treasury’s fis-                                Other Services
cal year 2011 budget request, which included SIGTARP’s full initial request for                                   $2.0, 4%
$49.6 million. Public Law 112-10 Continuing Resolution provided $36.2 million
                                                                                                     Advisory Services
to SIGTARP for fiscal year 2011. Figure 1.1 provides a breakdown of SIGTARP’s                                    $3.5
fiscal year 2011 operational budget, which reflects an adjusted total spending plan                                     8%
of $39.1 million. This includes, among other things, portions of SIGTARP’s initial             Interagency
                                                                                               Agreements
funding that have not yet been spent.                                                                $10.6        23%                 Salaries
                                                                                                                              62%
    On February 14, 2011, the Administration submitted to Congress Treasury’s                                                         and
fiscal year 2012 budget request, which included SIGTARP’s funding request for                                                         $29.2
$47.4 million. The fiscal year 2012 House mark and Senate mark both include ap-                    Travel/
                                                                                            Transportation
proximately $41.8 million. Figure 1.2 provides a detailed breakdown of SIGTARP’s                 $1.3, 3%
fiscal year 2012 budget, which reflects a total operating plan of $46.6 million.
26   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Physical and Technical SIGTARP Infrastructure
                                            SIGTARP occupies office space at 1801 L Street, NW, in Washington, DC, the
                                            same office building in which most Treasury officials managing TARP are located.
                                            For more efficient and effective oversight across the nation, SIGTARP has regional
                                            offices in New York City, Los Angeles, San Francisco, and Atlanta.
                                                SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its reports,
                                            testimony, audits, contracts, and more. Since its inception, SIGTARP’s website has
                                            had more than 53 million web “hits,” and there have been more than 3.8 million
                                            downloads of SIGTARP’s quarterly reports, which are available on the site.i




                                            i
                                                In October 2009, Treasury started to encounter challenges with its website counting system, and, as a result, changed to a new system
                                                in January 2010. SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP
                                                as of September 30, 2009, plus an archived number provided by Treasury for October-December 2009 and information generated
                                                from Treasury’s new system from January 2010 through September 2011. Another system that has been introduced counts a different
                                                metric, “page views.” In the quarter ended September 30, 2011, the site recorded 29,009 page views; these are not comparable to
                                                figures from previous quarters.
SECT IO N 2   TARP OVERVIEW
28   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011          29




This section summarizes how the U.S. Department of the Treasury (“Treasury”)
has managed the Troubled Asset Relief Program (“TARP”). This section also
reviews TARP’s overall finances, provides updates on established TARP component
programs, and gives the status of TARP executive compensation restrictions.




TARP FUNDS UPDATE
Because TARP investment authority expired on October 3, 2010, no new
obligations may be made with TARP funds. However, dollars that have already
been obligated to existing programs may still be expended. As of October 3, 2010,           Obligations: Definite commitments
$474.8 billion had been obligated to 13 announced programs. Of the obligated                that create a legal liability for the
amount, as of September 30, 2011, $413.2 billion had been spent and $52.1                   Government to pay funds.
billion remained obligated and available to be spent after accounting for certain
reductions in exposure.1 According to Treasury, as of September 30, 2011, $122.4
billion of TARP funds remained outstanding after accounting for losses and
write-offs.2
     Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3,
2008.3 EESA appropriated $700 billion to “restore liquidity and stability to the
financial system of the United States.”4 On December 9, 2009, the Secretary of the
Treasury (“Treasury Secretary”) exercised the powers granted him under Section
120(b) of EESA and extended TARP through October 3, 2010.5 In accordance
with Section 106(e) of EESA, Treasury may expend TARP funds after October 3,
2010, as long as it does so pursuant to obligations entered into before that date.6
     The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (Public Law 111-203) on July 21, 2010, amended
the timing and amount of TARP funding.7 The upper limit of the Treasury
Secretary’s authority to purchase and guarantee assets under TARP was reduced to
$475 billion from the original $700 billion.
     With the expiration of TARP funding authorization, no new expenditures may
be made through most of the TARP programs because all obligated dollars have
been spent. For three programs — the Making Home Affordable (“MHA”) pro-
gram, the Term Asset-Backed Securities Loan Facility (“TALF”), and the Public-
Private Investment Program (“PPIP”) — dollars that were obligated but unspent as
of October 3, 2010, are available to be spent up to the obligated amount. Table 2.1
provides a breakdown of program obligations, expenditures, and obligations avail-
able to be spent as of September 30, 2011. Table 2.1 lists 10 TARP sub-programs,
instead of all 13, because it excludes the Capital Assistance Program (“CAP”),
which was never funded, and summarizes three programs under “Automotive
Industry Support Programs.”
30   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.1
                                            OBLIGATIONS, EXPENDITURES, AND OBLIGATIONS AVAILABLE TO BE SPENT
                                            ($ BILLIONS)

                                                                                                                                                                       Available
                                                                                                                               Expenditure                          to Be Spent
                                            Program                                               Obligation            (As of 9/30/2011)                   (As of 9/30/2011)
                                            Housing Support Programs                                     $45.6                                 $2.5                             $43.1
                                            Capital Purchase Program                                     204.9                               204.9                                   —
                                            Community Development
                                                                                                             0.6                                 0.2                                  —a
                                            Capital Initiative
                                            Systemically Significant
                                                                                                           69.8                                67.8                                  —
                                            Failing Institutions
                                            Targeted Investment
                                                                                                           40.0                                40.0                                  —
                                            Program
                                            Asset Guarantee Program                                          5.0                                 —                                   —
                                            Term Asset-Backed
                                                                                                             4.3                                 0.1                                4.2
                                            Securities Loan Facility
                                            Public-Private Investment
                                                                                                           22.4                                17.6                                 4.8b
                                            Program
                                            Unlocking Credit for Small
                                                                                                             0.4                                 0.4                                 —
                                            Businesses
                                            Automotive Industry Support
                                                                                                           81.8                                79.7                                  —
                                            Programsc
                                            Total                                                     $474.8                              $413.2                               $52.1d
                                            Notes: Numbers may not total due to rounding. Obligation figures are as of 10/3/2010 and expenditure figures are as of 9/30/2011.
                                            Reductions in exposure were related to the Asset Guarantee Program and to the termination of equity and debt facilities for AIG and
                                            Chrysler, respectively, that were never drawn down.
                                            a
                                              CDCI obligation amount of $570.1 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, $363.3 million
                                              was related to CPP conversions for which no additional CDCI cash was expended and $100.7 million was for new CDCI expenditures
                                              for previous CPP participants. Of the total obligation, only $106 million went to non-CPP institutions.
                                            b
                                                 Total obligation of $22.4 billion and expenditure of $17.6 billion for PPIP includes $356.3 million of the initial obligation to The TCW
                                                 Group, Inc. (“TCW”) that was funded. TCW subsequently repaid the funds that were invested in its PPIF; however, these dollars are
                                                 not included in the amount available to be spent. Invesco terminated its investment period on September 26, 2011, without fully
                                                 drawing down all committed equity and debt.
                                            c
                                               Includes $80.7 billion for Automotive Industry Financing Program, $0.6 billion for Auto Warranty Commitment Program, and $0.4
                                                billion for Auto Supplier Support Program.
                                            d
                                                The $5 billion reduction in exposure under AGP is not included in the expenditure total because this amount was not an actual cash
                                                outlay.

                                            Sources: Treasury, Transactions Report, 10/3/2011, accessed 10/14/2011; Treasury, Daily TARP Update, 10/3/2011, accessed
                                            10/17/2011; Treasury, response to SIGTARP data call, 10/5/2011.




                                            Cost Estimates
                                            Several Government agencies are responsible under EESA for generating cost
                                            estimates for TARP, including the Office of Management and Budget (“OMB”),
                                            the Congressional Budget Office (“CBO”), and Treasury, whose estimated costs are
                                            audited each year by the Government Accountability Office (“GAO”). Beginning
                                            with CBO’s March 2009 cost estimate of a $356 billion loss and OMB’s August
                                            2009 cost estimate of a $341 billion loss, the cost estimates have continued to
                                            decrease.8
                                                On November 15, 2010, Treasury issued its fiscal year audited agency financial
                                            statements for TARP, which contained its cost estimate as of September 30, 2010.
                                            Treasury estimated that the ultimate cost of TARP would be $78 billion, down from
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   31




its previous cost estimates of $101 billion on May 13, 2010, and $105 billion on
March 31, 2010.9
    On February 14, 2011, OMB issued the Administration’s fiscal year 2012
budget proposal, which contained an estimated lifetime cost estimate for TARP
of $48 billion. In calculating the estimate, OMB used data as of November 30,
2010.10 The $48 billion estimate assumes that all housing funds will be spent.
However, in its most recent 105(a) report to Congress, Treasury estimated that as
of June 30, 2011, the ultimate cost of TARP would be $53.2 billion.11
    On March 29, 2011, CBO issued an updated TARP cost estimate based on
its evaluation as of March 3, 2011. In it, CBO estimated that the ultimate cost of
TARP would be $19 billion.12
    The most recent TARP program cost estimates from each agency are listed in
Table 2.2.
    According to Treasury, the highest losses from TARP are expected to come
from housing programs and from assistance to AIG and the automotive industry.13
A notable difference exists between CBO’s estimate for TARP housing programs,
which assumes that only $13 billion of the $46 billion obligated will be spent, and
Treasury’s and OMB’s assertions that all of the obligated funds will be expended.14
32   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.2
                                            COST (GAIN) OF TARP PROGRAMS                               ($ BILLIONS)

                                                                                                                                                       Treasury Estimate,
                                                                                       OMB Estimate,                                                        TARP Audited
                                                                                  President’s FY 2012                                                    Agency Financial
                                            Program Name                                       Budget                        CBO Estimate                      Statement
                                                Report issued:                               2/14/2011                          3/29/2011                       11/15/2010
                                                Data as of:                                 11/30/2010                           3/3/2011                        9/30/2010
                                            Housing Support
                                                                                                          $46                               $13                                  $46
                                            Programs
                                            CPP                                                             (6)                             (16)                                 (11)
                                            SSFI                                                            12                                14                                  37
                                            TIP and AGP                                                     (7)                               (7)                                 (8)
                                            TALF                                                              0                                 0                                  0
                                            PPIP                                                              0                                 0                                 (1)
                                            Automotive Industry
                                                                                                            20                                14                                  15
                                            Support Programsa
                                            Otherb                                                            *                                 *                                  *
                                            Total                                                         $65                             $19   c
                                                                                                                                                                            $78d
                                            Interest on Reestimates        e
                                                                                                          (16)

                                            Adjusted Total                                               $48d
                                            Notes: Numbers may not total due to rounding.
                                            a
                                              Includes AIFP, ASSP, and AWCP.
                                            b
                                               Consists of CDCI and UCSB, both of which have estimated costs between negative $500 million and $500 million.
                                            c
                                              The estimate is before administrative costs and interest effects.
                                            d
                                               The estimate includes interest on reestimates but excludes administrative costs.
                                            e
                                              Cumulative interest on reestimates is an adjustment for interest effects on changes in TARP subsidy costs from original subsidy
                                              estimates; such amounts are a component of the deficit impacts of TARP programs but are not a direct programmatic cost.

                                            Sources: OMB Estimate—OMB, “Analytical Perspectives, Budget of the United States Government, Fiscal Year 2012,” 2/14/2011,
                                            www.whitehouse.gov/sites/default/files/omb/budget/ fy2012/assets/spec.pdf, accessed 10/17/2011; CBO Estimate—CBO,
                                            “Report on the Troubled Asset Relief Program–March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf,
                                            accessed 10/17/2011; Treasury Estimate—Treasury, “Office of Financial Stability Agency
                                            Financial Report–Fiscal Year 2010,” 9/30/2010, http://www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_
                                            reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/24/2011.




                                            FINANCIAL OVERVIEW OF TARP
                                            The Dodd-Frank Act reduced TARP’s maximum investment authority from $698.8
                                            billion to $475 billion.15 The $698.8 billion represented the initial $700 billion
                                            authorized for TARP by EESA less a $1.2 billion reduction as a result of the
                                            Helping Families Save Their Homes Act of 2009.16 Treasury has obligated $474.8
                                            billion of the $475 billion. Of the total obligations, $413.2 billion was expended as
                                            of September 30, 2011, through 13 announced programs intended to support U.S.
                                            financial institutions, companies, and individual mortgage borrowers.17
                                                 According to Treasury, as of September 30, 2011, 266 TARP recipients had
                                            paid back all of their principal or repurchased shares and 19 TARP recipients
                                            had partially repaid their principal or repurchased their shares, for a total of
                                            $276.3 billion.18 According to Treasury, as of that date, $122.4 billion of TARP
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                 33




funds remained outstanding, including losses and write-offs. There remains                       FIGURE 2.1
approximately $52.1 billion still available to be spent.19 Figure 2.1 provides a
                                                                                                 CUMULATIVE TARP OBLIGATIONS,
snapshot of the cumulative obligations, expenditures, repayments, and exposure                   EXPENDITURES, AND REPAYMENTS
reductions as of September 30, 2011. According to Treasury, as of September 30,                  ($ BILLIONS)

2011, the Government had also collected $39.8 billion in interest, dividends, and               $500
other income, including $9.1 billion in proceeds from the sale of warrants and                            $474.8
stock received as a result of exercised warrants.20                                              400
                                                                                                                                $413.2
     Most of the outstanding TARP money is in the form of equity ownership in
                                                                                                 300
troubled, or previously troubled, companies. Treasury (and therefore the taxpayer)
remains a shareholder in companies that have not repaid the Government.                          200
                                                                                                                                                    $276.3
Treasury’s equity ownership is largely in two forms — common and preferred
stock — although it also has received debt in the form of senior subordinated                    100
debentures.
     As of September 30, 2011, obligated funds totaling $52.1 billion were                          0
                                                                                                        TARP                 TARP                TARP
still available to be drawn down by TARP recipients under three of TARP’s 13                            Obligations          Expendituresa       Repaymentsb
announced programs.21 TARP’s component programs fall into four categories,
                                                                                                 Notes: Numbers may not total due to rounding. Obligations
depending on the type of assistance offered:                                                     reported as of 10/3/2010. Expenditures and repayments and
                                                                                                 reductions in exposure reported as of 9/30/2011.
                                                                                                 a
                                                                                                   Expenditure total does not include $5 billion for AGP as this
•	 Housing Support Programs — These programs are intended to help                                b
                                                                                                   amount was not an actual cash outlay.
                                                                                                   Repayments include $184.9 billion for CPP, $40 billion for
   homeowners who are having trouble making their mortgage payments by                             TIP, $35.2 billion for auto programs, $1.3 billion for PPIP, and
                                                                                                   $15 billion for SSFI. The $15 billion payment for SSFI includes
   subsidizing loan modifications, loan servicer costs, potential equity declines, and             amounts applied to (i) pay accrued preferred returns and (ii)
                                                                                                   redeem the outstanding liquidation amount.
   incentives for foreclosure alternatives.
                                                                                                 Sources: Treasury, Transactions Report, 10/3/2011; Treasury,
•	 Financial Institution Support Programs — These programs share a common                        response to SIGTARP data call, 10/14/2011.

   stated goal of stabilizing financial markets and improving the economy.
•	 Asset Support Programs — These programs attempt to support asset values
   and market liquidity by providing funding to certain holders or purchasers of
   assets.
•	 Automotive Industry Support Programs — These programs are intended to
   stabilize the U.S. automotive industry and promote market stability.

Housing Support Programs
The stated purpose of TARP’s housing support programs is to help homeowners
and financial institutions that hold troubled housing-related assets. Although
Treasury originally committed to use $50 billion in TARP funds for these programs,


 Common Stock: Equity ownership entitling     Preferred Stock: Equity ownership that         Senior Subordinated Debentures: Debt
 an individual to share in corporate          usually pays a fixed dividend before           instrument ranking below senior debt but
 earnings and voting rights.                  distributions for common stock owners          above equity with regard to investors’
                                              but only after payments due to debt            claims on company assets or earnings.
                                              holders and depositors. It typically confers
                                              no voting rights. Preferred stock also
                                              has priority over common stock in the
                                              distribution of assets when a bankrupt
                                              company is liquidated.
34   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            it obligated only $45.6 billion.22 As of September 30, 2011, $2.5 billion, or 5.4% of
                                            this amount, has been expended.

                                            •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                               umbrella program for Treasury’s foreclosure mitigation efforts is intended to
                                               “help bring relief to responsible homeowners struggling to make their mortgage
                                               payments, while preventing neighborhoods and communities from suffering
                                               the negative spillover effects of foreclosure, such as lower housing prices,
                                               increased crime, and higher taxes.”23 MHA, for which Treasury has obligated
                                               $29.9 billion of TARP funds, consists of the Home Affordable Modification
                                               Program (“HAMP”), which modifies first-lien mortgages to reduce payments,
                                               the Federal Housing Administration (“FHA”) HAMP loan modification option
                                               for FHA-insured mortgages (“Treasury/FHA-HAMP”), the U.S. Department of
                                               Agriculture Office of Rural Development (“RD”) HAMP (“RD-HAMP”), the
                                               Home Affordable Foreclosure Alternatives (“HAFA”) program, and the Second
                                               Lien Modification Program (“2MP”).24 HAMP in turn encompasses various
                                               initiatives in addition to the modification of first-lien mortgages, including,
                                               the Home Price Decline Protection (“HPDP”) program, the Home Affordable
                                               Unemployment Program (“UP”), and the Principal Reduction Alternative
                                               (“PRA”) program.25 Additionally, the overall MHA obligation of $29.9 billion
                                               includes $2.7 billion to support the Treasury/FHA Second-Lien Program
                                               (“FHA2LP”), which complements the FHA Short Refinance program (discussed
                                               later) and is intended to support the extinguishment of second-lien loans.26
                                                   As of September 30, 2011, MHA had expended $2.5 billion of TARP
                                               money.27 Total expenditures in incentives and payments for HAFA were $68.9
                                               million in connection with 18,557 deed-in-lieu and short sale transactions.
                                               Expenditures in incentives and payments for 2MP were $50.4 million in
                                               connection with 6,332 full extinguishments, 1,597 partial extinguishments,
                                               and 37,776 permanent modifications of second-liens.28 As of September 30,
                                               2011, there were 340,300 active permanent first-lien modifications under
                                               the completed TARP-funded portion of HAMP, an increase of 40,966 active
                                               permanent modifications over the past quarter.29 For more detailed information,
                                               including participation numbers for each of the MHA programs and
                                               subprograms, see the “Housing Support Programs” discussion in this section.
                                            •	 FHA Short Refinance Program — Treasury has allocated $8.1 billion of
                                               TARP funding to this program to purchase a letter of credit to provide loss
                                               protection on refinanced first-liens. Additionally, to facilitate the refinancing of
                                               non-FHA mortgages into new FHA-insured loans under this program, Treasury
                                               has allocated approximately $2.7 billion in TARP funds for incentive payments
                                               to servicers and holders of existing second-liens for full or partial principal
                                               extinguishments under the related FHA2LP; these funds are part of the overall
                                               MHA funding of $29.9 billion, as noted above.30 As of September 30, 2011,
                                               there have been 334 refinancings under the program.31 For more detailed
                                               information, see the “Housing Support Programs” discussion in this section.
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011               35




•	 Housing Finance Agency (“HFA”) Hardest-Hit Fund (“HHF”) — The
   stated purpose of this program was to provide TARP funds to create “measures
   to help families in the states that have been hit the hardest by the aftermath
   of the burst of the housing bubble.”32 Treasury obligated $7.6 billion for this
   program in four increments: an initial amount of $1.5 billion made available
   on June 23, 2010; a second amount of $600 million made available on August
   3, 2010; a third amount of $2 billion made available on September 23, 2010;
   and a final amount of $3.5 billion made available on September 29, 2010.33
   As of September 30, 2011, $655.4 million had been drawn down by the states
   from the Hardest-Hit Fund, which includes funds for program expenses (direct
   assistance to borrowers), administrative expenses and cash-on-hand.34 For more
   detailed information, see the “Housing Support Programs” discussion in this
   section.                                                                                      Systemically Significant Institutions:
                                                                                                 Term referring to any financial
Financial Institution Support Programs                                                           institution whose failure would impose
Treasury primarily invests capital directly into the financial institutions it aids. For         significant losses on creditors and
TARP purposes, financial institutions included banks, bank holding companies,                    counterparties, call into question the
and, if deemed critical to the financial system, some systemically significant                   financial strength of similar institutions,
institutions.35                                                                                  disrupt financial markets, raise
                                                                                                 borrowing costs for households and
•	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly                               businesses, and reduce household
   purchased preferred stock or subordinated debentures in qualifying financial                  wealth.
   institutions (“QFIs”).36 CPP was intended to provide funds to “stabilize and
   strengthen the U.S. financial system by increasing the capital base of an                     Qualifying Financial Institutions (“QFIs”):
   array of healthy, viable institutions, enabling them [to] lend to consumers and               Private and public U.S.-controlled
   business[es].”37 Treasury invested $204.9 billion in 707 institutions through                 banks, savings associations, bank
   CPP, which closed to new funding on December 29, 2009. As of September 30,                    holding companies, certain savings
   2011, Treasury had received $184.9 billion (or 90.2% of Treasury’s expenditures               and loan holding companies, and
   under CPP) in principal repayments and proceeds from sales of common                          mutual organizations.
   stock.38 Of the repaid amount, $355.7 million comes from the principal that
   was converted from CPP investments into CDCI investments and therefore still                  Community Development Financial
   represents outstanding obligations to TARP.39 In addition, 137 institutions have              Institutions (“CDFIs”): Financial
   refinanced their outstanding CPP investment into the Small Business Lending                   institutions eligible for Treasury funding
   Fund (“SBLF”). Treasury continues to manage its portfolio of CPP investments,                 to serve urban and rural low-income
   including, for certain struggling institutions, converting its preferred equity               communities through the CDFI Fund.
   ownership into a more junior form of equity ownership, often at a discount to                 CDFIs were created in 1994 by the
   par value (which may result in a loss) in an attempt to preserve some value that              Riegle Community Development and
   might be lost if these institutions were to fail. For more detailed information, see          Regulatory Improvement Act. These
   the “Capital Purchase Program” discussion in this section.                                    entities must be certified by Treasury;
•	 Community Development Capital Initiative (“CDCI”) — Under CDCI,                               certification confirms that they target
   Treasury used TARP money to buy preferred stock in or subordinated debt from                  at least 60% of their lending and other
   Community Development Financial Institutions (“CDFIs”). Treasury intended                     economic development activities
   for CDCI to “improve access to credit for small businesses in the country’s                   to areas underserved by traditional
   hardest-hit communities.”40 Under CDCI, TARP made capital investments                         financial institutions.
   in the preferred stock or subordinated debt of eligible banks, bank holding
36   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                               companies, thrifts, and credit unions.41 Eighty-four institutions have received
                                               $570.1 million in funding under CDCI.42 However, 28 of these institutions
                                               converted their existing CPP investment into CDCI ($363.3 million of the
                                               $570.1 million) and ten of those that converted received combined additional
                                               funding of $100.7 million under CDCI.43 Only $106 million of CDCI money
                                               went to institutions that were not already TARP recipients.
                                            •	 Small Business Lending Fund (“SBLF”) — On September 27, 2010, the
                                               President signed into law the Small Business Jobs Act of 2010, which created
                                               the SBLF with a $30 billion authorization. The Administration intends for
                                               the fund to stimulate small-business lending.44 Under SBLF, Treasury invests
                                               capital in banks and other financial institutions with less than $10 billion in
                                               assets in return for preferred shares or debt instruments, in a manner similar to
                                               that followed under CPP and CDCI, albeit with incentives to increase certain
                                               types of lending and with fewer governance provisions.45 On December 20,
                                               2010, Treasury published terms under which CPP and CDCI recipients are
                                               permitted to refinance into SBLF.46 Although this program operates outside of
                                               TARP, many TARP recipients converted their investments from CPP to SBLF
                                               and thus will benefit from lower dividend rates, non-cumulative dividends,
                                               and the removal of rules on executive compensation and luxury expenditures.47
                                               Treasury’s authority to make SBLF investments expired on September 27,
                                               2011. As of that date, it had received 935 applications, of which 320 were from
                                               existing TARP recipients (which includes 315 CPP participants and 5 CDCI
                                               participants). According to Treasury, it provided a total of $4.03 billion in SBLF
                                               funding to 332 institutions, including 137 CPP participants.48 For more detailed
                                               information, see the “Small-Business Lending Initiatives” discussion in this
                                               section.
                                            •	 Systemically Significant Failing Institutions (“SSFI”) Program — SSFI
                                               enabled Treasury to invest in systemically significant institutions to prevent
                                               them from failing.49 Only one firm received SSFI assistance: American
                                               International Group, Inc. (“AIG”). There were two TARP investments in AIG.
                                               On November 25, 2008, Treasury bought $40 billion of AIG’s preferred stock,
                                               the proceeds of which were used to repay a portion of AIG’s debt to the Federal
                                               Reserve Bank of New York (“FRBNY”). Then, on April 17, 2009, Treasury
                                               obligated approximately $29.8 billion to an equity capital facility that AIG was
                                               allowed to draw on as needed.50
                                                   On January 14, 2011, AIG executed its previously announced
                                               Recapitalization Plan with Treasury, FRBNY, and the AIG Credit Facility Trust
                                               (“AIG Trust”). According to Treasury, the intent of the restructuring was to
                                               facilitate the repayment of AIG’s government loans and investments.51 Under
                                               the Recapitalization Plan, AIG fully repaid FRBNY’s revolving credit facility,
                                               purchased the remainder of FRBNY’s preferred equity interests in two AIG
                                               subsidiaries (which it then transferred to Treasury), and Treasury converted its
                                               preferred stock holdings (along with the preferred stock holdings held by the
                                               AIG Trust) into an approximately 92% common equity ownership stake in AIG.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011          37




   The three main steps of the Recapitalization Plan are briefly described below.
    çç AIG repaid and terminated its revolving credit facility with FRBNY with
        cash proceeds that it had received from sales of equity interests in two
        companies: American International Assurance Co., Ltd. (“AIA”) and
        American Life Insurance Company (“ALICO”).52
    çç AIG applied cash proceeds from the AIA IPO and ALICO sale to retire a
        portion of the FRBNY’s preferred interests in the special purpose vehicle
        (“SPV”) that held ALICO.53 AIG next drew down an additional $20.3 billion            Special Purpose Vehicle (“SPV”): Off-
        in available TARP funds from the equity capital facility to repurchase the           balance-sheet legal entity that holds
        remainder of the FRBNY’s preferred interests in the ALICO SPV and all                transferred assets presumptively
        of the FRBNY’s preferred interests in the AIA SPV. AIG then transferred              beyond the reach of the entities
        the preferred interests to Treasury. AIG designated its remaining $2 billion         providing the assets, and is legally
        TARP equity capital facility to a new Series G standby equity commitment             isolated.
        available for general corporate purposes, which has been subsequently
        terminated without drawdown.54                                                       Senior Preferred Stock: Shares that
    çç AIG issued common stock in exchange for the preferred shares held by                  give the stockholder priority dividend
        Treasury and the AIG Trust. The conversion of the TARP preferred stock               and liquidation claims over junior
        increased the Government’s total common equity ownership in AIG from                 preferred and common stockholders.
        79.8% to approximately 92.1%.55
    On May 27, 2011, Treasury sold 200 million shares of AIG’s common stock                  Illiquid Assets: Assets that cannot be
for $5.8 billion in proceeds, which decreased Treasury’s equity ownership to 77%.            quickly converted to cash.
For more detailed information on the Recapitalization Plan, the sale of AIG com-
mon stock, and other AIG transactions, see the “Systemically Significant Failing             Trust Preferred Securities (“TRUPS”):
Institutions Program” discussion in this section.                                            Securities that have both equity and
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in                   debt characteristics, created by
   financial institutions it deemed critical to the financial system.56 There were two       establishing a trust and issuing debt
   expenditures under this program, totaling $40 billion — the purchases of $20              to it.
   billion each of senior preferred stock in Citigroup Inc. (“Citigroup”) and Bank
   of America Corp. (“Bank of America”).57 Treasury also accepted common stock
   warrants from each, as required by EESA. Both banks fully repaid Treasury
   for its TIP investments.58 Treasury auctioned its Bank of America warrants on
   March 3, 2010, and auctioned its Citigroup warrants on January 25, 2011.59
   For more information on these two transactions, see the “Targeted Investment
   Program and Asset Guarantee Program” discussion in this section.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide
   insurance-like protection for a select pool of mortgage-related or similar
   assets held by participants whose portfolios of distressed or illiquid assets
   threatened market confidence.60 Treasury, the Federal Deposit Insurance
   Corporation (“FDIC”), and the Federal Reserve offered certain loss protections
   in connection with $301 billion in troubled Citigroup assets.61 In exchange for
   providing the loss protection, Treasury received $4 billion of preferred stock
   that was later converted to trust preferred securities (“TRUPS”) on a dollar-for-
   dollar basis. The FDIC received $3 billion of preferred stock that was similarly
   converted.62 On December 23, 2009, in connection with Citigroup’s TIP
   repayment, Citigroup and the Government terminated the AGP agreement.
38             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Under the agreement, Treasury’s guarantee commitment was terminated with
                                                         no loss to the Government. In addition, Treasury agreed to cancel $1.8 billion
                                                         of the TRUPS issued by Citigroup, reducing the amount of preferred stock from
                                                         $4 billion to $2.2 billion, in exchange for early termination of the guarantee.
                                                         Additionally, the FDIC and Treasury agreed that at the close of Citigroup’s
                                                         participation in the FDIC’s Temporary Liquidity Guarantee Program, the FDIC
                                                         will transfer to Treasury $800 million of TRUPS that it retained as a premium,
                                                         if no loss is suffered.63 On September 30, 2010, Treasury announced the sale
                                                         of all of its TRUPS for $2.2 billion in gross proceeds, which represents a profit
                                                         to taxpayers.64 On January 25, 2011, Treasury auctioned for $67.2 million the
                                                         warrants it had received from Citigroup under AGP.65 For more information
                                                         on this program, see the “Targeted Investment Program and Asset Guarantee
                                                         Program” discussion in this section.

                                                      Asset Support Programs
                                                      The stated purpose of these programs was to support the liquidity and market value
                                                      of assets owned by financial institutions. These assets included various classes of
     Asset-Backed Securities (“ABS”): Bonds
                                                      asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
     backed by a portfolio of consumer
                                                      programs sought to bolster the balance sheets of financial firms and help free
     or corporate loans, e.g., credit card,
                                                      capital so that these firms could extend more credit to support the economy.
     auto, or small-business loans. Financial
     companies typically issue ABS backed
                                                      •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was
     by existing loans in order to fund new
                                                         originally designed to increase credit availability for consumers and small
     loans for their customers.
                                                         businesses through a $200 billion Federal Reserve loan program. TALF provided
                                                         investors with non-recourse loans secured by certain types of ABS, including
     Commercial Mortgage-Backed
                                                         credit card receivables, auto loans, equipment loans, student loans, floor
     Securities (“CMBS”): Bonds backed by
                                                         plan loans, insurance-premium finance loans, loans guaranteed by the Small
     one or more mortgages on commercial
                                                         Business Administration (“SBA”), residential mortgage servicing advances, and
     real estate (e.g., office buildings, rental
                                                         commercial mortgage-backed securities (“CMBS”).66 TALF closed to new loans
     apartments, hotels).
                                                         in June 2010.67 TALF ultimately provided $71.1 billion in Federal Reserve
                                                         financing. Of that amount, $11.3 billion remained outstanding as of September
                                                         30, 2011.68 FRBNY facilitated 13 TALF subscriptions of non-mortgage-related
                                                         ABS over the life of the program totaling approximately $59 billion, with $8.8
                                                         billion of TALF borrowings outstanding as of September 30, 2011.69 FRBNY
                                                         also conducted 13 CMBS subscriptions totaling $12.1 billion, with $2.5 billion
                                                         in loans outstanding as of September 30, 2011.70 Treasury originally obligated
                                                         $20 billion of TARP funds to support this program by providing loss protection
                                                         to the loans extended by FRBNY in the event that a borrower surrendered the
                                                         ABS collateral and walked away from the loan.71 As of September 30, 2011,
                                                         there had been no surrender of collateral.72 In July 2010, Treasury reduced its
                                                         obligation for TALF to $4.3 billion based on the amount of loans outstanding
                                                         at the end of the active lending phase of the program in June 2010.73 As of
                                                         September 30, 2011, $1.9 million in TARP funds had been allocated under
                                                         TALF for administrative expenses.74 For more information on these activities,
                                                         see the “TALF” discussion in this section.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011              39




•	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
   credit markets by using a combination of private equity, matching Government
   equity, and Government debt to purchase legacy securities, i.e., CMBS and non-
   agency residential mortgage-backed securities (“non-agency RMBS”).75 Under
   the program, eight Public-Private Investment Funds (“PPIFs”) managed by                  Legacy Securities: Real estate-related
   private asset managers invested in non-agency RMBS and CMBS. Treasury has                securities originally issued before
   obligated $22.4 billion in TARP funds to the program which was subsequently              2009 that remained on the balance
   decreased to $21.6 billion after Invesco terminated its investment period.76 As          sheets of financial institutions because
   of September 30, 2011, the current PPIFs had drawn down $17.2 billion in                 of pricing difficulties that resulted from
   debt and equity financing from Treasury funding out of the total obligation,             market disruption.
   which includes $1.3 billion that has been repaid.77 As the PPIFs continue
   to make purchases, they will continue to have access to draw down the                    Non-Agency Residential Mortgage-
   remaining funding through the end of their respective investment periods, the            Backed Securities (“non-agency
   last of which will expire in December 2012.78 Following the expiration of the            RMBS”): Financial instrument backed
   investment period, the fund managers will have five years to manage and sell off         by a group of residential real estate
   the investment portfolio in the PPIF and return proceeds to private investors            mortgages (i.e., home mortgages for
   and taxpayers. This period may be extended up to a maximum of two years. For             residences with up to four dwelling
   details about the program structure and fund-manager terms, see the “Public-             units) not guaranteed or owned by
   Private Investment Program” discussion in this section.                                  a Government-sponsored enterprise
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business                            (“GSE”) or a Government Agency.
   Administration (“SBA”) Loan Support Initiative — In March 2009, Treasury
   officials announced that Treasury would buy up to $15 billion in securities              SBA Pool Certificate: Ownership
   backed by SBA loans under UCSB.79 Treasury entered into agreements with                  interest in a bond backed by SBA
   two pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay           guaranteed loans.
   Financial Services, Inc. (“Shay Financial”).80 Under the agreements, Treasury’s
   agent, EARNEST Partners, purchased SBA pool certificates from Coastal
   Securities and Shay Financial without confirming to the counterparties that
   Treasury was the buyer.81 Treasury obligated a total of $400 million for UCSB
   and made purchases of $368.1 million in securities under the program. On June
   2, 2011, Treasury announced its intention to sell the securities over time. As of
   September 30, 2011, Treasury had completed sales of a total of 16 SBA 7(a)
   securities for gross proceeds of $213.6 million.82 For more information on the
   program, see the discussion of “Unlocking Credit for Small Businesses/Small
   Business Administration Loan Support” in this section.

Automotive Industry Financing Program (“AIFP”)
TARP’s automotive industry support through AIFP aimed to “prevent a significant
disruption of the American automotive industry, which would pose a systemic
risk to financial market stability and have a negative effect on the economy of the
United States.”83
    Through AIFP, Treasury made emergency loans to Chrysler Holding LLC
(“Chrysler”), Chrysler Financial Services Americas LLC (“Chrysler Financial”),
and General Motors Company (“GM”). Additionally, Treasury bought senior
preferred stock from GMAC Inc. (“GMAC”), which was later renamed Ally
Financial Inc. (“Ally Financial”), and assisted Chrysler and GM during their
40   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            bankruptcy restructurings. Treasury obligated $84.8 billion to AIFP, then reduced
                                            the total obligation to $81.8 billion (including approximately $2.1 billion in loan
                                            commitments to New Chrysler that were never drawn down).84 As of September
                                            30, 2011, $79.7 billion had been disbursed through AIFP and Treasury had
                                            received $35.3 billion in principal repayments, preferred stock redemptions,
                                            and stock sale proceeds. As of September 30, 2011, Treasury had received
                                            approximately $22.4 billion related to its GM investment, $7.6 billion related to its
                                            Chrysler investment, $2.7 billion related to its Ally Financial/GMAC investment,
                                            and $1.5 billion related to its Chrysler Financial investment. As of September 30,
                                            2011, Treasury had also received approximately $4.4 billion in dividends, interest,
                                            and fees under AIFP and its two subprograms, ASSP and AWCP.85
                                                With respect to AIFP support to GM, in return for a total of $49.5 billion
                                            in loans, Treasury received $6.7 billion in debt in GM (which was subsequently
                                            repaid), in addition to $2.1 billion in preferred stock and a 60.8% common equity
                                            stake.86 A separate $985.8 million loan was left behind with Old GM for wind-
                                            down costs associated with its liquidation, for which Treasury was granted an
                                            allowed administrative expense once Old GM’s Plan of Liquidation went into effect
                                            on March 31, 2011.87 On December 2, 2010, GM closed an initial public offering
                                            (“IPO”) in which Treasury sold a portion of its ownership stake for $18.1 billion in
                                            gross proceeds, reducing its ownership percentage to 33.3% (an amount that could
                                            be diluted should GM’s bondholders or the United Auto Workers Retiree Medical
                                            Benefits Trust exercise warrants they received).88 On December 15, 2010, GM
                                            repurchased the $2.1 billion in preferred stock from Treasury. As of September 30,
                                            2011, Treasury had received $22.4 billion in principal repayments, preferred stock
                                            redemptions, and proceeds from the sale of common stock from GM, including
                                            approximately $110.9 million in repayments related to its right to recover proceeds
                                            from Old GM.89
                                                With respect to AIFP support to Chrysler, Treasury provided $12.5 billion in
                                            loan commitments to Chrysler, Inc. (“Old Chrysler”), and Chrysler Group LLC
                                            (“New Chrysler”), of which $2.1 billion was never drawn down.90 Treasury also
                                            received a 9.9% equity stake, which was diluted to 8.6% in April 2011 after Fiat
                                            increased its ownership interest by meeting certain performance metrics. Upon
                                            full repayment of New Chrysler’s TARP debt obligations on May 24, 2011, Fiat
                                            simultaneously exercised an equity call option, which increased its stake in New
                                            Chrysler to 46% from 30%. As a result, Treasury’s equity stake in New Chrysler
                                            was diluted and further decreased to 6.6%.91 On July 21, 2011, Treasury sold
                                            to Fiat for $500 million Treasury’s remaining equity ownership interest in New
                                            Chrysler.92 Treasury also sold to Fiat for $60 million Treasury’s rights to receive
                                            proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust
                                            pertaining to the trust’s shares in New Chrysler.93 Treasury retains the right to
                                            recover certain proceeds from Old Chrysler’s bankruptcy.
                                                With respect to AIFP support to Ally Financial, Treasury invested a total of
                                            $17.2 billion. On December 30, 2010, Treasury’s investment was restructured
                                            to provide for a 73.8% common equity stake, $2.7 billion in TRUPS (including
                                            amounts received in warrants that were immediately converted into additional
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   41




securities), and $5.9 billion in mandatorily convertible preferred shares.94 Treasury
sold the $2.7 billion in TRUPS on March 2, 2011.95 On March 31, 2011, Ally
Financial announced that it had filed a registration statement with the Securities
and Exchange Commission (“SEC”) for a proposed initial public offering of
common stock owned by Treasury. On May 17, 2011, June 3, 2011, June 29,
2011, and August 18, 2011, Ally Financial disclosed additional details about its
upcoming IPO in amended registration statements filed with the SEC. Concurrent
with the IPO, Treasury plans to convert $2.9 billion of its existing $5.9 billion of
mandatorily convertible preferred shares (“MCP”) into common stock.96 Treasury
will exchange the remaining $3 billion of its MCP into so-called tangible equity
units, a type of preferred stock, and will offer a portion of these tangible equity
units alongside the common equity offering.97
    Treasury provided a $1.5 billion loan to Chrysler Financial, which was fully
repaid with interest in July 2009.98
    For details on assistance to these companies, see the “Automotive Industry
Support Programs” discussion in this section.
    AIFP also included two subprograms:

•	 Auto Supplier Support Program (“ASSP”) — According to Treasury, this
   program was intended to provide auto suppliers “with the confidence they
   need to continue shipping their parts and the support they need to help access
   loans to pay their employees and continue their operations.”99 The original
   allocation of $5 billion was reduced to $3.5 billion — $1 billion for Chrysler
   and $2.5 billion for GM.100 Of the $3.5 billion available, only $413.1 million
   was borrowed.101 After purchasing substantially all of the assets of Old GM and
   Old Chrysler, New GM and New Chrysler assumed the debts associated with
   ASSP.102 After repayment of all funds expended under ASSP, along with $115.9
   million in interest, fees, and other income, ASSP ended on April 5, 2010, for
   GM and on April 7, 2010, for Chrysler.103 For more information, see the “Auto
   Supplier Support Program” discussion in this section.
•	 Auto Warranty Commitment Program (“AWCP”) — This program was
   designed to bolster consumer confidence by guaranteeing Chrysler and GM
   vehicle warranties during the companies’ restructuring through bankruptcy. It
   ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million with
   interest and GM repaid just the principal — $360.6 million — of its loan.104 For
   more information, see the “Auto Warranty Commitment Program” discussion in
   this section.

   The following tables and figures summarize the status of TARP and
42   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TARP-related initiatives:

                                            •	 Table 2.3 — total funds subject to SIGTARP oversight as of September 30,
                                               2011
                                            •	 Table 2.4 — obligations/expenditures by program as of September 30, 2011
                                            •	 Table 2.5 and Table 2.6 — summary of TARP terms and agreements
                                            •	 Table 2.7 — summary of largest warrant positions held by Treasury, by program,
                                               as of September 30, 2011
                                            •	 Table 2.8 — summary of dividends, interest payments, and fees received, by
                                               program, as of September 30, 2011
                                               For a report of all TARP purchases, obligations, expenditures, and revenues, see
                                            Appendix C: “Reporting Requirements.”
                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                           43




TABLE 2.3
TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 9/30/2011                                                              ($ BILLIONS)
NUMBERS IN PARENTHESES REPRESENT REPAYMENTS AND REDUCTIONS IN EXPOSURE AS OF 9/30/2011

                                                                                                                                                                                        Total             TARP
Program                                                    Brief Description or Participant
                                                                                                                                                                                     Funding            Funding

Capital Purchase Program (“CPP”)                                                                                                                                                       $204.9             $204.9
                                                           Investments in 707 banks; received $184.9 billion in capital repayments
CLOSED                                                                                                                                                                               ($184.9)           ($184.9)
Automotive Industry Financing Program                      GM, Chrysler, Ally Financial Inc. (formerly GMAC), Chrysler Financial; received $34.2                                          80.7                80.7
(“AIFP”)                                                   billion in loan repayments, preferred stock redemptions and proceeds from the sale
CLOSED                                                     of common stock; terminated Chrysler’s $2.1 billion in undrawn loan commitments                                               (36.3)             (36.3)

Auto Suppliers Support Program                                                                                                                                                             0.4a               0.4 a
(“ASSP”)                                                   Government-backed protection for auto parts suppliers
CLOSED                                                                                                                                                                                     (0.4)              (0.4)

Auto Warranty Commitment Program                                                                                                                                                            0.6                 0.6
                                                           Government-backed protection for warranties of cars sold during the GM and
(“AWCP”)
                                                           Chrysler bankruptcy restructuring periods                                                                                       (0.6)              (0.6)
CLOSED
Unlocking Credit for Small Businesses                                                                                                                                                      0.4b               0.4 b
                                                           Purchase of securities backed by SBA loans; received $0.2 billion from sales of
(“UCSB”)
                                                           securities                                                                                                                      (0.2)              (0.2)
CLOSED
Systemically Significant Failing                                                                                                                                                          69.8                69.8
                                                           AIG Investment; received $19.3 billion in repayments and reduced Government
Institutions (“SSFI”)
                                                           exposure                                                                                                                     (19.3)  c
                                                                                                                                                                                                           (19.3)c
CLOSED

Targeted Investment Program (“TIP”)                                                                                                                                                       40.0                40.0
                                                           Citigroup, Bank of America Investments
CLOSED                                                                                                                                                                                   (40.0)             (40.0)

Asset Guarantee Program (“AGP”)                                                                                                                                                          301.0                  5.0
                                                           Citigroup, ring-fence asset guarantee
CLOSED                                                                                                                                                                                 (301.0)                (5.0)
Term Asset-Backed Securities Loan                                                                                                                                                         71.1                 4.3d
Facility                                                   FRBNY non-recourse loans for purchase of asset-backed securities
(“TALF ”)                                                                                                                                                                                  (0.0)              (0.0)

Making Home Affordable (“MHA”) and
                                                           Modification of mortgage loans                                                                                                70.6e               45.6f
other housing support programs
Community Development Capital Initiative
(“CDCI”)                                 Investments in Community Development Financial Institutions (“CDFIs”)                                                                              0.6                 0.6
CLOSED

Public-Private Investment Program                          Investments in legacy mortgage-backed securities using private and Government                                                 29.8g               22.4h
(“PPIP”)                                                   equity, along with Government debt                                                                                              (1.3)              (1.3)
Total Obligations                                                                                                                                                                     $869.9             $474.8
Notes: Numbers may not total due to rounding.
a
   Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
b
      Treasury reduced commitment from $15 billion to an obligation of $400 million.
c
    The $19.3 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) cancellation of the series
    G capital facility. Includes all proceeds from the sale of AIG stock. However, Treasury does not include in its calculation on its AIG investment proceeds from the sale of AIG stock that Treasury received
    from the AIG credit facility trust in the January 2011 recapitalization.
d
      Treasury reduced obligation from $20 billion to $4.3 billion.
e
     Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced the commitment from $50 billion to an obligation of $45.6 billion; therefore, including the
     $25 billion estimated to be spent by the GSEs, the total program amount is $70.6 billion.
f
  Treasury reduced commitment from $50 billion to an obligation of $45.6 billion.
g
      PPIP funding includes $7.4 billion of private-sector equity capital. Includes $0.4 billion of initial obligations to The TCW Group, Inc., which has been repaid.
h
  Treasury reduced commitment from $30 billion to approximately $22.4 billion in debt and equity obligations to the Public-Private Investment Funds. Invesco terminated its investment period on September
   26, 2011, without fully drawing down all committed equity and debt.

Sources: Treasury, Transactions Report, 10/3/2011, accessed 10/14/2011; Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.
treasury.gov/press-center/press-releases/Pages/hp1358.aspx, accessed 10/3/2011; FRBNY, response to SIGTARP data call, 10/14/2011; Treasury, “Making Home Affordable Updated Detailed Program
Description,” 3/4/2009, www.treasury.gov/press-center/press-releases/Documents/housing_fact_sheet.pdf, accessed 10/14/2011; Treasury, “Legacy Securities Public-Private Investment Program,
Program Update – Quarter Ended September 30, 2010,” 10/20/2010, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/External%20
Report%20-%2009-10%20vFinal.pdf, accessed 10/17/2011.
44               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     TABLE 2.4
     OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                      ($ BILLIONS)

                                                                   Amount           Percent (%)
     Authorized Under EESA	                             $700.0
     Released Immediately                                            250.0                52.6%
     Released Under Presidential Certificate of Need                 100.0                21.1%
     Released Under Presidential Certificate of Need &
     Resolution to Disapprove Failed                                 350.0                73.7%
     Helping Families Save Their Home Act of 2009                     (1.2)                -0.3%
     The Dodd-Frank Act                                             (223.8)              -47.1%
     Total Released                                                $475.0               100.0%


                                                                                                    Repaid/
                                                                                   Obligation as   Reduced      Obligation
     Less: Obligations by Treasury under TARPa                   Obligation       % of Released    Exposure    Outstanding     Section Reference
     Capital Purchase Program (“CPP”):                              $204.9                43.1%     ($184.9)                   “Financial Institution
     CPP Total Gross                                               $204.9                43.1%     ($184.9)         $20.0      Support Programs” 

     Community Development Capital Initiative (“CDCI”):               $0.6                                                     “Financial Institution
     CDCI Total Gross                                                 $0.6                0.1%           —           $0.6      Support Programs”

     Systemically Significant Failing Institutions (“SSFI”)
     Program:
                                                                                                                               “Financial Institution
       American International Group, Inc. (“AIG”)b                   $69.8                14.7%      ($19.3)                   Support Programs”
     SSFI Total                                                      $69.8               14.7%      ($19.3)         $50.5
       Targeted Investment Program (“TIP”):
       Bank of America Corporation                                   $20.0                 4.2%      ($20.0)                   “Financial Institution
       Citigroup, Inc.                                               $20.0                 4.2%      ($20.0)                   Support Programs”

     TIP Total                                                       $40.0                8.4%      ($40.0)             —
     Asset Guarantee Program (“AGP”):
                                                                                                                               “Financial Institution
       Citigroup, Inc.c                                               $5.0                 1.1%       ($5.0)
                                                                                                                               Support Programs”
     AGP Total                                                        $5.0                1.1%       ($5.0)             —
     Term Asset-Backed Securities Loan Facility (“TALF”):
                                                                                                                                 “Asset Support
       TALF LLC                                                       $4.3                 0.9%          —
                                                                                                                                   Programs”
     TALF Total                                                       $4.3                0.9%           —           $4.3
     Unlocking Credit for Small Businesses (“UCSB”):                  $0.4                 0.1%       ($0.2)                     “Asset Support
     UCSB Total                                                       $0.4                0.1%       ($0.2)          $0.2          Programs” 

     Automotive Industry Financing Program (“AIFP”):
       General Motors Corporation (“GM”)                             $49.5                10.4%      ($22.5)
       Ally Financial (formerly GMAC)                                $17.2                 3.6%       ($2.7)                  “Automotive Industry
       Chrysler Holding LLC                                          $12.5                 3.6%       ($9.7)                   Support Programs”

       Chrysler Financial Services Americas LLCd                      $1.5                 0.3%       ($1.5)
     AIFP Total                                                      $80.7               16.9%      ($36.3)         $44.4
     Automotive Supplier Support Program (“ASSP”):
       GM Suppliers Receivables LLCe                                  $0.3                 0.1%       ($0.3)                  “Automotive Industry
       Chrysler Holding LLCe g                                        $0.1                 0.0%       ($0.1)                   Support Programs”

     ASSP Total                                                       $0.4                0.1%       ($0.4)             —
                                                                                                                             Continued on next page.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                         45




OBLIGATION/EXPENDITURE LEVELS BY PROGRAM                                                ($ BILLIONS) (CONTINUED)

                                                                                                                                          Repaid/
                                                                                                           Obligation as                 Reduced                Obligation
Less: Obligations by Treasury under TARPa                                          Obligation             % of Released                  Exposure              Outstanding            Section Reference
Automotive Warranty Commitment Program (“AWCP”):
  General Motors Corporation (“GM”)                                                         $0.4                         0.1%                  ($0.4)                                 “Automotive Industry
  Chrysler Holding LLC                                                                      $0.3                         0.1%                  ($0.3)                                  Support Programs”

AWCP Total                                                                                  $0.6                        0.1%                  ($0.6)                          —
Legacy Securities Public-Private Investment Program
(“PPIP”)
  Invesco Legacy Securities Master Fund, L.P.                                               $2.6                         0.5%                  ($0.8)
  W
   ellington Management Legacy Securities PPIF
  Master Fund, L.P.                                                                         $3.4                         0.7%                        *
  A
   llianceBernstein Legacy Securities Master Fund, L.P.                                    $3.5                         0.7%                        *
  Blackrock PPIF, L.P.                                                                      $2.1                         0.4%                       —
                                                                                                                                                                                         “Asset Support
  AG GECC PPIF Master Fund, L.P.                                                            $3.7                         0.8%                       —                                      Programs”
  R
   LJ Western Asset Public/Private Master Fund, L.P.                                       $1.9                         0.4%                        *
  M
   arathon Legacy Securities Public- Private Investment
  Partnership, L.P.                                                                         $1.4                         0.3%                       —
  Oaktree PPIP Fund, L.P.                                                                   $3.5                         0.7%                  ($0.1)
  U
   ST/TCW Senior Mortgage Securities Fund, L.P.h                                           $0.4                         0.1%                  ($0.4)
PPIP Total                                                                                $22.4                         4.7%                  ($1.3)                     $21.1
Making Home Affordable (“MHA”):                                                           $29.9                          6.8%
Housing Finance Agency: Hardest Hit Funds Program
(“HHF”)                                                                                     $7.6                         1.6%                                                           “Housing Support
                                                                                                                                                                                           Programs”
FHA Short Refinance Program                                                                 $8.1                         1.7%                                                    
Housing Support Programs Total                                                            $45.6                         9.6%                        —                    $45.6
TARP Obligations Subtotal                                                               $474.8                      100.0%                                                                          
TARP Repayments/Reductions in Exposure
Subtotal                                                                                                                                  ($288.0)                                                  
TARP Obligations Outstanding Subtotal                                                                                                                                  $186.8                       
Notes: Numbers may not total due to rounding. Obligations reported as of 10/3/2010. Expenditures and repayments and reductions in exposure reported as 9/30/2011.
a
    From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
b
        The $19.3 billion in reduced exposure and repayment for SSFI includes amounts applied to pay (i) accrued preferred returns, (ii) redeem the outstanding liquidation amount, and (iii) cancellation of the
         series G capital facility. Includes all proceeds from the sale of AIG stock. However, Treasury does not include in its calculation on its AIG investment proceeds from the sale of AIG stock that Treasury
         received from the AIG credit facility trust in the January 2011 recapitalization.
c
     Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not
     an actual outlay of cash.
d
       Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
e
      Represents an SPV created by the manufacturer. Balance represents the maximum loan amount, which will be funded incrementally. Treasury’s original commitment under this program was $5 billion, but
      subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
f
  The $9.7 billion in repayments and reductions in exposure includes (i) loan repayments from New Chrysler, (ii) proceeds related to the liquidation of Old Chrysler, (iii) a settlement payment for a loan to
  Chrysler Holding, (iv) termination of New Chrysler’s ability to draw the remaining $2.1 billion under a loan facility made available in May 2009, and (v) proceeds related to the sale to Fiat of Treasury’s
  remaining equity ownership stake in New Chrysler and the sale to Fiat of Treasury’s rights to receive proceeds under an agreement with the United Auto Workers (“UAW”) retiree trust pertaining to the
  trust’s shares in New Chrysler.
g
         Treasury selected nine fund management firms to establish PPIFs. One PPIP manager, The TCW Group, Inc., subsequently withdrew. According to Treasury, the current PPIP obligation is $21.9 billion, this
         includes $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds that were invested in their PPIF.
h
   Oaktree repaid $79 million, as of September 30, 2011.

* Amount less than $50 million.

Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization
Act of 2008,” 1/15/2009, www.thomas.loc.gov, accessed 10/17/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 10/3/2011, accessed
10/17/2011; Treasury, Transactions Report - Housing Programs, 9/28/2011, accessed 10/17/2011; Treasury, response to SIGTARP data call, 4/6/2011; Treasury, Section 105(a) Report, 10/3/2011,
accessed 10/17/2011.
46             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     TABLE 2.5
     DEBT AGREEMENTS AS OF 9/30/2011
     TARP            Date of              Cost            Description of                                                                        Term of
     Program Company Agreement            Assigned        Investment           Investment Information                 Interest/Dividends        Agreement
                                                                               Each QFI may issue senior securities
                                                          Senior               with an aggregate principal amount
                                                                                                                      7.7% for first 5 years;
                                                          Subordinated         of 1% - 3% of its risk-weighted                                  30 years
                                                                                                                      13.8% thereafter
                                                          Securities           assets, but not to exceed $25
     CPP -                                                                     billion.
                 52 QFIs    1/14/2009a    $0.5 billion
     S corps                                              Senior
                                                                               Treasury will receive warrants to
                                                          Subordinated
                                                                               purchase an amount equal to 5% of
                                                          Security Warrants                                           13.8%                     30 years
                                                                               the senior securities purchased on
                                                          that are exercised
                                                                               the date of investment.
                                                          immediately
                                                                               This loan was funded incrementally;
                                                                               $4 billion funded on 12/31/2008,       For General Advances
                                                                               $5.4 billion funded on 1/21/2009,      - (i) the greater of (a)
                                                                               and $4 billion funded on 2/17/2009.    3-month LIBOR or (b)
                                                          Debt Obligation      Subsequently, this loan was then       2% plus (ii) 3%; For
                 General
     AIFP                   12/31/2008    $19.8 billion   with Warrants and    amended; $2 billion on 4/22/2009       Warrant Advances         12/29/2011
                 Motors
                                                          Additional Note      and $4 billion on 5/20/2009            (i) the greater of (a)
                                                                               (General Advances). In addition,       3-month LIBOR for the
                                                                               on 5/27/2009, $361 million was         related interest period
                                                                               set aside in an SPV for the AWCP       or (b) 2% plus (ii) 3.5%
                                                                               (Warranty Advances).
                                                                               This loan was exchanged for
                                                                               a portion of GM’s common
                 General
     AIFP                   1/16/2009     $0.9 billion    Debt Obligation      equity interest in GMAC LLC on    3-month LIBOR + 3%             1/16/2012
                 Motors
                                                                               5/29/2009. See “Equity Agreement”
                                                                               table for more information.
                                                                                                                      Originally, (i) the
                                                                               Original $30.1 billion funded.         greater of (a) 3-Month    Originally
                                                                               Amended loan documents provided        Eurodollar or (b)         10/31/2009,
                                                                               that $986 million of the original      2% plus (ii) 3%. For      for amounts
                            6/3/2009,                     Debt Obligation
                 General                                                       DIP loan was left for the old GM. In   amounts assumed by        assumed by
     AIFP                   amended       $30.1 billion   with Additional
                 Motors                                                        addition $7.1 billion was assumed      New GM, the interest      New GM, June
                            7/10/2009                     Note
                                                                               by New GM of which $0.4 billion        rates became (i) the      10, 2015,
                                                                               was repaid resulting in $6.7 billion   greater of (a) 3-month    subject to
                                                                               remaining outstanding.                 Eurodollar or (b) 2%      acceleration
                                                                                                                      plus (ii) 5%
                                                                                                                                                The debt
                                                                                                                                                obligation for
                                                          Debt Obligation                                                                       each fund
                                                                               Each of the loans will be funded
                            9/30/2009                     with Contingent                                                                       matures at the
     PPIP        All                      $20 billion                          incrementally, upon demand by the      LIBOR + 1%
                            and later                     Interest                                                                              earlier of the
                                                                               fund manager.
                                                          Promissory Note                                                                       dissolution of
                                                                                                                                                the fund or 10
                                                                                                                                                years.
                                                                            Each QCU may issue CDCI Senior
                                                                            Securities with an aggregate
     CDCI -
                                                          Subordinated Debt principal amount equal to not more        2% for first 8 years,
     Credit      All
                                                          for Credit Unions than 3.5% of its total assets and not     9% thereafter
     Unions
                                                                            more than 50% of the capital and
                                                                            surplus of the QCU.
                                                                                                                                       Continued on next page.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                     47




DEBT AGREEMENTS AS OF 9/30/2011                                 (CONTINUED)

TARP            Date of                            Cost               Description of                                                                                                Term of
Program Company Agreement                          Assigned           Investment                  Investment Information                             Interest/Dividends             Agreement
                                                                                        Each QFI may issue CDCI Senior
                                                                                        Securities with an aggregate
                                                                                        principal amount equal to not more
                                                                                        than 5% of (i), if the QFI is a Certified
                                                                                        Entity the risk-weighted assets of the
CDCI –                                                                Subordinated Debt QFI, or (ii), if the QFI is not a Certified 3.1% for first 8 years,
S corps                                                               for S corps       Entity, the sum of the RWAs of each 13.8% thereafter
                                                                                        of the Certified Entities, in each case
                                                                                        less the aggregate capital or, as the
                                                                                        case may be, principal amount of
                                                                                        any outstanding TARP assistance of
                                                                                        the QFI.
Notes: Numbers affected by rounding.
a
  Announcement date of CPP S-Corporation Term Sheet.
b
  Amount includes AWCP commitments.
c
  Date from Treasury’s 1/27/2009 Transactions Report. The Security Purchase Agreement has a date of 12/31/2008.

Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.”
12/31/2008. Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/08; Treasury, “General Motors Promissory Note,” 1/16/2009; Treasury,
“Loan and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31, 2008.” 12/31/2008; Treasury,
“Chrysler, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing Program, Secured Term Loan, Summary of
Terms,” 1/16/2009; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury’s “TARP Community
Development Capital Initiative Program Agreement, CDFI Bank / Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury’s “TARP Community Development Capital
Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury’s “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation Senior
Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010.
48             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



     TABLE 2.6
     EQUITY AGREEMENTS AS OF 9/30/2011
     TARP                         Date of       Cost               Description of     Investment                                                Term of
     Program     Company          Agreement     Assigned           Investment         Information                                 Dividends     Agreement
                                                                                                                                  5% for first
                                                                   Senior Preferred   1-3% of risk-weighted assets, not to
                                                                                                                                  5 years, 9% Perpetual
                                                                   Equity             exceed $25 billion for each QFI
     CPP –                        10/14/2008a   $200.1                                                                            thereafter
                 286 QFIs
     Public                       and later     billion            Common Stock
                                                                                                                                                Up to 10
                                                                   Purchase           15% of senior preferred amount              —
                                                                                                                                                years
                                                                   Warrants
                                                                                                                                  5% for first
                                                                                      1-3% of risk-weighted assets, not to
                                                                   Preferred Equity                                               5 years, 9% Perpetual
                                                                                      exceed $25 billion for each QFI
                                                                                                                                  thereafter
     CPP –                        11/17/2008b                      Preferred
                 369 QFIs                       $4.0 billion
     Private                      and later                        Stock Purchase
                                                                   Warrants that      5% of preferred amount                      9%            Perpetual
                                                                   are exercised
                                                                   immediately
                                                                   Non-Cumulative     $41.6 billion aggregate liquidation
                                                                                                                                  10%           Perpetual
                                                                   Preferred Equity   preference
                                                                                      2% of issued and outstanding common
                 American                                                             stock on investment date of 11/25/08;
     SSFI        International    4/17/2009     $41.6 billion  c
                                                                   Common Stock       the warrant was originally for 53,798,766
                 Group, Inc.                                                                                                                    Up to 10
                                                                   Purchase           shares and had a $2.50 exercise price,      —
                                                                                                                                                years
                                                                   Warrants           but after the 6/30/09 split, it is for
                                                                                      2,689,938.30 shares and has an exercise
                                                                                      price of $50.
                                                                                      Up to $29.8 billion aggregate liquidation                 Perpetual (life
                                                                   Non-Cumulative
                                                                                      preference. As of 9/30/09, the aggregate    10%           of the facility
                 American                                          Preferred Equity
                                                                                      liquidation preference was $3.2 billion.                  is 5 years)
     SSFI        International    4/17/2009     $29.8 billiond
                 Group, Inc.                                       Common Stock
                                                                                      150 common stock warrants outstanding;                    Up to 10
                                                                   Purchase                                                       —
                                                                                      $00002 exercise price                                     years
                                                                   Warrants
                                                                                                                                                Converts
                                                                   Mandatorily
                                                                                                                                                to common
                                                                   Convertible        $5.0 billion                                9%
                                                                                                                                                equity interest
                                                                   Preferred Stockf
                 Ally Financial                                                                                                                 after 7 years
     AIFP        Inc. (formerly   12/29/2008    $5.0 billion       Preferred
                 GMAC)                                                                                                                          Converts
                                                                   Stock Purchase
                                                                                                                                                to common
                                                                   Warrants that      5% of original preferred amount             9%
                                                                                                                                                equity interest
                                                                   are exercised
                                                                                                                                                after 7 years
                                                                   immediately
                                                                                                                                                Converts
                                                                   Mandatorily
                                                                                                                                                to common
                                                                   Convertible        $4.5 billion                                9%
                                                                                                                                                equity interest
                                                                   Preferred Stockg
                                                                                                                                                after 7 years
                 Ally Financial                                    Preferred
                                                                                                                                                Converts
     AIFP        Inc. (formerly   5/21/2009     $7.5 billion       Stock Purchase
                                                                                                                                                to common
                 GMAC)                                             Warrants that      5% of original preferred amount             9%
                                                                                                                                                equity interest
                                                                   are exercised
                                                                                                                                                after 7 years
                                                                   immediately
                                                                   Common Equity
                                                                                      $3.0 billion                                —             Perpetual
                                                                   Interestg
                                                                                      This equity interest was obtained by
                 Ally Financial
                                                                   Common Equity      exchanging a prior debt obligation with
     AIFP        Inc. (formerly   5/29/2009     $0.9 billion                                                                      —             Perpetual
                                                                   Interest           General Motors. See “Debt Agreements”
                 GMAC)
                                                                                      table for more information.
                                                                                                                                       Continued on next page.
                                                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                      49




EQUITY AGREEMENTS AS OF 9/30/2011                                    (CONTINUED)

TARP                                  Date of              Cost                 Description of            Investment                                                                     Term of
Program         Company               Agreement            Assigned             Investment                Information                                                 Dividends          Agreement
                                                                                Trust Preferred
                                                                                                          $2.5 billion
                                                                                Securities
                                                                                                                                                                                         Redeemable
                Ally Financial                                                  Trust Preferred                                                                                          upon the
AIFP            Inc. (formerly        12/30/2009           $2.5 billion         purchase                                                                              8%
                                                                                                                                                                                         repayment of
                GMAC)                                                           warrants that             5% of trust preferred amount                                                   the debenture
                                                                                are exercised
                                                                                immediately
                                                                                Mandatorily
                                                                                Convertible               $1.3 billion
                                                                                Preferred Stock                                                                                          Converts
                Ally Financial
                                                                                Preferred                                                                                                to common
AIFP            Inc. (formerly        12/30/2009           $1.3 billion                                                                                               9%
                                                                                Stock Purchase                                                                                           equity interest
                GMAC)
                                                                                Warrants that             5% of preferred amount                                                         after 7 years
                                                                                are exercised
                                                                                immediately
                Ally Financial
                                                                                Common Equity
AIFP            Inc. (formerly        12/30/2009           $5.5 billion                                   $5.5 billion                                                                   Perpetual
                                                                                Interesth
                GMAC)
                                                                                                                                                                                         8 years
                                                                                                                                                                                         with the
                                                                                Membership                Each of the membership interest will
                                      9/30/2009                                                                                                                                          possibility of
PPIP            All                                        $10.0 billion        interest in a             be funded upon demand from the fund                         —
                                      and later                                                                                                                                          extension for
                                                                                partnership               manager.
                                                                                                                                                                                         2 additional
                                                                                                                                                                                         years.
                                                                                                                                                                      2% for
                                                                                Preferred Equity
                                                           $780.2                                         5% of risk-weighted assets for banks and                    first eight
CDCI            All                                                             for banks & thrift                                                                                       Perpetual
                                                           million                                        bank holding companies.                                     years, 9%
                                                                                institutions
                                                                                                                                                                      thereafter
Notes: Numbers affected by rounding.
a
   Announcement date of CPP Public Term Sheet.
b
   Announcement date of CPP Private Term Sheet.
c
   AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40 billion investment.
d
   The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
e
   Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
f
  On 12/31/2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on December 29, 2009, into mandatorily convertible preferred stock (“MCP”).
g
   On 12/31/2009, Treasury converted $3 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased from
   35% to 56% due to this conversion.
h
  On 12/31/2010, Treasury converted $5.5 billion of its existing MCP, which was invested in May 2009, into common equity. Treasury’s equity ownership of Ally Financial Inc. (formerly GMAC) increased
   from 56% to 74% due to this conversion.

Sources: Treasury, “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Program
Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agreement dated as of
November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior Preferred Stock and Warrant,
Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and United States Department of Treasury,”
1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of January 15, 2009 between Bank of America Corporation
and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,” 1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program,
Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report, 3/31/2011; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, “TARP
Community Development Capital Initiative Program Agreement, CDFI Bank/Thrift Senior Preferred Stock, Summary of CDCI Senior Preferred Terms,” 4/26/2010; Treasury, “TARP Community Development
Capital Initiative CDFI Credit Unions Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “TARP’s Community Development Capital Initiative CDFI Subchapter S Corporation
Senior Securities Summary of Terms of CDCI Senior Securities,” 4/26/2010; Treasury, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/10; Ally Financial Inc. (GOM ),
8−K, 12/30/2010.
50                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




     TABLE 2.7
     LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 9/30/2011
                                                                                                                         Current Number
                                                                                                                             of Warrants                                            Stock Price as of
     Participant                                                                          Transaction Date                   Outstanding                      Strike Price               9/30/2011
     Capital Purchase Program (“CPP”):
            Regions Financial Corporation                                                         11/14/2008                    48,253,677                           $10.88                          $3.33
            Popular, Inc.                                                                          12/5/2008                    20,932,836                             $6.70                         $1.50
            Synovus Financial Corp.                                                               12/19/2008                    15,510,737                             $9.36                         $1.07
            Flagstar Bancorp, Inc.                                                                 1/16/2009                      6,451,379                            $6.20                          $.49
            The First Bancorp                                                                     12/31/2008                      5,842,259                          $10.88                        $12.59
            Zions Bancorporation                                                                  11/14/2008                      5,789,909                          $36.27                        $14.80
            Associated Banc-Corp.                                                                 11/21/2008                      3,983,308                          $19.77                          $9.30
            Citizens Republic Bancorp, Inc.                                                       12/12/2008                      1,757,813                          $25.60                          $0.15
            M&T Bank Corporation        C
                                                                                                   12/5/2008                      1,218,522                          $69.32                        $69.90
            Sterling Financial Corporation/Sterling Savings Bank                                  12/23/2008                           97,541                          $13.2                       $12.38
     Systemically Significant Failing Institutions (“SSFI”) Program
            AIGa                                                                                  11/25/2008                      2,689,938                          $50.00                        $21.88
            AIGa
                                                                                                   4/17/2009                               150                        $0.00   b
                                                                                                                                                                                                   $21.88
     Notes: Numbers affected by rounding.
     a
       All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
     b
       Strike price is $0.00002.
     C
       M&T Bank Corporation assumed additional warrant positions in conjunction with two acquired CPP investments. These additional positions are 407,542 shares at a strike price of $69.32 and 95,383
        shares at a strike price of $518.96.

     Sources: Treasury, Transactions Report, 10/3/2011, accessed 10/17/2011; Treasury, Dividends and Interest Report, 10/11/2011, accessed 10/17/2011; Treasury, response to SIGTARP data call,
     10/5/2011; Market Data, Bloomberg L.P., accessed 10/3/2011.


     TABLE 2.8
     DIVIDENDS, INTEREST, DISTRIBUTION, AND OTHER INCOME PAYMENTS, AS OF 9/30/2011
                                                     Dividends                            Interest                    Distributiona                  Other Incomeb                                    Total
     AGP                                       $442,964,764                                     $—                                 $—               $2,589,197,045                    $3,032,161,809
     AIFPc                                    2,740,175,801                      1,665,336,675                                       —                  403,000,000                     4,808,512,477
     ASSP                                                       —                    31,949,931                                      —                    84,000,000                       115,949,931
     CDCI                                            7,072,287                         3,447,949                                     —                                 —                    10,520,237
     CPPd                                   11,100,837,665                           84,800,789                                      —              14,489,244,892                    25,674,883,346
     PPIP                                                       —                  179,051,215                        907,275,642                         20,644,319                    1,106,971,176
     TIP                                      3,004,444,444                                       —                                  —               1,446,025,527                      4,450,469,971
     UCSB                                                       —                    11,628,801                                      —                    25,248,249                        36,877,051
     SSFIe                                                      —                                 —                                  —                $411,184,553                         411,184,553
     Total                               $17,295,494,961                     $1,976,215,360                       $907,275,642                  $19,468,544,585                   $39,647,530,551
     Notes: Numbers may not total due to rounding.
     a
       Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the end of each quarter.
     b
       Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, warrant sales, additional note proceeds from the auto programs and the Consumer and Business Lending
       Initiative/SBA 7(a) programs, principal repayments on the SBA 7(a) program, and repayments associated with the termination of the TCW fund for PPIP.
     c
       Includes AWCP.
     d
       Includes $13 million fee received as part of the Popular exchange.
     e
       Other income from SSFI includes $165 million in fees and $246.2 million representing return on securities held in the AIA and ALICO SPVs.

     Source: Treasury, Transactions Report, 10/3/2011, accessed 10/14/2011; Treasury, Section 105(a) Report, 10/11/2011, accessed 10/14/2011; Treasury, Dividends and Interest Report, 10/11/2011,
     accessed 10/14/2011; Treasury, response to SIGTARP data call, 10/5/2011.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011             51




HOUSING SUPPORT PROGRAMS
On February 18, 2009, the Administration announced a foreclosure prevention
plan that became the Making Home Affordable (“MHA”) program, an umbrella                   Government-Sponsored Enterprises
program for the Administration’s homeowner assistance and foreclosure prevention           (“GSEs”): Private corporations created
efforts.105 MHA initially consisted of the Home Affordable Modification Program            and chartered by the Government to
(“HAMP”), a Treasury program that uses TARP funds to provide incentives for                reduce borrowing costs and provide
mortgage servicers to modify eligible first mortgages, and two initiatives at the          liquidity in the market, the liabilities
Government-sponsored enterprises (“GSEs”) that use non-TARP funds.106 HAMP                 of which are not officially considered
was originally intended “to help as many as three to four million financially              direct taxpayer obligations. On
struggling homeowners avoid foreclosure by modifying loans to a level that is              September 7, 2008, the two largest
affordable for borrowers now and sustainable over the long term.”107                       GSEs, the Federal National Mortgage
    Since the announcement of MHA, Treasury has expanded the program by                    Association (“Fannie Mae”) and
implementing additional sub-programs. Several of these are designed to overcome            the Federal Home Loan Mortgage
obstacles to sustainable HAMP modifications, such as unemployed borrowers                  Corporation (“Freddie Mac”), were
or the presence of second liens. Treasury has also partnered with other Federal            placed into Federal conservatorship.
agencies on housing programs outside of HAMP.108 Treasury also allocated TARP              They are currently being financially
funds to support two additional housing support efforts: a Federal Housing                 supported by the Government.
Administration (“FHA”) refinancing program and a state housing finance agency
grant program.                                                                             Loan Servicers: Companies that
    Not all housing support programs are funded, or completely funded, by TARP.            perform administrative tasks on
Of the originally anticipated $75 billion cost for MHA, $50 billion was to be              monthly mortgage payments until the
funded by TARP, with the remainder funded by the GSEs.109 Treasury has since               loan is repaid. These tasks include
reduced the final obligation of TARP funds for these programs to $45.6 billion.110         billing, tracking, and collecting monthly
Of this, $29.9 billion is obligated for MHA incentive payments.111 Housing support         payments; maintaining records of
programs include the following initiatives:                                                payments and balances; allocating
                                                                                           and distributing payment collections
•	 Home Affordable Modification Program (“HAMP”) — HAMP is intended                        to investors in accordance with
   to use incentive payments to encourage loan servicers (“servicers”) and                 each mortgage loan’s governing
   investors to modify eligible first-lien mortgages so that the monthly payments          documentation; following up
   of homeowners who are currently in default or at imminent risk of default               on delinquencies; and initiating
   will be reduced to affordable and sustainable levels. Incentive payments for            foreclosures.
   modifications to loans owned or guaranteed by the GSEs are paid by the
   GSEs, not TARP.112 While HAMP generally refers to the first-lien mortgage               Investors: Owners of mortgage loans
   modification program, it also includes the following subprograms:                       or bonds backed by mortgage loans
   çç Home Price Decline Protection (“HPDP”) — HPDP is intended to                         who receive interest and principal
        encourage additional investor participation and HAMP modifications in              payments from monthly mortgage
        areas with recent price declines by providing TARP-funded incentives to            payments. Servicers manage the
        offset potential losses in home values.113                                         cash flow from borrowers’ monthly
   çç Principal Reduction Alternative (“PRA”) — PRA is intended to encourage               payments and distribute them to
        the use of principal reduction in modifications for eligible borrowers whose       investors according to Pooling and
        homes are worth significantly less than the remaining outstanding balances         Servicing Agreements (“PSAs”).
        of their first-lien mortgage loans. It provides TARP-funded incentives to
        offset a portion of the principal reduction provided by the investor.114
52            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          çç Home Affordable Unemployment Program (“UP”) — UP is intended to
                                                               offer assistance to unemployed homeowners through temporary forbearance
                                                               of a portion of their payments.115 TARP funds are not used to support this
                                                               program.
                                                     •	   Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended to
                                                          provide incentives to servicers and borrowers to pursue short sales and deeds-in-
                                                          lieu of foreclosure for HAMP-eligible borrowers in cases in which the borrower
                                                          is unable or unwilling to enter into a modification. Under this program, the
                                                          servicer releases the lien against the property and the investor waives all rights
     Short Sales: Sales of a home for less
                                                          to seek a deficiency judgment against a borrower who uses a short sale or deed-
     than the unpaid mortgage balance. A
                                                          in-lieu when the property is worth less than the outstanding amount of the
     borrower sells the home and the lender
                                                          mortgage.116
     collects the proceeds as full or partial
                                                     •	   Second-Lien Modification Program (“2MP”) — 2MP is intended to modify
     satisfaction of the unpaid mortgage
                                                          second-lien mortgages when a corresponding first lien is modified under HAMP.
     balance, thus avoiding the foreclosure
                                                          However, the requirement to modify second liens applies only to servicers that
     process.
                                                          executed a Servicer Participation Agreement (“SPA”) to participate in 2MP prior
                                                          to October 3, 2010.117 As of September 30, 2011, 19 servicers are participating
     Deed-in-Lieu of Foreclosure: Instead
                                                          in 2MP.118 These servicers represent approximately 55% to 60% of the second-
     of going through foreclosure, the
                                                          lien servicing market.119
     borrower voluntarily surrenders the
                                                     •	   Agency-Insured Programs — Similar in structure to Treasury’s HAMP
     deed to the home to the home lender,
                                                          first-lien program, these initiatives are intended to reduce payments to more
     as satisfaction of the unpaid mortgage
                                                          affordable levels on eligible first-lien mortgages insured by FHA or guaranteed
     balance.
                                                          by the Department of Agriculture’s Office of Rural Development (“RD”) and
                                                          the Department of Veterans Affairs (“VA”).120 Treasury provides TARP-funded
     Underwater Mortgage: Mortgage loan
                                                          incentives to encourage modifications under the FHA and RD modification
     on which a homeowner owes more
                                                          programs.
     than the home is worth, typically as a
                                                     •	   Treasury/FHA Second-Lien Program (“FHA2LP”) — FHA2LP is intended
     result of a decline in the home’s value.
                                                          to facilitate refinancing under the FHA Short Refinance Program by reducing
     Underwater mort- gages are also
                                                          second liens. Treasury uses TARP funds to provide incentives to participating
     referred to as having negative equity.
                                                          servicers and investors who agree to partial or full extinguishment of second
                                                          liens associated with an FHA refinance.121
                                                     •	   FHA Short Refinance Program — This program, which is partially supported
                                                          by TARP funds, is intended to encourage borrowers to refinance existing
                                                          underwater mortgage loans that are not currently insured by FHA into FHA-
                                                          insured mortgages with lower principal balances. Treasury has provided a
                                                          TARP-funded letter of credit for up to $8 billion in loss coverage on these newly
                                                          originated FHA loans.
                                                     •	   Housing Finance Agency Hardest Hit Fund (“HHF”) — A TARP-funded
                                                          program, HHF is intended to fund foreclosure prevention programs run by state
                                                          housing finance agencies in states hit hardest by the decrease in home prices
                                                          and in states with high unemployment rates. Eighteen states and Washington,
                                                          DC, have received approval for aid through the program.122
                                                                                                                                  QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   53




Status of TARP Funds Obligated to Housing Support
Programs
Treasury obligated $45.6 billion to housing support programs, of which $2.5
billion, or 5.4%, has been expended as of September 30, 2011.123 Treasury has
capped the aggregate amount available to pay servicer, borrower, and investor
incentives under MHA programs at $29.9 billion.124 The remaining $15.7 billion is
allocated to funding the FHA Short Refinance and HHF programs.125 The amount
obligated to each MHA-participating servicer is established pursuant to its Program
Participation Cap under its SPA with Treasury.126 Treasury set each servicer’s initial
cap by estimating the number of services expected to be performed by each servicer
across all housing support programs in which it participates during the term of
the SPA. According to Treasury, a servicer’s cap will be adjusted based on several
factors: (1) upward or downward, pursuant to a Servicer Cap Model that aims to
reallocate funds from servicers that have a relatively large amount of unused funds
under their cap to servicers with a relatively small amount of unused funds under
their cap, or (2) downward, based on Treasury’s analysis of the servicer’s eligible
loan portfolio.127
     Table 2.9 shows the breakdown in expenditures and estimated funding
allocations for these housing support programs.

TABLE 2.9
TARP EXPENDITURES AND ALLOCATIONS BY HOUSING SUPPORT PROGRAMS,
AS OF 9/30/2011 ($ BILLIONS)
                                                                              Expenditures                                   Allocations
   HAMP
         First Lien Modification                                                          $1.51                                      $19.1
         PRA Modification                                                                       —                                        2.0
         HPDP                                                                               0.13                                         1.6
         UP                                                                                     —                                         —a
         HAMP Total Allocations                                                             1.64                                       22.7
   HAFA                                                                                     0.07                                         4.1
   2MP                                                                                      0.05                                         0.1
   Treasury FHA-HAMP                                                                            —                                        0.2
   RD-HAMP                                                                                      —                                         —b
   FHA2LP                                                                                       —                                        2.7
FHA Short Refinance                                                                         0.05                                        8.1c
HHF                                                                                         0.66                                         7.6
Total Allocations                                                                        $2.48                                       $45.6
Note: Numbers may not total due to rounding.
According to Treasury, these numbers are “approximate.”
a
  Treasury does not allocate TARP funds to UP.
b
  Treasury estimates that $17.8 million will be allocated to RD-HAMP.
c
  This amount includes the up to $117 million in fees Treasury will incur for the availability and usage of the $8 billion letter of credit.

Source: Treasury, response to SIGTARP data call, 10/5/2011.
54   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                As of September 30, 2011, Treasury had active agreements with 112 servicers.
                                            Originally, 145 servicers had agreed to participate in MHA.128 According to
                                            Treasury, of the $29.9 billion obligated to participating servicers under their SPAs,
                                            as of September 30, 2011, $1.5 billion had been spent on completing permanent
                                            modifications of first liens (340,300 of which remain active); $50.4 million on
                                            completing 6,332 full extinguishments, 1,597 partial extinguishments, and 37,776
                                            permanent modifications of second liens under the 2MP; and $68.9 million on
                                            incentives for 18,557 short sales or deeds-in-lieu of foreclosure under HAFA.129 Of
                                            the combined amount of incentive payments, according to Treasury, approximately
                                            $666.4 million went to pay servicer incentives, $788 million went to pay investor
                                            incentives, and $313.3 million went to pay borrower incentives.130 As of September
                                            30, 2011, Treasury had disbursed approximately $655.4 million of the $7.6 billion
                                            allocated to state housing finance agencies participating in HHF, most of which
                                            has been allocated to administrative expenses.131 The remaining $8.1 billion
                                            has been obligated under FHA Short Refinance to purchase a letter of credit to
                                            provide up to $8 billion in first loss coverage and to pay $117 million in fees for
                                            the letter of credit. According to Treasury, there have not been any defaults on
                                            the 334 loans refinanced under the FHA Short Refinance program that required
                                            Treasury to pay a claim from the letter of credit. However, Treasury has pre-funded
                                            a reserve account with $50 million to pay future claims and spent $5 million on
                                            administrative expenses.132 The breakdown of TARP-funded expenditures related to
                                            housing support programs (not including the GSE-funded portion of HAMP) are
                                            shown in Table 2.10.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   55




TABLE 2.10
BREAKDOWN OF TARP EXPENDITURES, AS OF 9/30/2011 ($ MILLIONS)
HAMP First Lien Modification Incentives                                                                    TARP Expenditures
Servicer Incentive Payment                                                                                                    $355.7
Servicer Current Borrower Incentive Payment                                                                                      12.6
Annual Servicer Incentive Payment             d
                                                                                                                               259.7
Investor Current Borrower Incentive Payment                                                                                      40.7
Investor Monthly Reduction Cost Sharea                                                                                         574.9
Annual Borrower Incentive Paymentd                                                                                             265.9
  HAMP First Lien Modification Incentives Total                                                                           $1,509.6
PRA                                                                                                                                —a
HPDP                                                                                                                         $134.5
HAFA Incentives
Servicer Incentive Payment                                                                                                     $16.0
Investor Reimbursement                                                                                                             7.7
Borrower Relocation                                                                                                              45.2
  HAFA Incentives Total                                                                                                        $68.9
UP                                                                                                                                 —b
HAMP Program Incentives Total                                                                                             $1,713.0
Second-Lien Modification Program Incentives
2MP Servicer Incentive Payment                                                                                                 $20.0
2MP Annual Servicer Incentive Payment                d
                                                                                                                                   0.2
2MP Annual Borrower Incentive Paymentd                                                                                             0.1
2MP Investor Cost Share                                                                                                          13.7
2MP Investor Full Extinguishment                                                                                                 15.2
2MP Investor Partial Extinguishment                                                                                                1.2
  Second-Lien Modification Program Incentives Total                                                                            $50.4
Treasury/FHA-HAMP Incentives
Annual Servicer Incentive Paymentd                                                                                               $2.2
Annual Borrower Incentive Paymentd                                                                                                 2.1
  Treasury/FHA-HAMP Incentives Total                                                                                             $4.3
RD-HAMP                                                                                                                            —c
FHA2LP                                                                                                                               —
FHA Short Refinance (Loss-Coverage)                                                                                            $55.0
HHF Disbursements                                                                                                            $655.4
TOTAL                                                                                                                     $2,478.1
Note: Numbers affected by rounding.
a
  PRA has paid $33,645 in incentives.
b
   TARP funds are not used to support the UP program.
C
   Investor Monthly Reduction Cost Share is considered an incentive payment.
d
  Annual incentive payments are paid as long as the loan remains in good standing and has been fully repaid at the time the incentive
  is paid.

Source: Treasury, response to SIGTARP data call, 10/5/2011 and 10/11/2011.
56            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     HAMP
                                                     According to Treasury, HAMP was intended “to help as many as three to four
                                                     million financially struggling homeowners avoid foreclosure by modifying loans to a
                                                     level that is affordable for borrowers now and sustainable over the long term.”133

                                                     HAMP First-Lien Modification Program
                                                     In designing HAMP, the Administration envisioned a “shared partnership” between
                                                     the Government and investors to bring distressed borrowers’ first lien monthly
                                                     payments down to an “affordable” and sustainable level — defined by Treasury as
                                                     31% of the borrower’s monthly gross income.134 Under the program, investors are
                                                     responsible for all payment reductions necessary to bring a borrower’s monthly
                                                     payment down to 38% of their monthly gross income. The additional reductions
                                                     needed to bring the monthly payment down to a 31% ratio are shared between
                                                     investors and the Government.135 Treasury will also compensate investors for
                                                     reducing the principal on certain underwater mortgages.136

                                                     Trial Plan Evaluation
                                                     Borrowers may be solicited for participation by their servicers or they may request
                                                     participation in HAMP.137 Before offering the borrower a trial modification plan,
                                                     the servicer must verify the accuracy of the borrower’s income and other eligibility
                                                     criteria. In order to verify the borrower’s eligibility for a modification under the
                                                     program, borrowers must submit the following documents:138

     For more information on the RMA                 •	 an MHA “request for modification and affidavit” (“RMA”) form, which provides
     form and what constitutes hardship,                the servicer with the borrower’s financial information, including the cause of the
     see SIGTARP’s April 2011 Quarterly                 borrower’s hardship;
     Report, page 62.                                •	 signed and completed requests for Federal tax return transcripts or the most
                                                        recent Federal income tax return, including all schedules and forms;
     For more information on the borrower
                                                     •	 income verification documentation, such as recent pay stubs or evidence of
     certification process required by the
                                                        other sources of income; and
     Dodd-Frank Act, see SIGTARP’s
     October 2010 Quarterly Report,                  •	 Dodd-Frank certification of whether a borrower is eligible to receive assistance
     page 83.                                           under the MHA program, provided that the borrower has not been convicted in
                                                        the past 10 years of any of the following in connection with a mortgage or real
     For more information on the Verification           estate transaction: felony larceny, theft, fraud, or forgery; money laundering, or
     Policy, see SIGTARP’s April 2011                   tax evasion.
     Quarterly Report, page 63.
                                                         Effective May 1, 2011, participating servicers are required to develop and
                                                     adhere to written policy and procedures that, among other things, detail the
                                                     methodology that the servicer will use to calculate and verify monthly gross income
                                                     for the borrower and the borrower’s household.139
                                                         After verifying eligibility and income, the servicer follows the modification
                                                     steps prescribed by HAMP guidelines to calculate the reduction in the borrower’s
                                                     monthly mortgage payment needed to achieve a 31% debt-to-income (“DTI”) ratio,
                                                     that is, a payment equal to 31% of his or her gross monthly income.140
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011            57




     In the first step, the servicer capitalizes any unpaid interest and fees (i.e., adds
them to the outstanding principal balance). Second, the servicer reduces the
interest rate in incremental steps to as low as 2%. If the 31% DTI ratio threshold
has still not been reached, in the third step the servicer extends the term of the
mortgage to a maximum of 40 years from the modification date. If these steps are
still insufficient to reach the 31% threshold, the servicer may forbear principal
(defer its due date), subject to certain limits.141 The forbearance amount is not
interest bearing and results in a lump-sum payment due upon the earliest of the
sale date of the property, the payoff date of the interest-bearing mortgage balance,
or the maturity date of the mortgage.142
     Servicers are not required to forgive principal under HAMP. However, servicers
may forgive principal in order to lower the borrower’s monthly payment to achieve
the DTI ratio goal of 31% on a stand-alone basis, before any of the other HAMP
modification steps described above, or as part of the PRA.143
     Finally, after engaging in the modification calculations, “all loans that meet
HAMP eligibility criteria and are either deemed to be in imminent default or                      Net Present Value (“NPV”) Test:
delinquent [by] two or more payments must be evaluated using a standardized Net                   Compares the money generated by
Present Value (“NPV”) test that compares the NPV result for a modification to                     modifying the terms of the mortgage
the NPV result for no modification.”144 The NPV test uses a series of inputs that                 with the amount an investor can
compares the expected cash flow from a modified loan with the cash flow from                      reasonably expect to recover in a
the same loan with no modifications, based on certain assumptions. A positive                     foreclosure sale.
NPV test result indicates that a modified loan is more valuable to the investor than
if the loan is not modified. In that case, under HAMP rules, the servicer must                    Loan-to-Value (“LTV”) Ratio: Lending
offer the borrower a mortgage modification. If the test generates a negative result,              risk assessment ratio that mortgage
modification is optional.145 In reviewing a borrower’s application, servicers cannot              lenders examine before approving a
refuse to evaluate a borrower for a modification simply because the outstanding                   mortgage; calculated by dividing the
loan currently has a low loan-to-value (“LTV”) ratio. (The lower the LTV ratio is,                outstanding amount of the loan by
the higher the probability that a foreclosure will be more profitable to an investor              the value of the collateral backing the
than a modification, because of the proceeds that would be realized from a                        loan. Loans with high LTV ratios are
foreclosure sale.) The servicer is required to perform and document the evaluation                generally seen as higher risk because
in a manner consistent with program guidelines.146                                                the borrower has less of an equity
     With respect to loans owned or guaranteed by the GSEs, servicers are required                stake in the property.
to offer a trial modification if the NPV test results are equal to or greater than
negative $5,000. In other words, even if the NPV test indicates that a modified                   Trial Modification: Under HAMP, a
mortgage would cost the GSE up to $5,000 more than foreclosure would, the                         period of at least three months in
servicer still must offer the modification.147                                                    which a borrower is given a chance
                                                                                                  to establish that he or she can make
How Trial Modifications Work                                                                      lower monthly mortgage payments and
Treasury originally intended that HAMP trial period modifications would last three                qualify for a permanent modification.
months. Historically, many trial periods have actually lasted longer. According to
Treasury, as of September 30, 2011, of a combined total of 90,835 active trials
under both GSE and TARP (non-GSE) HAMP, 19,653, or 22%, had lasted more
than six months.148
   During a trial period, the borrower must make at least three modified
payments.149 Under a “trial period plan” (“TPP”), borrowers may qualify for a
58   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           permanent modification as long as they make all required payments on time, are
                                           eligible, and provide proper documentation, including a modification agreement.150
                                           The terms of these permanent modifications remain fixed for at least five years.151
                                           After five years, the loan’s interest rate can increase if the modified interest rate
                                           had been reduced below the current 30-year conforming fixed interest rate on
                                           the date of the initial modification. The interest rate can rise incrementally by up
                                           to 1% per year until it reaches that rate.152 Otherwise, the modified interest rate
                                           remains permanent. Beginning May 1, 2011, if a borrower is denied a permanent
                                           modification because of missed trial payments, the servicer must, within 30 days
                                           of the missed payment, re-calculate the borrower’s income using the original
                                           income documentation to ensure that the trial payment was correctly calculated.
                                           The servicer is not required to re-run the calculation if the borrower missed a trial
                                           payment because of a significant change in circumstances resulting in a reduction
                                           in income. If the re-calculation shows that the borrower’s trial payment exceeded
                                           the proper payment by 10% or more, the servicer must offer the borrower a new trial
                                           period with the correct payment.153
                                               If the borrower misses a payment during the trial or is denied a permanent
                                           modification for any other reason, the borrower is, in effect, left with the original
                                           terms of the mortgage. The borrower is responsible for the difference between
                                           the original mortgage payment amount and the reduced trial payments that were
                                           made during the trial. In addition, the borrower may be liable for late fees that were
                                           generated during the trial. In other words, a borrower can be assessed late fees
                                           for failing to make the original pre-modification scheduled payments during the
                                           trial period, even though under the trial modification the borrower is not required
                                           to make these payments. Late fees are waived only for borrowers who receive a
                                           permanent modification.154

                                           Modification Incentives
                                           Originally, servicers received a one-time incentive fee payment of $1,000 for each
                                           permanent modification completed under HAMP, and additional compensation of
                                           $500 if the borrower was current but at imminent risk of default before enrolling
                                           in the trial plan. On July 6, 2011, Treasury announced that it was changing the
                                           flat $1,000 incentive to a new sliding scale based on the length of time the loan
                                           was delinquent as of the effective date of the TPP. For loans less than or equal to
                                           120 days delinquent, servicers will now receive $1,600.155 For loans 121-210 days
                                           delinquent, servicers will receive $1,200. For loans more than 210 days delinquent,
                                           servicers will only receive $400. Additionally, under this new system, the $500
                                           current borrower incentive will no longer be paid. Servicers are also prohibited from
                                           taking additional collection measures to reduce the delinquency period in order
                                           to qualify for higher incentives. Treasury stated that this system is “designed to
                                           encourage servicers to provide an appropriate solution, at the very early stages of the
                                           delinquency, to borrowers who are suffering a hardship.”156 The new incentive scale
                                           will affect all permanent HAMP modifications with a trial period plan effective date
                                           on or after October 1, 2011.157
                                               For borrowers whose monthly mortgage payment was reduced through HAMP
                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011          59




by 6% or more, servicers also receive annual incentive payments of up to $1,000
annually for three years if the borrower remains in good standing (defined as less
than three full monthly payments delinquent).158
    Borrowers whose monthly mortgage payment is reduced through HAMP by
6% or more and who make monthly payments on time earn an annual principal
balance reduction of up to $1,000.159 The principal balance reduction accrues
monthly and is payable for each of the first five years as long as the borrower
remains current on his or her monthly payments.160
    An investor is entitled to compensation, for up to five years, equal to one-
half of the dollar difference between the borrower’s monthly payment (principal
and interest) under the modification, based on 31% of gross monthly income,
and the lesser of (1) the borrower’s monthly principal and interest at 38% and
(2) the borrower’s pre-modification monthly principal and interest payment.161 If
applicable, investors also earn an extra one-time, up-front payment of $1,500 for
modifying a loan that was current before the trial period (i.e., at risk of imminent
default) and whose monthly payment was reduced by at least 6%.162
    As of September 30, 2011, of the $29.9 billion in TARP funds allocated to
the 112 servicers participating in HAMP, approximately 81% was allocated to
the 10 largest servicers.163 Table 2.11 outlines these servicers’ relative progress in
implementing the HAMP modification programs.

TABLE 2.11

TARP INCENTIVE PAYMENTS BY 10 LARGEST SERVICERS, AS OF 9/30/2011
                                                                               Incentive          Incentive         Incentive               Total
                                                                              Payments           Payments          Payments             Incentive
                                                          SPA Cap Limit    to Borrowers        to Investors      to Servicers          Payments
BAC Home Loans Servicing, LP (Formerly
known as Countrywide Home Loans
Servicing)                                               $6,344,073,089    $34,643,420       $102,688,040        $70,013,721       $207,345,181
Wells Fargo Bank, NA                                      5,126,387,058     42,673,527        107,418,270         97,457,848         247,549,644
J.P. Morgan Chase Bank, NA                                3,345,883,295     65,897,844          94,125,292        85,871,164         245,894,300
OneWest Bank                                              1,836,229,265     11,532,073          43,269,786        27,528,082          82,329,941
Bank of America, NA                                       1,554,813,000      3,616,580          18,901,766        10,558,939          33,077,285
GMAC Mortgage, Inc.                                       1,502,475,924     14,701,415          48,452,142        37,483,212         100,636,769
American Home Mortgage Servicing, Inc.                    1,307,575,052     16,354,747          59,601,601        45,875,796         121,832,144
Ocwen Financial Corporation, Inc.                         1,144,140,562     19,871,707          51,168,936        44,563,785         115,604,428
Litton Loan Servicing LP                                  1,052,166,911     10,443,968          27,386,531        22,836,042          60,666,540
CitiMortgage, Inc.                                        1,050,566,341     21,348,143          59,657,897        49,805,102         130,811,142
Total                                                $24,264,310,497      $241,083,424      $612,670,261      $491,993,690      $1,345,747,375
Note: Numbers may not total due to rounding.

Source: Treasury, Transactions Report, 9/28/2011, accessed 10/17/2011.
60            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Modification Statistics
                                                     As of September 30, 2011, a total of 720,612 mortgages were in active permanent
                                                     modifications under both TARP (non-GSE) and GSE HAMP. Some 90,835 were
                                                     in active trial modifications. For borrowers receiving permanent modifications,
                                                     98.4% received an interest rate reduction, 58.7% received a term extension, 30.7%
                                                     received principal forbearance, and 6.4% received principal forgiveness.164 HAMP
                                                     modification activity, broken out by TARP and GSE loans, is shown in Table 2.12.

                                                     TABLE 2.12
                                                     HAMP MODIFICATION ACTIVITY BY TARP/GSE, AS OF 9/30/2011
                                                                                                                          Trials
                                                                        Trials          Trials          Trials        Converted      Permanents    Permanents
                                                                      Started       Cancelled          Active      to Permanent        Cancelled       Active
                                                     TARP            803,227          343,524         48,556               411,147       70,847       340,300
                                                     GSE             910,785          422,679         42,279               445,827       65,515       380,312
                                                     Total       1,714,012           766,203          90,835              856,974       136,362      720,612
                                                     Source: Treasury, responses to SIGTARP data call, 10/19/2011, 10/21/2011.



                                                     What Happens When a HAMP Modification Is Denied: Servicer Obligations and
                                                     Borrower Rights
                                                     Treasury has issued a series of guidance governing both the obligations of servicers
                                                     and the rights of borrowers in connection with the denial of loan modification
                                                     requests. Borrowers must receive a Non-Approval Notice if they are not approved
                                                     for a HAMP modification and can request reconsideration or re-evaluation if they
     For more information on HAMP
                                                     believe one or more NPV analysis inputs is incorrect or if they experience a change
     servicer obligations and borrower rights,
                                                     in circumstance. Servicers are obligated to have written procedures and personnel
     see SIGTARP’s April 2011 Quarterly
     Report, pages 67-76.
                                                     in place to respond to borrower inquiries and disputes that constitute “escalated
                                                     cases” in a timely manner.

                                                     Single Point of Contact
                                                     Beginning September 1, 2011, the 20 largest mortgage servicers participating in
                                                     MHA (i.e., those servicers that had a Program Participation Cap of $75 million
                                                     or more as of May 18, 2011) were required to assign a single point of contact to
                                                     borrowers potentially eligible for evaluation under HAMP, HAFA, or UP.165 The
                                                     other participating servicers are encouraged, but not required, to adopt this new
                                                     guidance. Borrowers who are: (a) in the process of being evaluated for HAMP,
                                                     HAFA or UP; or (b) already participating in a trial HAMP modification, an
                                                     unemployment forbearance program, or who have executed a HAFA short sale or
                                                     deed-in-lieu agreement as of September 1, 2011, will need to be assigned a single
                                                     point of contact no later than November 1, 2011.166 Borrowers who were deemed
                                                     ineligible for HAMP, HAFA or UP prior to September 1, 2011, and who request
                                                     re-evaluation after September 1, 2011, must be assigned a single point of contact
                                                     if the servicer determines that there has been a significant change in the borrower’s
                                                     circumstances.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   61




     The single point of contact, referred to as the “relationship manager,” will
have the sole primary responsibility for communicating with the borrower (or the
borrower’s authorized advisor) about options to avoid foreclosure, his/her status
in the process, coordination of receipt of documents, and coordination with other
servicer personnel to promote compliance with MHA timelines and requirements.
The relationship manager must be an employee of the servicer and cannot be
a contractor, and will be assigned when the servicer makes successful contact
with the borrower and the servicer determines that it will evaluate the borrower
for HAMP, HAFA or UP.167 This single relationship manager will be responsible
for managing the borrower relationship throughout the entire delinquency or
imminent default resolution process, and if the loan is subsequently referred to
foreclosure, must be available to respond to borrower inquiries regarding the status
of the foreclosure. The relationship manager’s proactive responsibilities end when a
homeowner completes a loan modification or when all loss mitigation actions have
been exhausted.
     The servicer must ensure that one relationship manager is always reachable. If
it is necessary to change the relationship manager (e.g., the relationship manager
is no longer employed, work responsibilities change, on extended leave), the
servicer must provide written notification of the changed contact information
to the borrower within five business days of assignment of the new relationship
manager.168 The servicer must also ensure that it has the appropriate personnel and
infrastructure in place to carry out the relationship manager’s responsibilities when
the relationship manager is not reachable.

Launch of NPV Calculator Website (www.CheckMyNPV.com)
Pursuant to Section 1482 of the Dodd-Frank Act, Treasury and the Department of
Housing and Urban Development (“HUD”) launched a publicly available web-
based NPV calculator based on the HAMP NPV model on May 23, 2011, to assist
borrowers in understanding the NPV evaluation process under HAMP and in
conducting an estimated NPV evaluation of their mortgage. The web-based NPV
calculator can be used by borrowers prior to applying for a HAMP modification
to help them better understand the NPV evaluation process. The tool can also be
used by borrowers who have been denied a HAMP modification because of their
NPV result. Borrowers can enter the NPV input values listed in the HAMP Non-
Approval Notice received from their mortgage servicer, or substitute with estimated
NPV input values, to compare the outcome provided by CheckMyNPV.com against
that on the Non-Approval Notice. According to Treasury, the calculator provides
a downloadable results page that lists “all input variables as well as the outcome,
so that borrowers and servicers together can discuss the factors considered in the
NPV evaluations and their eligibility for HAMP or other foreclosure prevention
programs.”169
62   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Home Price Decline Protection (“HPDP”)
                                            The HPDP initiative provides investors with additional incentives for modifications
                                            of loans on properties located in areas where home prices have recently declined
                                            and where investors are concerned that price declines may persist. HPDP incentive
                                            payments are linked to the rate of recent home price decline in a local housing
                                            market, as well as the unpaid principal balance (“UPB”) and mark-to-market LTV
                                            ratio of the mortgage loan.170
                                                HPDP is intended to address the fears of investors who may withhold their
                                            consent to loan modifications because of potential future declines in the value of
                                            the homes that secure the mortgages, should the modification fail and the loan go
                                            into foreclosure. In such a circumstance, the investor could suffer greater losses for
                                            offering modifications than under an immediate foreclosure. By providing incentive
                                            payments to mitigate that potential loss for a 24-month period, Treasury hopes to
                                            encourage more lenders and investors to modify loans.
                                                Under HPDP, Treasury has published a standard formula, based on the UPB of
                                            the mortgage, the recent decline in area home prices during the six months before
                                            the start of the HAMP modification, and the LTV ratio, that will determine the size
                                            of the incentive payment.171 The HPDP incentive payments accrue monthly over a
                                            24-month period and are paid out annually on the first and second anniversaries of
                                            the initial HAMP trial period mortgage payment. Accruals are discontinued if the
                                            borrower loses good standing under HAMP by missing three mortgage payments.
                                            As of September 30, 2011, according to Treasury, approximately $134.5 million in
                                            TARP funds had been paid to investors. According to Treasury, 83,028 loans have
                                            received HPDP investor incentives.172

                                            Principal Reduction Alternative (“PRA”)
                                            PRA is intended to provide investors with incentive payments to encourage them
                                            to forgive principal for significantly underwater mortgages. PRA is applicable only
                                            to loans modified under TARP-funded HAMP, and therefore does not cover loans
                                            owned, guaranteed, or insured by Freddie Mac or Fannie Mae, which through their
                                            conservator, FHFA, have refused to participate in the program.173 Treasury reported
                                            to SIGTARP that as of September 30, 2011, 47,614 borrowers have received
                                            modifications through PRA.174
                                                Before PRA started, servicers were allowed to forgive principal to achieve the
                                            DTI ratio goal of 31% on a stand-alone basis or before any of the other HAMP
                                            modification steps but did not receive additional incentive payments for doing
                                            so.175 PRA gave servicers new flexibility in applying waterfall steps if they forgave at
                                            least 5% of a borrower’s UPB in conjunction with a PRA modification and added
                                            incentives for investors.176 PRA does not require servicers to forgive principal under
                                            any circumstances, even when doing so is deemed to offer greater financial benefit
                                            to the investor.177

                                            Who Is Eligible
                                            Borrowers who meet all HAMP eligibility requirements and who owe more than
                                            115% of their home’s value are eligible for PRA.178 According to Treasury, servicers
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                  63




may, but are not required to, evaluate for PRA assistance those existing HAMP
borrowers who were in HAMP permanent modifications or existing second-lien
mortgage loans modified through 2MP retroactively.179 Servicers that choose to do
so must develop written policies and procedures to identify existing loans that are
eligible and treat them in a consistent manner.180

How PRA Works
Principal forbearance divides a mortgage loan into two segments, one interest-
bearing and the other not. The borrower continues to make regular principal and
interest payments on the interest-bearing segment, but no monthly payments
are due on the non-interest-bearing segment. Rather, that segment, which                  TABLE 2.13
represents the principal forbearance amount, is due as an additional lump-sum              PRA INCENTIVES TO INVESTORS
or “balloon” payment at the earlier of the sale of the property or the maturity date       PER DOLLAR OF LOAN PRINCIPAL
of the mortgage. Under PRA, if the borrower remains in good standing on the                REDUCED
first, second, and third anniversaries of the modification, the servicer reduces           Mark-to-Market            105%         115%         > 140%
                                                                                           Loan-to-Value             to           to
the principal balance in the separate forbearance account on each anniversary in           Ratio (“LTV”)             115%         140%
installments equal to one-third of the initial PRA forbearance amount.181                  Rangea
    Participating servicers must evaluate for PRA assistance every HAMP-eligible           Incentive Amounts $0.21                $0.15        $0.10
loan that has an outstanding LTV greater than 115%. A servicer does so by                  Note: Loans less than or equal to six months past due. For
                                                                                           loans that were more than six months delinquent within the
running two NPV tests — one with and one without principal forgiveness — using             previous year, investors receive $0.06 per dollar of UPB
                                                                                           forgiven in compensation, regardless of the LTV ratio.
methodologies prescribed by Treasury.182 If the standard waterfall produces a              a
                                                                                             The mark-to-mark LTV is based on the pre-modified UPB of the
positive NPV result, the servicer must modify the loan.183 However, servicers are            first-lien mortgage divided by the value of the property.

not required to offer principal reduction, even when the NPV result under the              Source: Treasury, “Making Home Affordable Program Handbook
                                                                                           for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011,
alternative waterfall using principal forgiveness is positive and exceeds the NPV          www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                                           mhahandbook_33.pdf, accessed 10/17/2011.
result under the standard waterfall; they are required simply to consider PRA-
eligible borrowers for such assistance.184

Who Gets Paid
According to Treasury, in addition to the other incentives paid for first-lien
modifications, investors are entitled to receive a percentage of each dollar of
principal forgiven under PRA. Incentive payments are received on the first, second,
and third anniversaries of the modification date and are paid at the same time
that the previously forborne principal is forgiven.185 According to Treasury, as
of September 30, 2011, Treasury had paid $33,645 in PRA incentives.186 Table
2.13 shows the schedule under which investors are compensated for forgiving
principal for those loans that have been delinquent for six months or less within the
previous year. The incentive payments range from $0.06 to $0.21 per dollar of UPB
forgiven, depending on the level to which the outstanding LTV ratio was reduced
and the period of delinquency.187 The schedule provides increasing incentive
payments for the additional amount by which investors are willing to reduce a
mortgage’s UPB compared with the property’s value. Treasury states that although
servicers may reduce the mortgage principal balance below the floor of a 105%
LTV ratio, no PRA incentives will be paid for that portion of the principal reduction
amount.188
64            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                        As an additional incentive, an investor may agree to reduce a borrower’s UPB as
     Equity Share Agreement: Agreement               part of an equity share agreement under which the borrower and investor agree to
     that a homeowner will share future              share in the increase of the value of the property, under certain conditions.189
     increases in home value with a
     mortgage investor or other party.               Home Affordable Unemployment Program (“UP”)
     In the context of mortgage loan                 UP, which was announced on March 26, 2010, provides temporary assistance
     modifications, the investor may reduce          to borrowers whose hardship is related to unemployment.190 Under the program,
     the borrower’s UPB in return for the            unemployed borrowers who meet certain qualifications can receive forbearance
     right to share in a portion of any future       for a portion of their mortgage payments. Originally, the forbearance period
     rise in the home’s value. An equity             was a minimum of three months, unless the borrower found work during this
     share agreement thus may provide                time. However, on July 7, 2011, Treasury announced that it would increase the
     the mortgage investor with a prospect           minimum UP forbearance period from 3 months to 12 months, effective October
     of recovering its full investment, even         1, 2011. The extended term will be subject to investor and regulatory guidance.
     if it provides a principal reduction            Servicers must consider any borrowers who are already in UP when the change
     to the borrower. Conversely, it may             goes into effect for an extension to 12 months. Treasury also made the UP program
     also provide an immediate benefit to            available to unemployed borrowers who are seriously delinquent (overdue by more
     an “underwater” borrower, yet still             than three months).191 As of August 31, 2011, which according to Treasury is the
     offer that borrower some prospect               latest data available, 5,880 borrowers were actively participating in UP.192
     of benefiting from future home price
     appreciation.                                   Who Is Eligible
                                                     Borrowers who receive unemployment benefits and also request assistance under
                                                     HAMP must be evaluated by servicers for an UP forbearance plan and, if eligible,
     For more information concerning                 offered one. Originally, a borrower who was seriously delinquent (three months
     equity share agreements in the context          or more overdue) was not eligible for UP. However, on July 25, 2011, Treasury
     of HAMP mortgage loan modifications,            removed that restriction. Servicers are not required to offer an UP forbearance
     see SIGTARP’s April 2011 Quarterly              plan to borrowers who are more than 12 months delinquent at the time of the
     Report, page 84.                                UP request.193 Alternatively, the servicers may evaluate unemployed borrowers for
                                                     HAMP and offer a HAMP trial period plan instead of an UP forbearance plan if,
                                                     in the servicer’s business judgment, HAMP is the better loss mitigation option. If
                                                     an unemployed borrower is offered a trial period plan but requests UP forbearance
                                                     instead, the servicer may then offer UP, but is not required to do so.194
                                                         Eligible borrowers may request a new HAMP trial period plan after the UP
                                                     forbearance plan is completed. If an unemployed borrower in bankruptcy
                                                     proceedings requests consideration for HAMP, the servicer must first evaluate the
                                                     borrower for UP, subject to any required bankruptcy court approvals.195 A borrower
                                                     who has been determined to be ineligible for HAMP may request assessment for
                                                     an UP forbearance plan if he or she meets all the eligibility criteria.196 If a borrower
                                                     who is eligible for UP declines an offer for an UP forbearance plan, the servicer is
                                                     not required to offer the borrower a modification under HAMP or 2MP while the
                                                     borrower remains eligible for an UP forbearance plan.197

                                                     How UP Works
                                                     For qualifying homeowners, the mortgage payments during the forbearance
                                                     period are lowered to no more than 31% of gross monthly income, which includes
                                                     unemployment benefits.198
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011              65




    If the borrower regains employment but because of reduced income still has a
hardship, the borrower must be considered for HAMP. If the borrower is eligible,
any payments missed prior to and during the period of the UP forbearance plan
are capitalized as part of the normal HAMP modification process.199 If the UP                  For more information on additional UP
forbearance period expires and the borrower is ineligible for HAMP, the borrower               eligibility criteria, see SIGTARP’s April
may be eligible for HAMP foreclosure alternatives, such as HAFA.200                            2011 Quarterly Report, pages 80-81.


Home Affordable Foreclosure Alternatives (“HAFA”)
HAFA provides incentives to servicers, borrowers, and subordinate lien holders
to encourage a short sale or deed-in-lieu of foreclosure as an alternative to
foreclosure.201 Under HAFA, the servicer forfeits the ability to pursue a deficiency          Deficiency Judgment: Court order
judgment against a borrower when the proceeds from the short sale or deed-in-                 authorizing a lender to collect all or
lieu are less than the outstanding amount on the mortgage.202 HAFA incentives                 part of an unpaid and outstanding debt
include a $3,000 “relocation” incentive payment to borrowers, a $1,500 incentive              resulting from the borrower’s default
payment to servicers, and incentive payments to subordinate mortgage lien holders             on the mortgage note securing a debt.
of up to $2,000 in exchange for a release of the lien and the borrower’s liability.203        A deficiency judgment is rendered
The program was announced on November 30, 2009, and went into effect on                       after the foreclosed or repossessed
April 5, 2010.204 Treasury has allocated $4.1 billion from its MHA funding for this           property is sold when the proceeds are
program.205                                                                                   insufficient to repay the full mortgage
    Treasury allows each servicer participating in HAFA to determine its own                  debt.
policies for borrower eligibility and many other aspects of how it operates the
program. After October 15, 2011, borrowers will be able to find the eligibility
criteria and other unique rules used by their servicer on the servicer’s website.
Treasury will post the location of this information on www.MakingHomeAffordable.
gov.206
    On August 9, 2011, Treasury changed its policies to require servicers to notify
eligible borrowers in writing about the availability of the HAFA program. After this
notification, servicers must now allow the borrower a minimum of 14 calendar days
to request to be considered for HAFA.207
    Under HAFA, the borrower provides evidence of hardship by completing and
executing a Hardship Affidavit or RMA. Servicers are not required by Treasury
to verify a borrower’s financial information or determine whether the borrower’s
total monthly payment exceeds 31% of his or her gross monthly income, unless
this verification is required by the investor. However, servicers retain the discretion
to require borrowers to provide additional financial information or evidence of
hardship.208
    The $3,000 relocation incentive paid to the borrower is intended to assist with
moving expenses, although a recent policy change by Treasury allows borrowers
to use this incentive to cover the cost of legal representation, overdue utility
bills, and minor property repairs as well.209 To receive the relocation incentive, a
borrower is required only to provide documentation that the property was used as
the primary residence at some point within the 12 months preceding the request
for assistance.210 Servicers are required to obtain third-party verification that the
property was the borrower’s primary residence at some point within the prior 12
months, and may not rely exclusively on an affidavit provided by the borrower. The
66            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     property can be vacant or even rented to a non-borrower. A borrower’s reason for
                                                     relocation and the distance of that relocation from the property are not relevant.211
                                                         Borrowers do not actually have to move out of their homes in order to receive
                                                     the $3,000 relocation incentive.212 After a borrower relinquishes title to the home
                                                     to the servicer, the servicer can allow the borrower to remain in the home as a
                                                     renter (referred to as a “deed-for-lease”) or to repurchase the property later without
                                                     affecting the borrower’s right to receive the incentive payment. Servicers have the
                                                     option to pay the incentive either upon successful surrender of the title or when
                                                     the borrower vacates or repurchases the property.213
                                                         As of September 30, 2011, approximately $68.9 million from TARP had been
                                                     paid to investors, borrowers, and servicers in connection with 18,557 short sales or
                                                     deeds-in-lieu of foreclosure transfers completed under HAFA.214 As of August 31,
                                                     2011, the latest data available, Treasury reported that the 10 largest servicers alone
                                                     had completed 138,189 short sales and deeds-in-lieu outside HAMP for borrowers
                                                     whose HAMP trial modifications had failed, borrowers who had chosen not to
                                                     participate, or were ineligible for the program.215 The greater volume of activity
                                                     outside HAFA may be explained, in part, by the fees and deficiency judgments that
                                                     servicers are able to collect from the borrower in non-HAFA transactions, fees and
                                                     judgments that are not available within HAFA.

                                                     Second-Lien Modification Program (“2MP”)
                                                     According to Treasury, 2MP is designed to work in tandem with HAMP and to
                                                     help provide relief for borrowers with second mortgages that are serviced by a
                                                     participating 2MP servicer. The same servicer does not have to service both liens
                                                     in order for the second lien to be eligible for modification under 2MP. Under the
                                                     program, when a borrower’s first lien is modified under HAMP and the servicer
                                                     of the second lien is a 2MP participant, that servicer must offer to modify or may
                                                     extinguish the borrower’s second lien. 2MP relies on existing first-lien data and any
                                                     additional information obtained from HAMP’s administrator. The servicer modifies
                                                     the borrower’s second lien according to “a defined protocol,” accepting a lump-sum
                                                     payment from Treasury for full extinguishment of the second-lien principal or in
                                                     exchange for a partial extinguishment and the modification of the remainder of the
                                                     second lien.216 Second-lien servicers are not required to verify any of the borrower’s
                                                     financial information and do not perform a separate NPV analysis in order to
                                                     modify the second lien.
     Servicing Advances: If borrowers’                   To be eligible for a 2MP modification or partial extinguishment, the second
     payments are not made promptly                  lien must have a UPB of at least $5,000 and a pre-modification mortgage payment
     and in full, servicers are contractually        of at least $100 as of the date of its initial evaluation for the program.217 There
     obligated to advance the required               is no minimum UPB for a full extinguishment of a second lien under 2MP. For
     monthly payment amount in full to the           a second-lien modification under 2MP, the servicer first capitalizes any accrued
     investor. Once a borrower becomes               interest and servicing advances, then reduces the interest rate, which is determined
     current or the property is sold or              by the nature of the loan. The interest rate for amortizing second liens (those that
     acquired through foreclosure, the               require payments of both interest and principal) decreases to 1% for the first five
     servicer is repaid all advanced funds.          years of the loan. If the loan is interest-only (non-amortizing), the servicer can
                                                     either convert the interest-only payment to an amortizing equivalent bearing a 1%
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                     67




interest rate or retain the interest-only schedule and reduce the rate to 2% for the         TABLE 2.14
first five years. In both cases, after the five-year period the rate increases to match       2MP COMPENSATION PER DOLLAR
the rate on the HAMP-modified first lien. When modifying the second lien, the                 OF LOAN PRINCIPAL EXTINGUISHED
servicer must, at a minimum, extend the term to match the term of the first lien              Combined Loan-                            115%
but can extend the term up to a maximum of 40 years. To the extent that there is              to-Value (“CLTV”)          < 115%          to         > 140%
                                                                                              Ratio Rangea                              140%
forbearance or principal reduction for the modified first lien, the second-lien holder
                                                                                              Incentive Amounts            $0.21        $0.15         $0.10
must forbear or forgive at least the same percentage on the second lien.218
                                                                                              Note: Loans less than or equal to six months past due. For
    The servicer receives a $500 incentive payment upon modification of a                     loans that were more than six months past delinquent within
                                                                                              the previous year, investors will receive $0.06 per dollar in
second lien. If a borrower’s monthly second-lien payment is reduced by 6% or                  compensation, regardless of the CLTV ratio.
more, the servicer is eligible for an annual incentive payment of $250 per year               a
                                                                                                Combined Loan-to-Value is the ratio of the sum of the current
                                                                                                total UPB of the HAMP-modified first lien and the current total
for up to three years, and the borrower is eligible for an annual principal balance             UPB of the unmodified second lien divided by the property
                                                                                                value determined in connection with the permanent HAMP
reduction payment of up to $250 per year for up to five years.219 Investors receive             modification.

modification incentive payments equal to an annualized amount of 1.6% of the                  Source: Treasury, “MHA Handbook for Servicer of Non-GSE
                                                                                              Mortgages, Version 3.3,” 9/1/2011, https://www.hmpadmin.
unmodified UPB, paid on a monthly basis for up to five years. If the borrower                 com/portal/programs/docs/hamp_servicer/mhahandbook_33.
                                                                                              pdf, accessed 10/17/2011.
misses three payments on the modified second lien or if the associated first lien is
no longer in good standing, no further incentive payments are typically made to
the servicer or the borrower.220 However, the incentives may be paid under certain
conditions.221 If the second lien is fully or partially extinguished, the investor
receives a payment of a percentage of the amount extinguished, using the schedule
shown in Table 2.14. This schedule applies only to loans that have been six months
delinquent or less within the previous year. For loans that have been more than six
months delinquent within the previous 12 months, investors are paid $0.06 per
dollar of the UPB of second liens being extinguished, regardless of the combined
LTV ratio.222 As of September 30, 2011, according to Treasury, approximately $50.4
million in TARP funds had been paid to servicers and investors in connection with
45,705 loan extinguishments and modifications under 2MP.223

Agency-Insured Loan Programs (Treasury/FHA-HAMP,
RD-HAMP and VA-HAMP)
Some mortgage loans insured or guaranteed by the Federal Housing Administration
(“FHA”), Department of Veterans Affairs (“VA”), or the U.S. Department of
Agriculture Rural Development (“RD”) are eligible for modification under HAMP
companion programs. Similar to HAMP, Treasury/FHA-HAMP and RD-HAMP
reduce borrowers’ monthly mortgage payments to 31% of their gross monthly
income and require borrowers to complete trial payment plans before their
loans are permanently modified. Subject to meeting Treasury’s eligibility criteria,
borrowers are eligible to receive a maximum $1,000 incentive and servicers are
eligible to receive a maximum $1,000 incentive from Treasury on mortgages in
which the monthly payment was reduced by at least 6%.224 Incentive payments
to servicers are paid annually for the first three years after the first anniversary of
the first trial payment due date, as long as the loan remains in good standing and
has not been fully repaid at the time the incentive is paid. Incentive payments
to borrowers are paid over five years.225 Unlike HAMP, no payments are made to
investors because they already have the benefit of a Government loan guarantee.226
In order to participate in these programs, servicers that previously executed a SPA
 68                  SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                    were required to execute — by October 3, 2010 — an Amended and Restated SPA
                                                                    or an additional Service Schedule that includes Treasury/FHA-HAMP or RD-
                                                                    HAMP.227 As of September 30, 2011, according to Treasury, approximately $4.3
                                                                    million in TARP funds had been paid to servicers and borrowers in connection with
                                                                    4,009 permanent Treasury/FHA-HAMP modifications. According to Treasury, no
                                                                    TARP funds have been spent on incentive payments under RD-HAMP and there
                                                                    have been no modifications under the program.228
                                                                        VA-HAMP follows the typical HAMP modification procedure, aiming to reduce
                                                                    monthly mortgage payments to 31% of a borrower’s gross monthly income.229
                                                                    However, VA-HAMP modifications do not have a trial period. The modification
                                                                    agreement immediately changes the installment amount of the mortgage
                                                                    payment.230 Treasury does not provide incentive compensation related to VA-
                                                                    HAMP.231 VA-HAMP also does not require servicers to sign a SPA.232

TABLE 2.15                                                          Treasury/FHA Second-Lien Program (“FHA2LP”)
TREASURY FHA2LP COMPENSATION                                        According to Treasury, FHA2LP, which was launched on September 27, 2010, was
PER DOLLAR OF LOAN PRINCIPAL                                        designed to complement the FHA Short Refinance Program (described below) by
EXTINGUISHED                                                        providing incentives for partial or full extinguishment of second liens associated
Mark-to-Market                                                      with an FHA refinance.233 Treasury has allocated TARP support in the amount of
                             105%         115%
Loan-to-Value
                              to           to         > 140%        $2.7 billion to make incentive payments to servicers and holders of existing second
Ratio (“LTV”)
                             115%         140%
Rangea                                                              liens for partial or full extinguishments under FHA2LP.234 According to Treasury, as
Incentive Amounts           $0.21         $0.15         $0.10       of September 30, 2011, it had not made any incentive payments under FHA2LP,
Notes: Loans less than or equal to six months past due. For         and no second liens had been extinguished.235
loans that were more than six months delinquent within the
previous year, investors will receive $0.06 per dollar of loan          To be eligible for FHA2LP, a homeowner must meet the eligibility requirements
principle extinguished in compensation, regardless of the CLTV
ratio.
                                                                    of the FHA Short Refinance Program. Additionally, second liens must have been
a
  The CLTV is the ratio of all mortgage debt to the current FHA-
  appraised value of the property.
                                                                    originated on or before January 1, 2009; be immediately subordinated to the first
                                                                    lien before the FHA refinance; require the borrower to make a monthly payment;
Source: Treasury, “Supplemental Directive 10-08: Making
Home Affordable Program – Treasury/FHA Second Lien                  not be GSE-owned or guaranteed; and have a UPB of $2,500 or more on the day
Program (FHA2LP) to Support FHA Refinance of Borrowers in
Negative Equity Positions,” 8/6/2010, https://www.hmpadmin.         before the FHA refinance closing date.
com/portal/programs/docs/hamp_servicer/sd1012.pdf,
accessed 10/21/2011.
                                                                        Under FHA2LP, existing second-lien holders may receive incentive payments to
                                                                    extinguish their debts in accordance with the schedule set forth in Table 2.15, or
                                                                    they may negotiate with the first-lien holder for a portion of the new subordinate-
      For more information concerning                               lien loan.236 TARP has allocated $2.7 billion under its existing servicer caps to make
      FHA2LP eligibility, see SIGTARP’s April                       incentive payments, subject to certain limitations, to (1) investors for pre-existing
      2011 Quarterly Report, pages 85-87.                           second-lien balances that are partially or fully extinguished under FHA2LP and
                                                                    (2) servicers, in the amount of $500 for each second-lien mortgage placed into the
                                                                    program.237

                                                                    Servicer Quality Assurance Program
                                                                    Effective May 1, 2011, servicers are required to develop, document, and execute
                                                                    an effective internal quality assurance (“QA”) program that includes independent
                                                                    reviews, conducted at least quarterly, of each MHA program in which the
                                                                    servicer participates. The purpose of these reviews is to ensure that the servicer is
                                                                    following the SPA and program guidelines.238 The QA team must conduct reviews
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   69




at least quarterly and distribute a report to senior management that includes
recommendations for remediation actions. These reports must be retained by
senior management and made available to Treasury’s compliance agent, Making
Home Affordable-Compliance (“MHA-C”), upon request.239

MHA Servicer Assessments
Treasury has begun publishing quarterly Servicer Assessments of the 10 largest
mortgage servicers participating in MHA. The first of these assessments, primarily
covering the first quarter of 2011, was published in the April 2011 MHA Program
Report that was issued in June 2011.240 The assessment for the second quarter
of 2011 was published in the July 2011 MHA Program Report, which was issued
on September 1, 2011. Some assessment data was carried over from the prior
quarter.241
    Servicer Assessments focus on compliance with the requirements of the
MHA program and on program results. The compliance assessment portion is
based on the findings of servicer compliance reviews conducted by MHA-C.
These findings are divided into three performance categories: Identifying and
Contacting Homeowners; Homeowner Evaluation and Assistance; and Program
Management, Reporting, and Governance. These categories in turn contain several
quantitative and qualitative metrics, which Treasury rates using a score of one, two,
or three stars, with three stars denoting the highest rating.242 Program results are
reported for four quantitative metrics: Aged Trials as a Percentage of Active Trials;
Conversion Rate for Trials Started On or After June 1, 2010; Average Calendar
Days to Resolve Escalated Cases; and Percentage of Missing Modification Status
Reports. The servicer’s performance in each of the four metrics is not scored, but
instead is compared with the best and worst performances of all evaluated MHA
servicers.243 The servicers are also rated on the effectiveness of their internal
controls in each of the three categories.
    Treasury issues determinations indicating whether the servicer requires minor
improvement, moderate improvement, or substantial improvement. Treasury
informs the servicer of any specific deficiencies it has identified. According to
Treasury, in some cases, Treasury may withhold or permanently reduce servicer
incentives based on the assessment results. If Treasury does not withhold or
reduce incentives in a particular quarter, it may do so in subsequent quarters if the
deficiencies are not corrected.244
    In the second quarter 2011 assessment, Treasury determined that Bank
of America, N.A. and J.P. Morgan Chase Bank, N.A. required substantial
improvement and said it would continue to withhold incentives from these two
servicers.245 As of September 30, 2011, Bank of America and J.P. Morgan Chase
had approximately $24.7 million and $37.8 million, respectively, in incentives
withheld in connection with the servicer assessments.246 Both banks received the
same rating in the first quarter 2011 assessment.247
    According to Treasury, Wells Fargo, N.A. and Ocwen Loan Servicing, LLC
improved their ratings in the second quarter of 2011. Treasury found that they
needed moderate improvement compared with needing substantial improvement
70            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     in the previous quarter. Treasury said it would release to Wells Fargo $21 million
                                                     in incentives that had been withheld because of the servicer’s first quarter 2011
                                                     performance.248 Treasury did not withhold incentives from Ocwen in the first
                                                     quarter of 2011.
                                                         The second quarter assessment also found that three other servicers required
                                                     moderate improvement: American Home Mortgage Servicing, Inc.; CitiMortgage,
     For more information on MHA Servicer
     Assessments, see Section 4: “SIGTARP
                                                     Inc.; and Select Portfolio Servicing. Treasury determined that three servicers
     Recommendations” of this report.                needed minor improvement: GMAC Mortgage, LLC; Litton Loan Servicing, LP;
                                                     and OneWest Bank. Treasury did not withhold or reduce incentives for the eight
                                                     servicers that were rated as needing moderate or minor improvement.249

                                                     FHA Short Refinance Program
                                                     On March 26, 2010, Treasury and HUD announced the FHA Short Refinance
                                                     program, which gives borrowers the option of refinancing an underwater, non-
                                                     FHA-insured mortgage into an FHA-insured mortgage at 97.75% of the home’s
                                                     value. The program was launched on September 7, 2010. Treasury has allocated
                                                     TARP support for the program consisting of (1) up to $8 billion to provide loss
                                                     protection to FHA on the refinanced first liens through the purchase of a letter
                                                     of credit; and (2) up to $117 million in fees Treasury will incur for the availability
                                                     and use of the letter of credit.250 FHA Short Refinance is voluntary for servicers;
                                                     therefore, not all underwater borrowers who qualify may be able to participate in
                                                     the program.251 As of September 30, 2011, according to Treasury, 334 loans had
                                                     been refinanced under the program.252 According to Treasury, there have been
                                                     no defaults on these loans as of September 30, 2011 where Treasury has been
     FICO Credit Score: Used by                      required to pay a portion of the claim. However, Treasury informed SIGTARP that
     lenders to assess an applicant’s                it does not receive performance data from FHA due to a “lack of volume” in the
     credit risk and whether to extend               program, and that “it is possible that one or more FHA Short Refinance Loans
     a loan. It is determined by the Fair            have defaulted but FHA has not yet evaluated a claim payment submitted by the
     Isaac Corporation (“FICO”) using                respective investor.”253 Treasury has deposited $50 million into a reserve account
     mathematical models based on an                 for future claims.254 It has also spent approximately $5 million on administrative
     applicant’s payment history, level of           expenses associated with the letter of credit.255
     indebtedness, types of credit used,
     length of credit history, and newly             Who Is Eligible
     extended credit.                                To be eligible for FHA Short Refinance, a homeowner must be current on the
                                                     existing first-lien mortgage; be in a negative equity position; occupy the home as
                                                     a primary residence; qualify for the new loan under standard FHA underwriting
                                                     requirements and have a FICO credit score of at least 500; have an existing loan
     For more information concerning
                                                     that is not insured by FHA; and fully document his or her income.256
     FHA Short Refinance eligibility, see
     SIGTARP’s April 2011 Quarterly
                                                         According to HUD, applications are evaluated using FHA’s TOTAL Scorecard
     Report, pages 85-87.                            (“TOTAL”). TOTAL evaluates the credit risk of FHA loans that are submitted to
                                                     an automated underwriting system. It is FHA’s policy that no borrower be denied
                                                     an FHA-insured mortgage solely on the basis of a risk assessment generated by
                                                     TOTAL.257
                                                                                QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   71




How FHA Short Refinance Works
Servicers must first determine the current value of the home pursuant to FHA
underwriting standards, which requires a third-party appraisal by a HUD-approved
appraiser. The borrower is then reviewed through TOTAL and, if necessary,
referred for a manual underwriting review to confirm that the borrower’s total
monthly mortgage payment (including all payments on subordinate liens) after the
refinance is not greater than 31% of the borrower’s gross monthly income and the
total debt service, including all forms of household debt, is not greater than 50%.258
Next, the lien holders must forgive principal that is more than 115% of the value
of the home. In addition, the original first-lien lender must forgive at least 10% of
the unpaid principal balance of the first-lien loan. Although the first-lien investors
must recognize a loss as a result of the mortgage write-down, they receive a cash
payment for 97.75% of the current home value from the proceeds of the refinance
and may maintain a subordinate second lien for up to 17.25% of that value (for a
total balance of 115% of the home’s value).259 The 115% cap applies to all mortgage
liens on the property. By obtaining a new FHA-guaranteed loan for an amount that
is closer to the current home value than their previous loan, homeowners receive
the benefits of a lower monthly mortgage payment and reduction in the principal
balance, improving their opportunity to achieve positive equity in their homes.260
    If a borrower defaults on a loan refinanced under FHA Short Refinance
and submits a claim, the letter of credit purchased by TARP compensates the
refinancing investor for a first percentage of losses on each defaulted mortgage, up
to the maximum amount specified by the program guidelines.261 This percentage
varies from year to year and is set according to a formula derived by the Office of
Management and Budget (“OMB”).262 FHA thus is potentially responsible for the
remaining approximately 86.6% of potential losses on each mortgage, until the
earlier of either (1) the time that the $8 billion letter of credit posted by Treasury is
exhausted, or (2) 10 years from the issuance of the letter of credit (October 2020),
at which point FHA will bear all of the remaining losses.263

Housing Finance Agency Hardest Hit Fund (“HHF”)
On February 19, 2010, the Administration announced a housing support program
known as the Hardest Hit Fund, which was intended to promote “innovative”
measures to protect home values, preserve homeownership, and promote jobs
and economic growth in the states that have been hit the hardest by the housing
crisis.264 The first round of HHF allocated $1.5 billion of the amount designated
for MHA initiatives. According to Treasury, these funds were designated for five
states where the average home price, determined using the FHFA Purchase Only
Seasonally Adjusted Index, had decreased more than 20% from its peak. The five
states were Arizona, California, Florida, Michigan, and Nevada.265 Plans to use
these funds were approved on June 23, 2010.266
    On March 29, 2010, Treasury expanded HHF to include five additional states
and increased the program’s potential funding by $600 million, bringing total
funding to $2.1 billion. The additional $600 million was designated for North
72   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            Carolina, Ohio, Oregon, Rhode Island, and South Carolina. Treasury indicated
                                            that these states were selected because of their high concentrations of people living
                                            in economically distressed areas, defined as counties in which the unemployment
                                            rate exceeded 12%, on average, in 2009.267 Plans to use these funds were approved
                                            on August 3, 2010.268
                                                On August 11, 2010, the Government pledged a third round of HHF funding
                                            of $2 billion in additional assistance to state HFA programs that focus on
                                            unemployed homeowners who are struggling to make their payments.269 According
                                            to Treasury, the third funding round was limited to states that have experienced
                                            unemployment rates at or above the national average during the preceding 12
                                            months.270 The states designated to receive funding were Alabama, California,
                                            Florida, Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada,
                                            New Jersey, North Carolina, Ohio, Oregon, Rhode Island, South Carolina, and
                                            Tennessee. Washington, DC, also received funding.271 States already covered by
                                            the first two HHF rounds of funding may use the additional resources “to support
                                            the unemployment programs previously approved by Treasury or they may opt
                                            to implement a new unemployment program.”272 States seeking to tap HHF for
                                            the first time were required to submit need-specific proposals that met program
                                            guidelines to Treasury by September 1, 2010.273 Plans to use to these funds
                                            were approved on September 23, 2010.274 Finally, on September 29, 2010, an
                                            additional $3.5 billion was made available to existing HHF participants, weighted
                                            by population, to be used in previously announced programs.275
                                                The Housing Finance Agencies (“HFAs”) of the eligible 18 states and
                                            Washington, DC, each submitted proposals to Treasury. The purpose of these
                                            proposals, according to Treasury, was to “meet the unique challenges facing strug-
                                            gling homeowners in their respective housing markets.”276 Treasury required each
                                            state to estimate in its proposal the number of borrowers to be helped. According to
                                            Treasury, each state’s HFA will report program results (i.e., number of applications
                                            approved or denied and assistance provided) on a quarterly basis and post the re-
                                            ports on its website. Some states will initiate pilot programs to assess program per-
                                            formance before full implementation. Treasury indicated that states can reallocate
                                            funds between programs and modify existing programs as needed, with Treasury
                                            approval, until funds are expended or returned to Treasury after December 31,
                                            2017. According to Treasury, since July 28, 2011, several states have reallocated
                                            funds, modified or eliminated existing programs, or established new HHF programs
                                            with Treasury approval, bringing the total number of HHF programs in 18 states
                                            and Washington, DC, as of September 30, 2011, to 54.277
                                                Table 2.16 shows the obligation of funds and funds drawn for states
                                            participating in the four rounds of HHF as of September 30, 2011. As of that date,
                                            the states had drawn down $655.4 million under the program. According to the
                                            latest data available from the states and Treasury as of June 30, 2011, the states
                                            had spent only a limited portion of the amount drawn on assisting borrowers; see
                                            Table 2.17. The majority of the amount drawn is held as unspent cash-on-hand.278
                                                                                                                    QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                 73




TABLE 2.16
HHF FUNDING OBLIGATED AND DRAWDOWNS BY STATE, AS OF
9/30/2011
Recipient                                        Amount Obligated                          Amount Drawn*
Alabama                                                $162,521,345                               $8,000,000
Arizona                                                  267,766,006                              21,255,000
California                                            1,975,334,096                             217,490,000
Florida                                               1,057,839,136                               36,900,000
Georgia                                                  339,255,819                              38,200,000
Illinois                                                 445,603,557                              11,500,000
Indiana                                                  221,694,139                              22,000,000
Kentucky                                                 148,901,875                              14,000,000
Michigan                                                 498,605,738                              30,166,175
Mississippi                                              101,888,323                               2,547,208
Nevada                                                   194,026,240                               7,451,000
New Jersey                                               300,548,144                               7,513,704
North Carolina                                           482,781,786                              78,000,000
Ohio                                                     570,395,099                              65,600,000
Oregon                                                   220,042,786                              59,501,070
Rhode Island                                               79,351,573                             13,000,000
South Carolina                                           295,431,547                               7,500,000
                                                                                                                                     For more information on HHF program
Tennessee                                                217,315,593                              12,315,593
                                                                                                                                     specifics and funding details for the
Washington, DC                                             20,697,198                              2,434,860
                                                                                                                                     participating states and Washington,
Total                                              $7,600,000,000                            $655,374,610                            DC, as of April 5, 2011, see SIGTARP’s
Source: Treasury, response to SIGTARP data call, 10/5/2011.                                                                          April 2011 Quarterly Report, pages
*A
  mount Drawn includes funds for program expenses (direct assistance to borrowers), administrative expenses, and                    90-101.
 cash-on-hand.

                                                                                                                                     For updated information regarding the
    As of June 30, 2011, which according to Treasury is the latest data available,                                                   use of HHF funds, see: www.treasury.
18 of the 19 HFAs participating in HHF had provided $42.4 million in assistance                                                      gov/initiatives/financial-stability/housing-
to 7,389 unique borrowers under their HHF programs since inception.279 Of                                                            programs/hhf/pages/default.aspx.
the 19 HHF recipients, only New Jersey had not spent any funds on borrower
assistance as of June 30, 2011.280 Treasury requires states to publish updated
borrower assistance and program data on their websites on a quarterly basis—the
information for the program as of the third quarter of 2011 will be posted on
November 15, 2011. Each state estimates the number of borrowers to be helped
in its programs. Table 2.17 provides this estimate as well as the actual number of
borrowers helped by state using data as of June 30, 2011.
74   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            TABLE 2.17
                                            HHF ESTIMATED AND ACTUAL NUMBER OF BORROWERS ASSISTED AND
                                            ASSISTANCE PROVIDED, BY STATE, AS OF 6/30/2011
                                                                                      Estimated Number
                                                                                         of Participating               Actual Borrowers
                                                                                           Households to                        Receiving                   Assistance
                                                                                          be Assisted by                 Assistance as of                Provided as of
                                            State                                         12/31/2017*                     6/30/2011**                    6/30/2011**
                                            Alabama                                                      8,500                             374                $1,227,739
                                            Arizona                                        8,236 to 11,742                                   78                1,822,815
                                            California                                                101,337                            1,022                 8,086,989
                                            Florida                                                   106,000                                39                1,043,991
                                            Georgia                                                    18,300                              233                      69,366
                                            Illinois                                     16,000 to 27,000                                      3                    19,710
                                            Indiana                                                    16,257                                  7                    65,340
                                            Kentucky                                       6,250 to 13,000                                 211                    731,020
                                            Michigan                                                   49,422                              860                 2,885,620
                                            Mississippi                                                  3,800                                 1                    12,755
                                            Nevada                                       23,556 to 25,540                                  115                    631,796
                                            New Jersey                                                   6,900                                —                           —
                                            North Carolina                                             22,290                              926                 5,840,091
                                            Ohio                                                       63,485                            1,596                11,360,527
                                            Oregon                                                     13,280                            1,010                 2,448,310
                                            Rhode Island                                                 5,042                             475                 4,408,929
                                            South Carolina                               21,100 to 34,100                                  237                    851,515
                                            Tennessee                                                  11,211                              163                    590,664
                                            Washington, DC                                      540 to 1,000                                 39                   283,076
                                            Total:                                  501,506 to 538,206                                  7,389             $42,380,253
                                            * Source: Estimates are from the latest HFA Participation Agreements as of 6/30/2011. Later amendments are not included for
                                            consistency with Quarterly Performance reporting.

                                            States report the Estimated Number of Participating Households individually for each HHF program they operate. This column shows
                                            the totals of the individual program estimates for each state. Therefore, according to Treasury, these totals do not necessarily
                                            translate into the number of unique households that the states expect to assist because some households may participate in more
                                            than one HHF program.

                                            ** Source: Second quarter 2011 HFA Performance Data quarterly reports and Second Quarter 2011 HFA Aggregate Quarterly
                                            Report. Both sources are as of 6/30/2011.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   75




FINANCIAL INSTITUTION SUPPORT PROGRAMS
Treasury created six TARP programs through which it made capital investments
or asset guarantees in exchange for equity in participating financial institutions.
Three of the programs, the Capital Purchase Program (“CPP”), the Community
Development Capital Initiative (“CDCI”), and the Capital Assistance Program
(“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
three, the Systemically Significant Failing Institutions (“SSFI”) program, the
Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
were available on a case-by-case basis to institutions that needed assistance beyond
that available through CPP. With the expiration of TARP funding authorization, no
new investments can be made through these six programs.
    To help improve the capital structure of some struggling TARP recipients,
Treasury has agreed to modify its investment in certain cases by converting the
preferred stock it originally received into other forms of equity, such as common
stock or mandatorily convertible preferred stock.281

Capital Purchase Program
Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a
way to promote financial stability, maintain confidence in the financial system, and
enable lenders to meet the nation’s credit needs.282 CPP was a voluntary program
open to all QFIs through an application process. QFIs included U.S.-controlled
banks, savings associations, and certain bank and savings and loan holding
companies.283
    Under CPP, Treasury used TARP funds predominantly to purchase preferred
equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
a 5% annual dividend for the first five years and a 9% annual dividend thereafter.
In addition to the senior preferred shares, publicly traded QFIs issued Treasury
warrants to purchase common stock with an aggregate market price equal to 15%
of the senior preferred share investment. Privately held QFIs issued Treasury
warrants to purchase additional senior preferred stock worth 5% of Treasury’s initial
preferred stock investment.284 In total, Treasury invested $204.9 billion of TARP
funds in 707 QFIs through CPP.285
    According to Treasury, through September 30, 2011, 263 banks – including 10
with the largest CPP investments and 137 that refinanced into SBLF – had fully
repaid CPP through repurchases of all of their preferred shares or through sales
of common stock. In addition, 28 banks had converted their CPP investments
into CDCI. Table 2.20 provides a list of institutions that refinanced their CPP
investments into SBLF. In addition, 12 banks have partially repaid by purchasing a
portion of their preferred shares from Treasury.286 Some CPP recipients have also
failed, filed bankruptcy, or had Treasury’s CPP investment restructured or been
sold at a discount. According to Treasury, an additional 11 CPP investments have
been sold for less than their par value and 13 are in various stages of bankruptcy or
receivership.287
76   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            FIGURE 2.2

                                            SNAPSHOT OF CPP FUNDS OUTSTANDING AND REPAID,
                                            BY QUARTER
                                            ($ BILLIONS)

                                                                 198.8
                                            200                   0.4 203.2 204.6 204.9 204.9 204.9 204.9 204.9 204.9 204.9 204.9
                                                           177.5 198.4 70.1 70.7 121.9 135.8 146.9 152.8 167.9 179.1 180.6 184.9
                                                           177.5
                                            150
                                                   115.0                   133.1 133.9
                                            100    115.0

                                                                                            83.0
                                             50                                                     69.1
                                                                                                            58.0    52.1
                                                                                                                            37.0
                                                                                                                                    25.9 24.3       20.0
                                              0
                                                   Q308 Q408 Q109 Q209 Q309 Q409 Q110 Q210 Q310 Q410 Q111 Q211 Q311


                                                       CPP Funds Outstanding at Quarter’s End
                                                       CPP Funds Repaid at Quarter’s End

                                            Note: Numbers affected by rounding.

                                            Source: Treasury, Transactions Report, 10/3/2011.




                                            Status of Funds
                                            According to Treasury, through CPP, Treasury purchased $204.9 billion in
                                            preferred stock and subordinated debentures from 707 QFIs in 48 states, the
                                            District of Columbia, and Puerto Rico. Although the ten largest investments
                                            accounted for $142.6 billion of the program, CPP made many smaller investments:
                                            331 of 707 recipients received $10 million or less.288 Table 2.18 and Table 2.19
                                            show the distribution of investments by amount.

                                            TABLE 2.18
                                            CPP INVESTMENT SUMMARY BY TRANSACTION, AS OF 9/30/2011
                                                                                                                                   Originala                        Currentb
                                            Total Investment                                                                $204.9 billion                     $24.3 billion
                                            Largest Capital Investment                                                        $25.0 billion                      $3.5 billion
                                            Smallest Capital Investment                                                    $301 thousand                   $301 thousand
                                            Average Capital Investment                                                      $277.3 million                    $43.7 million
                                            Median Capital Investment                                                        $10.3 million                       $10 million
                                            Notes: Data as of 9/30/2011. Data are based on the institutions’ total CPP investments. There are more than 30 institutions that have
                                            received multiple transactions through CPP.
                                            a
                                              These numbers are based on total Treasury CPP investment since 10/28/2008.
                                            b
                                              Amount does not include those investments that have already been repaid or are related to institutions that filed for bankruptcy
                                              protection, and is based on total investments outstanding. Treasury does not include in the number of banks with outstanding CPP
                                              investments those institutions that have repaid their CPP principal but still have warrants outstanding.

                                            Source: Treasury, Transactions Report, 10/3/2011.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   77




TABLE 2.19
CPP INVESTMENT SIZE BY INSTITUTION, AS OF 9/30/2011
                                                                                 Originala                          Outstandingb
$10 billion or more                                                                         6                                         0
$1 billion to $10 billion                                                                 19                                          2
$100 million to $1 billion                                                                57                                        23
Less than $100 million                                                                  625                                       365
Total                                                                                   707                                       390 
Notes: Data as of 9/30/2011. Data are based on the institutions’ total CPP investments. There are more than 30 institutions that
have received multiple transactions through CPP.
a
  These numbers are based on total Treasury CPP investment since 10/28/2008.
b
  Amount does not include those investments that have already been repaid, sold to a third party at a discount, merged out of the
  CPP portfolio, exchanged their CPP investments for an investment under CDCI, or are related to institutions that filed for bankruptcy
  protection or had a subsidiary bank fail. Figures are based on total investments outstanding. Treasury does not include in the number
  of banks with outstanding CPP investments those institutions that have repaid their CPP principal but still have warrants outstanding.

Source: Treasury, Transactions Report, 10/3/2011; Treasury, response to SIGTARP data call, 10/5/2011.



    According to Treasury, as of September 30, 2011, $184.9 billion of the princi-
pal (or 90.2%) has been repaid under the program, leaving $20 billion outstanding.
Of the repaid amount, $355.7 million was converted from CPP investments into
CDCI and therefore still represents outstanding obligations to TARP, and $2.2 bil-
lion was converted from CPP investments into SBLF, which is not a TARP pro-
gram.289 In addition, Treasury had received approximately $11.2 billion in interest
and dividends from CPP recipients. Treasury also had received $7.6 billion through
the sale of CPP warrants that were obtained from TARP recipients.290 Figure 2.2
provides a snapshot of CPP funds outstanding and associated repayments. For a
complete list of CPP share repurchases, see Appendix D: “Transaction Detail.”
78   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        TABLE 2.20
        CPP BANKS REFINANCING INTO SBLF, AS OF 9/30/2011
                                                                                                             SBLF
                                                                                        CPP Warrant    Investment    SBLF Principal
        Institution                                  CPP Principal Investment   Disposition Proceeds         Date       Investment
        1st Enterprise Banka                                     $10,400,000               $220,000     9/1/2011        $16,400,000
        Adbanc, Inc                                               12,720,000                636,000    7/21/2011         21,905,000
        AMB Financial Corp.                                        3,674,000                184,000    9/22/2011          3,858,000
        AmeriBank Holding Company                                  2,492,000                125,000    9/15/2011          5,347,000
        AmeriServ Financial, Inc.b                                21,000,000                           8/11/2011         21,000,000
        Avenue Financial Holdings, Inc.                            7,400,000                370,000    9/15/2011         18,950,000 
        BancIndependent, Inc.                                     21,100,000              1,055,000    7/14/2011         30,000,000
        Bancorp Financial, Inc.                                   13,669,000                410,000    8/18/2011         14,643,000
        Bank of Commerce Holdings                                 17,000,000                           9/27/2011         20,000,000
        BankFirst Capital Corporation                             15,500,000                775,000     9/8/2011         20,000,000
        Banner County Ban Corporation                                795,000                 40,000    7/28/2011          2,427,000
        Bern Bancshares, Inc.                                        985,000                 50,000     9/1/2011          1,500,000
        Birmingham Bloomfield Bancshares, Inc.   a
                                                                   3,379,000                 82,000    7/28/2011          4,621,000
        BNC Financial Group, Inc.                                  4,797,000                240,000     8/4/2011         10,980,000
        BOH Holdings, Inc.                                        10,000,000                500,000    7/14/2011         23,938,350
        Brotherhood Bancshares, Inc.                              11,000,000                550,000    9/15/2011         16,000,000
        Cache Valley Banking Company        a
                                                                   9,407,000                238,000    7/14/2011         11,670,000
        California Bank of Commerce                                4,000,000                200,000    9/15/2011         11,000,000
        Cardinal Bancorp II, Inc.                                  6,251,000                313,000     9/8/2011          6,251,000
        Catskill Hudson Bancorp, Inc.   a
                                                                   6,500,000                263,000    7/21/2011          9,681,000
        Center Bancorp, Inc.                                      10,000,000                           9/15/2011         11,250,000
        Central Bancorp, Inc.b                                    10,000,000                           8/25/2011         10,000,000
        Central Valley Community Bancorpb                          7,000,000                185,017    8/18/2011          7,000,000
        Centric Financial Corporation                              6,056,000                182,000    7/14/2011          7,492,000
        Centrix Bank & Trust                                       7,500,000                375,000    7/28/2011         24,500,000
        Citizens Community Bank                                    3,000,000                150,000    7/28/2011          4,000,000
        Citizens South Banking Corporation                        20,500,000                           9/22/2011         20,500,000
        CoBiz Financial Inc.b                                     64,450,000                            9/8/2011         57,366,000
        Codorus Valley Bancorp, Inc. b
                                                                  16,500,000                526,604    8/18/2011         25,000,000 
        Columbine Capital Corp.                                    2,260,000                113,000    9/22/2011          6,050,000
        Community Bank Shares of Indiana, Inc.                    19,468,000                           9/15/2011         28,000,000
        Community First Bancshares Inc.                           20,000,000              1,000,000    8/18/2011         30,852,000
        Community Partners Bancorp      b
                                                                   9,000,000                           8/11/2011         12,000,000
        Community Trust Financial Corporation                     24,000,000              1,200,000     7/6/2011         48,260,000
        D. L. Evans Bancorp                                       19,891,000                995,000    9/27/2011         29,891,000
        Deerfield Financial Corporation                            2,639,000                132,000     9/8/2011          3,650,000
                                                                                                              Continued on next page.
                                                                                 QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   79




CPP BANKS REFINANCING INTO SBLF, AS OF 9/30/2011 (Continued)
                                                                                                    SBLF
                                                                               CPP Warrant    Investment     SBLF Principal
Institution                                 CPP Principal Investment   Disposition Proceeds         Date        Investment
DNB Financial Corporation                               $11,750,000               $458,000     8/4/2011         $13,000,000
Eagle Bancorp, Inc. b
                                                         38,235,000                           7/14/2011          56,600,000
Emclaire Financial Corp.b                                 7,500,000                           8/18/2011          10,000,000
Encore Bancshares, Inc.                                  34,000,000                           9/27/2011          32,914,000
Enterprise Financial Services Group, Inc.                 4,000,000                200,000    8/25/2011           5,000,000
Equity Bancshares, Inc.                                   8,750,000                438,000    8/11/2011          16,372,000
Farmers State Bankshares, Inc.                              700,000                 40,000    7/21/2011             700,000
FCB Bancorp, Inc.                                         9,294,000                465,000    9/22/2011           9,759,000
Financial Security Corporation                            5,000,000                250,000    7/21/2011           5,000,000
Financial Services of Winger, Inc.                        3,742,000                112,000     9/1/2011           4,069,000
First Bancorp b
                                                         65,000,000                            9/1/2011          63,500,000
First Bank of Charleston, Inc.                            3,345,000                167,000    7/21/2011           3,345,000
First Bankers Trustshares, Inc.                          10,000,000                500,000     9/8/2011          10,000,000
First Busey Corporationb                                100,000,000                           8/25/2011          72,664,000
First California Financial Group, Inc                    25,000,000                599,042    7/14/2011          25,000,000
First Colebrook Bancorp, Inc.                             4,500,000                225,000    9/22/2011           8,623,000
First Financial Bancshares, Inc.                          3,756,000                113,000    9/22/2011           3,905,000
First Guaranty Bancshares, Inc.                          20,699,000              1,030,000    9/22/2011          39,435,000
First Menasha Bancshares, Inc.                            4,797,000                240,000    9/15/2011          10,000,000
First Merchants Corporation                             116,000,000                           9/22/2011          90,782,940
First NBC Bank Holding Company                           17,836,000                892,000     8/4/2011          37,935,000
First Northern Community Bancorp                         17,390,000                           9/15/2011          22,847,000
First Resource Bank a                                     5,017,000                130,000    9/15/2011           5,083,000
First Texas BHC, Inc.                                    13,533,000                677,000    9/15/2011          29,822,000
Florida Business BancGroup, Inc.                          9,495,000                475,000    9/22/2011          15,360,000
FNB Bancorp                                              12,000,000                600,000    9/15/2011          12,600,000
Fortune Financial Corporation                             3,100,000                155,000    9/15/2011           3,255,000
Grand Capital Corporation                                 4,000,000                200,000     9/8/2011           5,200,000
GrandSouth Bancorporation     a
                                                         15,319,000                450,000     9/8/2011          15,422,000
Great Southern Bancorpb                                  58,000,000              6,436,364    8/18/2011          57,943,000
Guaranty Bancorp, Inc.                                    6,920,000                346,000    9/15/2011           7,000,000
Gulfstream Bancshares, Inc.                               7,500,000                375,000    8/18/2011           7,500,000
Heartland Financial USA, Inc.                            81,698,000              1,800,000    9/15/2011          81,698,000
Heritage Bankshares, Inc.                                10,103,000                303,000    8/11/2011           7,800,000
Highlands Bancorp, Inc.   a
                                                          5,450,000                155,000    9/22/2011           6,853,000
Horizon Bancorp                                          25,000,000                           8/25/2011          12,500,000
                                                                                                      Continued on next page.
80   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




        CPP BANKS REFINANCING INTO SBLF, AS OF 9/30/2011 (Continued)
                                                                                                           SBLF
                                                                                      CPP Warrant    Investment    SBLF Principal
        Institution                                CPP Principal Investment   Disposition Proceeds         Date       Investment
        Howard Bancorp, Inc.                                     $5,983,000              $299,000    9/22/2011        $12,562,000
        Illinois State Bancorp, Inc.   a
                                                                 10,272,000               406,000    9/22/2011         13,368,000
        Katahdin Bankshares Corp.                                10,449,000               522,000    8/18/2011         11,000,000
        Liberty Bancshares, Inc. (AR)                            57,500,000             2,875,000    7/21/2011         52,500,000
        Liberty Bancshares, Inc. (MO)                            21,900,000             1,095,000    8/18/2011         22,995,000
        Magna Bank                                               13,795,000               690,000    8/18/2011         18,350,000
        McLeod Bancshares, Inc.                                   6,000,000               300,000    8/18/2011          6,000,000
        Medallion Bank  a
                                                                 21,498,000               645,000    7/21/2011         26,303,000
        Mercantile Capital Corp.                                  3,500,000               175,000     8/4/2011          7,000,000
        Merchants and Manufacturers Bank
                                                                  3,510,000               176,000     9/8/2011          6,800,000
        Corporation
        Merchants and Planters Bancshares, Inc.                   1,881,000                94,000     9/8/2011          2,000,000
        MidSouth Bancorp, Inc.    b
                                                                 20,000,000                          8/25/2011         32,000,000
        Moneytree Corporation                                     9,516,000               476,000    9/15/2011          9,992,000
        Monument Bank                                             4,734,000               237,000    8/11/2011         11,355,000
        MutualFirst Financial, Inc.b                             32,382,000               900,194    8/25/2011         28,923,000
        New Hampshire Thrift Bancshares, Inc.b
                                                                 10,000,000                          8/25/2011         20,000,000
        Nicolet Bankshares, Inc.                                 14,964,000               748,000     9/1/2011         24,400,000
        Northway Financial, Inc.                                 10,000,000               500,000    9/15/2011         23,593,000
        Oak Valley Bancorpb                                      13,500,000               560,000    8/11/2011         13,500,000
        Pacific Coast Bankers’ Bancshares                        11,600,000               580,000    7/28/2011         11,960,000
        Pathfinder Bancorp, Inc.                                  6,771,000                           9/1/2011         13,000,000
        Penn Liberty Financial Corp.                              9,960,000               498,000     9/1/2011         20,000,000
        Peoples Bancorp                                          18,000,000               900,000     8/4/2011         18,000,000
        PFSB Bancorporation, Inc.                                 1,500,000                71,000    8/25/2011          1,500,000
        PlainsCapital Corporation                                87,631,000             4,382,000    9/27/2011        114,068,000
        Providence Bank                                           4,000,000               175,000    9/15/2011          4,250,000
        Puget Sound Bank                                          4,500,000               225,000    8/11/2011          9,886,000
        QCR Holdings, Inc.                                       38,237,000                          9/15/2011         40,090,000
        Redwood Capital Bancorp                                   3,800,000               190,000    7/21/2011          7,310,000
        Redwood Financial, Inc.                                   2,995,000               150,000    8/18/2011          6,425,000
        Regent Capital Corporation                                2,655,000               133,000    7/21/2011          3,350,000
        Salisbury Bancorp, Inc.  b
                                                                  8,816,000                          8/25/2011         16,000,000
        SBT Bancorp, Inc.                                         4,000,000               200,000    8/11/2011          9,000,000
        Seacoast Commerce Bank                                    1,800,000                90,000     9/1/2011          4,000,000
        Security Business Bancorp                                 5,803,000               290,000    7/14/2011          8,944,500
                                                                                                            Continued on next page.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011      81




CPP BANKS REFINANCING INTO SBLF, AS OF 9/30/2011 (Continued)
                                                                                                                                                 SBLF
                                                                                                                            CPP Warrant    Investment          SBLF Principal
Institution                                                         CPP Principal Investment                        Disposition Proceeds         Date             Investment
Security California Bancorp                                                              $6,815,000                            $341,000    9/15/2011               $7,200,000
Security State Bancshares, Inc.                                                          12,500,000                             625,000    9/22/2011               22,000,000
Southern Heritage Bancshares, Inc.                                                         4,862,000                            243,000     9/8/2011                 5,105,000
Southern Illinois Bancorp, Inc.                                                            5,000,000                            250,000    8/25/2011                 9,000,000
Southern Missouri Bancorp, Inc.b                                                           9,550,000                                       7/21/2011               20,000,000
Sovereign Bancshares, Inc.                                                               18,215,000                             911,000    9/22/2011               24,500,000
Steele Street Bank Corporation                                                           11,019,000                             331,000     9/1/2011               11,350,000
Stewardship Financial Corporation                                                        10,000,000                                         9/1/2011               15,000,000
Summit State Bank            b
                                                                                           8,500,000                            315,000     8/4/2011               13,750,000
Sword Financial Corporation                                                              13,644,000                             682,000    9/15/2011               17,000,000
TCB Corporation                                                                            9,720,000                            292,000     9/8/2011                 8,640,000
The ANB Corporation                                                                      20,000,000                           1,000,000    8/25/2011               37,000,000
The Elmira Savings Bank, FSBb                                                              9,090,000                                       8/25/2011               14,063,000
The Landrum Company                                                                      15,000,000                             750,000    8/18/2011               20,000,000
The Private Bank of California                                                             5,450,000                            273,000     9/1/2011               10,000,000
The State Bank of Bartley                                                                  1,697,000                             51,000    9/22/2011                 2,380,000
The Victory Bancorp, Inc.            a
                                                                                           2,046,000                             61,000    9/22/2011                 3,431,000
TowneBank                                                                                76,458,000                                        9/22/2011               76,458,000
Triad Bancorp, Inc.                                                                        3,700,000                            185,000    9/22/2011                 5,000,000
Tri-County Financial Corporation                                                         15,540,000                             777,000    9/22/2011               20,000,000
Two Rivers Financial Group, Inc.                                                         12,000,000                             600,000     9/1/2011               23,240,000
UBT Bancshares, Inc.                                                                       8,950,000                            450,000    8/11/2011               16,500,000
Union Bank & Trust Company a                                                               6,191,000                            160,000    9/22/2011                 6,200,000
United Financial Banking Companies, Inc.                                                   5,658,000                            283,000    9/15/2011                 3,000,000
Valley Financial Group, Ltd.                                                               1,300,000                             65,000    9/22/2011                 2,000,000
Veritex Holdings, Inc.(Fidelity Resources
                                                                                           3,000,000                            150,000    8/25/2011                 8,000,000
Company)
W.T.B. Financial Corporation                                                            110,000,000                           5,500,000    9/15/2011               89,142,000
WashingtonFirst Bankshares, Inc.                a
                                                                                         13,475,000                             332,000     8/4/2011               17,796,000
Western Alliance Bancorporation                                                         140,000,000                                        9/27/2011              141,000,000
York Traditions Bank                                                                       4,871,000                            244,000    7/14/2011                 5,115,000
TOTAL                                                                            $2,240,465,000                            $62,394,221                      $2,689,763,790
a
    Institution received multiple investments under CPP.
b
    As of the drafting of this report, Treasury still held warrants to purchase common stock in this institution.

Sources: Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20
Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011; Treasury, SBLF Transactions Report, 9/28/2011, www.treasury.gov/resource-center/sb-
programs/DocumentsSBLFTransactions/SBLF_Bi-Weekly_Transactions_Report_THRU_09272011.pdf, accessed 10/14/2011.
82                 SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                      Program Administration
                                                                      Although Treasury’s investment authority for CPP has ended, Treasury still has
                                                                      significant responsibilities for managing the existing CPP portfolio, including the
                                                                      following:

                                                                      •	 collecting dividends and interest payments on outstanding investments
                                                                      •	 monitoring the performance of outstanding investments
                                                                      •	 disposing of warrants as investments are repaid
                                                                      •	 selling or restructuring Treasury’s investment in some troubled financial
                                                                         institutions
     TABLE 2.21
                                                                      •	 selecting observers for recipients that have missed five quarterly dividend
     MISSED DIVIDEND/INTEREST
                                                                         payments
     PAYMENTS BY QFIS, 9/30/2009
     TO 9/30/2011 ($ MILLIONS)                                        •	 potentially selecting directors for recipients that have missed six or more
                                                  Value of
                                                                         quarterly dividend payments
                               Number              Unpaid
     Quarter End                of QFIs         Amountsa,b,c          Dividends and Interest
     9/30/2009                          38               $75.7        As of September 30, 2011, Treasury had received $11.2 billion in dividends and
     12/31/2009                         43               137.4        interest on its CPP investments.291 However, as of that date, 193 QFIs had unpaid
     3/31/2010                          67               182.0        dividend or interest payments to Treasury totaling approximately $356.9 million,
     6/30/2010        d
                                      109                209.7        an increase from the 188 QFIs that had unpaid dividend (or interest) payments
     9/30/2010                        137                211.3
                                                                      totaling approximately $320.8 million as of June 30, 2011. Approximately $14.9
                                                                      million of the unpaid amounts are non-cumulative, meaning that the institution
     12/31/2010                       155                276.4
                                                                      has no legal obligation to pay Treasury unless the institution declares a dividend.292
     3/31/2011                        173                277.3
                                                                      Table 2.21 shows the number of QFIs and total unpaid amount of dividend and
     6/30/2011                        188                320.8
                                                                      interest payments by quarter from September 30, 2009, to September 30, 2011.
     9/30/2011                        193                356.9
     Notes:
     a
       Includes unpaid cumulative dividends, non-cumulative          Treasury’s Policy on Missed Dividend and Interest Payments
       dividends, and Subchapter S interest payments
       but does not include interest accrued on unpaid
                                                                      According to Treasury, it “evaluates its CPP investments on an ongoing basis with
       cumulative dividends.                                          the help of outside advisors, including external asset managers. The external asset
     b
          Excludes institutions that missed payments but (i) had
           fully caught up on missed payments at the end of the       managers provide a valuation for each CPP investment” that results in Treasury
           quarter reported in column 1 or (ii) had repaid their
           investment amounts and exited CPP.                         assigning the institution a credit score.293 For those that have unfavorable credit
     c
        Includes institutions that missed payments and
        (i) entered into a recapitalization or restructuring          scores, including any institution that has missed more than three dividend (or
        with Treasury, (ii) for which Treasury sold the CPP
        investment to a third party or otherwise disposed of
                                                                      interest) payments, Treasury has stated that the “asset manager dedicates more
        the investment to facilitate the sale of the institution to   resources to monitoring the institution and may talk to the institution on a more
        a third party without receiving full repayment of unpaid
        dividends, (iii) filed for bankruptcy relief, or (iv) had a   frequent basis.”294
        subsidiary bank fail.
     d
         Includes four QFIs and their missed payments not                Under the terms of the preferred shares or subordinated debentures held
          reported in Treasury’s Capital Purchase Program
          Missed Dividends & Interest Payments Report as of           by Treasury as a result of its CPP investments, in certain circumstances, such
          6/30/2010 but reported in Treasury’s Cumulative
          Dividends, Interest, and Distributions Report as of
                                                                      as when a participant misses six dividend (or interest) payments, Treasury has
          the same date. The four QFIs are CIT, Pacific Coast         the right to appoint up to two additional members to the institution’s board of
          National Bancorp, UCBH Holdings, Inc., and Midwest
          Banc Holdings, Inc.                                         directors.295 Treasury has stated that it will prioritize the institutions for which it
     Sources: Treasury, Dividends and Interest Report,                appoints directors based on “the size of its investment, Treasury’s assessment of
     10/11/2011; Treasury, responses to SIGTARP
     data calls, 10/7/2009, 1/12/2010, 4/8/2010,                      the extent to which new directors may make a contribution and Treasury’s ability
     6/30/2010, and 10/11/2011; SIGTARP Quarterly
     Report to Congress, 1/30/2010, 4/20/2010,
                                                                      to find appropriate directors for a given institution.”296 These directors will not
     7/21/2010, 10/26/2010.                                           represent Treasury but have the same fiduciary duties to shareholders as all other
                                                                      directors. They will be compensated by the institution in a manner similar to other
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   83




directors.297 Treasury has engaged an executive search firm to identify suitable
candidates for board of directors positions and has begun interviewing such
candidates.298
     According to Treasury, it continues to prioritize institutions for nominating
directors in part based on whether its investment exceeds $25 million. When
Treasury’s right to nominate a new board member becomes effective, it evaluates
the institution’s condition and health and the functioning of its board to determine
whether additional directors are necessary.299 As of September 30, 2011, Treasury
had made director appointments to the board of directors of six CPP banks.300
     On July 19, 2011, Treasury announced that it had appointed directors to the
board of directors at two CPP institutions. John S. Poelker and Guy Rounsaville,
Jr., were elected to the board of directors at First Banks, Inc., Clayton, Missouri,
(“First Banks”), which received $30.4 million under CPP. Gerard M. Thomchick
was elected to the board of directors at Royal Bancshares of Pennsylvania, Inc.,
Narberth, Pennsylvania, (“Royal Bancshares”), which received $295.4 million
under CPP.301 According to an October 7, 2011, filing with the SEC, Royal
Bancshares announced that Treasury’s second appointee, Wayne Huey, Jr., was
elected to its board of directors on September 30, 2011.302 Prior to these elections,
both First Banks and Royal Bancshares had missed eight quarterly dividend
payments for which the values of unpaid amounts were $32.2 million and $3
million, respectively.303
     According to a September 21, 2011, filing with the SEC, Centrue Financial
Corporation, Saint Louis, Missouri (“Centrue”), announced that it had approved
Treasury’s appointee, Richard “Chan” Peterson, to its board of directors.304 The
appointment remains subject to final regulatory approval or non-objection.
Centrue received $32.7 million under CPP and had missed nine quarterly dividend
payments prior to the director appointment.305
     According to Treasury, on September 16, 2011, it appointed Paul Clabuesch
to the board of Rogers Bancshares, Little Rock, Arkansas (“Rogers”).306 Rogers
received $25 million under CPP and had missed eight quarterly dividend payments
prior to the director appointment.307
     According to filings with the SEC on September 21, 2011, and October 5,
2011, Citizens Republic Bancorp, Inc., Flint, Michigan (“Citizens Republic”),
approved Treasury’s two board nominees, William M. Fenimore, Jr., and Madeleine
L. Champion.308 Citizens Republic received $300 million under CPP and had
missed seven quarterly dividend payments prior to the director appointments.309
     According to a filing with the SEC on October 3, 2011, Duane Morse and
Leonard Rush have been appointed to the board of Anchor Bancorp, Madison,
Wisconsin (“Anchor”).310 Anchor received $110 million under CPP and had missed
ten quarterly dividend payments prior to the director appointments.311
     For institutions that miss five or more dividend (or interest) payments, Treasury
has stated that it would seek consent from such institutions to send observers to
the institutions’ board meetings.312 According to Treasury, the observers would be
selected from the Office of Financial Stability (“OFS”) and assigned to “gain a
better understanding of the institution’s condition and challenges and to observe
84   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            how the board is addressing the situation.”313 Their participation would be limited
                                            to inquiring about distributed materials, presentations, and actions proposed
                                            or taken during the meetings, as well as addressing any questions concerning
                                            their role.314 The findings of the observers are taken into account when Treasury
                                            evaluates whether to appoint individuals to an institution’s board of directors.315 As
                                            of September 30, 2011, Treasury had assigned observers to 44 CPP recipients.316
                                                 SIGTARP and Treasury do not use the same methodology to report unpaid
                                            dividend and interest payments. For example, Treasury generally excludes
                                            institutions from its “non-current” reporting: (i) that have completed a
                                            recapitalization, restructuring, or exchange with Treasury (though Treasury does
                                            report such institutions as non-current during the pendency of negotiations); (ii)
                                            for which Treasury sold the CPP investment to a third party, or otherwise disposed
                                            of the investment to facilitate the sale of the institution to a third party; (iii) that
                                            filed for bankruptcy relief; or (iv) that had a subsidiary bank fail.317 SIGTARP
                                            generally includes such activity in Table 2.22 under “Value of Unpaid Amounts”
                                            with the value set as of the date of the bankruptcy, restructuring, or other event
                                            that relieves the institution of the legal obligation to continue to make dividend
                                            and interest payments. If a completed transaction resulted in payment to Treasury
                                            for all unpaid dividends and interest, SIGTARP does not include the institution’s
                                            obligations under unpaid amounts. SIGTARP, unlike Treasury, does not include in
                                            its table institutions that have “caught up” by making previously missed dividend
                                            and interest payments.318
                                                 According to Treasury, as of September 30, 2011, 72 QFIs had missed at
                                            least six dividend (or interest) payments (up from 53 last quarter) and 20 banks
                                            had missed five dividend (or interest) payments totaling $202.3 million.319 Table
                                            2.22 lists CPP recipients that had unpaid dividend (or interest) payments as of
                                            September 30, 2011. For a complete list of CPP recipients and institutions making
                                            dividend or interest payments, see Appendix D: “Transaction Detail.”
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   85




TABLE 2.22

CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2011
                                                                      Observer
                                                           Number     Assigned              Value of       Value of
                                         Dividend or      of Missed   to Board of            Missed         Unpaid
Institution Name                         Payment Type     Payments    Directors1          Payments2      Amounts2,3,4
Saigon National Bank                     Non-Cumulative         11                         $223,138         $223,138

Anchor BanCorp Wisconsin, Inc.           Cumulative             10         ün
                                                                                         13,979,167       13,979,167

Blue Valley Ban Corp                     Cumulative             10         ü              2,718,750        2,718,750

Lone Star Bank                           Non-Cumulative         10         ü                422,837          422,837

OneUnited Bank                           Non-Cumulative         10         ü              1,507,875        1,507,875

United American Bank                     Non-Cumulative         10                        1,178,790        1,178,790

Centrue Financial Corporation            Cumulative              9         ün
                                                                                          3,675,150        3,675,150

Citizens Bancorp****                     Cumulative              9                        1,275,300        1,275,300

Dickinson Financial Corporation II       Cumulative              9         ü             17,909,820       17,909,820

First Banks, Inc.                        Cumulative              9         ün            36,223,425       36,223,425

Georgia Primary Bank                     Non-Cumulative          9         ü                561,350          561,350

Grand Mountain Bancshares, Inc.          Cumulative              9         ü                370,715          370,715

Idaho Bancorp                            Cumulative              9         ü                846,113          846,113

Pacific City Financial Corporation       Cumulative              9         ü              1,986,525        1,986,525

Premier Service Bank                     Non-Cumulative          9         ü                487,472          487,472

Royal Bancshares of Pennsylvania, Inc.   Cumulative              9         ün
                                                                                          3,420,788        3,420,788

Citizens Commerce Bancshares, Inc.       Cumulative              8                          686,700          686,700

FC Holdings, Inc.                        Cumulative              8         ü              2,293,560        2,293,560

Northern States Financial Corporation    Cumulative              8         ü              1,721,100        1,721,100

Omega Capital Corp.                      Cumulative              8                          306,980          306,980

One Georgia Bank****                     Non-Cumulative          8                          605,328          605,328

Pathway Bancorp                          Cumulative              8                          406,180          406,180

Premierwest Bancorp                      Cumulative              8         ü              4,140,000        4,140,000

Ridgestone Financial Services, Inc.      Cumulative              8         ü              1,188,100        1,188,100

Rising Sun Bancorp                       Cumulative              8                          652,120          652,120

Rogers Bancshares, Inc.                  Cumulative              8         ün             2,725,000        2,725,000

Syringa Bancorp                          Cumulative              8         ü                872,000          872,000

The Freeport State Bank                  Non-Cumulative          8                           32,800           32,800

Alliance Financial Services, Inc.*       Interest                7                        1,761,900        1,761,900

BNCCORP, Inc.                            Cumulative              7         ü              1,916,425        1,916,425
                                                                                               Continued on next page.
86   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2011 (Continued)
                                                                                Observer
                                                                     Number     Assigned        Value of       Value of
                                                  Dividend or       of Missed   to Board of      Missed         Unpaid
         Institution Name                         Payment Type      Payments    Directors1    Payments2      Amounts2,3,4
         Cascade Financial Corporation*****        Cumulative              7                  $3,409,875      $3,409,875

         Cecil Bancorp, Inc.                       Cumulative              7         ü         1,011,500       1,011,500

         Central Virginia Bankshares, Inc.         Cumulative              7         ü          996,188          996,188

         Citizens Bancshares Co. (MO)              Cumulative              7         ü         2,383,500       2,383,500

         Citizens Republic Bancorp, Inc.           Cumulative              7         ün
                                                                                              26,250,000      26,250,000

         City National Bancshares Corporation      Cumulative              7                    825,913          825,913

         Community 1st Bank                        Non-Cumulative          7                    219,729          219,729

         Duke Financial Group, Inc.*               Interest                7         ü         1,761,900       1,761,900

         Fidelity Federal Bancorp                  Cumulative              7                    615,937          615,937

         First Security Group, Inc.                Cumulative              7         ü         2,887,500       2,887,500

         First Sound Bank                          Non-Cumulative          7                    647,500          647,500

         First Southwest Bancorporation, Inc.      Cumulative              7                    524,563          524,563

         Integra Bank Corporation                  Cumulative              7                   7,313,775       7,313,775

         Intermountain Community Bancorp           Cumulative              7                   2,362,500       2,362,500

         Intervest Bancshares Corporation          Cumulative              7         ü         2,187,500       2,187,500

         Investors Financial Corporation of Pettis
                                                   Interest                7                    587,300          587,300
         County, Inc.*

         Monarch Community Bancorp, Inc.           Cumulative              7                    593,688          593,688

         Tennessee Valley Financial
                                                   Cumulative              7                    286,125          286,125
         Holdings, Inc.

         U.S. Century Bank                         Non-Cumulative          7         ü         4,791,290       4,791,290

         Bankers’ Bank of the West
                                                   Cumulative              6         ü         1,033,245       1,033,245
         Bancorp, Inc.

         Bridgeview Bancorp, Inc.                  Cumulative              6         ü         3,106,500       3,106,500

         Commonwealth Business Bank                Non-Cumulative          6                    629,550          629,550

         First Community Bancshares, Inc (KS)*     Cumulative              6         ü         1,209,900       1,209,900

         First Trust Corporation                   Interest                6         ü         2,261,306       2,261,306

         FNB United Corp.                          Cumulative              6                   3,862,500       3,862,500

         FPB Bancorp, Inc. (FL)                    Cumulative              6                    435,000          435,000

         Gold Canyon Bank                          Non-Cumulative          6                    127,005          127,005

         Goldwater Bank, N.A.                      Non-Cumulative          6                    279,840          209,880

         Gregg Bancshares, Inc.                    Cumulative              6                     67,410           67,410

         Heritage Oaks Bancorp                     Cumulative              6         ü         1,575,000       1,575,000
                                                                                                   Continued on next page.
                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   87




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2011 (Continued)
                                                                   Observer
                                                        Number     Assigned              Value of       Value of
                                     Dividend or       of Missed   to Board of            Missed         Unpaid
Institution Name                     Payment Type      Payments    Directors1          Payments2      Amounts2,3,4
Madison Financial Corporation         Cumulative              6                         $275,565         $275,565

Midtown Bank & Trust Company          Non-Cumulative          6                          498,033          426,885

Millennium Bancorp, Inc.              Cumulative              6                          692,423          593,505

Northwest Bancorporation, Inc.        Cumulative              6         ü                858,375          858,375

Patapsco Bancorp, Inc.                Cumulative              6                          490,500          490,500

Plumas Bancorp                        Cumulative              6         ü                896,175          896,175

Prairie Star Bancshares, Inc.         Cumulative              6                          228,900          228,900

Premier Bank Holding Company          Cumulative              6                          776,625          776,625

Santa Clara Valley Bank, N.A.         Non-Cumulative          6                          237,075          237,075

Stonebridge Financial Corp.           Cumulative              6         ü                897,090          897,090

TCB Holding Company                   Cumulative              6         ü                958,995          958,995

Timberland Bancorp, Inc.              Cumulative              6                        1,248,075        1,248,075

1st FS Corporation                    Cumulative              5                        1,023,063        1,023,063

BNB Financial Services Corporation    Cumulative              5                          510,938          510,938

Boscobel Bancorp, Inc.                Interest                5                          585,780          585,780

Broadway Financial Corporation        Cumulative              5                          937,500          937,500

Capital Commerce Bancorp, Inc.        Cumulative              5                          347,438          347,438

CBS Banc-Corp                         Cumulative              5                        1,655,438        1,655,438

Citizens Bank & Trust Company         Non-Cumulative          5                          163,500          163,500

Community Bankers Trust
                                      Cumulative              5                        1,105,000        1,105,000
Corporation*****

First Federal Bancshares of
                                      Cumulative              5                        1,031,250        1,031,250
Arkansas, Inc.

Harbor Bankshares Corporation         Cumulative              5                          595,000          425,000

HomeTown Bankshares Corporation       Cumulative              5                          667,075          667,075

Market Bancorporation, Inc.           Cumulative              5                          140,338          140,338

Mercantile Bank Corporation           Cumulative              5                        1,312,500        1,312,500

MS Financial, Inc.                    Cumulative              5                          526,113          526,113

Pacific International Bancorp Inc.    Cumulative              5                          406,250          406,250

Pinnacle Bank Holding Company         Cumulative              5                          298,950          298,950

Premier Financial Corp                Interest                5                          665,774          665,774

Provident Community Bancshares, Inc.* Cumulative              5                          579,125          579,125
                                                                                            Continued on next page.
88   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2011 (Continued)
                                                                             Observer
                                                                  Number     Assigned        Value of       Value of
                                               Dividend or       of Missed   to Board of      Missed         Unpaid
         Institution Name                      Payment Type      Payments    Directors1    Payments2      Amounts2,3,4
         The Queensborough Company              Cumulative              5                   $817,500         $817,500

         Western Community Bancshares, Inc.     Cumulative              5                    496,688          496,688

         CalWest Bancorp                        Cumulative              4                    253,770          253,770

         CB Holding Corp.                       Cumulative              4                    224,240          224,240

         Central Federal Corporation            Cumulative              4                    361,250          361,250

         Community Bank of the Bay       6
                                                Non-Cumulative          4                     72,549           72,549

         CSRA Bank Corp.                        Cumulative              4                    130,800          130,800

         First Community Bank Corporation of
                                                Cumulative              4                    534,250          534,250
         America*****

         First Financial Service Corporation    Cumulative              4                  1,000,000        1,000,000

         First United Corporation               Cumulative              4                  1,500,000        1,500,000

         Florida Bank Group, Inc.               Cumulative              4                  1,115,710        1,115,710

         Fort Lee Federal Savings Bank          Non-Cumulative          4                     70,850           70,850

         Great River Holding Company*           Interest                4                    704,760          704,760

         Green Bankshares, Inc.                 Cumulative              4                  3,613,900        3,613,900

         Liberty Shares, Inc.                   Cumulative              4                    941,760          941,760

         Marine Bank & Trust Company            Non-Cumulative          4                    163,500          163,500

         Maryland Financial Bank                Non-Cumulative          4                     92,650           92,650

         Midwest Banc Holdings, Inc.****,5      Cumulative              4                  4,239,200        4,239,200

         Old Second Bancorp, Inc.               Cumulative              4                  3,650,000        3,650,000

         Pacific Commerce Bank                  Non-Cumulative          4                    253,231          197,914

         Pierce County Bancorp****              Cumulative              4                    370,600          370,600

         Private Bancorporation, Inc.           Cumulative              4                    433,420          433,420

         Regent Bancorp, Inc.                   Cumulative              4                    680,013          544,010

         Santa Lucia Bancorp                    Cumulative              4                    200,000          200,000

         Spirit BankCorp, Inc.                  Cumulative              4                  1,635,000        1,635,000

         The Bank of Currituck*****             Non-Cumulative          4                    219,140          219,140

         TIB Financial Corp*****    ,7
                                                Cumulative              4                  1,850,000        1,850,000

         Tidelands Bancshares, Inc.             Cumulative              4                    722,400          722,400

         Alpine Banks of Colorado               Cumulative              3                  2,861,250        2,861,250

         Bank of the Carolinas Corporation      Cumulative              3                    494,213          494,213

         Clover Community Bankshares, Inc.      Cumulative              3                    122,625          122,625
                                                                                                Continued on next page.
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   89




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2011 (Continued)
                                                                     Observer
                                                          Number     Assigned              Value of       Value of
                                        Dividend or      of Missed   to Board of            Missed         Unpaid
Institution Name                        Payment Type     Payments    Directors1          Payments2      Amounts2,3,4
Coastal Banking Company, Inc.           Cumulative              3                         $373,125         $373,125

Community Financial Shares, Inc.        Cumulative              3                          284,933          284,933

Crescent Financial Corporation          Cumulative              3                          933,750          933,750

Eastern Virginia Bankshares, Inc.       Cumulative              3                          900,000          900,000

Greer Bancshares Incorporated           Cumulative              3                          408,488          408,488

HCSB Financial Corporation              Cumulative              3                          483,563          483,563

Highlands Independent Bancshares, Inc. Cumulative               3                          273,863          273,863

HMN Financial, Inc.                     Cumulative              3                          975,000          975,000

Legacy Bancorp, Inc. ****               Cumulative              3                          206,175          206,175

Monadnock Bancorp, Inc.                 Cumulative              3                           74,985           74,985

Naples Bancorp, Inc.                    Cumulative              3                          163,500          163,500

National Bancshares, Inc.               Cumulative              3                        1,008,128        1,008,128

Patriot Bancshares, Inc.                Cumulative              3                        1,064,310        1,064,310

Princeton National Bancorp, Inc.        Cumulative              3                          940,613          940,613

Reliance Bancshares, Inc.               Cumulative              3                        1,635,000        1,635,000

Security State Bank Holding
                                        Interest                3                        1,352,991          676,496
Company*,**

Sonoma Valley Bancorp****               Cumulative              3                          353,715          353,715

SouthCrest Financial Group, Inc.        Cumulative              3                          527,288          527,288

Southern Community Financial Corp.      Cumulative              3                        1,603,125        1,603,125

The Connecticut Bank and Trust
                                        Non-Cumulative          3                          178,573          178,573
Company****

The South Financial Group, Inc.****,7   Cumulative              3                       13,012,500       13,012,500

Treaty Oak Bancorp, Inc. ****           Cumulative              3                          135,340          135,340

White River Bancshares Company          Cumulative              3                          686,700          686,700

AB&T Financial Corporation              Cumulative              2                           87,500           87,500

Atlantic Bancshares, Inc.               Cumulative              2                           54,410           54,410

Bank of George                          Non-Cumulative          2                           72,830           72,830

BCB Holding Company, Inc.               Cumulative              2                           46,475           46,475

Blue Ridge Bancshares, Inc.             Cumulative              2                          327,000          327,000

Blue River Bancshares, Inc.             Cumulative              2                          136,250          136,250

Cadence Financial Corporation****       Cumulative              2                          550,000          550,000
                                                                                              Continued on next page.
90   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




         CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2011 (Continued)
                                                                               Observer
                                                                    Number     Assigned        Value of       Value of
                                                  Dividend or      of Missed   to Board of      Missed         Unpaid
         Institution Name                         Payment Type     Payments    Directors1    Payments2      Amounts2,3,4
         Carrollton Bancorp                       Cumulative              2                   $230,025         $230,025

         Central Bancorp, Inc.                    Cumulative              2                    613,125          613,125

         CIT Group Inc.****    ,8
                                                  Cumulative              2                  29,125,000      29,125,000

         CoastalSouth Bancshares, Inc.            Cumulative              2                    421,975          421,975

         Colonial American Bank                   Non-Cumulative          2                     15,655           15,655

         Community First, Inc.                    Cumulative              2                    485,200          485,200

         Community Pride Bank Corporation         Cumulative              2                    178,508          178,508

         FBHC Holding Company*,****               Interest                2                    123,127          123,127

         First Place Financial Corp.              Cumulative              2                   1,823,175       1,823,175

         Fresno First Bank                        Non-Cumulative          2                     33,357           33,357

         Metropolitan Bank Group, Inc
                                                  Cumulative                                  4,602,113       1,678,508
         (Archer Bank)                                                    2

         Mid-Wisconsin Financial Services, Inc.   Cumulative              2                    272,500          272,500

         Ojai Community Bank                      Non-Cumulative          2                     56,680           56,680

         Pacific Coast National Bancorp****       Cumulative              2                    112,270          112,270

         Suburban Illiniois Bancorp, Inc.         Interest                2                    629,250          629,250

         Tennessee Commerce Bancorp, Inc.         Cumulative              2                    750,000          750,000

         Valley Community Bank                    Non-Cumulative          2                    149,875          149,875

         Village Bank and Trust Financial Corp.   Cumulative              2                    368,450          368,450

         Yadkin Valley Financial Corporation      Cumulative              2                   1,232,800       1,232,800

         Allied First Bancorp, Inc.               Cumulative              1                     49,768           49,768

         Bank of Commerce                         Non-Cumulative          1                     40,875           40,875

         Brogan Bankshares, Inc.                  Interest                1                     50,340           50,340

         Carolina Bank Holdings, Inc.             Cumulative              1                    400,000          200,000

         Carolina Trust Bank                      Non-Cumulative          1                     50,000           50,000

         Coloeast Bankshares, Inc.                Cumulative              1                    136,250          136,250

         Exchange Bank                            Non-Cumulative          1                    585,875          585,875

         First Intercontinental Bank              Non-Cumulative          1                     87,175           87,175

         GulfSouth Private Bank                   Non-Cumulative          1                     98,813           98,813

         NCAL Bancorp                             Cumulative              1                    136,250          136,250

         Randolph Bank & Trust Company            Non-Cumulative          1                     84,860           84,860

         RCB Financial Corporation                Cumulative              1                    117,280          117,280
                                                                                                  Continued on next page.
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                   91




CPP RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 9/30/2011 (Continued)
                                                                                                                   Observer
                                                                                                  Number           Assigned                         Value of                Value of
                                                         Dividend or                             of Missed         to Board of                       Missed                  Unpaid
Institution Name                                         Payment Type                            Payments          Directors1                     Payments2               Amounts2,3,4
Southwest Bancorp, Inc.                                  Cumulative                                           1                                     $875,000                  $875,000

Standard Bancshares, Inc.                                Cumulative                                           1                                       817,500                   817,500

Tifton Banking Company ****                              Non-Cumulative                                       1                                         51,775                    51,775

UCBH Holdings, Inc.****                                  Cumulative                                           1                                     3,734,213                3,734,213



Exchanges

Central Pacific Financial Corp.***,9                     Cumulative                                           6                                   10,125,000

First BanCorp (PR)**,***                                 Cumulative                                           5                                   42,681,526               22,681,526

Hampton Roads Bankshares, Inc.***,9                      Cumulative                                           4                                     4,017,350                4,017,350

Independent Bank Corporation                             Cumulative                                           6                                     6,751,396                4,951,396

Pacific Capital Bancorp***,9                             Cumulative                                           5                                   13,547,550

Sterling Financial Corporation (WA)***              ,9
                                                         Cumulative                                           4                                   18,937,500               18,937,500

Superior Bancorp Inc.***                                 Cumulative                                           3                                     2,587,500                2,587,500

Total                                                                                                                                       $406,810,076              $356,936,080
Notes: Numbers may not total due to rounding. Approximately $12.8 million of the $330.8 million in unpaid CPP dividend/interest payments are non-cumulative and Treasury has no legal
right to missed dividends that are non-cumulative.

* Missed interest payments occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
** Partial payments made after the due date.
*** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments normally continue to accrue. For
an exchange of mandatorily preferred stock for common stock, no additional preferred dividend payments will accrue.
**** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue. For
bank failures, Treasury may elect to file claims with bank receivers to collect current and/or future unpaid dividends.
***** Treasury sold or is selling its CPP investment to the institution or a third party. No additional preferred dividend payments will accrue after a sale, absent an agreement to the
contrary.
n   Treasury has appointed one or more directors to the Board of Directors.

1
   F or First BanCorp and Pacific Capital Bancorp, Treasury had a contractual right to assign an observer to the board of directors. For the remainder, Treasury obtained consent from the
            institution to assign an observer to the board of directors.
2
    Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
3
     Excludes institutions that missed payments but (i) have fully caught-up or exchanged new securities for missed payments, or (ii) have repaid their investment amounts and exited the
            Capital Purchase Program.
4
      Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) purchased their CPP investment from Treasury, or saw a third party
            purchase its CPP investment from Treasury, or (iii) are in, or have completed bankruptcy proceedings or its subsidiary bank failed.
5
       For Midwest Banc Holdings, Inc., the number of missed payments is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing;
            missed payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
6
        Treasury reported four missed payments by Community Bank of the Bay before it was allowed to transfer from CPP to CDCI. Upon transfer, Treasury reset the number of missed
            payments to zero.
7
         For South Financial Group, Inc. and TIB Financial Corp, the number of missed payments and unpaid amounts reflect figures Treasury reported prior to the sale.
8
          For CIT Group Inc., the number of missed payments is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing;
            missed payment amounts are from Treasury’s response to SIGTARP data call, 10/13/2010.
9
           Completed exchanges:
- The exchange between Treasury and Hampton Roads, and the exchange between Treasury and Sterling Financial did not account for unpaid dividends. The number of missed payments
  and unpaid amounts reflect the figures Treasury reported prior to the exchange.
- The exchange between Treasury and Central Pacific Financial Corp., and the exchange between Treasury and Pacific Capital Bancorp did account for unpaid dividends, thereby
  eliminating any unpaid amounts. The number of missed payments reflects the amount Treasury reported prior to the exchange.

Sources: Treasury, Dividends and Interest Report, 10/11/2011; Treasury, responses to SIGTARP data call, 1/7/2011, 4/6/2011, 7/8/2011, and 10/11/2011; SIGTARP Quarterly
Report to Congress, 1/30/2010, 4/20/2010, 4/28/2011, 7/28/2011.
92            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Warrant Disposition
                                                     As required by EESA, Treasury receives warrants when it invests in troubled assets
                                                     from financial institutions, with an exception for certain small institutions. With
                                                     respect to financial institutions with publicly traded securities, these warrants give
                                                     Treasury the right, but not the obligation, to purchase a certain number of shares
                                                     of common stock at a predetermined price.320 Because the warrants rise in value
                                                     as a company’s share price rises, they permit Treasury (and the taxpayer) to benefit
                                                     from a firm’s potential recovery.321
                                                         For publicly traded institutions, the warrants received by Treasury under CPP
     Exercise Price: Preset price at which           allowed Treasury to purchase additional shares of common stock in a number
     a warrant holder may purchase each              equal to 15% of the value of the original CPP investment at a specified exercise
     share. For warrants in publicly traded          price.322 Treasury’s warrants constitute assets with a fair market value that
     institutions issued through CPP, this           Treasury estimates using relevant market quotes, financial models, and/or third-
     was based on the average stock price            party valuations.323 As of September 30, 2011, Treasury had not exercised any
     during the 20 days before the date              of these warrants.324 For privately held institutions, Treasury received warrants
     that Treasury granted preliminary CPP           to purchase additional preferred stock or debt in an amount equal to 5% of the
     participation approval.                         CPP investment. Treasury exercised these warrants immediately.325 Unsold and
                                                     unexercised warrants expire ten years from the date of the CPP investment.326

                                                     Repurchase of Warrants by Financial Institutions
     For more information on warrant                 Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
     disposition, see SIGTARP’s audit report         to buy back its warrants. As of September 30, 2011, 81 publicly traded institu-
     of May 10, 2010, “Assessing Treasury’s          tions had bought back $3.7 billion worth of warrants, of which $15.2 million was
     Process to Sell Warrants Received from          purchased this quarter. As of that same date, 89 privately held institutions, the
     TARP Recipients.”                               warrants of which had been immediately exercised, bought back the resulting ad-
                                                     ditional preferred shares for a total of $39.8 million, of which $22.7 million was
                                                     bought back this quarter.327 Table 2.23 lists publicly traded institutions that have
                                                     repaid TARP and repurchased warrants as of September 30, 2011. Table 2.24 lists
                                                     privately held institutions that had done so as of the same date.328
                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   93




TABLE 2.23
CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 9/30/2011
                                                         Number of         Amount of
                                                          Warrants        Repurchase
Repurchase Date   Institution                          Repurchased      ($Thousands)
7/22/2009         The Goldman Sachs Group Inc.           12,205,045      $1,100,000.0
8/12/2009         Morgan Stanley                         65,245,759         950,000.0
7/29/2009         American Express Company               24,264,129         340,000.0
3/16/2011         Fifth Third Bancorp                    43,617,747         280,025.9
7/7/2010          Discover Financial Services            20,500,413         172,000.0
7/15/2009         U.S. Bancorp                           32,679,102         139,000.0
8/5/2009          Bank of New York Mellon                14,516,129         136,000.0
3/9/2011          First Horizon National Corporation     14,842,624          87,000.0
8/26/2009         Northern Trust Corporation              3,824,624          87,000.0
4/20/2011         Keycorp                                35,244,361          70,000.0
7/22/2009         BB&T                                   13,902,573          67,010.4
8/26/2009         State Street Corporation    a
                                                          2,788,104          60,000.0
1/19/2011         Huntington Bancshares                  23,562,994          49,100.0
4/7/2010          City National Corporation               1,128,668          18,500.0
1/26/2011         East West Bancorp, Inc.                 1,157,555          14,500.0
9/8/2010          Fulton Financial Corporation            5,509,756          10,800.0
12/30/2009        Trustmark Corporation                   1,647,931          10,000.0
6/3/2011          Whitney Holding Corporation             2,631,579            6,900.0
9/21/2011         Great Southern Bancorp                      909,091          6,436.4
6/16/2010         SVB Financial Group                     3,028,264            5,269.2
1/19/2011         Susquehanna Bancshares, Inc.            3,028,264            5,269.2
5/27/2009         FirstMerit Corporation                      952,260          5,025.0
9/8/2010          The Bancorp, Inc.                           980,203          4,754.0
3/31/2010         Umpqua Holdings Corp.                   1,110,898            4,500.0
2/23/2011         Sandy Springs Bancorp, Inc.                 651,547          4,450.0
3/9/2011          1 Source Corporation
                   st
                                                              837,947          3,750.0
9/1/2010          Columbia Banking System, Inc.               398,023          3,301.6
7/5/2011          Marshall & Ilsley Corporation          13,815,789            3,250.0
6/24/2009         First Niagara Financial Group               953,096          2,700.0
11/24/2009        Bank of the Ozarks, Inc.                3,779,811            2,650.0
5/27/2009         Independent Bank Corp.                      481,664          2,200.0
5/27/2009         Sun Bancorp, Inc.                       1,620,545            2,100.0
5/11/2011         Financial Institutions, Inc.                378,175          2,080.0
9/28/2011         Heartland Financial, Inc.                   609,687          1,800.0
3/2/2011          Washington Banking Company                  246,082          1,625.0
                                                                Continued on next page.
94   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                            CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 9/30/2011 (Continued)
                                                                                                          Number of      Amount of
                                                                                                           Warrants     Repurchase
                            Repurchase Date          Institution                                        Repurchased   ($Thousands)
                            4/7/2010                 First Litchfield Financial Corporation                 199,203        $1,488.0
                            9/30/2009                Bancorp Rhode Island, Inc.                             303,083          1,400.0
                            6/24/2009                SCBT Financial Corporation                             192,967          1,400.0
                            4/20/2011                Bridge Capital Holdings                                396,412          1,395.0
                            10/28/2009               CVB Financial Corporation                              834,761          1,307.0
                            7/27/2011                Home Bancshares, Inc.                                  158,472          1,300.0
                            5/20/2009                Iberiabank Corporation                                 813,008          1,200.0
                            5/8/2009                 Old National Bancorp                                   138,490          1,200.0
                            6/24/2009                Berkshire Hills Bancorp                                226,330          1,040.0
                            1/5/2011                 First PacTrust Bancorp, Inc.                           280,795          1,003.2
                            4/13/2011                National Penn Banchares, Inc.                          735,294          1,000.0
                            7/27/2011                Midwestone Financial Group, Inc.                       198,675          1,000.0
                            12/23/2009               WesBanco, Inc.                                         439,282            950.0
                            5/18/2011                Sterling Bancorp                                       516,817            945.8
                            9/28/2011                MutualFirst Financial, Inc.                            625,135            900.2
                            12/30/2009               Flushing Financial Corporation                         375,806            900.0
                            6/17/2009                Alliance Financial Corporation                         173,069            900.0
                            8/31/2011                West Bancorporation, Inc.                              474,100            700.0
                            6/30/2009                HF Financial Corp., Sioux Falls                        302,419            650.0
                            8/24/2011                First California Financial Group, Inc.                 599,042            599.0
                            12/16/2009               Wainwright Bank & Trust Company                        390,071            568.7
                            9/28/2011                Oak Valley Bancorp                                     350,346            560.0
                            12/16/2009               LSB Corporation                                        209,497            560.0
                            9/28/2011                Codorus Valley Bancorp, Inc.                           263,859            526.6
                            9/21/2011                DNB Financial Corporation                              186,311            458.0
                                                     Union First Market Bankshares Corporation (Union
                            12/23/2009                                                                      211,318            450.0
                                                     Bankshares Corporation)
                            8/17/2011                Heritage Financial Corporation                         138,037            450.0
                            2/3/2010                 OceanFirst Financial Corp.                             190,427            430.8
                            9/1/2010                 Citizens & Northern Corporation                        194,794            400.0
                            9/30/2010                South Financial Group Inc.    b
                                                                                                         10,106,796            319.7
                            12/1/2010                Central Jersey Bancorp                                 268,621            319.7
                            9/14/2011                Summit State Bank                                      239,212            315.0
                            6/24/2009                Somerset Hills Bancorp                                 163,065            275.0
                            2/10/2011                Monarch Financial Holdings, Inc.                       132,353            260.0
                            7/28/2010                Bar Harbor Bankshares                                   52,455            250.0
                                                                                                              Continued on next page.
                                                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   95




CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 9/30/2011 (Continued)
                                                                                                                 Number of                Amount of
                                                                                                                  Warrants               Repurchase
Repurchase Date                    Institution                                                                 Repurchased             ($Thousands)
9/2/2009                           Old Line Bancshares, Inc.                                                          141,892                    $225.0
10/28/2009                         Centerstate Banks of Florida Inc.                                                  125,413                     212.0
9/28/2011                          Central ValleyCommunity Bancorp, Inc.                                                79,067                    185.0
10/14/2009                         Manhattan Bancorp                                                                    29,480                         63.4
9/30/2010                          TIB Financialb                                                                   1,106,389                          40.0
3/4/2011                           Cadence Financial Corporation           c
                                                                                                                    1,145,833                            —
6/30/2011                          Cascade Financial Corporationc                                                     863,442                            —
1/28/2011                          Capital Bank Corporation          c
                                                                                                                      749,619                            —
9/7/2011                           Green Bankshares, Inc.        c
                                                                                                                      635,504                            —
5/3/2011                           First Federal Bancshares of Arkansas, Inc.c                                        321,847                            —
5/31/2011                          First Community Bank Corporation of America                 c
                                                                                                                      228,312                            —
Total                                                                                                          379,557,559            $3,687,143.8
Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients.
Treasury may hold one warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
a
  State Street Corporation reduced its original amount of warrants issued through a qualified equity offering.
b
  Warrant sales to third parties.
c
  Treasury sold its TARP investment to a third party and assigned a value of zero to the warrant portion.

Sources: Treasury, Transactions Report, 10/3/2011; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011, 7/8/2011, 10/7/2011
and 10/11/2011.
96   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                           TABLE 2.24
                           CPP REPURCHASES OF PREFERRED SHARES RESULTING FROM IMMEDIATE EXERCISE OF
                           WARRANTS (PRIVATE), AS OF 9/30/2011
                                                                                                                      Amount of
                           Repurchase                                                      Number of Warrants        Repurchase
                           Date                Institution                                      Repurchased        ($Thousands)
                           7/21/2011           Liberty Bancshares, Inc.                             2,875,000           $2,875.0
                           9/29/2010           Community Bancshares of Mississippi, Inc.
                                                                                       a
                                                                                                    2,600,000             2,600.0
                           6/29/2011           State Bankshares, Inc.                               2,500,000             2,500.0
                           9/29/2010           BancPlus Corporationa                                2,400,000             2,400.0
                           7/6/2011            Community Trust Financial Corporation                1,200,000             1,200.0
                           8/18/2011           Liberty Bancshares, Inc.                             1,095,000             1,095.0
                           7/14/2011           BancIndependent, Incorporated                        1,055,000             1,055.0
                           8/18/2011           Community First Bancshares Inc.                      1,000,000             1,000.0
                           8/25/2011           The A.N.B. Corporation                               1,000,000             1,000.0
                           8/3/2011            Peoples Bancorp                                       900,000                900.0
                           8/4/2011            First NBC Bank Holding Company                        892,000                892.0
                           3/16/2011           Stockmens Financial Corporation                       778,000                778.0
                           9/29/2010           State Capital Corporation  a
                                                                                                     750,000                750.0
                           4/15/2009           Centra Financial Holdings, Inc.                       750,000                750.0
                           8/18/2011           The Landrum Company                                   750,000                750.0
                           8/18/2011           Magna Bank                                            690,000                690.0
                           7/20/2011           Morrill Bancshares, Inc.                              650,000                650.0
                           7/21/2011           Adbanc, Inc.                                          636,000                636.0
                           5/27/2009           First Manitowoc Bancorp, Inc.                         600,000                600.0
                           7/21/2011           Medallion Bankd                                       590,000                590.0
                           7/28/2011           Pacific Coast Bankers’ Bancshares                     580,000                580.0
                           6/16/2010           First Southern Bancorp, Inc.                          545,000                545.0
                           9/29/2010           Security Capital Corporationa                         522,000                522.0
                           8/18/2011           Katahdin Bankshares Corp.                             522,000                522.0
                           12/23/2009          Midland States Bancorp, Inc.                          509,000                509.0
                           11/18/2009          1st United Bancorp, Inc.                              500,000                500.0
                           7/14/2011           BOH Holdings, Inc.                                    500,000                500.0
                           9/29/2010           PSB Financial Corporation   a
                                                                                                     464,000                464.0
                           8/11/2011           UBT Bancshares, Inc.  f
                                                                                                      45,000                450.0
                           8/11/2011           Equity Bancshares, Inc.                               438,000                438.0
                           2/16/2011           Georgia Commerce Bancshares, Inc.                     435,000                435.0
                           8/18/2011           Bancorp Financial, Inc.                               410,000                410.0
                           9/17/2010           First Eagle Bancshares, Inc.    a,b
                                                                                                     375,000                375.0
                           8/18/2011           Gulfstream Bancshares, Inc.                           375,000                375.0
                                                                                                           Continued on next page.
                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   97




CPP REPURCHASES OF PREFERRED SHARES RESULTING FROM IMMEDIATE EXERCISE OF
WARRANTS (PRIVATE), AS OF 9/30/2011 (Continued)
                                                                                     Amount of
Repurchase                                               Number of Warrants         Repurchase
Date         Institution                                      Repurchased         ($Thousands)
7/28/2011    Centrix Bank & Trust                                  375,000              $375.0
4/13/2011    Hamilton State Bancshares, Inc.                       350,000                350.0
8/4/2011     WashingtonFirst Bankshares, Inc.                      332,000                332.0
8/11/2011    Heritage Bankshares, Inc.                             303,000                303.0
8/18/2011    Mcleod Bancshares, Inc.     f
                                                                    30,000                300.0
11/24/2010   Leader Bancorp, Inc.                                  292,000                292.0
7/14/2011    Security Business Bancorp                             290,000                290.0
7/6/2011     Central Bancshares, Inc.                              290,000                290.0
8/25/2011    Southern Illinois Bancorp, Inc.                       250,000                250.0
7/21/2011    Financial Security Corporation                        250,000                250.0
4/22/2009    First ULB Corp.                                       245,000                245.0
9/29/2010    First Vemon Bankshares, Inc.        a
                                                                   245,000                245.0
7/14/2011    York Traditions Bank                                  244,000                244.0
8/4/2011     BNC Financial Group, Inc.                             240,000                240.0
7/14/2011    Cache Valley Banking Company                          238,000                238.0
8/11/2011    Monument Bank                                         237,000                237.0
12/23/2008   Capital Bancorp, Inc.                                 235,000                235.0
8/11/2011    Puget Sound Bank                                      225,000                225.0
2/6/2009     The Bank of Currituck   c
                                                                   201,000                201.0
4/21/2010    Hilltop Community Bancorp, Inc.                       200,000                200.0
8/11/2011    SBT Bancorp, Inc.                                     200,000                200.0
8/31/2011    SV Financial, Inc.                                    200,000                200.0
8/25/2011    Enterprise Financial Services Group, Inc.             200,000                200.0
5/19/2010    Texas National Bancorporation                         199,000                199.0
7/21/2011    Redwood Capital Bancorp                               190,000                190.0
7/14/2011    Centric Financial Corporation                         182,000                182.0
8/4/2011     Mercantile Capital Corp.                              175,000                175.0
7/21/2011    First Bank of Charleston, Inc.                        167,000                167.0
1/23/2009    California Oaks State Bank                            165,000                165.0
2/15/2011    Treaty Oak Bancorp, Inc.                              163,000                163.0
6/16/2010    FPB Financial Corp.                                   162,000                162.0
10/6/2010    Frontier Bancshares, Inc.       b
                                                                   150,000                150.0
7/28/2011    Citizens Community Bank                               150,000                150.0
7/21/2011    Catskill Hudson Bancorp, Inc        e
                                                                   150,000                150.0
                                                                         Continued on next page.
98   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                            CPP REPURCHASES OF PREFERRED SHARES RESULTING FROM IMMEDIATE EXERCISE OF
                            WARRANTS (PRIVATE), AS OF 9/30/2011 (Continued)
                                                                                                                                                                      Amount of
                            Repurchase                                                                                     Number of Warrants                        Repurchase
                            Date                         Institution                                                            Repurchased                        ($Thousands)
                           8/18/2011                     Redwood Financial, Inc.                                                             150,000                         $150.0
                           8/25/2011                     Veritex Holdings, Inc.                                                              150,000                           150.0
                           7/21/2011                     Regent Capital Corporation, Inc.                                                    133,000                           133.0
                           7/21/2011                     Catskill Hudson Bancorp, Inc.                                                       113,000                           113.0
                           9/24/2010                     First Choice Bank   a
                                                                                                                                             110,000                           110.0
                           12/29/2009                    Surrey Bancorp/ Surrey Bank & Trust                                                 100,000                           100.0
                           12/11/2009                    Nationwide Bankshares, Inc.       b
                                                                                                                                             100,000                           100.0
                           9/29/2010                     Lafayette Bancorp       a
                                                                                                                                             100,000                           100.0
                           8/3/2011                      TCNB Financial Corp                                                                 100,000                           100.0
                           3/9/2011                      FBHC Holding Company         b
                                                                                                                                               91,000                            91.0
                           1/26/2011                     American Premier Bancorp                                                              90,000                            90.0
                           6/26/2009                     Signature Bancshares, Inc.b                                                           85,000                            85.0
                           7/28/2011                     Birmingham Bloomfield Bancshares, Inc.                                                82,000                            82.0
                           8/25/2011                     PFSB Bancorporation, Inc.                                                             71,000                            71.0
                           7/21/2011                     Medallion Bankd                                                                       55,000                            55.0
                           4/14/2010                     First State Bank of Mobeetie                                                          37,000                            37.0
                           11/10/2009                    Midwest Regional Bancorp, Inc.                                                        35,000                            35.0
                           7/14/2010                     Green City Bancshares, Inc.                                                           33,000                            33.0
                           3/13/2009                     Haviland Bancshares, Inc.                                                             21,000                            21.0
                           7/28/2011                     Banner County Ban Corporation                                                           4,000                            4.0
                           7/21/2011                     Farmers State Bankshares, Inc.                                                          4,000                            4.0
                            Total                                                                                                       39,120,000                     $39,795.0
                           Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by
                           non-publicly traded TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of
                           underlying shares rather than millions of warrants of an individual financial institution.
                           a
                             Transferred to CDCI.
                           b
                               S-Corporation Institution: issued subordinated debt instead of preferred stock.
                           c
                             For The Bank of Currituck, the Transactions Report listed “N/A” for the final disposition date, description, and proceeds.
                           d
                              Treasury made two investments in Medallion Bank one on 12/22/2009 for $9.7 million which corresponds to the 55,000 warrants repurchased and another
                               on 2/27/2009 for $11.8 million which corresponds to the 590,000 warrants repurchased.
                           e
                             Treasury made two investments in Catskill Hudson Bancorp, Inc. one on 12/22/2009 for $3.5 million which corresponds to the 113,000 warrants
                              repurchased and another on 2/27/2009 for $3.0 million which corresponds to the 150,000 warrants repurchased.
                           f
                             The liquidation preference is at 10,000 per share as opposed to the typical 1,000 per share.

                           Sources: Treasury, Transactions Report, 1/4/2011, 3/31/2011, and 7/1/2011; Treasury, responses to SIGTARP data call, 1/4/2011, 1/7/2011, 4/6/2011,
                           7/8/2011, 10/7/2011 and 10/11/2011.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011              99




Treasury Warrant Auctions
If Treasury and the repaying QFI cannot agree upon the price for the institution
to repurchase its warrants, Treasury may conduct a public offering to auction
the warrants.329 In November 2009, Treasury began using a “modified Dutch
                                                                                             Dutch Auction: A Treasury warrant
auction” to sell the warrants publicly.330 On the announced auction date, potential
                                                                                             auction (which has multiple bidders
investors (which may include the CPP recipient) submit bids to the auction agent
                                                                                             bidding for different quantities of the
that manages the sale (for CPP-related warrants, Deutsche Bank) at specified
                                                                                             asset) in which the accepted price is
increments above a minimum price set by Treasury.331 Once the auction agent
                                                                                             set at the lowest bid of the group of
receives all bids, it determines the final price and distributes the warrants to the
                                                                                             high bidders whose collective bids
winning bidders.332 Treasury conducted two warrant auctions this quarter for
                                                                                             fulfill the amount of shares offered
SunTrust Banks, Inc. (“SunTrust”), raising $30.5 million in total gross proceeds.333
                                                                                             by Treasury. As an example, three
The auction of six million SunTrust “A” warrants was for the warrants Treasury
                                                                                             investors place bids to own a portion
received for its additional investment in SunTrust under CPP on December 31,
                                                                                             of 100 shares offered by the issuer:
2008. The auction of 11.9 million SunTrust “B” warrants was for warrants related
to Treasury’s initial CPP investment in the company on November 14, 2008.334
                                                                                             • Bidder A wants 50 shares at $4/
Through September 30, 2011, Treasury had held 23 public auctions for warrants it
                                                                                               share.
received under CPP, TIP, and AGP, raising a total of approximately $5.4 billion.335
                                                                                             • Bidder B wants 50 shares at $3/
Final closing information for all auctions is shown in Table 2.25.                             share.
                                                                                             • Bidder C wants 50 shares at $2/
Restructurings, Recapitalizations, Exchanges, and Sales of CPP                                 share.
Investments
Certain CPP institutions continue to experience high losses and financial                    The seller selects Bidders A and B
difficulties, resulting in inadequate capital or liquidity. To avoid insolvency or           as the two highest bidders, and their
improve the quality of their capital, these institutions may ask Treasury to convert         collective bids consume the 100
its CPP preferred shares into a more junior form of equity or accept a lower                 shares offered. The winning price is
valuation, resulting in Treasury taking a discount or loss. If a CPP institution             $3, which is what both bidders pay per
is undercapitalized and/or in danger of becoming insolvent, it may propose to                share. Bidder C’s bid is not filled.
Treasury a restructuring (or recapitalization) plan to avoid failure (or to attract
private capital) and to “attempt to preserve value” for Treasury’s investment.336            Auction Agent: Firm (such as an
Treasury may also sell its investment in a troubled institution to a third party at          investment bank) that buys a series of
a discount in order to facilitate that party’s acquisition of a troubled institution.        securities from an institution for resale.
Treasury has explained to SIGTARP that although it may incur partial losses on its
investment in the course of these transactions, such an outcome may be deemed                Undercapitalized: Condition in which a
necessary to avoid the total loss of Treasury’s investment that would occur if the           financial institution does not meet its
institution failed.337                                                                       regulator’s requirements for sufficient
    Under these circumstances, the CPP participant asks Treasury for a formal                capital to operate under a defined level
review of its proposal. The proposal details the institution’s recapitalization plan         of adverse conditions.
and may estimate how much capital the institution plans to raise from private
investors and whether Treasury and other preferred shareholders will convert
their preferred stock to common stock. The proposal may also involve a proposed
discount on the conversion to common stock, although Treasury would not realize
any loss until it disposes of the stock.338 In other words, Treasury would not know
whether a loss will occur, or the extent of such a loss, until it sells the common
stock it receives as part of such an exchange. According to Treasury, when it
receives such a request, it asks one of the external asset managers that it has
100               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.25

      TREASURY WARRANT AUCTIONS, AS OF 9/30/2011
                                                                                                               Number of             Minimum                Selling      Proceeds to Treasury
      Auction Date                   Institution                                                          Warrants Offered           Bid Price               Price                ($ Millions)
                                     Bank of America A Auction (TIP)a                                           150,375,940                $7.00              $8.35                       $1,255.6
      3/3/2010
                                     Bank of America B Auction (CPP)             a
                                                                                                                121,792,790                 1.50               2.55                           310.6
      12/10/2009                     JPMorgan Chase                                                               88,401,697                8.00              10.75                           950.3
      5/20/2010                      Wells Fargo and Company                                                    110,261,688                 6.50               7.70                           849.0
      9/21/2010                      Hartford Financial Service Group, Inc.                                       52,093,973               10.50              13.70                           713.7
      4/29/2010                      PNC Financial Services Group, Inc.                                           16,885,192               15.00              19.20                           324.2
                                     Citigroup A Auction (TIP & AGP)         a
                                                                                                                255,033,142                 0.60               1.01                           257.6
      1/25/2011
                                     Citigroup B Auction (CPP)a                                                 210,084,034                 0.15               0.26                             54.6
      9/16/2010                      Lincoln National Corporation                                                 13,049,451               13.50              16.60                           216.6
      5/6/2010                       Comerica Inc.                                                                11,479,592               15.00              16.00                           183.7
      12/3/2009                      Capital One                                                                  12,657,960                7.50              11.75                           148.7
      2/8/2011                       Wintrust Financial Corporation                                                 1,643,295              13.50              15.80                             26.0
      6/2/2011                       Webster Financial Corporation                                                  3,282,276               5.50               6.30                             20.4
                                     SunTrust A Auction      b
                                                                                                                    6,008,902               2.00               2.70                             16.2
      9/22/2011
                                     SunTrust B Auctionb                                                          11,891,280                1.05               1.20                             14.2
      3/9/2010                       Washington Federal, Inc.                                                       1,707,456               5.00               5.00                             15.6
      3/10/2010                      Signature Bank                                                                    595,829             16.00              19.00                             11.3
      12/15/2009                     TCF Financial                                                                  3,199,988               1.50               3.00                               9.6
      3/11/2010                      Texas Capital Bancshares, Inc.                                                    758,086              6.50               6.50                               6.7
      2/1/2011                       Boston Private Financial Holdings, Inc.                                        2,887,500               1.40               2.20                               6.4
      5/18/2010                      Valley National Bancorp                                                        2,532,542               1.70               2.20                               5.6
      6/2/2010                       First Financial Bancorp                                                           465,117              4.00               6.70                               3.1
      6/9/2010                       Sterling Bancshares Inc.                                                       2,615,557               0.85               1.15                               3.0
      TOTAL                                                                                                 1,079,703,287                                                                $5,402.7
      Note: Numbers affected by rounding.
      a
        Treasury held two auctions each for the sale of Bank of America and Citigroup warrants.
      b
        Treasury held two auctions for SunTrust’s two CPP investments dated 11/14/2008 (B auction) and 12/31/2008 (A auction).

      Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/000119312510101032/d424b5.htm, accessed 10/18/2011;
      Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.htm, accessed 10/18/2011; Comerica Incorpo-
      rated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.htm, accessed 10/18/2011/2011; Wells Fargo and Company,
      “Definitive Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/d424b5.htm, accessed 10/182011; First Financial Bancorp, “Prospectus
      Supplement,”6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/v187278_424b5.htm, accessed 10/18/2011; Sterling Bancshares, Inc., “Prospectus Supplement,”
      6/9/2010, www. sec.gov/Archives/edgar/data/891098/000114420411041029/v228841_8k.htm, accessed 10/18/2011; Signature Bank, “Prospectus Supplement,” 3/10/2010, http://files.
      shareholder.com/downloads/SBNY/1456015611x0x358381/E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 10/18/2011; Texas Capital Bancshares,
      Inc., “Prospectus Supplement,”3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 10/18/2011; Bank of America, “Form 8-K,”
      3/3/2010, www.sec.gov/Archives/edgar/data/70858/000119312510051260/d8k.htm, accessed 10/18/2011; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/
      data/70858/000119312510045775/d424b2.htm, accessed 10/18/2011; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/edgar/data/70858/000119312510045775/
      d424b2.htm, accessed 10/18/2011; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/edgar/data/936528/000119312510052062/d424b5.htm, accessed
      10/18/2011; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/data/814184/000104746909010786/a2195869z424b5.htm, accessed 10/18/2011; JPMorgan
      Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/edgar/data/19617/000119312509251466/d424b5.htm, accessed 10/18/2011; Capital One Financial, “Prospectus Supplement,”
      12/3/2009, www.sec.gov/Archives/edgar/data/927628/000119312509247252/d424b5.htm, accessed 10/18/2011; Treasury, Transactions Report, 10/3/2011; Hartford Financial Services Group,
      Prospectus Supplement to Prospectus filed with the SEC 8/4/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 10/18/2011; Hartford
      Financial Agreement, 8/21/2010, www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 10/18/2011; Treasury, “Treasury Announces Pricing of Public
      Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.treasury.gov/press-center/press-releases/Pages/tg865.aspx, accessed 10/18/2011; Lincoln
      National Corporation, Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, accessed 10/18/2011; Lincoln
      National Corporation, 8-K, 9/22/2010,www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 10/18/2011; Treasury, Section 105(a) Report, 1/31/2011; Treasury,
      “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1033.aspx, accessed 10/18/2011;
      Citigroup, Prospectus, 1/24/2011www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/18/2011; Citigroup, Prospectus, 1/24/2011, www.sec.gov/
      Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/18/2011; Boston Private Financial Holdings, Inc., Prospectus, 1/28/2011, www.sec.gov/Archives/edgar/
      data/821127/000119312511021392/d424b5.htm, accessed 10/18/2011; Boston Private Financial Holdings, Inc. 8-K, 2/7/2011, www.sec.gov/Archives/edgar/data/821127/000144530511000189/
      tarpwarrant020711.htm, accessed 10/18/2011; Wintrust Financial Corporation, Prospectus, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311011007/c62806b5e424b5.htm,
      accessed 10/18/2011; Wintrust Financial Corporation, 8-K, 2/8/2011, www.sec.gov/Archives/edgar/data/1015328/000095012311013436/c62955e8vk.htm, accessed 10/18/2011; Treasury, Section
      105(a) Report, 1/31/2011; Treasury, “Treasury Announces Public Offerings of Warrants to Purchase Common Stock of Citigroup Inc.,” 1/24/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1033.aspx, accessed 10/18/2011; Treasury, Citigroup Pre- liminary Prospectus – CPP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004666/y89178b7e424b7.
      htm, accessed 10/18/2011; Citigroup, Preliminary Prospectus – TIP & AGP Warrants, 1/24/2011, www.sec.gov/Archives/edgar/data/831001/000095012311004665/y89177b7e424b7.htm, accessed
      10/18/2011. Treasury, responses to SIGTARP data call, 4/6/2011, 7/14/2011, 10/5/2011, and 10/11/2011. Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to
      Purchase Common Stock of Suntrust Banks, Inc.,” 9/21/2011, www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 10/6/2011.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011               101




hired to analyze the proposal and perform due diligence on the institution.339 The
external asset manager interviews the institution’s managers, gathers non-public              Due Diligence: Appropriate level of
information, and conducts loan-loss estimates and capital structure analysis.                 attention or care a reasonable person
The manager submits its evaluation to Treasury, which then decides whether to                 should take before entering into an
restructure its CPP investment.340                                                            agreement or a transaction with
    Table 2.26 shows all restructurings, recapitalizations, exchanges, and sales of           another party. In finance, it often refers
CPP investments through September 30, 2011.                                                   to the process of conducting an audit
                                                                                              or review of the institution before
Recent Exchanges and Sales                                                                    initiating a transaction.
Green Bankshares, Inc.
On December 23, 2008, Treasury invested $72.3 million in Green Bankshares,
Inc., Greenville, Tennessee (“Green Bankshares”) through CPP in return for                    For more information on NAFH’s
preferred stock and warrants.341 According to a September 7, 2011, filing with the            acquisition of TIB Financial Corp, see
SEC, Green Bankshares announced that it received a $217 million investment                    SIGTARP’s October 2010 Quarterly
from North American Financial Holdings, Inc., Miami, Florida (“NAFH”), in                     Report, page 109.
exchange for approximately 90 percent of Green Bankshares’ common stock.342 As
a result of the transaction, Green Bankshares merged with an NAFH subsidiary
bank, Capital Bank, National Association.343 Concurrent with the closing of the
merger, Treasury completed the sale of Green Bankshares preferred stock and
related warrants it received under CPP to NAFH for $68.7 million.344 This resulted
in a loss to Treasury of approximately $3.6 million. NAFH previously purchased
CPP preferred equity issued by another TARP participant, TIB Financial Corp,
Naples, Florida, in connection with its acquisition of the company.345

Berkshire Bancorp, Inc.
On June 12, 2009, Treasury invested $2.9 million in Berkshire Bancorp, Inc.,
Wyomissing, Pennsylvania (“Berkshire”) through CPP in return for preferred stock
and warrants, which Treasury exercised immediately.346 On September 17, 2011,
Customers Bancorp, Inc., Phoenixville, Pennsylvania (“Customers”) acquired
Berkshire and its subsidiary bank.347 Pursuant to the terms of the transaction,
Customers and Berkshire entered into an agreement with Treasury, whereby
Customers assumed the entirety of Berkshire’s TARP obligations. As part of the
transaction, Customers repurchased the TARP preferred stock issued by Berkshire
to Treasury. Customers then issued an equivalent amount of its own preferred
equity to Treasury and paid for all accrued and unpaid dividends related to
Berkshire’s CPP preferred stock.348

Update on Previously Announced Exchanges and Sales
Valley National Bancorp and State Bancorp, Inc.
On November 14, 2008, Treasury invested $300 million in Valley National
Bancorp, Wayne, New Jersey (“Valley”) through CPP in return for preferred
stock and warrants.349 As of December 23, 2009, Valley has repaid Treasury’s
principal investment, and Treasury has since auctioned off the warrants for $5.6
million in proceeds. On December 5, 2008, Treasury invested $36.8 million in
102               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.26
      TREASURY RESTRUCTURINGS, RECAPITALIZATIONS, EXCHANGES, & SALES, AS OF 9/30/2011 ($ MILLIONS) 
                                                                                      Original              Combined
                                                           Date of                Investments             Investments
      Institution                                          Investment              ($ Millions)            ($ Millions)                                                                Investment Status
      Citigroup Inc.                                       10/28/2008                  $2,500.0                                                  Exchanged for common stock/warrants and sold
      Provident Bankshares                                 11/14/2008                       151.5
                                                                                                                                    Provident preferred stock exchanged for new M&T Bank
      M&T Bank Corporation                                 12/23/2008                       600.0             1,081.5a         Corporation preferred stock; Wilmington Trust preferred stock
                                                                                                                                                        redeemed by M&T Bank Corporation
      Wilmington Trust Corporation                         12/12/2008                       330.0
      Popular, Inc.                                        12/5/2008                        935.0                                                            Exchanged for trust preferred securities
      First BanCorp                                        1/6/2009                         400.0                                        Exchanged for mandatorily convertible preferred stock
      South Financial Group, Inc.                          12/5/2008                        347.0                                                                                                           Sold
      Sterling Financial Corporation                       12/5/2008                        303.0                                                                         Exchanged for common stock
      Whitney Holding Corporation                          6/3/2011                         300.0                                                                                                           Sold
      Pacific Capital Bancorp                              11/21/2008                       180.6                                                                         Exchanged for common stock
      Wilmington Trust Corporation                         5/13/2011                        151.5                                                                                                           Sold
      Central Pacific Financial Corp.                      1/9/2009                         135.0                                                                         Exchanged for common stock
      First Merchants                                      2/20/2009                        116.0                                 Exchanged for trust preferred securities and preferred stock
      Metropolitan Bank Group Inc.                         6/26/2009                         71.5b                                                              Exchanged for new preferred stock in
                                                                                                                  81.9b
      NC Bank Group, Inc.                                  6/26/2009                           6.9                                                                     Metropolitan Bank Group, Inc.

      Hampton Roads Bankshares                             12/31/2008                         80.3                                                                        Exchanged for common stock
      Green Bankshares                                     12/23/2008                         72.3                                                                                                          Sold
      Independent Bank Corporation                         12/12/2008                         72.0                                        Exchanged for mandatorily convertible preferred stock
      Superior Bancorp, Inc.c                              12/5/2008                          69.0                                                          Exchanged for trust preferred securities
      Cadence Financial Corporation                        1/9/2009                           44.0                                                                                                         Sold
      Capital Bank Corporation                             12/12/2008                         41.3                                                                                                         Sold
      Cascade Financial Corporation                        6/30/2011                          39.0                                                                                                         Sold
      TIB Financial Corp.                                  12/5/2008                          37.0                                                                                                         Sold
      First Federal Bankshares of Arkansas,
                                                           5/3/2011                           16.5                                                                                                         Sold
      Inc.                                                                                             
      First Community Bank Corporation of
                                                           12/23/2008                         10.7                                                                                                         Sold
      America                                                                                          
      Bank of Currituck                                    2/6/2009                            4.0                                                                                                         Sold
      Treaty Oak Bancorp, Inc.                             1/16/2009                           3.3                                                                                                         Sold
      FBHC Holding Company                                 12/29/2009                          3.0                                                                                                         Sold
      Fidelity Resources Company                           6/26/2009                           3.0                                               Exchanged for preferred stock in Veritex Holding
      Berkshire Bancorp                                    6/12/2009                           2.9                                         Exchanged for preferred stock in Customers Bancorp
      a
        M&T Bank Corporation (“M&T”) has redeemed the entirety of the preferred shares issued by Wilmington Trust Corporation plus accrued dividends. In addition, M&T has also repaid $370 million of Treasury’s
        original $600 million investment. As of June 30, 2011, Treasury’s remaining principal investment in M&T is $381.5 million.
      b
         The new investment amount of $81.9 million includes the original investment amount in Metropolitan Bank Group, Inc. or $71.5 million plus the original investment amount in NC Bank Group, Inc. or $6.9
         million plus unpaid dividends of $3.5 million.
      C
          The subsidiary bank of Superior Bancorp, Inc. failed on April 15, 2011. All of Treasury’s TARP investment in Superior Bancorp is expected to be lost.

      Sources: Treasury, Transactions Report 10/3/2011; Treasury response to SIGTARP data call, 10/11/2011; SIGTARP, October Quarterly Report, 10/26/2010; Treasury, Section 105(a) Report, 9/30/2010;
      Treasury Press Release, “Taxpayers Receive $10.5 Billion in Proceeds Today from Final Sale of Treasury Department Citigroup Common Stock”; Treasury Press Release, “Treasury Announces Pricing of
      Citigroup Common Stock Offering,” 12/7/2010; Treasury, Transactions Report, 10/3/2011; Treasury, Section 105(a) Report, 1/31/2011; Treasury Press Release, “Treasury Announces Intent to Sell
      Warrant Positions in Public Dutch Auctions”; Broadway Financial Corporation, 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/1001171/000119312511039152/d8k.htm, accessed 10/18/2011;
      FDIC and Texas Department of Banking, In the Matter of Treaty Oak Bank, Consent Order, 2/5/2010, www.fdic.gov/bank/individual/enforcement/2010-02-34.pdf, accessed 10/18/2011; Fort Worth
      Business Press, “Shareholders Approve Sale of Treaty Bank to Fort Worth Investors,” www.timesleader.com/FwBp/news/breaking/Shareholders-approve-sale-of-Treaty-Oak-bank-to-Fort-Worth-investors.
      html, accessed 10/18/2011; Central Pacific Financial Corp., 8-K, 11/4/2010, www.sec.gov/Archives/edgar/data/701347/000070134710000055/form8-k.htm, accessed 10/18/2011; Central Pacific
      Financial Corp., 8-K, 2/17/2011, www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 10/18/2011; Central Pacific Financial Corp., 8-K, 2/22/2011,
      www.sec.gov/Archives/edgar/data/701347/000110465911008879/a11-6350_18k.htm, accessed 10/18/2011; Scottrade, Central Pacific Financial Corp., 2/18/2011, research.scottrade.com/
      qnr/Public/Stocks/Snapshot?symbol=cpf, accessed 10/18/2011; Cadence Financial Corporation, 8-K, 3/4/2011, www.sec.gov/Archives/edgar/data/742054/000089882211000148/kbody.htm,
      accessed 10/18/2011; M&T Bank Corporation, 10-K, 2/19/2010, www.sec.gov/Archives/edgar/data/36270/000095012310014582/l38289e10vk.htm, accessed 10/18/2011. Green Bankshares Inc.,
      10/8/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000784/grnb-nafhmerger8k.htm, accessed 10/18/2011. Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/
      edgar/data/1488813/000095015911000609/form8k.htm, accessed 10/18/2011.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   103




State Bancorp, Inc., Jericho, New York (“State Bancorp”) for preferred stock and
warrants to purchase additional shares of common stock.350
     According to an SEC form 8-K filing, Valley entered into a merger agreement
with State Bancorp on April 28, 2011. Under the agreement, Valley will provide
funds to repurchase the preferred shares issued by State Bancorp through CPP.
Valley may also purchase the warrant for State Bancorp common stock, though
it is not required to do so. Should Valley choose not to purchase the warrant, it
will convert to a warrant to purchase Valley common stock upon completion of
the merger.351 In a July 19, 2011, joint press release, Valley and State Bancorp
announced that OCC and FRBNY approved the merger, but that it still remains
subject to shareholder approval and other closing conditions.352 As of the drafting
of this report, Treasury has made no public disclosure of the agreement.

FNB United Corporation
On February 13, 2009, Treasury invested $51.5 million in FNB United
Corporation, Asheboro, North Carolina (“FNB United”) through CPP in return for
preferred stock and warrants.353 On April 27, 2011, FNB United announced in an
SEC form 8-K filing that it had agreed to merge with Bank of Granite Corporation,
Granite Falls, North Carolina (“Bank of Granite”).354 In connection with the
transaction, FNB United will receive a $310 million investment from two third-
party firms and from additional investors in exchange for shares of FNB United’s
common stock.355
    On August 12, 2011, Treasury and FNB United entered into an agreement
to exchange the CPP preferred shares for common stock, valued at 25% of the
preferred equity’s par value plus any accrued and unpaid dividends at the time
of the closing of the Bank of Granite merger.356 The exchange remains subject to
certain closing conditions including completion of its recapitalization plan with
the third-party firms and additional investors, as well as repayment of outstanding
debt and preferred stock issued by its subsidiary bank to SunTrust Bank, Atlanta,
Georgia.357

CPP Recipients: Bankrupt or with Failed Subsidiary Banks
Despite Treasury’s stated goal of limiting CPP investments to “healthy and viable
institutions,” a number of CPP participants went bankrupt or had a subsidiary
bank fail, as indicated in Table 2.27.358

Closure of Integra Bank
On February 27, 2009, Treasury invested $83.6 million in Integra Bank
Corporation, Evansville, Indiana (“Integra”) through CPP in return for preferred
stock and warrants.359 On August 12, 2010, OCC ordered Integra’s subsidiary
bank, Integra Bank, to achieve higher capital levels within 90 days, as well as to
submit a plan on how it will achieve and maintain the required capital ratios for at
least the next three years.360 Although Integra Bank submitted its capital plan, it did
not meet the required capital ratios.361
104   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                On July 29, 2011, OCC closed Integra Bank, and the Federal Deposit
                                             Insurance Corporation (“FDIC”) was named receiver. FDIC entered into a
                                             purchase and assumption agreement with the subsidiary bank of Old National
                                             Bancorp, Evansville, Indiana (“Old National”), to assume all of Integra Bank’s
                                             deposits.362 Old National received $100 million in TARP funds, and has
                                             subsequently repaid Treasury’s investment in full and repurchased its outstanding
                                             warrants.363 FDIC estimates that the cost of Integra Bank’s failure will be $170.7
                                             million.364 All of Treasury’s TARP investment in Integra is expected to be lost.365

                                             Closure of One Georgia Bank
                                             On May 8, 2009, Treasury invested $5.5 million in One Georgia Bank, Atlanta,
                                             Georgia (“One Georgia”) through CPP in return for preferred stock and warrants,
                                             which Treasury exercised immediately.366 On March 23, 2011, FDIC issued
                                             a consent order to One Georgia, which called for increased capital levels and
                                             reductions of its holdings of “substandard” assets.367
                                                 On July 15, 2011, the Georgia Department of Banking and Finance closed
                                             One Georgia, and FDIC was named receiver. FDIC entered into a purchase and
                                             assumption agreement with the subsidiary bank of Ameris Bancorp, Moultrie,
                                             Georgia (“Ameris”), to assume all deposits of One Georgia.368 As of September 30,
                                             2011, Ameris still holds $52 million in TARP funds, which it received through CPP
                                             in exchange for preferred stock and warrants on November 21, 2008.369
                                                 FDIC estimates that the cost of One Georgia’s failure will be $44.4 million.370
                                             All of Treasury’s TARP investment in One Georgia is expected to be lost.371

                                             Closure of First Peoples Bank
                                             On December 5, 2008, Treasury invested $5.8 million in FPB Bancorp, Port St.
                                             Lucie, Florida (“FPB”) through CPP in return for preferred stock and warrants.372
                                             On March 18, 2010, FDIC and the Florida Office of Financial Regulation
                                             (“FOFR”) issued a consent order to FPB’s subsidiary bank, First Peoples Bank
                                             (“First Peoples”), which called for increased capital levels and reductions of
                                             its holdings of “substandard” assets.373 On January 28, 2011, FDIC issued a
                                             supervisory prompt corrective action directive to First Peoples due to the bank’s
                                             failure to submit a plan to improve capital ratios and to the overall “deteriorating”
                                             condition of the bank.374
                                                 On July 15, 2011, FOFR closed First Peoples, and FDIC was named receiver.
                                             FDIC entered into a purchase and assumption agreement with Premier American
                                             Bank, National Association, Miami, Florida, to assume all of the bank’s deposits.
                                             FDIC estimates that the cost of First Peoples’ failure will be $7.4 million.375 All of
                                             Treasury’s TARP investment in FPB is expected to be lost.376

                                             Closure of Citizens Bank of Northern California
                                             On December 23, 2008, Treasury invested $10.4 million in Citizens Bancorp,
                                             Nevada City, California (“Citizens”) through CPP in return for preferred stock
                                             and warrants, which Treasury exercised immediately.377 On February 11, 2010,
                                             FDIC issued a cease-and-desist order to Citizens’ subsidiary bank, Citizens Bank
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   105




of Northern California (“Citizens Bank”), which called for increased capital
levels and reduction of its holdings of “doubtful” and “substandard” assets.378
On June 28, 2011, FDIC issued a supervisory prompt corrective action directive
to the subsidiary bank, citing the institution’s low levels of capital, deteriorating
conditions, and inability of management to restore bank safety and soundness.379
    On September 23, 2011, the California Department of Financial Institutions
closed Citizens Bank, and FDIC was named receiver. FDIC entered into a pur-
chase and assumption agreement with Tri Counties Bank, Chico, California, to
assume all of the subsidiary bank’s deposits. FDIC estimates that the cost of the
bank’s failure will be $37.2 million.380 All of Treasury’s TARP investment in Citizens
Bancorp is expected to be lost.381
106               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      TABLE 2.27
      CPP RECIPIENTS: BANKRUPT OR WITH FAILED SUBSIDIARY BANKS AS OF 9/30/2011 ($ MILLIONS) 
                                                           Initial
                                                        Invested         Investment                                                                    Bankruptcy/
      Institution Name                                   Amount                Date                                                       Status       Failure Datea                 Subsidiary Bank
                                                                                                Bankruptcy proceedings completed with
      CIT Group Inc.,                                                                                                                                                                          CIT Bank
                                                        $2,330.0        12/31/2008                no recovery of Treasury’s investment;                    11/1/2009
      New York, NY                                                                                                                                                                    Salt Lake City, UT
                                                                                                        subsidiary bank remains active
      UCBH Holdings Inc.,                                                                                                                                                         United Commercial
                                                          $298.7        11/14/2008                  In bankruptcy; subsidiary bank failed                  11/6/2009
      San Francisco, CA                                                                                                                                                        Bank,San Franciso, CA
                                                                                                Bankruptcy proceedings completed with                                                    Pacific Coast
      Pacific Coast National Bancorp,
                                                              $4.1        1/16/2009               no recovery of Treasury’s investment;                  11/13/2009                      National Bank
      San Clemente, CA
                                                                                                                  subsidiary bank failed                                             San Clemente, CA
                                                                                                                                                                                     Midwest Bank and
      Midwest Banc Holdings, Inc.,
                                                           $89.4b         12/5/2008                 In bankruptcy; subsidiary bank failed                  5/14/2010                   Trust Company,
      Melrose Park, IL
                                                                                                                                                                                     Elmwood Park, IL
      Sonoma Valley Bancorp,                                                                 Winding down operations; subsidiary bank                                              Sonoma Valley Bank
                                                              $8.7        2/20/2009                                                                        8/20/2010
      Sonoma, CA                                                                                                                failed                                                   Sonoma, CA
      Pierce County Bancorp,                                                                                                                                                 Pierce Commercial Bank
                                                              $6.8        1/23/2009                                       Subsidiary bank failed           11/5/2010
      Tacoma, WA                                                                                                                                                                       Tacoma, WA
      Tifton Banking Company,
                                                              $3.8        4/17/2009                                                         Failed       11/12/2010                                    N/A
      Tifton, GA
      Legacy Bancorp, Inc.                                                                                                                                                                  Legacy Bank
                                                              $5.5        1/30/2009                                       Subsidiary bank failed           3/11/2011
      Milwaukee, WI                                                                                                                                                                        Milwaukee, WI
      Superior Bancorp, Inc.,                                                                                                                                                             Superior Bank
                                                            $69.0         12/5/2008                                       Subsidiary bank failed           4/15/2011
      Birmingham, AL                                                                                                                                                                    Birmingham, AL
      Integra Bank Corporation,                                                                                                                                                            Intergra Bank
                                                            $83.6         2/27/2009                                       Subsidiary bank failed           7/29/2011
      Evansville, IN                                                                                                                                                                       Evansville, IN
      One Georgia Bank, Atlanta, GA                           $5.5          5/8/2009                                                        Failed         7/15/2011                                   N/A
      FPB Bancorp,                                                                                                                                                                  First Peoples Bank
                                                              $5.8        12/5/2008                                       Subsidiary bank failed           7/15/2011
      Port Saint Lucie, FL                                                                                                                                                         Port Saint Lucie, FL
                                                                                                                                                                                      Citizens Bank of
      Citizens Bancorp,
                                                            $10.4       12/23/2008                                        Subsidiary bank failed           9/23/2011                Northern California
      Nevada City, CA
                                                                                                                                                                                      Nevada City, CA
      TOTAL                                            $2,921.3                                                                                                                                             
      Notes: Numbers may not total due to rounding.
      a
        Date is the earlier of the bankruptcy filing by holding company or the failure of subsidiary bank.
      b
        The amount of Treasury’s investment prior to bankruptcy was $89,874,000. On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000
        of MCP, which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.

      Sources: Treasury, Transactions Report, 10/3/2011; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed 10/18/2011; FDIC, “Institution Directory,” no date,
      www2.fdic.gov/idasp/main.asp, accessed 10/18/2011; CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
      www.cit.com/media-room/press-releases/index.htm, accessed 10/18/2011; Pacific Coast National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/
      pcnb-8k122209.htm, accessed 10/18/2011; Sonoma Valley Bancorp, 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed
      10/18/2011; Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1051379/000095012310081020/c60029e8vk.htm, accessed 10/18/2011; UCBH Holdings, Inc., 8-K,
      11/6/2009, www.sec.gov/Archives/edgar/data/1061580/000095012309062531/f54084e8vk.htm, accessed 10/18/2011; FDIC Press Release, “Heritage Bank, Olympia, Washington, Assumes All of
      the Deposits of Pierce Commercial Bank, Tacoma, Washington,” 11/5/2010, www.fdic.gov/news/news/press/2010/pr10244.html, accessed 10/18/2011; FDIC Press Release, “Ameris Bank, Moultrie,
      Georgia, Acquires All of the Deposits of Two Georgia Institutions,” 11/12/2010, www.fdic.gov/news/news/press/2010/pr10249.html, accessed 10/18/2011; Federal Reserve Board Press Release,
      5/10/2010, www.federalreserve.gov/newsevents/press/enforcement/20100510b.htm, accessed 10/18/2011; Board of Governors of the Federal Reserve System, Written Agreement by and among
      Legacy Bancorp, Inc., Legacy Bank, Federal Reserve Bank of Chicago, and State of Wisconsin Department of Financial Institutions, Madison, Wisconsin, www.federalreserve.gov/newsevents/press/
      enforcement/enf20100505b1.pdf, accessed 10/18/2011; FDIC Press Release, “Seaway Bank and Trust Company, Chicago, Illinois Assumes All of the Deposits of Legacy Bank, Milwaukee, Wisconsin,”
      3/11/2011, www.fdic.gov/news/news/press/2011/pr11055.html, accessed 10/18/2011; FDIC Press Release, “Superior Bank, N.A., Birmingham, Alabama, Assumes All of the Deposits of Superior Bank,
      Birmingham, Alabama,” 4/15/2011, www.fdic.gov/news/news/press/2011/pr11073.html, accessed 10/18/2011. FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits
      of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 10/18/2011. FDIC Press Release, “Old National Bank, Evansville,
      Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 10/18/2011. FDIC Press
      Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 10/18/2011. FDIC Press
      Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of the Deposits of First Peoples Bank, Port Saint Lucie, Florida,” 7/15/2011, www.fdic.gov/news/news/press/2011/
      pr11121.html, accessed 10/18/2011. FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City, California,” 9/23/2011,
      www.fdic.gov/news/news/press/2011/pr11154.html, accessed 10/18/2011. FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens Bank of Northern California,
      Nevada City, California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 10/18/2011. FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits
      of Integra Bank, National Association, Evansville, Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 10/18/2011. FDIC Press Release, “Ameris Bank, Moultrie, Georgia,
      Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/news/press/2011/pr11120.html, accessed 10/18/2011. FDIC, In the Matter of First Peoples Bank, Docket No.
      FDIC-09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/enforcement/2010-03-09.pdf, accessed 10/18/2011. FDIC, In the Matter of Citizens Bank of Northern California, Nevada City,
      California, Order No. FDIC-11-358PCAS, Supervisory Prompt Corrective Action Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf, accessed 10/18/2011.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011              107




Small-Business Lending Initiatives
Treasury has taken steps to launch two programs that it describes as small-
business lending initiatives. Both are similar to TARP’s CPP in that they involve
                                                                                           Subordinated Debt: Loan (or security)
Treasury purchases of preferred shares or subordinated debt in certain QFIs.
                                                                                           that ranks below other loans (or
The first, the Community Development Capital Initiative (“CDCI”), uses TARP
                                                                                           securities) with regard to claims on
money. The second, the Small Business Lending Fund (“SBLF”), authorized by
                                                                                           assets or earnings.
statute on September 27, 2010, operates outside TARP; however, 137 TARP
recipients refinanced Treasury’s TARP investment into SBLF.382
                                                                                           Community Development Financial
                                                                                           Institutions (“CDFIs”): Financial
Community Development Capital Initiative
                                                                                           institutions eligible for Treasury funding
The Administration announced CDCI on October 21, 2009. According to Treasury,
                                                                                           to serve urban and rural low-income
it was intended to help small businesses obtain credit.383 Under CDCI, TARP
                                                                                           communities through the CDFI Fund.
made capital investments in the preferred stock or subordinated debt of eligible
                                                                                           CDFIs were created in 1994 by the
banks, bank holding companies, thrifts, and credit unions certified as Community
                                                                                           Riegle Community Development and
Development Financial Institutions (“CDFIs”) by Treasury. According to Treasury,
                                                                                           Regulatory Improvement Act. These
these lower-cost capital investments were intended to strengthen the capital base
                                                                                           entities must be certified by Treasury;
of CDFIs and enable them to make more loans in low and moderate-income
                                                                                           certification confirms they target at
communities.384
                                                                                           least 60% of their lending and other
    CDCI was open to certified, qualifying CDFIs or financial institutions that
                                                                                           economic development activities
applied for CDFI status by April 30, 2010.385 According to Treasury, CPP-
                                                                                           to areas underserved by traditional
participating CDFIs that were in good standing could exchange their CPP
                                                                                           financial institutions.
investments for CDCI investments.386 Each application for new or incremental
funds had to be reviewed by the institution’s Federal regulator and approved by
                                                                                           Risk-weighted Assets: Risk-based
Treasury.387 CDCI closed to new investments on September 30, 2010.388
                                                                                           measure of total assets held by
                                                                                           a financial institution. Assets are
Terms for Senior Securities and Dividends
                                                                                           assigned broad risk categories. The
An eligible bank, bank holding company, or thrift could apply to receive capital in
                                                                                           amount in each risk category is then
an amount up to 5% of its risk-weighted assets. A credit union (which is a member-
                                                                                           multiplied by a risk factor associated
owned, nonprofit financial institution with a capital and governance structure
                                                                                           with that category. The sum of the
different from that of for-profit banks) could apply for Government funding of
                                                                                           resulting weighted values from each of
up to 3.5% of its total assets — roughly equivalent to the 5% of risk-weighted
                                                                                           the risk categories is the bank’s total
assets for banks.389 Participating credit unions and subchapter S corporations
                                                                                           risk-weighted assets.
(“S corporations”) issued subordinated debt to Treasury in lieu of the preferred
stock issued by other CDFI participants.390 Many CDFI investments have an
                                                                                           Subchapter S corporations (“S
initial dividend rate of 2%, which increases to 9% after eight years. Participating
                                                                                           corporations”): Corporate form that
S corporations pay an initial rate of 3.1%, which increases to 13.8% after eight
                                                                                           passes corporate income, losses,
years.391
                                                                                           deductions, and credit through to
    A CDFI participating in CPP had the opportunity to request to convert those
                                                                                           shareholders for Federal tax purposes.
shares into CDCI shares, thereby reducing the annual dividend rate it pays the
                                                                                           Shareholders of S corporations report
Government from 5% to as low as 2%.392 According to Treasury, CDFIs were not
                                                                                           the flow-through of income and losses
required to issue warrants because of the de minimis exception in EESA, which
                                                                                           on their personal tax returns and are
grants Treasury the authority to waive the warrant requirement for qualifying
                                                                                           taxed at their individual income tax
institutions in which Treasury invested $100 million or less.393
                                                                                           rates.
    If during the application process a CDFI’s primary regulator deemed it to
108             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       be undercapitalized or to have “quality of capital issues,” the CDFI had the
                                                       opportunity to raise private capital to achieve adequate capital levels. Treasury
                                                       would match the private capital raised on a dollar-for-dollar basis, up to a total
                                                       of 5% of the financial institution’s risk-weighted assets. In such cases, private
                                                       investors had to agree to assume any losses before Treasury.394

                                                       CDCI Investment Update
                                                       Treasury invested $570.1 million of the $780.2 million it originally allocated for
                                                       CDCI.395 Treasury made investments in 84 institutions under the program — 36
                                                       banks or bank holding companies and 48 credit unions.396 Of the 36 investments in
                                                       banks and bank holding companies, 28 were conversions from CPP (representing
                                                       $363.3 million of the total $570.1 million); the remaining eight were not CPP
                                                       participants. Treasury provided an additional $100.7 million in CDCI funds to ten
                                                       of the banks converting CPP investments. Only $106 million of the total CDCI
                                                       funds went to institutions that were not in CPP. As of September 30, 2011,
                                                       Treasury had received approximately $10.5 million in dividends and interest from
                                                       CDCI recipients.397 However, as of that date, five institutions (Carver Bancorp,
                                                       Inc., First Vernon Bancshares, Inc., First American International Corporation,
                                                       PGB Holdings, Inc., and Premier Bancorp, Inc.) had unpaid dividend or interest
                                                       payments to Treasury totaling $789,847.398 A list of all CDCI investments is
                                                       included in Appendix D: “Transaction Detail.”

                                                       Small Business Lending Fund
      Mutual Depository Institution: Any               On September 27, 2010, the President signed into law the Small Business Jobs
      bank, savings association, bank                  Act of 2010, which created the SBLF with a $30 billion authorization.399 According
      holding company, or savings and                  to the statute, SBLF is intended to allow Treasury “to make capital investments
      loan holding company organized in                in eligible institutions in order to increase the availability of credit for small
      a mutual form. Savings associations              businesses.”400 To be eligible for SBLF, the institution must have had less than $10
      organized as mutual institutions issue           billion in total assets as of December 31, 2009.
      no capital stock and therefore have                   Prospective participants in SBLF were required to submit an application and
      no stockholders. Mutual savings                  a “small business lending plan,” which addressed their intended use of funds and
      associations build capital almost                anticipated increase in small-business lending, to their primary Federal regulator
      exclusively through retained earnings.           and to their state regulator, if applicable.401 Treasury’s authority to make SBLF
                                                       investments expired on September 27, 2011.402 According to Treasury, it received
      Bank Holding Company (“BHC”):                    a total of 935 SBLF applications, of which 320 were existing TARP recipients.403
      Company that owns and/or controls                According to Treasury, 332 institutions received SBLF funding for a total of $4.03
      one or more U.S. banks.                          billion.404 Of that number, 137 TARP banks were accepted into the program,
                                                       receiving a total of $2.7 billion in SBLF funding.
      Community Development Loan Fund                       Banks, S corporations, and mutual depository institutions were eligible to
      (“CDLF”): Financial institution that is a        apply for a capital investment totaling up to 3% or 5% of its risk-weighted assets,
      type of certified CDFI. These entities           depending on their size.405 Bank holding companies (“BHCs”) accepted into SBLF
      (usually non-profits) serve businesses,          must contribute at least 90% of any funding they receive to their insured depository
      organizations, and individuals in urban          institution subsidiaries that originate small-business loans.406 Community
      and rural low-income communities.                Development Loan Funds (“CDLFs”) were eligible to apply for SBLF funding
                                                       equal to 1% to 5% of their total assets as of December 31, 2009.407
                                                                               QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011            109




    An institution was not eligible for the program if at the time of application it
was on the FDIC’s problem bank list or if it had been removed from that list in the
90 days preceding its application to SBLF.408 Treasury consulted with Federal and,
where applicable, state regulators about the bank’s financial condition and whether
it was eligible to receive funding from SBLF.409
    Qualified Small Business Lending under SBLF allows participants to extend
loans of up to $10 million to businesses with no more than $50 million in annual
revenues. Such loans include:410

•	   commercial and industrial loans to small businesses
•	   loans secured by owner-occupied nonfarm, nonresidential real estate
•	   loans to finance agricultural production and other loans to farmers
•	   loans secured by farmland

Dividend and Interest Payments
According to the governing provisions of the Small Business Jobs Act, the initial 5%
annual dividend that SBLF recipients pay to the Government drops one percentage
point for every 2.5% increase over two years in the institution’s Qualified Small
Business Lending, as defined by SBLF, subject to a minimum rate of 1%.411 If an
institution increases small-business lending by more than 1% during an initial two-
year adjustment period, the decreased dividend holds until four and a half years
from Treasury’s investment date.412 If the institution does not increase its small-
business lending during the first two years, the rate later rises to 7%.413 In addition,
CPP banks that refinance into SBLF and fail to increase small-business lending
after two years following their entry into SBLF are subject to an additional 2%
annual fee from the fifth anniversary of their CPP investment date until four and a
half years after Treasury’s SBLF investment, at which time the dividend rate for all
SBLF participants becomes 9%.414 Increases in Qualified Small Business Lending
are compared with a “baseline” amount equal to the average amount of such
                                                                                                For more information on how
lending that an SBLF participant had outstanding for the four calendar quarters
                                                                                                adjustments to the dividend rate are
ending June 30, 2010 (adjustments are made to exclude loans obtained through
                                                                                                calculated for SBLF banks whose
“mergers, acquisitions, and loan purchases”).415 Participating financial institutions           Qualified Small Business Lending
qualify for reduced dividend and interest rates to the extent that their outstanding            exceeds baseline levels, see SIGTARP’s
Qualified Small Business Lending exceeds baseline levels. The dividend rates are                April 2011 Quarterly Report, page 128.
adjusted quarterly to reflect changes in an institution’s small business lending
relative to its baseline amount.416 As a result, a bank may receive a reduced                   See SIGTARP’s April 2011 Quarterly
dividend rate based on increases in its lending that occurred before it received any            Report, pages 128-129, for a discussion
SBLF funding.                                                                                   on Treasury’s policies regarding missed
                                                                                                dividend payments under SBLF.
CPP and CDCI Refinancing into SBLF
Although this program operates outside TARP, as of the program closing date of
September 27, 2011, 315 TARP recipients under CPP and five TARP recipients
under CDCI had applied to refinance their investments and, thus, potentially
benefit from lower dividend rates, non-cumulative dividends, and the removal of
rules on executive compensation and luxury expenditures.417 As of the program
110            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      closing date, 137 CPP participants and no CDCI participants were accepted
                                                      into SBLF, receiving $2.7 billion in SBLF funding.418 For a listing of all TARP
                                                      participants that have refinanced into SBLF, see Table 2.21 in the “Capital
                                                      Purchase Program” discussion of this section.
                                                          According to Treasury, the applications of CPP or CDCI participants were
                                                      evaluated under the same processes used for other applicants, though additional
                                                      eligibility restrictions pertained to institutions refinancing from CPP or CDCI.419
                                                      On December 20, 2010, Treasury issued further guidance under which CPP and
                                                      CDCI recipients were eligible to refinance into SBLF.420 Among the additional
                                                      terms for TARP recipients were:421

                                                      •	 Banks that participate in SBLF cannot continue to participate in CPP or CDCI.
                                                      •	 Banks that use SBLF to refinance their CPP or CDCI investments must redeem
                                                         all outstanding preferred stock issued under those programs on or before the
                                                         date of Treasury’s SBLF investment. Banks may use the SBLF funding to meet
                                                         this requirement.
                                                      •	 Banks must be in material compliance with all the terms, conditions, and
                                                         covenants of CPP or CDCI in order to refinance through SBLF.
                                                      •	 Banks must be current in their dividend payments and must pay any accrued
                                                         and unpaid dividends due to Treasury under CPP or CDCI. In addition, banks
                                                         cannot have missed more than one previous dividend payment under CPP or
                                                         CDCI (defined as a payment submitted more than 60 days late).
                                                      •	 Banks’ matching funds from private sources are not considered in the
                                                         preliminary approval process.

                                                         Additional specific terms apply to banks that previously received investments
                                                      under CPP:

                                                      •	 Two years after refinancing to SBLF funding, a CPP-recipient bank must have
                                                         increased its small-business lending relative to the baseline level of small-
                                                         business lending as defined in the Small Business Jobs Act. If it has not, then in
                                                         addition to its SBLF dividends (which reset to 7%) the bank must pay Treasury
                                                         an additional “lending incentive fee” equal to 2% per annum of its then-
      See SIGTARP’s January 2011 Quarterly
      Report, pages 185–192, for SIGTARP’s
                                                         outstanding SBLF investment, starting on the fifth anniversary of Treasury’s
      recommendations to Treasury about                  CPP investment. The lending incentive fee will be in effect until four and a half
      how SBLF is applied to current TARP                years after the SBLF investment (i.e., the time at which the SBLF dividend rate
      recipients and, in particular, Treasury’s          for all participants rises to 9%). This fee does not apply to a bank that redeemed,
      rejection of two important taxpayer-               or applied to redeem, its CPP investment as of December 16, 2010.
      protecting recommendations advanced             •	 Banks are not required to repurchase warrants from Treasury that were provided
      by SIGTARP.                                        as a condition of receiving funds under CPP. Treasury does not require banks to
                                                         issue warrants for participation in SBLF.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011            111




Systemically Significant Failing Institutions Program
According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
program was established to “provide stability and prevent disruptions to financial
markets from the failure of a systematically significant institution.”422 Through
SSFI, Treasury obligated $69.8 billion to American International Group, Inc.
(“AIG”), the program’s sole participant (including a $2 billion equity facility that
was never used).423

Status of SSFI Funds
                                                                                               Cumulative Preferred Stock: Preferred
On November 25, 2008, Treasury made an initial $40 billion investment in AIG.
                                                                                               stock requiring a defined dividend
In return, Treasury received AIG Series D cumulative preferred stock and warrants
                                                                                               payment. If the company does not pay
to purchase AIG common stock.424 On April 17, 2009, AIG and Treasury signed
                                                                                               the dividend on schedule, it still owes
a securities exchange agreement under which Treasury exchanged the Series D
                                                                                               the missed dividend to the stock’s
cumulative preferred stock, which required AIG to make quarterly dividend and
                                                                                               owner.
interest payments, for $41.6 billion (including $1.6 billion in missed dividend
payments) of less valuable and less liquid Series E non-cumulative preferred stock,
                                                                                               Non-Cumulative Preferred Stock:
which did not require AIG to make quarterly dividend and interest payments.
                                                                                               Preferred stock with a defined
Additionally, on April 17, 2009, Treasury committed to fund an equity capital
                                                                                               dividend, without the obligation to pay
facility under which AIG could draw down up to $29.8 billion in exchange for
                                                                                               missed dividends.
Series F non-cumulative preferred stock (that had similar terms to the Series E)
and additional warrants, of which AIG drew down $27.8 billion.425
                                                                                               Equity Capital Facility: Commitment
    On January 14, 2011, AIG executed its previously announced Recapitalization
                                                                                               to invest equity capital in a firm
Plan (discussed in greater detail in this section), which resulted in the conversion
                                                                                               under certain future conditions. An
of the Series E and F preferred shares to common stock.426 In addition, portions of
                                                                                               equity facility when drawn down is
the Series F preferred stock were exchanged for preferred interests in the AIA and
                                                                                               an investment that increases the
ALICO special purpose vehicles (“SPVs”) and for a new $2 billion Series G equity
                                                                                               provider’s ownership stake in the
capital facility.427
                                                                                               company. The investor may be able
    On May 27, 2011, AIG and Treasury completed a stock offering for AIG
                                                                                               to recover the amount invested by
common stock. Treasury sold 200 million shares of its AIG common stock as part
                                                                                               selling their ownership stake to other
of the offering. Total proceeds from the sale were $8.7 billion, with $5.8 billion
                                                                                               investors at a later date.
going to Treasury. As of September 30, 2011, Treasury held a 77% common equity
stake.428 The Series G equity capital facility subsequently was terminated without
                                                                                               Special Purpose Vehicle (“SPV”): Off-
being drawn down.429 See the “AIG Recapitalization Plan” and “Sale of AIG
                                                                                               balance- sheet legal entity that holds
Common Stock” discussions below for more detailed information.
                                                                                               transferred assets presumptively
                                                                                               beyond the reach of the entities that
Dividend Payments
                                                                                               provide the assets, and that is legally
Before the recapitalization, for the period November 25, 2008, to January 14,
                                                                                               isolated.
2011, AIG had failed to pay any dividends. As of December 31, 2010, AIG had not
paid or had failed to declare dividends for eight consecutive quarters, for a total of
$7.9 billion in missed or undeclared dividend payments.430 When AIG failed to pay
dividends for four consecutive quarters on the Series E preferred stock, this gave
Treasury the right to appoint to AIG’s board the greater of either two directors or
a number (rounded upward) of directors equal to 20% of all AIG directors.431 On
April 1, 2010, Treasury appointed Donald H. Layton and Ronald A. Rittenmeyer
112            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      as directors of AIG.432 After the Recapitalization Plan was executed, AIG no longer
                                                      had an obligation to pay dividends.
      Revolving Credit Facility: Line of
      credit for which borrowers pay a                Federal Reserve Credit Facility, Maiden Lane II and III, and Special
      commitment fee, allowing them to                Purpose Vehicles
      repeatedly draw down funds up to a              In September 2008, the Federal Reserve Bank of New York (“FRBNY”) extended
      guaranteed maximum amount. The                  an $85 billion revolving credit facility to AIG in an effort to stabilize the company.
      amount of available credit decreases            In return, AIG committed 79.8% of its voting equity to a trust for the sole benefit
      and increases as funds are borrowed             of the United States Treasury.433 The terms of the credit facility included a high
      and then repaid.                                interest rate and increased AIG’s debt ratios significantly. Servicing this debt
                                                      contributed to AIG’s financial troubles and put downward pressure on its credit
                                                      rating.434 Federal officials feared that future downgrades in AIG’s credit rating could
                                                      have “catastrophic” effects on the company, forcing it into bankruptcy.435
                                                          FRBNY and Treasury determined that this possibility posed a threat to the
                                                      nation’s financial system and decided that additional transactions were necessary
                                                      to modify the revolving credit facility.436 In November 2008, FRBNY and Treasury
                                                      took the following actions to stabilize AIG’s operations:437

                                                      •	 Treasury purchased $40 billion in AIG preferred shares under TARP, the
      For more on the creation of the Maiden             proceeds of which went directly to FRBNY to pay down a portion of the existing
      Lane III SPV see SIGTARP audit                     revolving credit facility. After that payment, the total amount available to AIG
      report, “Factors Affecting Payments to             under FRBNY’s revolving credit facility was reduced from $85 billion to $60
      AIG’s Counterparties,” dated November              billion.
      17, 2009.                                       •	 FRBNY created Maiden Lane II, an SPV, to which FRBNY lent $19.5 billion
                                                         to fund the purchase of residential mortgage-backed securities (“RMBS”) from
                                                         the securities-lending portfolios of several of AIG’s U.S.-regulated insurance
                                                         subsidiaries, in order to help relieve liquidity pressures stemming from their
                                                         security-lending programs.
                                                      •	 FRBNY created Maiden Lane III, another SPV, to which FRBNY lent $24.3
                                                         billion to buy from AIG’s counterparties collateralized debt obligations (“CDOs”)
                                                         underlying credit default swap (“CDS”) contracts written by AIG.

                                                           On March 30, 2011, FRBNY announced that it will dispose of the securities
                                                      in Maiden Lane II over time using a competitive sales process through its
                                                      investment manager BlackRock Solutions. According to FRBNY, there will be no
      Committee on Uniform Securities                 fixed timeframe for the sales.438 FRBNY also announced that, along with providing
      Identification Procedures (“CUSIPs”):           quarterly updates on total proceeds from sales and the total amount purchased by
      Committee set up by securities                  each counterparty, it will publish the identity of the purchasers and sale price for
      exchanges to allocate a unique                  each individual security three months after the last asset is sold.439 According to
      identification code to each security            the Federal Reserve, the fair value of the Maiden Lane II assets was approximately
      traded.                                         $10 billion based on valuations as of June 30, 2011, which according to FRBNY is
                                                      the latest data available.440 As of September 30, 2011, FRBNY had completed nine
                                                      sales of a total of 306 Committee on Uniform Securities Identification Procedures
                                                      (“CUSIPS”) from the Maiden Lane II portfolio with a face value totaling $10
                                                      billion.441
                                                                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011               113




   Table 2.29 details the offerings that have been completed through September
30, 2011.

TABLE 2.29
FRBNY MAIDEN LANE II SECURITIES SALES, AS OF 9/30/2011
                                                                                       Current Face             Bonds Sold as a
Auction                          Number of                     Number of              Value of Bonds             Percentage of
Closing Date                  Bonds Offered                    Bonds Sold                       Sold a           Bonds Offered
4/6/2011                                        52                          42       $1,326,856,873                               81%
4/13/2011                                       42                          37            626,080,072                             88%
4/14/2011                                         8                           8           534,127,946                           100%
4/28/2011                                       10                            8        1,122,794,209                              80%
5/4/2011                                        43                          38         1,773,371,055                              88%
5/10/2011                                       79                          74            427,486,898                             94%
5/12/2011                                       53                          34         1,373,506,029                              64%
5/19/2011                                       29                          29            878,641,682                           100%
6/9/2011                                        73                          36         1,898,594,878                              49%
Total                                         389                         306      $9,961,459,642                                79%
Note: Numbers affected by rounding.
a
  The current face value represents the most recent balance of principal outstanding on the assets. It does not reflect the market
  value of the bonds nor the price originally paid by Maiden Lane II LLC for the bonds.

Source: FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm?showMore=1,
accessed 10/12/2011.



    On March 2, 2009, Treasury and the Federal Reserve announced a
restructuring of Government assistance to AIG that, according to Treasury, was
designed to strengthen the company’s capital position.442 The measures included an
authorization for FRBNY to acquire up to $26 billion of preferred equity interests
in two SPVs formed for AIA and ALICO. The SPVs’ creation also facilitated the
independence of these two subsidiaries in anticipation of a sale or initial public
offering (“IPO”).443
    On December 1, 2009, FRBNY received $16 billion in preferred equity
interests in AIA Aurora LLC (“AIA SPV”) and $9 billion in the ALICO Holdings
LLC (“ALICO SPV”). This action decreased the outstanding principal balance of
AIG’s revolving credit facility by $25 billion and reduced its total facility borrowing
capacity from $60 billion to $35 billion.444 Under the transaction’s original terms,
with limited exceptions, all proceeds from the voluntary sale, public offering, or
other liquidation of the assets or businesses held by the SPVs had to be used first                                                          For more on AIG’s Federal Reserve
to fully redeem FRBNY’s interests in the SPVs and then to reduce the outstanding                                                             credit facility reduction transaction, see
revolving credit facility.                                                                                                                   SIGTARP’s January 2010 Quarterly
    After a series of additional payments, from March 12, 2010, to December                                                                  Report, page 71.
31, 2010, the borrowing capacity under the revolving credit facility was reduced
to approximately $25.1 billion and AIG’s total outstanding principal and interest
balance was $20.3 billion.445 As of January 14, 2011, that total, including fees, had
grown to $20.7 billion.446
114   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Upon closing the Recapitalization Plan on January 14, 2011, AIG repaid the
                                             remaining balance of the FRBNY revolving credit facility with proceeds from the
                                             AIA IPO and the ALICO sale (both are described below), and the facility was
                                             terminated.447

                                             Sale of Business Assets
                                             AIG announced on September 30, 2010, that it had entered into a definitive
                                             sale agreement with Prudential Financial, Inc., for the sale of its two Japanese-
                                             based life insurance subsidiaries, AIG Star Life Insurance Co., Ltd. (“Star”), and
                                             AIG Edison Life Insurance Company (“Edison”), for a total of $4.8 billion.448
                                             On February 1, 2011, AIG completed the sale of Star and Edison to Prudential
                                             Financial, Inc., for $4.8 billion, consisting of $4.2 billion in cash and $0.6 billion
                                             in the assumption of third-party debt.449 Under the terms of the Recapitalization
                                             Plan, AIG was required to use all net cash proceeds from the Star and Edison sales
                                             to repay a portion of Treasury’s preferred interests in the AIA and ALICO SPVs.450
                                             Instead, on February 8, 2011, AIG entered into a letter agreement with Treasury
                                             permitting AIG to retain $2 billion of net cash proceeds from the sale of Star and
                                             Edison to strengthen loss reserves and support the capital of one of AIG’s operating
                                             companies, Chartis, Inc., which had taken a charge of more than $4 billion to its
                                             reserves.451 On February 14, 2011, the remaining $2.2 billion in cash proceeds
                                             went to repay a portion of Treasury’s preferred interests in the AIA and ALICO
                                             SPVs.452
                                                  On October 29, 2010, AIG completed an IPO of 8.1 billion shares of AIA
                                             Group Limited.453 According to AIG, the gross proceeds from the IPO were
                                             $20.5 billion. Upon completion of the IPO, AIG owned approximately 33% of
                                             AIA’s outstanding shares, which will continue to be held in the AIA SPV. AIG is
                                             precluded from selling or hedging more than half of its remaining shares of AIA
                                             until April 18, 2012.454
                                                  On November 1, 2010, AIG finalized the sale of ALICO to MetLife, Inc.
                                             AIG received $16.2 billion through the sale of ALICO, $7.2 billion of which was
                                             paid in cash and $9 billion in equity interests in MetLife. These equity interests
                                             were initially held in the ALICO SPV, then were sold on March 8, 2011, for $9.6
                                             billion.455
                                                  On January 12, 2011, AIG accepted a $2.2 billion cash offer for 97.6% of its
                                             Taiwan life insurance unit, Nan Shan Life Insurance Company, Ltd. (“Nan Shan”),
                                             from Ruen Chen Investment Holding Co., Ltd.456 On August 18, 2011, following
                                             regulatory approval of the transaction, the $2.2 billion in proceeds from the sale
                                             went to repay a portion of Treasury’s preferred interests in the AIA SPV.457
                                                  Effective January 14, 2011, the cash proceeds from the AIA IPO and ALICO
                                             sale were disbursed to FRBNY as part of the Recapitalization Plan.
                                                  For a summary of AIG asset sales in excess of $1 billion, see Table 2.30.
                                                                                                                   QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   115




TABLE 2.30
AIG ASSET SALES IN EXCESS OF $1 BILLION, AS OF 9/30/2011
AIG Asset                                   Gross Proceeds           Date               Buyer or Public
AIA (sold 67%)                              $20.5 billion            10/29/2010 Public: Initial Public Offering
                                            $7.2 billion cash
ALICO                                       $9 billion MetLife       11/1/2010          Buyer: MetLife, Inc.
                                            equity interests
MetLife equity interests                    $9.6 billion             3/8/2011           Buyer: MetLife, Inc
AIG Star Life Insurance and AIG
                                            $4.8 billion             2/1/2011           Buyer: Prudential Financial, Inc.
Edison Life Insurance
Nan Shan Life Insurance Co.                                                             Buyer: Ruen Chen Investment
                                            $2.2 billion             8/18/2011
(agreed to sell 97.6%)                                                                  Holding Co., Ltd.
Numbers affected by rounding.

Sources: AIG, “AIG Enters Into Agreement To Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorporate.com/
news- room/index.html, accessed 10/14/2011; SEC, “8-K American International Group,” 10/22/2010, www.sec.gov/Archives/
edgar/ data/5272/000095012310095032/y87334e8vk.htm, accessed 10/14/2011; AIG, “AIG Raises Nearly $37 Billion In
Two Transactions To Repay Government,” 11/1/2010, ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp/
lptmOSyzUBWuL0H- cUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 10/14/2011; SEC, “10-Q American
International Group,”10/29/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm,
accessed 10/14/2011; AIG, “AIG Raises Nearly $37 Billion In Two Transactions To Repay Government,” 11/1/2010, ir.aigcorporate.
com/External.File?t=2&item=g7rqB LVLuv81UAmrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/
sacvpSe5qek1w==, accessed 10/14/2011; AIG, “AIG Enters Into Agreement To Sell Nan Shan To Taiwan-Based Consortium Led By
The Ruentex Group,” 1/12/2011, ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC
4eLA/wD8wJ898T+OGLtuOD53u0EV2e/b6wq8H- GwkVuaVQ==, accessed 10/14/2011; SEC, “10-K American International Group,”
2/24/2011; AIG, “13G,” 3/8/2011, www.sec.gov/ Archives/edgar/data/5272/000095012311023024/y90152sc13gza.htm,
accessed 10/14/2011; AIG Press Release, “AIG Reduces United States Treasury Investment in AIG Subsidiary by Approximately $2
Billion; AIG Applies Proceeds from Completed Sale of Nan Shan,” 8/18/2011, ir.aigcorporate.com/phoenix.zhtml?c=76115&p=irol-
newsArticle&ID=1597987&highlight=, accessed 10/14/2011.



AIG Recapitalization Plan
On January 14, 2011, AIG completed its Recapitalization Plan as outlined in a
Master Transaction Agreement dated December 8, 2010. The Recapitalization
Plan was based on a plan originally announced on September 30, 2010.458 AIG
executed the Recapitalization Plan with Treasury, FRBNY, the AIG Credit Facility
Trust (“AIG Trust”) (the entity in which FRBNY placed the management of the
79.8% equity interest in AIG that was issued as a condition of the FRBNY credit
facility), ALICO SPV, and AIA SPV to recapitalize itself, with the intent to repay
the Government’s loans and investments in AIG.459
    Execution of the Recapitalization Plan entailed three main steps. First, AIG
terminated its revolving credit facility with FRBNY by repaying the $20.7 billion
balance in full using a portion of the cash proceeds from the AIA IPO and the sale
of ALICO.460
    Second, AIG applied cash proceeds from the AIA IPO and the ALICO sale to
retire a portion of the FRBNY’s preferred interests in the ALICO SPV.461 AIG then
drew $20.3 billion of the remaining funds available under the TARP Series F equity
capital facility (which had $22.3 billion still available as of December 31, 2010) to
repurchase the remainder of the FRBNY’s preferred interests in the ALICO SPV
and all of the FRBNY’s preferred interests in the AIA SPV, and then transferred
those interests to Treasury.462 The remaining available TARP funds, approximately
$2 billion, were used to create a Series G preferred equity capital facility, which
was terminated in May 2011 following the closing of AIG’s recent stock offering.463
116           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                         Treasury’s preferred SPV interests are secured by the following:464

                                                     •	 AIG’s remaining shares in AIA post-IPO (approximately 33% of AIA’s
                                                        outstanding shares)
                                                     •	 AIG’s equity and residual interests in Maiden Lane II and III
                                                     •	 AIG’s ownership interest in International Lease Finance Corporation (“ILFC”),
                                                        AIG’s aircraft leasing subsidiary
                                                     •	 An escrow account containing proceeds from the sale of equity interests in
                                                        MetLife

                                                          On February 14, 2011, AIG used part of the proceeds from the sales of Star
                                                     and Edison to repay $2.2 billion of Treasury’s preferred interests in the AIA and
                                                     ALICO SPVs.465 AIG also used $6.6 billion from the March 8, 2011, sale of its
                                                     equity interests in MetLife and $300 million held in an expense reserve related to
                                                     the sale of ALICO to MetLife to completely repay Treasury’s preferred interest in
                                                     the ALICO SPV and to reduce Treasury’s preferred interests in the AIA SPV.466 The
                                                     remaining $3 billion from the sale was placed in an escrow that will be released to
                                                     Treasury over a 30-month period.467 On August 18, 2011, AIG used proceeds from
                                                     the sale of Nan Shan to repay $2.2 billion of Treasury’s preferred interests in the
                                                     AIA SPV.468
                                                          According to Treasury, the outstanding balance of Treasury’s preferred interest
                                                     in the AIA SPV as of September 30, 2011, was approximately $9.3 billion.469 AIG
                                                     expects to continue to repay Treasury for its preferred interest in the AIA SPV
                                                     through proceeds from future asset sales.470 If the proceeds from the sales of all
                                                     the remaining assets securing the SPVs are insufficient to fully redeem Treasury’s
                                                     interest in the AIA SPV, Treasury will recognize a loss in the amount of the
                                                     shortfall.
                                                          In the third and final step of the Recapitalization Plan, AIG extinguished all
                                                     prior outstanding preferred shares held by the Government, comprising $41.6
                                                     billion of Series E preferred shares and $7.5 billion drawn from the Series F
      For a more detailed description of             equity capital facility. In exchange, it issued 1.655 billion shares of common stock
      the AIG Recapitalization Plan, see             (which included 563 million Series C shares held by the AIG Trust for the benefit
      SIGTARP’s January 2011 Quarterly               of Treasury), representing 92.1% of the common stock of AIG.471 The AIG Trust
      Report to Congress, pages 135–139.             was then terminated. To its existing non-Government common shareholders, AIG
                                                     issued 10-year warrants to purchase up to a cumulative total of 75 million shares of
                                                     common stocks at a strike price of appropriately $45 per share.472

                                                     Treasury’s Rights under the Exchange Plan
                                                     As part of the exchange, AIG entered into an agreement with Treasury that grants
                                                     Treasury registration rights with respect to the shares of AIG common stock. Under
                                                     the rights agreement, until Treasury’s ownership of AIG’s voting securities falls
                                                     below 33%, AIG will have to obtain Treasury’s consent to the terms, conditions, and
                                                     pricing of any equity offering, including any primary offering by AIG. Additionally,
                                                     AIG is required to pay Treasury’s expenses for the registration of shares and
                                                     underwriting fees, up to 1% of the amount offered by Treasury.473
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   117




    So long as Treasury continues to hold AIA SPV preferred interests, Treasury has
the right to require AIG to sell a portion of AIG’s remaining 33% stake held in the
AIA SPV.474 
    In addition, so long as Treasury continues to hold AIA SPV interests, Treasury’s
consent will be required for AIG to take any significant action with respect to
ILFC, including initial public offerings, sales, significant acquisitions or disposi-
tions, and incurrence of significant debt.475
    Should Treasury hold any preferred interests in the AIA SPV after May 1, 2013,
it will have the right to compel the sale of all or a portion of ILFC.476

Recent Developments
Sale of AIG Common Stock
On May 27, 2011, Treasury sold 200 million shares of AIG common stock for
$29.00 per share ($0.28 above Treasury’s prior break-even price which rounded
to $28.73).477 The total proceeds to Treasury from the sale were $5.8 billion. In
addition, the Series G equity capital facility was terminated and AIG cancelled
all Series G preferred stock.478 As of September 30, 2011, Treasury owned 1.455
billion shares of AIG’s common stock, representing an ownership stake of 77%.479

Proposed Sale of ILFC Common Stock
Treasury’s preferred SPV interests are in part secured by AIG’s ownership interest
in ILFC. On September 2, 2011, ILFC filed a Form S-1 Registration statement for
an IPO with the Securities and Exchange Commission (“SEC”).480 The Registration
Statement includes a prospectus relating to the issuance of ILFC common stock.
The number of common shares to be offered, price range, and timing for the
proposed offering have not yet been determined.481
118            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      Targeted Investment Program and Asset Guarantee Program
                                                      Treasury invested a total of $40 billion in two financial institutions, Citigroup
                                                      Inc. (“Citigroup”) and Bank of America Corp. (“Bank of America”), through the
                                                      Targeted Investment Program (“TIP”). Treasury invested $20 billion in Citigroup
                                                      on December 31, 2008, and $20 billion in Bank of America on January 16, 2009,
                                                      in return for preferred shares paying quarterly dividends at an annual rate of 8%
                                                      and warrants from each institution.482 According to Treasury, TIP’s goal was to
                                                      “strengthen the economy and protect American jobs, savings, and retirement
                                                      security [where] the loss of confidence in a financial institution could result in
                                                      significant market disruptions that threaten the financial strength of similarly
                                                      situated financial institutions.”483 Both banks repaid TIP in December 2009.484 On
                                                      March 3, 2010, Treasury auctioned the Bank of America warrants it received under
                                                      TIP for $1.26 billion.485 On January 25, 2011, Treasury auctioned the Citigroup
                                                      warrants it had received under TIP for $190.4 million.486
                                                           Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
                                                      Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
                                                      provide loss protection on a pool of Citigroup assets valued at approximately $301
      Trust Preferred Securities (“TRUPS”):
                                                      billion. In return, as a premium, the Government received warrants to purchase
      Securities that have both equity
                                                      Citigroup common stock and $7 billion in preferred stock. The preferred stock was
      and debt characteristics created by
                                                      subsequently exchanged for trust preferred securities (“TRUPS”).487
      establishing a trust and issuing debt
                                                           Treasury received $4 billion of the TRUPS and the FDIC received $3 billion.488
      to it.
                                                      Although Treasury’s asset guarantee was not a direct cash investment, it exposed
                                                      taxpayers to a potential TARP loss of $5 billion. On December 23, 2009, in
                                                      connection with Citigroup’s TIP repayment, Citigroup and Treasury terminated
                                                      the AGP agreement. Although at the time of termination the asset pool suffered
                                                      a $10.2 billion loss, this number was below the agreed-upon deductible and the
                                                      Government suffered no loss.489
                                                           Treasury agreed to cancel $1.8 billion of the TRUPS issued by Citigroup,
                                                      reducing the premium it received from $4 billion to $2.2 billion, in exchange for
                                                      the early termination of the loss protection. The FDIC retained all of its $3 billion
                                                      in securities.490 Under the termination agreement, however, the FDIC will transfer
                                                      up to $800 million of those securities to Treasury if Citigroup’s participation in the
                                                      FDIC’s Temporary Liquidity Guarantee Program closes without a loss.491
                                                           On September 29, 2010, Treasury entered into an agreement with Citigroup
                                                      to exchange the entire $2.2 billion in Citigroup TRUPS that it held under AGP for
                                                      new TRUPS. Because the interest rate necessary to receive par value was below
                                                      the interest rate paid by Citigroup to Treasury, Citigroup increased the principal
                                                      amount of the securities sold by Treasury by an additional $12 million, thereby
      For a discussion of the basis of the
                                                      enabling Treasury to receive an additional $12 million in proceeds from the $2.2
      decision to provide Federal assistance to       billion sale of the Citigroup TRUPS, which occurred on September 30, 2010.492
      Citigroup, see SIGTARP’s audit report,          On January 25, 2011, Treasury auctioned the Citigroup warrants it had received
      “Extraordinary Financial Assistance             under AGP for $67.2 million.493 According to Treasury, it has realized a gain of
      Provided to Citigroup Inc.” dated               approximately $12.3 billion over the course of Citigroup’s participation in AGP,
      January 13, 2011.                               TIP, and CPP, including dividends, other income, and warrant sales.494
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   119




    Bank of America announced a similar asset guarantee agreement with respect
to approximately $118 billion in Bank of America assets, but the final agreement
was never executed. Bank of America paid $425 million to the Government as a
termination fee.495 Of this $425 million, $276 million was paid to Treasury, $92
million was paid to the FDIC, and $57 million was paid to the Federal Reserve.496
120             SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                       ASSET SUPPORT PROGRAMS
                                                       Three TARP programs have focused on supporting markets for specific asset
                                                       classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
                                                       Private Investment Program (“PPIP”), and the Unlocking Credit for Small
                                                       Businesses (“UCSB”) program.
                                                            As initially announced, TALF was designed to support asset-backed securities
                                                       (“ABS”) transactions by providing eligible borrowers up to $200 billion in non-
      Non-Recourse Loan: Secured loan
                                                       recourse loans through the Federal Reserve Bank of New York (“FRBNY”) to
      in which the borrower is relieved of
                                                       purchase non-mortgage-backed ABS and commercial mortgage-backed securities
      the obligation to repay the loan upon
                                                       (“CMBS”). Up to $20 billion in TARP funds were made available to the program
      surrendering the collateral.
                                                       if borrowers surrendered the ABS purchased through the program and walked
                                                       away from their loans. The TARP obligation was subsequently reduced to $4.3
                                                       billion.497 TALF ultimately provided $71.1 billion in Federal Reserve financing by
                                                       the time the program closed to new loans.498 Of that amount, $11.3 billion remains
                                                       outstanding as of September 30, 2011.499
                                                            PPIP uses a combination of private equity and Government equity and debt
                                                       through TARP to facilitate purchases of legacy mortgage-backed securities (“MBS”)
                                                       held by financial institutions. In July 2009, Treasury announced the selection of
                                                       nine Public-Private Investment Fund (“PPIF”) managers. Treasury’s total potential
                                                       commitment to PPIP was $30 billion in TARP funds; the actual funding of that
                                                       commitment depended on how much private capital the PPIP managers raised.
                                                       After the fund-raising period was completed, Treasury’s PPIP obligation was
                                                       capped at $22.4 billion.500 In September 2011, PPIP manager Invesco stopped
                                                       making investments in the PPIF that it manages. The PPIP managers are currently
                                                       purchasing investments and managing their portfolios.
                                                            Through the UCSB loan support initiative, Treasury launched a program
                                                       to purchase SBA 7(a) securities, which are securitized small-business loans.
                                                       Treasury originally committed $15 billion to the program; the commitment was
                                                       subsequently lowered several times. By the time the program closed, it had made
                                                       a total of approximately $368.1 million in purchases.501 Treasury has sold some of
                                                       these securities, leaving $154.5 million remaining as of September 30, 2011.502

                                                       TALF
                                                       TALF, which was announced in November 2008, issued loans collateralized by
      Collateral: Asset pledged by a                   eligible ABS.503 According to FRBNY, “The ABS markets historically have funded a
      borrower to a lender until a loan is             substantial share of credit to consumers and businesses,” and TALF was “designed
      repaid. Generally, if the borrower               to increase credit availability and support economic activity by facilitating renewed
      defaults on the loan, the lender gains           issuance of consumer and business ABS.”504 The program was extended to eligible
      ownership of the pledged asset and               newly issued CMBS in June 2009 and to eligible legacy CMBS in July 2009.505
      may sell it to satisfy the debt. In TALF,        TALF closed to new lending in June 2010.506
      the ABS or CMBS purchased with                       TALF is divided into two parts:507
      the TALF loan is the collateral that is
      posted with FRBNY.                               •	 a lending program, TALF, that originated non-recourse loans to eligible
                                                          borrowers using eligible ABS and CMBS as collateral
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011             121




•	 an asset disposition facility, TALF LLC, that purchases the collateral from
   FRBNY if borrowers choose to surrender it and walk away from their loans or if
   the collateral is seized in the event of default

     TALF, which was managed and substantially funded by FRBNY, closed its
lending program in 2010. The asset disposition facility, TALF LLC, is managed by
FRBNY and remains in operation.508 TALF LLC’s funding first comes from a fee
charged to FRBNY for the commitment to purchase any collateral surrendered by
the borrowers. This fee is derived from the principal balance of each outstanding
TALF program loan.509 In the event that such funding proves insufficient, funding
would then come from TARP, which is obligated to lend up to the authorized limit
in subordinated debt from TALF LLC.510 TARP’s original TALF obligation was $20
billion, to cover losses on up to $200 billion in TALF loans. However, when TALF’s
lending phase ended in June 2010 with $42.5 billion in loans outstanding, Treasury
and the Federal Reserve agreed to reduce the TARP obligation to $4.3 billion.511
TALF LLC may use TARP funds to purchase surrendered assets from FRBNY
and to offset losses associated with disposing of the surrendered assets. As of
September 30, 2011, $11.3 billion in TALF loans were outstanding.512 According to
FRBNY, no TALF borrowers have surrendered collateral in lieu of repayment and
consequently no collateral has been purchased by TALF LLC since its inception.513              Synthetic ABS: Security deriving its
                                                                                               value and cash flow from sources
Lending Program                                                                                other than conventional debt, equities,
TALF’s lending program made secured loans to eligible borrowers.514 The loans                  or commodities — for example, credit
were issued with terms of three or five years and were available for non-mortgage-             derivatives.
backed ABS, newly issued CMBS, and legacy CMBS.515
    To be eligible for TALF, the non-mortgage-backed ABS had to meet certain                   Nationally Recognized Statistical Rating
criteria, including the following:516                                                          Organization (“NRSRO”): Credit rating
                                                                                               agency registered with the SEC. Credit
•	 be U.S.-dollar-denominated cash (not synthetic ABS)                                         rating agencies provide their opinion
•	 bear short-term and long-term credit ratings of the highest investment grade                of the creditworthiness of companies
   (i.e., AAA) from two or more major nationally recognized statistical rating                 and the financial obligations issued
   organizations (“NRSROs”) identified by FRBNY as eligible to rate non-                       by companies. The ratings distinguish
   mortgage-backed ABS collateral for TALF loans                                               between investment grade and non–
•	 not bear a long-term credit rating less than the highest rating by a major                  investment grade equity and debt
   NRSRO                                                                                       obligations.
•	 have all or substantially all of the underlying loans originate in the United States
•	 have any one of the following types of underlying loans: automobile, student,
   credit card, equipment, dealer floor plan, insurance premium finance, small
   business with principal and interest fully guaranteed by SBA, or receivables                For a discussion of the credit rating
   related to residential mortgage servicing advances (“servicing advance                      agency industry and an analysis of the
   receivables”)                                                                               impact of NRSROs on TARP and the
•	 not have collateral backed by loans originated or securitized by the TALF                   overall financial market, see SIGTARP’s
   borrower or one of its affiliates                                                           October 2009 Quarterly Report, pages
                                                                                               113–148.
122   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                To qualify as TALF collateral, newly issued CMBS and legacy CMBS had
                                             to meet numerous requirements, some of which were the same for both CMBS
                                             types:517

                                             •	 evidence an interest in a trust fund that consists of fully funded mortgage loans
                                                and not other CMBS, other securities or interest rate swap or cap instruments
                                                or other hedging instruments
                                             •	 possess a credit rating of the highest long-term investment grade from at least
                                                two rating agencies identified by FRBNY as eligible to rate CMBS collateral for
                                                TALF loans, and not possess a credit rating below the highest investment grade
                                                from any of those rating agencies
                                             •	 offer principal and interest payments
                                             •	 have been issued by any institution other than a Government-sponsored
                                                enterprise (“GSE”) or an agency or instrumentality of the U.S. Government
                                             •	 include a mortgage or similar instrument on a fee or lease-hold interest in one
                                                or more income-generating commercial properties

                                                Some differences existed between requirements for eligible newly issued
                                             CMBS and eligible legacy CMBS. Newly issued CMBS had to meet the following
                                             additional requirements:518

                                             •	 be issued on or after January 1, 2009
                                             •	 evidence first-priority mortgage loans that were current in payment at the time
                                                of securitization
                                             •	 not be junior to other securities with claims on the same pool of loans
                                             •	 have 95% or more of the dollar amount of the underlying credit exposures
                                                originated by a U.S.-organized entity or a U.S. branch or agency of a foreign
                                                bank
                                             •	 have each property located in the United States or its territories

                                                 Legacy CMBS had to meet the following additional requirements:519

                                             •	 be issued before January 1, 2009
                                             •	 not have been junior to other securities with claims on the same pool of loans at
                                                the time the CMBS was issued
                                             •	 have 95% or more of the underlying properties, in terms of the related loan
                                                principal balance, located in the United States or its territories

                                                 The final maturity date of loans in the TALF portfolio is March 30, 2015.520
                                             TALF loans are non-recourse (unless the borrower has made any misrepresenta-
                                             tions or breaches warranties or covenants), which means that FRBNY cannot hold
                                             the borrower liable for any losses beyond the surrender of any assets pledged as
                                             collateral.521
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011           123




Loan Terms
TALF participants were required to use a TALF agent to apply for a TALF loan.522             TALF Agent: Financial institution that
After the collateral (the particular asset-backed security financed by the TALF loan)        is party to the TALF Master Loan
was deemed eligible by FRBNY, the collateral was assigned a haircut. A haircut,              and Security Agreement and that
which represents the amount of money put up by the borrower (the borrower’s                  occasionally acts as an agent for the
“skin in the game”), was required for each TALF loan.523 Haircuts for non-                   borrower. TALF agents include primary
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,            and nonprimary broker-dealers.
and generally ranged between 5% and 16% for non-mortgage-backed ABS with
average lives of five years or less.524 The haircut for legacy and newly issued CMBS         Haircut: Difference between the value
was generally 15% but increased above that amount if the average life of the CMBS            of the collateral and the value of the
was greater than five years.525                                                              loan (the loan value is less than the
    FRBNY lent each borrower the amount of the market price of the pledged                   collateral value).
collateral minus the haircut, subject to certain limitations.526 The borrower
delivered the collateral to the custodian bank, which collects payments generated            “Skin in the Game”: Equity stake in an
by the collateral and distributes them to FRBNY (representing the borrower’s                 investment; down payment; the amount
payment of interest on the TALF loan).527 Any excess payments from the collateral            an investor can lose.
above the interest due and payable to FRBNY on the loan go to the TALF
borrower.528                                                                                 Custodian Bank: Bank holding the
    Because the loans are non-recourse, the risk for any borrower is limited to the          collateral and managing accounts for
haircut and any additional principal that may be paid down on the TALF loan. If              FRBNY; for TALF the custodian is Bank
the securities pledged as collateral are worth less than the loan balance when the           of New York Mellon.
loan is due, the borrower would likely surrender the collateral rather than pay the
loan balance. The Government would then be at risk for potential losses equal to
the difference between the loan balance and the value of the collateral.529

TALF Loan Subscriptions
The final TALF loans collateralized by non-mortgage-backed ABS were settled on
March 11, 2010.530 TALF provided $59 billion of loans to purchase non-mortgage-
backed ABS during the lending phase of the program. Of all such loans settled,
$8.8 billion was outstanding as of September 30, 2011.531 Table 2.31 lists all
settled TALF loans collateralized by non-mortgage-backed ABS, by ABS sector.
124   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.31
                                             TALF LOANS SETTLED BY ABS SECTOR (NON-MORTGAGE-BACKED
                                             COLLATERAL) ($ BILLIONS)
                                                                                     1st            2nd              3rd              4th              1st              Total
                                                                                 Quarter         Quarter          Quarter         Quarter          Quarter
                                             ABS Sector                            2009            2009             2009            2009             2010
                                             Auto Loans                               $1.9            $6.1             $4.5            $0.2             $0.1           $12.8
                                             Credit Card Receivables                    2.8           12.4               8.4             1.8              0.9           26.3
                                             Equipment Loans                             —              1.0              0.1             0.3              0.2               1.6
                                             Floor Plan Loans                            —               —               1.0             1.5              1.4               3.9
                                             Premium Finance                             —              0.5              0.5              —               1.0               2.0
                                             Servicing Advance                           —              0.4              0.1             0.6              0.1               1.3
                                             Receivables
                                             Small-Business Loans                        —              0.1              0.4             0.9              0.7               2.2
                                             Student Loans                               —              2.5              3.6             1.0              1.8               8.9
                                             Total                                   $4.7           $23.0           $18.7              $6.4            $6.1           $59.0
                                             Notes: Numbers may not total due to rounding. Data as of 9/30/2011. The first subscription in the program was in March 2009;
                                             therefore, the first quarter of 2009 represents one subscription while the remaining quarters represent three subscriptions.

                                             Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.
                                             html, accessed 10/14/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/
                                             markets/TALF_recent_operations.html, accessed 10/14/2011.


                                                 The final subscription for TALF CMBS loans was settled on June 28, 2010.
                                             TALF provided $12.1 billion of loans to purchase CMBS during the lending phase
                                             of the program; approximately 99% of the loan amount was used to purchase legacy
                                             securities.532 Of all such loans settled, $2.5 billion was outstanding as of September
                                             30, 2011.533 Table 2.32 includes all TALF CMBS loans that have been settled.

                                             TABLE 2.32
                                             TALF LOANS SETTLED (CMBS COLLATERAL)                                   ($ BILLIONS)

                                                                                    2nd             3rd               4th             1st             2nd
                                             Type of Collateral                  Quarter         Quarter          Quarter         Quarter          Quarter
                                             Assets                                2009            2009             2009            2010             2010               Total
                                             Newly Issued CMBS                         $—               $—             $0.1              $—              $—            $ 0.1
                                             Legacy CMBS                                 —              4.1              4.5             3.3               —            12.0
                                             Total                                     $—             $4.1            $4.6             $3.3              $—           $12.1
                                             Notes: Numbers may not total due to rounding. Data as of 9/30/2011. The second quarter of 2009 was only for legacy CMBS, while
                                             the second quarter of 2010 was only for newly issued CMBS.

                                             Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.
                                             html, accessed 10/14/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/
                                             CMBS_recent_operations.html, accessed 10/14/2011.


                                               The Federal Reserve posted on its website detailed information on the 177
                                             TALF borrowers, including:534

                                             •	 the names of all the borrowers from TALF (some of which share a parent
                                                company)
                                             •	 each borrower’s city, state, and country
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011             125




•	 the name of any material investor in the borrower (defined as a 10% or greater
   beneficial ownership interest in any class of security of a borrower)
•	 the amount of the loan
•	 outstanding loan amount as of September 30, 2010
•	 the loan date
•	 the loan maturity date
•	 the date of full repayment (if applicable)
•	 the date of loan assignment (if applicable)
•	 the loan rate (fixed or floating)
•	 the market value of the collateral associated with the loan at the time the loan
   was extended
•	 the name of the issuer of the ABS collateral associated with the loan
•	 the collateral asset and subclass
                                                                                             For the complete list of TALF borrowers,
   As of September 30, 2011, $59.8 billion in TALF loans had been repaid.                    refer to the FRBNY website: www.
According to FRBNY, the outstanding collateral on the remaining $11.3 billion in             federalreserve.gov/newsevents/reform_
TALF loans was performing as expected.535                                                    talf.htm.

Asset Disposition Facility
When FRBNY created TALF LLC, the facility that is used to purchase collateral
received by FRBNY if TALF borrowers walk away from their loans, TARP loaned
the facility $100 million. Of this initial funding, $15.8 million was allocated to
cover administrative costs.536 TARP will continue to fund TALF LLC, as needed,
until TARP’s entire $4.3 billion obligation has been disbursed, all TALF loans are
retired, or the loan commitment term expires. Any additional funds, if needed, will
be provided by a loan from FRBNY that will be collateralized by the assets of TALF
LLC and will be senior to the TARP loan.537 Payments by TALF LLC from the
proceeds of its holdings will be made in the following order:538

•	   operating expenses of TALF LLC
•	   principal due to FRBNY and funding of FRBNY’s senior loan commitment
•	   principal due to Treasury
•	   interest due to FRBNY
•	   interest due to Treasury
•	   other secured obligations

     Any remaining money will be shared by Treasury (90%) and FRBNY (10%).539

Current Status
As of September 30, 2011, no collateral had been surrendered or purchased by
TALF LLC.540 As of the same date, TALF LLC had assets of $785 million, which
included the $100 million in initial TARP funding.541 The remainder consisted of
interest and other income and fees earned from permitted investments. From its
February 4, 2009, formation through September 30, 2011, TALF LLC had spent
approximately $1.9 million on administration.542
126            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                          When TALF closed for new loans in June 2010, FRBNY’s responsibilities
                                                      under the program shifted primarily to portfolio management, which includes the
                                                      following duties:543
      Excess Spread: Funds left over
                                                      •	 maintaining documentation
      after required payments and other
                                                      •	 overseeing the custodian that is responsible for holding ABS collateral
      contractual obligations have been met.
                                                      •	 calculating and collecting principal and interest on TALF loans
      In TALF it is the difference between
                                                      •	 disbursing excess spread to TALF borrowers in accordance with the governing
      the periodic amount of interest paid
                                                         documents
      out by the collateral and the amount
                                                      •	 monitoring the TALF portfolio
      of interest charged by FRBNY on the
                                                      •	 collecting and managing collateral assets if a borrower defaults or surrenders
      nonrecourse loan provided to the
                                                         the collateral in lieu of repayment
      borrower to purchase the collateral.
                                                      •	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
                                                         of FRBNY’s cost of funding
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011              127




Public-Private Investment Program
                                                                                               For more information on the PPIP
According to Treasury, the purpose of the Public-Private Investment Program
                                                                                               Legacy Loans subprogram, see
(“PPIP”) is to purchase legacy securities from banks, insurance companies, mutual              SIGTARP’s October 2009 Quarterly
funds, pension funds, and other eligible financial institutions as defined in EESA,            Report, pages 84-85.
through Public-Private Investment Funds (“PPIFs”).544 PPIFs are partnerships,
formed specifically for this program, that invest in mortgage-backed securities
using equity capital from private-sector investors combined with TARP equity
and debt. A private-sector fund management firm oversees each PPIF on behalf
                                                                                              Legacy Securities: Real estate-related
of these investors. According to Treasury, the aim of PPIP was to “restart the
                                                                                              securities originally issued before
market for legacy securities, allowing banks and other financial institutions to
                                                                                              2009 that remained on the balance
free up capital and stimulate the extension of new credit.”545 PPIP originally
                                                                                              sheets of financial institutions because
included a Legacy Loans subprogram that involved purchases of troubled legacy
                                                                                              of pricing difficulties that resulted from
loans with private and Treasury equity capital, as well as an FDIC guarantee for
                                                                                              market disruption.
debt financing. TARP funds were never disbursed for this subprogram.
    Treasury selected nine fund management firms to establish PPIFs. One
                                                                                              Equity: Investment that represents an
PPIP manager, The TCW Group, Inc., (“TCW”) subsequently withdrew. Private
                                                                                              ownership interest in a business.
investors and Treasury co-invested in the PPIFs to purchase legacy securities
from financial institutions. The fund managers raised private-sector capital.
Treasury matched the private-sector equity dollar–for-dollar and provided debt
financing in the amount of the total combined equity. Each PPIP manager was                    For more information on the selection of
also required to invest at least $20 million of its own money in the PPIF.546                  PPIP managers, see SIGTARP’s October
Each PPIF is approximately 75% TARP funded. PPIP was designed as an eight-                     7, 2010, audit report entitled “Selecting
year program but, under certain circumstances, Treasury can terminate it early                 Fund Managers for the Legacy
or extend it for up to two additional years.547                                                Securities Public-Private Investment
    With regard to program proceeds, Treasury, the PPIP managers, and the                      Program.”
private investors share PPIF profits on a pro rata basis based on their limited
                                                                                               For more information on the withdrawal
partnership interests. PPIF losses are also shared on a pro rata basis, up to each
                                                                                               of TCW as a PPIP manager, see
participant’s investment amount.548 In addition to its pro rata share of profits,
                                                                                               SIGTARP’s January 2010 Quarterly
Treasury received warrants in each PPIF, as mandated by EESA.549 According to
                                                                                               Report, page 88.
Treasury, the warrants give Treasury the right to receive a portion of the fund’s
profits that would otherwise be distributed to the private investors along with
its pro rata share of program proceeds.550
    The securities eligible for purchase by PPIFs (“eligible assets”) are supported
by real estate-related loans, including non-agency residential mortgage-backed


 Debt: Investment in a business that is      Pro Rata: Refers to dividing something        Limited Partnership: Partnership in which
 required to be paid back to the investor,   among a group of participants according       there is at least one partner whose
 usually with interest.                      to the proportionate share that each          liability is limited to the amount invested
                                             participant holds as a part of the whole.     (limited partner) and at least one partner
                                                                                           whose liability extends beyond monetary
                                                                                           investment (general partner).
128            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                      securities (“non-agency RMBS”) and commercial mortgage-backed securities
      Non-Agency Residential Mortgage-                (“CMBS”) that meet the following criteria:551
      Backed Securities (“non-agency
      RMBS”): Financial instrument backed             •	 issued before January 1, 2009 (legacy)
      by a group of residential real estate           •	 rated when issued AAA or equivalent by two or more credit rating agencies
      mortgages (i.e., home mortgages for                designated as nationally recognized statistical rating organizations (“NRSROs”)
      residences with up to four dwelling             •	 secured directly by actual mortgages, leases, or other assets, not other securities
      units) not guaranteed or owned by                  (other than certain swap positions, as determined by Treasury)
      a Government-sponsored enterprise               •	 located primarily in the United States (the loans and other assets that secure the
      (“GSE”) (Fannie Mae or Freddie Mac),               non-agency RMBS and CMBS)
      or a Government Agency.                         •	 purchased from financial institutions that are eligible for TARP participation

                                                      Legacy Securities Program Process
                                                      The following steps describe the process by which funds participate in the Legacy
                                                      Securities Program:552

                                                      1. Fund managers applied to Treasury to participate in the program.
                                                      2. Pre-qualified fund managers raised the necessary private capital for the PPIFs.
                                                      3. Treasury matched the capital raised, dollar-for-dollar, up to a preset maximum.
                                                          Treasury also received warrants so that it could benefit further if the PPIFs turn
                                                          a profit.
                                                      4. Fund managers may borrow additional funds from Treasury up to 100% of
                                                          the total equity investment (including the amount invested by Treasury).
                                                      5. Each fund manager purchases and manages the legacy securities and
                                                         provides monthly reports to its investors, including Treasury.

                                                          Obligated funds are not given immediately to PPIP managers. Instead, PPIP
                                                      managers send a notice to Treasury and the private investors requesting portions of
                                                      obligated contributions in order to purchase specific investments or to pay certain
                                                      expenses and debts of the partnerships.553 When the funds are delivered, the PPIF
                                                      is said to have “drawn down” on the obligation.554

                                                      PPIF Purchasing Power
                                                      During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
                                                      of private-sector equity capital, which Treasury matched with a dollar for dollar
                                                      obligation, for a total of $14.7 billion in equity capital. Treasury also obligated $14.7
                                                      billion of debt financing, resulting in $29.4 billion of PPIF purchasing power.
                                                           The fund-raising stage for PPIFs was completed in December 2009. PPIP
                                                      managers had six months from the closing date of their first private-sector fund
                                                      raising to raise additional private-sector equity.555 Although Treasury initially
                                                      pledged up to $30 billion for PPIP, the fund managers did not raise enough
                                                      private-sector capital for Treasury’s combination of matching funds and debt
                                                      financing to reach that amount. As of September 26, 2011, Invesco Legacy
                                                      Securities Master Fund, L.P. (“Invesco”) notified Treasury that it voluntarily
                                                      terminated its investment period. As a result of this termination, Invesco is
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   129




not able to draw down the outstanding equity or debt, and Treasury will not
reallocate capital earmarked for Invesco to other funds. Total available capital
for the PPIFs is now $28.3 billion, while Treasury’s total obligation is $21.6
billion, down from $22.4 billion at the end of the previous quarter. That
includes $21.2 billion for active PPIFs, and $356.3 million disbursed to TCW,
which TCW repaid.556
    As of September 30, 2011, the current PPIFs have drawn down approxi-
mately $23.1 billion ($5.8 billion from private-sector equity capital and $17.2
billion from TARP funding ($5.8 billion in equity and $11.4 billion in debt)),
which was used to purchase PPIP-eligible assets.557 Four current PPIP manag-
ers have repaid $0.9 billion in TARP debt funding. The eligible assets cur-
rently in the portfolio have been valued according to a process administered by
Bank of New York Mellon, operating as valuation agent, at $20.6 billion as of
September 30, 2011.558 As of then, Treasury has disbursed $17.6 billion. This
amount includes $17.2 billion for the eight active PPIFs, and $356.3 million
for TCW, which TCW repaid.559
    Notwithstanding the expiration of TARP’s purchasing authority on October
3, 2010, each active PPIP manager has up to three years from closing its first
private-sector equity contribution (the investment period) to draw upon the
TARP funds obligated for the PPIF and purchase legacy securities on behalf of
its private and Government investors.560 During this period, the program will
strive to maintain “predominantly a long-term buy and hold strategy.”561 The
last of the three-year investment periods expires in December 2012. Table 2.33
shows all equity and debt obligated for active PPIFs under the program.
    Following the completion of the PPIF investment period, fund managers will
have five years to manage and sell off the fund’s investment portfolio and return
proceeds to taxpayers and investors. This management and divestiture period may
be extended for consecutive periods of up to one year, up to a maximum of two
years.562

Update on PPIP Manager Invesco
PPIP manager Invesco has stopped making investments in the PPIF that it
manages and terminated the investment period on September 26, 2011, more
than one year ahead of its three-year expiration.563 A September 26, 2011, letter to
investors by Chairman and CEO Wilbur Ross stated, “We have not made material
investments in PPIP eligible assets for the past year because we have been unable
to find assets that meet our goals.” Treasury’s maximum debt obligation to Invesco
decreased to $1.2 billion at the end of the quarter, from $1.7 billion at the end
of the previous quarter, reflecting the actual amount Invesco borrowed from
Treasury before terminating its investment period. Invesco has made payments
on its debt, resulting in an outstanding debt balance of $345 million at the end
of the quarter.564 According to Treasury and Invesco, Invesco will continue to
manage the portfolio but sell its holdings as market conditions allow.565 Treasury’s
equity obligation to the Invesco fund will remain outstanding until the fund is fully
liquidated.566
130   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.33
                                             PUBLIC-PRIVATE INVESTMENT PROGRAM, AS OF 9/30/2011                                                      ($ BILLIONS)

                                                                                                    Private-                                                              Total
                                                                                               Sector Equity                Treasury              Treasury           Purchasing
                                             Manager                                                 Capital                  Equity                  Debt               Power
                                             AG GECC PPIF Master Fund, L.P.                                  $1.2                  $1.2                  $2.5                  $5.0
                                             AllianceBernstein Legacy Securities
                                                                                                               1.2                   1.2                   2.3                     4.6
                                             Master Fund, L.P.
                                             BlackRock PPIF, L.P.                                              0.7                   0.7                   1.4                     2.8
                                             Invesco Legacy Securities Master
                                                                                                               0.9                   0.9                   1.2                     2.9
                                             Fund, L.P.b
                                             Marathon Legacy Securities Public-
                                                                                                               0.5                   0.5                   0.9                     1.9
                                             Private Investment Partnership, L.P.
                                             Oaktree PPIP Fund, L.P.                                           1.2                   1.2                   2.3                     4.6
                                             RLJ Western Asset Public/Private
                                                                                                               0.6                   0.6                   1.2                     2.5
                                             Master Fund, L.P.
                                             Wellington Management Legacy
                                                                                                               1.1                   1.1                   2.3                     4.6
                                             Securities PPIF Master Fund, LP
                                             Current Totals                                                 $7.4                  $7.4                $14.2                $28.9a
                                             Notes: Numbers affected by rounding.
                                             a
                                               Treasury initially funded $0.4 billion to TCW. The $0.4 billion was paid to TCW, and TCW subsequently repaid the funds that were
                                               invested in its PPIF. As this PPIF has closed, the amount is not included in the total purchasing power.
                                             b
                                                Invesco terminated its investment period on September 26, 2011, without fully drawing down all committed equity and debt.

                                             Source: Treasury, response to SIGTARP data call, 10/19/2011.



                                             Update on PPIP Manager Oaktree
                                             On September 2, 2011, Oaktree Capital Group, LLC, the parent company of
                                             Oaktree PPIP Fund, L.P., disclosed additional details about its upcoming IPO in
                                             an amended Form S-1 Registration statement filed with the SEC. The filing stated
                                             that management fees charged to Treasury by Oaktree PPIP Fund, L.P. were
                                             retroactively reduced by $2.1 million. According to the filing, Oaktree changed the
                                             basis on which it charged management fees. Under PPIP, Treasury pays the PPIP
                                             managers a management fee calculated at 20 basis points, or 0.2%, of committed
                                             capital. In September 2011, Oaktree changed that to 0.2% of drawn capital. As of
                                             September 30, 2011, Oaktree had drawn down 29.3% of Treasury’s $1.2 billion in
                                             committed equity capital.567

                                             Fund Performance
                                             Each PPIF’s performance — its gross and net returns since inception — as
                                             reported by PPIP managers, is listed in Table 2.34. The returns are calculated
                                             based on a methodology requested by Treasury.
                                                The data in Table 2.34 constitutes a snapshot of the funds’ performance
                                             during the quarter ended September 30, 2011, and may not predict the funds’
                                             performance over the long term. According to some PPIP managers, it would be
                                             premature to draw any long-term conclusions because, among other reasons, some
                                             managers have not fully executed their investment strategies or fully drawn down
                                             Treasury’s capital or debt obligations.
                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   131




TABLE 2.34
PPIF INVESTMENT STATUS, AS OF 9/30/2011
                                                                                                                       Internal
                                                                                                                        Rate of
                                                  1-Month             3-Month            Cumulative              Return Since
                                                   Return              Return        Since Inception                 Inception
Manager                                         (percent)a          (percent)a            (percent)a                (percent)b

AG GECC PPIF Master                   Gross             0.22            (14.01)                     44.33                   13.63
Fund, L.P.                            Net               0.19            (14.11)                     42.02                   13.11
AllianceBernstein Legacy              Gross           (0.99)              (6.29)                    28.54                   14.34
Securities Master Fund,
                                      Net             (1.13)              (6.75)                    24.41                   12.67
L.P.
                                      Gross           (0.84)              (4.52)                    36.59                   14.89
BlackRock PPIF, L.P.
                                      Net             (0.96)              (4.91)                    33.06                   13.35

Invesco Legacy Securities             Gross           (1.30)              (6.04)                    32.00                   21.12
Master Fund, L.P.                     Net             (1.49)              (6.66)                    27.19                   19.45
Marathon Legacy                       Gross           (2.01)              (8.88)                    26.50                    7.86
Securities Public-Private
Investment Partnership,
L.P.                                  Net             (2.16)              (9.32)                    21.81                    6.23

                                      Gross             1.42              (7.88)                    22.94                    5.26
Oaktree PPIP Fund, Inc.
                                      Net               1.30              (6.86)                    16.80                    3.70

RLJ Western Asset Public/             Gross           (1.33)              (5.08)                    35.25                   17.17
Private Master Fund, L.P.             Net             (1.47)              (5.48)                    31.93                   15.69
Wellington Management                 Gross           (2.33)            (11.15)                      8.35                   (1.75)
Legacy Securities PPIF
Master Fund, LP                       Net             (2.49)            (11.65)                      5.21                   (3.30)
Notes: The performance indicators are listed as reported by the PPIP managers without further analysis by SIGTARP. The net returns
include the deduction of management fees and partnership expenses attributable to Treasury.
a
  Time-weighted, geometrically linked returns.
b
  Dollar-weighted rate of return.

Source: PPIF Monthly Performance Reports submitted by each PPIP manager, September 2011, received 10/17/2011.
132               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




  FIGURE 2.3                                                       According to their agreements with Treasury, PPIP managers may trade in both
                                                               RMBS and CMBS, except for Oaktree PPIP Fund, Inc., which may purchase
  AGGREGATE COMPOSITION OF PPIF
                                                               only CMBS.568 Figure 2.3 shows the collective value of securities purchased by all
  PURCHASES, AS OF 9/30/2011
  Percentage of $20.6 Billion                                  PPIFs as of September 30, 2011, broken down by RMBS and CMBS.
                                                                   PPIF investments can be classified by underlying asset type. All non-agency
            CMBS                                               RMBS investments are considered residential. The underlying assets are mortgages
                  23%                                          for residences with up to four dwelling units. For CMBS, the assets are commercial
                                                               real estate mortgages: office, retail, multi-family, hotel, industrial (such as
                                                               warehouses), mobile home parks, mixed-use (combination of commercial and/
                                     77%       RMBS            or residential uses), and self-storage. Figure 2.4 breaks down CMBS investment
                                                               distribution by sector. As of September 30, 2011, the aggregate CMBS portfolio
                                                               had large concentrations in office (30%) and retail (26%) loans.
                                                                   Non-agency RMBS and CMBS can be classified by the degree of estimated
  Notes: Numbers
         Numbers affected
                  affected by
                            by rounding.
                               rounding. Calculated
                                         Calculated based
                                                    based on
                                                          on
  Notes:
  monthly data
          data supplied
               supplied by
                        by the
                           the PPIF
                                PPIP managers.
                                     managers.
                                                               default risk (sometimes referred to as “quality”). Investors are most concerned
  monthly
                                                               about whether borrowers will default and the underlying collateral will be sold
  Source:PPIF
  Source: PPIFMonthly
               MonthlyPerformance
                       PerformanceReports,
                                   Reports,  September
                                           September   2011.
                                                     2011.
                                                               at a loss. Estimated risk, or quality, attempts to measure the likelihood of that
                                                               outcome. There are no universal standards for ranking mortgage quality, and the
  FIGURE 2.4
                                                               designations vary depending on context. In general, the highest-quality rankings
  AGGREGATE CMBS PURCHASES BY                                  are granted to mortgages that have the strictest requirements regarding borrower
  SECTOR, AS OF 9/30/2011                                      credit, completeness of documentation, and underwriting standards. Treasury
  Percentage of $4.7 Billion
                                                               characterizes these investment-quality levels of risk for the types of mortgage loans
                  Other
                                                               that support non-agency RMBS as follows:569
                       9%
                                     30%                       •	 Prime — mortgage loan made to a borrower with good credit that generally
  Lodging/
     Hotel        14%                                             meets the lender’s strictest underwriting criteria. Non-agency prime loans
                                                                  generally exceed the dollar amount eligible for purchase by GSEs (jumbo loans)
      Industrial 6%
                                                                  but may include lower-balance loans as well.
                      15%         26%                          •	 Alt-A — mortgage loan made to a borrower with good credit but with limited
       Multi-family
                                         Retail                   documentation or other characteristics that do not meet the standards for prime
  Notes: Numbers affected by rounding. Calculated based on
                                                                  loans. An Alt-A loan may have a borrower with a lower credit rating, a higher
  monthlyNumbers
  Notes:   data supplied by the
                   affected     PPIP managers.
                            by rounding. Calculated based on      loan-to-value ratio, or limited or no documentation, compared with a prime
  monthly data supplied by the PPIF managers.
  Source: PPIF Monthly Performance Reports, September 2011.       loan.
  Source: PPIF Monthly Performance Reports, September 2011.
                                                               •	 Subprime — mortgage loan made to a borrower with a poor credit rating.
                                                               •	 Option Adjustable Rate Mortgage (“Option ARM”) — mortgage loan that
                                                                  gives the borrower a set of choices about how much interest and principal to
                                                                  pay each month. This may result in negative amortization (an increasing loan
                                                                  principal balance over time).
                                                               •	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
                                                                  subprime, or option ARM but meet the definition of “eligible assets” above.

                                                                  Treasury characterizes CMBS according to the degree of “credit enhancement”
                                                               supporting them:570

                                                               •	 Super Senior — most senior originally rated AAA bonds in a CMBS
                                                                  securitization with the highest level of credit enhancement. Credit
                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   133




   enhancement refers to the percentage of the underlying mortgage pool by
   balance that must be written down before the bond suffers any losses. Super
   senior bonds often compose approximately 70% of a securitization and,
   therefore, have approximately 30% credit enhancement at issuance.
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before
   junior creditors.571 AM bonds often compose approximately 10% of a CMBS
   securitization.
•	 AJ (Junior) — the most junior bond in a CMBS securitization that attained a
   AAA rating at issuance.
•	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
   AM, or AJ but meet the definition of “eligible assets” above.

  Figure 2.5 and Figure 2.6 show the distribution of non-agency RMBS and
CMBS investments held in PPIP by respective risk levels, as reported by PPIP
managers.

FIGURE 2.5                                                  FIGURE 2.6

AGGREGATE RMBS PURCHASES BY                                  AGGREGATE CMBS PURCHASES BY
QUALITY, AS OF 9/30/2011                                     QUALITY, AS OF 9/30/2011
Percentage of $15.9 Billion                                  Percentage of $4.7 Billion

       Other RMBSa 0%

                                                                   Other                   Super Senior
          Option ARM                                               (CMBS)
                                                                                        8%
                         8%                                                    15%
    Subprime     11%
                                   34%          Prime
                                                            AJ (Junior)       30%             47%         AM (Mezzanine)


       Alt-A            47%

Notes: Numbers affected by rounding. Calculated based on    Notes: Numbers affected by rounding. Calculated based on
monthly data supplied by the PPIP managers.                 monthly data supplied
                                                            Notes: Numbers        by the
                                                                            affected  by PPIP managers.
                                                                                         rounding. Calculated based on
a
  The actual percentage for “Other RMBS” is 0.21%           monthly data supplied by the PPIF managers.
Notes: Numbers affected by rounding. Calculated based on    Source: PPIF Monthly Performance Reports, September 2011.
monthly dataMonthly
Source: PPIF suppliedPerformance
                      by the PPIFReports,
                                  managers.
                                          September 2011.    Source: PPIF Monthly Performance Reports, September 2011.
a
 The actual percentage for “Other RMBS” is 0.21%.

Source: PPIF Monthly Performance Reports, September 2011.
134   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                Non-agency RMBS and CMBS can be classified geographically, according to
                                             the states where the underlying mortgages are held. Figure 2.7 and Figure 2.8
                                             show the states with the greatest representation in the underlying non-agency
                                             RMBS and CMBS investments in PPIFs, as reported by PPIP managers.
                                              FIGURE 2.7                                                    FIGURE 2.8
                                              AGGREGATE GEOGRAPHICAL                                        AGGREGATE GEOGRAPHICAL
                                              DISTRIBUTION — PERCENT OF                                     DISTRIBUTION — PERCENT OF
                                              TOTAL RMBS, AS OF 9/30/2011                                   TOTAL CMBS, AS OF 9/30/2011

                                                            44%
                                                   40%                                                           15%
                                                                                                                          16%


                                                    30
                                                                                                                 10                    11%

                                                    20                                                                                              8%          8%

                                                                                                                   5
                                                    10
                                                                         9%
                                                                                    6%
                                                     0                                          3%                 0
                                                            CA          FL           NY         VA                         CA          NY           FL          TX

                                              Notes: Only states with the largest representation shown.     Notes: Only states with largest representation shown. Calculated
                                              Calculated based on monthly data supplied by PPIF managers.   based on monthly data supplied by the PPIF managers.

                                              Source: PPIF Monthly Performance Reports, September 2011.     Source: PPIF Monthly Performance Reports, September 2011.



                                                Non-agency RMBS and CMBS can also be classified by the delinquency of
                                             the underlying mortgages. Figure 2.9 and Figure 2.10 show the distribution of
                                             non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
                                             reported by PPIP managers.

                                              FIGURE 2.9                                                     FIGURE 2.10

                                              AGGREGATE AVERAGE RMBS                                         AGGREGATE AVERAGE CMBS
                                              DELINQUENCIES BY MARKET VALUE,                                 DELINQUENCIES BY MARKET VALUE,
                                              AS OF 9/30/2011                                                AS OF 9/30/2011
                                              Percentage of $15.9 Billion                                    Percentage of $4.7 Billion

                                              60+ Days                                                                              60+ Days
                                              (FCL/REO included)
                                                                                                            1% 30 − 59 Days
                                                                                                                                    11%
                                                                 28%




                                              30 − 59      3%                       69%      Current
                                              Days
                                                                                                                                             88%           Current



                                              Notes: Numbers affected by rounding. Calculated based on       Notes: Numbers affected by rounding. Calculated based on
                                              monthly data supplied by the PPIF managers.                    monthly data supplied by the PPIF managers.

                                              Source: PPIF Monthly Performance Reports, September 2011.      Source: PPIF Monthly Performance Reports, September 2011.
                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011           135




Unlocking Credit for Small Businesses (“UCSB”)/Small
Business Administration (“SBA”) Loan Support Initiative                                       7(a) Loan Program: SBA loan program
On March 16, 2009, Treasury announced the Unlocking Credit for Small                          guaranteeing a percentage of loans for
Businesses (“UCSB”) program, designed to encourage banks to increase lending                  small businesses that cannot otherwise
to small businesses. Treasury stated that, through UCSB, it would purchase up                 obtain conventional loans at reasonable
to $15 billion in securities backed by pools of loans from two Small Business                 terms.
Administration (“SBA”) programs: the 7(a) Loan Program and the 504 Community
Development Loan Program.572 Treasury never purchased any 504 Community                       504 Community Development Loan
Development Loan-backed securities through UCSB.573 Treasury later lowered the                Program: SBA program combining
amount available to purchase securities under UCSB to $400 million.574                        Government-guaranteed loans
    Treasury initiated the 7(a) portion of the program and signed contracts with              with private-sector mortgages to
two pool assemblers, Coastal Securities, Inc. (“Coastal Securities”), and Shay                provide loans of up to $10 million for
Financial Services, Inc. (“Shay Financial”), on March 2, 2010, and August 27,                 community development.
2010, respectively.575 Under the governing agreement, EARNEST Partners, on be-
half of Treasury, purchased SBA pool certificates from Coastal Securities and Shay            Pool Assemblers: Firms authorized
Financial without confirming to the counterparties that Treasury was the buyer.576            to create and market pools of SBA-
    From March 19, 2010, to September 28, 2010, Treasury purchased 31 floating-               guaranteed loans.
rate 7(a) securities from Coastal Securities and Shay Financial for a total of approx-
imately $368.1 million.577                                                                    SBA Pool Certificates: Ownership
    On June 2, 2011, Treasury announced its intention to sell the SBA 7(a) securi-            interest in a bond backed by SBA-
ties portfolio over time using a competitive sales process through its financial agent,       guaranteed loans.
EARNEST Partners.578
    According to Treasury, there will be no fixed timeframe for the sales; the timing
and pace of the sales will be subject to market conditions.579 On September 23,                For more information on SBA 7(a) Loan
2011, Treasury announced the sale of four of the SBA 7(a) securities for approxi-              Program mechanics and TARP support
mately $62.1 million, which it said represented overall gains and income of about              for the program, see SIGTARP’s April
$1.8 million for the four securities.580                                                       2010 Quarterly Report, pages 105-106.
    As of September 30, 2011, Treasury had completed sales of a total of 16 SBA
7(a) securities, for total proceeds of $213.6 million.581 As of September 30, 2011,
Treasury had received $25.1 million and $11.6 million in amortizing principal and
interest payments, respectively.582
    Table 2.35 shows the CUSIPs, investment amounts for the securities Treasury
bought as well as the sales price and proceeds.
136   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 2.35
                                             FLOATING-RATE SBA 7(A) SECURITIES, AS OF 9/30/2011 ($ MILLIONS)
                                                                                                                                                        Principal,
                                                                                                                                             Sale   Interest, and
                                                                                                                                        Proceeds Other Proceeds
                                                                                                                    Investment             Where     Received by
                                             Trade Date            CUSIP                Pool Assembler                 Amounta         Applicable        Treasury
                                             3/19/2010             83164KYN7            Coastal Securities                   $4.4               $3.5                     $1.1
                                             3/19/2010             83165ADC5            Coastal Securities                     8.3                                        1.8
                                             3/19/2010             83165ADE1            Coastal Securities                     8.7               6.6                      2.4
                                             4/8/2010              83165AD84            Coastal Securities                   26.0               25.0                      2.3
                                             4/8/2010              83164KZH9            Coastal Securities                     9.6               7.1                      2.8
                                             5/11/2010             83165AEE0            Coastal Securities                   11.5               10.6                      1.3
                                             5/11/2010             83164K2Q5            Coastal Securities                   14.2               13.9                      0.8
                                             5/11/2010             83165AED2            Coastal Securities                     9.7               9.5                      0.6
                                             5/25/2010             83164K3B7            Coastal Securities                     9.3               9.0                      0.5
                                             5/25/2010             83165AEK6            Coastal Securities                   18.8               16.7                      2.7
                                             6/17/2010             83165AEQ3            Coastal Securities                   38.3               36.1                      3.1
                                             6/17/2010             83165AEP5            Coastal Securities                   31.7               29.1                      3.4
                                             7/14/2010             83164K3Y7            Coastal Securities                     6.4               6.1                      0.5
                                             7/14/2010             83164K4J9            Coastal Securities                     7.5                                        0.5
                                             7/14/2010             83165AE42            Coastal Securities                   14.8               14.2                      0.9
                                             7/29/2010             83164K4E0            Coastal Securities                     2.8                                        0.5
                                             7/29/2010             83164K4M2            Coastal Securities                   10.4               10.2                      0.4
                                             8/17/2010             83165AEZ3            Coastal Securities                     9.2               7.1                      1.7
                                             8/17/2010             83165AFB5            Coastal Securities                     5.5                                        0.5
                                             8/17/2010             83165AE91            Coastal Securities                   11.1                                         1.2
                                             8/31/2010             83165AEW0            Shay Financial                       10.3                9.2                      1.2
                                             8/31/2010             83165AFA7            Shay Financial                       11.7                                         0.5
                                             8/31/2010             83164K5H2            Coastal Securities                     7.3                                        0.5
                                             9/14/2010             83165AFC3            Shay Financial                       10.0                                         1.4
                                             9/14/2010             83165AFK5            Shay Financial                         8.9                                        1.0
                                             9/14/2010             83164K5F6            Coastal Securities                     6.1                                        0.3
                                             9/14/2010             83164K5L3            Coastal Securities                     6.4                                        0.3
                                             9/28/2010             83164K5M1            Coastal Securities                     3.8                                        0.2
                                             9/28/2010             83165AFT6            Coastal Securities                   13.1                                         1.1
                                             9/28/2010             83165AFM1            Shay Financial                       15.3                                         0.8
                                             9/28/2010             83165AFQ2            Shay Financial                       17.1                                         0.6
                                             Total Investment Amount                                                     $368.1            $213.6                     $36.9
                                             Notes: Numbers affected by rounding.
                                             a
                                               Investment amounts may include accrued principal interest.

                                             Sources: Treasury, Transactions Report, 10/3/2011; Treasury, Dividends and Interest Report, 10/11/2011; Treasury, responses to
                                             SIGTARP data call, 12/16/2010, 1/14/2011, 4/6/2011, 7/13/2011, and 10/11/2011.
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   137




AUTOMOTIVE INDUSTRY SUPPORT PROGRAMS
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent a significant disruption of the American automotive industry that poses
a systemic risk to financial market stability and will have a negative effect on the
economy of the United States.”583
     AIFP has not expended any TARP funds for the automotive industry since
December 30, 2009, when GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally
Financial”), received a $3.8 billion capital infusion.584 ASSP, designed to “ensure
that automotive suppliers receive compensation for their services and products,”
was terminated in April 2010 after all $413.1 million in loans made through it
were fully repaid.585 AWCP, a $640.7 million program, was designed to assure car
buyers that the warranties on any vehicles purchased during the bankruptcies of
General Motors Corp. (“Old GM”) and Chrysler LLC (“Old Chrysler”) would be
guaranteed by the Government. It was terminated in July 2009 after all loans under
the program were fully repaid upon the companies’ emergence from bankruptcy.586
     Treasury obligated approximately $84.8 billion through these three programs to
Old GM and General Motors Company (“New GM” or “GM”), Ally Financial, the
Chrysler entities (Chrysler Holding LLC [now called CGI Holding LLC], Chrysler
LLC [collectively, with CGI Holding LLC, “Old Chrysler”], and Chrysler Group
LLC [“New Chrysler”]), and Chrysler Financial Services Americas LLC (“Chrysler
Financial”).587 Treasury originally obligated $5 billion under ASSP but adjusted
this amount to $413.1 million to reflect actual borrowings, thereby reducing
at that time the total obligation for all automotive industry support programs
to approximately $81.8 billion (including approximately $2.1 billion in loan
commitments to New Chrysler that were never drawn down).588 As of September
30, 2011, Treasury had received approximately $35.3 billion in principal
repayments, preferred stock redemptions, and stock sale proceeds and $4.4 billion
in dividends, interest, and fees.589 The amount and types of Treasury’s outstanding
AIFP investments have changed over time as a result of principal repayments,
preferred stock redemptions by the issuer, Treasury’s sale of common stock, old
loan conversions (into equity), and post-bankruptcy restructurings. Treasury
now holds 32% of the common equity in New GM and an administrative claim
in Old GM’s bankruptcy with an outstanding principal amount of approximately
$874.9 million based on loans made to Old GM. Additionally, Treasury holds $5.9
billion in mandatorily convertible preferred shares (“MCP”) and 73.8% of the
common equity in Ally Financial. On July 21, 2011, Treasury sold to Fiat North
America LLC (“Fiat”) Treasury’s remaining equity ownership interest in New
Chrysler and Treasury’s rights to receive proceeds under an agreement with the
United Auto Workers (“UAW”) retiree trust pertaining to the trust’s shares in New
Chrysler. Treasury retains the right to recover certain proceeds from Old Chrysler’s
bankruptcy.
138   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 Treasury’s investments in these three programs and the companies’ payments
                                             of principal are summarized in Table 2.36 and, for Chrysler and GM, categorized
                                             by the timing of the investment in relation to the companies’ progressions through
                                             bankruptcy.

                                             TABLE 2.36
                                              TARP AUTOMOTIVE PROGRAMS EXPENDITURES AND PAYMENTS,
                                              AS OF 9/30/2011 ($ BILLIONS)
                                                                                                                          Chrysler          Ally Financial Inc.
                                                                                   Chrysler              GMa              Financial          (formerly GMAC)                  Total
                                             Pre-Bankruptcy
                                                AIFP                                     $4.0          $19.4                     $1.5                        $17.2           $42.1
                                                ASSP    B
                                                                                           0.1             0.3                                                                  0.4
                                                AWCP                                       0.3             0.4                                                                  0.6
                                                Subtotal                                $4.4          $20.1                     $1.5                         $17.2          $43.1
                                             In-Bankruptcy (DIP
                                             Financing)
                                                AIFP                                     $1.9          $30.1                                                                 $32.0
                                                Subtotal                                $1.9          $30.1                                                                 $32.0
                                             Post-Bankruptcy
                                             (Working Capital)
                                                AIFP                                     $4.6                                                                                  $4.6
                                                Subtotal                                $4.6                                                                                  $4.6
                                             Subtotals by Program:
                                                AIFP                                                                                                                         $78.7
                                                ASSP                                                                                                                            0.4
                                                AWCP                                                                                                                            0.6
                                             Total Expenditures                       $10.9           $50.2                     $1.5                         $17.2          $79.7
                                             Principal Repaid to
                                                                                       ($8.0)        ($23.1)                   ($1.5)                        ($2.7)c       ($35.3)
                                             Treasury
                                             Net Expenditures                           $2.9          $27.0                     $0.0                         $14.5          $44.4
                                             Total Loss on
                                                                                        $2.9                                                                                  $2.9
                                             Investment
                                              Notes: Numbers may not total due to rounding.
                                              a
                                                Including GM’s debt payments of $50 million on March 31, 2011, $45 million on April 5, 2011, and approximately $15.9 million on
                                                May 3, 2011.
                                              b
                                                  The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated $5
                                                  billion under ASSP. Treasury adjusted its obligation to $0.4 billion.
                                              c
                                                 On March 2, 2011, Treasury entered into an underwriting offering of its Ally Financial TRUPS, which resulted in approximately $2.7
                                                  billion in total proceeds to Treasury.

                                              Source: Treasury, Transactions Report, 10/3/2011.
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011          139




Automotive Industry Financing Program
Treasury provided $80.7 billion through AIFP to support automakers and
their financing arms in order to “avoid a disorderly bankruptcy of one or more
auto[motive] companies.”590 As of September 30, 2011, Treasury had received
approximately $3.8 billion in dividends, interest, and fees from participating
companies.591 Of AIFP-related loan principal repayments and share sale proceeds,
Treasury has received approximately $22.4 billion related to its GM investment,
$7.6 billion related to its Chrysler investment, $2.7 billion related to its Ally
Financial/GMAC investment, and $1.5 billion related to its Chrysler Financial
investment.592 As discussed below, additional payments of $640.7 million and
$413.1 million, respectively, were received under AWCP and ASSP.593

GM
Through September 30, 2011, Treasury had provided approximately $49.5
billion to GM through AIFP. Of that amount, $19.4 billion was provided before               Debtor-in-Possession (“DIP”):
bankruptcy and $30.1 billion was provided as debtor-in-possession (“DIP”)                   Company operating under Chapter 11
financing during bankruptcy. During bankruptcy proceedings, Treasury’s pre-                 bankruptcy protection that technically
bankruptcy and DIP financing loans to Old GM were converted into common                     still owns its assets but is operating
or preferred stock in New GM (the company that purchased substantially all of               them to maximize the benefit to its
the assets of Old GM pursuant to Section 363 of the Bankruptcy Code) or debt                creditors.
assumed by New GM. As a result of Old GM’s bankruptcy, Treasury’s investment in
Old GM was converted to a 60.8% common equity stake in New GM, $2.1 billion
in preferred stock in New GM, and a $7.1 billion loan to New GM ($6.7 billion
through AIFP and $360.6 million through AWCP). As part of a credit agreement
with Treasury, $16.4 billion of the DIP money was set in an escrow account that
GM could access only with Treasury’s permission. Separately, approximately
$985.8 million in loans was left as an obligation of Old GM to facilitate the orderly
wind-down and liquidation of Old GM.594 On March 31, 2011, Old GM’s Plan of
Liquidation became effective and Treasury’s $985.8 million loan to Old GM was
converted to an administrative claim. According to Treasury, under the Plan of
Liquidation, Treasury retained the right to receive additional proceeds; however,
any additional recovery is dependent on actual liquidation proceeds and pending
litigation.595 As of September 30, 2011, the GM entities had made approximately
$756.7 million in dividend and interest payments to Treasury under AIFP.596

Debt Repayments
New GM repaid the $6.7 billion loan provided through AIFP with interest, using
a portion of the previously mentioned $16.4 billion held in an escrow account
that had been funded originally with TARP funds provided to Old GM during
its bankruptcy. What remained in escrow was released to New GM without
restrictions with the final debt payment by New GM to Treasury on the $6.7
billion loan referenced above in April 2010.597 A separate $985.8 million loan was
left behind with Old GM for wind-down costs associated with its liquidation.598
As previously discussed, Treasury was granted an allowed administrative claim for
its $985.8 million loan to Old GM in the bankruptcy. As of September 30, 2011,
140           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                     Treasury had received approximately $110.9 million in repayments related to this
                                                     claim.

                                                     Sale of GM Common Stock and GM’s Repurchase of Series A Preferred Shares
                                                     from Treasury
                                                     In November and December 2010, New GM successfully completed an initial
                                                     public offering (“IPO”) in which New GM’s shareholders sold 549.7 million shares
                                                     of their common stock for $33.00 per share, or $18.1 billion in gross proceeds.599
                                                     New GM also sold 100 million shares of Series B mandatorily convertible preferred
                                                     shares (“MCP”) priced at $50.00 per share, bringing the offering’s total gross
                                                     proceeds to $23.1 billion.600 As part of the IPO, Treasury sold a total of 412.3
                                                     million common shares for $13.5 billion in net proceeds (after taking into account
                                                     underwriting fees associated with the IPO), reducing its number of common shares
                                                     to 500.1 million and its ownership in New GM from 60.8% to 33.3%.601 In addition
                                                     to Treasury selling a portion of its common shares in the IPO, on December 15,
                                                     2010, GM repurchased Treasury’s Series A preferred stock (83.9 million shares)
                                                     for total proceeds of $2.1 billion.602 The share sale price included a 2% premium
                                                     to the liquidation price of $25.00 and resulted in a capital gain to Treasury of
                                                     approximately $41.9 million.603 On January 13, 2011, Treasury’s ownership in GM
                                                     was diluted from 33.3% to 32% as a result of GM contributing 61 million of its
                                                     common shares to fund GM’s hourly and salaried pension plans.604
                                                         In order to recoup its total investment in GM, Treasury will need to recover an
                                                     additional $27 billion in proceeds. This translates to an average of $53.98 per share
                                                     on its remaining common shares in New GM, not taking into account dividend
                                                     and interest payments received from the GM entities.605 The break-even price
                                                     — $53.98 per share — is calculated by dividing the $27 billion (the amount that
                                                     remains outstanding of the funds that Treasury extended to GM, after repayment
      For more on the results of GM’s                of the loan by New GM, the proceeds received by Treasury as a result of the IPO,
      November 2010 IPO, see SIGTARP’s               repurchase of Treasury’s Series A preferred shares (including a $41.9 million gain),
      January 2011 Quarterly Report,                 and repayments to Treasury related to the Old GM bankruptcy claim) by the 500.1
      page 163.                                      million remaining shares owned by Treasury. If the $756.7 million in dividends and
                                                     interest received by Treasury is included in this computation, then Treasury will
                                                     need to recover $26.2 billion in proceeds, which translates into a break-even price
                                                     of $52.39 per share, not taking into account other fees or costs associated with
                                                     selling the shares.

                                                     Chrysler
                                                     Through October 3, 2010, Treasury had made approximately $12.5 billion available
                                                     to Chrysler directly through AIFP in three stages to three corporate entities: $4
                                                     billion before bankruptcy to CGI Holding LLC — the parent company of Old
                                                     Chrysler (the bankrupt entity) — and Chrysler Financial; $1.9 billion in DIP
                                                     financing to Old Chrysler during bankruptcy; and $6.6 billion to New Chrysler,
                                                     the company formed post-bankruptcy that purchased most of Old Chrysler’s assets
                                                     through a working capital facility.606 In consideration for its assistance to Chrysler,
                                                     Treasury received 9.9% of the common equity in New Chrysler.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   141




     On April 30, 2010, following the bankruptcy court’s approval of the plan of
liquidation for Old Chrysler, the $1.9 billion DIP loan was extinguished without
repayment. In return, Treasury retained the right to recover proceeds from the sale
of assets that were collateral for the DIP loan from a liquidation trust that received
all of Old Chrysler’s remaining assets.607 According to Treasury, it is unlikely to
fully recover its initial investment of approximately $1.9 billion related to the DIP
loan.608 As of September 30, 2011, Treasury had recovered approximately $48.1
million from asset sales.609 Of the $4 billion lent to Old Chrysler’s parent company,
CGI Holding LLC, before bankruptcy, $500 million of the debt was assumed by
New Chrysler while the remaining $3.5 billion was held by CGI Holding LLC.610
Under the terms of this loan agreement, as amended on July 23, 2009, Treasury
was entitled to the greater of approximately $1.4 billion or 40% of any proceeds
that Chrysler Financial paid to its parent company, CGI Holding LLC, after certain
other distributions were made.611 On May 14, 2010, Treasury accepted $1.9 billion
in full satisfaction of its $3.5 billion loan to CGI Holding LLC.612
     On May 24, 2011, New Chrysler used the proceeds from a series of refinancing
transactions and an equity call option exercised by Fiat to repay the loans from
Treasury and the Canadian government.613 The repaid loans were made up of $6.6
billion in post-bankruptcy financing (of which $2.1 billion was never drawn down),
and the $500 million in debt assumed by New Chrysler from the original $4 billion
loan to CGI Holding LLC.614 The refinancing transactions included the issuance of
debt securities, a term loan, and an undrawn revolving credit facility. Concurrent
with the repayment of the loans, Treasury terminated New Chrysler’s ability to
draw the remaining $2.1 billion TARP loan obligation.615
     Over time, Fiat increased its ownership of New Chrysler. On July 21, 2011,
Treasury sold to Fiat for $500 million Treasury’s remaining equity ownership
interest in New Chrysler. Treasury also sold to Fiat for $60 million Treasury’s rights
to receive proceeds under an agreement with the United Auto Workers retiree trust
pertaining to the trust’s shares in New Chrysler.616 As discussed above, Treasury
retains the right to recover certain proceeds from Old Chrysler’s bankruptcy.
     As of July 21, 2011, the Chrysler entities had made approximately $1.2 billion
in interest payments to Treasury under AIFP.617

Automotive Financing Companies
Ally Financial/GMAC
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity
from GMAC and received an additional $250 million in preferred shares through
warrants that Treasury exercised immediately at a cost of $2,500.618 On the same
day, Treasury agreed to lend up to $1 billion to Old GM in order to increase Old
GM’s ownership interest in GMAC. In January 2009, Old GM borrowed $884
million, which it invested in GMAC.619 In May 2009, Treasury exchanged that
$884 million note for a 35.4% common equity ownership in GMAC, thereby giving
Treasury the right to appoint two directors to GMAC’s board.620
    On May 21, 2009, Treasury made an additional investment in GMAC when it
purchased $7.5 billion of MCP and received warrants that Treasury immediately
142           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                                                exercised for an additional $375 million in MCP at an additional cost of
                                                                                approximately $75,000.621 On December 30, 2009, Treasury invested another $3.8
                                                                                billion in GMAC, and Treasury received $2.5 billion in trust preferred securities
                                                                                (“TRUPS”) and $1.3 billion in MCP. Treasury also received warrants, which were
                                                                                immediately exercised, to purchase an additional $127 million in TRUPS and
                                                                                $62.5 million in MCP at an additional cost of approximately $1,270 and $12,500,
                                                                                respectively.622 Additionally, Treasury converted $3 billion of its MCP into GMAC
                                                                                common stock, increasing its common equity ownership from 35.4% to 56.3%.
                                                                                This increase in ownership gave Treasury the right to appoint two additional
                                                                                directors to GMAC’s board, potentially bringing the total number of Treasury-
                                                                                appointed directors to four.623 On May 10, 2010, GMAC changed its name to Ally
                                                                                Financial Inc.624
                                                                                     On December 30, 2010, Treasury announced the conversion of $5.5 billion of
                                                                                its MCP in Ally Financial to common equity, increasing Treasury’s ownership stake
                                                                                in Ally Financial’s common equity from 56.3% to 73.8%.625 Treasury converted
                                                                                the MCP at one times the book value of Ally Financial’s tangible common equity
                                                                                balance as of September 30, 2010, subject to certain adjustments.626 According
                                                                                to Treasury, the conversion aimed to stabilize Ally Financial through the addition
                                                                                of common equity to its capital structure, thereby allowing it easier access to both
                                                                                equity and debt financing in private capital markets. The move was also intended
                                                                                to facilitate any future efforts on the part of Treasury to reduce its investment in
                                                                                Ally Financial through the sale of its common equity holdings in the company.627
                                                                                As a result, Treasury will no longer receive the quarterly dividend payments that
                                                                                Ally Financial was required to pay on the $5.5 billion of MCP. On March 1, 2011,
                                                                                Treasury announced its intention to sell its $2.7 billion in TRUPS in Ally Financial
                                                                                in a public offering.628 The public offering closed on March 7, 2011, resulting in
 FIGURE 2.11
                                                                                approximately $2.7 billion in total proceeds to Treasury.629
 OWNERSHIP IN ALLY FINANCIAL/GMAC                                                    As a result of its conversion of MCP to common stock in Ally Financial, and
                New GM 4%
                                                                                for so   long as Treasury maintains common equity ownership at or above 70.8%,
  GM Trust                                                                      Treasury     has the right to appoint two additional directors, for a total of six, to Ally
 Third-Party
                            6%
                                                                                Financial’s board, increasing the size of the board to 11 members.630 On February
  Investors
                     8%                                                         28, 2011, Treasury appointed its fourth director to Ally Financial’s board.631 As of
 Cerberus 9%                                            United States
                                                                                September 30, 2011, Treasury had not exercised its right to fill its remaining two
                                              74%       Department              director positions.632 The conversion of $5.5 billion of Treasury’s MCP diluted the
                                                        of the
                                                        Treasury                shares of other existing shareholders in Ally Financial. Following the conversion,
                                                                                the private equity firm Cerberus Capital Management, L.P. (“Cerberus”) held 8.7%,
                                                                                third-party investors collectively held 7.6%, an independently managed trust owned
 Note: Numbers may not total due to rounding.
                                                                                by New GM held 5.9%, and New GM directly held a 4% stake in Ally Financial’s
 Note: Numbers may not total due to rounding.                                   common equity.633 Figure 2.11 shows the breakdown of common equity ownership
 Source: Ally Financial, Inc.: “Ownership Structure,” media.ally.
 com/index.php?s=51, accessed 10/10/2011.                                       in Ally
 Source: : Ally Financial, Inc.: “Ownership Structure,” media.ally.com/index.php?s=51,    Financial
                                                                                       accessed         as of September 30, 2011.
                                                                                                10/10/2011.
                                                                                                                              QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   143




Proposed Ally Financial IPO
On March 31, 2011, Ally Financial filed a Form S-1 Registration statement for
an IPO with the Securities and Exchange Commission (“SEC”).634 The document
includes a prospectus relating to the issuance of Ally Financial common stock.635
The prospectus also outlines certain aspects of Ally Financial’s business operations
and risks facing the company.636
     Ally Financial stated that the IPO would consist of “common stock to be sold
by the U.S. Department of the Treasury.”637 On May 17, 2011, June 3, 2011, June
29, 2011, and August 18, 2011, Ally Financial disclosed additional details about its
upcoming IPO in amended Form S-1 Registration statements filed with the SEC.638
Concurrent with the IPO, Treasury plans to convert $2.9 billion of its existing $5.9
billion of MCP into common stock.639 Treasury will exchange the remaining $3
billion of its MCP into so-called tangible equity units, a type of preferred stock,
and will offer a portion of these tangible equity units alongside the common equity
offering.640 Treasury agreed to be named as a seller but retained the right to decide
whether to sell any of its 73.8% ownership of Ally Financial’s common stock and in
what amounts.641
     As of September 30, 2011, Treasury still held approximately $14.5 billion
in Ally Financial/GMAC, composed of 73.8% of Ally Financial’s common stock
and $5.3 billion in MCP.642 In return for these investments, Treasury was also
granted warrants, which it exercised immediately at a cost of $90,015, to purchase
securities with a par value of approximately $688 million: $250 million in preferred
shares (which were later converted to MCP) and $438 million in additional
MCP.643 This brought Treasury’s total holdings in Ally Financial securities to a par
value of approximately $15.3 billion, for which it expended approximately $14.5
billion in TARP funds.644 Table 2.37 summarizes Treasury’s Ally Financial holdings
as of September 30, 2011.

TABLE 2.37
TREASURY HOLDINGS IN ALLY FINANCIAL (FORMERLY GMAC)
AS OF 9/30/2011 ($ BILLIONS)
                                                                                                                                  TOTAL
Mandatorily Convertible Preferred Shares (MCP)                                                                                      $5.9a
Common Equity                                                                                                                         9.4b
Total                                                                                                                            $15.3c
Notes: Numbers affected by rounding.
a
  This figure includes three separate tranches of MCP acquired via the exercise of warrants: $250 million in warrants that were
  exercised to acquire preferred shares that were later converted to MCP on December 30, 2009, $375 million in MCP warrants
  exercised on May 21, 2009, and $63 million in MCP warrants exercised on December 30, 2009.
b
    The dollar value of Treasury’s 73.8% stake in Ally Financial’s common equity is based on the costs to acquire such a stake, including
    the conversion of the GM rights loan of $884 million in May 2009, the $3 billion of MCP in December 2009, and the $5.5 billion of
    MCP in December 2010.
c
   This figure includes $687.5 million in shares acquired by the exercise of the warrants discussed above. These warrants were
   exercised at an aggregate cost of $90,015 to the taxpayer.

Sources: Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.
treasury.gov/press-center/press-releases/Pages/tg1014.aspx, accessed 10/10/2011; Ally Financial, Form 8-K, 1/5/2010, www.
sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 10/10/2011; Treasury Press Release, “Treasury
Announces Pricing of $2.7 Billion of Ally TRuPs,” 3/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1086.aspx,
accessed 10/10/2011.
144   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                 As of September 30, 2011, Ally Financial had made approximately $2.5 billion
                                             in dividend and interest payments to Treasury.645

                                             Chrysler Financial
                                             In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
                                             support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
                                             fully repaid the loan in addition to approximately $7.4 million in interest
                                             payments.646 In connection with the $3.5 billion pre-bankruptcy loan remaining
                                             with CGI Holding LLC, the parent company of Old Chrysler (the bankrupt entity)
                                             and Chrysler Financial, Treasury was entitled to the greater of approximately $1.4
                                             billion or 40% of any proceeds that Chrysler Financial paid to its parent company,
                                             CGI Holding LLC, after certain other distributions were made.647 On May 14,
                                             2010, Treasury accepted $1.9 billion in full satisfaction of its $3.5 billion loan
                                             to CGI Holding LLC, thereby relinquishing any interest in or claim on Chrysler
                                             Financial.648 Seven months later, on December 21, 2010, TD Bank Group
                                             announced it had agreed to purchase Chrysler Financial from Cerberus, the owner
                                             of CGI Holding LLC, for approximately $6.3 billion.649 TD Bank Group completed
                                             its acquisition of Chrysler Financial on April 1, 2011, and has rebranded Chrysler
                                             Financial under the TD Auto Finance brand.650

                                             Auto Supplier Support Program (“ASSP”)
                                             On March 19, 2009, Treasury announced a commitment of $5 billion to ASSP to
                                             “help stabilize the automotive supply base and restore credit flows in a critical sec-
                                             tor of the American economy.”651 Because of concerns about the auto manufactur-
                                             ers’ ability to pay their invoices, suppliers had not been able to borrow from banks
                                             by using their receivables as collateral. ASSP enabled automotive parts suppliers to
                                             access Government-backed protection for money owed to them for the products
                                             they shipped to manufacturers.
                                                 The total commitment of $5 billion was reduced to $3.5 billion on July 8, 2009
                                             — $2.5 billion for GM and $1 billion for Chrysler.652 Of the $3.5 billion reduced
                                             commitment to GM and Chrysler, approximately $413.1 million was actually
                                             expended. Because the actual expenditure was lower than initially anticipated,
                                             Treasury reduced its obligation under ASSP to $413.1 million. Treasury received
                                             a total of $413.1 million in ASSP loan repayments — $290 million from GM and
                                             approximately $123.1 million from Chrysler.653 Additionally, Treasury received
                                             $115.9 million in fees and interest payments — $65.6 million from GM and $50.3
                                             million from Chrysler.654 ASSP was terminated on April 5, 2010, for GM and April
                                             7, 2010, for Chrysler.655

                                             Auto Warranty Commitment Program (“AWCP”)
                                             AWCP was designed to bolster consumer confidence by guaranteeing Chrysler
                                             and GM vehicle warranties during the companies’ restructuring in bankruptcy.656
                                             Treasury obligated $640.7 million to this program — $360.6 million for GM
                                             and $280.1 million for Chrysler.657 On July 10, 2009, the companies fully repaid
                                             Treasury upon their exit from bankruptcy.658
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011             145




EXECUTIVE COMPENSATION
TARP recipients are subject to executive compensation restrictions. The original
executive compensation rules set forth in Section 111 of EESA were amended in
February 2009 in the American Recovery and Reinvestment Act of 2009 (“ARRA”)
and have been interpreted and implemented by Treasury regulations and notices.659
On June 10, 2009, Treasury released its Interim Final Rule on TARP Standards for
Compensation and Corporate Governance (the “Rule”), which “implement[s] the                Exceptional Assistance Recipients:
ARRA provisions, consolidates all of the executive-compensation-related provisions         Companies that receive assistance
that are specifically directed at TARP recipients into a single rule (superseding          under SSFI, TIP, and AIFP. Current
all prior rules and guidance), and utilizes the discretion granted to the [Treasury]       recipients are AIG, GM, and Ally
Secretary under the ARRA to adopt additional standards, some of which are adapted          Financial (formerly GMAC).
from principles set forth” in guidance provided by Treasury in February 2009.660
    The Rule applies to institutions that meet its definition of a TARP recipient as
well as any entity that owns at least 50% of any TARP recipient. As long as a TARP
                                                                                            For more information on the Rule and
recipient has an outstanding “obligation” to Treasury (as defined by ARRA, this does
                                                                                            a summary of the timeline of TARP
not include warrants to purchase common stock), it must abide by the Rule.661               executive compensation restrictions, see
The Rule also specifically subjects exceptional assistance recipients to enhanced           SIGTARP’s July 2009 Quarterly Report,
restrictions designed to “maximize long-term shareholder value and protect taxpayer         page 118.
interests.”662
    Some program participants are exempt from the Rule:                                     For more information on executive
                                                                                            compensation issues and findings,
•	 TALF recipients, because they did not directly receive TARP assistance (instead,         refer to SIGTARP audit reports:
   TARP funds are available to purchase collateral surrendered to TALF)663                  “Despite Evolving Rules on Executive
•	 PPIFs, because they have no employees. In addition, PPIF investors and asset             Compensation, SIGTARP Survey
                                                                                            Provides Insights on Compliance,”
   managers are exempt because the program’s terms prohibit any single private
                                                                                            issued August 19, 2009, and “Extent
   entity from owning more than 9.9% of any such fund and, therefore, fall below
                                                                                            of Federal Agencies’ Oversight of AIG
   the 50% ownership threshold664
                                                                                            Compensation Varied, and Important
•	 Making Home Affordable (“MHA”) program participants, which are statutorily               Challenges Remain,” issued October 14,
   exempt                                                                                   2009.

Special Master
Treasury created the Office of the Special Master for TARP Executive
Compensation on June 15, 2009, and appointed Kenneth R. Feinberg to
the position of Special Master; Mr. Feinberg was succeeded by Ms. Patricia
Geoghegan, who became Acting Special Master on September 10, 2010.665 The
Special Master’s responsibilities include the following:666                                Senior Executive Officers (“SEOs”):
                                                                                           “Named executive officers” of TARP
•	 Top 25 Reviews — review and approve compensation structures and payments                recipients as defined under Federal
   for the five senior executive officers (“SEOs”) and the next 20 most highly paid        securities law, which generally include
   employees at institutions that received exceptional financial assistance                the principal executive officer, the
•	 Top 26 through 100 Reviews — review and approve compensation structures                 principal financial officer, and the
   for the next 75 highest-paid employees at institutions that received exceptional        next three most highly compensated
   financial assistance (employees who are not in the top 25 but are executive             officers.
146            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      For a discussion of the Special Master             officers or among the top 100 most highly compensated employees fall into this
      “Look Back” Review, which was                      category)
      completed on July 23, 2010, see                 •	 Prior Payment Reviews — review bonuses, retention awards, and other
      SIGTARP’s October 2010 Quarterly                   compensation paid to SEOs and the 20 next most highly compensated
      Report, pages 153–154.
                                                         employees of each entity that received TARP assistance from the date the entity
                                                         first received TARP assistance until February 17, 2009, and seek to negotiate
                                                         reimbursements where the payment was determined to be inconsistent with the
      Public Interest: Regulatory standard               purposes of EESA or TARP, or otherwise contrary to the public interest
      that the Special Master is required             •	 Interpretation — provide advisory opinions with respect to the Rule’s
      to apply in making determinations. It              application and whether compensation payments and structures were
      refers to the determination of whether             inconsistent with the purposes of EESA or TARP, or otherwise contrary to the
      TARP-recipient compensation plans are              public interest
      aligned with the best interests of the
      U.S. taxpayer, based on a balancing of
                                                      Exceptional Assistance Recipients
      specific principles set forth in the Rule.
                                                      As of September 30, 2011, only AIG, GM, and Ally Financial (formerly GMAC)
                                                      were still considered exceptional assistance recipients and subject to the Rule.667
                                                      Citigroup and Bank of America had been considered exceptional assistance recipi-
      For the specific principles used in
                                                      ents because each participated in TIP, but neither falls under this designation now
      reviewing compensation plans, see
                                                      because of repayments each made in December 2009.668 Chrysler Financial was
      SIGTARP’s July 2009 Quarterly Report,
      pages 122–123.                                  released from all its obligations under the Rule after it repaid its $1.5 billion loan
                                                      under AIFP and its parent company, CGI Holding LLC, repaid $1.9 billion of its
                                                      original $4 billion TARP loan under AIFP to Treasury on May 14, 2010, in full sat-
                                                      isfaction of its outstanding obligations to Treasury.669 Chrysler Group LLC was no
                                                      longer subject to the Rule after Treasury announced on July 21, 2011, that it had
                                                      fully exited its investment in Chrysler Group after it had sold its remaining equity
                                                      ownership interest in the company to Fiat for $500 million and Treasury’s right
                                                      to receive proceeds under an agreement with the United Auto Workers (“UAW”)
                                                      retiree trust pertaining to the trust’s share in New Chrysler for $60 million.670
                                                         On April 1, 2011, the Office of the Special Master issued compensation determi-
                                                      nations for 2011 concerning 98 executives who were the “Top 25” executives at the
                                                      then-four remaining exceptional assistance recipients:671

                                                      •	 Compensation packages for the AIG, GM, and Ally Financial CEOs did not in-
                                                         crease and the cash component remained frozen at 2010 levels (as in past years,
                                                         the Chrysler CEO is compensated by Fiat rather than by the taxpayer-assisted
                                                         Chrysler company).
                                                      •	 82% of the Top 25 pay packages for 2011 (the same percentage as in 2010), in-
                                                         cluding target incentives, were in the form of stock, thereby “tying the ultimate
                                                         value of the compensation to company performance.”
                                                      •	 More than 75% of the Top 25 pay packages limited cash salary to $500,000 or
                                                         less.
                                                      •	 The four companies have made more than $36 billion in TARP repayments
                                                         since the Special Master’s March 2010 Top 25 compensation rulings.
                                                      •	 The overall cash compensation and direct compensation levels for the 98 execu-
                                                         tives decreased in 2011 by 18.2% and 1.3%, respectively. Of the 98 executives,
                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   147




62 individuals were in the Top 25 in 2010 and 2011, and the overall cash com-
pensation and direct compensation levels increased in 2011 by 4.7% and 4.4%,
respectively. Of the 98 executives, 36 individuals were new to the 2011 Top 25,
and overall cash compensation and direct compensation decreased by 39% and
9.6%, respectively, as compared to the cash they received for 2010.672
148   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
             TARP OPERATIONS AND
SECT ION 3
             ADMINISTRATION
150   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   151




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”). OFS is responsible for
administering TARP.673 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.674 In addition to using
permanent and interim staff, OFS relies on contractors and financial agents for
legal services, investment consulting, accounting, and other key services.



TARP ADMINISTRATIVE AND PROGRAM
EXPENDITURES
According to Treasury, as of September 30, 2011, it had spent $219.7 million on
TARP administrative costs and $554.4 million on programmatic expenditures,
for a total of $774.1 million. As of September 30, 2011, Treasury has obligated
$253.7 million for TARP administrative costs and $613.7 million in programmat-
ic expenditures for a total of $867.4 million.675 Treasury reported that it employs
93 career civil servants, 105 term appointees, and 21.25 reimbursable detailees,
for a total of 219.25 full-time employees.676 Table 3.1 provides a summary of the
expenditures and obligations for TARP administrative costs through September
30, 2011. These costs are categorized as “personnel services” and “non-personnel
services.”
152   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             TABLE 3.1

                                             TARP ADMINISTRATIVE EXPENDITURES AND OBLIGATIONS
                                                                                                               Obligations for Period Expenditures for Period
                                             Budget Object Class Title                                           Ending 9/30/2011         Ending 9/30/2011
                                             Personnel Services
                                                 Personnel Compensation & Benefits                                           $74,757,042                           $74,588,382
                                             Total Personnel Services                                                      $74,757,042                           $74,588,382


                                             Non-Personnel Services
                                                 Travel & Transportation of Persons                                            $1,380,167                            $1,348,943
                                                 Transportation of Things                                                            11,960                                11,960
                                                 Rents, Communications, Utilities & Misc.                                          753,957                               679,194
                                                 Charges
                                                 Printing & Reproduction                                                                  402                                    402
                                                 Other Services                                                              175,231,334                           141,747,573
                                                 Supplies & Materials                                                            1,311,954                             1,082,424
                                                 Equipment                                                                         248,459                               234,688
                                                 Land & Structures                                                                          —                                     —
                                                 Dividends and Interest                                                                   142                                    142
                                             Total Non-Personnel Services                                                $178,938,374                          $145,105,326
                                             Grand Total                                                                 $253,695,416                          $219,693,709
                                             Notes: Numbers affected by rounding. The cost associated with “Other Services” under TARP Administrative Expenditures and
                                             Obligations are composed of administrative services including financial, administrative, IT and legal (non-programmatic) support.

                                             Source: Treasury, response to SIGTARP data call, 10/7/2011.




                                             CURRENT CONTRACTORS AND
                                             FINANCIAL AGENTS
                                             As of September 30, 2011, Treasury had retained 120 private vendors: 17 finan-
                                             cial agents and 103 contractors, to help administer TARP.677 Table 3.2 provides a
                                             summary of the programmatic expenditures, which include costs to hire financial
                                             agents and contractors, and obligations through September 30, 2011, excluding
                                             costs and obligations related to personnel services and travel and transportation.
                                             Although Treasury informed SIGTARP that it “does not track” the number of
                                             individuals who provide services under its agreements, the number likely dwarfs
                                             the 219.25 that Treasury has identified as working for OFS.678 For example, on
                                             October 14, 2010, the Congressional Oversight Panel (“COP”) reported that
                                             “Fannie Mae alone currently has 600 employees working to fulfill its TARP com-
                                             mitments.”679 To streamline and expedite contract solicitation, EESA allowed the
                                             Treasury Secretary to waive specific Federal Acquisition Regulations for urgent and
                                             compelling circumstances.680
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011              153




TABLE 3.2

OFS SERVICE CONTRACTS          (CONTINUED)

                                                                                              Type of                 Obligated       Expended
Date         Vendor                                Purpose                                    Transaction                 Value           Value
                                                   Legal services for the implementation of
10/10/2008   Simpson Thacher & Bartlett MNP LLP                                               Contract                 $931,090           $931,090
                                                   TARP
10/11/2008   Ennis Knupp & Associates Inc.1        Investment and Advisory Services           Contract                2,470,242       2,470,242
             The Bank of New York Mellon
10/14/2008                                         Custodian                                  Financial Agent        42,108,749      37,740,788
             Corporation
10/16/2008   PricewaterhouseCoopers                Internal control services                  Contract               32,806,597      30,045,356
                                                                                              Interagency
10/17/2008   Turner Consulting Group, Inc.2        For process mapping consultant services                                9,000                 —
                                                                                              Agreement
10/18/2008   Ernst & Young LLP                     Accounting Services                        Contract               14,550,519      13,366,598
                                                   Legal services for the Capital
10/29/2008   Hughes Hubbard & Reed LLP                                                        Contract                3,060,921       2,835,357
                                                   Purchase Program
                                                   Legal services for the Capital
10/29/2008   Squire, Sanders & Dempsey LLP                                                    Contract                2,687,999       2,687,999
                                                   Purchase Program
10/31/2008   Lindholm & Associates, Inc.           Human resources services                   Contract                  614,963            614,963
                                                   Legal services related to auto industry
11/7/2008    Sonnenschein Nath & Rosenthal LLP                                                Contract                2,702,441       2,702,441
                                                   loans
                                                                                              Interagency
11/9/2008    Internal Revenue Service              Detailees                                                             97,239             97,239
                                                                                              Agreement
                                                                                              Interagency
11/17/2008   Internal Revenue Service              CSC Systems & Solutions LLC                                            8,095              8,095
                                                                                              Agreement
             Department of the Treasury ­—                                                    Interagency
11/25/2008                                         Administrative Support                                            16,512,820      16,131,121
             Departmental Offices                                                             Agreement
             Alcohol and Tobacco Tax and           IAA - TTB Development, Mgmt & Operation Interagency
12/3/2008                                                                                                                67,489             67,489
             Trade Bureau                          of SharePoint                           Agreement
                                                                                              Interagency
12/5/2008    Washington Post                       Subscription                                                             395                 —
                                                                                              Agreement
                                                   Legal services for the purchase of
12/10/2008   Sonnenschein Nath & Rosenthal LLP                                                Contract                  102,769            102,769
                                                   assets-backed securities
12/10/2008   Thacher Proffitt & Wood4              Admin action to correct system issue       Contract                        —                 —
                                                                                              Interagency
12/15/2008   Office of Thrift Supervision          Detailees                                                            225,547            164,823
                                                                                              Agreement
             Department of Housing and                                                        Interagency
12/16/2008                                         Detailees                                                                  —                 —
             Urban Development                                                                Agreement
                                                                                              Interagency
12/22/2008   Office of Thrift Supervision          Detailees                                                            103,871                 —
                                                                                              Agreement
12/24/2008   Cushman and Wakefield of VA Inc.      Painting Services for TARP Offices         Contract                    8,750              8,750
                                                                                              Interagency
1/6/2009     Securities and Exchange Commission Detailees                                                                30,416             30,416
                                                                                              Agreement
1/7/2009     Colonial Parking Inc.                 Lease of parking spaces                    Contract                  275,650            203,233
1/27/2009    Cadwalader Wickersham & Taft LLP      Bankruptcy Legal Services                  Contract                  409,955            409,955
1/27/2009    Whitaker Brothers Bus Machines Inc.   Paper Shredder                             Contract                    3,213              3,213
                                                                                                                          Continued on next page.
154          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS             (CONTINUED)

                                                                                                       Type of             Obligated      Expended
      Date         Vendor                                 Purpose                                      Transaction             Value          Value
                                                                                                       Interagency
      1/30/2009    Comptroller of the Currency            Detailees                                                        $501,118        $501,118
                                                                                                       Agreement
                                                          IAA - GAO required by P.L. 110-343 to
                                                                                                       Interagency
      2/2/2009     US Government Accountability Office    conduct certain activities related to                            7,459,049      7,459,049
                                                                                                       Agreement
                                                          TARP IAA
                                                                                                       Interagency
      2/3/2009     Internal Revenue Service               Detailees                                                         242,499         242,499
                                                                                                       Agreement
                                                          Temporary Services for Document
      2/9/2009     Pat Taylor & Associates, Inc.          Production, FOIA assistance, and             Contract             692,108         692,108
                                                          Program Support
                                                          Initiate Interim Legal Services in support of
      2/12/2009    Locke Lord Bissell & Liddell LLP                                                     Contract            272,243         272,243
                                                          Treasury Investments under EESA
      2/18/2009    Fannie Mae                             Homeownership Preservation Program           Financial Agent   239,870,429    231,274,608
      2/18/2009    Freddie Mac                            Homeownership Preservation Program           Financial Agent   143,060,025    132,052,745
                                                                                                       Interagency
      2/20/2009    Financial Clerk U.S. Senate            Congressional Oversight Panel                                    3,394,348      3,394,348
                                                                                                       Agreement
                                                                                                       Interagency
      2/20/2009    Office of Thrift Supervision           Detailees                                                         203,390         189,533
                                                                                                       Agreement
      2/20/2009    Simpson Thacher & Bartlett MNP LLP     Capital Assistance Program (I)               Contract            1,530,023      1,530,023
                                                          Capital Assistance Program (II)
      2/20/2009    Venable LLP                                                                         Contract            1,394,724      1,394,724
                                                          Legal Services
                                                                                                       Interagency
      2/26/2009    Securities and Exchange Commission Detailees                                                              18,531          18,531
                                                                                                       Agreement
                                                                                                       Interagency
      2/27/2009    Pension Benefit Guaranty Corporation   Rothschild, Inc.                                                 7,750,000      7,750,000
                                                                                                       Agreement
                                                          Management Consulting relating to the
      3/6/2009     The Boston Consulting Group                                                         Contract             991,169         991,169
                                                          Auto industry
      3/16/2009    Earnest Partners                       Small Business Assistance Program            Financial Agent     2,862,780      2,607,780
                                                          SBA Initiative Legal Services - Contract
      3/30/2009    Bingham McCutchen LLP5                 Novated from TOFS-09-D-0005 with             Contract             273,006         143,893
                                                          McKee Nelson
      3/30/2009    Cadwalader Wickersham & Taft LLP       Auto Investment Legal Services               Contract           17,392,786     17,392,786
      3/30/2009    Haynes and Boone, LLP                  Auto Investment Legal Services               Contract             345,746         345,746
                                                          SBA Initiative Legal Services — Contract
      3/30/2009    McKee Nelson                           Novated to TOFS-10-D-0001 with Bingham Contract                   149,349         126,631
                                                          McCutchen LLP
      3/30/2009    Sonnenschein Nath & Rosenthal LLP      Auto Investment Legal Services               Contract            1,834,193      1,834,193
      3/31/2009    FI Consulting Inc.                     Credit Reform Modeling and Analysis          Contract            2,803,505      2,415,848
                                                                                                       Interagency
      4/3/2009     American Furniture Rentals Inc.3       Furniture Rental 1801                                              35,187          25,808
                                                                                                       Agreement
                                                          Management Consulting relating to the
      4/3/2009     The Boston Consulting Group                                                         Contract            4,100,195      4,099,923
                                                          Auto industry
                                                                                                       Interagency
      4/17/2009    Bureau of Engraving and Printing       Detailees                                                          45,822          45,822
                                                                                                       Agreement
      4/17/2009    Herman Miller, Inc.                    Aeron Chairs                                 Contract              53,799          53,799
      4/21/2009    AllianceBernstein LP                   Asset Management Services                    Financial Agent    33,213,445     32,542,187
      4/21/2009    FSI Group, LLC                         Asset Management Services                    Financial Agent    18,041,838     17,996,725
      4/21/2009    Piedmont Investment Advisors, LLC      Asset Management Services                    Financial Agent     8,572,375      8,552,379
                                                                                                                              Continued on next page.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011             155



OFS SERVICE CONTRACTS          (CONTINUED)

                                                                                           Type of                 Obligated       Expended
Date        Vendor                              Purpose                                    Transaction                 Value           Value
                                                                                           Interagency
4/30/2009   Department of State                 Detailees                                                                $—                $—
                                                                                           Agreement
                                                                                           Interagency
5/5/2009    Federal Reserve Board               Detailees                                                             48,422            48,422
                                                                                           Agreement
            Department of the Treasury —                                                   Interagency
5/13/2009                                       “Making Home Affordable” Logo search                                     325              325
            U.S. Mint                                                                      Agreement
                                                Executive Search and recruiting Services
5/14/2009   Knowledgebank Inc.2                                                            Contract                  124,340           124,340
                                                ­— Chief Homeownership Officer
                                                Freedom of Information Act (FOIA) Analysts
5/15/2009   Phacil, Inc.                        to support the Disclosure Services, Privacy Contract                  90,301            90,301
                                                and Treasury Records
                                                                                           Interagency
5/20/2009   Securities and Exchange Commission Detailees                                                             430,000           430,000
                                                                                           Agreement
                                                                                           Interagency
5/22/2009   Department of Justice — ATF         Detailees                                                            243,778           243,778
                                                                                           Agreement
                                                Legal services for work under Treasury’s
5/26/2009   Anderson, McCoy & Orta              Public Private Investment Funds (PPIF)     Contract                4,068,834       2,286,996
                                                program
                                               Legal services for work under Treasury’s
5/26/2009   Simpson Thacher & Bartlett MNP LLP Public Private Investment Funds (PPIF)      Contract                7,849,026       3,526,454
                                               program
                                                                                           Interagency
6/9/2009    Financial Management Services       Gartner, Inc.                                                         89,436            89,436
                                                                                           Agreement
                                                                                           Interagency
6/29/2009   Department of the Interior          Federal Consulting Group (Foresee)                                    49,000            49,000
                                                                                           Agreement
                                                Executive search services for the OFS
7/17/2009   Korn/Ferry International                                                       Contract                   75,017            75,017
                                                Chief Investment Officer position
7/30/2009   Cadwalader Wickersham & Taft LLP    Restructuring Legal Services               Contract                2,049,979       1,278,696
7/30/2009   Debevoise & Plimpton LLP            Restructuring Legal Services               Contract                  159,175             1,650
            Fox, Hefter, Swibel, Levin &
7/30/2009                                       Restructuring Legal Services               Contract                   84,125            26,493
            Carol, LLP
                                                                                           Interagency
8/10/2009   Department of Justice — ATF         Detailees                                                             63,218            63,109
                                                                                           Agreement
            National Aeronautics and Space                                                 Interagency
8/10/2009                                       Detailees                                                            140,889           140,889
            Administration (NASA)                                                          Agreement
8/18/2009   Mercer (US) Inc.                    Executive Compensation Data Subscription Contract                      3,000             3,000
                                                                                           Interagency
8/25/2009   Department of Justice — ATF         Detailees                                                             63,248            63,248
                                                                                           Agreement
9/2/2009    Knowledge Mosaic Inc.               SEC filings subscription service           Contract                    5,000             5,000
9/10/2009   Equilar, Inc.                       Executive Compensation Data Subscription Contract                     59,990            59,990
9/11/2009   PricewaterhouseCoopers              PPIP compliance                            Contract                2,798,096       2,173,675
                                                                                           Interagency
9/18/2009   Treasury Franchise Fund             BPD                                                                  436,054           436,054
                                                                                           Agreement
                                                                                           Interagency
9/30/2009   Immixtechnology Inc.3               EnCase eDiscovery ProSuite                                           210,184                —
                                                                                           Agreement
                                                                                           Interagency
9/30/2009   Immixtechnology Inc.3               Guidance Inc.                                                        108,000                —
                                                                                           Agreement
9/30/2009   NNA INC.                            Newspaper delivery                         Contract                    8,479             8,220
                                                                                                                       Continued on next page.
156          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                                      Type of            Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction            Value          Value
                                                         SNL Unlimited, a web-based
      9/30/2009    SNL Financial LC                                                                   Contract           $460,000        $260,000
                                                         financial analytics service
                   Department of the Treasury —                                                       Interagency
      11/9/2009                                          Administrative Support                                         23,682,061     18,026,993
                   Departmental Offices                                                               Agreement
                                                                                                      Interagency
      12/16/2009   Internal Revenue Service              Detailees                                                         46,202          46,202
                                                                                                      Agreement
      12/22/2009   Avondale Investments LLC              Asset Management Services                    Financial Agent     772,657         772,657
      12/22/2009   Bell Rock Capital, LLC                Asset Management Services                    Financial Agent    1,535,000      1,402,623
      12/22/2009   Howe Barnes Hoefer & Arnett, Inc.     Asset Management Services                    Financial Agent    2,856,438      2,308,133
                                                         Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                                          Contract           1,146,736        830,594
                                                         Litigation Support
      12/22/2009   KBW Asset Management, Inc.            Asset Management Services                    Financial Agent    4,937,433      4,937,433
      12/22/2009   Lombardia Capital Partners, LLC       Asset Management Services                    Financial Agent    2,450,000      2,244,680
                   Paradigm Asset Management
      12/22/2009                                         Asset Management Services                    Financial Agent    2,387,250      2,229,034
                   Co., LLC
                                                         IAA - GAO required by P.L.110-343 to         Interagency
      1/14/2010    US Government Accountability Office                                                                   7,304,722      7,304,722
                                                         conduct certain activities related to TARP   Agreement
                   Association of Government
      1/15/2010                                          CEAR Program Application                     Contract              5,000            5,000
                   Accountants
                                                                                                      Interagency
      2/16/2010    Internal Revenue Service              Detailees                                                         52,742          52,742
                                                                                                      Agreement
                                                         FNMA IR2 assessment — OFS task order
      2/16/2010    The MITRE Corporation                                                              Contract            777,604         726,465
                                                         on Treasury MITRE Contract
                                                                                                      Interagency
      2/18/2010    Treasury Franchise Fund               BPD                                                             1,221,140      1,221,140
                                                                                                      Agreement
      3/8/2010     Qualx Corporation                     FOIA Support Services                        Contract            549,518         506,937
                   Department of the Treasury —                                                       Interagency
      3/12/2010                                          Administrative Support                                           671,731         671,731
                   Departmental Offices                                                               Agreement
                                                                                                      Interagency
      3/22/2010    Gartner, Inc.                         Financial Management Services                                     73,750          73,750
                                                                                                      Agreement
                                                                                                      Interagency
      3/26/2010    Federal Maritime Commission           Detailees                                                        158,600         158,600
                                                                                                      Agreement
      3/29/2010    Morgan Stanley                        Disposition Agent Services                   Financial Agent   16,685,290     16,685,290
                                                                                                      Interagency
      4/2/2010     Financial Clerk U.S. Senate           Congressional Oversight Panel                                   4,797,556      4,797,556
                                                                                                      Agreement
      4/8/2010     Squire, Sanders & Dempsey LLP         Housing Legal Services                       Contract           1,229,350        872,936
      4/12/2010    Hewitt EnnisKunpp, Inc.               Investment Consulting Services               Contract           4,401,100      1,592,000
                                                         Data and Document Management
      4/22/2010    Digital Management Inc.                                                            Contract                  —               —
                                                         Consulting Services
                                                         Data and Document Management
      4/22/2010    MicroLink, LLC                                                                     Contract           9,261,836      4,886,006
                                                         Consulting Services
                                                         Data and Document Management
      4/23/2010    RDA Corporation                                                                    Contract           4,516,598      2,784,991
                                                         Consulting Services
                                                                                                      Interagency
      5/4/2010     Internal Revenue Service              Training — Bulux CON 120                                           1,320            1,320
                                                                                                      Agreement
      5/17/2010    Lazard Fréres & Co. LLC               Transaction Structuring Services             Financial Agent   15,083,333      6,579,570
                                                                                                                            Continued on next page.
                                                                                     QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011             157



OFS SERVICE CONTRACTS           (CONTINUED)

                                                                                           Type of                 Obligated       Expended
Date        Vendor                               Purpose                                   Transaction                 Value           Value
                                                 Accurint subscription service for
6/24/2010   Reed Elsevier Inc (dba LexisNexis)                                             Contract                   $8,208            $8,208
                                                 one year — 4 users
                                                 Financial Institution Management &
6/30/2010   The George Washington University                                               Contract                    5,000             5,000
                                                 Modeling — Training course (J.Talley)
7/21/2010   Navigant Consulting                  Program Compliance Support Services       Contract                  847,416                —
7/21/2010   Regis and Associates PC              Program Compliance Support Services       Contract                  553,990            77,142
7/22/2010   Ernst & Young LLP                    Program Compliance Support Services       Contract                1,329,943           365,072
7/22/2010   PricewaterhouseCoopers               Program Compliance Support Services       Contract                        —                —
7/22/2010   Schiff Hardin LLP                    Housing Legal Services                    Contract                   97,526            97,526
7/27/2010   West Publishing Corporation          Subscription Service for 4 users          Contract                    6,722             6,664
8/6/2010    Alston & Bird LLP                    Omnibus procurement for legal services    Contract                1,285,416           152,052
8/6/2010    Cadwalader Wickersham & Taft LLP     Omnibus procurement for legal services    Contract                3,989,597       2,336,679
            Fox, Hefter, Swibel, Levin &
8/6/2010                                         Omnibus procurement for legal services    Contract                  181,200            96,594
            Carol, LLP
8/6/2010    Haynes and Boone, LLP                Omnibus procurement for legal services    Contract                        —                —
8/6/2010    Hughes Hubbard & Reed LLP            Omnibus procurement for legal services    Contract                1,059,784           555,138
8/6/2010    Love & Long LLP                      Omnibus procurement for legal services    Contract                        —                —
8/6/2010    Orrick Herrington Sutcliffe LLP      Omnibus procurement for legal services    Contract                        —                —
            Paul, Weiss, Rifkind, Wharton &
8/6/2010                                         Omnibus procurement for legal services    Contract                3,936,741           950,656
            Garrison LLP
8/6/2010    Perkins Coie LLP                     Omnibus procurement for legal services    Contract                        —                —
8/6/2010    Seyfarth Shaw LLP                    Omnibus procurement for legal services    Contract                        —                —
            Shulman, Rogers, Gandal, Pordy &
8/6/2010                                         Omnibus procurement for legal services    Contract                  313,725           105,091
            Ecker, PA
8/6/2010    Sullivan Cove Reign Enterprises JV   Omnibus procurement for legal services    Contract                        —                —
8/6/2010    Venable LLP                          Omnibus procurement for legal services    Contract                  498,100                —
8/12/2010   Knowledge Mosaic Inc.                SEC filings subscription service          Contract                    5,000             5,000
            Department of Housing and                                                      Interagency
8/30/2010                                        Detailees                                                            29,915            29,915
            Urban Development                                                              Agreement
                                                 One-year subscription (3 users) to the CQ
                                                 Today Breaking News & Schedules, CQ
9/1/2010    CQ-Roll Call Inc.                                                              Contract                    7,500             7,500
                                                 Congressional & Financial Transcripts, CQ
                                                 Custom Email Alerts
9/17/2010   Bingham McCutchen LLP                SBA 7(a) Security Purchase Program        Contract                   19,975            11,177
                                                 Program Operations Support Services to
                                                 include project management, scanning
9/27/2010   Davis Audrey Robinette                                                         Contract                1,094,236           900,549
                                                 and document management and
                                                 correspondence
                                                 GSA Task Order for procurement
                                                 books — FAR, T&M, Government
9/30/2010   CCH Incorporated                                                               Contract                    2,430             2,430
                                                 Contracts Reference, World Class
                                                 Contracting
                                                                                           Interagency
10/1/2010   Financial Clerk U.S. Senate          Congressional Oversight Panel                                     5,200,000       2,777,752
                                                                                           Agreement
10/8/2010   Management Concepts Inc.             Training Course — CON 217                 Contract                    1,025             1,025
10/8/2010   Management Concepts Inc.             Training Course — CON 216                 Contract                    1,025             1,025
10/8/2010   Management Concepts Inc.             Training Course — CON 218                 Contract                    2,214             2,214
                                                                                                                       Continued on next page.
158          SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




      OFS SERVICE CONTRACTS              (CONTINUED)

                                                                                                      Type of             Obligated      Expended
      Date         Vendor                                Purpose                                      Transaction             Value          Value
      10/8/2010    Management Concepts Inc.              Training Course — 11107705                   Contract                $995            $995
      10/8/2010    Management Concepts Inc.              Training Course — Analytic Boot              Contract               1,500            1,500
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                    Contract               2,214            2,214
      10/8/2010    Management Concepts Inc.              Training Course — CON 217                    Contract               1,025            1,025
      10/8/2010    Management Concepts Inc.              Training Course — CON 218                    Contract               2,214            2,214
                   Hispanic Association of Colleges &
      10/14/2010                                         Detailees                                    Contract              12,975          12,975
                   Universities
                                                         IAA - GAO required by P.L. 110-343 to        Interagency
      10/26/2010   US Government Accountability Office                                                                    5,600,000      3,738,195
                                                         conduct certain activities related to TARP   Agreement
                                                         FNMA IR2 assessment — OFS task order
      11/8/2010    The MITRE Corporation                 on Treasury MITRE Contract for cost and Contract                 1,007,050        631,403
                                                         data validation services related to HAMP FA
      11/18/2010   Greenhill & Co., Inc.                 Structuring and Disposition Services         Financial Agent     7,050,000      5,200,000
                                                         Acquisition Support Services — PSD TARP
      12/2/2010    Addx Corporation                                                              Contract                  768,653         508,919
                                                         (action is an order against BPA)
      12/29/2010   Reed Elsevier Inc. (dba LexisNexis)   Accurint subscription services one user      Contract               1,026              684
                                                                                                      Interagency
      1/5/2011     Canon U.S.A. Inc.                     Administrative Support                                             12,937          12,013
                                                                                                      Agreement
      1/18/2011    Perella Weinberg Partners & Co.       Structuring and Disposition Services         Financial Agent     6,000,000      4,200,000
                                                                                                      Interagency
      1/24/2011    Treasury Franchise Fund               BPD                                                              1,092,962      1,090,860
                                                                                                      Agreement
                   Association of Government
      1/26/2011                                          CEAR Program Application                     Contract               5,000            5,000
                   Accountants
                                                         Mentor Program Training
      2/24/2011    ESI International Inc.                                                             Contract              20,758          20,758
                                                         (call against IRS BPA)
                   Department of the Treasury —                                                       Interagency
      2/28/2011                                          Administrative Support                                          17,805,529     11,963,327
                   Departmental Offices                                                               Agreement
      3/3/2011     Equilar, Inc.                         Executive Compensation Data Subscription Contract                  59,995          59,995
      3/10/2011    Mercer (US) Inc.                      Executive Compensation Data Subscription Contract                   3,600            3,600
      3/22/2011    Harrison Scott Publications, Inc.     Subscription Service                         Contract               5,894            5,894
                                                                                                      Interagency
      3/28/2011    Fox News Network LLC7                 Litigation Settlement                                             121,000         121,000
                                                                                                      Agreement
                   Federal Reserve Bank of New York
      4/20/2011                                          Oversight Services                           IAA Listing         1,300,000        542,793
                   (FRBNY) HR
      4/26/2011    PricewaterhouseCoopers LLP            Financial Services Omnibus                   Contract Listing    2,559,632              —
      4/27/2011    ASR Analytics, LLC                    Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    Ernst & Young, LLP                    Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    FI Consulting, Inc.                   Financial Services Omnibus                   Contract Listing     677,431         313,716
      4/27/2011    Lani Eko & Company CPAs LLC           Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    MorganFranklin, Corporation           Financial Services Omnibus                   Contract Listing      50,000               —
      4/27/2011    Oculus Group, Inc.                    Financial Services Omnibus                   Contract Listing    1,344,568        211,339
      4/28/2011    Booz Allen Hamilton, Inc.             Financial Services Omnibus                   Contract Listing      50,000               —
      4/28/2011    KPMG, LLP                             Financial Services Omnibus                   Contract Listing      50,000               —
                                                                                                                             Continued on next page.
                                                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                                        159



OFS SERVICE CONTRACTS                        (CONTINUED)

                                                                                                                                    Type of                              Obligated              Expended
Date                 Vendor                                               Purpose                                                   Transaction                              Value                  Value
                     Office of Personnel Management
4/28/2011            (OPM) - Western Management                           Leadership Training                                       IAA Listing                            $21,300                        $—
                     Development Center
                                                                          Acquisition Support Services - Acquisition
5/9/2011             Addx Corporation                                     planning and contract/agreement reporting Contract Listing                                         28,792                  28,486
                                                                          support (action is an order against BPA)
                                                                          Accurint subscriptions by Lexis/Nexis for
5/31/2011            Reed Elsevier Inc (dba Lexisnexis)                                                                             Contract Listing                         10,260                      855
                                                                          5 users
                                                                          Five (5) user subscriptions to CLEAR by
5/31/2011            West Publishing Corporation                                                                                    Contract Listing                           7,515                        —
                                                                          West Government Solutions
                                                                          One year subscription to the CQ Today
                                                                          Breaking
6/9/2011             CQ-Roll Call Inc.                                    News & Schedules, CQ Congressional &                      Contract Listing                           7,750                        —
                                                                          Financial
                                                                          Transcripts, CQ Custom Email Alerts
                                                                          Anti-Fraud Protection and Monitoring
6/17/2011            Winvale Group LLC                                                                                              Contract Listing                       221,743                 221,743
                                                                          Subscription Services
7/28/2011            Internal Revenue Service-Procurement Detailee                                                                  IAA Listing                              84,234                  84,234
9/9/2011             Financial Management Service                         FMS – NAFEO                                               IAA Listing                              13,385                         —
                                                                          MHA Felony Certification Background
9/12/2011            ADC LTD NM                                                                                                     Contract Listing                       447,799                   22,971
                                                                          Checks (BPA)
9/15/2011            ABMI – All Business Machines, Inc                    4 Level 4 Security Shredders and Supplies Contract Listing                                           4,392                        —
                                                                          National Business Center, Federal Consult-
9/29/2011            Department of Interior                                                                          IAA Listing                                             25,000                         —
                                                                          ing Group
                                                                          Renewing TD010-F-249 SEC filings Sub-
9/29/2011            Knowledge Mosaic Inc.                                                                                          Contract Listing                           4,200                        —
                                                                          scription Service
                     Department of the Treasury -
                                                                          Administrative Support                                    IAA Listing                            660,601                 338,397
                     Departmental Offices
                     Judicial Watch6                                      Litigation related                                        Other Listing                              1,500                   1,500
                     Judicial Watch     6
                                                                          Litigation related                                        Other Listing                              2,146                   2,146
Total                                                                                                                                                            $810,943,356 $717,570,311
Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several Inter-
agency Agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded. Table 3.2 includes all vendor contracts administered
under Federal Acquisition Regulations, inter-agency agreements and financial agency agreements entered into support of OFS since the beginning of the program. The table does not include salary, benefits,
travel, and other non-contract related expenses.

1
  EnnisKnupp Contract TOFS-10-D-0004, was novated to Hewitt EnnisKnupp (TOFS-10-D-0004).
2
  Awarded by other agencies on behalf of OFS and are not administered by PSD.
3
  Awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
4
  Thacher Profitt & Wood, Contract TOS09-014B, was novated to Sonnenschein Nath & Rosenthal (TOS09-014C).
5
  McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen.
6
  Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
7
  Fox News Network LLC is a payment in response to a litigation claim. No contract or agreement was issued to Fox News Network LLC.

Source: Treasury, response to SIGTARP data call, 10/11/2011.
160   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
S ECT I O N 4   SIGTARP RECOMMENDATIONS
162   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   163




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommendations
to the U.S. Department of the Treasury (“Treasury”) and other Federal agencies
managing the Troubled Asset Relief Program (“TARP”) to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has made
85 such recommendations in its quarterly reports to Congress and in many of its
audit reports. This section discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made since SIGTARP’s Quarterly
Report to Congress dated July 28, 2011 (the “July 2011 Quarterly Report”), and,
in the table at the end of this section, summarizes SIGTARP’s recommenda-
tions from past quarters and notes the extent of implementation. Appendix H:
“Correspondence” includes Treasury’s written responses to recommendations
referenced in this section.



RECOMMENDATIONS AIMED AT INCREASING
SERVICER PERFORMANCE AND BETTER
PROTECTING HOMEOWNERS IN TARP’S
HOUSING PROGRAMS
The TARP-funded housing support programs continue to struggle to reach
homeowners, especially the signature Home Affordable Modification Program
(“HAMP”). SIGTARP has made numerous recommendations to Treasury re-
garding improvements that could be made to HAMP and other TARP housing
support programs. These recommendations have focused on servicers’ poor treat-
ment of homeowners and serious failures by servicers to follow program rules.
The recommendations have also focused on Treasury’s obligation to force servicer
compliance with program rules. With just one year left for new mortgage modifi-
cations in HAMP, it is not too late for Treasury to make changes to the program,
and there remains much that it can do to improve.
    SIGTARP, through its hotline and anecdotally, continues to hear about
homeowner frustration with the performance of mortgage servicers involved in
TARP housing programs, particularly in HAMP. To address many of the concerns
raised, this quarter, SIGTARP made four new recommendations to improve
servicer performance, which should in turn lead to helping more families stay in
their homes. Treasury has determined not to take any action based on SIGTARP’s
recommendations, claiming that the existing program already addresses the
concerns.
    Treasury must take strong action to help as many additional struggling home-
owners as it can before HAMP ends. Treasury recently published an estimate
that there are 992,968 homeowners eligible for HAMP. The number of new
permanent mortgage modifications each month has hovered between 25,000 and
30,000. While this represents real help for these homeowners, many additional
homeowners could receive that same help. If the current rate continues, 520,000
164   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             to 600,000 homeowners who are eligible for HAMP will not get a permanent
                                             modification before HAMP expires. Rather than refuse to act on SIGTARP rec-
                                             ommendations, Treasury should force servicers to change the status quo and help
                                             as many of the remaining eligible homeowners as possible stay in their homes.
                                                 SIGTARP’s recommendations, along with Treasury’s response, are
                                             discussed below.

                                             Treasury should require that MHA servicer communications with homeown-
                                             ers relating to changes in the status or terms of a homeowner's modification
                                             application, trial or permanent modification, HAFA agreement, or any other
                                             significant change affecting the homeowner's participation in the MHA pro-
                                             gram, be in writing.
                                                 The first of SIGTARP’s housing recommendations came about in response
                                             to continuing SIGTARP Hotline and anecdotal evidence that homeowners who
                                             apply for Treasury’s housing support programs or are already enrolled in those
                                             programs often complain of inadequate, misleading, or confusing communica-
                                             tion with their loan servicer. Treasury recently made changes to TARP’s Home
                                             Affordable Foreclosure Alternatives (“HAFA”) for short sales and required that
                                             servicers notify homeowners of certain determinations of value of their home
                                             “either in writing or verbally.” Homeowner outreach and communication could
                                             be significantly improved by requiring that all important program milestones
                                             and changes in borrower status are clearly communicated and well documented.
                                             Email would be sufficient. Written changes help reduce the likelihood that
                                             homeowners will be misinformed or confused. The homeowner could refer back
                                             to the communication as needed and also respond to the email or other writ-
                                             ten notice with any follow-up questions. In addition, oral notification is open to
                                             abuse, with compliance difficult to assess.
                                                 Treasury declined to take any action on this recommendation on the grounds
                                             that it already requires the servicer to communicate in writing with a borrower
                                             an average of ten times, and that soon a single point of contact will communi-
                                             cate with the borrower “by phone, in writing, or through email, until a final loss
                                             mitigation decision has been made.” It is not clear that Treasury requires every
                                             significant step or change to borrower status in every housing support program
                                             to be documented in writing. Most of the written requirements apply to a HAMP
                                             application. Treasury’s response fails to address the concerns of participating
                                             homeowners who are receiving miscommunication from servicers on important
                                             milestones or changes. Given SIGTARP’s continued receipt of Hotline com-
                                             plaints, ten times is not sufficient.

                                             Treasury should establish benchmarks and goals for acceptable program
                                             performance for all MHA servicers, including the length of time it takes
                                             for trial modifications to be converted into permanent modifications, the
                                             conversion rate for trial modifications into permanent modifications, the
                                             length of time it takes to resolve escalated homeowner complaints, and the
                                             percentage of required modification status reports that are missing.
                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   165




    There have been a number of other serious complaints made by homeowners,
including that trial modifications last much longer than the originally intended
three-month period, that many trial modifications fail to ever convert to perma-
nent modifications, and that homeowners have trouble getting timely responses
when they escalate their complaints. These complaints are borne out by hard
facts with 22% of trial modifications lasting more than six months. Also, as
SIGTARP raised in its last quarterly report, Treasury found that three of the larg-
est servicers had inadequate scores for a category deemed “second look,” mean-
ing that homeowners were wrongly denied a conversion from trial to permanent
modification. However, Treasury did not withhold any incentives from these three
servicers for this problem. After SIGTARP raised problems with the second-look
scores, those scores have improved, proving that transparency can lead to servicer
improvements.
    Treasury should set benchmarks on what it deems to be acceptable perfor-
mance for the length of time it takes for trial modifications to be converted into
permanent modifications, the conversion rate for trial modifications into perma-
nent modifications, the length of time it takes to resolve escalated homeowner
complaints, and the percentage of required modification status reports that are
missing.
    Clear and transparent benchmarks would make it clear to servicers where
they need to improve and allow homeowners and the public to judge a servicer’s
performance. Without acceptable benchmarks, servicers may have no reason to
change the status quo, and ultimately homeowners may be harmed. For instance,
when trial modifications drag on without a decision about whether they will be
converted to permanent modifications, homeowners suffer. Even though pro-
gram guidelines require servicers to cancel or convert trial modifications after
three or four monthly payments, 22% of trial modifications still last six months or
longer, according to Treasury’s data, with some servicers having higher percent-
ages. This delay results in harm to many homeowners who are in limbo. Without
benchmarks set by Treasury, it is difficult to judge whether this is acceptable
performance. Meaningful benchmarks for program performance are essential
to provide transparent standards of acceptable performance, greatly improve
accountability, allow for more effective oversight, and encourage servicers to
improve their performance.
    Treasury responded that it already established benchmarks in this area includ-
ing that trial periods should last three to four months, and escalated cases should
be resolved in 30 days. If these are benchmarks for acceptable performance,
many servicers have missed the mark. Treasury should measure all servicers
against those benchmarks, because without acceptable benchmarks, servicers will
continue their bad practices and ultimately homeowners may suffer. Moreover,
Treasury has never established a benchmark for conversion rates from trial modi-
fications to permanent modifications.

Treasury should publicly assess the top 10 MHA servicers’ program per-
formance against acceptable performance benchmarks in the areas of: the
166   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             length of time it takes for trial modifications to be converted into permanent
                                             modifications, the conversion rate for trial modifications into permanent
                                             modifications, the length of time it takes to resolve escalated homeowner
                                             complaints, and the percentage of required modification status reports that
                                             are missing.
                                                 In conjunction with SIGTARP’s recommendation that Treasury establish
                                             benchmarks and goals for acceptable program performance for all servicers,
                                             Treasury should include in its quarterly assessment of the top 10 servicers ratings
                                             of the individual servicers’ performance against these benchmarks. In its last
                                             quarterly Servicer Assessment, Treasury published each of the top 10 servicers’
                                             statistics on the four program performance categories, but compared them only
                                             to each other, noting the “best” and the “worst” servicers in each category. That
                                             presentation provides an incomplete picture. In the absence of ratings of that
                                             performance, it is difficult, if not impossible, to determine whether servicers are
                                             performing satisfactorily and the extent to which any improvements might be
                                             necessary. Treasury is already evaluating the top 10 servicers’ compliance with
                                             MHA guidelines in its quarterly Servicer Assessment. Therefore, not evaluat-
                                             ing the servicer’s program performance is puzzling and makes the current MHA
                                             Servicer Assessment of limited usefulness and less than user-friendly. Treasury
                                             should treat all metrics in both the compliance results and program performance
                                             sections the same way. This should not be difficult because each of the four pro-
                                             gram performance categories is quantitative.
                                                 Treasury did not accept SIGTARP’s recommendation or even directly address
                                             why it will not implement the recommendation, only stating it would “continue
                                             to develop and improve the process where appropriate.” It is absolutely appropri-
                                             ate for a top ten servicer receiving millions of dollars in TARP funding with poor
                                             program performance in these areas to have its rating made public.

                                             Treasury must ensure that all servicers participating in MHA comply with
                                             program requirements by vigorously enforcing the terms of the servicer par-
                                             ticipation agreements, including using all financial remedies such as with-
                                             holding, permanently reducing, and clawing back incentives for servicers
                                             who fail to perform at an acceptable level. Treasury should be transparent
                                             and make public all remedial actions taken against any servicer.
                                                 When any servicer (not just the top 10) fails to perform at acceptable levels,
                                             SIGTARP recommended that Treasury vigorously enforce its rights including
                                             using all available financial remedies to force servicer compliance with program
                                             rules through withholding, permanently reducing, or clawing back incentive pay-
                                             ments. The actions Treasury takes in response to unacceptable performance of
                                             all servicers may determine whether servicers improve and whether there will be
                                             an increase in the number of homeowners who ultimately will receive affordable
                                             and sustainable foreclosure prevention assistance under TARP. Treasury decided
                                             not to take any further action to implement SIGTARP’s recommendations, stat-
                                             ing that it considered the recommendation closed. Treasury stated that it has
                                             “succeeded in improving servicer performance” with non-financial remedies and
                                                                            QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   167




withholding payments (temporarily) from two servicers. Treasury stated that it
will exercise financial remedies “when necessary.” Given the wealth of homeown-
er complaints, if there are benchmarks in this area, Treasury is not adequately
enforcing them against the 112 active servicers and additional financial remedies
are necessary. For example, if Treasury’s benchmark for acceptable lengths of trial
modifications is three to four months, SIGTARP is not aware of any repercussion
of servicers who exceed that time.
    Treasury must double its efforts to ensure that servicers comply with program
requirements and aggressively pursue enrollment and conversion goals. So far,
Treasury has only temporarily withheld incentives from three servicers, Bank of
America, J.P. Morgan Chase, and Wells Fargo. Treasury released $21 million
in incentives to Wells Fargo after one quarter when it improved in its ratings.
In these cases, the only actual loss to the servicer after the funds are released
is the interest that was forgone during the time the funds were being withheld.
It remains to be seen if temporarily withholding incentives will be effective at
motivating servicers to substantially improve their compliance and program
performance. As profit-making businesses, loan servicers can be expected to take
actions with urgency commensurate with the cost of the remedies imposed upon
them. If Treasury does not take action to change the status quo of its compliance
program, servicers will not take action to change their status quo. Compliance
with program guidelines is not, and must not be, voluntary.


RECOMMENDATIONS REGARDING
COMMUNITY BANKS
Smaller and medium size banks are not exiting TARP with the same speed as the
larger banks, with approximately 400 still in TARP. Of these, many are not paying
their TARP dividend and in some cases, the banks are operating under an order by
their regulator. Compared to larger banks, community banks may face an uphill
battle to exit TARP. Community banks do not have the same access to capital as
the larger banks. They are more exposed to distressed commercial real estate re-
lated assets and non-performing loans.
    Despite the dramatic efforts to expedite the largest banks exit from TARP, there
appears to be no corresponding concrete plan for community banks’ exit from
TARP. The only exit strategy for smaller TARP banks that has been announced
is the Small Business Lending Fund (“SBLF”). Through this program, Treasury
invested $4 billion in smaller banks. However, more than half of those dollars
(approximately $2.2 billion) went to swapping 137 TARP banks out of TARP and
into this non-TARP Government program. This program ties increased lending to
a dividend rate that is less than the TARP 5% dividend rate, but removes executive
compensation restrictions and any perceived TARP stigma, the two complaints
SIGTARP heard from some of the largest banks. Banks who were not paying their
TARP dividend were not eligible to apply for SBLF. However, 320 of the more than
168   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             500 banks left in TARP applied to swap into SBLF. For these banks, SBLF may
                                             have been their TARP exit plan.
                                                SIGTARP’s recommendations are discussed below.

                                             Treasury, in consultation with Federal banking regulators, should develop a
                                             clear TARP exit path to ensure that as many community banks as possible
                                             repay the TARP investment and prepare to deal with the banks that cannot.
                                             Treasury should develop criteria pertaining to restructurings, exchanges, and
                                             sales of its TARP investments (including any discount of the TARP investment,
                                             the treatment of unpaid TARP dividend and interest payments, and warrants).
                                                 Community banks need a clear exit path out of TARP that is put into action
                                             well before a scheduled rise in the TARP dividend (beginning in the fall of 2013 for
                                             many banks). The best exit path for community banks should involve access to new
                                             capital to replace the TARP capital. After five years, the 5% TARP dividend rate will
                                             rise to a very expensive 9%. SIGTARP is concerned that when the dividend rate
                                             increases, many of these banks will remain in TARP but still be unable to access
                                             new capital. If that is the case, many will have no means either to exit TARP or to
                                             pay their required dividend payments.
                                                 Owing to the rising number of small and medium-size banks that continue
                                             to experience high losses and financial difficulties, and in order to prevent a total
                                             TARP loss, Treasury has agreed on a case-by-case basis to an increasing number of
                                             restructurings, exchanges, and sales of the TARP investments, sometimes at a steep
                                             discount. Because Treasury has shown a willingness to enter into these transac-
                                             tions, community banks may be relying on the fact that Treasury will enter into
                                             a similar transaction with them prior to the dividend rise. This impression could
                                             create moral hazard concerns by taking away incentives for banks to find capital on
                                             their own – a necessary step to exit TARP.
                                                 Treasury evaluates a bank’s proposal to restructure or exchange the TARP
                                             investment based upon its “unique facts and circumstances.” Treasury takes into
                                             account five principles; (1) the pro forma capital position of the institution; (2)
                                             Treasury’s position in the capital structure; (3) the overall economic impact of the
                                             transaction to the Federal government; (4) guidance of the primary supervisor;
                                             and (5) consistent pricing with comparable marketplace transactions. Treasury
                                             believes that this case-by-case approach is “better suited to fulfilling its statutory
                                             responsibilities.”
                                                 Rather than approach it on a case-by-case basis when it is often too late to re-
                                             coup the entire TARP investment, SIGTARP recommended that Treasury develop
                                             criteria pertaining to restructurings, exchanges, and sales of its TARP investments.
                                             At a minimum, the criteria should include the factors that apply to when Treasury
                                             would consider taking a discount on the TARP investment. Treasury should also
                                             determine the criteria for calculating the amount of any discount that Treasury
                                             would be willing to accept. The criteria should also include the treatment of unpaid
                                             TARP dividends and interest payments, and warrants. Without criteria, Treasury
                                             risks the process being ad hoc and inconsistent.
                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   169




Treasury should assess whether it should renegotiate the terms of its Capital
Purchase Program contracts for those community banks that will not be able
to exit TARP prior to the dividend rate increase in order to help preserve the
value of taxpayers’ investments.
    Treasury should commit to prudent stewardship of its TARP investments and
take immediate action to ensure that as many banks as possible repay taxpayers
and to prepare to deal with the banks that cannot. SIGTARP recommended that
Treasury assess whether it should renegotiate the terms of its CPP contracts for
those community banks that will not be able to exit TARP prior to the dividend rate
increase. All banks regardless of their size, received CPP funds on the same terms,
but the one-size-fits-all repayment terms may not fit all. If many of these banks are
not paying the 5% dividends, an increase to 9% may not have the intended effect
of incentivizing them to exit TARP if they have no ability to raise capital. It may
have the opposite effect as many of these banks will scramble to raise capital in
the markets at the exact same timeframe, at potentially less than favorable terms,
which could flood the markets and have a destabilizing effect on communities. The
banks may put enormous pressure on Treasury to agree to restructure or sell (at a
steep discount) its investments in hundreds of banks during the same time period
because Treasury may have no other choice other than face a complete loss. This
could put the taxpayers’ investment in these banks in jeopardy.


RECOMMENDATIONS REGARDING TREASURY’S
PROCESS FOR CONTRACTING FOR
PROFESSIONAL SERVICES UNDER TARP
In its audit report “Legal Fees Paid Under the Troubled Asset Relief Program: An
Expanded Report,” released on September 28, 2011, SIGTARP audited Treasury’s
process for contracting for and payment to five law firms who were paid more than
$27 million. As SIGTARP conducted its audit, it found weaknesses in the contract
and bills for the law firm Venable, LLP. In light of the magnitude of legal fees that
continue to be paid to law firms, SIGTARP decided to issue a report (released on
April 14, 2011) designed to provide the Office of Financial Stability (“OFS”) an op-
portunity to quickly strengthen its polices, controls, and contracts to better protect
taxpayers. SIGTARP’s expanded audit report covered four additional law firms,
Simpson Thacher & Bartlett LLP, Cadwalader Wickersham & Taft LLP, Locke
Lord Bissell & Liddell LLP, and Bingham McCutchen LLP, that together were paid
more than $25.5 million by OFS.
     SIGTARP found weaknesses in OFS’s contracts with the four law firms and
then-existing billing review procedures that caused it to fall short in comparison
to the best practices identified by SIGTARP and used by other Federal entities.
SIGTARP audited a $9.1 million sample of legal fee bills from the four firms and
found bills that contained either no descriptions or vague descriptions of work
performed, block billing, unsupported expense charges, and administrative charges
170   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                             that were not allowed under the contract. As a result, OFS would not have been
                                             able to adequately assess the reasonableness of the fees it paid. In total, SIGTARP
                                             questioned $8.1 million, or 89%, of the $9.1 million audit sample. Although
                                             SIGTARP questioned fee bills from all of the law firms, this does not mean that all
                                             the fees and expenses questioned are unreasonable.
                                                  The report included the following five new recommendations to Treasury.
                                             Implementing them will increase taxpayer protections and ensure that taxpayers are
                                             getting their money’s worth from these law firms.

                                             First, Treasury should specifically determine the allowability of $7,980,215 in
                                             questioned, unsupported legal fees and expenses paid to the following
                                             law firms:
                                                 • Simpson Thacher & Bartlett LLP	                                    $5,791,724
                                                 • Cadwalader Wickersham & Taft LLP	                                  $1,983,685
                                                 • Locke Lord Bissell & Liddell LLP	                                     $146,867
                                                 • Bingham McCutchen LLP
                                                   (novated from McKee Nelson LLP)	                                       $57,939
                                                 In response, Treasury neither agreed nor disagreed with the recommendations
                                             but stated that it is committed to working with SIGTARP. Treasury also stated that
                                             it was well positioned to judge the quality and value of assistance provided by the
                                             firms and to ensure that taxpayer funds were used wisely.
                                                 SIGTARP disagrees with Treasury’s position on the value it received. Federal
                                             regulations require that fees be allocable to the contract, reasonable, and allow-
                                             able in order to be paid. Treasury is responsible for questioning fees to make this
                                             determination. The bills that SIGTARP reviewed were substandard by industry
                                             standards and so there was no way for Treasury to know whether they were rea-
                                             sonable. The fees questioned by SIGTARP may not all be unreasonable, but it is
                                             the responsibility of Treasury to question them and get more details to make that
                                             determination. Because OFS did not question these legal fees and request more
                                             detailed information, it could not have determined that amounts billed and paid
                                             were reasonable which presented an unacceptable risk that taxpayers are overpay-
                                             ing for legal services.
                                                 As an example of the substandard bills found by SIGTARP in its examina-
                                             tion, on one day, Treasury received two bills from Simpson Thacher – one was for
                                             $200,000 and one was for $300,000. There is only one entry on each bill, and all
                                             that is listed is the contract language on the scope of the work. There are no dates
                                             or date ranges, no timekeepers listed, no individual entries, no listing of how many
                                             hours were involved, and no description of work performed. These are not fixed
                                             rate contracts, but rather hourly contracts. Given these bills, there was no way for
                                             Treasury to know whether the work was reasonable.

                                             Second, the Treasury contracting officer should disallow and seek recovery
                                             from Simpson Thacher & Bartlett LLP for $96,482 in questioned, ineli-
                                             gible fees and expenses paid that were not allowed under the OFS contract.
                                             Specifically, those are $68,936 for labor hours billed at rates in excess of
                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011   171




the allowable maximums set in contract TOFS-09-0001, task order 1, and
$22,546 in other direct costs not allowed under contract TOFS-09-007, task
order 1.
   In response, Treasury neither agreed nor disagreed with the recommendation.

Third, Treasury should promptly review all previously paid legal fee bills from
all law firms with which it has a closed or open contract to identify unreason-
able or unallowable charges and seek reimbursement for those charges, as
appropriate.
    In response, Treasury neither agreed nor disagreed with the recommendation.

Fourth, Treasury should require in any future solicitation for legal services
multiple rate categories within the various partner, counsel, and associate
labor categories. The additional labor rate categories should be based on the
number of years the attorneys have practiced law.
   In response, Treasury neither agreed nor disagreed with the recommendation.

Fifth, Treasury should pre-approve specified labor categories and rates of all
contracted legal staff before they are allowed to work on and charge time to
OFS projects.
    In response, Treasury neither agreed nor disagreed with the recommendation.
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)                                                                                                                          172
                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
1    *    Treasury should include language in the automobile industry
          transaction term sheet acknowledging SIGTARP’s oversight
                                                                                 X
          role and expressly giving SIGTARP access to relevant docu-
          ments and personnel.
2    *    Treasury should include language in new TARP agreements                                                                            Although Treasury has made substantial
          to facilitate compliance and oversight. Specifically, SIGTARP                                                                      efforts to comply with this recommenda-
          recommends that each program participant should (1)                                                                                tion in many of its agreements, there
          acknowledge explicitly the jurisdiction and authority of                                                                           have been exceptions, including in its
          SIGTARP and other oversight bodies, as relevant, to oversee                                                                        agreements with servicers in MHA.
          compliance of the conditions contained in the agreement in
          question, (2) establish internal controls with respect to that                          X
          condition, (3) report periodically to the Compliance depart-
          ment of the Office of Financial Stability (“OFS-Compliance”)
          regarding the implementation of those controls and its com-
          pliance with the condition, and (4) provide a signed certifica-
          tion from an appropriate senior official to OFS-Compliance
          that such report is accurate.
3    *    All existing TARP agreements, as well as those governing
          new transactions, should be posted on the Treasury website             X
          as soon as possible.
                                                                                                                                                                                       SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




4    *    Treasury should require all TARP recipients to report on the
                                                                                 X
          actual use of TARP funds.
5    *    Treasury quickly determines its going-forward valuation
                                                                                 X
          methodology.
6    *    Treasury begins to develop an overall investment strategy to
          address its portfolio of stocks and decide whether it intends          X
          to exercise warrants of common stock.
7    *    In formulating the structure of TALF, Treasury should                                                                              The Federal Reserve adopted mecha-
          consider requiring, before committing TARP funds to the                                                                            nisms that address this recommendation.
          program, that certain minimum underwriting standards and/
                                                                                 X
          or other fraud prevention mechanisms be put in place with
          respect to the ABS and/or the assets underlying the ABS
          used for collateral.
8    *    Agreements with TALF participants should include an
          acknowledgment that: (1) they are subject to the oversight
          of OFS-Compliance and SIGTARP, (2) with respect to any
          condition imposed as part of TALF, that the party on which
                                                                                                                           X
          the condition is imposed is required to establish internal
          controls with respect to each condition, report periodically
          on such compliance, and provide a certification with respect
          to such compliance.
9    *    Treasury should give careful consideration before agreeing                                                                         This recommendation was implemented
          to the expansion of TALF to include MBS without a full review                                                                      with respect to CMBS, and the Federal
                                                                                 X
          of risks that may be involved and without considering certain                                                                      Reserve did not expand TALF to RMBS.
          minimum fraud protections.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                         Continued on next page.
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
10   *    Treasury should oppose any expansion of TALF to legacy                                                                             This recommendation was implemented
          MBS without significant modifications to the program to                                                                            with respect to CMBS, and the Federal
                                                                                X
          ensure a full assessment of risks associated with such an                                                                          Reserve did not expand TALF to RMBS.
          expansion.
11        Treasury should formalize its valuation strategy and begin                                                                         Treasury has formalized its valuation
          providing values of the TARP investments to the public.               X                                                            strategy and regularly publishes its
                                                                                                                                             estimates.
12   *    Treasury and the Federal Reserve should provide to SIG-                                                                            On December 1, 2010, the Federal
          TARP, for public disclosure, the identity of the borrowers                                                                         Reserve publicly disclosed the identities
          who surrender collateral in TALF.                                                                                                  of all TALF borrowers and that there had
                                                                                                                                      X
                                                                                                                                             been no surrender of collateral. SIGTARP
                                                                                                                                             will continue to monitor disclosures if a
                                                                                                                                             collateral surrender takes place.
13   *    In TALF, Treasury should dispense with rating agency                                                                               The Federal Reserve announced that
          determinations and require a security-by-security screening                                                                        RMBS were ineligible for TALF loans,
          for each legacy RMBS. Treasury should refuse to participate                                                                        rendering this recommendation moot.
          if the program is not designed so that RMBS, whether new
          or legacy, will be rejected as collateral if the loans backing                                                              X
          particular RMBS do not meet certain baseline underwriting
          criteria or are in categories that have been proven to be
          riddled with fraud, including certain undocumented subprime
          residential mortgages.
14   *    In TALF, Treasury should require significantly higher haircuts                                                                     This recommendation was implemented
          for all MBS, with particularly high haircuts for legacy RMBS,         X                                                            with respect to CMBS, and the Federal
          or other equally effective mitigation efforts.                                                                                     Reserve did not expand TALF to RMBS.
15   *    Treasury should require additional anti-fraud and credit                                                                           The Federal Reserve adopted mecha-
          protection provisions, specific to all MBS, before participat-                                                                     nisms that address this recommenda-
                                                                                X
          ing in an expanded TALF, including minimum underwriting                                                                            tion with respect to CMBS, and did not
          standards and other fraud prevention measures.                                                                                     expand TALF to RMBS.
16   *    Treasury should design a robust compliance protocol with
          complete access rights to all TALF transaction participants                                                      X
          for itself, SIGTARP, and other relevant oversight bodies.
17   *    Treasury should not allow Legacy Securities PPIFs to invest
          in TALF unless significant mitigating measures are included           X
          to address these dangers.
18   *    All TALF modeling and decisions, whether on haircuts or any
          other credit or fraud loss mechanisms, should account for
          potential losses to Government interests broadly, including           X
          TARP funds, and not just potential losses to the Federal
          Reserve.
19   *    Treasury should address the confusion and uncertainty on
          executive compensation by immediately issuing the required            X
                                                                                                                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011




          regulations.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                         173
                                                                                                                                                                                            174
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
20   *    Treasury should significantly increase the staffing levels of                                                                      According to Treasury, OFS-Compliance
          OFS-Compliance and ensure the timely development and                                                                               has increased its staffing level and has
          implementation of an integrated risk management and                                     X                                          contracted with four private firms to
          compliance program.                                                                                                                provide additional assistance to OFS-
                                                                                                                                             Compliance.
21   *    Treasury should require CAP participants to (1) establish an                                                                       Treasury closed the program with no
          internal control to monitor their actual use of TARP funds, (2)                                                                    investments having been made, rendering
          provide periodic reporting on their actual use of TARP funds,                                                                      this recommendation moot.
          (3) certify to OFS-Compliance, under the penalty of criminal
          sanction, that the report is accurate, that the same criteria
                                                                                                                                      X
          of internal controls and regular certified reports should be
          applied to all conditions imposed on CAP participants, and
          (4) acknowledge explicitly the jurisdiction and authority of
          SIGTARP and other oversight bodies, as appropriate, to
          oversee conditions contained in the agreement.
22   *    Treasury should impose strict conflict-of-interest rules upon                                                                      Treasury has adopted some significant
          PPIF managers across all programs that specifically address                                                                        conflict-of-interest rules related to this
          whether and to what extent the managers can (1) invest PPIF                                                                        recommendation, but has failed to im-
          funds in legacy assets that they hold or manage on behalf                               X                                          pose other significant safeguards.
          of themselves or their clients or (2) conduct PPIF transac-
          tions with entities in which they have invested on behalf of
                                                                                                                                                                                            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          themselves or others.
23   *    Treasury should require that all PPIF fund managers (1) have                                                                       Treasury’s agreements with PPIF manag-
          stringent investor-screening procedures, including compre-                                                                         ers include investor-screening procedures
          hensive “Know Your Customer” requirements at least as                                                                              such as “Know Your Customer” require-
          rigorous as that of a commercial bank or retail brokerage                                                                          ments. Treasury has agreed that it will
          operation to prevent money laundering and the participation                                                                        have access to any information in a fund
                                                                                                  X
          of actors prone to abusing the system, and (2) be required                                                                         manager’s possession relating to benefi-
          to provide Treasury with the identities of all the beneficial                                                                      cial owners. However, Treasury did not
          owners of the private interests in the fund so that Treasury                                                                       impose an affirmative requirement that
          can do appropriate diligence to ensure that investors in the                                                                       managers obtain and maintain beneficial
          funds are legitimate.                                                                                                              owner information.
24   *    Treasury should require most-favored-nation clauses,
          PPIF managers to acknowledge that they owe Treasury a
                                                                                 X
          fiduciary duty, and that each manager adopt a robust ethics
          policy and compliance apparatus.
25        Treasury should require servicers in MHA to submit third-                                                                          Treasury has decided to adopt this
          party verified evidence that the applicant is residing in the                                                                      important SIGTARP recommendation and
          subject property before funding a mortgage modification.                                                                           stated that its program administrator
                                                                                                                                             Fannie Mae conducted a pilot program
                                                                                                                                             to verify owner occupancy. However, as
                                                                                                                                             discussed in Section 2 of this report, the
                                                                                                             X                               residency requirement for HAFA transac-
                                                                                                                                             tions has been significantly loosened so
                                                                                                                                             that the borrower only needs to demon-
                                                                                                                                             strate that he lives in the residence in the
                                                                                                                                             preceding 12 months and Treasury will
                                                                                                                                             not require third party verification of this
                                                                                                                                             requirement.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
26   *    In MHA, Treasury should require a closing-like procedure be                                                                        Treasury rejected SIGTARP’s recom-
          conducted that would include (1) a closing warning sheet                                                                           mendation for a closing-like procedure.
          that would warn the applicant of the consequences of fraud;                                                                        However, since this recommendation
          (2) the notarized signature and thumbprint of each partici-                                                                        was issued, Treasury has taken several
          pant; (3) mandatory collection, copying, and retention of                                                                          actions to prevent fraud on the part of
          copies of identification documents of all participants in the                                                                      either MHA servicers or applicants. For
          transaction; (4) verbal and written warnings regarding hidden                           X                                          example, it directed its program adminis-
          fees and payments so that applicants are made fully aware                                                                          trator, Fannie Mae, to develop a process
          of them; (5) the benefits to which they are entitled under the                                                                     to verify an applicant’s residence prior to
          program (to prevent a corrupt servicer from collecting pay-                                                                        funding. Other actions taken by Treasury
          ments from the Government and not passing the full amount                                                                          in an effort to streamline the HAMP ap-
          of the subsidies to the homeowners); and (6) the fact that no                                                                      plication process, though, have reduced
          fee should be charged for the modification.                                                                                        safeguards against fraud.
27        Additional anti-fraud protections should be adopted in MHA                                                                         Treasury stated that its compliance
          to verify the identity of the participants in the transaction                                                                      agent Freddie Mac has developed and
          and to address the potential for servicers to steal from                                                                           implemented procedures to verify that in-
          individuals receiving Government subsidies without applying                                                                        centives paid to servicers are accurately
          them for the benefit of the homeowner.                                                                                             applied to the respective homeowner
                                                                                                             X                               participating in MHA during its servicer
                                                                                                                                             compliance reviews. Treasury also stated
                                                                                                                                             that it has undertaken a pilot program
                                                                                                                                             to verify owner-occupancy and identity.
                                                                                                                                             SIGTARP continues to monitor implemen-
                                                                                                                                             tation of this recommendation.
28   *    In MHA, Treasury should require the servicer to compare                                                                            Treasury has rejected SIGTARP’s recom-
          the income reported on a mortgage modification application                                                                         mendation and does not require income
          with the income reported on the original loan applications.                                                      X                 reported on the modification application
                                                                                                                                             to be compared to income reported on
                                                                                                                                             the original loan application.
29   *    In MHA, Treasury should require that verifiable, third-party
          information be obtained to confirm an applicant’s income              X
          before any modification payments are made.
30   *    In MHA, Treasury should defer payment of the $1,000 incen-                                                                         Rather than deferring payment of the
          tive to the servicer until after the homeowner has verifiably                                                                      incentive until after the homeowner has
          made a minimum number of payments under the mortgage                                                                               verifiably made a minimum number of
          modification program.                                                                                                              payments on its permanent modification,
                                                                                                                           X
                                                                                                                                             Treasury will pay the incentive after the
                                                                                                                                             servicer represents that the homeowner
                                                                                                                                             has made three payments during the trial
                                                                                                                                             period.
31   *    In MHA, Treasury should proactively educate homeowners
          about the nature of the program, warn them about modifica-
                                                                                X
          tion rescue fraudsters, and publicize that no fee is neces-
          sary to participate in the program.
                                                                                                                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                           175
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)                                                                                                                              176
                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
32   *    In MHA, Treasury should require its agents to keep track of                                                                        While Treasury’s program administra-
          the names and identifying information for each participant in                                                                      tor, Fannie Mae, has developed a HAMP
          each mortgage modification transaction and to maintain a                                                                           system of record that maintains the
          database of such information.                                                                                                      servicers’ and investors’ names and
                                                                                                                                             participating borrowers’ personally
                                                                                                  X
                                                                                                                                             identifiable information, such as names
                                                                                                                                             and addresses, the database is not
                                                                                                                                             constructed to maintain other information
                                                                                                                                             that may assist in detecting insiders who
                                                                                                                                             are committing large-scale fraud.
33   *    Treasury should require the imposition of strict information                                                                       Treasury has refused to adopt this signifi-
          barriers or “walls” between the PPIF managers making                                                                               cant anti-fraud measure designed to pre-
          investment decisions on behalf of the PPIF and those                                                             X                 vent conflicts of interest. This represents
          employees of the fund management company who manage                                                                                a material deficiency in the program.
          non-PPIF funds.
34   *    Treasury should periodically disclose PPIF trading activity                                                                        Treasury has committed to publish on a
          and require PPIF managers to disclose to SIGTARP, within                                                                           quarterly basis certain high-level informa-
          seven days of the close of the quarter, all trading activity,                                                                      tion about aggregated purchases by the
          holdings, and valuations so that SIGTARP may disclose                                                                              PPIFs, but not within seven days of the
          such information, subject to reasonable protections, in its                                                      X                 close of the quarter. Treasury has not
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          quarterly reports.                                                                                                                 committed to providing full transparency
                                                                                                                                             to show where public dollars are invested
                                                                                                                                             by requiring periodic disclosure of every
                                                                                                                                             trade in the PPIFs.
35        Treasury should define appropriate metrics and an evalua-                                                                          Even though there has been two years
          tion system should be put in place to monitor the effective-                                                                       of trading by the PPIFs, Treasury still
          ness of the PPIF managers, both to ensure they are fulfilling                                                                      has not specified a benchmark by which
          the terms of their agreements and to measure performance.                                                                          performance of a PPIF can be measured.
                                                                                                                                             Treasury’s fund manager, Ennis Knupp,
                                                                                                                           X                 Inc., did not retain a consultant to assist
                                                                                                                                             in developing appropriate risk and per-
                                                                                                                                             formance metrics for the PPIP program
                                                                                                                                             and for the individual PPIFs until August
                                                                                                                                             2011. SIGTARP will continue to monitor
                                                                                                                                             Treasury’s progress in this area.
36   *    The conditions that give Treasury “cause” to remove a                                                                              Treasury has refused to adopt this recom-
          PPIF manager should be expanded to include a manager’s                                                                             mendation, relying solely on Treasury’s
          performance below a certain standard benchmark, or if                                                                              right to end the investment period after
          Treasury concludes that the manager has materially violated                                                      X                 12 months. That timeframe has already
          compliance or ethical rules.                                                                                                       expired. Treasury’s failure to adopt this
                                                                                                                                             recommendation potentially puts signifi-
                                                                                                                                             cant Government funds at risk.
37   *    Treasury should require PPIF managers to disclose to Trea-
          sury, as part of the Watch List process, not only information
                                                                                X
          about holdings in eligible assets but also holdings in related
          assets or exposures to related liabilities.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
38        Treasury should require PPIF managers to obtain and                                                                                Treasury has agreed that it can have
          maintain information about the beneficial ownership of all of                                                                      access to any information in a fund man-
          the private equity interests, and Treasury should have the                                                                         ager’s possession relating to beneficial
          unilateral ability to prohibit participation of private equity                                                                     owners. However, Treasury is not making
          investors.                                                                                                                         an affirmative requirement that manag-
                                                                                                                           X                 ers obtain and maintain beneficial owner
                                                                                                                                             information. Treasury will not adopt the
                                                                                                                                             recommendation to give itself unilateral
                                                                                                                                             ability to deny access to or remove an
                                                                                                                                             investor, stating that such a right would
                                                                                                                                             deter participation.
39   *    Treasury and FRBNY should (1) examine Moody’s assertions                                                                           Treasury and the Federal Reserve have
          that some credit rating agencies are using lower standards                                                                         discussed concerns about potential over-
          to give a potential TALF security the necessary AAA rating                                                                         rating or rating shopping with the rating
                                                                                 X
          and (2) develop mechanisms to ensure that acceptance of                                                                            agencies, and have agreed to continue to
          collateral in TALF is not unduly influenced by the improper                                                                        develop and enhance risk management
          incentives to overrate that exist among the credit agencies.                                                                       tools and processes, where appropriate.
40   *    Treasury should more explicitly document the vote of each
          Investment Committee member for all decisions related to               X
          the investment of TARP funds.
41   *    Treasury should improve existing control systems to docu-
          ment the occurrence and nature of external phone calls and
          in-person meetings about actual and potential recipients of            X
          funding under the CPP and other similar TARP-assistance
          programs to which they may be part of the decision making.
42   *    The Secretary of the Treasury should direct the Special
          Master to work with FRBNY officials in understanding AIG
          compensation programs and retention challenges before
                                                                                 X
          developing future compensation decisions that may affect
          both institutions’ ability to get repaid by AIG for Federal as-
          sistance provided.
43   *    Treasury should establish policies to guide any similar                                                                            Treasury stated that it does not anticipate
          future decisions to take a substantial ownership position in                                                                       taking a substantial percentage owner-
          financial institutions that would require an advance review                                                                 X      ship position in any other financial institu-
          so that Treasury can be reasonably aware of the obligations                                                                        tion pursuant to EESA.
          and challenges facing such institutions.
44   *    Treasury should establish policies to guide decision making                                                                        Treasury has agreed to work closely with
          in determining whether it is appropriate to defer to another                                                                       other Federal agencies that are involved
                                                                                                  X
          agency when making TARP programming decisions where                                                                                in TARP.
          more than one Federal agency is involved.
45        Treasury should rectify the confusion that its own state-                                                                          Despite SIGTARP’s repeated highlighting
          ments have caused for HAMP by prominently disclosing                                                                               of this essential transparency and effec-
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011




          its goals and estimates (updated over time, as necessary)                                                                          tiveness measure, Treasury has refused
                                                                                                                           X
          of how many homeowners the program will help through                                                                               to disclose clear and relevant goals and
          permanent modifications and report monthly on its progress                                                                         estimates for the program.
          toward meeting that goal.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             177
                                                                                                                                                                                           178
 SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                              Partially                    Not
          Recommendation                                                      Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
46        Treasury should develop other performance metrics and                                                                               Although Treasury has increased its
          publicly report against them to measure over time the imple-                                                                        reporting of servicer performance, it has
          mentation and success of HAMP. For example, Treasury                                                                                not identified goals for each metric and
          could set goals and publicly report against those goals for                                                                         measured performance against those
          servicer processing times, modifications as a proportion of                             X                                           goals.
          a servicer’s loans in default, modifications as a proportion
          of foreclosures generally, rates of how many borrowers fall
          out of the program prior to permanent modification, and
          re-default rates.
47        Treasury should undertake a sustained public service
          campaign as soon as possible, both to reach additional bor-
          rowers who could benefit from the program and to arm the                 X
          public with complete, accurate information – this will help to
          avoid confusion and delay, and prevent fraud and abuse.
48        Treasury should reconsider its position that allows servicers
          to substitute alternative forms of income verification based                                                      X
          on subjective determinations by the servicer.
49        Treasury should re-examine HAMP’s structure to ensure that                                                                          Treasury has adopted some programs to
          it is adequately minimizing the risk of re-default stemming                                                                         assist underwater mortgages to address
          from non-mortgage debt, second liens, partial interest rate                             X                                           concerns of negative equity but has not
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          resets after the five-year modifications end, and from many                                                                         addressed other factors contained in this
          borrowers being underwater.                                                                                                         recommendation.
50        Treasury should institute careful screening before putting
          additional capital through CDCI into an institution with insuffi-
                                                                                   X
          cient capital to ensure that the TARP matching funds are not
          flowing into an institution that is on the verge of failure.
51        Treasury should develop a robust procedure to audit and
          verify the bona fides of any purported capital raise in CDCI
                                                                                   X
          and to establish adequate controls to verify the source,
          amount and closing of all claimed private investments.
52        Treasury should revise CDCI terms to clarify that Treasury
          inspection and copy rights continue until the entire CDCI
          investment is terminated. Additionally, consistent with
          recommendations made in connection with other TARP                       X
          programs, the terms should be revised to provide expressly
          that SIGTARP shall have access to the CDFI’s records equal
          to that of Treasury.
53        Treasury should consider more frequent surveys of a CDCI
          participant’s use of TARP funds than annually as currently
                                                                                                                            X
          contemplated. Quarterly surveys would more effectively
          emphasize the purpose of CDCI.
54        Treasury should ensure that more detail is captured by the                                                                          Treasury has indicated that it has imple-
          Warrant Committee meeting minutes. At a minimum, the                                                                                mented this recommendation. Although
          minutes should include the members’ qualitative consider-                                                                           the detail of the minutes has improved,
                                                                                   X
          ations regarding the reasons bids were accepted or rejected                                                                         Treasury is still not identifying how each
          within fair market value ranges.                                                                                                    member of the committee casts his or
                                                                                                                                              her vote.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                            Continued on next page.
 SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
55        Treasury should document in detail the substance of all com-                                                                       Treasury has agreed to document the
          munications with recipients concerning warrant repurchases.                                                                        dates, participants, and subject line of
                                                                                                                           X
                                                                                                                                             calls. It has refused to document the
                                                                                                                                             substance of such conversations.
56   *    Treasury should develop and follow guidelines and internal                                                                         Treasury has adopted procedures
          controls concerning how warrant repurchase negotiations                                                                            designed to address this recommenda-
          will be pursued, including the degree and nature of informa-                                                                       tion, including a policy to discuss only
          tion to be shared with repurchasing institutions concerning                                                                        warrant valuation inputs and methodolo-
          Treasury’s valuation of the warrants.                                                                                              gies prior to receiving a bid, generally
                                                                                                                                             to limit discussion to valuation ranges
                                                                                                  X                                          after receiving approval from the Warrant
                                                                                                                                             Committee, and to note the provision of
                                                                                                                                             any added information in the Committee
                                                                                                                                             minutes. However, Treasury believes that
                                                                                                                                             its existing internal controls are sufficient
                                                                                                                                             to ensure adequate consistency in the
                                                                                                                                             negotiation process.
57   *    Treasury should promptly take steps to verify TARP partici-                                                                        Although Treasury largely continues to
          pants’ conformance to their obligations, not only by ensuring                                                                      rely on self-reporting, stating that it only
          that they have adequate compliance procedures but also by                                                                          plans to conduct testing where they have
          independently testing participants’ compliance.                                                                                    particular concerns as to a TARP recipi-
                                                                                                  X
                                                                                                                                             ent’s compliance procedures or testing
                                                                                                                                             results, it has conducted independent
                                                                                                                                             testing of compliance obligations during
                                                                                                                                             some compliance reviews.
58   *    Treasury should develop guidelines that apply consistently                                                                         Treasury states that it has developed
          across TARP participants for when a violation is sufficiently                                                                      guidance and provided that guidance to
          material to merit reporting, or in the alternative require that                                                                    the exceptional assistance participants
          all violations be reported.                                                                                                        that were remaining in TARP as of June
                                                                                                  X                                          30, 2011. Treasury has not addressed
                                                                                                                                             other factors contained in this recom-
                                                                                                                                             mendation, citing its belief that mate-
                                                                                                                                             riality should be subject to a fact and
                                                                                                                                             circumstances review.
59        For each HAMP-related program and subprogram, Treasury                                                                             Treasury has provided anticipated costs,
          should publish the anticipated costs and expected participa-                                                                       but not expected participation.
          tion in each and that, after each program is launched, it                               X
          report monthly as to the program’s performance against
          these expectations.
60   *    Treasury should re-evaluate the voluntary nature of its                                                                            Treasury plans to maintain the volun-
          principal reduction program and, irrespective of whether it                                                                        tary nature of the program, providing
          is discretionary or mandatory, consider changes to better                                                                          an explanation that on its face seems
                                                                                                                                      X
          maximize its effectiveness, ensure to the greatest extent                                                                          unpersuasive to SIGTARP. SIGTARP will
          possible the consistent treatment of similarly situated bor-                                                                       continue to monitor performance.
          rowers, and address potential conflict of interest issues.
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011




Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             179
                                                                                                                                                                                           180
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
61        Treasury should adopt a uniform appraisal process across
          all HAMP and HAMP-related short-sale and principal reduc-                                                        X
          tion programs consistent with FHA’s procedures.
62   *    Treasury should reconsider the length of the minimum term                                                                          For more than a year, Treasury refused to
          of HAMP’s unemployment forbearance program.                                                                                        adopt this recommendation, even though
                                                                                                                                             average U.S. terms of unemployment
                                                                                                                                             were lengthening. However, in July 2011,
                                                                                 X                                                           the Administration announced a policy
                                                                                                                                             change, and Treasury has extended the
                                                                                                                                             minimum term of the unemployment pro-
                                                                                                                                             gram from three months to 12 months,
                                                                                                                                             effective October 1, 2011.
63        Treasury should launch a broad-based information campaign,
          including public service announcements in target markets
          that focus on warnings about potential fraud, and include              X
          conspicuous fraud warnings whenever it makes broad public
          announcements about the program.
64        When Treasury considers whether to accept an existing CPP
          participant into SBLF, because conditions for many of the
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          relevant institutions have changed dramatically since they
          were approved for CPP, Treasury and the bank regulators                X
          should conduct a new analysis of whether the applying insti-
          tution is sufficiently healthy and viable to warrant participa-
          tion in SBLF.
65        When Treasury conducts the new analysis of an institution’s                                                                        Treasury has refused to adopt this
          health and viability, the existing CPP preferred shares should                                                                     recommendation, citing its belief that
          not be counted as part of the institution’s capital base.                                                                          current CPP participants may be unfairly
                                                                                                                                             disadvantaged in their SBLF applications
                                                                                                                                             if their existing CPP investments are not
                                                                                                                           X
                                                                                                                                             counted as part of their capital base, and
                                                                                                                                             that SBLF “already provides substan-
                                                                                                                                             tial hurdles that CPP recipients must
                                                                                                                                             overcome” that do not apply to other
                                                                                                                                             applicants.
66        Treasury should take steps to prevent institutions that are                                                                        Treasury has refused to adopt this recom-
          refinancing into the SBLF from CPP from securing windfall                                                                          mendation, suggesting that its adoption
          dividend reductions without any relevant increase in lending.                                                                      would subvert the will of Congress and
                                                                                                                           X                 that SIGTARP’s recommendation “may
                                                                                                                                             not be helpful” because “it is unclear that
                                                                                                                                             using this statutorily mandated baseline
                                                                                                                                             will lead to anomalies.”
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                    Implemented    Implemented   In Process   Implemented   TBD/NA   Comments
67   *    Treasury, as part of its due diligence concerning any
          proposed restructuring, recapitalization, or sale of its CPP
          investment to a third party, should provide to SIGTARP the
          identity of the CPP institution and the details of the proposed        X
          transaction.



68   *    When a CPP participant refinances into SBLF and seeks ad-
          ditional taxpayer funds, Treasury should provide to SIGTARP
                                                                                 X
          the identity of the institution and details of the proposed
          additional SBLF investment.
69   *    OFS should adopt the legal fee bill submission standards                                                                           Treasury told SIGTARP that OFS has
          contained in the FDIC’s Outside Counsel Deskbook, or estab-                                                                        created new guidance using the FDIC’s
          lish similarly detailed requirements for how law firms should                                                                      Outside Counsel Deskbook and other
                                                                                 X
          prepare legal fee bills and describe specific work performed                                                                       resources.
          in the bills, and which costs and fees are allowable and
          unallowable.
70   *    OFS should include in its open legal service contracts                                                                             Treasury told SIGTARP that OFS has
          detailed requirements for law firms on the preparation and                                                                         distributed its new guidance to all law
          submission of legal fee bills, or separately provide the                                                                           firms currently under contract to OFS.
          instructions to law firms and modify its open contracts, mak-                                                                      Treasury further stated that OFS will work
                                                                                                             X
          ing application of the instructions mandatory.                                                                                     with Treasury’s Procurement Services Di-
                                                                                                                                             vision to begin modifying base contracts
                                                                                                                                             for OFS legal services to include those
                                                                                                                                             standards as well.
71   *    OFS should adopt the legal fee bill review standards and pro-                                                                      Treasury told SIGTARP that OFS has held
          cedures contained in the FDIC’s Outside Counsel Deskbook,                                                                          training on its newly adopted guidance
          or establish similarly specific instructions and guidance                                                                          prescribing how legal fee bills should be
          for OFS COTRs to use when reviewing legal fee bills, and                                                                           prepared with OFS COTRs and other staff
          incorporate those instructions and guidance into OFS written                                                                       involved in the review of legal fee bills,
          policies.                                                                                                                          and that the OFS COTRs will begin review-
                                                                                                             X
                                                                                                                                             ing invoices in accordance with its new
                                                                                                                                             guidance for periods starting with March
                                                                                                                                             2011. Treasury also stated that OFS will
                                                                                                                                             work to incorporate relevant portions of
                                                                                                                                             its training on the new legal fee bill review
                                                                                                                                             standards into written procedures.
72   *    OFS should review previously paid legal fee bills to identify                                                                      Treasury told SIGTARP that it is preparing
          unreasonable or unallowable charges, and seek reimburse-                                                                           a debt determination and demand letter
                                                                                                             X
          ment for those charges, as appropriate.                                                                                            to Venable. Treasury stated that efforts
                                                                                                                                             continue with the other law firms.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
                                                                                                                                                                                             QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011
                                                                                                                                                                                             181
 SIGTARP RECOMMENDATIONS TABLE                     (CONTINUED)                                                                                                                             182
                                                                                             Partially                    Not
          Recommendation                                                     Implemented   Implemented   In Process   Implemented   TBD/NA   Comments
73   *    Treasury should establish detailed guidance and internal                                                                           Treasury made important changes to
          controls governing how the MHA Servicer Compliance As-                                                                             its servicer assessments by including
          sessment will be conducted and how each compliance area                                                                            metrics for the ratings, including several
          will be weighted.                                                                                                                  quantitative metrics. However, qualitative
                                                                                                                                             metrics to assess the servicer’s internal
                                                                                                  X                                          controls in the three ratings categories
                                                                                                                                             remain, and guidelines or criteria for rat-
                                                                                                                                             ing the effectiveness of internal controls
                                                                                                                                             are still necessary. SIGTARP will continue
                                                                                                                                             to monitor Treasury’s implementation of
                                                                                                                                             this recommendation.
74   *    Treasury should ensure that more detail is captured by the                                                                         Minutes of recent MHA Compliance Com-
          MHA Compliance Committee meeting minutes. At a mini-                                                                               mittee meetings contain brief explana-
          mum, the minutes should include MHA-C’s proposed rating                                                                            tions of servicer assessment rating
          for each servicer, the committee members’ qualitative and                                                                          decisions. However, these minutes do
          quantitative considerations regarding each servicer’s rat-                                                                         not explain the Committee’s deliberations
          ings, the votes of each committee member, the final rating                              X                                          in detail, do not indicate how members
          for each servicer, justification for any difference in that rat-                                                                   voted beyond a tally of the votes, and do
          ing with MHA-C’s proposed rating, and any follow-up includ-                                                                        not discuss follow-up actions or escala-
          ing escalation to Treasury’s Office of General Counsel or the                                                                      tion. SIGTARP will continue to monitor
                                                                                                                                                                                           SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




          Assistant Secretary and the outcomes of that escalation.                                                                           Treasury’s implementation of the recom-
                                                                                                                                             mendation.

75   *    Treasury should require that MHA servicer communications                                                                           See discussion in this section.
          with homeowners relating to changes in the status or terms
          of a homeowner’s modification application, trial or perma-
                                                                                                                           X
          nent modification, HAFA agreement, or any other significant
          change affecting the homeowner’s participation in the MHA
          program, be in writing.
76   *    Treasury should establish benchmarks and goals for accept-                                                                         See discussion in this section.
          able program performance for all MHA servicers, including
          the length of time it takes for trial modifications to be con-
          verted into permanent modifications, the conversion rate for
                                                                                                                           X
          trial modifications into permanent modifications, the length
          of time it takes to resolve escalated homeowner complaints,
          and the percentage of required modification status reports
          that are missing.
77        Treasury should publicly assess the top 10 MHA servicers’                                                                          See discussion in this section.
          program performance against acceptable performance
          benchmarks in the areas of: the length of time it takes for
          trial modifications to be converted into permanent modifica-
                                                                                                                           X
          tions, the conversion rate for trial modifications into per-
          manent modifications, the length of time it takes to resolve
          escalated homeowner complaints, and the percentage of
          required modification status reports that are missing.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                           Continued on next page.
 SIGTARP RECOMMENDATIONS TABLE                    (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
78   *    Treasury must ensure that all servicers participating in MHA                                                                       See discussion in this section.
          comply with program requirements by vigorously enforcing
          the terms of the servicer participation agreements, including
          using all financial remedies such as withholding, permanently
                                                                                                                           X
          reducing, and clawing back incentives for servicers who fail
          to perform at an acceptable level. Treasury should be trans-
          parent and make public all remedial actions taken against
          any servicer.
79        Treasury should specifically determine the allowability of                                                                         See discussion in this section.
          $7,980,215 in questioned, unsupported legal fees and
          expenses paid to the following law firms: Thacher & Bartlett
          LLP ($5,791,724); Cadwalader Wickersham & Taft LLP                                                               X
          ($1,983,685); Locke Lord Bissell & Liddell LLP ($146,867);
          and Bingham McCutchen LLP (novated from McKee Nelson
          LLP, $57,939).

80        The Treasury contracting officer should disallow and seek                                                                          See discussion in this section.
          recovery from Simpson Thacher & Bartlett LLP for $96,482
          in questioned, ineligible fees and expenses paid that were
          not allowed under the OFS contract. Specifically, those are
                                                                                                                           X
          $68,936 for labor hours billed at rates in excess of the
          allowable maximums set in contract TOFS-09-0001, task or-
          der 1, and $22,546 in other direct costs not allowed under
          contract TOFS-09-007, task order 1.
81        Treasury should promptly review all previously paid legal fee                                                                      See discussion in this section.
          bills from all law firms with which it has a closed or open
                                                                                                                           X
          contract to identify unreasonable or unallowable charges
          and seek reimbursement for those charges, as appropriate.
82        Treasury should require in any future solicitation for legal                                                                       See discussion in this section.
          services multiple rate categories within the various partner,
          counsel, and associate labor categories. The additional                                                          X
          labor rate categories should be based on the number of
          years the attorneys have practiced law.
83        Treasury should pre-approve specified labor categories and                                                                         See discussion in this section.
          rates of all contracted legal staff before they are allowed to
          work on and charge time to OFS projects.                                                                         X



84        Treasury, in consultation with Federal banking regula-                                                                             See discussion in this section.
          tors, should develop a clear TARP exit path to ensure that
          as many community banks as possible repay the TARP
          investment and prepare to deal with the banks that cannot.
                                                                                                                           X
          Treasury should develop criteria pertaining to restructurings,
          exchanges, and sales of its TARP investments (including any
                                                                                                                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011




          discount of the TARP investment, the treatment of unpaid
          TARP dividend and interest payments, and warrants).

Note: * Indicates that Treasury considers the recommendation closed and will take no further action.                                                          Continued on next page.
                                                                                                                                                                                        183
                                                                                                                                                                               184
 SIGTARP RECOMMENDATIONS TABLE                   (CONTINUED)

                                                                                             Partially                    Not
          Recommendation                                                   Implemented     Implemented   In Process   Implemented   TBD/NA   Comments
85        Treasury should assess whether it should renegotiate the                                                                           See discussion in this section.
          terms of its Capital Purchase Program contracts for those
          community banks that will not be able to exit TARP prior to                                                      X
          the dividend rate increase in order to help preserve the value
          of taxpayers’ investments.
Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                                                                                                               SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                           QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                   185


1.	    Reductions in exposure were related to the Asset Guarantee Program and to the termination of equity and debt facilities for AIG and Chrysler
       that were never drawn down. Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
       tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed
       10/13/2011; Treasury, response to SIGTARP data call, 10/7/2011; Treasury response to SIGTARP data call, 10/7/2011.
2.	    Treasury, Section 105(a) Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
       September%202011%20105(a)%20Report.pdf, accessed 10/13/2011.
3.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 1.
4.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, pp. 2, 16.
5.	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit
       Strategy for TARP,” 12/9/2009, www.treasury.gov/press-center/press-releases/Pages/tg433.aspx, accessed 10/13/2011.
6.	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 9.
7.	    Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, pp. 1, 759.
8.	    CBO, “Director’s Blog: Troubled Asset Relief Program,” 4/17/2009, cboblog.cbo.gov/?p=231, accessed 10/14/2011; CBO, “The Troubled Asset
       Relief Program: Report on Transactions Through June 17, 2009,” 6/2009, www.cbo.gov/ftpdocs/100xx/doc10056/06-29-TARP.pdf, accessed
       10/13/2011; OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.gpoaccess.gov/usbudget/fy11/
       pdf/spec.pdf, accessed 10/13/2011.
9.	    Treasury, “Fiscal Year 2010 Agency Financial Report for the Troubled Asset Relief Program,” 11/15/2010, www.treasury.gov/initiatives/financial-
       stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/14/2011.
10.	   OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2012,” 2/14/2011, www.gpoaccess.gov/usbudget/fy12/pdf/
       BUDGET-2012-PER.pdf, accessed 10/14/2011.
11.	   Treasury, Section 105(a) Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
       September%202011%20105(a)%20Report.pdf, accessed 10/13/2011.
12.	   CBO, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed
       10/14/2011.
13.	   Treasury, Section 105(a) Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
       September%202011%20105(a)%20Report.pdf accessed 10/13/2011.
14.	   CBO, “Report on the Troubled Asset Relief Program — March 2011,” 3/2011, www.cbo.gov/ftpdocs/121xx/doc12118/03-29-TARP.pdf, accessed
       10/14/2011; OMB, “Analytical Perspectives: Budget of the U.S. Government – Fiscal Year 2012,” 2/14/2011, www.gpoaccess.gov/usbudget/fy12/
       pdf/BUDGET-2012-PER.pdf, accessed 10/14/2011; Treasury, Section 105(a) Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/105/Documents105/September%202011%20105(a)%20Report.pdf, accessed 10/13/2011.
15.	   Dodd-Frank Wall Street Reform and Consumer Protection Act, P.L. 111-203, 7/21/2010, p. 759; The original $700 billion had previously been
       cut to $698.8 billion as a result of the Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009, p. 28.
16.	   Treasury, Section 105(a) Report, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/July%20
       2010%20105(a)%20Report_Final.pdf, accessed 10/14/2011; Helping Families Save Their Homes Act of 2009, P.L. 111-022, 5/20/2009, p. 12.
17.	   Treasury, response to SIGTARP data call, 10/7/2011.
18.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
19.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
20.	   Treasury, Daily TARP Update, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
       TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2010.03.2011.pdf, accessed 10/17/2011; Treasury, response to SIGTARP vetting
       draft, 10/3/2011.
21.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
       Treasury, response to SIGTARP data call, 10/7/2011.
22.	   Treasury, response to SIGTARP data call, 10/7/2011.
23.	   Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.treasury.gov/
       press-center/press-releases/Pages/tg48.aspx, accessed 10/14/2011.
24.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
       briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/13/2011.
25.	   Treasury, “Home Affordable Modification Program — Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 10/14/2011.
26.	   Treasury, response to SIGTARP data call, 10/7/2011.
27.	   Treasury, response to SIGTARP data call, 10/7/2011.
28.	   Treasury, response to SIGTARP data call, 10/7/2011.
29.	   Treasury, response to SIGTARP data call, 10/7/2011.
30.	   Treasury, response to SIGTARP data call, 10/7/2011.
31.	   Treasury, response to SIGTARP data call, 10/7/2011.
32.	   Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, http://homeaffordablemodification.net/
       making-home-affordable-programs/housing-finance-agency-innovation-fund/, accessed 10/14/2011.
33.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
       Treasury, “Update to the HFA Hardest Hit Fund Frequently, Asked Questions,” 3/29/2010, www.treasury.gov/initiatives/financial-stability/
       programs/housing-programs/hhf/Documents/Hardest20Hit20public20QA20020292010.pdf, accessed 10/14/2011; Treasury, “Housing
       Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, www.azhousing.gov/azcms/uploads/PRESS%20ROOM/
       HFA%20FAQs.pdf, accessed 10/14/2011; Treasury Press Release, “Obama Administration Announces Additional Support for Targeted
186            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



             Foreclosure-Prevention Programs to Help Homeowners Struggling with Unemployment,” 8/11/2010, nationalhomeadvocacygroup.com/index.
             php?option=com_content&view=article&id=56&Itemid=70, accessed 10/14/2011.
      34.	   Treasury, response to SIGTARP data call, 10/7/2011.
      35.	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, p. 3.
      36.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/14/2011.
      37.	   Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
             cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/14/2011.
      38.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      39.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      40.	   Treasury, response to SIGTARP draft report, 10/8/2010.
      41.	   Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/resource-center/faqs/Pages/default.aspx, accessed 10/14/2011.
      42.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      43.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      44.	   Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 1, 80, 83.
      45.	   Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 83-85, 95.
      46.	   Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-
             Business-Lending-Fund.aspx, accessed 10/14/2011; Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.
             gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_Guide_Final.pdf, accessed 10/14/2011.
      47.	   Small Business Jobs Act, P.L. 111-240, 9/27/2010, pp. 89, 93.
      48.	   Treasury, response to SIGTARP data call, 10/14/2011.
      49.	   Treasury, “Programs,” 5/7/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Pages/default.aspx, accessed
             10/14/2011.
      50.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      51.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/14/2011; Treasury Press
             Release, “Treasury Department Statement on AIG’s Transaction Agreement,” 12/8/2010, www.treasury.gov/press-center/press-releases/Pages/
             tg996.aspx, accessed 10/14/2011.
      52.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/14/2011.
      53.	   AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/14/2011; FRBNY,
             response to SIGTARP draft report, 1/12/2011; FRBNY, response to SIGTARP draft report, 4/12/2011.
      54.	   AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/14/2011.
      55.	   AIG, 8-K, 1/14/2010, www.sec.gov/Archives/edgar/data/5272/000095012311003061/y88987e8vk.htm, accessed 10/14/2011;
             Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      56.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 10/14/2011.
      57.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      58.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      59.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      60.	   Treasury, “Agency Financial Report: Fiscal Year 2009,” 12/10/2009, www.treasury.gov/about/organizational-structure/offices/Mgt/Documents/
             OFS%20AFR%2009_24.pdf, accessed 10/14/2011.
      61.	   Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.treasury.gov/press-
             center/press-releases/Pages/hp1358.aspx, accessed 10/14/2011.
      62.	   U.S. Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual
             Financing to Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.
             pdf, accessed 10/14/2011.
      63.	   Treasury, Section 105(a) Report, 1/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARP%20
             105(a)%20Report%20January%202011_final.pdf, accessed 10/14/2011.
      64.	   Treasury, response to SIGTARP vetting draft, 10/8/2010.
      65.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
             DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      66.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 10/14/2011.
      67.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
             10/14/2011.
      68.	   FRBNY, response to SIGTARP data call, 10/11/2011.
      69.	   FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
             10/14/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/
             TALF_recent_operations.html, accessed 10/14/2011; FRBNY, response to SIGTARP data call, 10/11/2011.
                                                                                         QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                 187


70.	   FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
       10/14/2011; FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_
       recent_operations.html, accessed 10/14/2011; FRBNY, response to SIGTARP data call, 10/11/2011.
71.	   Federal Reserve Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 10/14/2011.
72.	   FRBNY, response to SIGTARP data call, 10/11/2011.
73.	   Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
       protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
       monetary/20100720a.htm, accessed 10/14/2011.
74.	   FRBNY, response to SIGTARP data call, 10/11/2011.
75.	   Treasury, “Road to Stability — Legacy Securities Public-Private Investment Program,” 10/20/2010, www.treasury.gov/initiatives/financial-
       stability/programs/Credit%20Market%20Programs/ppip/Pages/publicprivatefund.aspx, accessed 10/14/2011.
76.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
77.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
       Treasury, response to SIGTARP data call, 10/5/2011.
78.	   Treasury, response to SIGTARP draft report, 10/8/2010.
79.	   Treasury Press Release, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/
       tg58.aspx, accessed 10/14/2011.
80.	   Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010,
       www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/
       Coastal%20Securities,%20Inc.pdf, accessed 10/14/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior
       Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
       cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20
       (73485877_2).pdf, accessed 10/14/2011.
81.	   Treasury, “Financial Agency Agreement for Asset Management Services for SBA Related Loans and Securities,” 3/16/2009, www.treasury.gov/
       initiatives/financial-stability/procurement/faa/Financial_Agency_Agreements/TARP%20FAA%20SBA%20Asset%20Manager%20-%20Final%20
       to%20be%20posted.pdf, accessed 10/14/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued
       by SBA Pool Assemblers,” signed 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/
       Documents_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 10/14/2011; Treasury, “Master Purchase Agreement for SBA
       Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.treasury.gov/initiatives/financial-stability/
       programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20
       Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 10/14/2011.
82.	   Treasury, response to SIGTARP data call, 10/14/2011; Treasury, “Treasury Announces Sale of Four SBA 7(a) Securities,” 9/21/2011, www.
       treasury.gov/press-center/press-releases/Pages/tg1302.aspx, accessed 10/14/2011.
83.	   Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20
       Programs/aifp/Documents_Contracts_Agreements/AIFP_guidelines.pdf, accessed 10/14/2011.
84.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
85.	   Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
       DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
86.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
87.	   SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/audits.shtml, accessed
       10/14/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
88.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
89.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
90.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
91.	   Chrysler, “Q1 2011 Results Review (Preliminary),” 5/2/2011, media.chrysler.com/newsrelease.do;jsessionid=23C1FD542488367DE927D7
       C03E92EAB0?&id=10867&mid=2, accessed 10/14/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-
       stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_
       INVESTMENT.pdf, accessed 10/14/2011.
92.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
       tg1253.aspx, accessed 10/14/2011.
93.	   Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
       tg1253.aspx, accessed 10/14/2011.
94.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
95.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
       DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
96.	   SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
       data/40729/000119312511142459/ds1a.htm, accessed 10/14/2011.
188              SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      97.	    SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
              data/40729/000119312511142459/ds1a.htm, accessed 10/14/2011.
      98.	    Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      99.	    Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.financialreformwatch.com/uploads/
              file/Treasury%20-%20Auto%20Supplier%20Support%20Program.pdf, accessed 10/14/2011.
      100.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      101.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      102.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      103.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      104.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      105.	   Obama, Barack, “Remarks by the President on the Home Mortgage Crisis,” 2/18/2009, www.whitehouse.gov/the_press_office/Remarks-by-the-
              President-on-the-mortgage-crisis/, accessed 10/13/2011.
      106.	   Treasury Press Release, “Homeowner Affordability and Stability Plan: Executive Summary,” 2/18/2009, www.treasury.gov/press-center/press-
              releases/Pages/tg33.aspx, accessed 10/13/2011.
      107.	   Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 10/13/2011.
      108.	   Treasury, “Troubled Asset Relief Program: Two Year Retrospective, 10/5/2010, www.treasury.gov/press-center/news/Documents/TARP%20
              Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/13/2011.
      109.	   Congressional Budget Office, “Report on the Troubled Asset Relief Program,” 3/2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf,
              accessed 10/13/2011.
      110.	   Treasury, Daily TARP Update, 9/30/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
              TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2009.30.2011.pdf, accessed 10/3/2011.
      111.	   Treasury, Transactions Report-Housing, 9/28/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2009.28.2011.pdf, accessed 10/17/2011.
      112.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/13/2011.
      113.	   Treasury, “Secretaries Geithner, Donovan Announce New Details of Making Home Affordable Program, Highlight Implementation Progress,”
              5/14/2009, www.makinghomeaffordable.gov/news/latest/Pages/pr_051409.aspx, accessed 10/13/2011.
      114.	   Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      115.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
      116.	   Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_
              alternatives.jsp, accessed 10/13/2011.
      117.	   Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
              portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
      118.	   Treasury, response to SIGTARP data call, 10/5/2011.
      119.	   Treasury, response to SIGTARP data call, 10/20/2011.
      120.	   Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
              Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 10/13/2011; Treasury,
              “Supplemental Directive 10-10: Home Affordable Modification Program-Modifications of Loans Guaranteed by the Rural Housing Service,”
              9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 10/13/2011; Department of Veterans Affairs, “Revised VA
              Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/circulars/26_10_6.pdf, accessed 10/13/2011.
      121.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/13/2011.
      122.	   Treasury, “Office of Financial Stability Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/
              briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/13/2011.
      123.	   Treasury, Daily TARP Update, 9/30/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
              TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2009.30.2011.pdf, accessed 10/3/2011.
      124.	   Treasury, Daily TARP Update, 9/30/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
              TARP%20Cash%20Summary/Daily%20TARP%20Update%20-%2009.30.2011.pdf, accessed 10/3/2011.
      125.	   Treasury, Transactions Report-Housing, 9/28/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
              DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2009.28.2011.pdf, accessed 10/17/2011.
      126.	   Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.
              hmpadmin.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 10/13/2011.
      127.	   Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.
              hmpadmin.com/portal/programs/docs/hamp_servicer/sd1013.pdf, accessed 10/13/2011.
      128.	   Treasury, response to SIGTARP data call, 10/19/2011.
      129.	   Treasury, response to SIGTARP data call, 10/21/2011.
      130.	   Treasury, response to SIGTARP data call, 10/19/2011.
      131.	   Treasury, response to SIGTARP data call, 10/11/2011.
      132.	   Treasury, response to SIGTARP data call, 10/5/2011.
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011               189


133.	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.jsp, accessed 10/13/2011.
134.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
135.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
136.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
      gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 10/13/2011.
137.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
138.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
139.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
140.	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd0901.pdf, accessed 10/13/2011.
141.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
142.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
143.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
144.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
145.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/13/2011.
146.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
147.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/13/2011.
148.	 Treasury, response to SIGTARP data call, 10/17/2011, 10/21/2011.
149.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/13/2011.
150.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
151.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/13/2011.
152.	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
      Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 10/13/2011.
153.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
      Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 10/13/2011.
154.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
155.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 10/13/2011.
156.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 10/13/2011.
157.	 Treasury, “Supplemental Directive 11-06, Making Home Affordable Program – Updates to Servicer Incentives,” 7/6/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1106.pdf, accessed 10/13/2011.
158.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
159.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 10/13/2011.
160.	 Treasury, “Supplemental Directive 10-09: MHA Program — Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/programs/docs/
      hamp_servicer/sd1009.pdf, accessed 10/13/2011.
161.	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd0901.pdf, accessed 10/13/2011.
162.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
163.	 Treasury, Transactions Report-Housing, 9/28/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2009.28.2011.pdf, accessed 10/17/2011.
164.	 Treasury, response to SIGTARP data call, 10/21/2011.
165.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 10/13/2011.
166.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 10/13/2011.
190            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      167.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 10/13/2011.
      168.	 Treasury, Supplemental Directive 11-04: MHA Program – Single Point of Contact for Borrower Assistance,” 5/18/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1104.pdf, accessed 10/13/2011.
      169.	 Treasury, response to SIGTARP data call, 5/23/2011.
      170.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
      171.	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program — Home Price Decline Protection Incentives,” 7/31/2009,
            www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd0904.pdf, accessed 10/13/2011.
      172.	 Treasury, response to SIGTARP data call, 10/19/2011.
      173.	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/programs/docs/hamp_
            servicer/praoverviewnongse.pdf, accessed 10/13/2011.
      174.	 Treasury, response to SIGTARP data call, 10/21/2011.
      175.	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd0901.pdf, accessed 10/13/2011.
      176.	 Treasury, “Supplemental Directive 10-14: MHA Program — Principal Reduction Alternative Update,” 12/22/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1014.pdf, accessed 10/13/2011.
      177.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      178.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      179.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      180.	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010, www.
            hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 10/13/2011.
      181.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      182.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      183.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      184.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      185.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      186.	 Treasury, response to SIGTARP data call, 10/19/2011.
      187.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      188.	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/
            programs/docs/hamp_servicer/sd1005.pdf, accessed 10/13/2011.
      189.	 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program — Principal Reduction Alternative Update,” 12/22/2010, www.
            hmpadmin.com/portal/programs/docs/hamp_servicer/sd1014.pdf, accessed 10/13/2011.
      190.	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.treasury.gov/
            press-center/press-releases/Pages/tg614.aspx, accessed 10/13/2011.
      191.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 10/13/2011.
      192.	 Treasury, response to SIGTARP data call, 10/19/2011.
      193.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 10/13/2011.
      194.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
      195.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 10/13/2011.
      196.	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1004.pdf, accessed 10/13/2011.
      197.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 10/13/2011.
      198.	 Treasury, “Supplemental Directive 11-07: Expansion of Unemployment Forbearance,” 7/25/2011, www.hmpadmin.com/portal/programs/docs/
            hamp_servicer/sd1107.pdf, accessed 10/13/2011.
      199.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
      200.	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, www.makinghomeaffordable.
            gov/programs/Documents/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 10/13/2011.
      201.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
                                                                                    QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011              191


202.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
      docs/hafa/sd0909r.pdf, accessed 10/13/2011.
203.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/programs/
      docs/hafa/sd0909r.pdf, accessed 10/13/2011.
204.	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/
      programs/docs/hafa/sd0909r.pdf, accessed 10/13/2011; Treasury, “HAMP Update — New Program Offers Borrowers Foreclosure Alternatives,”
      11/30/2009, www.hmpadmin.com/portal/news/docs/2009/hampupdate113009.pdf, accessed 10/17/2011.
205.	 Treasury, response to SIGTARP data call, 10/4/2011.
206.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1108.pdf, accessed 10/13/2011.
207.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1108.pdf, accessed 10/13/2011.
208.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 10/13/2011.
209.	 Treasury, “Supplemental Directive 11-08: Home Affordable Foreclosure Alternatives Program — Policy Update,” www.hmpadmin.com/portal/
      programs/docs/hamp_servicer/sd1108.pdf, accessed 10/13/2011.
210.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 10/13/2011.
211.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 10/13/2011.
212.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 10/13/2011.
213.	 Treasury, “Supplemental Directive 10-18: Home Affordable Foreclosure Alternatives Program — Policy Update,” 12/28/2010, www.hmpadmin.
      com/portal/programs/docs/hafa/sd1018.pdf, accessed 10/13/2011.
214.	 Treasury, response to SIGTARP data call, 10/19/2011.
215.	 Treasury, response to SIGTARP data call, 10/21/2011.
216.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.2,” 6/1/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/mhahandbook_32.pdf, accessed 10/13/2011.
217.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 10/13/2011.
218.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 10/13/2011.
219.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 10/13/2011.
220.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 10/13/2011.
221.	 Treasury, “Supplemental Directive 11-02: Making Home Affordable Program — Administrative Clarifications,” 3/30/2011, www.hmpadmin.com/
      portal/programs/docs/hamp_servicer/sd1102.pdf, accessed 10/13/2011.
222.	 Treasury, “Supplemental Directive 09-05 Revised: Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/
      portal/programs/docs/second_lien/sd0905r.pdf, accessed 10/13/2011.
223.	 Treasury, response to SIGTARP data call, 10/21/2011.
224.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 10/13/2011.
225.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 10/13/2011.
226.	 Treasury, “Supplemental Directive 10-03: Home Affordable Modification Program — Modifications of Loans Insured by the Federal Housing
      Administration (FHA),” 3/26/2010, www.hmpadmin.com/portal/programs/docs/fha_hamp/sd1003.pdf, accessed 10/13/2011.
227.	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural
      Housing Service,” 9/17/2010, www.hmpadmin.com/portal/programs/docs/rd_hamp/sd1010.pdf, accessed 10/13/2011.
228.	 Treasury, response to SIGTARP data call, 10/21/2011.
229.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 10/13/2011.
230.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 10/13/2011.
231.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 10/13/2011.
232.	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
      circulars/26_10_6.pdf, accessed 10/13/2011.
233.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 10/13/2011;
      Treasury, “Supplemental Directive 10-12: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) Effective Date,”
      9/24/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1012.pdf, accessed 7/20/2011.
234.	 Treasury, response to SIGTARP data call, 10/5/2011.
235.	 Treasury, response to SIGTARP data call, 10/11/2011.
236.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
      FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
      accessed 10/17/2011.
192            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      237.	 Treasury, “Supplemental Directive 10-08: Making Home Affordable Program — Treasury/FHA Second Lien Program (FHA2LP) to Support
            FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1008.pdf,
            accessed 10/17/2011.
      238.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
            Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 10/13/2011.
      239.	 Treasury, “Supplemental Directive 11-01: Making Home Affordable — Dodd-Frank Certification, Internal Quality Assurance and Verification of
            Income Update,” 2/17/2011, www.hmpadmin.com/portal/programs/docs/hamp_servicer/sd1101.pdf, accessed 10/13/2011.
      240.	 Treasury, “Obama Administration Releases May Housing Scorecard Featuring New Making Home Affordable Servicer Assessments, Regional
            Spotlight on Phoenix Housing Data,” 6/9/2011, www.treasury.gov/press-center/press-releases/Pages/tg1205.aspx, accessed 10/17/2011.
      241.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 10/17/2011.
      242.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 10/17/2011.
      243.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 10/17/2011.
      244.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 10/17/2011.
      245.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 10/17/2011.
      246.	 Treasury, response to SIGTARP data call, 10/5/2011.
      247.	 Treasury, “April 2011 Making Home Affordable Report and Servicer Assessments For First Quarter 2011,” www.treasury.gov/initiatives/financial-
            stability/results/MHA-reports/Documents/April%202011%20MHA%20Report%20FINAL.pdf, accessed 10/17/2011.
      248.	 Treasury, response to SIGTARP data call, 9/9/2011.
      249.	 Treasury, “Obama Administration Releases August Housing Scorecard Featuring Making Home Affordable Servicer Assessments,” 9/1/2011,
            www.treasury.gov/press-center/press-releases/Pages/tg1286.aspx, accessed 10/17/2011.
      250.	 Treasury, response to SIGTARP data call, 10/5/2011.
      251.	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, www.cq.com/graphics/
            govdoc/2010/03/26/govdoc20100326-107771.pdf, accessed 10/17/2011.
      252.	 Treasury, response to SIGTARP data call, 10/11/2011.
      253.	 Treasury, response to SIGTARP data call, 10/14/2011.
      254.	 Treasury, response to SIGTARP data call, 10/14/2011.
      255.	 Treasury, response to SIGTARP data call, 10/11/2011.
      256.	 HUD, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 10/13/2011;
            HUD, response to SIGTARP draft, 1/10/2011.
      257.	 HUD, response to SIGTARP vetting draft, 1/19/2011.
      258.	 HUD, response to SIGTARP draft report, 1/10/2011.
      259.	 U.S. Department of Housing and Urban Development, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”,
            8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 10/17/2011.
      260.	 U.S. Department of Housing and Urban Development, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”,
            8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 10/17/2011.
      261.	 U.S. Department of Housing and Urban Development, “Mortgagee Letter 2010-23: FHA Refinance of Borrowers in Negative Equity Positions”,
            8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-23ml.pdf, accessed 10/17/2011; HUD, response to SIGTARP draft
            report, 3/31/2011.
      262.	 HUD, response to SIGTARP draft report, 1/19/2011.
      263.	 HUD, response to SIGTARP draft report, 1/12/2011.
      264.	 Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/news/latest/Pages/pr_03052010.aspx, accessed
            10/13/2011.
      265.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,” www.
            treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/13/2011.
      266.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
      267.	 Treasury, “Administration Announces Second Round of Assistance for Hardest-Hit Housing Markets,” 3/29/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg618.aspx, accessed 10/13/2011.
      268.	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages, Version 3.3,” 9/1/2011, www.hmpadmin.com/
            portal/programs/docs/hamp_servicer/mhahandbook_33.pdf, accessed 10/17/2011.
      269.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            10/13/2011.
      270.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            10/13/2011.
      271.	 Treasury, Section 105(a) Report, 9/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/August%20
            2010%20105(a)%20Report_final_9%2010%2010.pdf, accessed 10/17/2011.
      272.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
            with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
            10/13/2011.
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                 193


273.	 HUD, “Obama Administration Announces Additional Support for Targeted Foreclosure-Prevention Programs to Help Homeowners Struggling
      with Unemployment,” 8/11/2010, portal.hud.gov/hudportal/HUD?src=/press/press_releases_media_advisories/2010/HUDNo.10-176, accessed
      10/13/2011.
274.	 Treasury, Transactions Report-Housing, 9/28/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/HAMP%20Transactions%20Report%20as%20of%2009.28.2011.pdf, accessed 10/17/2011.
275.	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/agency_reports/
      Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, pp. 76, 98, accessed 10/13/2011.
276.	 Treasury, “Obama Administration Approves State Plans for Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Funding,”
      6/23/2010, www.treasury.gov/press-center/press-releases/Pages/tg757.aspx, accessed 10/13/2011.
277.	 Treasury, response to SIGTARP data call, 10/14/2011.
278.	 Treasury, response to SIGTARP data call, 10/5/2011, Hardest Hit Alabama, “Hardest Hit Alabama,” no date, www.hardesthitalabama.com/,
      accessed 10/17/2011; Arizona Department of Housing, “Save our Home AZ,” no date, www.azhousing.gov/, accessed 10/17/2011; CALHFA
      Mortgage Assistance Corporation, “Keep Your Home California,” no date, www.keepyourhomecalifornia.org/, accessed 10/17/2011; Florida
      Hardest-Hit, “Florida Hardest-Hit,” no date, www.flhardesthithelp.org/, accessed 10/17/2011; Georgia Department of Community Affairs,
      “Hardest Hit Fund,” no date, www.dca.state.ga.us/housing/homeownership/programs/hardesthitfund.asp, accessed 10/17/2011; Illinois
      Housing Development Authority, “Illinois Housing Development Authority,” no date, www.ihda.org/, accessed 10/17/2011; Indiana Foreclosure
      Prevention Network, “Indiana Foreclosure Prevention Network,” no date, www.877gethope.org/, accessed 10/17/2011; Kentucky Housing
      Corporation, “Kentucky Housing Corporation,” no date, www.kyhousing.org/, accessed 10/17/2011; Michigan State Housing Development
      Authority, “Helping Michigan’s Hardest Hit Homeowners,” no date, www.michigan.gov/mshda/0,1607,7-141--235359--,00.html, accessed
      10/17/2011; Mississippi Home Corporation, “Mississippi Home Corporation,” no date, www.mshomecorp.com/firstpage.htm, accessed
      10/17/2011; Nevada’s Hardest Hit Funds, “Nevada’s Hardest Hit Funds,” no date, www.nahac.org/, accessed 10/17/2011; State of New Jersey
      Housing and Mortgage Finance Agency, “State of New Jersey Housing and Mortgage Finance Agency,” no date, www.state.nj.us/dca/hmfa/,
      accessed 10/17/2011; NC Foreclosure Prevention Fund, “Help for the Hardest Hit Homeowners,” no date, www.ncforeclosureprevention.
      gov/, accessed 10/17/2011; Ohio.gov, “Ohio’s Foreclosure Prevention Effort, no date, www.savethedream.ohio.gov/, accessed 10/17/2011;
      Oregon Homeownership Stabilization Initiative, “OHSI,” no date, www.oregonhomeownerhelp.org/, accessed 10/17/2011; Hardest Hit Fund-
      Rhode Island, “HHFRI,” no date, www.hhfri.org/, accessed 10/17/2011; SC Help, “South Carolina Homeownership and Employment Lending
      Program,” no date, www.scmortgagehelp.com/, accessed 10/17/2011; Tennessee Housing Development Agency, “THDA,” no date, www.thda.
      org/, accessed 10/17/2011; District of Columbia Housing Finance Agency, “District of Columbia Housing Finance Agency,” no date, www.dchfa.
      org/, accessed 10/17/2011.
279.	 Treasury, response to SIGTARP data call, 10/5/2011.
280.	 Treasury, response to SIGTARP data call, 10/5/2011.
281.	 OFS conference call, 3/19/2009.
282.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/13/2011.
283.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/13/2011.
284.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” 3/17/2009, www.treasury.gov/initiatives/financial-stability/
      programs/investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/13/2011.
285.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011.
286.	 Treasury, response to SIGTARP data call, 10/5/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_
      INVESTMENT.pdf, accessed 10/13/2011.
287.	 Treasury, response to SIGTARP data call, 10/5/2011.
288.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011.
289.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011.
290.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011;
      Treasury, Dividends and Interest Report, 10/11/2011,www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf accessed 10/13/2011.
291.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf accessed 10/13/2011.
292.	 Treasury, response to SIGTARP vetting draft, 10/13/2011; Treasury, response to SIGTARP data call, 10/5/2011; Treasury, Dividends and Interest
      Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/DocumentsDividendsInterest/
      September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/13/2011; Treasury and SIGTARP, Methodology for Missed
      Dividends & Interest, 12/31/2011.
293.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
      stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
294.	 Treasury, response to SIGTARP data call, 10/6/2010 and 10/5/2011; OFS, “Factsheet Capital Purchase Program Nomination of Board
      Observers & Directors,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20
      Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
295.	 Treasury, response to SIGTARP data call, 10/5/2011; OFS, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,”
      no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20
      Fact%20Sheet.pdf, accessed 10/132011.
194            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      296.	 Treasury, “Frequently Asked Questions: Capital Purchase Program (CPP) – Related to Missed Dividend (or Interest) Payments and Director
            Nomination,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20
            FAQs.pdf, accessed 10/13/2011.
      297.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
      298.	 Treasury, responses to SIGTARP data call, 1/10/2011, 4/6/2011, 7/11/2011, and 10/5/2011.
      299.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
      300.	 Treasury, response to SIGTARP data call, 10/5/2011.
      301.	 Press Release, “Treasury Elects Directors to CPP Banks’ Board of Directors,” 7/19/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1249.aspx, accessed 10/13/2011.
      302.	 Royal Bancshares of Pennsylvania, Inc., 8-K, 10/7/2011, www.sec.gov/Archives/edgar/data/922487/000119312511265923/d239972d8k.htm
            accessed 10/13/2011.
      303.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/13/2011.
      304.	 Centrue Financial Corporation, 8-K, 9/26/2011, www.sec.gov/Archives/edgar/data/1019650/000095012311086502/k50755e8vk.htm, accessed
            9/30/2011.
      305.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011;
            Treasury, Dividends and Interest Report, 10/11/2011,www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf accessed 10/13/2011.
      306.	 Treasury, Section 105(a) Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            September%202011%20105(a)%20Report.pdf, accessed 10/13/2011.
      307.	 Treasury, Dividends and Interest Report, 10/11/2011 www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
      308.	 Citizens Republic Bancorp, Inc.,, 8-K, 10/5/2011, www.sec.gov/Archives/edgar/data/351077/000095012311085819/k50747e8vk.htm, accessed
            10/13/2011; Citizens Republic Bancorp, Inc., 8-K, 10/5/2011, www.sec.gov/Archives/edgar/data/351077/000095012311088723/k50772e8vk.
            htm, accessed 10/14/2011.
      309.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
      310.	 Anchor BanCorp Wisconsin Inc., 8-K, 10/3/2011, www.sec.gov/Archives/edgar/data/885322/000119312511261687/d237549d8k.htm, accessed
            10/13/2011.
      311.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
      312.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
      313.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
      314.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
      315.	 Treasury, “Factsheet Capital Purchase Program Nomination of Board Observers & Directors,” no date, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cpp/Documents/CPP%20Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 10/13/2011.
      316.	 Treasury, response to SIGTARP data call, 10/5/2011.
      317.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/13/2011.
      318.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/13/2011.
      319.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/13/2011.
      320.	 Treasury, “Glossary,” no date, www.treasury.gov/initiatives/financial-stability/glossary/Pages/default.aspx, accessed 10/13/2011.
      321.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP%20Warrants%20Report%20Aug2011.pdf, accessed 10/13/2011.
      322.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/13/2011.
      323.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
            press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/14/2011.
      324.	 Treasury, response to SIGTARP data call, 10/5/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_
            INVESTMENT.pdf, accessed 10/14/2011.
      325.	 Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009,www.
            treasury.gov/press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/14/2011.
      326.	 Treasury, Warrant Disposition Report, 8/25/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP%20Warrants%20Report%20Aug2011.pdf, accessed 10/14/2011. Treasury, response to SIGTARP data call, 10/5/2011.
      327.	 Treasury, response to SIGTARP data call, 10/5/2011.
      328.	 Treasury, response to SIGTARP data call, 10/5/2011.
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                 195


329.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/14/2011.
330.	 Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.treasury.gov/
      press-center/press-releases/Pages/200962612255225533.aspx, accessed 10/14/2011.
331.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 10/14/2011.
332.	 Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 11/19/2009 (updated 4/12/2010),
      www.treasury.gov/press-center/press-releases/Pages/tg415.aspx, accessed 10/14/2011.
333.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
      Treasury, Section 105(a) Report, 6/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Final%20
      May%202011%20105(a)%20Report.pdf, accessed 10/14/2011.
334.	 Treasury Press Release, “Treasury Department Announces Public Offerings of Warrants to Purchase Common Stock of Suntrust Banks, Inc.,”
      9/21/2011, www.treasury.gov/press-center/press-releases/Pages/tg1300.aspx, accessed 10/14/2011; Treasury, “Securities Purchase Agreement:
      Standard Terms,” 12/31/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents_Contracts_
      Agreements/Suntrust20Bank20A.pdf, accessed 10/14/2011; Treasury, “Securities Purchase Agreement: Standard Terms,” 11/14/2008, www.
      treasury.gov/initiatives/financial-stability/programs/investment-programs/cpp/Documents_Contracts_Agreements/Suntrust20Bank20B.pdf,
      accessed 10/14/2011.
335.	 Treasury, response to SIGTARP data call, 10/5/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/
      briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_
      INVESTMENT.pdf, accessed 10/14/2011.
336.	 OFS conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/8/2010 and 10/5/2011.
337.	 OFS conference call, 3/19/2010.
338.	 Treasury, response to SIGTARP draft report, 1/14/2011.
339.	 OFS conference call, 3/19/2010.
340.	 OFS conference call, 3/19/2010.
341.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
342.	 Green Bankshares, Inc., 8-K, 9/7/2011, www.sec.gov/Archives/edgar/data/764402/000089882211000775/grnbclosing8-k.htm, accessed
      10/14/2011.
343.	 Green Bankshares, Inc. Press Release, “North American Financial Holdings, Inc. Completes $217 Million Investment in Green Bankshares,”
      9/7/2011, www.snl.com/Cache/1500035795.PDF?D=&O=PDF&IID=1019938&Y=&T=&FID=1500035795, accessed 10/14/2011.
344.	 Green Bankshares, Inc. Press Release, “North American Financial Holdings, Inc. Completes $217 Million Investment in Green
      Bankshares,” 9/7/2011, www.snl.com/Cache/1500035795.PDF?D=&O=PDF&IID=1019938&Y=&T=&FID=1500035795, accessed
      10/14/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
345.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
346.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
347.	 Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/edgar/data/1488813/000095015911000609/form8k.htm, accessed 10/14/2011.
348.	 Customers Bancorp, Inc., 8-K, 9/22/2011, www.sec.gov/Archives/edgar/data/1488813/000095015911000609/form8k.htm, accessed 10/14/2011.
349.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 10/14/2011.
350.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 10/14/2011.
351.	 Valley National Bancorp, 8-K, 5/4/2011, www.sec.gov/Archives/edgar/data/714310/000119312511126281/d8k.htm, accessed 10/14/2011.
352.	 Valley National Bancorp Press Release, “Valley National Bancorp Receives State Bancorp, Inc. Regulatory Approval,” 7/19/2011, www.
      valleynationalbank.com/pdf/Merger1.pdf, accessed 10/14/2011.
353.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
354.	 FNB United Corporation, 8-K, 4/27/2011, www.sec.gov/Archives/edgar/data/764811/000117184311001149/f8k_042711.htm, accessed
      10/14/2011.
355.	 FNB United Corporation, 8-K, 8/5/2011, www.sec.gov/Archives/edgar/data/764811/000119312511212628/d8k.htm, accessed 10/14/2011.
356.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011; FNB
      United Corporation, 8-K, 8/18/2011, www.sec.gov/Archives/edgar/data/764811/000119312511226647/d8k.htm, accessed 10/14/2011.
357.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011; FNB
      United Corporation, 8-K, 4/27/2011, www.sec.gov/Archives/edgar/data/764811/000117184311001149/f8k_042711.htm, accessed 10/14/2011;
      FNB United Corporation, 8-K, 3/3/2011, www.sec.gov/Archives/edgar/data/764811/000119312511054953/dex101.htm, accessed 10/14/2011.
358.	 Treasury, “Investment Programs, Capital Purchase Program, Key Information,” no date, www.treasury.gov/initiatives/financial-stability/programs/
      investment-programs/cpp/Pages/capitalpurchaseprogram.aspx, accessed 10/14/2011.
359.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
196            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      360.	 Office of the Comptroller of the Currency, In the Matter of Integra Bank, National Association, Docket No. AA-EC-10-82, Capital Directive,
            8/12/2010, www.occ.gov/static/enforcement-actions/ea2010-206.pdf, accessed 10/14/2011.
      361.	 Integra Bank Corporation Press Release, “Integra Bank Corporation Comments on Third Quarter 2010 Call Report, Provides Update on Capital
            Plan,” 11/1/2010, www.sec.gov/Archives/edgar/data/764241/000114420410056558/v200256_ex99a.htm, accessed 10/14/2011.
      362.	 FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville,
            Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 10/14/2011.
      363.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      364.	 FDIC Press Release, “Old National Bank, Evansville, Indiana, Assumes All of the Deposits of Integra Bank, National Association, Evansville,
            Indiana,” 7/29/2011, www.fdic.gov/news/news/press/2011/pr11128.html, accessed 10/14/2011.
      365.	 Treasury, response to SIGTARP conference call, 12/3/2010.
      366.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      367.	 FDIC, In the Matter of One Georgia Bank, Docket No. FDIC-09-741b, Consent Order, 3/23/2010, www.fdic.gov/bank/individual/
            enforcement/2010-03-11.pdf, accessed 10/14/2011.
      368.	 FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/
            news/press/2011/pr11120.html, accessed 10/14/2011.
      369.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      370.	 FDIC Press Release, “Ameris Bank, Moultrie, Georgia, Acquires All the Deposits of Two Georgia Institutions,” 7/15/2011, www.fdic.gov/news/
            news/press/2011/pr11120.html, accessed 10/14/2011.
      371.	 Treasury, response to SIGTARP conference call, 12/3/2010.
      372.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      373.	 FDIC, In the Matter of First Peoples Bank, Docket No. FDIC-09-717b, Consent Order, 3/18/2010, www.fdic.gov/bank/individual/
            enforcement/2010-03-09.pdf, accessed 10/14/2011.
      374.	 FDIC, In the Matter of First Peoples Bank, Docket No. FDIC-11-004PCAS, Supervisory Prompt Corrective Action Directive, 1/28/2011, www.
            fdic.gov/bank/individual/enforcement/2011-01-49.pdf, accessed 10/14/2011.
      375.	 FDIC Press Release, “Premier American Bank, National Association, Miami, Florida, Assumes All of the Deposits of First Peoples Bank, Port
            Saint Lucie, Florida,” 7/15/2011, www.fdic.gov/bank/individual/enforcement/2011-01-49.pdf, accessed 10/14/2011.
      376.	 Treasury, response to SIGTARP conference call, 12/3/2010.
      377.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      378.	 FDIC, In the Matter of Citizens Bank of Northern California, Nevada City, California, Order No. FDIC 10-053b, Order to Cease and Desist,
            2/11/2010, www.fdic.gov/bank/individual/enforcement/2010-02-07.pdf, accessed 10/14/2011.
      379.	 FDIC, In the Matter of Citizens Bank of Northern California, Nevada City, California, Order No. FDIC-11-358PCAS, Supervisory Prompt
            Corrective Action Directive, 6/28/2011, www.fdic.gov/bank/individual/enforcement/2011-06-029.pdf, accessed 10/14/2011.
      380.	 FDIC Press Release, “Tri Counties Bank, Chico, California, Assumes All of the Deposits of Citizens Bank of Northern California, Nevada City,
            California,” 9/23/2011, www.fdic.gov/news/news/press/2011/pr11154.html, accessed 10/14/2011.
      381.	 Treasury, response to SIGTARP conference call, 12/3/2010.
      382.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/14/2011; Treasury, Section 105(a) Report,
            3/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf,
            accessed 10/14/2011; Small Business Jobs Act, P.L. 111-240, 9/27/2010; Treasury, response to SIGTARP data call, 10/5/2011.
      383.	 White House Press Release, “Remarks by the President on Small Business Initiatives,” 10/21/2010, www.whitehouse.gov/the-press-office/
            remarks-president-small-business-initiatives-landover-md, accessed 10/14/2011.
      384.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Pages/
            comdev.aspx, accessed 10/14/2011; Treasury, “Community Development Capital Initiative,” 6/4/2010, www.treasury.gov/initiatives/financial-
            stability/programs/investment-programs/cdci/Pages/comdev.aspx, accessed 10/14/2011; Treasury, Section 105(a) Report, 3/10/2010, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/Monthly%20Report_February2010.pdf, accessed
            10/14/2011; Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in Community
            Development Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed
            10/14/2011.
      385.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 10/14/2011.
      386.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/
            cdci/Pages/comdev.aspx, accessed 10/14/2011.
      387.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/14/2011.
      388.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
            Development Financial Institutions in Underserved Areas,” 9/30/2010, www.cdfifund.gov/docs/2010/tarp/FINAL%20CDCI-TARP%20
            Release%209-30-10.pdf, accessed 10/14/2011.
      389.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
            Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/14/2011.
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                 197



390.	 Treasury, “Community Development Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cdci/Pages/comdev.aspx, accessed 10/14/2011; Treasury, “Application Guidelines for TARP Community Development
      Capital Initiative,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
      Bank20Thrift20CDCI20Application20Updated20Form.pdf, accessed 10/14/2011.
391.	 Treasury, “Community Development Capital Initiative CDFI Credit Unions Senior Securities — Term Sheet,” no date, www.treasury.gov/
      initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20Credit20Union20Term20Sheet20042610.pdf, accessed
      10/14/2011; Treasury, “Community Development Capital Initiative CDFI Subchapter S Corporation Senior Securities — Term Sheet,” no date,
      www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/CDCI20S20Corp20Term20Sheet.pdf, accessed
      10/14/2011.
392.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/14/2011.
393.	 Treasury, “Frequently Asked Questions,” no date, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cdci/Documents/
      CDCI20FAQs20Updated.pdf, accessed 10/14/2011; Treasury Press Release, “Obama Administration Announces Enhancements for TARP
      Initiative for Community Development Financial Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx,
      accessed 10/14/2011.
394.	 Treasury Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
      Institutions,” 2/3/2010, www.treasury.gov/press-center/press-releases/Pages/tg533.aspx, accessed 10/14/2011.
395.	 Treasury Press Release, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million in 84 Community
      Development Financial Institutions in Underserved Areas,” 9/30/2010, www.treasury.gov/press-center/press-releases/Pages/tg885.aspx, accessed
      10/14/2011; Treasury OFS, response to SIGTARP data call, 10/7/2011 and 10/14/2011.
396.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
397.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/12/2011.
398.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/12/2011.
399.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 1, p. 83.
400.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 2.
401.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
      Getting_Started_Guide_Final.pdf, accessed 10/14/2011.
402.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010.
403.	 Treasury, response to SIGTARP data call, 10/5/2011.
404.	 Treasury, response to SIGTARP data call, 10/5/2011.
405.	 Treasury, “Small Business Lending Fund: Overview for Banks,” www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.
      aspx, accessed 10/14/2011; Treasury, “Small Business Lending Fund: Overview for Subchapter S Corporations and Mutual Institutions’, www.
      treasury.gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 10/14/2011.
406.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
      Getting_Started_Guide_Final.pdf, accessed 10/14/2011; Treasury, “Small Business Lending Fund: Overview for Subchapter S Corporations and
      Mutual Institutions,’ www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx,
      accessed 10/14/2011.
407.	 Treasury, “Small Business Lending Fund: Community Development Financial Institution Loan Funds Equity Equivalent Capital – Summary of
      Terms,” 5/25/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF-CDLF%20Term%20Sheet.pdf, accessed 10/14/2011.
408.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
      Getting_Started_Guide_Final.pdf, accessed 10/14/2011.
409.	 Treasury, “Resource Center – Overview for Banks,” 6/8/2011, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-Banks.aspx,
      accessed 10/14/2011; Treasury, “Resource Center – Overview for Subchapter S Corporations and Mutual Institutions,” 6/8/2011, www.treasury.
      gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-Institutions.aspx, accessed 10/14/2011.
410.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
      Getting_Started_Guide_Final.pdf, accessed 10/14/2011; Treasury, “Small Business Lending Fund – Overview for Subchapter S Corporations
      and Mutual Institutions,” no date, www.treasury.gov/resource-center/sb-programs/Pages/Overview-for-S-Corporation-Banks-and-Mutual-
      Institutions.aspx, accessed 10/14/2011; Treasury, “Small Business Lending Plan Guide: For Community Loan Development Funds,” no date,
      www.treasury.gov/resource-center/sb-programs/Documents/CDLF%20Lending%20Plan%20and%20Guide.pdf, accessed 10/14/2011.
411.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
412.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
413.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87.
414.	 Small Business Jobs Act, P.L. 111-240, 9/27/2010, p. 87; Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of
      Terms for Current CPP and CDCI Participants,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_
      Sheet_Final.pdf, accessed 10/14/2011.
415.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
      Getting_Started_Guide_Final.pdf, accessed 10/14/2011.
416.	 Treasury, “Small Business Lending Fund: Senior Preferred Stock – Summary of Terms,” no date, www.treasury.gov/resource-center/sb-
      programs/Documents/SBLF%20Preferred%20Term%20Sheet.pdf, accessed 10/14/2011; Treasury, “Small Business Lending Fund: Mutual
      Institution Senior Securities – Summary of Terms,” 5/9/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF%20Mutual%20
      Institutions%20Term%20Sheet.pdf, accessed 10/14/2011; Treasury, “Small Business Lending Fund: Subchapter S Corporation Senior Securities
      – Summary of Terms,” 5/9/2011, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_S_Corporation_Term_Sheet_05-02-11.pdf,
      accessed 10/14/2011.
198            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      417.	 Treasury, response to SIGTARP data call, 10/5/2011.
      418.	 Treasury, response to SIGTARP data call, 10/5/2011.
      419.	 Treasury, “SBLF — Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_
            Getting_Started_Guide_Final.pdf, accessed 10/14/2011.
      420.	 Treasury, “Resource Center — Small Business Lending Fund,” 12/20/2010, www.treasury.gov/resource-center/sb-programs/Pages/Small-
            Business-Lending-Fund.aspx, accessed 10/14/2011.
      421.	 Treasury, “Small Business Lending Fund, Senior Preferred Stock — Summary of Terms for Current CPP and CDCI Participants,” no date,
            www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Refinancing_Term_Sheet_Final.pdf, accessed 10/14/2011; Treasury, “SBLF—
            Getting Started Guide for Community Banks,” no date, www.treasury.gov/resource-center/sb-programs/Documents/SBLF_Getting_Started_
            Guide_Final.pdf, accessed 10/14/2011.
      422.	 Department of Treasury Budget in Brief FY 2010, pg. 70, www.treasury.gov/about/budget-performance/budget-in-brief/Documents/FY2010BIB-
            Complete.pdf, accessed 10/14/2011.
      423.	 Treasury, response to SIGTARP data call, 10/8/2010.
      424.	 Treasury, Section 105(a) Report, 12/5/2008, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/TARPfirst-
            105report.pdf, accessed 10/14/2011.
      425.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
            Treasury, “Securities Exchange Agreement,” 4/17/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/
            Documents/Series.E.Securities.Exchange.Agreement.pdf, accessed 10/14/2011; Treasury, “Securities Purchase Agreement,” 4/17/2009, www.
            treasury.gov/initiatives/financial-stability/programs/Other%20Programs/AIG/Documents/Series.F.Securities.Purchase.Agreement.pdf, accessed
            10/14/2011.
      426.	 Treasury Press Release, “Treasury Announces Completion of the American International Group Recapitalization Transaction,” 1/14/2011, www.
            treasury.gov/press-center/press-releases/Pages/tg1024.aspx, accessed 10/14/2011.
      427.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      428.	 AIG Press Release, “AIG and the U.S. Department of the Treasury Complete Offering of AIG Common Stock,” 5/27/2011, http://ir.aigcorporate.
            com/External.File?t=2&item=g7rqBLVLuv81UAmrh20MpyFnGcifJXl2dEy5iLkLAwsOTlLL8q9dtnHcYm+OWTrU6d/5nY3+SW6ogyntoS0
            EAw==, accessed 10/14/2011; Treasury, Transactions Report, 10/3/2011 www.treasury.gov/initiatives/financial-stability/briefing-room/reports/
            tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed
            10/14/2011.
      429.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 10/14/2011;
            Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      430.	 Treasury, response to SIGTARP data call, 1/11/2011 and 10/5/2011.
      431.	 AIG, “Certificate of Designations of Series E Fixed Rate Non-Cumulative Perpetual Preferred Stock of American International Group, Inc.,”
            4/17/2009, www.sec.gov/Archives/edgar/data/5272/000095012309006777/y76448exv3w1.htm, accessed 10/14/2011.
      432.	 Treasury Press Release, “Treasury Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.treasury.gov/press-center/press-releases/
            Pages/tg623.aspx, accessed 10/14/2011.
      433.	 FRBNY, “CREDIT AGREEMENT dated as of September 22, 2008, between AMERICAN INTERNATIONAL GROUP, INC., as Borrower and
            FEDERAL RESERVE BANK OF NEW YORK, as Lender,” 9/22/2008, www.newyorkfed.org/aboutthefed/aig/pdf/original_credit_agreement.
            pdf, accessed 10/14/2011; AIG, 10-K, 2/26/2010, www.sec.gov/Archives/edgar/data/5272/000104746910001465/a2196553z10-k.htm, accessed
            10/14/2011.
      434.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/14/2011.
      435.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/14/2011.
      436.	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_
            Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 10/14/2011.
      437.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/14/2011; FRBNY, “Maiden Lane
            Transactions,” no date, www.newyorkfed.org/markets/maidenlane.html, accessed 10/14/2011.
      438.	 FRBNY Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.newyorkfed.org/
            newsevents/news/markets/2011/an110330.html, accessed 10/14/2011.
      439.	 FRBNY, “Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/MLII_recent_bidlistoffering.html, accessed
            10/14/2011; FRBNY, Maiden Lane II LLC: Bid List Offering,” no date, www.newyorkfed.org/markets/mlII_bidlistoffering.html, accessed
            10/14/2011; FRBNY Press Release, “New York Fed to Sell Maiden Lane II Assets in Competitive Process over Time,” 3/30/2011, www.
            newyorkfed.org/newsevents/news/markets/2011/an110330.html, accessed 10/14/2011.
      440.	 Federal Reserve Board, “Factors Affecting Reserve Balances,” 10/6/2011, www.federalreserve.gov/releases/H41/20111006, accessed 10/14/2011.
      441.	 Federal Reserve Bank of New York, “Maiden Lane II Bid List Offering (FRBNY),” no date, www.newyorkfed.org/markets/MLII/maidenlane.cfm,
            accessed 10/14/2011.
      442.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/14/2011.
      443.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/14/2011.
      444.	 FRBNY, “Actions related to AIG,” no date, www.newyorkfed.org/aboutthefed/aig/index.html, accessed 10/14/2011.
      445.	 Federal Reserve Board, “Factors Affecting Reserve Balances,” 12/30/2010, www.federalreserve.gov/releases/h41/20101230/, accessed
            10/14/2011.
      446.	 FRBNY, response to SIGTARP vetting draft, 1/19/2011.
      447.	 AIG, “AIG Enters into Agreement to Sell Star and Edison Life Companies,” 9/30/2010, www.aig.co.jp/news/n2010/100930AIG.pdf, accessed
            10/14/2011.
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                 199


448.	   AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/data/5272/000104746911001283/a2202141z10-k.htm, accessed 10/14/2011.
449.	   AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/14/2011.
450.	   AIG, 8-K, 2/9/2011, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/14/2011.
451.	   Treasury, response to SIGTARP data call, 10/5/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/
        briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_
        INVESTMENT.pdf, accessed 10/14/2011.
452.	   AIG, 8-K, 10/22/2010, www.sec.gov/Archives/edgar/data/5272/000095012310095032/y87334e8vk.htm, accessed 10/14/2011; AIG, “AIG Raises
        Nearly $37 Billion in Two Transactions to Repay Government,” 11/1/2010, http://ir.aigcorporate.com/External.File?t=2&item=g7rqBLVLuv81U
        Amrh20Mp/lptmOSyzUBWuL0HcUb4QPW7icXt6tSsNcMErV4ODIOk1KW0aD3/sacvpSe5qek1w==, accessed 10/14/2011.
453.	   AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/14/2011.
454.	   AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/14/2011.
455.	   Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
        www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 10/14/2011; AIG, 8-K, 3/1/2011, www.sec.gov/Archives/edgar/
        data/5272/000095012311021398/y90008ae8vk.htm, accessed 10/14/2011.
456.	   AIG, “AIG Enters into Agreement to Sell Nan Shan to Taiwan-Based Consortium Led by the Ruentex Group,” 1/12/2011, http://ir.aigcorporate.
        com/External.File?t=2&item=g7rqBLVLuv81UAmrh20Mp2GDwAh4Ju2qNKZiaQ+LC4eLA/wD8wJ898T+OGLtuOD53u0EV2e/
        b6wq8HGwkVuaVQ==, accessed 10/14/2011.
457.	   Treasury Press Release, “Treasury Receives $2 Billion TARP Repayment from American International Group (AIG), 8/18/2011, www.treasury.
        gov/press-center/press-releases/Pages/tg1281.aspx, accessed 10/14/2011; AIG Press Release, “AIG Reduces United States Treasury Investment
        in AIG Subsidiary by Approximately $2 Billion; AIG Applies Proceeds from Completed Sale of Nan Shan,” 8/18/2011, ir.aigcorporate.com/
        phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1597987&highlight=, accessed 10/14/2011.
458.	   AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/14/2011; AIG, 8-K,
        1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011.
459.	   FRBNY, “Master Transaction Agreement,” 12/8/2010, www.ny.frb.org/aboutthefed/aig/pdf/master_transaction_agreement.pdf, accessed
        10/14/2011.
460.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011;
        FRBNY, response to SIGTARP vetting draft, 1/19/2011.
461.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011.
462.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011.
463.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011.
464.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011;
        FRBNY, response to SIGTARP vetting draft, 1/19/2011; Treasury, response to SIGTARP vetting draft, 9/29/2011.
465.	   Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
466.	   Treasury Press Release, “With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 3/8/2011,
        www.treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 10/14/2011; AIG, 8-K 3/2/2011, www.sec.gov/Archives/edgar/
        data/5272/000095012311021398/y90008ae8vk.htm, accessed 10/14/2011.
467.	   AIG, 10-Q, 11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/14/2011.
468.	   Treasury Press Release, “Treasury Receives $2 Billion TARP Repayment from American International Group (AIG), 8/18/2011, www.treasury.
        gov/press-center/press-releases/Pages/tg1281.aspx, accessed 10/14/2011; AIG Press Release, “AIG Reduces United States Treasury Investment
        in AIG Subsidiary by Approximately $2 Billion; AIG Applies Proceeds from Completed Sale of Nan Shan,” 8/18/2011, ir.aigcorporate.com/
        phoenix.zhtml?c=76115&p=irol-newsArticle&ID=1597987&highlight=, accessed 10/14/2011.
469.	   Treasury, response to SIGTARP data call, 10/5/2011.
470.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011.
471.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011;
        AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/14/2011; AIG, 10-Q,
        11/5/2010, www.sec.gov/Archives/edgar/data/5272/000104746910009269/a2200724z10-q.htm, accessed 10/14/2011.
472.	   AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011;
        AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/14/2011; Treasury, Section
        105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/December%20105(a)_
        final_1-11-10.pdf, accessed 10/14/2011.
473.	   AIG, 8-K, 12/8/2010, www.sec.gov/Archives/edgar/data/5272/000095012310111979/y88225e8vk.htm, accessed 10/14/2011.
474.	   Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
        LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
        Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 10/12/2011; AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/
        data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011.
475.	   Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
        LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
        Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 10/12/2011; AIG, 8-K, 1/14/2011, www.sec.gov/Archives/edgar/
        data/5272/000095012311003061/0000950123-11-003061-index.htm, accessed 10/14/2011.
476.	   Master Transaction Agreement dated as of December 8, 2010 among American International Group, Inc., ALICO Holdings LLC, AIA Aurora
        LLC, Federal Reserve Bank of New York, United States Department of the Treasury, and AIG Credit Facility Trust, 12/8/2010, www.sec.gov/
        Archives/edgar/data/5272/000095012310111979/y88225exv2w1.htm, accessed 10/12/2011; AIG, 10-K, 2/24/2011, www.sec.gov/Archives/edgar/
        data/5272/000104746911001283/a2202141z10-k.htm, accessed 10/12/2011.
477.	   AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 10/14/2011;
        Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
        DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
200            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      478.	 AIG, 424B3, 5/11/2011, www.sec.gov/Archives/edgar/data/5272/000095012311048645/y91210b7e424b3.htm, accessed 10/14/2011;
            Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      479.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      480.	 ILFC, 8-K, 9/2/2011, www.sec.gov/Archives/edgar/data/714311/000104746911007795/a2205479z8-k.htm, accessed 10/14/2011.
      481.	 ILFC, 8-K, 9/2/2011, www.sec.gov/Archives/edgar/data/714311/000104746911007795/a2205479z8-k.htm, accessed 10/14/2011.
      482.	 Treasury, “Securities Purchase Agreement,” 12/29/2008, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/tip/
            Documents_Contracts_Agreements/Citigroup_12312008.pdf, accessed 10/14/2011.
      483.	 Treasury, “Guidelines for Targeted Investment Program,” 1/20/2009, www.treasury.gov/press-center/press-releases/Pages/hp1338.aspx, accessed
            10/14/2011.
      484.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 10/14/2011.
      485.	 Treasury, “Warrant Disposition Report,” 8/4/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/other/DocumentsOther/
            TARP_WRRTDISP_80310.pdf, accessed 10/14/2011.
      486.	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 10/14/2011.
      487.	 Treasury, “Exchange Agreement,” 6/9/2011, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/Documents/
            Citigroup%20Exchange%20Agreement.pdf, accessed 10/14/2011; Citigroup, 424(b)(7), 1/24/2011, www.sec.gov/Archives/edgar/
            data/831001/000095012311004665/y89177b7e424b7.htm, accessed 10/14/2011.
      488.	 Citigroup, 8-K, 1/16/2009, www.sec.gov/Archives/edgar/data/831001/000095010309000098/dp12291_8k.htm, accessed 10/14/2011;
            Citigroup,10-Q, 6/30/2009, www.citigroup.com/citi/fin/data/q0902c.pdf?ieNocache=21, accessed 10/14/2011.
      489.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 10/14/2011.
      490.	 Treasury, “Citigroup Termination Agreement,” 12/23/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/Citi%20AGP%20Termination%20Agreement%20-%20Fully%20Executed%20Version.pdf, accessed 10/14/2011.
      491.	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups,” 9/29/2010, www.treasury.gov/press-center/press-releases/Pages/tg876.
            aspx, accessed 10/14/2011.
      492.	 SIGTARP, “Extraordinary Financial Assistance Provided to Citigroup, Inc.,” 1/13/2011, www.sigtarp.gov/reports/audit/2011/Extraordinary%20
            Financial%20Assistance%20Provided%20to%20Citigroup,%20Inc.pdf, accessed 10/14/2011.
      493.	 Treasury, Transactions Report, 2/8/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/2-10-11%20Transactions%20Report%20as%20of%202-8-11.pdf, accessed 10/14/2011.
      494.	 Treasury, Section 105(a) Report, 1/11/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December%20105(a)_final_1-11-10.pdf, accessed 10/14/2011.
      495.	 Bank of America, 8-K, 9/22/2009, www.sec.gov/Archives/edgar/data/70858/000119312509195594/d8k.htm, accessed 10/14/2011.
      496.	 Bank of America, “Termination Agreement,” 9/21/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/agp/
            Documents/BofA%20-%20Termination%20Agreement%20-%20executed.pdf, accessed 10/14/2011.
      497.	 Federal Reserve, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit protection provided for
            TALF,” 7/20/2010, www.federalreserve.gov/newsevents/press/monetary/20100720a.htm, accessed 10/14/2011.
      498.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
            accessed 10/14/2011.
      499.	 FRBNY, response to SIGTARP data call, 10/7/2011.
      500.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      501.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      502.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      503.	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),”11/25/2008,
            www.federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 10/14/2011.
      504.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 7/21/2010, www.newyorkfed.org/markets/talf_faq.html,
            accessed 10/14/2011.
      505.	 Federal Reserve Press Release, “Federal Reserve announces expansion of eligible collateral under The Term Asset-Backed Securities Loan
            Facility (TALF),” 5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 10/14/2011; Federal Reserve Press
            Release, “Federal Reserve announces that certain high-quality commercial mortgage-backed securities will become eligible collateral under The
            Term Asset-Backed Securities Loan Facility (TALF),” 5/19/2009, www.federalreserve.gov/newsevents/press/monetary/20090519b.htm, accessed
            10/14/2011.
      506.	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed
            10/14/2011.
      507.	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” 3/2010, www.federalreserve.gov/monetarypolicy/clbs_
            lendingfacilities_201003.htm, accessed 10/14/2011.
      508.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
      509.	 FRBNY, response to SIGTARP draft report, 1/11/2010.
      510.	 FRBNY, 2009 Annual Report, 12/31/2009, www.newyorkfed.org/aboutthefed/annual/annual09/annual.pdf, accessed 10/14/2011.
      511.	 Federal Reserve Press Release, “Federal Reserve announces agreement with the Treasury Department regarding a reduction of credit
            protection provided for the Term Asset-Backed Securities Loan Facility (TALF),” 7/20/2010, www.federalreserve.gov/newsevents/press/
            monetary/20100720a.htm, accessed 10/14/2011; FRBNY, response to SIGTARP data call, 10/7/2011.
                                                                                      QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                201


512.	 FRBNY, response to SIGTARP data call, 10/7/2011.
513.	 FRBNY, response to SIGTARP data call, 10/7/2011.
514.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/14/2011.
515.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/14/2011.
516.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/14/2011.
517.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/14/2011.
518.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/14/2011.
519.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/14/2011.
520.	 FRBNY, response to SIGTARP data call, 10/7/2011.
521.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/14/2011.
522.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/14/2011.
523.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
      html, accessed 10/14/2011; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet,
      12/2009, www.federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 10/14/2011.
524.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/14/2011.
525.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/14/2011.
526.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/14/2011.
527.	 FRBNY, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq_100401.
      html, accessed 10/14/2011.
528.	 FRBNY, response to SIGTARP draft report, 7/9/2010.
529.	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed
      10/14/2011.
530.	 FRBNY, response to SIGTARP data call, 10/7/2011.
531.	 FRBNY, response to SIGTARP data call, 10/7/2011.
532.	 FRBNY, response to SIGTARP data call, 10/7/2011.
533.	 FRBNY, response to SIGTARP data call, 10/7/2011.
534.	 Federal Reserve, “Term Asset-Backed Securities Loan Facility (TALF),” 12/1/2010, www.federalreserve.gov/newsevents/reform_talf.htm,
      accessed 10/14/2011.
535.	 FRBNY, response to SIGTARP data call, 10/7/2011.
536.	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 4/7/2011.
537.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009 among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
      Sec-Agt.pdf, accessed 10/14/2011; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
538.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/20100701, note 8, accessed
      10/14/2011.
539.	 Treasury, “Security and Intercreditor Agreement dated as of March 3, 2009, among TALF LLC, as Borrower, FRBNY, as Senior Lender, United
      States Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral
      Agent,” 3/3/2009, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Documents_Contracts_Agreements/SPV-
      Sec-Agt.pdf, accessed 10/14/2011.
540.	 FRBNY, response to SIGTARP data call, 10/14/2011.
541.	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 6/30/2011, www.federalreserve.gov/releases/h41/20110630/, accessed 10/14/2011;
      Federal Reserve, response to SIGTARP draft report, 4/8/2010.
542.	 FRBNY, response to SIGTARP data call, 10/7/2011.
543.	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
544.	 Treasury, “Public-Private Investment Program,” 3/23/2009, www.treasury.gov/press-center/press-releases/Documents/ppip_whitepaper_032309.
      pdf, accessed 10/24/2011.
545.	 Treasury Press Release, “Treasury Department Provides Updated Guidance,” 4/6/2009, www.treasury.gov/press-center/press-releases/Pages/tg82.
      aspx, accessed 10/14/2011.
546.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,” 7/8/2009,
      www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/14/2011.
547.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 10/14/2011.
548.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
      Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 10/14/2011.
549.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
202            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/14/2011.
      550.	 Treasury, “Legacy Securities Program,” no date www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/
            Pages/publicprivatefund.aspx, accessed 10/14/2011.
      551.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/press-center/press-releases/Documents/legacy_securities_faqs.pdf, accessed 10/14/2011.
      552.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently www.treasury.gov/press-center/press-
            releases/Documents/legacy_securities_faqs.pdf, accessed 10/14/2011; Treasury, “Amended and Restated Limited Partnership Agreement,” no
            date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20
            LPA%20(redacted).pdf, accessed 10/14/2011.
      553.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 10/14/2011.
      554.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 10/14/2011.
      555.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20
            Programs/ppip/Pages/publicprivatefund.aspx, accessed 10/14/2011; Treasury, “Amended and Restated Limited Partnership Agreement,” no date,
            www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20
            (redacted).pdf, accessed 10/14/2011.
      556.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
            Treasury, response to SIGTARP data call 10/5/2011.
      557.	 Treasury, response to SIGTARP data call, 10/5/2011.
      558.	 Treasury, response to SIGTARP data call, 10/21/2011.
      559.	 Treasury, response to SIGTARP data call, 10/3/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/
            briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_
            INVESTMENT.pdf, accessed 10/14/2011.
      560.	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20
            Market%20Programs/ppip/s-ppip/Documents/AB%20Complete%20LPA%20(redacted).pdf, accessed 10/14/2011.
      561.	 Treasury, “Legacy Securities Public-Private Program (Legacy Securities PPIP) Additional Frequently, www.treasury.gov/press-center/press-
            releases/Documents/legacy_securities_faqs.pdf, accessed 10/14/2011.
      562.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20
            Programs/ppip/Pages/publicprivatefund.aspx, accessed 10/14/2011.
      563.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      564.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      565.	 OFS Conference Call with SIGTARP, 10/6/2011; Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
            reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf,
            accessed 10/14/2011; Transactions Report, 7/1/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/7-1-11%20Transactions%20Report%20as%20of%206-30-11_INVESTMENT.pdf, accessed 10/14/2011
      566.	 OFS Conference Call with SIGTARP, 10/6/2011.
      567.	 SEC, “Oaktree Capital Group Amendment Number 2 to Form S-1 Registration Statement,” 9/2/2011, www.sec.gov/Archives/edgar/
            data/1403528/000119312511240165/ds1a.htm, accessed 10/14/2011.
      568.	 Treasury, “Public-Private Investment Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20
            Programs/ppip/Pages/publicprivatefund.aspx, accessed 10/14/2011.
      569.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2011,” 4/21/2011, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Pages/publicprivatefund.aspx, p. 9, accessed
            10/14/2011.
      570.	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update — Quarter Ended March 31, 2011,” 4/21/2011, www.
            treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/Pages/publicprivatefund.aspx, p. 9, accessed
            10/14/2011.
      571.	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, frwebgate.access.gpo.gov/cgi-
            bin/getdoc.cgi?dbname=111_cong_senate_committee_prints&docid=f:51601.pdf, accessed 10/14/2011.
      572.	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treasury.gov/press-center/press-releases/Pages/tg58.aspx,
            accessed 10/12/2011; SBA, “Q&A for Small Business Owners,” no date, www.sbaonline.sba.gov/idc/groups/public/documents/sba_homepage/
            recovery_act_faqs.pdf, accessed 10/12/2011.
      573.	 Treasury, Transactions Report, 10/3/2011 www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/12/2011.
      574.	 Treasury, Section 105(a) Report — July 2010, 8/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/
            Documents105/July%202010%20105(a)%20Report_Final.pdf, accessed 10/12/2011.
      575.	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed by Coastal
            Securities, Inc. 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_
            Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 10/12/2011; Treasury, “Master Purchase Agreement for SBA Pooled
            Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed by Shay Financial Services, Inc. 8/27/2010, www.treasury.gov/
            initiatives/financial-stability/programs/investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20
                                                                                          QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                   203


      of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 10/12/2011.
576.	 Treasury Press Release, “Treasury Announces Sale of 6 SBA 7(a) Securities, 6/8/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1203.aspx, accessed 10/12/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA
      Pool Assemblers,” signed by Shay Financial Services, Inc., 8/27/2010, www.treasury.gov/initiatives/financial-stability/programs/investment-
      programs/cbli/Small-Business/Documents_Contracts_Agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20
      MPA%20(73485877_2).pdf, accessed 10/12/2011; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities
      Issued by SBA Pool Assemblers,” signed by Coastal Securities, Inc. 3/2/2010, www.treasury.gov/initiatives/financial-stability/programs/
      investment-programs/cbli/Small-Business/Documents_Contracts_Agreements/Coastal%20Securities,%20Inc.pdf, accessed 10/12/2011.
577.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/12/2011.
578.	 Treasury Press Release, “Treasury to Begin Sales of Its Small Business Administration (SBA) 7(a) Securities Portfolio,” 6/2/2011, www.treasury.
      gov/press-center/press-releases/Pages/tg1198.aspx, accessed 10/12/2011.
579.	 Treasury Press Release, “Treasury to Begin Sales of Its Small Business Administration (SBA) 7(a) Securities Portfolio,” 6/2/2011, www.treasury.
      gov/press-center/press-releases/Pages/tg1198.aspx, accessed 10/12/2011.
580.	 Treasury Press Release, “Treasury Announces Sale of Four SBA 7(a) Securities,” 9/21/2011, www.treasury.gov/press-center/press-releases/Pages/
      tg1302.aspx, accessed 10/12/2011.
581.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/12/2011.
582.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/12/2011.
583.	 Treasury, “Automotive Industry Financing Program,” no date, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 10/13/2011.
584.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/132011.
585.	 Treasury, response to SIGTARP vetting draft, 10/8/2009; Treasury, Section 105(a) Report, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/105/Documents105/April%202010%20105(a)%20report_final.pdf, accessed 10/13/2011.
586.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011.
587.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011.
588.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/13/2011;
      Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
      stability/briefing-room/reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/14/2011; Treasury, response
      to SIGTARP data call, 10/5/2011.
589.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
      Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
590.	 Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/
      Pages/autoprogram.aspx, accessed 10/14/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-
      room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf,
      accessed 10/14/2011.
591.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
592.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
593.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
594.	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_
      Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 10/14/2011.
595.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/14/2011.
596.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
597.	 Motors Company, 10-Q, 8/16/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510189968/d10q.htm, accessed 10/14/2011.
598.	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_
      Insight_on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, accessed 10/14/2011.
599.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/14/2011.
600.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/14/2011.
601.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/14/2011; Treasury
      Press Release, “Taxpayers Receive Additional $1.8 Billion in Proceeds from GM IPO: Exercise of Over-allotment Option Brings Total Taxpayer
      Proceeds from GM IPO to $13.5 Billion,” www.treasury.gov/press-center/press-releases/Pages/tg992.aspx, 12/2/2010, accessed 10/14/2011.
602.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 10/14/2011.
603.	 Treasury Press Release, “General Motors Repays Taxpayers $2.1 Billion, Completing Repurchase of Treasury Preferred Stock,” 12/15/2010,
      www.treasury.gov/press-center/press-releases/Pages/tg1006.aspx, accessed 10/14/2011.
204            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



      604.	 General Motors, 10-K, 3/1/2011, www.sec.gov/Archives/edgar/data/1467858/000119312511051462/d10k.htm, accessed 10/14/2011.
      605.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011; General
            Motors Company, “Amendment No. 9 to Form S-1 Registration Statement,” 12/3/2010, edgar.brand.edgar-online.com/EFX_dll/EDGARpro.dll?F
            etchFilingHTML1?ID=7564696&SessionID=X8WpHq0H3PqZXs7, accessed 10/14/2011.
      606.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      607.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 10/14/2011.
      608.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 10/14/2011; Treasury Press Release, “Treasury Announces Agreement to Exit Remaining Stake in Chrysler Group LLC,”
            6/2/2011, www.treasury.gov/press-center/press-releases/Pages/tg1199.aspx. accessed 10/14/2011.
      609.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      610.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      611.	 Congressional Oversight Panel, “January Oversight Report: An Update on TARP Support for the Domestic Auto Industry,” 1/13/2011, www.
            gpo.gov/fdsys/pkg/CHRG-112shrg63381/pdf/CHRG-112shrg63381.pdf, accessed 10/14/2011; Treasury, Transactions Report, 10/3/2011, www.
            treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20
            Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      612.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      613.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            www.chryslergroupllc.com/en-us/investor/PressReleases/ChryslerDocuments/Chrysler_Group_LLC_Completes_Refinancing.pdf, accessed
            10/14/2011; Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/
            Pages/tg1189.aspx, accessed 10/14/2011.
      614.	 Chrysler Press Release, “Chrysler Group LLC Completes Refinancing and Repays U.S. and Canadian Government Loans in Full,” 5/24/2011,
            www.chryslergroupllc.com/en-us/investor/PressReleases/ChryslerDocuments/Chrysler_Group_LLC_Completes_Refinancing.pdf, accessed
            10/14/2011.
      615.	 Treasury Press Release, “Chrysler Repays Outstanding TARP Loans,” 5/24/2011, www.treasury.gov/press-center/press-releases/Pages/tg1189.
            aspx, accessed 10/14/2011.
      616.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” www.treasury.gov/press-center/press-releases/Pages/tg1253.aspx,
            accessed 10/14/2011.
      617.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
            DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011; Treasury, Transactions Report,
            10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20
            Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      618.	 Ally Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 10/14/2011.
      619.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 10/14/2011.
      620.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 10/14/2011; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
            gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 10/14/2011.
      621.	 Ally Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 10/14/2011; Treasury,
            Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%202010%20
            105(a)%20report_final.pdf, accessed 10/14/2011.
      622.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 10/14/2011.
      623.	 Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 10/14/2011; Ally Financial, Amended and Restated Governance Agreement, 5/21/2009, www.sec.
            gov/Archives/edgar/data/40729/000119312509117131/dex102.htm, accessed 10/14/2011.
      624.	 Ally Financial, 8-K, 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 10/14/2011.
      625.	 Treasury Press Release, “Treasury Converts Nearly Half of Its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 10/14/2011.
      626.	 Treasury, Section 105(a) Report, 1/10/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/
            December105(a)%20report_FINAL_v4.pdf, accessed 10/14/2011.
      627.	 Treasury Press Release, “Treasury Converts Nearly Half of its Ally Preferred Shares to Common Stock,” 12/30/2010, www.treasury.gov/press-
            center/press-releases/Pages/tg1014.aspx, accessed 10/14/2011.
      628.	 Treasury Press Release, “Treasury Announces Public Offering of Ally Financial Inc. TRuPs,” 3/1/2011, www.treasury.gov/press-center/press-
            releases/Pages/tg1081.aspx, accessed 10/14/2011.
      629.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011; Treasury
            Press Release, “Treasury: With $6.9 Billion Repayment Today from AIG, 70 Percent of TARP Disbursements Now Recovered,” 7/20/2011, www.
            treasury.gov/press-center/press-releases/Pages/tg1096.aspx, accessed 10/14/2011.
      630.	 Ally Financial, 8-K, 12/30/2010, www.sec.gov/Archives/edgar/data/40729/000119312510291571/d8k.htm, accessed 10/14/2011; Ally Financial,
            Amended and Restated Governance Agreement, 5/21/2009, www.sec.gov/Archives/edgar/data/40729/000119312509117131/dex102.htm,
            accessed 10/14/2011.
      631.	 Treasury Press Release, “Treasury Names Appointee to Ally Board of Directors,” 2/28/2011, www.treasury.gov/press-center/press-releases/Pages/
                                                                                        QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011                 205



      tg1080.aspx, accessed 10/14/2011.
632.	 Treasury, response to SIGTARP data call, 10/5/2011.
633.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 10/14/2011.
634.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 10/14/2011.
635.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 10/14/2011.
636.	 SEC, “Ally Financial, Inc.: Form S-1 Registration Statement,” 3/31/2011, www.sec.gov/Archives/edgar/data/40729/000119312511084175/ds1.
      htm, accessed 10/14/2011.
637.	 Ally Financial Press Release, “Ally Financial Files Registration Statement with the Securities and Exchange Commission for a Proposed Initial
      Public Offering,” 3/31/2011, media.ally.com/index.php?s=43&item=453, accessed 10/14/2011.
638.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
      data/40729/000119312511142459/ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 2 to Form S-1 Registration
      Statement,” 6/3/2011, www.sec.gov/Archives/edgar/data/40729/000119312511158393/ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial,
      Inc.: Amendment No. 3 to Form S-1 Registration Statement,” 6/29/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/
      ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/
      Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 10/14/2011.
639.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
      data/40729/000119312511142459/ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 2 to Form S-1 Registration
      Statement,” 6/3/2011, www.sec.gov/Archives/edgar/data/40729/000119312511158393/ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial,
      Inc.: Amendment No. 3 to Form S-1 Registration Statement,” 6/29/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/
      ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/
      Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 10/14/2011.
640.	 SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
      data/40729/000119312511142459/ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 2 to Form S-1 Registration
      Statement,” 6/3/2011, www.sec.gov/Archives/edgar/data/40729/000119312511158393/ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial,
      Inc.: Amendment No. 3 to Form S-1 Registration Statement,” 6/29/2011, www.sec.gov/Archives/edgar/data/40729/000119312511175943/
      ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form S-1 Registration Statement,” 8/18/2011, www.sec.gov/
      Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 10/14/2011.
641.	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in Ally Financial Inc.’s Registration
      Statement for its Initial Public Offering,” 3/31/2011, www.treasury.gov/press-center/press-releases/Pages/tg1124.aspx, accessed
      10/14/2011; Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-
      transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed
      10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 1 to Form S-1 Registration Statement,” 5/17/2011, www.sec.gov/Archives/edgar/
      data/40729/000119312511142459/ds1a.htm, accessed 10/14/2011; SEC, “Ally Financial, Inc.: Amendment No. 4 to Form S-1 Registration
      Statement,” 8/18/2011, www.sec.gov/Archives/edgar/data/40729/000119312511226269/ds1a.htm, accessed 10/14/2011.
642.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
643.	 Ally Financial, 8-K, 1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 10/14/2011; Ally Financial,
      8-K, 5/22/1010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 10/14/2011; Ally Financial, 10-K,
      2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 10/14/2011; Treasury, “Office of
      Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/
      reports/agency_reports/Documents/2010%20OFS%20AFR%20Nov%2015.pdf, accessed 10/14/2011.
644.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011; Ally
      Financial, 10-K, 2/27/2009, www.sec.gov/Archives/edgar/data/40729/000119312509039567/d10k.htm#toc11086_9, accessed 10/14/2011; Ally
      Financial, 8-K, 5/22/2010, www.sec.gov/Archives/edgar/data/40729/000119312509117131/d8k.htm, accessed 10/14/2011; Ally Financial, 8-K,
      1/5/2010, www.sec.gov/Archives/edgar/data/40729/000119312510001221/d8k.htm, accessed 10/14/2011.
645.	 Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
646.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
      Treasury, Dividends and Interest Report, 10/11/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/dividends-interest/
      DocumentsDividendsInterest/September%202011%20Dividends%20Interest%20Report.pdf, accessed 10/14/2011.
647.	 Amendment Number Four to Loan and Security Agreement dated as of January 2, 2009 between CGI Holding LLC and the United States
      Department of the Treasury, 7/23/2009, www.treasury.gov/initiatives/financial-stability/programs/Other%20Programs/aifp/Documents_
      Contracts_Agreements/Chrysler%20LSA%20as%20of%2005-26-10.pdf, accessed 10/14/2011; Treasury, Transactions Report, 10/3/2011, www.
      treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/10-3-11%20Transactions%20
      Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
648.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
      DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
649.	 TD Bank Press Release, “TD Bank Group to acquire Chrysler Financial,” 12/21/2010, td.mediaroom.com/index.php?s=43&item=1120, accessed
      10/14/2011.
650.	 TD Bank Group Press Release, “TD Completes Chrysler Financial Acquisition,” 4/1/2011, td.mediaroom.com/index.php?s=43&item=1210,
      accessed 10/14/2011; TD Auto Finance LLC, 8-K, 4/5/2011, google.brand.edgar-online.com/displayfilinginfo.aspx?FilingID=7845191-1054-
206            SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM



            9050&type=sect&TabIndex=2&companyid=684228&ppu=%252fdefault.aspx%253fcompanyid%253d684228, accessed 10/14/2011.
      651.	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/
            tg64.aspx, accessed 10/14/2011.
      652.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      653.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      654.	 Treasury, response to SIGTARP data call, 7/9/2010.
      655.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011;
            Treasury, Section 105(a) Report, 5/10/2010, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Documents105/April%20
            2010%20105(a)%20report_final.pdf, accessed 10/14/2011.
      656.	 Treasury, “Office of Financial Stability: Agency Financial Report — Fiscal Year 2010,” 11/15/2010, www.treasury.gov/initiatives/financial-
            stability/briefing-room/reports/agency_reports/Documents/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf
            accessed 10/14/2011.
      657.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      658.	 Treasury, Transactions Report, 10/3/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/
            DocumentsTARPTransactions/10-3-11%20Transactions%20Report%20as%20of%209-30-11_INVESTMENT.pdf, accessed 10/14/2011.
      659.	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
      660.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.
            gov/press-center/press-releases/Pages/tg165.aspx, accessed 10/12/2011; Treasury, “TARP Standards for Compensation and Corporate
            Governance,”6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
            10/12/2011.
      661.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,”6/10/2009, www.treasury.gov/
            press-center/press-releases/Pages/tg165.aspx, accessed 10/12/2011; Treasury Press Release, “TARP Standards for Compensation and Corporate
            Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
            10/12/2011.
      662.	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/
            press-center/press-releases/Pages/tg165.aspx, accessed 10/12/2011; Treasury Press Release, “TARP Standards for Compensation and Corporate
            Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed
            10/12/2011.
      663.	 Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-
            releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 10/12/2011; Treasury Press Release, “Interim Final Rule on TARP
            Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed
            10/12/2011; Treasury Press Release, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treasury.gov/press-
            center/press-releases/Documents/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 10/12/2011.
      664.	 Treasury, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP): Additional Frequently Asked Questions,” 7/8/2009,
            www.treasury.gov/initiatives/financial-stability/programs/Credit%20Market%20Programs/ppip/s-ppip/Documents/legacy_securities_faqs.pdf,
            accessed 10/12/2011.
      665.	 Treasury, response to SIGTARP data call, 10/6/2010; Financial Stability Oversight Board, “Quarterly Report to Congress,” 9/30/2010, www.
            treasury.gov/initiatives/financial-stability/about/Oversight/FSOB/Reports/FINSOB%20Quarterly%20Report%20(093010).pdf, accessed
            10/12/2011.
      666.	 Treasury Press Release, “Special Master for Executive Compensation,” 9/4/2009, www.treasury.gov/press-center/press-releases/Pages/tg329.aspx,
            accessed 10/12/2011.
      667.	 Treasury, response to SIGTARP data call, 10/5/2011.
      668.	 Treasury, “Determination Regarding Citigroup’s December 23, 2009, TARP Repayment — Citigroup,” 12/23/2009, www.treasury.gov/initiatives/
            financial-stability/exec_comp/Documents/20091223%20Citigroup%20Supplemental%20Determination%20Letter.pdf, accessed 10/12/2011;
            Feinberg, Kenneth L., Letter to J Steele Alphin of Bank of America, “Re: Compensation Structures for Executive Officers and Certain Most
            Highly Compensated Employees,” 12/11/2009, www.treasury.gov/initiatives/financial-stability/exec_comp/Documents/20091210%20Bank%20
            of%20America%20Determination.pdf, accessed 10/12/2011.
      669.	 Treasury Press Release, “Chrysler Financial Parent Company Repays $1.9 Billion in Settlement of Original Chrysler Loan,” 5/17/2010, www.
            treasury.gov/press-center/press-releases/Pages/tg700.aspx, accessed 10/12/2011; Transactions Report, 11/18/2010, www.treasury.gov/initiatives/
            financial-stability/briefing-room/reports/tarp-transactions/DocumentsTARPTransactions/11-18-10%20Transactions%20Report%20as%20of%20
            11-16-10.pdf, accessed 10/12/2011.
      670.	 Treasury Press Release, “Treasury Exits Investment in Chrysler Group LLC,” 7/21/2011, www.treasury.gov/press-center/press-releases/Pages/
            tg1253.aspx, accessed 10/12/2011.
      671.	 Treasury Press Release, “Fact Sheet: Acting Special Master Issues 2011 Compensation Determinations for ‘Top 25’ Executives at Four
            Companies that Received Exceptional TARP Assistance,” 4/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1126.aspx, accessed
            10/12/2011.
      672.	 Treasury Press Release, “Fact Sheet: Acting Special Master Issues 2011 Compensation Determinations for ‘Top 25’ Executives at Four
            Companies that Received Exceptional TARP Assistance,” 4/1/2011, www.treasury.gov/press-center/press-releases/Pages/tg1126.aspx, accessed
            10/12/2011.
      673.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      674.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
      675.	 Treasury, response to SIGTARP data call, 10/7/2011.
                                                                                       QUARTERLY REPORT TO CONGRESS I OCTOBER 27, 2011          207


676.	 Treasury, response to SIGTARP data call, 10/11/2011.
677.	 Treasury, response to SIGTARP data call, 10/5/2011 and 10/14/2011.
678.	 Treasury, response to SIGTARP data call, 10/11/2011 and 10/14/2011.
679.	 Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, cybercemetery.unt.edu/
      archive/cop/20110401233834/http://cop.senate.gov/reports/library/report-101410-cop.cfm, accessed 10/14/2011.
680.	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
208   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                       GLOSSARY I APPENDIX A I OCTOBER 27, 2011      209




GLOSSARY
This appendix provides a glossary of terms that are used in the context of this report.

7(a) Loan Program: SBA loan program guaranteeing a                 dividend payment. If the company does not pay the dividend
percentage of loans for small businesses that cannot other-        on schedule, it still owes the missed dividend to the
wise obtain conventional loans at reasonable terms.                stock’s owner.
504 Community Development Loan Program: SBA                        Custodian Bank: Bank holding the collateral and managing
program combining Government-guaranteed loans with                 accounts for FRBNY; for TALF the custodian is Bank of New
private-sector mortgages to provide loans of up to $10 million     York Mellon.
for community development.
                                                                   Debt: Investment in a business that is required to be paid
Asset-Backed Securities (“ABS”): Bonds backed by a                 back to the investor, usually with interest.
portfolio of consumer or corporate loans, e.g., credit card,
                                                                   Debtor-in-Possession (“DIP”): Company operating under
auto, or small-business loans. Financial companies typically
                                                                   Chapter 11 bankruptcy protection that technically still owns
issue ABS backed by existing loans in order to fund new loans
                                                                   its assets but is operating them to maximize the benefit to
for their customers.
                                                                   its creditors.
Auction Agent: Firm (such as an investment bank) that buys
                                                                   Deed-in-Lieu of Foreclosure: Instead of going through
a series of securities from an institution for resale.
                                                                   foreclosure, the borrower voluntarily surrenders the deed to
Bank Holding Company (“BHC”): Company that owns and/               the home to the home lender, as satisfaction of the unpaid
or controls one or more U.S. banks.                                mortgage balance.
Collateral: Asset pledged by a borrower to a lender until a        Deficiency Judgment: Court order authorizing a lender to
loan is repaid. Generally, if the borrower defaults on the loan,   collect all or part of an unpaid and outstanding debt resulting
the lender gains ownership of the pledged asset and may sell       from the borrower’s default on the mortgage note securing a
it to satisfy the debt. In TALF, the ABS or CMBS purchased         debt. A deficiency judgment is rendered after the foreclosed
with the TALF loan is the collateral that is posted with           or repossessed property is sold when the proceeds are insuf-
FRBNY.                                                             ficient to repay the full mortgage debt.
Commercial Mortgage-Backed Securities (“CMBS”):                    Due Diligence: Appropriate level of attention or care a
Bonds backed by one or more mortgages on commercial real           reasonable person should take before entering into an agree-
estate (e.g., office buildings, rental apartments, hotels).        ment or a transaction with another party. In finance, it often
                                                                   refers to the process of conducting an audit or review of the
Common Stock: Equity ownership entitling an individual to
                                                                   institution before initiating a transaction.
share in corporate earnings and voting rights.
                                                                   Dutch Auction: A Treasury warrant auction (which has
Community Development Financial Institutions
                                                                   multiple bidders bidding for different quantities of the as-
(“CDFIs”): Financial institutions eligible for Treasury
                                                                   set) in which the accepted price is set at the lowest bid of
funding to serve urban and rural low-income communi-
                                                                   the group of high bidders whose collective bids fulfill the
ties through the CDFI Fund. CDFIs were created in 1994
                                                                   amount of shares offered by Treasury. As an example, three
by the Riegle Community Development and Regulatory
                                                                   investors place bids to own a portion of 100 shares offered
Improvement Act. These entities must be certified by
                                                                   by the issuer:
Treasury; certification confirms that they target at least 60%
of their lending and other economic development activities to       • Bidder A wants 50 shares at $4/share.
areas underserved by traditional financial institutions.            • Bidder B wants 50 shares at $3/share.
Community Development Loan Fund (“CDLF”): Financial                 • Bidder C wants 50 shares at $2/share.
institution that is a type of certified CDFI. These entities
(usually non-profits) serve businesses, organizations, and         The seller selects Bidders A and B as the two highest bidders,
individuals in urban and rural low-income communities.             and their collective bids consume the 100 shares offered. The
                                                                   winning price is $3, which is what both bidders pay per share.
Cumulative Preferred Stock: Stock requiring a defined              Bidder C’s bid is not filled.
210           APPENDIX A I GLOSSARY I OCTOBER 27, 2011




      Equity: Investment that represents an ownership interest in          and the Federal Home Loan Mortgage Corporation (“Freddie
      a business.                                                          Mac”), were placed into Federal conservatorship. They are
                                                                           currently being financially supported by the Government.
      Equity Capital Facility: Commitment to invest equity capital
      in a firm under certain future conditions. An equity facility        Haircut: Difference between the value of the collateral
      when drawn down is an investment that increases the pro-             and the value of the loan (the loan value is less than the
      vider’s ownership stake in the company. The investor may be          collateral value).
      able to recover the amount invested by selling their ownership
                                                                           Illiquid Assets: Assets that cannot be quickly converted
      stake to other investors at a later date.
                                                                           to cash.
      Equity Share Agreement: Agreement that a homeowner will
                                                                           Investors: Owners of mortgage loans or bonds backed by
      share future increases in home value with a mortgage investor
                                                                           mortgage loans who receive interest and principal payments
      or other party. In the context of mortgage loan modifications,
                                                                           from monthly mortgage payments. Servicers manage the cash
      the investor may reduce the borrower’s unpaid principal bal-
                                                                           flow from borrowers’ monthly payments and distribute them
      ance (“UPB”) in return for the right to share in a portion of
                                                                           to investors according to Pooling and Servicing Agreements
      any future rise in the home’s value. An equity share agree-
                                                                           (“PSAs”).
      ment thus may provide the mortgage investor with a prospect
      of recovering its full investment, even if it provides a principal   Legacy Securities: Real estate-related securities originally
      reduction to the borrower. Conversely, it may also provide an        issued before 2009 that remained on the balance sheets
      immediate benefit to an “underwater” borrower, yet still offer       of financial institutions because of pricing difficulties that
      that borrower some prospect of benefiting from future home           resulted from market disruption.
      price appreciation.
                                                                           Limited Partnership: Partnership in which there is at least
      Exceptional Assistance Recipients: Companies that receive            one partner whose liability is limited to the amount invested
      assistance under SSFI, TIP, and AIFP. Current recipients are         (limited partner) and at least one partner whose liability ex-
      AIG, GM, and Ally Financial (formerly GMAC).                         tends beyond monetary investment (general partner).
      Excess Spread: Funds left over after required payments and           Loan Servicers: Companies that perform administra-
      other contractual obligations have been met. In TALF it is           tive tasks on monthly mortgage payments until the loan is
      the difference between the periodic amount of interest paid          repaid. These tasks include billing, tracking, and collecting
      out by the collateral and the amount of interest charged by          monthly payments; maintaining records of payments and
      FRBNY on the nonrecourse loan provided to the borrower to            balances; allocating and distributing payment collections
      purchase the collateral.                                             to investors in accordance with each mortgage loan’s gov-
                                                                           erning documentation; following up on delinquencies; and
      Exercise Price: Preset price at which a warrant holder may
                                                                           initiating foreclosures.
      purchase each share. For warrants in publicly traded institu-
      tions issued through CPP, this was based on the average stock        Loan-to-Value (“LTV”) Ratio: Lending risk assessment ratio
      price during the 20 days before the date that Treasury granted       that mortgage lenders examine before approving a mortgage;
      preliminary CPP participation approval.                              calculated by dividing the outstanding amount of the loan by
                                                                           the value of the collateral backing the loan. Loans with high
      FICO Credit Score: Used by lenders to assess an applicant’s
                                                                           LTV ratios are generally seen as higher risk because the bor-
      credit risk and whether to extend a loan. It is determined
                                                                           rower has less of an equity stake in the property.
      by the Fair Isaac Corporation (“FICO”) using mathematical
      models based on an applicant’s payment history, level of in-         Mutual Depository Institution: Any bank, savings associa-
      debtedness, types of credit used, length of credit history, and      tion, bank holding company, or savings and loan holding
      newly extended credit.                                               company organized in a mutual form. Savings associations
                                                                           organized as mutual institutions issue no capital stock and
      Government-Sponsored Enterprises (GSEs): Private
                                                                           therefore have no stockholders. Mutual savings associations
      corporations created and chartered by the Government to
                                                                           build capital almost exclusively through retained earnings.
      reduce borrowing costs and provide liquidity in the market,
      the liabilities of which are not officially considered direct
                                                                           Nationally Recognized Statistical Rating Organization
      taxpayer obligations. On September 7, 2008, the two largest,
                                                                           (“NRSRO”): Credit rating agency registered with the SEC.
      the Federal National Mortgage Association (“Fannie Mae”)
                                                                                    GLOSSARY I APPENDIX A I OCTOBER 27, 2011         211




Credit rating agencies provide their opinion of the creditwor-    Revolving Credit Facility: Line of credit for which bor-
thiness of companies and the financial obligations issued by      rowers pay a commitment fee, allowing them to repeatedly
companies. The ratings distinguish between investment grade       draw down funds up to a guaranteed maximum amount. The
and non–investment grade equity and debt obligations.             amount of available credit decreases and increases as funds
                                                                  are borrowed and then repaid.
Net Present Value (“NPV”) Test: Compares the money
generated by modifying the terms of the mortgage with the         Risk-Weighted Assets: Risk-based measure of total assets
amount an investor can reasonably expect to recover in a          held by a financial institution. Assets are assigned broad risk
foreclosure sale.                                                 categories. The amount in each risk category is then multi-
                                                                  plied by a risk factor associated with that category. The sum of
Non-Agency Residential Mortgage-Backed Securities
                                                                  the resulting weighted values from each of the risk categories
(“non-agency RMBS”): Financial instrument backed by a
                                                                  is the bank’s total risk-weighted assets.
group of residential real estate mortgages (i.e., home mort-
gages for residences with up to four dwelling units) not          SBA Pool Certificates: Ownership interest in a bond backed
guaranteed or owned by a Government-sponsored enterprise          by SBA-guaranteed loans.
(“GSE”) (Fannie Mae or Freddie Mac) or a Government
                                                                  Senior Executive Officers (“SEOs”): “Named executive of-
Agency.
                                                                  ficers” of TARP recipients as defined under Federal securities
Non-Cumulative Preferred Stock: Preferred stock                   law, which generally include the principal executive officer,
with a defined dividend, without the obligation to pay            the principal financial officer, and the next three most highly
missed dividends.                                                 compensated officers.
Non-Recourse Loan: Secured loan in which the borrower is          Senior Preferred Stock: Shares that give the stockholder
relieved of the obligation to repay the loan upon surrendering    priority dividend and liquidation claims over junior preferred
the collateral.                                                   and common stockholders.
Obligations: Definite commitments that create a legal             Senior Subordinated Debentures: Debt instrument ranking
liability for the Government to pay funds.                        below senior debt but above equity with regard to investors’
                                                                  claims on company assets or earnings.
Pool Assemblers: Firms authorized to create and market
pools of SBA- guaranteed loans.                                   Servicing Advances: If borrowers’ payments are not made
                                                                  promptly and in full, servicers are contractually obligated to
Preferred Stock: Equity ownership that usually pays a fixed
                                                                  advance the required monthly payment amount in full to the
dividend before distributions for common stock owners but
                                                                  investor. Once a borrower becomes current or the property is
only after payments due to debt holders and depositors. It
                                                                  sold or acquired through foreclosure, the servicer is repaid all
typically confers no voting rights. Preferred stock also has
                                                                  advanced funds.
priority over common stock in the distribution of assets when
a bankrupt company is liquidated.                                 Short Sales: Sales of a home for less than the unpaid mort-
                                                                  gage balance. A borrower sells the home and the lender col-
Pro Rata: Refers to dividing something among a group of
                                                                  lects the proceeds as full or partial satisfaction of the unpaid
participants according to the proportionate share that each
                                                                  mortgage balance, thus avoiding the foreclosure process.
participant holds as a part of the whole.
                                                                  Skin in the Game: Equity stake in an investment; down pay-
Public Interest: Regulatory standard that the Special Master
                                                                  ment; the amount an investor can lose.
is required to apply in making determinations. It refers to
the determination of whether TARP-recipient compensation          Special Purpose Vehicle (“SPV”): Off-balance-sheet legal
plans are aligned with the best interests of the U.S. taxpayer,   entity that holds transferred assets presumptively beyond the
based on a balancing of specific principles set forth in          reach of the entities providing the assets, and that is legally
the Rule.                                                         isolated.
Qualifying Financial Institutions (“QFIs”): Private and           Subchapter S corporations (“S corporations”): Corporate
public U.S.-controlled banks, savings associations, bank hold-    form that passes corporate income, losses, deductions, and
ing companies, certain savings and loan holding companies,        credit through to shareholders for Federal tax purposes.
and mutual organizations.                                         Shareholders of S corporations report the flow-through of
212              APPENDIX A I GLOSSARY I OCTOBER 27, 2011




 income and losses on their personal tax returns and are taxed                                   FCIC, glossary, no date, www.fcic.gov/resource/glossary, accessed 10/5/2011.
                                                                                                 FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/
 at their individual income tax rates.                                                           credit_card_securitization/glossary.html, accessed 10/5/2011.
                                                                                                 FDIC, “FDIC Law, Regulations, Related Acts,” no date, www.fdic.gov/regulations/laws/
 Subordinated Debt: Loan (or security) that ranks below                                          rules/2000-4600.html, accessed 10/5/2011.
 other loans (or securities) with regard to claims on assets                                     FRBNY, “TALF FAQ’s,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html,
                                                                                                 accessed 10/5/2011.
 or earnings.
                                                                                                 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
                                                                                                 3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
 Synthetic ABS: Security deriving its value and cash flow                                        Affordable_Modification_Program.pdf, accessed 10/5/2011.
 from sources other than conventional debt, equities, or                                         GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004,
                                                                                                 www.gao.gov/special.pubs/d06382sp.pdf, p. 7-3, accessed 10/5/2011.
 commodities — for example, credit derivatives.
                                                                                                 GAO, “Troubled Asset Relief Program Treasury Needs to Strengthen Its Decision-Making Process
                                                                                                 on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.pdf,
 Systemically Significant Institutions: Term referring to any                                    accessed 10/5/2011.
 financial institution whose failure would impose significant                                    GAO, “Troubled Asset Relief Program: Third Quarter 2010 Update of Government Assistance
                                                                                                 Provided to AIG and Description of Recent Execution of Recapitalization Plan,” 1/20/2011,
 losses on creditors and counterparties, call into question the                                  www.gao.gov/new.items/d1146.pdf, accessed 10/5/2011.
 financial strength of similar institutions, disrupt financial                                   IRS, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/article/
                                                                                                 0,,id=106572,00.html, accessed 10/5/2011.
 markets, raise borrowing costs for households and businesses,
                                                                                                 Making Home Affordable base NPV model documentation v4.0, updated 10/1/2010.
 and reduce household wealth.                                                                    www.hmpadmin.com/portal/programs/docs/hamp_servicer/
                                                                                                 npvmodeldocumentationv4.pdf, pp. 23-24, accessed 10/5/2011.
 TALF Agent: Financial institution that is party to the TALF                                     SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, archive.sba.gov/idc/
                                                                                                 groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 10/5/2011.
 Master Loan and Security Agreement and that occasion-
                                                                                                 SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 10/5/2011.
 ally acts as an agent for the borrower. TALF agents include                                     SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
 primary and nonprimary broker-dealers.                                                          3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_
                                                                                                 Affordable_Modification_Program.pdf, accessed 10/5/2011.
 Trial Modification: Under HAMP, a period of at least three                                      Treasury, “Decoder,” www.treasury.gov/initiatives/financial-stability/Pages/Glossary.aspx, accessed
                                                                                                 10/5/2011.
 months in which a borrower is given a chance to establish                                       Treasury, “Examinations of Mutual Savings Associations,” 11/1/2001, www.ots.treas.gov/
 that he or she can make lower monthly mortgage payments                                         _files/25153.pdf, accessed 10/5/2011.

 and qualify for a permanent modification.                                                       Treasury, “Fact Sheet: Unlocking Credit for Small Businesses,” no date, www.treasury.gov/initiatives/
                                                                                                 financial-stability/investment-programs/sbli/Pages/unlockingCreditforSmallBusinesses.aspx,
                                                                                                 accessed 10/5/2011.
 Trust Preferred Securities (“TRUPS”): Securities that have                                      Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
 both equity and debt characteristics, created by establishing a                                 Government Reform,” 10/28/2009, www.treasury.gov/press-center/press-releases/Pages/
                                                                                                 tg334.aspx, accessed 10/5/2011.
 trust and issuing debt to it.
                                                                                                 Treasury, “Supplemental Directive 10-14: Making Home Affordable Program - Principal Reduction
                                                                                                 Alternative Update,” 10/15/2010, www.hmpadmin.com/portal/programs/docs/hamp_servicer/
 Undercapitalized: Condition in which a financial institution                                    sd1014.pdf, accessed 10/5/2011.
 does not meet its regulator’s requirements for sufficient                                       Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009,
                                                                                                 www.treasury.gov/press-center/press-releases/Pages/tg165.aspx, accessed 10/5/2011.
 capital to operate under a defined level of adverse conditions.
                                                                                                 U.S. Census Bureau, “Residential Finance Survey, Glossary Of RFS Terms And Definitions,” no date,
                                                                                                 www.census.gov/hhes/www/rfs/glossary.html#l, accessed 10/5/2011.
 Underwater Mortgage: Mortgage loan on which a home-                                             U.S. Department of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/
 owner owes more than the home is worth, typically as a result                                   sfh/buying/glossary.cfm, accessed 10/5/2011.

 of a decline in the home’s value. Underwater mortgages are
 also referred to as having negative equity.

 Notes:
 Board of Governors of the Federal Reserve System, “Bank Holding Companies,” no date,
 www.fedpartnership.gov/bank-life-cycle/manage-transition/bank-holding-companies.cfm, accessed
 10/5/2011.
 Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral,
 www.frbservices.org, accessed 10/5/2011.
                                                                                ACRONYMS AND ABBREVIATIONS I APPENDIX B I OCTOBER 27, 2011           213




ACRONYMS AND ABBREVIATIONS

2MP               Second Lien Modification Program                       CMBS                  commercial mortgage-backed securities
ABS               asset-backed securities                                Coastal
                                                                                               Coastal Securities, Inc.
                                                                         Securities
AGP               Asset Guarantee Program
                                                                         COP                   Congressional Oversight Panel
                  American International Assurance Co., Ltd.;
AIA
                  AIA Group Limited                                      COTR                  contracting officer’s technical representative
AIA SPV           AIA Aurora LLC                                         CPP 	                 Capital Purchase Program
AIFP              Automotive Industry Financing Program                  Customers             Customers Bancorp, Inc., Phoenixville, Pennsylvania
AIG               American International Group, Inc.                     DIP                   debtor-in-possession
AIG Trust         AIG Credit Facility Trust                                                    Dodd-Frank Wall Street Reform and Consumer
                                                                         Dodd-Frank Act
                                                                                               Protection Act
ALICO             American Life Insurance Company
                                                                         DTI                   debt-to-income ratio
ALICO SPV         ALICO Holdings LLC
                                                                         Edison                AIG Edison Life Insurance Company
Ally Financial    Ally Financial Inc.
                                                                         EESA                  Emergency Economic Stabilization Act of 2008
ARM               adjustable rate mortgage
                                                                         Fannie Mae            Federal National Mortgage Association
ARRA              American Recovery and Reinvestment Act of 2009
                                                                         FAR                   Federal Acquisition Regulation
ASSP              Auto Supplier Support Program
                                                                         FBI                   Federal Bureau of Investigation
AWCP              Auto Warranty Commitment Program
                                                                         FCB                   First Community Bank of America
Bank of
                  Bank of America Corporation
America                                                                  FCBA                  First Community Bank Corporation of America
                  Bank of Granite Corporation, Granite Falls,            FBHC                  FBHC Holding Company
Bank of Granite
                  North Carolina
                                                                         FDIC                  Federal Deposit Insurance Corporation
BHC               bank holding company
                                                                                               Federal Deposit Insurance Corporation Office of
                                                                         FDIC OIG
Broadway          Broadway Financial Corporation                                               Inspector General
Cadence           Cadence Financial Corporation                          FFETF                 Financial Fraud Enforcement Task Force
CAP               Capital Assistance Program                             FHA                   Federal Housing Administration
Capital Bank      Capital Bank Corporation                               FHA2LP                Treasury/FHA Second-Lien Program
CBO               Congressional Budget Office                            FHFA                  Federal Housing Finance Agency
CDCI              Community Development Capital Initiative                                     Federal Housing Finance Agency Office of the
                                                                         FHFA OIG
                                                                                               Inspector General
CDFI              Community Development Financial Institution
                                                                         Fiat                  Fiat North America LLC
CDS               Credit Default Swap
                                                                         FICO                  Fair Isaac Corporation
CDO               collateralized debt obligations
                                                                         Fidelity              Fidelity Resources Company
CDLF              Community Development Loan Fund
                                                                         FirstCity             FirstCity Bank
Central Pacific   Central Pacific Financial Corp.
                                                                         First Peoples         First Peoples Bank
Centrue           Centrue Financial Corporation, Saint Louis, Missouri
                                                                         FOFR                  Florida Office of Financial Regulation
CEO               chief executive officer
                                                                         FPB                   FPB Bancorp, Port St. Lucie, Florida
Cerberus          Cerberus Capital Management, L.P.
                                                                         FRBNY                 Federal Reserve Bank of New York
Chrysler          Chrysler Holding LLC
                                                                                               Federal Reserve Board Office of the Inspector
Chrysler                                                                 FRB OIG
                  Chrysler Financial Services Americas LLC                                     General
Financial
                                                                         Freddie Mac           Federal Home Loan Mortgage Corporation
Citigroup         Citigroup, Inc.
                                                                         FTC                   Federal Trade Commission
Citizens Bank     Citizens Bank of Northern California
214             APPENDIX B I ACRONYMS AND ABBREVIATIONS I OCTOBER 27, 2011




      GAO                 Government Accountability Office                        PPIP             Public-Private Investment Program
      GM                  General Motors Company                                  PRA              Principal Reduction Alternative program
      GMAC                GMAC Inc.                                               Provident        Provident Bankshares Corporation
      Green                                                                       PSA              Pooling and Servicing Agreement
                          Green Bankshares, Inc., Greenville, Tennessee
      Bankshares
                                                                                  QA               quality assurance
      GSE                 Government-sponsored enterprise
                                                                                  QFI              qualifying financial institution
      HAFA                Home Affordable Foreclosure Alternatives program
                                                                                                   Rural Development Home Affordable Modification
                                                                                  RD-HAMP
      HAMP                Home Affordable Modification Program                                     Program
      HFA                 Housing Finance Agency                                  RHS              Rural Housing Service
      HHF                 Hardest Hit Fund                                        RMA              request for modification and affidavit
      HPDP                Home Price Decline Protection program                   RMBS             residential mortgage-backed securities
      HSC                 HAMP Solution Center                                    Royal            Royal Bancshares of Pennsylvania, Inc., Narberth,
                                                                                  Bancshares       Pennsylvania
      HUD                 Department of Housing and Urban Development
                                                                                                   Interim Final Rule on TARP Standards for
                          Department of Housing and Urban Development             The Rule
      HUD OIG                                                                                      Compensation and Corporate Governance
                          Office of the Inspector General
                                                                                  SBA              Small Business Administration
      ILFC                International Lease Finance Corporation
                                                                                  SBLF             Small Business Lending Fund
      Integra             Integra Bank Corporation, Evansville, Indiana
                                                                                  SEC              Securities and Exchange Commission
      IPO                 initial public offering
                                                                                  Secret Service   Secret Service
      IRS                 Internal Revenue Service
                                                                                  SEO              senior executive officer
                          Internal Revenue Service Criminal Investigation
      IRS-CI
                          Division                                                Shay Financial   Shay Financial Services, Inc.
      Legacy              Legacy Bancorp, Inc.                                                     Special Inspector General for the Troubled Asset
                                                                                  SIGTARP
                                                                                                   Relief Program
      LPS                 Lender Processing Services
                                                                                  SPA              Servicer Participation Agreement
      LTV                 loan-to-value ratio
                                                                                                   Office of the Special Master for TARP Executive
      MBS                 mortgage-backed securities                              Special Master
                                                                                                   Compensation
      MCP                 mandatorily convertible preferred shares
                                                                                  SPV              special purpose vehicle
      Metropolitan        Metropolitan Bank Group, Inc.
                                                                                  SSFI             Systemically Significant Failing Institutions program
      MHA                 Making Home Affordable program
                                                                                  Star             AIG Star Life Insurance Co., Ltd.
      Nan Shan            Nan Shan Life Insurance Company Ltd.
                                                                                  SunTrust         SunTrust Banks, Inc.
      NC Bancorp          NC Bancorp, Inc.
                                                                                  TALF             Term Asset-Backed Securities Loan Facility
      New Chrysler        Chrysler Group LLC
                                                                                  TARP             Troubled Asset Relief Program
      NHMC                Nations Housing Modification Center
                                                                                  TBW              Taylor, Bean and Whitaker Mortgage Corporation
      North American      North American Financial Holdings, Inc.
                                                                                  TCW              The TCW Group, Inc.
      The Notice          Notice 2010-2
                                                                                  TIP              Targeted Investment Program
      NPV                 net present value
                                                                                  TOTAL            FHA TOTAL Scorecard
      NRSRO               nationally recognized statistical rating organization
                                                                                  TPP              trial period plan
      OCC                 Office of the Comptroller of the Currency
                                                                                  Treasury         Department of the Treasury
      Old Chrysler        Chrysler Group LLC
                                                                                  TRUPS            trust preferred securities
      Old GM              General Motors Corp.
                                                                                  UAW              United Auto Workers
      Old National        Old National Bancorp, Evansville, Indiana
                                                                                  UCSB             Unlocking Credit for Small Businesses
      OFS                 Office of Financial Stability
                                                                                  UP               Home Affordable Unemployment Program
      OMB                 Office of Management and Budget
                                                                                  UPB              unpaid principal balance
      Omni                Omni National Bank
                                                                                  USDA             Department of Agriculture
      One Georgia         One Georgia Bank, Atlanta, Georgia
                                                                                  USPIS            Postal Inspection Service
      PPIF                Public-Private Investment Fund
                                                                                  VA               Department of Veterans Affairs
                                               ACRONYMS AND ABBREVIATIONS I APPENDIX B I OCTOBER 27, 2011   215




VEBA      UAW Retiree Medical Benefits Trust
Veritex   Veritex Holdings
216           APPENDIX C I REPORTING REQUIREMENTS I OCTOBER 27, 2011




      REPORTING REQUIREMENTS
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italic style indicates narrative taken verbatim from source documents.



            EESA        EESA Reporting                                                                                                      SIGTARP
       #    Section     Requirement          Treasury Response to SIGTARP Data Call                                                         Report Section

       1    Section     A description of     Treasury’s authority to make new financial commitments under TARP ended on                     Section 2:
            121(c)(A)   the categories of    October 3, 2010                                                                                “TARP Overview”
                        troubled assets
                        purchased or         Below are program descriptions from Treasury’s www.treasury.gov/initiatives/financial-         Appendix D:
                        otherwise procured   stability/Pages/default.aspx website, as of 9/30/2011:                                         “Transaction
                        by the Treasury                                                                                                     Detail”
                        Secretary.

                                             CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize
                                             the financial system by providing capital to viable financial institutions of all sizes
                                             throughout the nation. With a strengthened capital base, financial institutions have an
                                             increased capacity to lend to U.S. businesses and consumers and to support the U.S.
                                             economy.
                                             AIG: In September of 2008, panic in the financial system was deep and widespread.
                                             Amidst these events, on Friday, September 12, American International Group (AIG)
                                             officials informed the Federal Reserve and Treasury that the company was facing
                                             potentially fatal liquidity problems. At the time, AIG was the largest provider of
                                             conventional insurance in the world, with approximately 75 million individual and corporate
                                             customers in over 130 countries.a
                                             AGP: Under the Asset Guarantee Program (AGP), Treasury acted to support the value of
                                             certain assets held by qualifying financial institutions, by agreeing to absorb unexpectedly
                                             large losses on certain assets. The program was designed for financial institutions whose
                                             failure could harm the financial system and was used in conjunction with other forms of
                                             exceptional assistance.
                                             TIP: Under the Targeted Investment Program [TIP], Treasury provided exceptional
                                             assistance on a case-by-case basis in order to stabilize institutions that were considered
                                             systemically significant to prevent broader disruption of financial markets. Treasury
                                             provided this assistance by purchasing preferred stock, and also received warrants to
                                             purchase common stock, in the institutions.
                                             TALF: This joint initiative with the Federal Reserve builds off, broadens and expands the
                                             resources available to support the consumer and business credit markets by providing
                                             the financing to private investors to help unfreeze and lower interest rates for auto,
                                             student loan, small business, credit card and other consumer and business credit. The
                                             U.S. Treasury originally committed $20 billion to provide credit protection for $200
                                             billion of lending from the Federal Reserve. This commitment was later reduced to $4.3
                                             billion after the program closed to new lending on June 30, 2010 with $43 billion in loans
                                             outstanding.

                                             PPIP: On March 23, 2009, the U.S. Department of the Treasury (“Treasury”), announced
                                             the Legacy Securities Public-Private Investment Program (“PPIP”) as a key component of
                                             President Obama’s Financial Stability Plan. The Financial Stability Plan outlines a broad
                                             framework to bring capital into the financial system and address the problem of legacy
                                             real estate assets.


                                             CDCI: As part of the Administration’s ongoing commitment to improving access to credit
                                             for small businesses, Treasury announced on February 3 final terms for the Community
                                             Development Capital Initiative [CDCI]. This TARP program invested lower-cost capital in
                                             Community Development Financial Institutions (CDFIs) that lend to small businesses in the
                                             country’s hardest-hit communities.
                                                                                       REPORTING REQUIREMENTS I APPENDIX C I OCTOBER 27, 2011               217



    EESA        EESA Reporting                                                                                                          SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                          Report Section

                                        SBLF: Enacted into law as part of the Small Business Jobs Act of 2010 (the Jobs Act), the
                                        Small Business Lending Fund (SBLF) is a $30 billion fund that encourages lending to small
                                        businesses by providing capital to qualified community banks with assets of less than $10
                                        billion. Through the Small Business Lending Fund, Main Street banks and small businesses
                                        can work together to help create jobs and promote economic growth in local communities
                                        across the nation.


                                        UCSB: The Treasury Department will begin making direct purchases of securities backed
                                        by SBA loans to get the credit market moving again, and it will stand ready to purchase
                                        new securities to ensure that community banks and credit unions feel confident in
                                        extending new loans to local businesses.b


                                        AIFP: The objective of the [AIFP] is to prevent a significant disruption of the American
                                        automotive industry, which would pose a systemic risk to financial market stability and
                                        have a negative effect on the economy of the United States.


                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.b


                                        AWCP: The Treasury Department announced an innovative new program to give
                                        consumers who are considering new car purchases the confidence that even while
                                        Chrysler and GM were restructuring in bankruptcy, their warrantees will be honored. This
                                        program is part of the Administration’s broader program to stabilize the auto industry and
                                        stand behind a restructuring effort that will result in stronger, more competitive and viable
                                        American car companies.b


                                        HAMP (a program under MHA): The Home Affordable Modification Program has a
                                        simple goal: reduce the amount homeowners owe per month to sustainable levels to
                                        stabilize communities. This program will bring together lenders, investors, servicers,
                                        borrowers and the government, so that all stakeholders share in the cost of ensuring that
                                        responsible homeowners can afford their monthly mortgage payments ’Äì helping to reach
                                        up to 3 to 4 million at-risk borrowers in all segments of the mortgage market, reducing
                                        foreclosures, and helping to avoid further downward pressures on overall home prices.b


2   Section     A listing of the        Treasury’s authority to make new financial commitments under TARP ended on                      Appendix D:
    121(c)(B)   troubled assets         October 3, 2010.                                                                                “Transaction
                purchased in each                                                                                                       Detail”
                such category           Information on all transactions as well as additional information about these programs
                described under         and related purchases is available in the transaction reports and monthly 105(a) reports
                Section 121(c)(A)       posted at www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/
                                        Home.aspx. Information regarding all transactions through the end of September 2011 is
                                        available at the aforementioned link in a transaction report dated 10/3/2011.


3   Section     An explanation          Treasury’s authority to make new financial commitments under TARP ended on                      Section 2: “TARP
    121(c)(C)   of the reasons          October 3, 2010.                                                                                Overview”
                the Treasury
                Secretary deemed                                                                                                        Appendix C:
                it necessary to                                                                                                         “Reporting
                purchase each such                                                                                                      Requirements”
                troubled asset.                                                                                                         of prior SIGTARP
                                                                                                                                        Quarterly Reports
                                                                                                                                        to Congress

4   Section     A listing of each       See #2.                                                                                         See #2.
    121(c)(D)   financial institution
                from which such
                troubled assets
                were purchased.
218                  APPENDIX C I REPORTING REQUIREMENTS I OCTOBER 27, 2011




                 EESA              EESA Reporting                                                                                                                             SIGTARP
      #          Section           Requirement                     Treasury Response to SIGTARP Data Call                                                                     Report Section

      5          Section           A listing of                    There have been no new PPIP fund managers hired between June 30, 2011, and                                 Section 2: ”Public-
                 121(c)(E)         and detailed                    September 30, 2011.                                                                                        Private Investment
                                   biographical                                                                                                                               Program“
                                   information on each
                                   person or entity                                                                                                                           Appendix C:
                                   hired to manage                                                                                                                            “Reporting
                                   such troubled                                                                                                                              Requirements”
                                   assets.                                                                                                                                    of prior SIGTARP
                                                                                                                                                                              Quarterly Reports
                                                                                                                                                                              to Congress


      6          Section           A current estimate              The transaction reports capture detailed information about troubled asset purchases,                       Table C.1; Section
                 121(c)(F)         of the total amount             price paid, and the amount of troubled assets currently on Treasury’s books. The latest                    2: “TARP Overview”
                                   of troubled assets              transaction reports are available on Treasury’s website at www.treasury.gov/initiatives/
                                   purchased pursuant              financial-stability/briefing- room/reports/Pages/Home.aspx. Information regarding all                      Appendix D:
                                   to any program                  transactions through the end of September 2011 is available at the aforementioned link in                  “Transaction
                                   established under               a transaction report dated October 3, 2011.                                                                Detail”
                                   Section 101, the
                                   amount of troubled              Treasury published its most recent valuation of TARP investments as of June 30, 2011, on
                                   assets on the                   October 11, 2011, in its September 2011 105(a) report that is available at the following
                                   books of Treasury,              link: www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/
                                   the amount of                   default.aspx
                                   troubled assets
                                   sold, and the profit            Information on the repayments of Treasury’s investments under the CPP and proceeds
                                   and loss incurred               from the sale of warrants are available within Treasury’s press releases, transactions
                                   on each sale or                 reports and Section 105(a) Monthly Congressional Reports at the following links:
                                   disposition of each             www.treasury.gov/initiatives/financial-stability/briefing-room/Pages/press-releases.aspx
                                   such troubled                   www.treasury.gov/initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx
                                   assets.


      7          Section           A listing of the                Treasury’s authority to make new financial commitments under TARP ended on October 3,                      Section 2:
                 121(c)(G)         insurance contracts             2010. As such, Treasury cannot issue any new insurance contracts after this date.                          “TARP Overview”
                                   issued under
                                   Section 102.                                                                                                                               Section 2:
                                                                                                                                                                              “Targeted
                                                                                                                                                                              Investment
                                                                                                                                                                              Program and
                                                                                                                                                                              Asset Guarantee
                                                                                                                                                                              Program”


      8          Section           A detailed statement            Treasury’s authority to make new financial commitments under TARP ended on                                 Table C.1;
                 121(f)            of all purchases,               October 3, 2010.                                                                                           Section 2:
                                   obligations,                                                                                                                               “TARP Overview”
                                   expenditures, and               Treasury provides information about TARP obligations, expenditures and revenues in
                                   revenues associated             separate transaction reports available on Treasury’s public website at www.treasury.gov/     Section 3:
                                   with any program                initiatives/financial-stability/briefing-room/reports/Pages/Home.aspx. Information regarding “TARP Operations
                                   established by the              all transactions through the end of September 2011 is available at the aforementioned link and Administration”
                                   Secretary of the                in a transaction report dated October 3, 2011.
                                   Treasury under                                                                                                               Appendix D:
                                   Sections 101 and                Information on obligations and expenditures is also available in the Daily TARP Update       “Transaction Detail”
                                   102.                            reports available on Treasury’s public website at: www.treasury.gov/initiatives/financial-
                                                                   stability/briefing-room/reports/tarp-daily-summary-report/pages/default.aspx, accessed
                                                                   10/14/2011.
      Notes:
      a
          Otherwise known as Systemically Significant Failing Institution (“SSFI”).
      b
          Description is of 3/31/2011.

      Sources: Treasury, response to SIGTARP data call, 10/5/2011; Program Descriptions: Treasury, “Programs,” www.treasury.gov/initiatives/financial-stability/programs/Pages/default.aspx accessed
      10/14/2011; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.treasury.gov/press-center/press-releases/Pages/tg64.aspx, accessed 10/14/2011; AWCP: “Obama
      Administration’s New Warrantee Commitment Program,” no date, www.whitehouse.gov/assets/documents/Warrantee_Commitment_Program.pdf, accessed 10/14/2011; TALF: Federal Reserve, “Term
      Asset-Backed Securities Loan Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 10/14/2011; SBLF: Small
      Business Lending Act, P.L. 111-240, 9/27/2010; MHA “Making Home Affordable Updated Detailed Description Update,” 3/26/2010, www.treasury.gov/initiatives/financial-stability/programs/housing-
      programs/mha/Pages/default.aspx, accessed 10/14/2011.
                                                                                                                      REPORTING REQUIREMENTS I APPENDIX C I OCTOBER 27, 2011                     219




TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS ($ BILLIONS)

                                                                                                             Obligations                      Expended            On Treasury’s Booksa

Housing Support Programs                                                                                           $45.62                          $2.48                               $2.48


Capital Purchase Program (“CPP”)                                                                                   204.89                         204.89                               19.97


Community Development Capital Initiative (“CDCI”)                                                                      0.57                          0.21                               0.57


Systemically Significant Failing Institutions (“SSFI”)                                                               69.84                         67.84                               52.80


Targeted Investment Program (“TIP”)                                                                                  40.00                         40.00                                    —


Asset Guarantee Program (“AGP”)                                                                                        5.00                             —                                   —


Term Asset-Backed Securities Loan Facility (“TALF”)                                                                    4.30                          0.10                               0.10


Public-Private Investment Program (“PPIP”)                                                                           22.41                         17.58                               16.29


Unlocking Credit for Small Businesses (“UCSB”)                                                                         0.40                          0.37                               0.13


Automotive Industry Support Programs (“AIFP”)b                                                                       81.76                         79.69                               44.54


Small Business Lending Program                                                                                             —                            —                                   —


Total                                                                                                           $474.79                         $413.20                           $136.88

Notes: Numbers affected by rounding. Obligation figures are as of 10/3/2010 and expended figures are as of 9/30/2011.

a
    “On Treasury’s Books” calculated as the amount of TARP funds remaining outstanding, including losses and write-offs.
b
    Includes amounts for AIFP, ASSP, and AWCP.

Sources: Repayments data: Treasury, Transactions Report, 10/3/2011; Treasury, Transactions Report — Housing Programs, 9/28/2011; Treasury, Daily TARP Update, 10/3/2011; Treasury, response to
SIGTARP data call, 10/5/2011.
TABLE D.1                                                                                                                                                                                                                                                          220

 CPP TRANSACTION DETAIL, AS OF 9/30/2011
                                                                                                                               Capital             Capital      Remaining    Final                          Final   Stock Price       Current        Dividends/
 Purchase                                                                                                                      Repayment        Repayment         Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
 Date        Institution                                           Investment Description                  Investment Amount   Date               Amount6         Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

12/23/2008   1st Constitution Bancorp, Cranbury, NJ                Preferred Stock w/ Warrants                  $12,000,000    10/27/2010      $12,000,000              —                                                $6.60                      $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49,c            Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011         $4,400,000                   9/1/2011        R         $220,000
                                                                                                                                                                                                                        $10.65                      $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49,c        Preferred Stock                                $6,000,000   9/1/2011         $6,000,000              —
11/14/2008   1st FS Corporation, Hendersonville, NC                Preferred Stock w/ Warrants                  $16,369,000                                                                                                                         $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN                Preferred Stock w/ Warrants                 $111,000,000    12/29/2010     $111,000,000              —    3/9/2011        R        $3,750,000        $20.83                     $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2             Preferred Stock w/ Exercised Warrants        $10,000,000    11/18/2009      $10,000,000              —    11/18/2009      R         $500,000          $4.93                        $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC              Preferred Stock w/ Warrants                    $3,500,000                                                                                             $1.10                        $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                         Preferred Stock w/ Exercised Warrants        $12,720,000    7/21/2011       $12,720,000                   7/21/2011       R         $636,000                                     $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2          Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                          $909,297
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK           Preferred Stock w/ Warrants                    $4,781,000                                                                                             $6.19                        $605,317
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2                Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                          $347,567
12/19/2008   Alliance Financial Corporation, Syracuse, NY          Preferred Stock w/ Warrants                  $26,918,000    5/13/2009       $26,918,000              —    6/17/2009       R         $900,000         $28.05                        $538,360
                                                                   Subordinated Debentures w/ Exercised
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                  $12,000,000                                                                                                                           $388,742
                                                                   Warrants
                                                    2
4/24/2009    Allied First Bancorp, Inc., Oswego, IL                Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                             $0.55                        $409,753
                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2       Preferred Stock w/ Exercised Warrants        $70,000,000                                                                                                                         $6,231,166
1/30/2009    AMB Financial Corp., Munster, IN2,50                  Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011        $3,674,000              —    9/22/2011       R         $184,000          $4.25                        $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49       Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011        $2,492,000              —    9/15/2011       R         $125,000                                       $343,021
1/9/2009     American Express Company, New York, NY                Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009     $3,388,890,000             —    7/29/2009       R      $340,000,000        $44.90                     $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2                Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011        $1,800,000              —    1/26/2011       R          $90,000                                       $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2      Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                                          $850,200
11/21/2008   Ameris Bancorp, Moultrie, GA                          Preferred Stock w/ Warrants                  $52,000,000                                                                                              $8.71       698,554        $7,106,667
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50             Preferred Stock w/ Warrants                  $21,000,000    8/11/2011       $21,000,000              —                                                $1.90     1,312,500        $2,776,667

                                                               8   Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE                                                         $5,000,000                                            —                                                                             $832,010
                                                                   Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI            Preferred Stock w/ Warrants                 $110,000,000                                             —                                                $0.50     7,399,103
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD                Preferred Stock w/ Warrants                    $8,152,000                                                                                             $3.80       299,706        $1,035,983
                                                                                                                               4/6/2011       $262,500,000    $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WI                   Preferred Stock w/ Warrants                 $525,000,000                                                                                              $9.30     3,983,308       $68,104,167
                                                                                                                               9/14/2011      $262,500,000              —
                                                        2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC               Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                             $1.10                        $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49    Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011        $7,400,000              —    9/15/2011       R         $370,000                                     $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49              Preferred Stock w/ Exercised Warrants        $21,100,000    7/14/2011       $21,100,000              —    7/14/2011       R        $1,055,000                                    $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49         Preferred Stock w/ Exercised Warrants        $13,669,000    8/18/2011       $13,669,000              —    8/18/2011       R         $410,000                                     $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI            Preferred Stock w/ Warrants                  $30,000,000    8/5/2009        $30,000,000              —    9/30/2009       R        $1,400,000        $42.39                        $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30               Preferred Stock w/ Exercised Warrants        $48,000,000    9/29/2010       $48,000,000              —    9/29/2010       R        $2,400,000                                    $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                           Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                        $1,109,257
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL           Preferred Stock w/ Warrants                  $50,000,000                                                                                              $2.30       730,994        $6,638,889
8/14/2009    Bank Financial Services, Inc., Eden Prarie, MN2       Preferred Stock w/ Exercised Warrants          $1,004,000                                            —                                                                             $109,552
10/28/2008   Bank of America Corporation, Charlotte, NC1b          Preferred Stock w/ Warrants              $15,000,000,000    12/9/2009    $15,000,000,000             —    3/3/2010        A      $186,342,969                                  $458,333,333
                                                                                                                                                                                                                         $6.12
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b,c     Preferred Stock w/ Warrants              $10,000,000,000    12/9/2009    $10,000,000,000             —    3/3/2010        A      $124,228,646                                  $835,416,667
1/16/2009    Bank of Commerce, Charlotte, NC2,c                    Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                          $381,046
11/14/2008   Bank of Commerce Holdings, Redding, CA49              Preferred Stock w/ Warrants                  $17,000,000    9/27/2011       $17,000,000              —                                                $3.00       405,405        $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                        Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                          $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CA                     Preferred Stock w/ Warrants                  $28,000,000    3/31/2009       $28,000,000              —                                               $33.04       154,692          $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC     Preferred Stock w/ Warrants                  $13,179,000                                                                                              $0.53       475,204        $1,039,677
12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR             Preferred Stock w/ Warrants                  $75,000,000    11/4/2009       $75,000,000              —    11/24/2009      R        $2,650,000        $20.93                      $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                          Preferred Stock w/ Exercised Warrants        $12,639,000                                                                                                                           $717,532
             Denver, CO2

                                                                                                                                                                                                                                         Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                              Capital                            Remaining    Final                         Final   Stock Price       Current        Dividends/
Purchase                                                                                                                      Repayment              Capital       Capital    Disposition             Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date        Repayment Amount6        Amount     Date          Note15     Proceeds     9/30/2011       Warrants           Treasury

1/23/2009    BankFirst Capital Corporation, Macon, MS2,49         Preferred Stock w/ Exercised Warrants        $15,500,000    9/8/2011          $15,500,000              —    9/8/2011        R        $775,000                                     $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                      Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                           $136,553
11/21/2008   Banner Corporation, Walla Walla, WA                  Preferred Stock w/ Warrants                 $124,000,000                                                                                              $12.79       243,998       $16,946,667
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2, 49   Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011            $795,000              —    7/28/2011       R         $40,000                                       $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                Preferred Stock w/ Warrants                  $18,751,000    2/24/2010         $18,751,000              —    7/28/2010       R        $250,000         $28.00                      $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                        Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009       $3,133,640,000             —    7/22/2009       R      $67,010,402        $21.33                     $92,703,517
4/3/2009     BCB Holding Company, Inc., Theodore, AL2             Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                           $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                    Preferred Stock w/ Warrants                  $10,800,000    1/26/2011         $10,800,000              —                                              $11.75       183,465        $1,129,500
1/30/2009    Beach Business Bank, Manhattan Beach, CA2            Preferred Stock w/ Exercised Warrants          $6,000,000   7/6/2011            $1,500,000     $4,500,000                                              $8.34                        $823,000
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA        Preferred Stock w/ Warrants                  $40,000,000    5/27/2009         $40,000,000              —    6/24/2009       R       $1,040,000        $18.47                        $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                  Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011             $985,000              —    9/1/2011        R         $50,000                                       $137,063
             Birmingham Bloomfield Bancshares,
4/24/2009                                                         Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011           $1,635,000             —    7/28/2011       R         $82,000
             Birmingham, MI2,49,c
                                                                                                                                                                                                                         $2.25                        $342,023
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                        Preferred Stock                                $1,744,000   7/28/2011           $1,744,000             —
             Birmingham, MI2,10a,49,c
                                                                  Subordinated Debentures w/ Exercised
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL8,10                                                    $6,400,000                                                                                                                         $1,125,557
                                                                  Warrants
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI2                 Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                               $5.90                      $1,320,111
5/22/2009    Blackridge Financial, Inc., Fargo, ND2               Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                           $607,826
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2       Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                          $1,269,850
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2        Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                              $0.89                        $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS              Preferred Stock w/ Warrants                  $21,750,000                                                                                               $5.00       111,083          $211,458
4/17/2009    BNB Financial Services Corporation, New York, NY2    Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                           $440,542
12/5/2008    BNC Bancorp, Thomasville, NC                         Preferred Stock w/ Warrants                  $31,260,000                                                                                               $6.85       543,337        $4,211,417
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49        Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011            $4,797,000             —    8/4/2011        R        $240,000         $13.00                        $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                         Preferred Stock w/ Exercised Warrants        $20,093,000                                                                                               $1.88                        $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                  Preferred Stock w/ Exercised Warrants        $10,000,000    7/14/2011         $10,000,000              —    7/14/2011       R        $500,000         $13.00                      $1,283,777
                                                                  Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                $5,586,000                                                                                                                           $468,624
                                                                  Warrants

             Boston Private Financial Holdings, Inc.,                                                                         1/13/2010         $50,000,000    $104,000,000
11/21/2008                                                        Preferred Stock w/ Warrants                 $154,000,000                                                    2/1/2011        A       $6,352,500         $5.88                     $11,022,222
             Boston, MA                                                                                                       6/16/2010        $104,000,000              —
                                                                                                                              2/23/2011         $15,000,000      $8,864,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                Preferred Stock w/ Warrants                  $23,864,000                                                    4/20/2011       R       $1,395,000        $10.03                      $2,613,582
                                                                                                                              3/16/2011           $8,864,000             —
                                                        2
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL             Preferred Stock w/ Exercised Warrants        $38,000,000                                                                                                                          $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                        Preferred Stock                                $9,000,000
             Los Angeles, CA3a,c
                                                                                                                                                                                                                         $1.50                        $810,417
             Broadway Financial Corporation,
12/4/2009                                                         Preferred Stock                                $6,000,000                                              —
             Los Angeles, CA3,10a,c
                                                                  Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                              $2,400,000                                                                                                                           $402,720
                                                                  Warrants
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS2,49    Preferred Stock w/ Exercised Warrants        $11,000,000    9/15/2011         $11,000,000              —    9/15/2011       R        $550,000                                     $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2              Preferred Stock w/ Exercised Warrants        $15,000,000                                                                                                                          $1,887,063
3/13/2009    Butler Point, Inc., Catlin, IL2                      Preferred Stock w/ Exercised Warrants           $607,000                                                                                                                              $80,055
1/9/2009     C&F Financial Corporation, West Point, VA            Preferred Stock w/ Warrants                  $20,000,000    7/27/2011         $10,000,000     $10,000,000                                             $23.34       167,504        $2,575,000
12/23/2008   Cache Valley Banking Company, Logan, UT2,49,c        Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011           $4,767,000             —    7/14/2011       R
                                                                                                                                                                                                       $238,000                                     $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49,c    Preferred Stock                                $4,640,000   7/14/2011           $4,640,000             —
1/9/2009     Cadence Financial Corporation, Starkville, MS33      Preferred Stock w/ Warrants                  $44,000,000    3/4/2011          $38,000,000              —                                                                          $3,984,063
2/27/2009    California Bank of Commerce, Lafayette, CA2,49       Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011           $4,000,000             —    9/15/2011       R        $200,000                                       $555,900
                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




1/23/2009    California Oaks State Bank, Thousand Oaks, CA2       Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010           $3,300,000             —    12/8/2010       R        $165,000                                       $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2          Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                           $144,780
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2         Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                              $0.40                        $396,164

                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                   221
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                    222
                                                                                                                                 Capital                            Remaining    Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

12/23/2008   Capital Bancorp, Inc., Rockville, MD2                   Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010           $4,700,000            —    12/30/2010      R         $235,000                                       $517,281
12/12/2008   Capital Bank Corporation, Raleigh,NC35                  Preferred Stock w/ Warrants                  $41,279,000    1/28/2011          $41,279,000             —                                                $2.08       749,619        $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2          Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                            $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA           Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009        $3,555,199,000            —    12/3/2009       A      $148,731,030        $39.63                    $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                  Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                            $576,489
                                                                     Subordinated Debentures w/ Exercised
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO8,50                                                          $6,251,000   9/8/2011             $6,251,000            —    9/8/2011        R         $313,000                                       $983,480
                                                                     Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC            Preferred Stock w/ Warrants                  $16,000,000                                                                                                $2.35       357,675        $1,882,500
2/6/2009     Carolina Trust Bank, Lincolnton, NC                     Preferred Stock w/ Warrants                    $4,000,000                                                                                               $3.00        86,957          $455,000
2/13/2009    Carrollton Bancorp, Baltimore, MD                       Preferred Stock w/ Warrants                    $9,201,000                                                                                               $3.20       205,379          $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30,48                Preferred Stock                              $18,980,000    8/27/2010          $18,980,000             —                                                $0.41                      $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47            Preferred Stock w/ Warrants                  $38,970,000    6/30/2011          $16,250,000             —                                                                           $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                 Preferred Stock w/ Warrants                 $258,000,000                                                                                               $11.38     1,846,374       $34,758,333
2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49,c       Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011            $3,000,000            —    7/21/2011       R         $150,000
                                                                                                                                                                                                                            $17.75                        $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49,c   Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011            $3,500,000            —    7/21/2011       R         $113,000
5/29/2009    CB Holding Corp., Aledo, IL2                            Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                            $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2,c                        Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




12/29/2009   CBB Bancorp, Cartersville, GA2,10a,c                    Preferred Stock                                $1,753,000                                                                                                                            $500,874
3/27/2009    CBS Banc-Corp., Russellville, AL2                       Preferred Stock w/ Exercised Warrants        $24,300,000                                                                                                            523,076        $1,500,930
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                         Preferred Stock w/ Warrants                  $11,560,000                                                                                                $1.01       261,538          $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                           Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                            $490,406
1/9/2009     Center Bancorp, Inc., Union, NJ49                       Preferred Stock w/ Warrants                  $10,000,000    9/15/2011          $10,000,000             —                                                $9.65        86,705        $1,341,667
12/12/2008   Center Financial Corporation, Los Angeles, CA           Preferred Stock w/ Warrants                  $55,000,000                                                                                                $4.69       432,390        $7,356,250
5/1/2009     CenterBank, Milford, OH2                                Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                            $280,778
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL        Preferred Stock w/ Warrants                  $27,875,000    9/30/2009          $27,875,000             —    10/28/2009      R         $212,000          $5.23                      $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2        Preferred Stock w/ Exercised Warrants        $15,000,000    3/31/2009          $15,000,000             —    4/15/2009       R         $750,000                                       $172,938
12/5/2008    Central Bancorp, Inc., Somerville, MA50                 Preferred Stock w/ Warrants                  $10,000,000    8/25/2011          $10,000,000             —                                               $17.14                      $1,361,111
2/27/2009    Central Bancorp, Inc, Garland, TX2                      Preferred Stock w/ Warrants                  $22,500,000                                                                                                                           $2,411,625
1/30/2009    Central Bancshares, Inc., Houston, TX2                  Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011             $5,800,000            —    7/6/2011        R         $290,000                                       $769,177
2/20/2009    Central Community Corporation, Temple, TX2              Preferred Stock w/ Exercised Warrants        $22,000,000                                                                                                                           $2,980,847
12/5/2008    Central Federal Corporation, Fairlawn, OH               Preferred Stock w/ Warrants                    $7,225,000                                                                                                           336,568          $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                    Preferred Stock w/ Warrants                  $11,300,000    11/24/2010         $11,300,000             —    12/1/2010       R         $319,659                                     $1,084,486
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46      Common Stock w/ Warrants                    $135,000,000    6/17/2011          $35,883,281    $99,116,719                                                            79,288        $2,362,500
1/30/2009    Central Valley Community Bancorp, Fresno, CA50,g        Preferred Stock w/ Warrants                    $7,000,000   8/18/2011            $7,000,000            —    9/28/2011       R         $185,017          $5.60                        $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA         Preferred Stock w/ Warrants                  $11,385,000                                                                                                $1.00       263,542          $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49    Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011            $6,056,000            —    7/14/2011       R         $182,000                                       $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                   Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011            $7,500,000            —    7/28/2011       R         $375,000         $17.00                      $1,012,791
1/9/2009     Centrue Financial Corporation, St. Louis, MO            Preferred Stock w/ Warrants                  $32,668,000                                                                                                $0.35       508,320          $571,690
             Century Financial Services Corporation,                 Subordinated Debentures w/ Exercised
6/19/2009                                                                                                         $10,000,000                                                                                                                           $1,808,511
             Santa Fe, NM8                                           Warrants

                                                        8            Subordinated Debentures w/ Exercised
5/29/2009    Chambers Bancshares, Inc., Danville, AR                                                              $19,817,000                                                                                                                           $3,676,341
                                                                     Warrants
7/31/2009    Chicago Shore Corporation, Chicago, IL2                 Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                            $778,896
12/31/2008   CIT Group Inc., New York, NY16                          Contingent Value Rights                    $2,330,000,000   2/8/2010                     $0                                                            $30.37                     $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                       Common Stock w/ Warrants                 $25,000,000,000    **             $25,000,000,000             —    1/25/2011       A       $54,621,849        $25.62                    $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA          Preferred Stock w/ Warrants                  $26,440,000    8/4/2010           $26,440,000             —    9/1/2010        R         $400,000         $14.86                      $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                   Preferred Stock w/ Exercised Warrants        $10,400,000                                                                                                $0.02                        $223,571
5/29/2009    Citizens Bancshares Co., Chillicothe, MO2               Preferred Stock w/ Exercised Warrants        $24,990,000                                                                                                                             $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30        Preferred Stock                                $7,462,000   8/13/2010            $7,462,000            —                                                $4.20                        $535,813

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                                 Capital                             Remaining    Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

3/20/2009    Citizens Bank & Trust Company, Covington, LA2           Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                             $150,783
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                             $180,259
             Versailles, KY2
                                                       2,49
12/23/2008   Citizens Community Bank, South Hill, VA                 Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011            $3,000,000             —    7/28/2011       R         $150,000                                       $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY           Preferred Stock w/ Warrants                    $8,779,000   2/16/2011            $2,212,308     $6,566,692                                               $6.59       254,218        $1,110,656
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MIk             Preferred Stock w/ Warrants                 $300,000,000                                                                                                 $6.92     1,757,813       $13,875,000
             Citizens South Banking Corporation,
12/12/2008                                                           Preferred Stock w/ Warrants                  $20,500,000    9/22/2011          $20,500,000              —                                                $4.15       450,314        $2,847,222
             Gastonia, NC50
             City National Bancshares Corporation,
4/10/2009                                                            Preferred Stock                                $9,439,000                                                                                                                             $281,859
             Newark, NJ2,3
                                                                                                                                 12/30/2009        $200,000,000    $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA            Preferred Stock w/ Warrants                 $400,000,000                                                     4/7/2010        R       $18,500,000        $37.76                     $23,916,667
                                                                                                                                 3/3/2010          $200,000,000              —
3/27/2009    Clover Community Bankshares, Inc., Clover, SC2          Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                             $267,050
             Coastal Banking Company, Inc., Fernandina
12/5/2008                                                            Preferred Stock w/ Warrants                    $9,950,000                                                                                                            205,579          $967,361
             Beach, FL
             CoastalSouth Bancshares, Inc.,
8/28/2009                                                            Preferred Stock w/ Exercised Warrants        $16,015,000                                                                                                                            $1,235,449
             Hilton Head Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50                      Preferred Stock w/ Warrants                  $64,450,000    9/8/2011           $64,450,000              —                                                $4.47       895,968        $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49,f              Preferred Stock w/ Warrants                  $16,500,000    8/18/2011          $16,500,000              —    9/28/2011       R         $526,604          $9.53                      $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                   Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                                            $1,229,278

                                                                 2   Preferred Stock w/ Exercised
3/27/2009    Colonial American Bank, West Conshohocken, PA                                                           $574,000                                                                                                                               $58,968
                                                                     Warrants

1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                   Preferred Stock w/ Warrants                  $28,000,000                                                                                                 $2.63       500,000        $3,640,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA               Preferred Stock w/ Warrants                  $76,898,000    8/11/2010          $76,898,000              —    9/1/2010        R        $3,301,647        $14.32                      $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49            Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011            $2,260,000             —    9/22/2011       R         $113,000                                       $316,479
11/14/2008   Comerica Inc., Dallas, TX                               Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010        $2,250,000,000             —    5/6/2010        A      $183,673,472        $22.97                    $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA               Preferred Stock w/ Warrants                    $5,000,000   10/7/2009            $5,000,000             —                                                $7.10        87,209            $36,111
                                                                     Subordinated Debentures w/ Exercised
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                                                       $20,400,000                                                                                                 $0.05                      $3,817,735
                                                                     Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2            Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                $6.00                        $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                      Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                $7.00                        $139,020
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2         Preferred Stock w/ Exercised Warrants           $500,000                                                                                                                                $66,536
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                            Preferred Stock w/ Exercised Warrants        $52,000,000    9/29/2010          $52,000,000              —    9/29/2010       R        $2,600,000                                    $2,975,700
             Brandon, MS2,30
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10             Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                             $419,982
1/16/2009    Community Bank of the Bay, Oakland, CA3,30              Preferred Stock                                $1,747,000   9/29/2010            $1,747,000             —                                                                               $76,189
             Community Bank Shares of Indiana, Inc.,
5/29/2009                                                            Preferred Stock w/ Warrants                  $19,468,000    9/15/2011          $19,468,000              —                                                $9.20       386,270        $2,233,412
             New Albany, IN49
             Community Bankers Trust Corporation,
12/19/2008                                                           Preferred Stock w/ Warrants                  $17,680,000                                                                                                 $1.20       780,000        $1,242,511
             Glen Allen, VA
2/27/2009    Community Business Bank, West Sacramento, CA2           Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                $4.75                        $534,551
12/19/2008   Community Financial Corporation, Staunton, VA           Preferred Stock w/ Warrants                  $12,643,000                                                                                                 $2.90       351,194        $1,678,710
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2       Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                $2.20                        $569,865
3/20/2009    Community First Bancshares Inc., Union City, TN2,49     Preferred Stock w/ Exercised Warrants        $20,000,000    8/18/2011          $20,000,000              —    8/18/2011       R        $1,000,000                                    $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2         Preferred Stock w/ Exercised Warrants        $12,725,000                                                                                                                            $1,641,260
2/27/2009    Community First Inc., Columbia, TN2                     Preferred Stock w/ Exercised Warrants        $17,806,000                                                                                                                            $1,908,453
             Community Holding Company of Florida, Inc.,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                             $143,926
             Miramar Beach, FL2
                                                                 2
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH          Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                             $374,718
                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




1/30/2009    Community Partners Bancorp, Middletown, NJ49            Preferred Stock w/ Warrants                    $9,000,000   8/11/2011            $9,000,000             —                                                $4.64       311,972        $1,138,750
             Community Pride Bank Corporation,                       Subordinated Debentures w/ Exercised
11/13/2009                                                                                                          $4,400,000                                                                                                                             $448,253
             Ham Lake, MN8,10                                        Warrants

                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        223
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                 224
                                                                                                                              Capital                            Remaining    Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                      Repayment               Capital      Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                          Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

             Community Trust Financial Corporation,
1/9/2009                                                          Preferred Stock w/ Exercised Warrants        $24,000,000    7/6/2011           $24,000,000             —    7/6/2011        R        $1,200,000                                    $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA                Preferred Stock w/ Warrants                  $15,600,000                                                                                                $2.36       521,158        $2,071,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                               $2.11                        $474,471
             Corning Savings and Loan Association,
2/13/2009                                                         Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                               $87,143
             Corning, AR2
1/30/2009    Country Bank Shares, Inc., Milford, NE2              Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                          $1,042,313
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2      Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                            $606,614
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2        Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                               $8.25                        $420,028
1/9/2009     Crescent Financial Corporation, Cary, NC             Preferred Stock w/ Warrants                  $24,900,000                                                                                                $3.00       833,705        $2,303,250
1/23/2009    Crosstown Holding Company, Blaine, MN2               Preferred Stock w/ Exercised Warrants        $10,650,000                                                                                                                           $1,486,649
3/27/2009    CSRA Bank Corp., Wrens, GA2                          Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                            $180,940
             Customers Bancorp, Inc.
6/12/2009                                                         Preferred Stock w/ Exercised Warrants          $2,892,000                                                                                                                            $364,124
             (Berkshire Bancorp, Inc.), Phoenixville, PA2,60
                                                                                                                              8/26/2009          $97,500,000    $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                      Preferred Stock w/ Warrants                 $130,000,000                                                    10/28/2009      R        $1,307,000         $7.69                      $4,739,583
                                                                                                                              9/2/2009           $32,500,000             —
                                             2,49
2/27/2009    D.L. Evans Bancorp, Burley, ID                       Preferred Stock w/ Exercised Warrants        $19,891,000    9/27/2011          $19,891,000             —    9/27/2011       R         $995,000                                     $2,800,592
                                                                  Subordinated Debentures w/ Exercised
5/15/2009    Deerfield Financial Corporation, Deerfield, WI8,49                                                  $2,639,000   9/8/2011             $2,639,000            —    9/8/2011        R         $132,000                                       $512,339
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                  Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                          Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                            $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2,c                 Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                       $282,989
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a,c             Preferred Stock                                $1,508,000
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    Diamond Bancorp, Inc., Washington, MO8                                                            $20,445,000                                                                                                                           $3,826,079
                                                                  Warrants
             Dickinson Financial Corporation II,
1/16/2009                                                         Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                           $2,631,197
             Kansas City, MO2
3/13/2009    Discover Financial Services, Riverwoods, IL          Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010        $1,224,558,000            —    7/7/2010        R      $172,000,000        $22.94                     $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49,d       Preferred Stock w/ Warrants                  $11,750,000    8/4/2011           $11,750,000             —    9/21/2011       R         $458,000          $9.57                      $1,475,278
                                                                  Subordinated Debentures w/ Exercised
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                      $12,000,000                                                                                                                             $408,316
                                                                  Warrants
                                                                                                                              12/23/2009         $15,000,000    $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49                  Preferred Stock w/ Warrants                  $38,235,000                                                                                               $11.77       385,434        $3,817,732
                                                                                                                              7/14/2011          $23,235,000             —
12/5/2008    East West Bancorp, Pasadena, CA                      Preferred Stock w/ Warrants                 $306,546,000    12/29/2010        $306,546,000             —    1/26/2011       R       $14,500,000        $14.91                     $31,676,420
             Eastern Virginia Bankshares, Inc.,
1/9/2009                                                          Preferred Stock w/ Warrants                  $24,000,000                                                                                                $2.40       373,832        $2,220,000
             Tappahannock, VA
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                     Preferred Stock w/ Warrants                  $17,949,000                                                                                               $11.90       144,984        $2,315,920
12/23/2008   Emclaire Financial Corp., Emlenton, PA49             Preferred Stock w/ Warrants                    $7,500,000   8/18/2011            $7,500,000            —                                               $16.35        50,111          $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50                Preferred Stock w/ Warrants                  $34,000,000    9/27/2011          $34,000,000             —                                               $10.66       364,026        $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO   Preferred Stock w/ Warrants                  $35,000,000                                                                                               $13.59       324,074        $4,647,222
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                         Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011            $4,000,000            —    8/25/2011       R         $200,000                                       $480,206
             Allison Park, PA2,49
                                                    2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011            $8,750,000            —    8/11/2011       R         $438,000                                     $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2                       Preferred Stock w/ Exercised Warrants        $43,000,000                                                                                               $44.00                      $5,637,419
                                                                  Subordinated Debentures w/ Exercised
5/22/2009    F & C Bancorp, Inc., Holden, MO8                                                                    $2,993,000                                                                                                                            $560,229
                                                                  Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2,c             Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                       $952,071
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a,c         Preferred Stock                                $3,535,000
2/6/2009     F & M Financial Corporation, Salisbury, NC2          Preferred Stock w/ Exercised Warrants        $17,000,000                                                                                                                           $2,339,413
2/13/2009    F&M Financial Corporation, Clarksville, TN2          Preferred Stock w/ Exercised Warrants        $17,243,000                                                                                                                           $2,354,546
1/9/2009     F.N.B. Corporation, Hermitage, PA                    Preferred Stock w/ Warrants                 $100,000,000    9/9/2009          $100,000,000             —                                                $8.57       651,042        $3,333,333
             Farmers & Merchants Bancshares, Inc.,
3/6/2009                                                          Preferred Stock w/ Exercised Warrants        $11,000,000                                                                                                                           $1,463,780
             Houston, TX2

                                                                                                                                                                                                                                          Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                                  Capital                           Remaining    Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                          Repayment              Capital      Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date        Repayment Amount6       Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

             Farmers & Merchants Financial Corporation,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                              $57,859
             Argonia, KS2
1/23/2009    Farmers Bank, Windsor, VA2                               Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                         $1,221,701
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY          Preferred Stock w/ Warrants                  $30,000,000                                                                                               $4.21       223,992        $3,900,000
                                                                      Subordinated Debentures w/ Exercised
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS8                                                            $12,000,000                                                                                                                          $2,170,216
                                                                      Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2,50,b         Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011            $700,000             —    7/21/2011       R          $40,000                                         $90,174
                                                                      Subordinated Debentures w/ Exercised
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                                $3,035,000   3/9/2011             $650,000             —                                                                             $154,592
                                                                      Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                          Preferred Stock w/ Exercised Warrants        $21,042,000                                                                                                                            $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                    Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011           $9,294,000            —    9/22/2011       R         $465,000                                     $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                             Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                         $1,054,814

                                                        8             Subordinated Debentures w/ Exercised
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA                                                                  $3,942,000                                                                                                                           $731,260
                                                                      Warrants
12/12/2008   Fidelity Bancorp, Inc, Pittsburgh, PA                    Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                              $9.26       121,387          $936,250
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10             Preferred Stock w/ Exercised Warrants          $6,657,000
12/19/2008   Fidelity Financial Corporation, Wichita, KS2             Preferred Stock w/ Exercised Warrants        $36,282,000                                                                                                                          $5,250,989
12/19/2008   Fidelity Southern Corporation, Atlanta, GA               Preferred Stock w/ Warrants                  $48,200,000                                                                                               $6.47     2,266,458        $6,399,889
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                      Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011        $3,408,000,000            —    3/16/2011       R      $280,025,936        $10.10                    $355,946,667
                                                                                                                                  2/23/2011         $12,505,000    $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                 Preferred Stock w/ Warrants                  $37,515,000                                                   5/11/2011       R        $2,079,963        $14.26                      $4,192,649
                                                                                                                                  3/30/2011         $25,010,000             —
2/13/2009    Financial Security Corporation, Basin, WY2,50            Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011           $5,000,000            —    7/21/2011       R         $250,000                                       $664,597
                                                                      Subordinated Debentures w/ Exercised
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                   $3,742,000   9/1/2011            $3,742,000            —    9/1/2011        R         $112,000                                       $633,322
                                                                      Warrants
                                                                  2
5/22/2009    First Advantage Bancshares Inc., Coon Rapids, MN         Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                           $143,112
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2            Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                           $398,363
             First American Bank Corporation, Elk Grove               Subordinated Debentures w/ Exercised
7/24/2009                                                                                                          $50,000,000                                                                                                                          $8,634,725
             Village, IL8                                             Warrants
3/13/2009    First American International Corp., Brooklyn, NY3,30     Preferred Stock                              $17,000,000    8/13/2010         $17,000,000             —                                                                           $1,204,167
1/9/2009     First BanCorp (NC), Troy, NC50                           Preferred Stock w/ Warrants                  $65,000,000    9/1/2011          $65,000,000             —                                               $10.04       616,308        $8,594,444
1/16/2009    First BanCorp, San Juan, PR28                            Preferred Stock w/ Warrants                 $424,174,000                                                                                              $12.59     5,842,259        $6,611,111
2/20/2009    First BancTrust Corporation, Paris, IL2                  Preferred Stock w/ Exercised Warrants          $7,350,000                                                                                              $8.55                        $995,986
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50       Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011           $3,345,000            —    7/21/2011       R         $167,000                                       $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50          Preferred Stock w/ Exercised Warrants        $10,000,000    9/8/2011          $10,000,000             —    9/8/2011        R         $500,000         $18.00                      $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                          Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                          $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50                    Preferred Stock w/ Warrants                 $100,000,000    8/25/2011        $100,000,000             —                                                $4.35       573,833       $12,347,222
4/10/2009    First Business Bank, N.A, San Diego, CA2,c               Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                          $453,396
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a,c          Preferred Stock                                $2,032,000
             First California Financial Group, Inc,
12/19/2008                                                            Preferred Stock w/ Warrants                  $25,000,000    7/14/2011         $25,000,000             —    8/24/2011       R         $599,042          $3.01                      $3,211,806
             Westlake Village, CA50f
4/3/2009     First Capital Bancorp, Inc., Glen Ellen, VA              Preferred Stock w/ Warrants                  $10,958,000                                                                                               $2.45       250,947        $1,296,697
2/13/2009    First Choice Bank, Cerritos, Cerritos, CA2,30            Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010           $2,200,000            —    9/24/2010       R
                                                                                                                                                                                                           $110,000                                       $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a 30                  Preferred Stock                                $2,836,000   9/24/2010           $2,836,000            —
1/23/2009    First Citizens Banc Corp, Sandusky, OH                   Preferred Stock w/ Warrants                  $23,184,000                                                                                               $6.59       469,312        $2,968,840
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49         Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011           $4,500,000            —    9/22/2011       R         $225,000                                       $614,488
             First Community Bancshares, Inc,
5/15/2009                                                             Preferred Stock w/ Exercised Warrants        $14,800,000                                                                                                            88,273          $604,950
             Overland Park, KS2
             First Community Bank Corporation of America,
12/23/2008                                                            Preferred Stock w/ Warrants                  $10,685,000    5/31/2011           $7,754,267            —                                                                             $744,982
             Pinellas Park, FL39
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




11/21/2008   First Community Bankshares Inc., Bluefield, VA           Preferred Stock w/ Warrants                  $41,500,000    7/8/2009          $41,500,000             —                                                                           $1,308,403
11/21/2008   First Community Corporation, Lexington, SC               Preferred Stock w/ Warrants                  $11,350,000                                                                                               $5.83       195,915        $1,551,167
12/11/2009   First Community Financial Partners, Inc., Joliet, IL2    Preferred Stock w/ Exercised Warrants        $22,000,000                                                                                                                          $2,011,656

                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                       225
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                    226
                                                                                                                                  Capital                            Remaining    Final                         Final   Stock Price       Current        Dividends/
Purchase                                                                                                                          Repayment               Capital      Capital    Disposition             Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15     Proceeds     9/30/2011       Warrants           Treasury

12/5/2008    First Defiance Financial Corp., Defiance, OH             Preferred Stock w/ Warrants                  $37,000,000                                                                                              $13.14       550,595        $4,984,722
                                                                      Subordinated Debentures w/ Exercised
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                      $7,500,000   9/17/2010            $7,500,000            —    9/17/2010       R        $375,000                                       $639,738
                                                                      Warrants
2/6/2009     First Express of Nebraska, Inc., Gering, NE2             Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                           $688,063
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                  $16,500,000    5/3/2011             $6,000,000            —                                               $5.55                        $570,625
             Harrison, AR4,2
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                  $80,000,000    2/24/2010          $80,000,000             —    6/2/2010        A       $3,116,284        $13.80                      $4,677,778
                                                                      Subordinated Debentures w/ Exercised
6/12/2009    First Financial Bancshares, Inc., Lawrence, KS8,10,49                                                   $3,756,000   9/22/2011            $3,756,000            —    9/22/2011       R        $113,000                                       $694,280
                                                                      Warrants
12/5/2008    First Financial Holdings Inc., Charleston, SC            Preferred Stock w/ Warrants                  $65,000,000                                                                                               $4.01       241,696        $8,756,944
1/9/2009     First Financial Service Corporation, Elizabethtown, KY   Preferred Stock w/ Warrants                  $20,000,000                                                                                               $1.40       215,983        $1,600,000
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10          Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                           $755,235
2/27/2009    First Gothenburg Bancshares, Inc., Gothenburg, NE2       Preferred Stock w/ Exercised Warrants          $7,570,000                                                                                                                         $1,018,016
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants        $20,699,000    9/22/2011          $20,699,000             —    9/22/2011       R       $1,030,000                                    $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                 $866,540,000    12/22/2010        $866,540,000             —    3/9/2011        R      $79,700,000         $5.96                     $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3           Preferred Stock                                $3,223,000                                                                                                                           $316,481
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                           $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                  $10,000,000    4/7/2010           $10,000,000             —    4/7/2010        R       $1,488,046                                      $659,722
                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                  $30,000,000    9/29/2010          $30,000,000             —                                               $3.16       513,113        $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants        $12,000,000    5/27/2009          $12,000,000             —    5/27/2009       R        $600,000         $13.50                        $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011            $4,797,000            —    9/15/2011       R        $240,000                                       $676,865
                                                                                                                   $69,600,000    9/22/2011          $69,600,000             —
2/20/2009    First Merchants Corporation, Muncie, IN27,49,50,c        Preferred Stock w/ Warrants                                                                                                                            $7.05       991,453       $15,015,555
                                                                                                                   $46,400,000    9/22/2011          $46,400,000             —

12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                 $193,000,000                                                                                               $7.32     1,305,230       $26,001,389
3/13/2009    First National Corporation, Strasburg, VA2               Preferred Stock w/ Exercised Warrants        $13,900,000                                                                                                                          $1,834,955
             First NBC Bank Holding Company,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants        $17,836,000    8/4/2011           $17,836,000             —    8/4/2011        R        $892,000                                     $2,305,990
             New Orleans, LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                 $184,011,000    5/27/2009         $184,011,000             —    6/24/2009       R       $2,700,000         $9.15                      $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49            Preferred Stock w/ Warrants                  $17,390,000    9/15/2011          $17,390,000             —                                               $4.80       352,977        $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                  $19,300,000    12/15/2010         $19,300,000             —    1/5/2011        R       $1,003,227        $11.33                      $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                  $72,927,000                                                                                               $0.88     3,670,822        $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2,c           Preferred Stock w/ Exercised Warrants          $4,579,000
                                                                                                                                                                                                                                                        $1,001,519
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a,c       Preferred Stock                                $4,596,000
                                                              2
3/6/2009     First Reliance Bancshares, Inc., Florence, SC            Preferred Stock w/ Exercised Warrants        $15,349,000                                                                                               $1.77                      $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50,c                     Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011            $2,600,000            —    9/15/2011       R        $130,000
                                                                                                                                                                                                                                                          $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49,c                 Preferred Stock                                $2,417,000   9/15/2011            $2,417,000            —
1/9/2009     First Security Group, Inc., Chattanooga, TNk             Preferred Stock w/ Warrants                  $33,000,000                                                                                               $3.55       823,627        $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                            Preferred Stock w/ Warrants                    $7,400,000                                                                                              $0.19       114,080          $330,944
                                                                      Subordinated Debentures w/ Exercised
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                             $50,000,000    9/28/2011          $13,125,000    $36,875,000                                                                         $8,836,991
                                                                      Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants        $10,900,000    6/16/2010          $10,900,000             —    6/16/2010       R        $545,000                                       $818,468
3/6/2009     First Southwest Bancorporation, Inc., Alamosa, CO2       Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                           $207,327
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010             $731,000             —    4/14/2010       R         $37,000                                         $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants        $13,533,000    9/15/2011          $13,533,000             —    9/15/2011       R        $677,000                                     $1,862,389
                                                                      Subordinated Debentures w/ Exercised
6/5/2009     First Trust Corporation, New Orleans, LA8                                                             $17,969,000                                                                                                                          $1,046,896
                                                                      Warrants
1/23/2009    First ULB Corp., Oakland, CA2                            Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009            $4,900,000            —    4/22/2009       R        $245,000                                         $66,021
1/30/2009    First United Corporation, Oakland, MD                    Preferred Stock w/ Warrants                  $30,000,000                                                                                               $3.66       326,323        $2,312,500
6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30         Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010            $6,000,000            —    9/29/2010       R        $245,000                                       $417,770

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                               Capital                           Remaining    Final                         Final   Stock Price       Current        Dividends/
Purchase                                                                                                                       Repayment               Capital     Capital    Disposition             Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date         Repayment Amount6      Amount     Date          Note15     Proceeds     9/30/2011       Warrants           Treasury

2/6/2009     First Western Financial, Inc., Denver, CO2            Preferred Stock w/ Exercised Warrants          $8,559,000
                                                                                                                                                                                                                                                    $2,174,520
12/11/2009   First Western Financial, Inc., Denver, CO2,10a        Preferred Stock                              $11,881,000
1/30/2009    Firstbank Corporation, Alma, MI                       Preferred Stock w/ Warrants                  $33,000,000                                                                                              $4.92       578,947        $4,193,750
1/9/2009     FirstMerit Corporation, Akron, OH                     Preferred Stock w/ Warrants                 $125,000,000    4/22/2009         $125,000,000            —    5/27/2009       R       $5,025,000        $11.36                      $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                      Preferred Stock w/ Warrants                 $266,657,000                                                                                              $0.49     6,451,379       $33,887,660
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                  Preferred Stock w/ Exercised Warrants        $20,471,000                                                                                                                         $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49       Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011            $9,495,000           —    9/22/2011       R        $475,000                                     $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY      Preferred Stock w/ Warrants                  $70,000,000    10/28/2009         $70,000,000            —    12/30/2009      R        $900,000         $10.80                      $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50              Preferred Stock w/ Exercised Warrants        $12,000,000    9/15/2011          $12,000,000            —    9/15/2011       R        $600,000         $12.20                      $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                      Preferred Stock w/ Warrants                  $51,500,000                                                                                                        2,207,143        $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2        Preferred Stock w/ Exercised Warrants        $15,000,000                                                                                             $12.15                      $1,839,375
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2          Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                            $87,185
4/3/2009     Fortune Financial Corporation, Arnold, MO2,50         Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011            $3,100,000           —    9/15/2011       R        $155,000                                       $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55               Preferred Stock w/ Warrants                    $5,800,000                                                                                             $0.04       183,158          $273,889
                                                                                                                               12/16/2009           $1,000,000   $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                     Preferred Stock w/ Exercised Warrants          $3,240,000                                                  6/16/2010       R        $162,000                                       $221,722
                                                                                                                               6/16/2010            $2,240,000           —

                                                          2
5/22/2009    Franklin Bancorp, Inc., Washington, MO                Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                          $619,648
                                                                   Subordinated Debentures w/ Exercised
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                             $3,000,000                                                                                                                          $571,218
                                                                   Warrants
                                                                   Subordinated Debentures w/ Exercised
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                               $35,000,000                                                                                                                         $6,272,705
                                                                   Warrants
1/23/2009    Fresno First Bank, Fresno, CA2                        Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                          $241,245
                                                                                                                               11/24/2009           $1,600,000   $1,400,000
                                                                   Subordinated Debentures w/ Exercised
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                               $3,000,000                                                  10/6/2010       R        $150,000                                       $258,192
                                                                   Warrants                                                    10/6/2010            $1,400,000           —

12/23/2008   Fulton Financial Corporation, Lancaster, PA           Preferred Stock w/ Warrants                 $376,500,000    7/14/2010         $376,500,000            —    9/8/2010        R      $10,800,000         $8.46                     $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2               Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                                          $742,108
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2       Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011            $8,700,000           —    2/16/2011       R        $435,000                                       $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                    Preferred Stock w/ Exercised Warrants          $4,500,000
             Germantown Capital Corporation, Inc.,
3/6/2009                                                           Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                          $661,056
             Germantown, TN2
                                                   2,10
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ                     Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                            $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2                 Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                          $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49              Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011             $4,000,000           —    9/8/2011        R        $200,000                                       $517,145
                                                                   Subordinated Debentures w/ Exercised
9/25/2009    Grand Financial Corporation, Hattiesburg, MS8                                                        $2,443,320                                                                                                                          $387,168
                                                                   Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2          Preferred Stock w/ Exercised Warrants          $3,076,000
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50,c       Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011             $9,000,000           —    9/8/2011        R        $450,000
                                                                                                                                                                                                                         $2.60                      $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49,c   Preferred Stock                                $6,319,000   9/8/2011             $6,319,000           —
                                                                   Subordinated Debentures w/ Exercised
7/17/2009    Great River Holding Company, Baxter, MN8                                                             $8,400,000                                                                                                                          $759,575
                                                                   Warrants
12/5/2008    Great Southern Bancorp, Springfield, MO50,d           Preferred Stock w/ Warrants                  $58,000,000    8/18/2011          $58,000,000            —    9/21/2011       R       $6,436,364        $16.78                      $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59,d           Preferred Stock w/ Warrants                  $72,278,000    9/7/2011           $68,700,000            —                                                                          $5,942,858
2/27/2009    Green Circle Investments, Inc., Clive, IA2            Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                          $322,640
2/27/2009    Green City Bancshares, Inc., Green City, MO2          Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010             $651,000            —    7/14/2010       R         $33,000                                         $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2             Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                             $1.30                        $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                    Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                             $45,190
                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50            Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011            $6,920,000           —    9/15/2011       R        $346,000                                       $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30       Subordinated Debentures                      $14,000,000    7/30/2010          $14,000,000            —                                                                            $913,299

                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                   227
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                    228
                                                                                                                                 Capital                            Remaining    Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO      Preferred Stock w/ Warrants                  $17,000,000                                                                                                $4.55       459,459        $2,160,417
9/25/2009    GulfSouth Private Bank, Destin, FL10,21                 Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                            $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50             Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011            $7,500,000            —    8/18/2011       R         $375,000                                       $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2                Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011            $7,000,000            —    4/13/2011       R         $350,000                                       $819,166
12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31           Common Stock w/ Warrants                     $80,347,000                                                                                                $4.70        53,034        $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3         Preferred Stock                                $6,800,000                                                                                                                            $282,744
6/26/2009    Hartford Financial Services Group, Inc., Hartford, CT   Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010        $3,400,000,000            —    9/21/2010       A      $713,687,430        $16.14                    $129,861,111
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2                Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010            $425,000             —    12/29/2010      R          $21,000                                         $41,524
12/19/2008   Hawthorn Bancshares, Inc., Lee’s Summit, MOk            Preferred Stock w/ Warrants                  $30,255,000                                                                                                $7.25       276,090        $4,017,192
3/6/2009     HCSB Financial Corporation, Loris, SC                   Preferred Stock w/ Warrants                  $12,895,000                                                                                                $0.75        91,714        $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10,f          Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                               $4.06                        $730,109
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50            Preferred Stock w/ Warrants                  $81,698,000    9/15/2011          $81,698,000             —    9/28/2011       R        $1,800,000        $14.18                     $11,188,087
                                                                                                                                 3/16/2011            $2,606,000    $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50           Preferred Stock w/ Exercised Warrants        $10,103,000                                                    8/11/2011       R         $303,000         $12.00                        $947,284
                                                                                                                                 8/11/2011            $7,497,000            —
11/21/2008   Heritage Commerce Corp., San Jose, CA                   Preferred Stock w/ Warrants                  $40,000,000                                                                                                $3.85       462,963        $5,639,045
11/21/2008   Heritage Financial Corporation, Olympia, WAg            Preferred Stock w/ Warrants                  $24,000,000    12/22/2010         $24,000,000             —    8/17/2011       R         $450,000         $11.04                      $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA                  Preferred Stock w/ Warrants                  $21,000,000                                                                                                $3.30       611,650          $947,916
                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




11/21/2008   HF Financial Corp., Sioux Falls, SD                     Preferred Stock w/ Warrants                  $25,000,000    6/3/2009           $25,000,000             —    6/30/2009       R         $650,000         $17.55                        $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                             Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011            $3,091,000            —    9/22/2011       R         $155,000
             Vernon, NJ2,13,49,c
                                                                                                                                                                                                                             $3.00                        $547,251
             Highlands Bancorp, Inc. (Highlands State Bank),
12/22/2009                                                           Preferred Stock                                $2,359,000   9/22/2011            $2,359,000            —
             Vernon, NJ2,10a,13, 49,c
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants          $6,700,000                                                                                                                            $617,712
             Sebring, FL2
1/30/2009    Hilltop Community Bancorp, Inc., Summit, NJ2            Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010            $4,000,000            —    4/21/2010       R         $200,000          $4.00                        $267,050
12/23/2008   HMN Financial, Inc., Rochester, MN                      Preferred Stock w/ Warrants                  $26,000,000                                                                                                $1.88       833,333        $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, ARe                      Preferred Stock w/ Warrants                  $50,000,000    7/6/2011           $50,000,000             —    7/27/2011       R        $1,300,000        $21.22                      $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2         Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                            $440,465
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2                  Preferred Stock w/ Exercised Warrants          $1,900,000                                                                                                                            $351,326
             HomeTown Bankshares Corporation,
9/18/2009                                                            Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                $3.81                        $259,450
             Roanoke, VA2,10
12/12/2008   HopFed Bancorp, Hopkinsville, KY                        Preferred Stock w/ Warrants                  $18,400,000                                                                                                $5.73       248,692        $2,461,000
                                                                                                                                 11/10/2010           $6,250,000   $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50                    Preferred Stock w/ Warrants                  $25,000,000                                                                                               $26.50       212,104        $3,106,771
                                                                                                                                 8/25/2011          $18,750,000             —
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD2,49             Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011            $5,983,000            —    9/22/2011       R         $299,000          $5.20                        $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a,c           Preferred Stock w/ Exercised Warrants          $5,000,000
                                                                                                                                                                                                                                                          $960,619
5/1/2009     HPK Financial Corporation, Chicago, IL2,c               Preferred Stock                                $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                     Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010       $1,398,071,000            —    1/19/2011       R       $49,100,000         $4.80                    $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                        Preferred Stock w/ Exercised Warrants          $1,552,000                                                                                                                            $213,666
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                        Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                            $601,317
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                    Subordinated Debentures                        $4,205,000   9/10/2010            $4,205,000            —                                                                             $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                   Preferred Stock w/ Warrants                  $90,000,000    3/31/2009          $90,000,000             —    5/20/2009       R        $1,200,000        $47.06                      $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                          Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                            $298,155
3/13/2009    IBW Financial Corporation, Washington, DC2,3a,30        Preferred Stock                                $6,000,000   9/3/2010             $6,000,000            —                                                                             $453,067
3/6/2009     ICB Financial, Ontario, CA2                             Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                               $3.45                        $798,425
1/16/2009    Idaho Bancorp, Boise, ID2                               Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                               $0.10                        $124,306
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49,c         Preferred Stock w/ Exercised Warrants          $6,272,000   9/22/2011            $6,272,000            —    9/22/2011       R         $314,000
                                                                                                                                                                                                                                                        $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49,c     Preferred Stock                                $4,000,000   9/22/2011            $4,000,000            —    9/22/2011       R          $92,000
                                                         2
1/9/2009     Independence Bank, East Greenwich, RI                   Preferred Stock w/ Exercised Warrants          $1,065,000                                                                                                                            $150,852
1/9/2009     Independent Bank Corp., Rockland, MA                    Preferred Stock w/ Warrants                  $78,158,000    4/22/2009          $78,158,000             —    5/27/2009       R        $2,200,000        $21.74                      $1,118,094

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                                 Capital                             Remaining    Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

                                                                     Mandatorily Convertible Preferred
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                            $74,426,000                                                                                                 $1.92       346,154        $2,430,000
                                                                     Stock w/ Warrants
4/24/2009    Indiana Bank Corp., Dana, IN2                           Preferred Stock w/ Exercised Warrants          $1,312,000                                                                                               $14.80                        $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                  $21,500,000                                                                                                $14.20       188,707        $2,875,625
2/27/2009    Integra Bank Corporation, Evansville, IN14,57           Preferred Stock w/ Warrants                  $83,586,000                                                                                                           7,418,876        $1,950,340
12/19/2008   Intermountain Community Bancorp, Sandpoint, ID          Preferred Stock w/ Warrants                  $27,000,000                                                                                                 $1.25       653,226        $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX        Preferred Stock w/ Warrants                 $216,000,000                                                                                                $13.15     1,326,238       $28,560,000
12/23/2008   Intervest Bancshares Corporation, New York, NY          Preferred Stock w/ Warrants                  $25,000,000                                                                                                 $2.68       691,882        $1,118,056
             Investors Financial Corporation of Pettis County,       Subordinated Debentures w/ Exercised
5/8/2009                                                                                                            $4,000,000                                                                                                                             $174,325
             Inc., Sedalia, MO8                                      Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                      Preferred Stock w/ Warrants              $25,000,000,000    6/17/2009      $25,000,000,000              —    12/10/2009      A      $950,318,243        $30.12                    $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49              Preferred Stock w/ Exercised Warrants        $10,449,000    8/18/2011          $10,449,000              —    8/18/2011       R         $522,000         $11.75                      $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                                  Preferred Stock w/ Warrants                $2,500,000,000   3/30/2011        $2,500,000,000             —    4/20/2011       R       $70,000,000         $5.93                    $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2               Preferred Stock w/ Exercised Warrants           $470,000                                                                                                                                $61,655
8/21/2009    KS Bancorp, Inc., Smithfield, NC2                       Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                $6.50                        $432,367
2/20/2009    Lafayette Bancorp, Inc, Oxford, MS2,30,c                Preferred Stock w/ Exercised Warrants          $1,998,000   9/29/2010            $1,998,000             —    9/29/2010       R         $100,000
                                                                                                                                                                                                                                                           $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30,c           Preferred Stock                                $2,453,000   9/29/2010            $2,453,000             —
                                                                                                                                 8/4/2010           $20,000,000     $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJ                   Preferred Stock w/ Warrants                  $59,000,000                                                                                                 $7.82       949,571        $6,004,306
                                                                                                                                 3/16/2011          $20,000,000     $19,000,000
2/27/2009    Lakeland Financial Corporation, Warsaw, IN              Preferred Stock w/ Warrants                  $56,044,000    6/9/2010           $56,044,000              —                                               $20.66       198,269        $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2             Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                             $271,138
1/9/2009     LCNB Corp., Lebanon, OH                                 Preferred Stock w/ Warrants                  $13,400,000    10/21/2009         $13,400,000              —                                               $13.35       217,063          $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                    Preferred Stock w/ Exercised Warrants          $5,830,000   11/24/2010           $5,830,000             —    11/24/2010      R         $292,000                                       $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53                 Preferred Stock                                $5,498,000                                                                                                                             $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50             Preferred Stock w/ Exercised Warrants        $57,500,000    7/21/2011          $57,500,000              —    7/21/2011       R        $2,875,000                                    $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50           Preferred Stock w/ Exercised Warrants        $21,900,000    8/18/2011          $21,900,000              —    8/18/2011       R        $1,095,000                                    $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10            Preferred Stock w/ Exercised Warrants          $6,500,000                                                                                                                             $581,536
2/6/2009     Liberty Financial Services, Inc., New Orleans, LA3,30   Preferred Stock                                $5,645,000   9/24/2010            $5,645,000             —                                                                             $461,009
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                   Preferred Stock w/ Exercised Warrants        $17,280,000                                                                                                                            $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA                Preferred Stock w/ Warrants                 $950,000,000    6/30/2010         $950,000,000              —    9/16/2010       A      $216,620,887        $15.63                     $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH                            Preferred Stock w/ Warrants                  $25,223,000                                                                                                 $3.75       561,343        $3,373,577
2/6/2009     Lone Star Bank, Houston, TX2                            Preferred Stock w/ Exercised Warrants          $3,072,000
12/12/2008   LSB Corporation, North Andover, MA                      Preferred Stock w/ Warrants                  $15,000,000    11/18/2009         $15,000,000              —    12/16/2009      R         $560,000                                       $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30                  Preferred Stock                              $11,735,000    8/20/2010          $11,735,000              —                                                                             $674,763
12/23/2008   M&T Bank Corporation, Buffalo, NY                       Preferred Stock w/ Warrants                 $600,000,000    5/18/2011         $370,000,000    $230,000,000                                                         1,218,522       $86,225,000
             M&T Bank Corporation (Provident Bancshares
11/14/2008                                                           Preferred Stock w/ Warrants                 $151,500,000                                                                                                             407,542        $9,489,792
             Corp.), Baltimore, MD                                                                                                                                                                                           $69.90
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                           Preferred Stock w/ Warrants                 $330,000,000    5/13/2011         $330,000,000              —                                                             95,383       $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI          Preferred Stock w/ Warrants                  $11,000,000                                                                                                 $5.46       379,310        $1,269,583
3/13/2009    Madison Financial Corporation, Richmond, KY2            Preferred Stock w/ Exercised Warrants          $3,370,000                                                                                                                             $169,422
                                                                                                                                 11/24/2009           $3,455,000    $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                             Preferred Stock w/ Exercised Warrants        $13,795,000    6/8/2011             $3,455,000     $6,885,000   8/18/2011       R         $690,000                                     $1,661,468
                                                                                                                                 8/18/2011            $6,885,000
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2                  Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                               $23.50                        $399,213
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN        Preferred Stock w/ Warrants                  $57,000,000                                                                                                 $8.72       571,906        $7,354,583
12/5/2008    Manhattan Bancorp, El Segundo, CA                       Preferred Stock w/ Warrants                    $1,700,000   9/16/2009            $1,700,000             —    10/14/2009      R          $63,364          $2.25                          $66,347
                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                     Subordinated Debentures w/ Exercised
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                             $2,639,000                                               —                                                                             $477,281
                                                                     Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2            Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                             $235,713

                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        229
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                 230
                                                                                                                                Capital                           Remaining   Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                        Repayment               Capital     Capital   Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date         Repayment Amount6      Amount    Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

2/20/2009    Market Bancorporation, Inc., New Market, MN2           Preferred Stock w/ Exercised Warrants          $2,060,000                                                                                                                          $138,778
                                                                    Subordinated Debentures w/ Exercised
5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL8                                                     $20,300,000                                                                                                                         $3,832,133
                                                                    Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2           Preferred Stock w/ Exercised Warrants        $35,500,000                                                                                            $125.00                      $5,137,837
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44,d       Preferred Stock w/ Warrants                $1,715,000,000   7/5/2011         $1,715,000,000          —    7/5/2011        R        $3,250,000                                  $226,522,917
3/27/2009    Maryland Financial Bank, Towson, MD2                   Preferred Stock w/ Exercised Warrants          $1,700,000                                                                                                                          $128,166
12/5/2008    MB Financial Inc., Chicago, IL                         Preferred Stock w/ Warrants                 $196,000,000                                                                                             $14.72       506,024       $26,405,556
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50             Preferred Stock w/ Exercised Warrants          $6,000,000   8/18/2011            $6,000,000          —    8/18/2011       R         $300,000                                       $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49,c               Preferred Stock w/ Exercised Warrants        $11,800,000    7/21/2011          $11,800,000           —    7/21/2011       R         $590,000
                                                                                                                                                                                                                                                     $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49,c           Preferred Stock                                $9,698,000   7/21/2011            $9,698,000          —    7/21/2011       R          $55,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI          Preferred Stock w/ Warrants                  $21,000,000                                                                                              $8.10       616,438        $1,050,000
2/6/2009     Mercantile Capital Corp., Boston, MA2,49               Preferred Stock w/ Exercised Warrants          $3,500,000   8/4/2011             $3,500,000          —    8/4/2011        R         $175,000                                       $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                           Preferred Stock w/ Exercised Warrants          $3,510,000   9/8/2011             $3,510,000          —    9/8/2011        R         $176,000                                       $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants          $1,881,000   9/7/2011             $1,881,000          —    9/7/2011        R          $94,000                                       $256,560
             Toone, TN2,62
                                        2
2/13/2009    Meridian Bank, Devon, PA                               Preferred Stock w/ Exercised Warrants          $6,200,000
                                                                                                                                                                                                                                                     $1,378,063
12/11/2009   Meridian Bank, Devon, PA2,10a                          Preferred Stock                                $6,335,000
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                              2
1/30/2009    Metro City Bank, Doraville, GA                         Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                                        $1,066,611
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX                Preferred Stock w/ Warrants                  $45,000,000                                                                                              $4.50       771,429        $5,841,250
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL2,41         Preferred Stock w/ Exercised Warrants        $74,706,000                                                                                                                         $3,454,185
             Metropolitan Bank Group, Inc. (NC Bancorp, Inc.),
6/26/2009                                                           Preferred Stock w/ Exercised Warrants          $7,186,000                                                                                                                          $332,256
             Chicago, IL2,41
4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2       Preferred Stock w/ Exercised Warrants          $2,040,000
                                                                                                                                                                                                                                                       $464,784
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a   Preferred Stock                                $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                Preferred Stock w/ Warrants                  $10,000,000                                                                                              $8.00        73,099        $1,327,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VA       Preferred Stock w/ Warrants                  $22,000,000    12/23/2009         $22,000,000           —                                                            104,101          $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2           Preferred Stock w/ Exercised Warrants        $10,189,000    12/23/2009         $10,189,000           —    12/23/2009      R         $509,000                                       $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49                Preferred Stock w/ Warrants                  $20,000,000    8/25/2011          $20,000,000           —                                                            104,384        $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2             Preferred Stock w/ Exercised Warrants          $5,222,000                                                                                                                          $275,105
                                                                    Mandatorily Convertible Preferred
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL14,20                                                  $89,388,000                                                                                                        4,282,020          $824,289
                                                                    Stock w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2            Preferred Stock w/ Exercised Warrants           $700,000    11/10/2009            $700,000           —    11/10/2009      R          $35,000                                         $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IAf       Preferred Stock w/ Warrants                  $16,000,000    7/6/2011           $16,000,000           —    7/27/2011       R        $1,000,000        $14.34                      $1,933,333
2/20/2009    Mid-Wisconsin Financial Services, Inc., Medford, WI2   Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                              $5.35                      $1,082,431
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2                 Preferred Stock w/ Exercised Warrants          $7,260,000                                                                                                                          $343,053
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3        Preferred Stock                                $5,116,000                                                                                             $3.45                        $665,080
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30             Preferred Stock                                $5,500,000   8/20/2010            $5,500,000          —                                                                             $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2             Preferred Stock w/ Exercised Warrants          $1,834,000                                                                                             $2.60                        $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI         Preferred Stock w/ Warrants                    $6,785,000                                                                                             $1.14       260,962          $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA       Preferred Stock w/ Warrants                  $14,700,000    12/23/2009         $14,700,000           —    2/10/2010       R         $260,000          $6.51                        $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50             Preferred Stock w/ Exercised Warrants          $9,516,000   9/15/2011            $9,516,000          —    9/15/2011       R         $476,000                                     $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                        Preferred Stock w/ Exercised Warrants          $4,734,000   8/11/2011            $4,734,000          —    8/11/2011       R         $237,000                                       $652,959
10/28/2008   Morgan Stanley, New York, NY                           Preferred Stock w/ Warrants              $10,000,000,000    6/17/2009      $10,000,000,000           —    8/12/2009       R      $950,000,000        $13.51                    $318,055,555
1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                 Preferred Stock w/ Exercised Warrants        $13,000,000    7/20/2011          $13,000,000           —    7/20/2011       R         $650,000                                     $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                   Preferred Stock w/ Exercised Warrants          $6,216,000                                                                                                                          $867,679
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2       Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                          $339,717
3/27/2009    MS Financial, Inc., Kingwood, TX2                      Preferred Stock w/ Exercised Warrants          $7,723,000                                                                                                                          $477,009
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50,f            Preferred Stock w/ Warrants                  $32,382,000    8/25/2011          $32,382,000           —    9/28/2011       R         $900,194          $6.92                      $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2                      Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                          $356,067

                                                                                                                                                                                                                                          Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                                Capital                           Remaining   Final                         Final   Stock Price       Current        Dividends/
Purchase                                                                                                                        Repayment               Capital     Capital   Disposition             Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date         Repayment Amount6      Amount    Date          Note15     Proceeds     9/30/2011       Warrants           Treasury

11/21/2008   Nara Bancorp, Inc., Los Angeles, CA                    Preferred Stock w/ Warrants                  $67,000,000                                                                                             $6.07       521,266        $9,156,667
2/27/2009    National Bancshares, Inc., Bettendorf, IA2             Preferred Stock w/ Exercised Warrants        $24,664,000                                                                                                                        $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA          Preferred Stock w/ Warrants                 $150,000,000    3/16/2011         $150,000,000           —    4/13/2011       R       $1,000,000         $7.01                     $16,958,333
                                                                    Subordinated Debentures w/ Exercised
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                          $2,000,000   12/29/2010           $2,000,000          —    12/29/2010      R        $100,000                                       $176,190
                                                                    Warrants
                                                 2
12/19/2008   NCAL Bancorp, Los Angeles, CA                          Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                             $6.50                      $1,311,028
                                                                    Subordinated Debentures w/ Exercised
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                    $2,330,000                                                                                                                         $421,532
                                                                    Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                           Preferred Stock w/ Warrants                  $10,000,000    8/25/2011          $10,000,000           —                                              $12.11       184,275        $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                       $37,872,796
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                  $52,372,000                                                                                             $3.90     2,567,255        $7,004,755
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants        $14,964,000    9/1/2011           $14,964,000           —    9/1/2011        R        $748,000                                     $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                  $10,200,000                                                                                            $15.33        99,157        $1,326,000
12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000                                                                                           $12.89        67,958          $565,362
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000
                                                                                                                                                                                                                                                      $266,418
12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000
             Northern States Financial Corporation,
2/20/2009                                                           Preferred Stock w/ Warrants                  $17,211,000                                                                                             $0.80       584,084          $418,323
             Waukegan, IL
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009        $1,576,000,000          —    8/26/2009       R      $87,000,000        $34.98                     $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants        $10,000,000    9/15/2011          $10,000,000           —    9/15/2011       R        $500,000          $9.75                      $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2           Preferred Stock w/ Exercised Warrants        $10,500,000                                                                                                                          $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                         $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC      Preferred Stock w/ Warrants                    $7,700,000                                                                                            $2.77       163,830          $978,542
12/5/2008    Oak Valley Bancorp, Oakdale, CA50,f                    Preferred Stock w/ Warrants                  $13,500,000    8/11/2011          $13,500,000           —    9/28/2011       R        $560,000          $4.05                      $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                  $38,263,000    12/30/2009         $38,263,000           —    2/3/2010        R        $430,797                                     $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                            $2.98                        $231,443
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009            $7,000,000          —    9/2/2009        R        $225,000          $6.83                        $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009         $100,000,000           —    5/8/2009        R       $1,200,000         $9.32                      $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                   Preferred Stock w/ Warrants                  $73,000,000                                                                                             $1.26       815,339        $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                     Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                           $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000
                                                                    Subordinated Debentures w/ Exercised
6/5/2009     OneFinancial Corporation, Little Rock, AR8,10                                                       $17,300,000                                                                                                                        $3,080,992
                                                                    Warrants
                                           2,3
12/19/2008   OneUnited Bank, Boston, MA                             Preferred Stock                              $12,063,000                                                                                                                            $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                            $8.00                        $404,628
                                                                    Subordinated Debentures w/ Exercised
5/1/2009     OSB Financial Services, Inc., Orange, TX8                                                             $6,100,000                                                                                                                       $1,186,233
                                                                    Warrants
                                                              29
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA             Common Stock w/ Warrants                    $195,045,000                                                                                            $25.52        15,120        $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants        $16,200,000                                                                                                                          $358,065
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants        $11,600,000    7/28/2011          $11,600,000           —    7/28/2011       R        $580,000                                     $1,641,964
             San Francisco, CA2,50
             Pacific Coast National Bancorp,
1/16/2009                                                           Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                    $0          —                                                                              $18,088
             San Clemente, CA2,19
                                                          2
12/23/2008   Pacific Commerce Bank, Los Angeles, CA                 Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                            $3.10                        $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                    $6,500,000                                                                                            $2.90                        $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2                Preferred Stock w/ Exercised Warrants        $23,200,000                                                                                                                        $3,087,243
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                 $100,000,000                                                                                            $52.88       227,376       $13,222,222
                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




1/30/2009    Parke Bancorp, Inc., Sewell, NJ                        Preferred Stock w/ Warrants                  $16,288,000                                                                                             $7.08       362,733        $2,069,933
12/23/2008   Parkvale Financial Corporation, Monroeville, PA        Preferred Stock w/ Warrants                  $31,762,000                                                                                            $18.40       376,327        $4,199,642

                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                   231
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                 232
                                                                                                                                 Capital                           Remaining    Final                        Final   Stock Price       Current        Dividends/
Purchase                                                                                                                         Repayment              Capital      Capital    Disposition            Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                            Investment Description                   Investment Amount   Date        Repayment Amount6       Amount     Date          Note15    Proceeds     9/30/2011       Warrants           Treasury

             Pascack Bancorp, Inc. (Pascack Community Bank),
2/6/2009                                                            Preferred Stock w/ Exercised Warrants           $3,756,000                                                                                                                         $516,918
             Westwood, NJ2,13
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD2                   Preferred Stock w/ Exercised Warrants           $6,000,000                                                                                            $0.55                        $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49                 Preferred Stock w/ Warrants                     $6,771,000   9/1/2011            $6,771,000            —                                              $8.57       154,354          $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                            Preferred Stock w/ Exercised Warrants           $3,727,000                                                                                                                           $77,852
12/19/2008   Patriot Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants         $26,038,000                                                                                                                        $2,704,136
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2              Preferred Stock w/ Exercised Warrants           $3,690,000                                                                                                                         $487,342
                                                                                                                                 1/6/2010            $7,172,000   $21,213,000
             Peapack-Gladstone Financial Corporation,
1/9/2009                                                            Preferred Stock w/ Warrants                   $28,685,000                                                                                             $9.91       150,296        $2,989,936
             Gladstone, NJ                                                                                                       3/2/2011            $7,172,000   $14,341,000

1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA              Preferred Stock w/ Warrants                     $6,000,000                                                                                                         81,670          $783,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49            Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011            $9,960,000            —    9/1/2011        R       $498,000                                     $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                        Preferred Stock w/ Exercised Warrants         $18,000,000    8/3/2011          $18,000,000             —    8/3/2011        R       $900,000                                     $2,425,250
1/30/2009    Peoples Bancorp Inc., Marietta, OH                     Preferred Stock w/ Warrants                   $39,000,000    2/2/2011          $21,000,000    $18,000,000                                            $11.00       313,505        $4,393,333
             Peoples Bancorp of North Carolina, Inc.,
12/23/2008                                                          Preferred Stock w/ Warrants                   $25,054,000                                                                                             $4.67       357,234        $3,312,696
             Newton, NC
4/24/2009    Peoples Bancorporation, Inc., Easley, SC2              Preferred Stock w/ Exercised Warrants         $12,660,000                                                                                                                        $1,592,681
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2       Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                         $510,710
                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2           Preferred Stock w/ Exercised Warrants         $12,325,000                                                                                                                        $1,640,043
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50     Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011           $1,500,000            —    8/25/2011       R        $71,000                                       $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                    Preferred Stock                                 $3,000,000   8/13/2010           $3,000,000            —                                                                           $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                  Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                         $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                        267,455          $284,999
             Orange City, FL2
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN       Preferred Stock w/ Warrants                   $95,000,000                                                                                            $10.94                     $12,706,250
12/19/2008   Plains Capital Corporation, Dallas, TX2,49             Preferred Stock w/ Exercised Warrants         $87,631,000    9/27/2011         $87,631,000             —    9/27/2011       R      $4,382,000                                   $13,239,940

                                                   8,10             Subordinated Debentures w/ Exercised
7/17/2009    Plato Holdings Inc., Saint Paul, MN                                                                    $2,500,000                                                                                                                         $430,653
                                                                    Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                             Preferred Stock w/ Warrants                   $11,949,000                                                                                             $2.42       237,712          $622,344
12/5/2008    Popular, Inc., San Juan, PR12                          Trust Preferred Securities w/ Warrants       $935,000,000                                                                                             $1.50    20,932,836      $113,109,028
11/21/2008   Porter Bancorp Inc., Louisville, KY                    Preferred Stock w/ Warrants                   $35,000,000                                                                                             $3.83       330,561        $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2             Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                         $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30              Subordinated Debentures                         $6,784,000   8/13/2010           $6,784,000            —                                                                           $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2         Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                         $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV        Preferred Stock w/ Warrants                   $22,252,000                                                                                             $4.97       628,588        $2,090,418
                                                                    Subordinated Debentures w/ Exercised
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                   $6,349,000                                                                                                                         $522,263
                                                                    Warrants
2/20/2009    Premier Service Bank, Riverside, CA2                   Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                            $1.95                          $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                       Preferred Stock w/ Warrants                   $41,400,000                                                                                             $0.91       109,039        $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                   Preferred Stock w/ Exercised Warrants         $10,800,000                                                                                             $6.00                        $988,281
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL        Preferred Stock w/ Warrants                   $25,083,000                                                                                             $3.18       155,025        $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2,c       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                       $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a,c   Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                      Preferred Stock w/ Warrants                  $243,815,000                                                                                             $7.52       645,013       $30,984,823
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49                Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011           $4,000,000            —    9/15/2011       R       $175,000                                       $421,312
             Provident Community Bancshares, Inc.,
3/13/2009                                                           Preferred Stock w/ Warrants                     $9,266,000                                                                                            $0.50       178,880          $543,091
             Rock Hill, SC
2/27/2009    PSB Financial Corporation, Many, LA2,30                Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010           $9,270,000            —    9/29/2010       R       $464,000                                       $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                     Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011           $4,500,000            —    8/11/2011       R       $225,000          $8.95                        $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO                Preferred Stock w/ Warrants                   $32,538,000                                                                                             $6.55       778,421        $4,198,306
2/13/2009    QCR Holdings, Inc., Moline, IL49                       Preferred Stock w/ Warrants                   $38,237,000    9/15/2011         $38,237,000             —                                              $8.77       521,888        $4,949,567

                                                                                                                                                                                                                                          Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                                  Capital                            Remaining    Final                         Final   Stock Price       Current        Dividends/
Purchase                                                                                                                          Repayment               Capital      Capital    Disposition             Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15     Proceeds     9/30/2011       Warrants           Treasury

10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2             Preferred Stock w/ Exercised Warrants          $6,229,000                                                                                                                           $523,303
6/19/2009    RCB Financial Corporation, Rome, GA2,10                  Preferred Stock w/ Exercised Warrants          $8,900,000                                                                                                                           $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                  Preferred Stock w/ Exercised Warrants          $3,800,000   7/21/2011            $3,800,000            —    7/21/2011       R        $190,000          $5.00                        $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49            Preferred Stock w/ Exercised Warrants          $2,995,000   8/18/2011            $2,995,000            —    8/18/2011       R        $150,000         $11.60                        $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                         Preferred Stock w/ Exercised Warrants          $9,982,000                                                                                                                           $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49               Preferred Stock w/ Exercised Warrants          $2,655,000   7/21/2011            $2,655,000            —    7/21/2011       R        $133,000                                       $347,328
10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10              Preferred Stock w/ Exercised Warrants        $12,700,000                                                                                                                          $1,212,158
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2               Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                           $204,830
11/14/2008   Regions Financial Corporation, Birmingham, AL            Preferred Stock w/ Warrants                $3,500,000,000                                                                                              $3.33    48,253,677      $481,736,111
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2                Preferred Stock w/ Exercised Warrants        $40,000,000                                                                                               $0.55                      $3,827,111
2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2     Preferred Stock w/ Exercised Warrants        $10,900,000                                                                                                                            $277,224
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                      Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                           $195,637

                                                              8       Subordinated Debentures w/ Exercised
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI                                                         $15,000,000                                                                                              $16.02                      $2,737,238
                                                                      Warrants

                                                          8           Subordinated Debentures w/ Exercised
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR                                                             $1,100,000                                                                                                                           $207,653
                                                                      Warrants
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2                Preferred Stock w/ Exercised Warrants        $25,000,000                                                                                                                            $738,021
             Royal Bancshares of Pennsylvania, Inc.,
2/20/2009                                                             Preferred Stock w/ Warrants                  $30,407,000                                                                                               $1.07     1,104,370          $358,971
             Narberth, PA
1/16/2009    S&T Bancorp, Indiana, PA                                 Preferred Stock w/ Warrants                 $108,676,000                                                                                              $16.16       517,012       $14,022,223
12/23/2008   Saigon National Bank, Westminster, CA2                   Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                              $0.05
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49                 Preferred Stock w/ Warrants                    $8,816,000   8/25/2011            $8,816,000            —                                              $24.72        57,671        $1,079,960
12/5/2008                                                                                                                         7/21/2010          $41,547,000    $41,547,000
             Sandy Spring Bancorp, Inc., Olney, MD                    Preferred Stock w/ Warrants                  $83,094,000                                                    2/23/2011       R       $4,450,000        $14.63                      $7,593,868
12/5/2008                                                                                                                         12/15/2010         $41,547,000             —
                                                                  2
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA           Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                              $3.75                        $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA                      Preferred Stock w/ Warrants                    $4,000,000                                                                                              $0.33        38,107          $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                      Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011            $4,000,000            —    8/11/2011       R        $200,000                                       $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC                 Preferred Stock w/ Warrants                  $64,779,000    5/20/2009          $64,779,000             —    6/24/2009       R       $1,400,000        $24.68                      $1,115,639
             Seacoast Banking Corporation of Florida,
12/19/2008                                                            Preferred Stock w/ Warrants                  $50,000,000                                                                                               $1.47       589,623        $7,002,430
             Stuart, FL
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA 2,49             Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011             $1,800,000            —    9/1/2011        R         $90,000          $3.40                        $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                             Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                           $293,952
             Waynesville, MO2
1/9/2009     Security Business Bancorp, San Diego, CA2,49             Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011            $5,803,000            —    7/14/2011       R        $290,000                                       $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49           Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011            $6,815,000            —    9/15/2011       R        $341,000          $7.85                        $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30      Preferred Stock w/ Exercised Warrants        $17,388,000    9/29/2010          $17,388,000             —    9/29/2010       R        $522,000                                     $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30                Preferred Stock w/ Warrants                  $18,000,000    9/29/2010          $18,000,000             —                                               $9.51       137,966        $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49      Preferred Stock w/ Exercised Warrants        $12,500,000    9/22/2011          $12,500,000             —    9/22/2011       R        $625,000                                     $1,763,680
             Security State Bank Holding-Company,                     Subordinated Debentures w/ Exercised
5/1/2009                                                                                                           $10,750,000                                                                                                                          $1,414,005
             Jamestown, ND8                                           Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                      Preferred Stock w/ Warrants                  $23,393,000                                                                                               $2.51       556,976        $3,197,044
1/9/2009     Shore Bancshares, Inc., Easton, MD                       Preferred Stock w/ Warrants                  $25,000,000    4/15/2009          $25,000,000             —                                               $4.36       172,970          $333,333
                                                                      Subordinated Debentures w/ Exercised
6/26/2009    Signature Bancshares, Inc., Dallas, TX8                                                                 $1,700,000   12/15/2010           $1,700,000            —    12/15/2010      R         $85,000                                       $209,588
                                                                      Warrants
12/12/2008   Signature Bank, New York, NY                             Preferred Stock w/ Warrants                 $120,000,000    3/31/2009         $120,000,000             —    3/10/2010       A      $11,320,751        $47.72                      $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ                Preferred Stock w/ Warrants                    $7,414,000   5/20/2009            $7,414,000            —    6/24/2009       R        $275,000          $7.25                        $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                    Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                           $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2                Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                              $3.00                        $435,136
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




12/5/2008    South Financial Group, Inc., Greenville, SC26            Preferred Stock w/ Warrants                 $347,000,000    9/30/2010         $130,179,219             —    9/30/2010       R        $400,000                                    $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2      Preferred Stock w/ Exercised Warrants        $12,900,000                                                                                               $4.00                        $933,494

                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                       233
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                        234
                                                                                                                                     Capital                             Remaining    Final                         Final   Stock Price       Current        Dividends/
Purchase                                                                                                                             Repayment               Capital       Capital    Disposition             Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                                Investment Description                   Investment Amount   Date         Repayment Amount6        Amount     Date          Note15     Proceeds     9/30/2011       Warrants           Treasury

1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30                Preferred Stock                               $11,000,000    8/6/2010           $11,000,000              —                                                                            $855,556
             Southern Community Financial Corp.,
12/5/2008                                                               Preferred Stock w/ Warrants                   $42,750,000                                                                                                $1.15     1,623,418        $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC            Preferred Stock w/ Warrants                   $17,299,000                                                                                                $6.90       363,609        $2,133,544
             Southern Heritage Bancshares, Inc., Cleveland,
5/15/2009                                                               Preferred Stock w/ Exercised Warrants           $4,862,000   9/8/2011             $4,862,000             —    9/8/2011        R        $243,000                                       $613,111
             TN2,50
1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49             Preferred Stock w/ Exercised Warrants           $5,000,000   8/25/2011            $5,000,000             —    8/25/2011       R        $250,000                                       $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49        Preferred Stock w/ Warrants                     $9,550,000   7/21/2011            $9,550,000             —                                              $20.62       114,326        $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2                Preferred Stock w/ Exercised Warrants           $2,760,000                                                                                               $2.50                        $327,191
12/5/2008    Southwest Bancorp, Inc., Stillwater, OK                    Preferred Stock w/ Warrants                   $70,000,000                                                                                                $4.22       703,753        $8,555,556
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49                 Preferred Stock w/ Exercised Warrants         $18,215,000    9/22/2011          $18,215,000              —    9/22/2011       R        $911,000                                     $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                        Preferred Stock w/ Exercised Warrants         $30,000,000                                                                                                                           $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2                 Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                            $396,033
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2              Preferred Stock w/ Exercised Warrants         $60,000,000                                                                                                                           $6,730,750
12/5/2008    State Bancorp, Inc., Jericho, NY                           Preferred Stock w/ Warrants                   $36,842,000                                                                                               $10.57       465,569        $4,963,436
                                                                                                                                     8/12/2009          $12,500,000     $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                         Preferred Stock w/ Exercised Warrants         $50,000,000                                                     6/29/2011       R       $2,500,000                                    $5,508,472
                                                                                                                                     6/29/2011          $37,500,000
2/13/2009    State Capital Corporation, Greenwood, MS2,30               Preferred Stock w/ Exercised Warrants         $15,000,000    9/29/2010          $15,000,000              —    9/29/2010       R        $750,000                                     $1,330,709
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




10/28/2008   State Street Corporation, Boston, MA                       Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009        $2,000,000,000             —    7/8/2009        R      $60,000,000        $32.16                     $63,611,111
                                                                        Subordinated Debentures w/ Exercised
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                         $24,900,000                                                                                                                           $4,462,571
                                                                        Warrants

                                                              8,10,50   Subordinated Debentures w/ Exercised
9/25/2009    Steele Street Bank Corporation, Denver, CO                                                               $11,019,000    9/1/2011           $11,019,000              —    9/1/2011        R        $331,000                                     $1,728,673
                                                                        Warrants
12/19/2008   StellarOne Corporation, Charlottesville, VA                Preferred Stock w/ Warrants                   $30,000,000    4/13/2011            $7,500,000    $22,500,000                                                          302,623        $3,856,250
12/23/2008   Sterling Bancorp, New York, NY                             Preferred Stock w/ Warrants                   $42,000,000    4/27/2011          $42,000,000              —    5/18/2011       R        $945,775          $7.26                      $4,923,333
                                                                                                                                                                                                                              No longer
12/12/2008   Sterling Bancshares, Inc., Houston, TX                     Preferred Stock w/ Warrants                  $125,198,000    5/5/2009          $125,198,000              —    6/9/2010        A       $3,007,891                                    $2,486,571
                                                                                                                                                                                                                                trading
12/5/2008    Sterling Financial Corporation, Spokane, WA24              Common Stock w/ Warrants                     $303,000,000                                                                                               $12.38        97,541        $6,733,333
             Stewardship Financial Corporation, Midland
1/30/2009                                                               Preferred Stock w/ Warrants                   $10,000,000    9/1/2011           $10,000,000              —                                               $5.57       133,475        $1,293,055
             Park, NJ49
                                                                                                                                     1/14/2011            $4,000,000    $11,568,000
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2           Preferred Stock w/ Exercised Warrants         $15,568,000                                                     3/16/2011       R        $778,000                                     $1,755,554
                                                                                                                                     3/16/2011          $11,568,000              —
1/23/2009    Stonebridge Financial Corp., West Chester, PA2             Preferred Stock w/ Exercised Warrants         $10,973,000                                                                                                                             $634,609
                                                                        Subordinated Debentures w/ Exercised
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                           $15,000,000                                                                                                                           $2,083,520
                                                                        Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49,d                      Preferred Stock w/ Warrants                     $8,500,000   8/4/2011             $8,500,000             —    9/14/2011       R        $315,000          $5.15                      $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                            Preferred Stock w/ Warrants                   $89,310,000    4/8/2009           $89,310,000              —    5/27/2009       R       $2,100,000         $2.65                      $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GAc,h                       Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011        $3,500,000,000             —    9/22/2011       A      $14,269,536
                                                                                                                                                                                                                                $17.95                    $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, GAc,h                       Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011        $1,350,000,000             —    9/22/2011       A      $16,224,035
                                                      17,54
12/5/2008    Superior Bancorp Inc., Birmingham, AL                      Trust Preferred Securities w/ Warrants        $69,000,000                                                                                                          1,923,792        $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                            Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010           $2,000,000             —    12/29/2010      R        $100,000          $8.75                        $214,972
                                                                                                                                     4/21/2010         $200,000,000    $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA                    Preferred Stock w/ Warrants                  $300,000,000                                                     1/19/2011       R       $5,269,179         $5.46                     $23,722,222
                                                                                                                                     12/22/2010        $100,000,000              —
4/10/2009    SV Financial, Inc., Sterling, IL2                          Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011            $4,000,000             —    8/31/2011       R        $200,000                                       $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                       Preferred Stock w/ Warrants                  $235,000,000    12/23/2009        $235,000,000              —    6/16/2010       R       $6,820,000        $37.00                     $12,109,028
                                                                        Subordinated Debentures w/ Exercised
5/8/2009     Sword Financial Corporation, Horicon, WI8,49                                                             $13,644,000    9/15/2011          $13,644,000              —    9/15/2011       R        $682,000                                     $2,693,234
                                                                        Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                      Preferred Stock w/ Warrants                  $967,870,000                                                                                                $1.07    15,510,737      $128,511,628
1/16/2009    Syringa Bancorp, Boise, ID2                                Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                               $0.07                        $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL                         Preferred Stock w/ Warrants                  $104,823,000                                                                                                $6.42     1,462,647       $14,325,811
                                                                        Subordinated Debentures w/ Exercised
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                      $9,720,000   9/8/2011             $9,720,000             —    9/8/2011        R        $292,000                                     $1,599,381
                                                                        Warrants

                                                                                                                                                                                                                                                 Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                               Capital                            Remaining    Final                            Final   Stock Price       Current        Dividends/
Purchase                                                                                                                       Repayment               Capital      Capital    Disposition                Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15        Proceeds     9/30/2011       Warrants           Treasury

             TCB Holding Company, Texas Community Bank,
1/16/2009                                                          Preferred Stock w/ Exercised Warrants        $11,730,000                                                                                                                               $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN                Preferred Stock w/ Warrants                 $361,172,000    4/22/2009         $361,172,000             —    12/15/2009      A         $9,599,964          $9.16                      $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                     Preferred Stock w/ Exercised Warrants          $2,000,000   8/3/2011             $2,000,000            —    8/3/2011        R           $100,000                                       $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN        Preferred Stock w/ Warrants                  $30,000,000                                                                                                  $0.92       461,538        $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                         Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                              $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX            Preferred Stock w/ Warrants                  $75,000,000    5/13/2009          $75,000,000             —    3/11/2010       A         $6,709,061         $22.85                      $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2      Preferred Stock w/ Exercised Warrants          $3,981,000   5/19/2010            $3,981,000            —    5/19/2010       R           $199,000                                       $295,308
8/7/2009     The ANB Corporation, Terrell, TX2,49                  Preferred Stock w/ Exercised Warrants        $20,000,000    8/25/2011          $20,000,000             —    8/25/2011       R         $1,000,000                                     $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                     Preferred Stock w/ Warrants                  $45,220,000    3/10/2010          $45,220,000             —    9/8/2010        R         $4,753,985          $7.16                      $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC 2,34                Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010            $1,742,850            —                                                                               $169,834
             The Bank of Kentucky Financial Corporation,
2/13/2009                                                          Preferred Stock w/ Warrants                  $34,000,000    12/22/2010         $17,000,000    $17,000,000                                                $20.26       274,784        $3,709,305
             Crestview Hills, KY
             The Bank of New York Mellon Corporation,
10/28/2008                                                         Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009        $3,000,000,000            —    8/5/2009        R       $136,000,000         $18.58                     $95,416,667
             New York, NY
1/16/2009    The Baraboo Bancorporation, Baraboo, WI2              Preferred Stock w/ Exercised Warrants        $20,749,000                                                                                                  $5.23                      $2,918,042
             The Connecticut Bank and Trust Company,
12/19/2008                                                         Preferred Stock w/ Warrants                    $5,448,000                                                                                                 $6.35       175,742          $544,800
             Hartford, CT
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49            Preferred Stock w/ Warrants                    $9,090,000   8/25/2011            $9,090,000                                                              $16.26       116,538        $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME             Preferred Stock w/ Warrants                  $25,000,000    8/24/2011          $12,500,000    $12,500,000                                                $12.39       225,904        $3,265,625
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30         Preferred Stock w/ Warrants                    $5,000,000   9/29/2010            $5,000,000            —                                                  $8.57        54,705          $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                  Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                  $8,610
10/28/2008   The Goldman Sachs Group, Inc., New York, NY           Preferred Stock w/ Warrants              $10,000,000,000    6/17/2009      $10,000,000,000             —    7/22/2009       R      $1,100,000,000        $94.55                    $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                 Preferred Stock w/ Exercised Warrants        $15,000,000    8/18/2011          $15,000,000             —    8/18/2011       R           $750,000                                     $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2           Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                            $1,080,917
             The PNC Financial Services Group Inc.,
12/31/2008                                                         Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010        $7,579,200,000            —    4/29/2010       A       $324,195,686         $48.19                    $421,066,667
             Pittsburgh, PA
2/20/2009    The Private Bank of California, Los Angeles, CA2,49   Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011             $5,450,000            —    9/1/2011        R           $273,000                                       $751,752
1/9/2009     The Queensborough Company, Louisville, GA2            Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                               $882,900
                                                                   Subordinated Debentures w/ Exercised
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                        $1,697,000   9/22/2011            $1,697,000            —    9/22/2011       R            $51,000                                       $282,299
                                                                   Warrants
12/11/2009   The Victory Bancorp, Inc., Limerick, PA2,10a, 49      Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011            $1,505,000            —    9/22/2011       R            $34,000                                       $215,183
             The Victory Bancorp, Inc. (The Victory Bank),
2/27/2009                                                          Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011             $541,000             —    9/22/2011       R            $27,000
             Limerick, PA2,13,49
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                          Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                              $792,434
             National Bank & Trust), Orlando, FL2,13
12/5/2008    TIB Financial Corp, Naples, FL32                      Preferred Stock w/ Warrants                  $37,000,000    9/30/2010          $12,119,637             —    9/30/2010       R            $40,000          $9.51                      $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mt. Pleasant, SC           Preferred Stock w/ Warrants                  $14,448,000                                                                                                  $0.12       571,821        $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                              $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                 Preferred Stock w/ Warrants                  $16,641,000                                                                                                  $4.04                        $952,236
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                 Preferred Stock w/ Exercised Warrants          $2,117,000                                                                                                                              $273,090
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2              Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                              $550,450
12/12/2008   TowneBank, Portsmouth, VA50                           Preferred Stock w/ Warrants                  $76,458,000    9/22/2011          $76,458,000             —                                                 $11.37                     $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36              Warrants                                       $3,268,000   2/15/2011             $500,000             —                                                  $0.27     3,098,341          $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011            $3,700,000            —    9/22/2011       R           $185,000                                       $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49     Preferred Stock w/ Exercised Warrants        $15,540,000    9/22/2011          $15,540,000             —    9/22/2011       R           $777,000                                     $2,336,116
3/27/2009    Trinity Capital Corporation, Los Alamos, NM2          Preferred Stock w/ Exercised Warrants        $35,539,000                                                                                                                             $4,655,306
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30          Preferred Stock                                $2,795,000   8/13/2010            $2,795,000            —                                                                               $190,215
                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2      Preferred Stock w/ Exercised Warrants        $23,000,000                                                                                                                             $3,096,143
4/3/2009     TriSummit Bank, Kingsport, TN2,c                      Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                          $705,550
12/22/2009   TriSummit Bank, Kingsport, TN2,10a,c                  Preferred Stock                                $4,237,000

                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                       235
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)                                                                                                                                                                                                                     236
                                                                                                                                 Capital                             Remaining    Final                          Final   Stock Price       Current        Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition              Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     9/30/2011       Warrants           Treasury

11/21/2008   Trustmark Corporation, Jackson, MS                      Preferred Stock w/ Warrants                 $215,000,000    12/9/2009         $215,000,000              —    12/30/2009      R       $10,000,000        $18.15                     $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2 49          Preferred Stock w/ Exercised Warrants        $12,000,000    9/1/2011           $12,000,000              —    9/1/2011        R         $600,000         $15.10                      $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                           Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009        $6,599,000,000             —    7/15/2009       R      $139,000,000        $23.54                    $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                           Preferred Stock w/ Exercised Warrants        $50,236,000                                                                                                                              $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49                Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011            $8,950,000             —    8/11/2011       R         $450,000                                     $1,234,912
11/14/2008   UCBH Holdings, Inc., San Francisco, CA14                Preferred Stock w/ Warrants                 $298,737,000                                                                                                           7,847,732        $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                     Preferred Stock w/ Warrants                 $214,181,000    2/17/2010         $214,181,000              —    3/31/2010       R        $4,500,000         $8.79                     $13,475,555
5/1/2009     Union Bank & Trust Company, Oxford, NC2,50,c            Preferred Stock                                $3,194,000   9/22/2011            $3,194,000             —    9/22/2011       R         $160,000
                                                                                                                                                                                                                                                           $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49,c        Preferred Stock w/ Exercised Warrants          $2,997,000   9/22/2011            $2,997,000             —
12/29/2009   Union Financial Corporation, Albuquerque, NM2,10        Preferred Stock w/ Exercised Warrants          $2,179,000                                                                                                                             $186,869
             Union First Market Bankshares Corporation
2/6/2009                                                             Preferred Stock                              $33,900,000                                                                                                                            $4,665,065
             (First Market Bank, FSB), Bowling Green, VA18
             Union First Market Bankshares Corporation                                                                                                                                                                       $10.72
12/19/2008   (Union Bankshares Corporation),                         Preferred Stock w/ Warrants                  $59,000,000    11/18/2009         $59,000,000              —    12/23/2009      R         $450,000                                     $2,695,972
             Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                    Preferred Stock w/ Exercised Warrants          $8,700,000
1/16/2009    United Bancorp, Inc., Tecumseh, MI                      Preferred Stock w/ Warrants                  $20,600,000                                                                                                 $8.62       311,492        $2,657,972
             United Bancorporation of Alabama, Inc.,
12/23/2008                                                           Preferred Stock w/ Warrants                  $10,300,000    9/3/2010           $10,300,000              —                                                            108,264          $872,639
                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




             Atmore, AL30

                                                         8           Subordinated Debentures w/ Exercised
5/22/2009    United Bank Corporation, Barnesville, GA                                                             $14,400,000                                                —                                                                           $2,694,871
                                                                     Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GAj          Preferred Stock w/ Warrants                 $180,000,000                                                                                                 $8.49       219,908       $24,268,750

             United Financial Banking Companies, Inc.,                                                                           12/15/2010           $3,000,000     $2,658,000
1/16/2009                                                            Preferred Stock w/ Exercised Warrants          $5,658,000                                                    9/15/2011       R         $283,000         $13.50                        $708,964
             Vienna, VA2,49                                                                                                      9/15/2011            $2,658,000             —
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                        Preferred Stock w/ Warrants                  $20,649,000                                                                                                 $6.65                      $2,781,880
5/22/2009    Universal Bancorp, Bloomfield, IN2                      Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                           $1,203,496
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30     Subordinated Debentures                      $11,926,000    7/30/2010          $11,926,000              —                                                                           $1,022,886
2/6/2009     US Metro Bank, Garden Grove, CA2                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                $2.60                        $393,698
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                   Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                 $3.00                      $1,441,222
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                   Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                $6.75                      $1,066,611
1/9/2009     Valley Community Bank, Pleasanton, CA2                  Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                $2.75                        $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA               Preferred Stock w/ Warrants                  $16,019,000                                                                                                             344,742        $2,180,718
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                           Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011            $1,300,000             —    9/22/2011       R          $65,000                                       $124,775
             Saginaw, MI2,49
                                                                                                                                 6/3/2009           $75,000,000    $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ                      Preferred Stock w/ Warrants                 $300,000,000    9/23/2009         $125,000,000    $100,000,000   5/18/2010       A        $5,571,592        $10.59                     $12,979,167
                                                                                                                                 12/23/2009        $100,000,000              —
             Veritex Holdings, Inc.
6/26/2009                                                            Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011            $3,000,000             —    8/25/2011       R         $150,000                                       $353,796
             (Fidelity Resources Company), Dallas, TX2,40,49
5/1/2009     Village Bank and Trust Financial Corp, Midlothian, VA   Preferred Stock w/ Warrants                  $14,738,000                                                                                                 $1.88       499,029        $1,318,232
12/12/2008   Virginia Commerce Bancorp, Arlington, VA                Preferred Stock w/ Warrants                  $71,000,000                                                                                                 $5.87     2,696,203        $9,496,250
6/12/2009    Virginia Company Bank, Newport News, VA2,10             Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                             $539,117
4/24/2009    Vision Bank - Texas, Richardson, TX2                    Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                             $188,707
12/19/2008   VIST Financial Corp., Wyomissing, PA                    Preferred Stock w/ Warrants                  $25,000,000                                                                                                 $5.43                      $3,319,444
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50           Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011         $110,000,000              —    9/15/2011       R        $5,500,000                                   $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10     Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                            $1,078,845
12/19/2008   Wainwright Bank & Trust Company, Boston, MA             Preferred Stock w/ Warrants                  $22,000,000    11/24/2009         $22,000,000              —    12/16/2009      R         $568,700                                     $1,023,611
1/16/2009    Washington Banking Company, Oak Harbor, WA              Preferred Stock w/ Warrants                  $26,380,000    1/12/2011          $26,380,000              —    3/2/2011        R        $1,625,000         $9.73                      $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                   Preferred Stock w/ Warrants                 $200,000,000    5/27/2009         $200,000,000              —    3/9/2010        A       $15,623,222        $12.74                      $5,361,111

                                                                                                                                                                                                                                              Continued on next page.
CPP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUED)
                                                                                                                                   Capital                                Remaining    Final                              Final   Stock Price       Current        Dividends/
Purchase                                                                                                                           Repayment                  Capital       Capital    Disposition                  Disposition         as of   Outstanding   Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount    Date            Repayment Amount6        Amount     Date            Note15        Proceeds     9/30/2011       Warrants           Treasury

10/30/2009   WashingtonFirst Bankshares, Inc., Reston, VA2,10a,49     Preferred Stock                                $6,842,000    8/4/2011                $6,842,000             —
             WashingtonFirst Bankshares, Inc.                                                                                                                                                                                                                     $1,510,318
1/30/2009                                                             Preferred Stock w/ Exercised Warrants          $6,633,000    8/4/2011                $6,633,000             —    8/4/2011          R            $332,000
             (WashingtonFirst Bank), Reston, VA2,13,49
6/26/2009    Waukesha Bankshares, Inc., Waukesha, WI2,10              Preferred Stock w/ Exercised Warrants          $5,625,000                                                                                                                                     $633,271
                                                                                                                                   3/3/2010             $100,000,000    $300,000,000   6/2/2011          A         $20,678,339
11/21/2008   Webster Financial Corporation, Waterbury, CT             Preferred Stock w/ Warrants                  $400,000,000    10/13/2010           $100,000,000    $200,000,000                                                  $15.30                    $36,944,444
                                                                                                                                   12/29/2010           $200,000,000              —
10/28/2008   Wells Fargo & Company, San Francisco, CA                 Preferred Stock w/ Warrants               $25,000,000,000    12/23/2009        $25,000,000,000              —    5/20/2010         A        $849,014,998        $24.12                  $1,440,972,222
12/5/2008    WesBanco, Inc., Wheeling, WV                             Preferred Stock w/ Warrants                   $75,000,000    9/9/2009              $75,000,000              —    12/23/2009        R            $950,000        $17.31                      $2,854,167
12/31/2008   West Bancorporation, Inc., West Des Moines, IAf          Preferred Stock w/ Warrants                   $36,000,000    6/29/2011             $36,000,000              —    8/31/2011         R            $700,000         $8.48                      $4,495,000
                                                                                                                                   9/2/2009              $41,863,000     $41,863,000
2/13/2009    Westamerica Bancorporation, San Rafael, CA               Preferred Stock w/ Warrants                   $83,726,000                                                                                                       $38.32                      $2,755,981
                                                                                                                                   11/18/2009            $41,863,000              —
                                                                 49
11/21/2008   Western Alliance Bancorporation, Las Vegas, NV           Preferred Stock w/ Warrants                  $140,000,000    9/27/2011            $140,000,000              —                                                    $5.48       787,107      $19,950,000
             Western Community Bancshares, Inc., Palm
12/23/2008                                                            Preferred Stock w/ Exercised Warrants          $7,290,000                                                                                                                                     $554,083
             Desert, CA2
12/23/2008   Western Illinois Bancshares Inc., Monmouth, IL2,c        Preferred Stock w/ Exercised Warrants          $6,855,000
                                                                                                                                                                                                                                                                  $1,359,721
12/29/2009   Western Illinois Bancshares Inc, Monmouth, IL2,10a,c     Preferred Stock                                $4,567,000
5/15/2009    Western Reserve Bancorp, Inc, Medina, OH2                Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                       $13.25                        $576,338
2/20/2009    White River Bancshares Company, Fayetteville, AR2        Preferred Stock w/ Exercised Warrants         $16,800,000                                                                                                                                   $1,589,583
12/19/2008   Whitney Holding Corporation, New Orleans, LA45           Preferred Stock w/ Warrants                  $300,000,000    6/3/2011             $300,000,000              —    6/3/2011          R          $6,900,000                                  $36,833,333
12/12/2008   Wilshire Bancorp, Inc., Los Angeles, CA                  Preferred Stock w/ Warrants                   $62,158,000                                                                                                        $2.74       949,460        $8,313,633
12/19/2008   Wintrust Financial Corporation, Lake Forest, IL          Preferred Stock w/ Warrants                  $250,000,000    12/22/2010           $250,000,000              —    2/8/2011          A         $25,964,061        $25.81                    $25,104,167
5/15/2009    Worthington Financial Holdings, Inc., Huntsville, AL2    Preferred Stock w/ Exercised Warrants          $2,720,000                                                                                                                                     $333,540
1/23/2009    WSFS Financial Corporation, Wilmington, DE               Preferred Stock w/ Warrants                   $52,625,000                                                                                                       $31.57       175,105        $6,738,924
1/16/2009    Yadkin Valley Financial Corporation, Elkin, NCc          Preferred Stock w/ Warrants                   $36,000,000                                                                                                                    385,990
                                                                                                                                                                                                                                       $1.65                      $4,782,227
7/24/2009    Yadkin Valley Financial Corporation, Elkin, NCc          Preferred Stock w/ Warrants                   $13,312,000                                                                                                                    273,534
                                            2,50
4/24/2009    York Traditions Bank, York, PA                           Preferred Stock w/ Exercised Warrants          $4,871,000    7/14/2011               $4,871,000             —    7/14/2011         R            $244,000                                      $590,022
11/14/2008   Zions Bancorporation, Salt Lake City, UT                 Preferred Stock w/ Warrants                 $1,400,000,000                                                                                                      $14.08     5,789,909     $192,694,444
                                                                                                                                   Total Capital
                                                                                                                                                                                       Total Warrant
                                                                      Total Purchase Amount*                  $204,943,827,320     Repayment       $184,934,598,563                                             $7,639,883,346
                                                                                                                                                                                       Proceeds****
                                                                                                                                   Amount**


                                                                      Total Treasury CPP Investment Outstanding                    $17,391,946,463
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                 237
                                                                                                                                                                                                                                                                                                                          238
Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from Treasury’s 10/3/2011 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 9/30/2011.

* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32 and 34), but excludes investment
amounts for institutions that have pending receivership or bankruptcy proceedings (see Notes 14 and 25).
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

1a 
     This transaction was included in previous Transactions Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
     1/1/2009, and this transaction under the CPP was funded on 1/9/2009.
1b
     he warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and
    T
    $124,228,646. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2
    Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3
    To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.							
3a
    Treasury cancelled the warrants received from this institution due to its designation as a CDFI.													
4
   Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.												
5
   Redemption pursuant to a qualified equity offering.															
6
   This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.												
7
   The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.												
8
   Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.									
9
   In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.								
10
     This institution participated in the expansion of CPP for small banks.														
10a
      This institution received an additional investment through the expansion of CPP for small banks.
11 
     Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
     Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
     purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12
    On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this
     transaction.
13
     This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14
     As of the date of this report, this institution is in bankruptcy proceedings.
15 
     For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial
     institution.
16 
     On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
                                                                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




     common shares to holders of CVRs were not met.
17
     On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18 
     On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
     dividend rate equivalent to those of Treasury’s original investment.
19 
     On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20 
     On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
     unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21 
     On 3/30/2010, Treasury exchanged its $7,500,000 of Subordinated Debentures in GulfSouth Private Bank for an equivalent amount of Preferred Stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial
     institutions.
22 
     On 4/16/2010, Treasury exchanged its $72,000,000 of Preferred Stock in Independent Bank Corporation (Independent) for $74,426,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously
     accrued and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23 
     Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program
     (see note 11). On April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on
     completion of the sale). Completion of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during
     the period ending on June 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares
     of the common stock from time to time during the period ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary
     authority, as its sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at
     the market price. On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted
     average price per share and the total proceeds to Treasury from all such sales during those periods.
24 
     On 8/26/2010, Treasury completed the exchange of its $303,000,000 of Preferred Stock in Sterling Financial Corporation (Sterling) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
     4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25 
     On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
26 
     On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the Preferred Stock and $400,000 for the Warrants, pursuant to the terms of the agreement
     between Treasury and TD entered into on 5/18/2010.
27 
     On 6/30/2010, Treasury exchanged $46,400,000 of its Series A Preferred Stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28 
     On 7/20/2010, Treasury completed the exchange of its $400,000,000 of Preferred Stock in First BanCorp for $424,174,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
     unpaid dividends. Subject to the fulfillment by First BanCorp of certain conditions, including those related to its capital plan, the MCP may be converted to common stock. First BanCorp has agreed to have Treasury observers attend board of directors meetings.
29 
     On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of Preferred Stock in Pacific Capital for $195,045,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial
     investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
     common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.
30 
     This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a 
      At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31 
     On 9/30/2010, Treasury completed the exchange of its $80,347,000 of Preferred Stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
     8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32 
     On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the Preferred Stock and $40,000 for the Warrants, pursuant to the terms of the
     agreement between Treasury and NAFH entered into on 9/24/2010.
33 
     On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all Preferred Stock and Warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
     entered into on 10/29/2010.
34 
     On 12/3/2010, Treasury completed the sale of all Preferred Stock (including the Preferred Stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury
     and Currituck entered into on 11/5/2010.
35 
     Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all Preferred Stock and Warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
     closing of the sale also occurred on 1/28/2011.
36 
     On 2/15/2011, Treasury completed the sale of all Preferred Stock (including the Preferred Stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
     payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.
37 
     On 2/18/11, Treasury completed the exchange of its $135,000,000 of Preferred Stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.
38 
     On 3/9/2011, Treasury completed the sale of all Subordinated Debentures (including the Subordinated Debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement
     between Treasury and FBHC entered into on 3/9/2011.
39 
     On 5/31/2011, Treasury completed the sale of all Preferred Stock and Warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition
     expenses, debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.
40 
     As a result of the acquisition of Fidelity Resources Company (the acquired company) by Veritex Holdings, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/26/2009 were exchanged for a like amount of securities of the acquiror, pursuant to the terms of
     an agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.
41 
     As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
     preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
        into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.
42 
        On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. Preferred Stock and Warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
        Bear State entered into on 5/3/2011.
43      
        On  5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation Preferred Stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation Warrant for an equivalent Warrant
        issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.
44      
        On  7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
        held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 5/16/2011. On 5/16/2011, Treasury entered into an agreement with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all
        Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-held M&I Warrant for an amount equal to $3,250,000. Closing of the sale is subject to certain conditions.
45      
        On  6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid dividends
        thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.
46      
        On  6/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 6/17/2011.
47      
        On  6/30/2011, Treasury completed the sale of all Cascade Financial Corporation Preferred Stock held by Treasury and the related Warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
        on 6/28/2011.
48      
        On  6/29/2011, Treasury entered into an agreement with Carver Bancorp, Inc. to exchange Treasury’s $18,980,000 of preferred stock for an equivalent amount of common stock. The exchange is subject to the fulfillment by Carver Bancorp, Inc. of certain conditions, including the satisfactory completion of a
        capital plan.
49
        Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
50
        Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund.
51
        On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
52
        On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
53
        On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
54
        On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
55
        On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
        On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
57
        On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
58
        On 8/12/2011, Treasury entered into an agreement with FNB United Corp. to exchange Treasury’s $51,500,000 of preferred stock for common stock. The exchange is subject to the fulfillment by FNB United Corp. of certain conditions, including the satisfactory completion of a capital plan.
59      
        On  9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. Preferred Stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
        entered into on 9/6/2011.
60        
         As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
         unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.
61
        On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.
62
        Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.

a 
  According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” It appears that
  Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 6/30/2011.
b
  According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c
  Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d
  Warrants Sold to 3rd Party in QFI Sale.
e
  Warrants Sold back to Original QFI, QFI had a QEO, QFI had a Stock Dividend Adjustment.
f
  Warrants Sold back to Original QFI.
g
  Warrants Sold back to Original QFI, QFI had a QEO.
h
  Warrants sold into marketplace via Auction.
i
  Decrease Shares due to 1 for 10 Reverse Stock Split.
j
  Decrease Shares due to 1 for 5 Reverse Stock Split.
k
  Decrease Shares due to 1 for 10 Reverse Stock Split.
l
  Warrants increased via Stock Dividend.


Sources: Treasury, Transactions Report, 10/3/2011; Treasury, Dividend and Interest Report, 10/11/2011; Treasury, responses to SIGTARP data call, 10/8/2011; Bloomberg, LP (www.bloomberg.com) accessed 10/13/2011.


TABLE D.2

    CPP — CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 9/30/2011
    Note       Date                                         Pricing Mechanism6                     Number of Shares                                           Proceeds7
    1          4/26/2010 – 5/26/2010                                       $4.12                       1,500,000,000                                   $6,182,493,158
    1          5/26/2010 – 6/30/2010                                       $3.90                       1,108,971,857                                   $4,322,726,825
    1          7/23/2010 – 9/30/2010                                       $3.91                       1,500,000,000                                   $4,322,726,825
    1          10/19/2010 – 12/6/2010                                      $4.26                       1,165,928,228                                   $4,967,921,811
    1          12/6/10                                                     $4.35                       2,417,407,607                                  $10,515,723,090
                                                                                                      Total Proceeds                                $31,852,354,471

    Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes taken verbatim from 10/3/2011 Transactions Report.

    1
      On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
      Completion of the sale under this authority occurred on 5/26/2010.
    2
       On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to 1,500,000,000
      shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion of the sale under this
      authority occurred on 6/30/2010.
    3
        On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
      which plan was terminated on 12/6/2010.
    4
         On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
      which plan was terminated on 12/6/2010.
    5
          On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
      fulfillment of certain closing conditions.
                                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




    6
           The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
    7
            Amount represents the gross proceeds to Treasury.

    Source: Treasury, Transactions Report, 10/3/2011.
                                                                                                                                                                                                                                                                                                                                 239
TABLE D.3                                                                                                                                                                                                                                     240

CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2011
                                                   Seller                                                         Purchase Details                                               Disposition Details

                                                                                                                                        Additional     Investment                                      Remaining          Dividend/Interest
Note    Purchase Date   Name of Institution                                     Investment Description     Amount from CPP             Investment         Amount          Date          Amount Investment Amount          Paid to Treasurya

         9/24/2010      Alternatives Federal Credit Union, Ithaca, NY            Subordinated Debentures               —                      —       $2,234,000    Par                                                          $39,840
         9/17/2010      American Bancorp of Illinois, Inc., Oak Brook, IL        Subordinated Debentures               —                      —       $5,457,000    Par                                                         $154,130
         9/24/2010      Atlantic City Federal Credit Union, Lander, WY           Subordinated Debentures               —                      —       $2,500,000    Par                                                          $44,583
         9/24/2010      Bainbridge Bancshares, Inc., Bainbridge GA               Preferred Stock                       —                      —       $3,372,000    Par                                                          $60,134
         9/29/2010      Bancorp of Okolona, Inc., Okolona, MS                    Subordinated Debentures               —                      —       $3,297,000    Par                                                          $89,715
 1, 2    9/29/2010      BancPlus Corporation, Ridgeland MS                       Preferred Stock             $50,400,000             $30,514,000     $80,914,000    Par                                                       $1,420,490
         9/29/2010      BankAsiana, Palisades Park, NJ                           Preferred Stock                       —                      —       $5,250,000    Par                                                          $92,167
         9/29/2010      Bethex Federal Credit Union, Bronx, NY                   Subordinated Debentures               —                      —        $502,000     Par                                                           $8,813
         9/29/2010      Border Federal Credit Union, Del Rio, TX                 Subordinated Debentures               —                      —       $3,260,000    Par                                                          $57,231
         9/24/2010      Brewery Credit Union, Milwaukee, WI                      Subordinated Debentures               —                      —       $1,096,000    Par                                                          $19,545
                        Brooklyn Cooperative Federal Credit Union, Brooklyn,
         9/30/2010                                                               Subordinated Debentures               —                      —        $300,000     Par                                                           $5,250
                        NY
         9/24/2010      Buffalo Cooperative Federal Credit Union, Buffalo, NY    Subordinated Debentures               —                      —        $145,000     Par                                                           $2,586
         9/24/2010      Butte Federal Credit Union, Biggs, CA                    Subordinated Debentures               —                      —       $1,000,000    Par                                                          $17,833
         9/29/2010      Carter Federal Credit Union, Springhill, LA              Subordinated Debentures               —                      —       $6,300,000    Par                                                         $110,600
                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




 1       8/27/2010      Carver Bancorp, Inc, New York, NY                        Preferred Stock             $18,980,000                      —      $18,980,000    Par                                                          $82,247
         9/17/2010      CFBanc Corporation, Washington, DC                       Preferred Stock                       —                      —       $5,781,000    Par                                                         $105,343
 1       8/13/2010                                                                                             $7,462,000                     —                     Par
                        Citizens Bancshares Corporation, Atlanta, GA             Preferred Stock                                                     $11,841,000                                                                $229,864
 2a      9/17/2010                                                                                                     —              $4,379,000                    Par
                        Community Bancshares of Mississippi, Inc., Brandon,
 1       9/29/2010                                                               Preferred Stock             $54,600,000                      —      $54,600,000    Par                                                         $958,533
                        MS
 1, 2    9/29/2010      Community Bank of the Bay, Oakland, CA                   Preferred Stock               $1,747,000             $2,313,000      $4,060,000    Par                                                          $71,276
                        Community First Guam Federal Credit Union,
         9/24/2010                                                               Subordinated Debentures               —                      —       $2,650,000    Par                                                          $47,258
                        Hagatna, GU
         9/29/2010      Community Plus Federal Credit Union, Rantoul, IL         Subordinated Debentures               —                      —        $450,000     Par                                                           $7,900
         9/24/2010      Cooperative Center Federal Credit Union, Berkeley, CA    Subordinated Debentures               —                      —       $2,799,000    Par                                                          $49,916
         9/29/2010      D.C. Federal Credit Union, Washington, DC                Subordinated Debentures               —                      —       $1,522,000    Par                                                          $26,720
                        East End Baptist Tabernacle Federal Credit Union,
         9/29/2010                                                               Subordinated Debentures               —                      —           $7,000    Par                                                             $123
                        Bridgeport, CT
                        Episcopal Community Federal Credit Union, Los
         9/29/2010                                                               Subordinated Debentures               —                      —        $100,000     Par                                                           $1,756
                        Angeles, CA
         9/24/2010      Fairfax County Federal Credit Union, Fairfax, VA         Subordinated Debentures               —                      —       $8,044,000    Par                                                         $143,451
         9/29/2010      Faith Based Federal Credit Union, Vernon, CA             Subordinated Debentures               —                      —         $30,000     Par                                                             $527
         9/29/2010      Fidelis Federal Credit Union, Fairfax, VA                Subordinated Debentures               —                      —         $14,000     Par                                                             $246
 1       8/13/2010      First American International Corp., Brooklyn, NY         Preferred Stock             $17,000,000                      —      $17,000,000    Par                                                         $171,889
 1       9/24/2010      First Choice Bank, Cerritos, CA                          Preferred Stock               $5,146,000                     —       $5,146,000    Par                                                          $91,770
 1       9/17/2010      First Eagle Bancshares, Inc., Hanover Park, IL           Subordinated Debentures       $7,875,000                     —       $7,875,000    Par                                                         $222,425
         9/29/2010      First Legacy Community Credit Union, Charlotte, NC       Subordinated Debentures               —                      —       $1,000,000    Par                                                          $17,556
 1       9/29/2010      First M&F Corporation, Kosciusko, MS                     Preferred Stock             $30,000,000                      —      $30,000,000    Par                                                         $526,667
 1       9/29/2010      First Vernon Bancshares, Inc., Vernon, AL                Preferred Stock               $6,245,000                     —       $6,245,000    Par                                                          $15,959
         9/29/2010      Freedom First Federal Credit Union, Roanoke, VA          Subordinated Debentures               —                      —       $9,278,000    Par                                                         $162,880
                        Gateway Community Federal Credit Union, Missoula,
         9/24/2010                                                               Subordinated Debentures               —                      —       $1,657,000    Par                                                          $29,550
                        MT
         9/17/2010      Genesee Co-op Federal Credit Union, Rochester, NY        Subordinated Debentures               —                      —        $300,000     Par                                                           $5,467
         9/29/2010      Greater Kinston Credit Union, Kinston, NC                Subordinated Debentures               —                      —        $350,000     Par                                                           $6,144
1       7/30/2010       Guaranty Capital Corporation, Belzoni, MS               Subordinated Debentures      $14,000,000                      —      $14,000,000    Par                                                         $452,083
        9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA      Subordinated Debentures                —                      —        $100,000     Par                                                           $1,756
        9/17/2010       Hope Federal Credit Union, Jackson, MS                  Subordinated Debentures                —                      —       $4,520,000    Par                                                          $82,364
                                                                                                                                                                                                                   Continued on next page.
CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2011                                                         (CONTINUED)
                                                 Seller                                                         Purchase Details                                               Disposition Details

                                                                                                                                      Additional     Investment                                      Remaining          Dividend/Interest
Note    Purchase Date   Name of Institution                                   Investment Description     Amount from CPP             Investment         Amount          Date          Amount Investment Amount          Paid to Treasurya

 1, 2    9/10/2010      IBC Bancorp, Inc., Chicago, IL                         Subordinated Debentures       $4,205,000             $3,881,000      $8,086,000    Par                                                         $233,259
 1       9/3/2010       IBW Financial Corporation, Washington, DC              Preferred Stock               $6,000,000                     —       $6,000,000    Par                                                         $114,000
                        Independent Employers Group Federal Credit Union,
         9/29/2010                                                             Subordinated Debentures               —                      —        $698,000     Par                                                          $12,254
                        Hilo, HI
         9/3/2010       Kilmichael Bancorp, Inc., Kilmichael, MS               Subordinated Debentures               —                      —       $3,154,000    Par                                                          $92,885
 1       9/29/2010      Lafayette Bancorp, Inc., Oxford, MS                    Preferred Stock               $4,551,000                     —       $4,551,000    Par                                                          $79,895
                        Liberty County Teachers Federal Credit Union,
         9/24/2010                                                             Subordinated Debentures               —                      —        $435,000     Par                                                           $7,758
                        Liberty, TX
 1, 2    9/24/2010      Liberty Financial Services, Inc., New Orleans, LA      Preferred Stock               $5,645,000             $5,689,000     $11,334,000    Par                                                         $202,123
                        Lower East Side People’s Federal Credit Union, New
         9/24/2010                                                             Subordinated Debentures               —                      —        $898,000     Par                                                          $16,014
                        York, NY
 1       8/20/2010      M&F Bancorp, Inc., Durham, NC                          Preferred Stock             $11,735,000                      —      $11,735,000    Par                                                         $231,440
 1       8/20/2010                                                                                           $5,500,000                     —                     Par
                        Mission Valley Bancorp, Sun Valley, CA                 Preferred Stock                                                     $10,336,000                                                                $194,714
 2a      9/24/2010                                                                                                   —              $4,836,000                    Par
                        Neighborhood Trust Federal Credit Union, New
         9/24/2010                                                             Subordinated Debentures               —                      —        $283,000     Par                                                           $5,047
                        York, NY
                        North Side Community Federal Credit Union,
         9/29/2010                                                             Subordinated Debentures               —                      —        $325,000     Par                                                           $5,706
                        Chicago, IL
                        Northeast Community Federal Credit Union, San
         9/24/2010                                                             Subordinated Debentures               —                      —        $350,000     Par                                                           $6,242
                        Francisco, CA
         9/29/2010      Opportunities Credit Union, Burlington, VT             Subordinated Debentures               —                      —       $1,091,000    Par                                                          $19,153
 1       8/13/2010      PGB Holdings, Inc., Chicago, IL                        Preferred Stock               $3,000,000                     —       $3,000,000    Par                                                          $30,333
         9/24/2010      Phenix Pride Federal Credit Union, Phenix City, AL     Subordinated Debentures               —                      —        $153,000     Par                                                           $2,729
 1       8/13/2010      Premier Bancorp, Inc., Wilmette, IL                    Subordinated Debentures       $6,784,000                     —       $6,784,000    Par                                                                —
         9/24/2010      Prince Kuhio Federal Credit Union, Honolulu, HI        Subordinated Debentures               —                      —        $273,000     Par                                                           $4,869
 1       9/29/2010      PSB Financial Corporation, Many, LA                    Preferred Stock               $9,734,000                     —       $9,734,000    Par                                                         $170,886
         9/24/2010      Pyramid Federal Credit Union, Tucson, AZ               Subordinated Debentures               —                      —       $2,500,000    Par                                                          $44,583
                        Renaissance Community Development Credit Union,
         9/29/2010                                                             Subordinated Debentures               —                      —         $31,000     Par                                                             $544
                        Somerset, NJ
         9/24/2010      Santa Cruz Community Credit Union, Santa Cruz, CA      Subordinated Debentures               —                      —       $2,828,000    Par                                                          $50,433
 1       9/29/2010      Security Capital Corporation, Batesville, MS           Preferred Stock             $17,910,000                      —      $17,910,000    Par                                                         $314,420
 1, 2    9/29/2010      Security Federal Corporation, Aiken, SC                Preferred Stock             $18,000,000              $4,000,000     $22,000,000    Par                                                         $386,222
         9/29/2010      Shreveport Federal Credit Union, Shreveport, LA        Subordinated Debentures               —                      —       $2,646,000    Par                                                          $46,452
 1, 2    8/6/2010       Southern Bancorp, Inc., Arkadelphia, AR                Preferred Stock             $11,000,000             $22,800,000     $33,800,000    Par                                                         $692,900
                        Southern Chautauqua Federal Credit Union,
         9/29/2010                                                             Subordinated Debentures               —                      —       $1,709,000    Par                                                          $30,002
                        Lakewood, NY
         9/29/2010      Southside Credit Union, San Antonio, TX                Subordinated Debentures               —                      —       $1,100,000    Par                                                          $19,311
 1       9/29/2010      State Capital Corporation, Greenwood, MS               Preferred Stock             $15,750,000                      —      $15,750,000    Par                                                         $276,500
 1, 2    9/29/2010      The First Bancshares, Inc., Hattiesburg, MS            Preferred Stock               $5,000,000            $12,123,000     $17,123,000    Par                                                         $300,604
         9/29/2010      The Magnolia State Corporation, Bay Springs, MS        Subordinated Debentures               —                      —       $7,922,000    Par                                                         $215,566
                        Thurston Union of Low-Income People (TULIP)
         9/24/2010                                                             Subordinated Debentures               —                      —         $75,000     Par                                                           $1,338
                        Cooperative Credit Union, Olympia, WA
         9/24/2010      Tongass Federal Credit Union, Ketchikan, AK            Subordinated Debentures               —                      —       $1,600,000    Par                                                          $28,533
 1       8/13/2010      Tri-State Bank of Memphis, Memphis, TN                 Preferred Stock               $2,795,000                     —       $2,795,000    Par                                                          $56,211
         9/24/2010      Tulane-Loyola Federal Credit Union, New Orleans, LA    Subordinated Debentures               —                      —        $424,000     Par                                                           $7,561
                        Union Baptist Church Federal Credit Union, Fort
         9/24/2010                                                             Subordinated Debentures               —                      —         $10,000     Par                                                             $178
                        Wayne, IN
         9/29/2010      Union Settlement Federal Credit Union, New York, NY    Subordinated Debentures               —                      —        $295,000     Par                                                           $5,179
                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




 1       9/3/2010       United Bancorporation of Alabama, Inc., Atmore, AL     Preferred Stock             $10,300,000                      —      $10,300,000    Par                                                         $195,700
                        UNITEHERE Federal Credit Union (Workers United
         9/29/2010                                                             Subordinated Debentures               —                      —         $57,000     Par                                                           $1,001
                        Federal Credit Union), New York, NY
                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                            241
    CDCI PROGRAM TRANSACTION DETAIL, AS OF 6/30/2011                                                                   (CONTINUED)                                                                                                                                         242
                                                      Seller                                                                    Purchase Details                                                                  Disposition Details

                                                                                                                                                         Additional               Investment                                            Remaining      Dividend/Interest
Note        Purchase Date   Name of Institution                                    Investment Description              Amount from CPP                  Investment                   Amount                Date          Amount Investment Amount      Paid to Treasurya

     1, 2    7/30/2010      University Financial Corp, Inc., St. Paul, MN           Subordinated Debentures               $11,926,000                $10,189,000               $22,115,000           Par                                                     $714,130
             9/24/2010      UNO Federal Credit Union, New Orleans, LA               Subordinated Debentures                           —                        —                   $743,000          Par                                                      $13,250
             9/29/2010      Vigo County Federal Credit Union, Terre Haute, IN       Subordinated Debentures                           —                        —                 $1,229,000          Par                                                      $21,576
             9/24/2010      Virginia Community Capital, Inc., Christiansburg, VA    Subordinated Debentures                           —                        —                 $1,915,000          Par                                                      $34,151
                                                                                                                                                                                                                  Total Capital
                                                                                                                                                   Total Purchase
                                                                                                                                                                             $570,073,000                         Repayment                        —
                                                                                                                                                          Amount
                                                                                                                                                                                                                  Amount
                                                                                                                                                                                                                  Total
                                                                                                                                                                                                                  Treasury
                                                                                                                                                                                                                  CDCI                  $570,073,000
                                                                                                                                                                                                                  Investment
                                                                                                                                                                                                                  Amount

																	
Notes: Numbers affected by rounding. Data as of 9/30/2011. Numbered notes are taken verbatim from Treasury’s 10/3/2011 Transactions Report.						

1
  This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
  Treasury made an additional investment in this institution at the time it entered the CDCI program.		
2a
   Treasury made an additional investment in this institution after the time it entered the CDCI program.	
a
  For the purpose of this table, income (dividends and interest) are presented in aggregate for each CDCI participant.

																
Source: Treasury, Transactions Report, 10/3/2011; Treasury, Dividends and Interest Report, 10/11/2011.	
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011
TABLE D.4

 AIFP TRANSACTION DETAIL, AS OF 9/30/2011
                                                                                                                                                             Treasury Investment After Exchange/
                                              Initial Investment                                             Exchange/Transfer/Other Details                 Transfer/Other                                                                                       Payment or Disposition1

                                                                                                                                                                                                                                                                                Remaining
                           Trans-                                                                                                                                                                                                                             Remaining        Investment      Dividend/
                           action                                                                                                                                                                  Amount/                                       Amount/     Investment          Amount/ Interest Paid to
              Date         Type      Seller       Description                    Amount Note     Date                      Type             Amount Note Obligor           Note   Description       Equity %      Date             Type           Proceeds    Description         Equity %       Treasury
                                                                                                                   Exchange for
                                                  Preferred Stock w/                                                                                                              Convertible
              12/29/2008 Purchase GMAC                                    $5,000,000,000         12/30/2009          convertible     $5,000,000,000         GMAC          21,
                                                  Exercised Warrants                                                                                                               Preferred $5,937,500,000
                                                                                                                 preferred stock                            (Ally)        22
                                                                                                                                                                                      Stock
                                                 Convertible Preferred                                       Partial conversion
              5/21/2009    Purchase GMAC         Stock w/ Exercised       $7,500,000,000   22    12/30/2009 of preferred stock        $3,000,000,000
                                                 Warrants                                                   for common stock
GMAC                                                                                                                                                                                Common
(Ally),                                          Convertible Preferred                                       Partial conversion                             GMAC (Ally) 3, 26                         73.8%                                                                                  $2,470,128,132
                                                                                           22,                                                                                        Stock
Detroit, MI   12/30/2009   Purchase GMAC         Stock w/ Exercised       $1,250,000,000         12/30/2010 of preferred stock        $5,500,000,000   26
                                                                                           26
                                                 Warrants                                                   for common stock
                                                                                                                    Exchange for
                                                 Trust Preferred                                                   amended and                                                         Trust
              12/30/2009   Purchase GMAC         Securities w/            $2,540,000,000         3/1/2011          restated Trust     $2,670,000,000   27   GMAC (Ally)   27       Preferred $2,670,000,000    3/2/2011    Disposition28    $2,667,000,000           N/A              $—
                                                 Exercised Warrants                                                     Preferred                                                  Securities
                                                                                                                       Securities
                                    General                                                                        Exchange for
              12/29/2008   Purchase Motors      Debt Obligation            $884,024,131    2     5/29/2009      equity interest in     $884,024,131    3
                                    Corporation                                                                            GMAC
                                                                                                                   Exchange for
                                    General
                                                Debt Obligation w/                                                 preferred and
              12/31/2008   Purchase Motors                               $13,400,000,000         7/10/2009                           $13,400,000,000   7
                                                Additional Note                                                 common stock in
                                    Corporation
                                                                                                                        New GM
                                                                                                                   Exchange for
                                    General                                                                                                                 General       10,
                                                Debt Obligation w/                                                 preferred and                                                    Preferred
              4/22/2009    Purchase Motors                                $2,000,000,000   4     7/10/2009                            $2,000,000,000   7    Motors        11,                 $2,100,000,000 12/15/2010     Repayment       $2,139,406,778           N/A              $—
                                                Additional Note                                                 common stock in                                                        Stock
                                    Corporation                                                                                                             Company       24
                                                                                                                        New GM

                                                                                                                   Exchange for                                                                                                  Partial                        Common
                                    General                                                                                                                 General       10,                                 11/18/2010                   $11,743,303,903                          36.9%
                                                Debt Obligation w/                                                 preferred and                                                    Common                                 Disposition25                          Stock
              5/20/2009    Purchase Motors                                $4,000,000,000   5     7/10/2009                            $4,000,000,000   7    Motors        11,                         60.8%
                                                Additional Note                                                 common stock in                                                       Stock                                    Partial                          Common
                                    Corporation                                                                                                             Company       25                                  11/26/2010                    $1,761,495,577                         32.04%
                                                                                                                        New GM                                                                                           Disposition25                            Stock
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              7/10/2009                      $360,624,198                   $6,711,864,407
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
General                                                                                                                                                                                                       12/18/2009                    $1,000,000,000                  $5,711,864,407
                                                                                                                   Exchange for                             General                                                         Repayment                          Obligation
Motors,bc                           General                                                                                                                                                                                                                                                   $756,714,508
                                                Debt Obligation w/                                                 preferred and                            Motors        11,           Debt
Detroit, MI   5/27/2009    Purchase Motors                                 $360,624,198    6     7/10/2009                             $360,624,198    7                                      $7,072,488,605                    Partial                             Debt
                                                Additional Note                                                 common stock in                             Holdings      12       Obligation                1/21/2010                        $35,084,421                   $5,676,779,986
                                    Corporation                                                                                                                                                                             Repayment                          Obligation
                                                                                                                        New GM                              LLC
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                              3/31/2010                     $1,000,000,000                  $4,676,779,986
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                              4/20/2010     Repayment       $4,676,779,986           N/A              $—
                                                                                                                   Exchange for
                                    General
                                                Debt Obligation w/                                                 preferred and
              6/3/2009     Purchase Motors                               $30,100,000,000   8     7/10/2009                           $22,041,706,310   9
                                                Additional Note                                                 common stock in
                                    Corporation
                                                                                                                        New GM
                                                                                                              Transfer of debt to
                                                                                                 7/10/2009                            $7,072,488,605   9
                                                                                                                        New GM
                                                                                                                                                            Motors
                                                                                                                                                                                        Debt                                    Partial                             Debt
                                                                                                 7/10/2009    Debt left at Old GM      $985,805,085    9    Liquidation   29                    $985,805,085 3/31/2011                        $50,000,000                    $935,805,085
                                                                                                                                                                                   Obligation                               Repayment                          Obligation
                                                                                                                                                            Company
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                               4/5/2011                       $45,000,000                    $890,805,085
                                                                                                                                                                                                                            Repayment                          Obligation
                                                                                                                                                                                                                                Partial                             Debt
                                                                                                                                                                                                               5/3/2011                       $15,887,795                    $874,917,290
                                                                                                                                                                                                                            Repayment                          Obligation

                                                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                                              243
 AIFP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)                                                                                                                                                                                                           244
                                                                                                                                                              Treasury Investment After Exchange/
              Initial Investment                                                                  Exchange/Transfer/Other Details                             Transfer/Other                                    Payment or Disposition1

                                                                                                                                                                                                                                                                                    Remaining
                            Trans-                                                                                                                                                                                                                               Remaining         Investment      Dividend/
                            action                                                                                                                                                                  Amount/                                       Amount/       Investment           Amount/ Interest Paid to
             Date           Type      Seller      Description                     Amount Note     Date                     Type              Amount Note Obligor           Note   Description       Equity %      Date            Type            Proceeds      Description          Equity %       Treasury
                                                                                                                                                                                                                                                                         Debt
                                    Chrysler      Debt Obligation w/                                                                                                                                                             Partial
             1/16/2009     Purchase                                        $1,500,000,000    13                                                                                                                3/17/2009                         $3,499,055    Obligation w/    $1,496,500,945
                                    FinCo         Additional Note                                                                                                                                                            Repayment
                                                                                                                                                                                                                                                              Additional Note
                                                                                                                                                                                                                                                                         Debt
                                                                                                                                                                                                                                 Partial
                                                                                                                                                                                                               4/17/2009                        $31,810,122    Obligation w/    $1,464,690,823
                                                                                                                                                                                                                             Repayment
                                                                                                                                                                                                                                                              Additional Note
Chrysler
FinCo,                                                                                                                                                                                                                                                                   Debt
                                                                                                                                                                                                                                 Partial                                                            $7,405,894
Farmington                                                                                                                                                                                                     5/18/2009                        $51,136,084    Obligation w/    $1,413,554,739
                                                                                                                                                                                                                             Repayment
Hills, MI                                                                                                                                                                                                                                                     Additional Note
                                                                                                                                                                                                                                                                         Debt
                                                                                                                                                                                                                                 Partial
                                                                                                                                                                                                               6/17/2009                        $44,357,710    Obligation w/    $1,369,197,029
                                                                                                                                                                                                                             Repayment
                                                                                                                                                                                                                                                              Additional Note
                                                                                                                                                                                                               7/14/2009     Repayment       $1,369,197,029 Additional Note               $—
                                                                                                                                                                                                               7/14/2009 Repayment*             $15,000,000              N/A              $—
                                                                                                                                                                                          Debt
                                      Chrysler    Debt Obligation w/                                          Transfer of debt to                            Chrysler                obligation                             Termination
             1/2/2009      Purchase                                        $4,000,000,000         6/10/2009                            $500,000,000     19                 20                   $3,500,000,000 5/14/2010                     $1,900,000,000              N/A              $—
                                      Holding     Additional Note                                                  New Chrysler                              Holding              w/ additional                                     and
                                                                                                                                                                                          note                               settlement
                                      Chrysler    Debt Obligation w/                                                                                                                                                         payment20
                                                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




             4/29/2009     Purchase                                                   $—     14
                                      Holding     Additional Note
                                    Chrysler      Debt Obligation w/
             4/29/2009     Purchase                                          $280,130,642    15                                                                                                                7/10/2009     Repayment         $280,130,642              N/A              $—
                                    Holding       Additional Note

                                                                                                                      Completion                             Old Carco                Right to                                 Proceeds                             Right to
                                      Old         Debt Obligation w/
             5/1/2009      Purchase                                        $1,888,153,580    16   4/30/2010        of bankruptcy     ($1,888,153,580)   23   Liquidation   23          recover           N/A 5/10/2010      from sale of        $30,544,528          recover              N/A
                                      Chrysler    Additional Note
                                                                                                                     proceeding;                             Trust                   proceeds                                  collateral                          proceeds
                                                                                                                       transfer of                                                                                             Proceeds                             Right to
                                      Old         Debt Obligation w/                                          collateral security
             5/20/2009     Purchase                                                   $—     17                                                                                                                 9/9/2010    from sale of         $9,666,784          recover              N/A
                                      Chrysler    Additional Note                                             to liquidation trust                                                                                             collateral                          proceeds
                                                                                                                                                                                                                             Proceeds                               Right to
Chrysler,c                                                                                                                                                                                                     12/29/2010 from sale of           $7,844,409          recover              N/A
Auburn                                                                                                                                                                                                                       collateral                            proceeds                      $1,171,263,942
Hills, MI
                                                                                                                                                                                          Debt
                                                  Debt Obligation w/                                                                                                                 obligation
                                      New                                                                     Issuance of equity                             Chrysler      19,                                               Repayment
             5/27/2009     Purchase               Additional Note, Zero    $6,642,000,000    18   6/10/2009                                      $—                               w/ additional $7,142,000,000 5/24/2011                     $5,076,460,000
                                      Chrysler                                                                   in New Chrysler                             Group LLC     31                                                 - Principal
                                                  Coupon Note, Equity                                                                                                              note & zero
                                                                                                                                                                                  coupon note


                                                                                                                                                                                                                           Repayment*
                                                                                                                                                                                                               5/24/2011                       $288,000,000              N/A              $—
                                                                                                                                                                                                                            - Additional
                                                                                                                                                                                                                                   Note


                                                                                                                                                                                                                           Repayment*
                                                                                                                                                                                                               5/24/2011        - Zero         $100,000,000
                                                                                                                                                                                                                               Coupon
                                                                                                                                                                                                                                  Note
                                                                                                                                                             Chrysler                Common
                                                                                                                                                                           30                           6.6% 7/21/2011       Disposition       $560,000,000              N/A              $—
                                                                                                                                                             Group LLC                 equity
                                                                                                                                                                                                               Additional Proceeds*           $403,000,000
                                      Total Initial Investment Amount     $81,344,932,551                                                                                                                            Total Payments         $34,859,229,021
                                                                                                                                                                                                  Total Treasury Investment Amount          $40,932,009,950

                                                                                                                                                                                                                                                                                        Continued on next page.
AIFP TRANSACTION DETAIL, AS OF 9/30/2011                                                            (CONTINUED)
Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from Treasury’s 10/3/2011 Transactions Report.
GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.

1
   Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
    marked by orange line in the table above and footnote 22.)
4
    This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
    This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
    This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM . On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed
     by the new GM, as explained in footnote 10.
7
     On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
     Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had been
      disbursed by Treasury.
9
      On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
       separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
       In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
       Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company”
        on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
        Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
        The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
        This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
        The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
        This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
         6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
         This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
          terminated.
18
          This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
           The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
           Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
           Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
           Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment
            of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
            Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
            Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
            On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to
             a liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
             On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock.
              The repurchase was completed on 12/15/2010.
25
              On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
               the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
               $13,504,799,480.
26
               On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
               On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
                received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
                On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
                 accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
                 On March 31, 2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
                  transferred to liquidation trusts. Under the Plan of Liquidation, Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
                  In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC (as of March 31, 2011, $2.1 billion remained undrawn), and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related
                   milestones. As a result, Fiat’s ownership automatically increased from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On May 24, 2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s
                   ownership to 6.6% (or 6.0% on a fully diluted basis). On July 21, 2011, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in
                   Chrysler.
31
                   On May 24, 2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
a
   For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
   This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 10/3/2011; Treasury, Dividends and Interest Report, 10/11/2011; Treasury, response to SIGTARP data call, 10/5/2011.
                                                                                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                                                                                         245
TABLE D.5                                                                                                                                                                                                                                                                                                                246

 ASSP TRANSACTION DETAIL, AS OF 9/30/2011
                             Seller                                                                                                            Adjustment Details                                                                                 Repayment4
                                                                                                                                                                                             Adjusted                                                              Remaining                                Dividend/
                                                                 Transaction Investment                           Investment   Pricing Adjustment                   Adjustment             Investment                                                             Investment                            Interest Paid
Note           Date          Institution Name                    Type        Description                             Amount Mechanism        Date                      Amount                 Amount Date                            Type                         Description              Amount         to Treasury
                                                                                                                                                                                                                                   Partial                  Debt Obligation w/
                                                                                                                                                                                                         11/20/2009                                                                  $140,000,000
                                                                                                                                                                                                                               repayment                       Additional Note
                                                                                                                                                                                                                                                                                                        $21,629,701
                             GM Supplier Receivables LLC                        Debt Obligation w/                                               7/8/2009 ($1,000,000,000)             $2,500,000,000                              Partial                  Debt Obligation w/
1              4/9/2009                                          Purchase                                    $3,500,000,000              N/A                                                             2/11/2010                                                                   $100,000,000
                             Wilmington, DE                                     Additional Note                                                                                                                                repayment                       Additional Note
                                                                                                                                                                                                         3/4/2010             Repayment5                       Additional Note        $50,000,000
                                                                                                                                                                                        $290,000,000 4/5/2010                     Payment6                               None         $56,541,893
                                                                                                                                                                                                                                                                                                        $10,320,229
                             Chrysler Receivables SPV LLC                       Debt Obligation w/                                               7/8/2009        ($500,000,000)        $1,000,000,000 3/9/2010                Repayment5                       Additional Note       $123,076,735
2              4/9/2009                                          Purchase                                    $1,500,000,000              N/A
                             Wilmington, DE                                     Additional Note                                                                                         $123,076,735 4/7/2010                     Payment7                               None         $44,533,054

             Initial Total                 $5,000,000,000                                                                                   Adjusted Toal        $413,076,735                                                                             Total Repayments        $413,076,735

                                                                                                                                    Total Proceeds from
                                                                                                                                                                 $101,074,947
                                                                                                                                        Additional Notes

 Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from Treasury’s 10/3/2011 Transactions Report.

 1
    he loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
   T
   made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
 2
   The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
                                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




    of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
 3
    Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
 4
    Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
 5
    All outstanding principal drawn under the credit agreement was repaid.
 6
    Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all
     of which have been repaid.
 7
     Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
      which have been repaid.

 Sources: Treasury, Transactions Report, 10/3/2011; Treasury, response to SIGTARP data call, 10/5/2011; Treasury, Dividends and Interest Report, 10/11/2011.




TABLE D.6

 TIP TRANSACTION DETAIL, AS OF 9/30/2011
                                                                                                                                                                                  Treasury Investment
                                                                                                                                                                                  Remaining After Capital
                        Seller                                                                                                            Capital Repayment Details               Repayment                                       Final Disposition                       Market and Warrants Data
                                                                                                                                                     Capital          Capital      Remaining     Remaining            Final               Final               Final                                        Dividends/
                                         Transaction Investment                                             Investment         Pricing            Repayment        Repayment         Capital        Capital     Disposition         Disposition         Disposition     Stock       Outstanding       Interest Paid to
Note Date               Institution Name Type        Description                                               Amount       Mechanism                Amount             Date2        Amount      Description         Date3          Description          Proceeds       Price    Warrant Shares              Treasury
1        12/31/2008 Citigroup Inc.          Purchase        Trust Preferred Securities w/ Warrants    $20,000,000,000 Par                   $20,000,000,000 12/23/2009                    $—        Warrants 1/25/2011        A        Warrants       $190,386,428    $25.62                          $1,568,888,889
                        Bank of America
         1/16/2009                          Purchase        Preferred Stock w/ Warrants               $20,000,000,000 Par                   $20,000,000,000 12/9/2009                     $—        Warrants 3/3/2010         A        Warrants    $1,255,639,099       $6.12                         $1,435,555,556
                        Corporation
                                                                                                                     Total Capital
                                                            Total Investment                         $40,000,000,000                      $40,000,000,000
                                                                                                                     Repayment
                                                                                                        Total Treasury TIP Investment
                                                                                                                                                            $—                                                                                        Total Warrant Proceeds $1,446,025,527
                                                                                                                              Amount

 Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from Treasury’s 10/3/2011 Transactions Report.

 1
      reasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
     T
     Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
 2
     Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
 3
     For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the
      financial institution.

 Sources: Treasury, Transactions Report, 10/3/2011; Treasury, Dividends and Interest Report, 10/11/2011; Treasury, response to SIGTARP data call, 10/5/2011, Bloomberg LP, accessed 10/13/2011
TABLE D.7

        AGP TRANSACTION DETAIL, AS OF 9/30/2011
                                            Initial Investmentb                                                         Premium                Exchange/Transfer/Other Details                                                          Payment or Disposition               Market and Warrant Data
                                                                                                                                                                                                                                                        Remaining                Remaining Outstanding                        Dividends/
                          Institution           Transaction                        Guarantee                                                                                                                              Payment               Payment Premium                   Premium Warrant               Stock      Interest Paid
Note         Date         Name                  Type        Description                 Limit Description                Amount Date                      Type       Description          Amount             Date            Type                Amount Description                Amount Shares                Price        to Treasury
                                                                                                                                                    Exchange                                                                  Partial
                                                                                                                                                                              Trust
                                                                                                                                                     preferred                                                          cancellation                     Trust Preferred
                                                                                                                                                                        Preferred
                                                                                                                                   6/9/2009     stock for trust                     $4,034,000,000 12/23/2009               for early   ($1,800,000,000) Securities w/   2,234,000,000
                                                                                                                                                                     Securities w/
                                                                                                                                                     preferred                                                           termination                     Warrants
                                                                                              Preferred                                                                 Warrants
1,2,3,                    Citigroup Inc.,                      Master                                                                               securities                                                         of guarantee
       1/16/09                                  Guarantee                      $5,000,000,000 Stock w/            $4,034,000,000                                                                                                                                                                               $25.62     $442,964,764
4,5                       New York, NY                         Agreement                                                                             Exchange                                         9/30/2010          Disposition     $2,246,000,000 Warrants                         $—
                                                                                              Warrants                                                                        Trust
                                                                                                                                                trust preferred
                                                                                                                                                                        Preferred
                                                                                                                                   9/29/2010      securities for                    $2,246,000,000                          Warrant
                                                                                                                                                                     Securities w/                    1/25/2011                             $67,197,045 None                             $—
                                                                                                                                                trust preferred                                                             Auction
                                                                                                                                                                        Warrants
                                                                                                                                                     securities
                                                               Termination
3            12/23/09 Citigroup Inc.            Termination                   ($5,000,000,000)
                                                               Agreement

                                                                      Total               $—                                                                                                                        Total Proceeds      $2,313,197,045

Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from Treasury’s 10/3/2011 Transactions Report.

1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
   Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
   On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
    Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
    Guarantee Program.
4
    On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc.
     paid the outstanding accrued and unpaid dividends.
5
     On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.

Sources: Treasury, Transactions Report, 10/3/2011; Treasury, Divendends and Interest Report, 10/11/2011; Treasury, response to SIGTARP data call, 10/5/2011, Bloomberg LP, accessed 10/13/2011




TABLE D.8

    TALF TRANSACTION DETAIL, AS OF 9/30/2011
                              Seller
                                                                                                                                         Pricing                   Adjusted                       Adjusted
Note             Date         Institution                     Transaction Type Investment Description                  Investment Amount Mechanism                 Investment Date      Investment Amount
1-2              3/3/09       TALF LLC, Willmington, DE       Purchase            Debt Obligation w/ Additional Note     $20,000,000,000 N/A                       7/19/2010                 $4,300,000,000
                                                                                  TOTAL                                  $4,300,000,000

    Notes: Numbers may not toal due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatium from Treasury’s 10/3/2011 Transactions Report.

    1
        The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan
        amount. The loan will be incrementally funded.
    2
         On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan
        amount to $4,300,000,000.

    Sources: Treasury, Transactions Report, 10/3/2011; Treasury, Dividends and Interest Report, 10/11/2011.
                                                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                                                                           247
TABLE D.9                                                                                                                                                                                                                                                                                             248

    SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2011
                       Seller                  Purchase Details                                                                                                                Exchange/Transfer Details
                                                                                                                                                                                                                                                                       Outstanding       Dividends/
                                               Transaction      Investment                                       Pricing                                                                                                                     Pricing                     Warrants    Interests Paid
Note Date              Name of Institution     Type             Description                    Investment Amount Mechanism                Date     Transaction Type        Investment Description         Investment Amount                  Mechanism   Stock Price        Shares      to Treasury
                                                                Preferred Stock
                                                                                                                                                                        Preferred Stock w/
1         11/25/2008 AIG, New York, NY         Purchase         w/ Warrants                      $40,000,000,000        Par          4/17/2009         Exchange                                       1   $40,000,000,000                    Par             $21.95     2,689,938               —
                                                                                                                                                                        Warrants (Series E)
                                                                (Series D)
                                                                Preferred Stock
2, 3      4/17/2009    AIG, New York, NY       Purchase         w/ Warrants                      $29,835,000,000        Par           See table below for exchange/transfer details in connection with the recapitalization conducted on 1/14/2011.          $21.95           150               —
                                                                (Series F)
                                                                Initial total                   $69,835,000,000
                                                                                                                                                                                  Final Disposition
                                                                                                                                                                                      Transaction                                            Pricing
                                                                                                                              Date               Investment                                                         Proceeds
                                                                                                                                                                                            Type                                             Mechanism
                                                                                                                                                 Warrants
                                                                                                                                                 (Series E)
                                                                                                                                                 Warrants
                                                                                                                                                 (Series F)



                                                                                       Treasury Holdings Post-
                           Recapitalization                                                Recapitalization                                                   Final Disposition
                                                                                                                                                                                                                                                                                                      APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                                                                                                                   Remaining Recap
                         Investment        Transaction    Pricing               Investment                                                Transaction                           Pricing          Investment Amount,
Note       Date          Description       Type           Mechanism             Description        Amount / Shares              Date            Type               Proceeds8 Mechanism           Shares, or Equity %
                                                                                Preferred
                                           Exchange       Par                   Stock (Series      $2,000,000,000         5/27/2011        Cancellation                    —             N/A                       —10
                                                                                G)
                                                                                                                          2/14/2011           Payment          $185,726,192               Par
                                                                                                                           3/8/2011           Payment         $5,511,067,614              Par          $8,857,562,775

                                                                                AIA Preferred                             3/15/2011           Payment            $55,833,333              Par
                         Preferred Stock                                                           $16,916,603,567.65
4, 7, 8    1/14/2011                                                            Units                                     8/17/2011           Payment            $97,008,351              Par
                         (Series F)
                                           Exchange       N/A
                                                                                                                          8/18/2011           Payment         $2,153,520,000              Par
                                                                                                                           9/2/2011           Payment            $55,885,302              Par                       —
                                                                                ALICO Junior                              2/14/2011           Payment         $2,009,932,072              Par
                                                                                Preferred          $3,375,328,432.35
                                                                                Interests                                  3/8/2011           Payment         $1,383,888,037              Par

                                           Exchange       N/A                                      167,623,733
                         Preferred Stock                                                                                                                                                              $1,455,037,962 9
5          1/14/2011                     Exchange                                                  924,546,133                                  Partial
                         (Series E)                                             Common Stock                              5/24/2011                           $5,800,000,000             N/A
                                                                                                                                            Disposition
                         Common Stock
6          1/14/2011                       Transfer                                                562,868,096                                                                                                    77%
                         (non-TARP)
                                                                                                                                                  Total   $17,252,860,902
Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from the Treasury’s 10/3/2011 Transactions Report, and Treasury’s 10/11/2011 Dividends and Interest
Report.

1
  On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition,
  in order for AIG to fully redeem the Series E Preferred Shares, it had an additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to
  Treasury through and including the exchange date.
2
   The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
   This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The
remaining $110 million payment was received by Treasury on 5/27/2011.
4
   On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts
  drawn at closing) under the Series F equity capital facility, for (i) the transferred SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn
  Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG has the right to draw up to $2,000,000,000.
5
    On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual
Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6
    On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal
  Reserve Bank of New York. This credit facility was repaid and terminated pursuant to this recapitalization transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series
  C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
     The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
     Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
     On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement executed on
5/24/2011.
10
      On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of
its common stock and the Preferred Stock (Series G) was cancelled.
TABLE D.10	

 UCSB TRANSACTION DETAIL, AS OF 9/30/2011
                                                                       Purchase Details1                                                                                                                  Settlement Details                          Final Disposition
                                                                                                                                                                                                                 Senior                         Life-to-date
Trade                                                                                                    Purchase Face            Pricing TBA or Settlement                   Investment      TBA or            Security                           Principal     Current Face           Disposition
Date          Investment Description                      Institution Name        CUSIP                       Amount3          Mechanism PMF3 Date                             Amount2, 3      PMF3           Proceeds4 Trade Date              Received1, 8       Amount6, 8            Amount5, 6        Interest Paid to Treasury
3/19/2010 Floating Rate SBA 7a security due 2025          Coastal Securities      83164KYN7               $4,070,000.00             107.75       —      3/24/2010             $4,377,249         —               $2,184 6/21/2011                 $902,633          $3,151,186          $3,457,746                          $169,441
3/19/2010 Floating Rate SBA 7a security due 2022          Coastal Securities      83165ADC5               $7,617,617.00                109      —       3/24/2010             $8,279,156         —               $4,130                                                                                                     $392,175
3/19/2010 Floating Rate SBA 7a security due 2022          Coastal Securities      83165ADE1               $8,030,000.00           108.875       —       3/24/2010             $8,716,265         —               $4,348 6/21/2011               $2,022,652          $5,964,013          $6,555,383                          $371,355
4/8/2010      Floating Rate SBA 7a security due 2034      Coastal Securities      83165AD84             $23,500,000.00            110.502       —       5/28/2010           $26,041,643          —              $12,983 6/7/2011                $1,149,633        $22,350,367          $25,039,989                        $1,089,741
4/8/2010      Floating Rate SBA 7a security due 2016      Coastal Securities      83164KZH9               $8,900,014.00              107.5      —       4/30/2010             $9,598,523         —               $4,783 6/7/2011                $2,357,796          $6,542,218          $7,045,774                          $414,561
5/11/2010 Floating Rate SBA 7a security due 2020          Coastal Securities      83165AEE0             $10,751,382.00            106.806       —       6/30/2010           $11,511,052          —               $5,741 6/7/2011                  $932,112          $9,819,270         $10,550,917                          $348,599
5/11/2010 Floating Rate SBA 7a security due 2035          Coastal Securities      83164K2Q5             $12,898,996.00              109.42      —       6/30/2010           $14,151,229          —               $7,057 6/7/2011                  $328,604        $12,570,392          $13,886,504                          $479,508
5/11/2010 Floating Rate SBA 7a security due 2033          Coastal Securities      83165AED2               $8,744,333.00           110.798       —       6/30/2010             $9,717,173         —               $4,844 6/7/2011                  $261,145          $8,483,188          $9,482,247                          $368,608
5/25/2010 Floating Rate SBA 7a security due 2029          Coastal Securities      83164K3B7               $8,417,817.00           110.125       —       7/30/2010             $9,294,363         —               $4,635 6/7/2011                  $246,658          $8,171,159          $8,985,818                          $287,624
5/25/2010 Floating Rate SBA 7a security due 2033          Coastal Securities      83165AEK6             $17,119,972.00            109.553       —       7/30/2010           $18,801,712          —               $9,377 9/20/2011               $2,054,612        $15,030,712          $16,658,561                          $615,767
6/17/2010 Floating Rate SBA 7a security due 2020          Coastal Securities      83165AEQ3             $34,441,059.00            110.785       —       8/30/2010           $38,273,995          —              $19,077 6/21/2011               $1,784,934        $32,656,125          $36,072,056                        $1,286,450
6/17/2010 Floating Rate SBA 7a security due 2034          Coastal Securities      83165AEP5             $28,209,085.00            112.028       —       8/30/2010           $31,693,810          —              $15,801 9/20/2011               $2,224,142        $25,930,433          $29,142,474                        $1,166,869
7/14/2010 Floating Rate SBA 7a security due 2020          Coastal Securities      83164K3Y7               $6,004,156.00           106.625       —       9/30/2010             $6,416,804         —               $3,200 6/21/2011                 $348,107          $5,656,049          $6,051,772                          $146,030
7/14/2010 Floating Rate SBA 7a security due 2025          Shay Financial          83164K4J9               $6,860,835.00           108.505       —       9/30/2010             $7,462,726         —               $3,722                                                                                                     $205,160
7/14/2010 Floating Rate SBA 7a security due 2034          Shay Financial          83165AE42             $13,183,361.00              111.86      —       9/30/2010           $14,789,302          —               $7,373 6/21/2011                 $478,520        $12,704,841          $14,182,379                          $423,725
7/29/2010 Floating Rate SBA 7a security due 2017          Coastal Securities      83164K4E0               $2,598,386.00           108.438       —       9/30/2010             $2,826,678         —               $1,408                                                                                                       $96,735
7/29/2010 Floating Rate SBA 7a security due 2034          Shay Financial          83164K4M2               $9,719,455.00             106.75      —       10/29/2010          $10,394,984          —               $5,187 6/21/2011                 $188,009          $9,531,446         $10,223,264                          $181,124
8/17/2010 Floating Rate SBA 7a security due 2020          Shay Financial          83165AEZ3               $8,279,048.00           110.198       —       9/30/2010             $9,150,989         —               $4,561 9/20/2011               $1,385,518          $6,425,217          $7,078,089                          $311,064
8/17/2010 Floating Rate SBA 7a security due 2019          Coastal Securities      83165AFB5               $5,000,000.00           110.088       —       10/29/2010            $5,520,652         —               $2,752                                                                                                     $168,864
8/17/2010 Floating Rate SBA 7a security due 2020          Coastal Securities      83165AE91             $10,000,000.00            110.821       —       10/29/2010          $11,115,031          —               $5,541                                                                                                     $344,812
8/31/2010 Floating Rate SBA 7a security due 2020          Shay Financial          83165AEW0               $9,272,482.00           110.515       —       9/29/2010           $10,277,319          —               $5,123 9/20/2011                 $812,730          $8,403,846          $9,230,008                          $357,182
8/31/2010 Floating Rate SBA 7a security due 2024          Shay Financial          83165AFA7             $10,350,000.00            112.476       —       10/29/2010          $11,672,766          —               $5,820                                                                                                     $334,229
8/31/2010 Floating Rate SBA 7a security due 2020          Coastal Securities      83164K5H2               $6,900,000.00           105.875       —       11/30/2010            $7,319,688         —               $3,652                                                                                                     $129,831
9/14/2010 Floating Rate SBA 7a security due 2020          Shay Financial          83165AFC3               $8,902,230.00           111.584       —       10/29/2010            $9,962,039         —               $4,966                                                                                                     $292,800
9/14/2010 Floating Rate SBA 7a security due 2021          Shay Financial          83165AFK5               $8,050,000.00           110.759       —       11/30/2010            $8,940,780         —               $4,458                                                                                                     $221,657
9/14/2010 Floating Rate SBA 7a security due 2029          Coastal Securities      83164K5F6               $5,750,000.00              106.5      —       11/30/2010            $6,134,172         —               $3,061                                                                                                       $95,710
9/14/2010 Floating Rate SBA 7a security due 2026          Coastal Securities      83164K5L3               $5,741,753.00              110.5      —       11/30/2010            $6,361,173         —               $3,172                                                                                                     $151,794
9/28/2010 Floating Rate SBA 7a security due 2035          Coastal Securities      83164K5M1               $3,450,000.00           110.875       —       11/30/2010            $3,834,428         —               $1,912                                                                                                       $85,289
9/28/2010 Floating Rate SBA 7a security due 2034          Coastal Securities      83165AFT6             $11,482,421.00            113.838       —       12/30/2010          $13,109,070          —               $6,535                                                                                                     $299,833
9/28/2010 Floating Rate SBA 7a security due 2034          Shay Financial          83165AFM1             $13,402,491.00               113.9      —       11/30/2010          $15,308,612          —               $7,632                                                                                                     $396,684
9/28/2010 Floating Rate SBA 7a security due 2035          Shay Financial          83165AFQ2             $14,950,000.00            114.006       —       12/30/2010          $17,092,069          —               $8,521                                                                                                     $395,582
                                                                                                                                                                                                  Total
                                                                                                                                                                                                 Senior
                                                                                                                                                     Total Investment                          Security
                                                                  Total Purchase Face Amount             $332,596,893                                        Amount*      $368,145,452        Proceeds        $183,555                             Total Disposition Proceeds       $213,642,980                        $11,628,802
Notes: Numbers affected by rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from Treasury’s 10/3/2011 Transactions Report.

*Subject to adjustment
1
  The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
   Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
   If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as
   PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor (on
   or about the 11th business day of each month).
4
    In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product
   of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase
   Agreement.
5
     Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
     If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th
                                                                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




   business day of each month).
7
      Total Program Proceeds To Date includes life-to-date disposition proceeds, life-to-date principal received, life-to-date interest received, and senior security proceeds (excluding accruals).
8
      The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Source: Treasury, Transactions Report, 10/3/2011; Treasury, Dividends and Interest Report, 10/11/2011.
                                                                                                                                                                                                                                                                                                                                          249
TABLE D.11                                                                                                                                                                                                                                                                                                              250

PPIP TRANSACTION DETAIL, AS OF 9/30/2011
                                                                                                                                                                                                                          Investment After
                                             Seller                                                                              Adjusted Investment3          Final Investment Amount7      Capital Repayment Details    Capital Repayment                 Distribution or Disposition
                                                                                                                                                                                                                                                                                                           Interest/
                                                                   Transaction        Investment          Investment      Pricing                                                           Repayment        Repayment                                                                                 Distributions
Note Date           Institution              City            State Type               Description            Amount    Mechanism Date                   Amount Date               Amount         Date           Amount           Amount       Description Date           Description      Proceeds Paid to Treasury
                    AG GECC PPIF
2,6    10/30/2009                        Wilmington DE                Purchase                        $2,222,222,222         Par 3/22/2010   $2,542,675,000 7/16/2010      $2,486,550,000
                    Master Fund, L.P.                                              
                                                                                                                                                                                                                                                                                                       $136,115,368
                    AG GECC PPIF
1,6    10/30/2009                        Wilmington DE                Purchase                        $1,111,111,111         Par 3/22/2010   $1,271,337,500 7/16/2010      $1,243,275,000
                    Master Fund, L.P.                                              
                                                                                      Debt
                    AllianceBernstein                                                                                                                                                                                                     Debt Obligation
                                                                                      Obligation w/
2,6    10/2/2009    Legacy Securities Wilmington DE                    Purchase                       $2,222,222,222         Par 3/22/2010   $2,488,875,000 7/16/2010      $2,300,847,000    5/16/2011      $30,244,575 $2,270,602,425     w/ Contingent
                                                                                      Contingent
                    Master Fund, L.P.                                                                                                                                                                                                          Proceeds
                                                                                      Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                                                                                                                                       $169,203,523
                                                                                                                                                                                             6/14/2011          $88,087 $2,270,514,339     w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                    AllianceBernstein
                                                                                      Membership
1,6    10/2/2009    Legacy Securities Wilmington DE                    Purchase                       $1,111,111,111         Par 3/22/2010   $1,244,437,500 7/16/2010      $1,150,423,500
                                                                                      Interest
                    Master Fund, L.P.
                                                                                      Debt
                    Blackrock PPIF,                                                   Obligation w/
2,6    10/2/2009                             Wilmington DE             Purchase                       $2,222,222,222         Par 3/22/2010   $2,488,875,000 7/16/2010      $1,389,960,000
                    L.P.                                                              Contingent
                                                                                      Proceeds                                                                                                                                                                                                          $22,630,791
                                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                    Blackrock PPIF,                                                   Membership
1,6    10/2/2009                             Wilmington DE             Purchase                       $1,111,111,111         Par 3/22/2010   $1,244,437,500 7/16/2010        $694,980,000
                    L.P.                                                              Interest
                    Invesco Legacy
                                                                                      Membership
1,6    9/30/2009    Securities Master        Wilmington DE             Purchase                       $1,111,111,111         Par 3/22/2010   $1,244,437,500 7/16/2010        $856,000,000
                                                                                      Interest
                    Fund, L.P.
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             2/18/2010       $4,888,718 $1,157,031,282     w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             4/15/2010       $7,066,434 $1,149,964,848     w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             9/15/2010      $60,022,674 $1,089,942,174     w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                            11/15/2010     $132,928,628    $957,013,546    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                            12/14/2010      $31,689,230    $925,324,316    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             1/14/2010      $27,355,590    $897,968,726    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                      Debt                                                                                                                                                                                                             $484,678,408
                    Invesco Legacy                                                                                                                                                                                                        Debt Obligation
2,6,                                                                                  Obligation w/
       9/30/2009    Securities Master        Wilmington DE             Purchase                       $2,222,222,222         Par 3/22/2010   $2,488,875,000 9/26/2011      $1,161,920,000    2/14/2011      $92,300,138    $805,668,588    w/ Contingent
8                                                                                     Contingent
                    Fund, L.P.                                                                                                                                                                                                                 Proceeds
                                                                                      Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             3/14/2011     $128,027,536    $677,641,052    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             4/14/2011     $155,409,286    $522,231,766    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             5/20/2011      $75,085,485    $447,146,281    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             6/14/2011      $18,259,513    $428,886,768    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             7/15/2011      $62,979,809    $365,906,960    w/ Contingent
                                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                             8/12/2011      $20,762,532    $345,144,428    w/ Contingent
                                                                                                                                                                                                                                               Proceeds

                                                                                                                                                                                                                                                                                              Continued on next page.
    PPIP TRANSACTION DETAIL, AS OF 9/30/2011 (CONTINUTED)
                                                                                                                                                                                                                                    Investment After Capital
Seller                                                                                                                            Adjusted Investment3              Final Investment Amount7              Capital Repayment Details Repayment                                   Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                 Interest/
                                                              Transaction      Investment            Investment        Pricing                                                                         Repayment           Repayment                                                                                         Distributions
Note Date              Institution         City         State Type             Description              Amount      Mechanism Date                        Amount     Date                  Amount           Date              Amount              Amount        Description Date             Description        Proceeds Paid to Treasury
                    Marathon Legacy
                                                                               Debt
                    Securities
                                                                               Obligation w/
2,6      11/25/2009 Public-Private         Wilmington DE       Purchase                         $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010            $949,100,000
                                                                               Contingent
                    Investment
                                                                               Proceeds
                    Partnership, L.P.
                                                                                                                                                                                                                                                                                                                                 $22,557,832
                    Marathon Legacy
                    Securities
                                                                               Membership
1,6      11/25/2009 Public-Private         Wilmington DE       Purchase                         $1,111,111,111               Par 3/22/2010       $1,244,437,500 7/16/2010            $474,550,000
                                                                               Interest
                    Investment
                    Partnership, L.P.
                                                                               Debt
                                                                                                                                                                                                                                                              Debt Obligation
                       Oaktree PPIP                                            Obligation w/
2,6      12/18/2009                        Wilmington DE       Purchase                         $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010          $2,321,568,200      7/15/2011          $79,000,000 $2,242,568,200           w/ Contingent
                       Fund, L.P.                                              Contingent
                                                                                                                                                                                                                                                                   Proceeds                                                      $43,928,874
                                                                               Proceeds
                       Oaktree PPIP                                            Membership
1,6      12/18/2009                        Wilmington DE       Purchase                         $1,111,111,111               Par 3/22/2010       $1,244,437,500 7/16/2010          $1,160,784,100
                       Fund, L.P.                                              Interest
2,6      11/4/2009     RLJ Western         Wilmington DE       Purchase        Debt             $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010          $1,241,156,516      5/13/2011          $13,531,530 $1,227,624,986          Debt Obligation                                                   $102,187,905
                       Asset Public/                                           Obligation w/                                                                                                                                                                   w/ Contingent
                       Private Master                                          Contingent                                                                                                                                                                          Proceeds
                       Fund, L.P.                                              Proceeds
1,6      11/4/2009     RLJ Western         Wilmington DE       Purchase        Membership       $1,111,111,111               Par 3/22/2010       $1,244,437,500 7/16/2010            $620,578,258
                       Asset Public/                                           Interest
                       Private Master
                       Fund, L.P.
2,4,     9/30/2009     UST/TCW             Wilmington DE       Purchase        Debt             $2,222,222,222               Par 1/4/2010          $200,000,000                      $200,000,000      1/11/2010          $34,000,000       $166,000,000      Debt Obligation                N/A                                     $342,176
5                      Senior Mortgage                                         Obligation w/                                                                                                                                                                   w/ Contingent
                       Securities Fund,                                        Contingent                                                                                                                                                                          Proceeds
                       L.P.                                                    Proceeds
                                                                                                                                                                                                       1/12/2010         $166,000,000                    —        Contingent 1/29/2010       Distribution        $502,302
                                                                                                                                                                                                                                                                   Proceeds
                                                                                                                                                                                                                                                                             2/24/2010       Final                 $1,223
                                                                                                                                                                                                                                                                                             Distribution
1,4,     9/30/2009     UST/TCW             Wilmington DE       Purchase        Membership       $1,111,111,111               Par 1/4/2010          $156,250,000                      $156,250,000      1/15/2010         $156,250,000                    —       Membership 1/29/2010        Distribution     $20,091,872
5                      Senior Mortgage                                         Interest                                                                                                                                                                             Interest
                       Securities Fund,
                       L.P.
                                                                                                                                                                                                                                                                                2/24/2010    Final                $48,922
                                                                                                                                                                                                                                                                                             Distribution
2,6      10/1/2009     Wellington        Wilmington DE         Purchase        Debt             $2,222,222,222               Par 3/22/2010       $2,524,075,000 7/16/2010          $2,298,974,000                                                                                                                               $104,681,981
                       Management                                              Obligation w/
                       Legacy Securities                                       Contingent
                       PPIF Master                                             Proceeds
                       Fund, LP
1,6      10/1/2009     Wellington        Wilmington DE         Purchase        Membership       $1,111,111,111               Par 3/22/2010       $1,262,037,500 7/16/2010          $1,149,487,000
                       Management                                              Interest
                       Legacy Securities
                       PPIF Master
                       Fund, LP
                                                                                                                                                                                                      Total Capital                                                                          Total
                                                               Initial Investment Amount       $30,000,000,000                                     Final Investment Amount $21,856,403,574             Repayment $1,295,889,763                                                              Proceeds         $20,644,319
Notes: Numbers may not total due to rounding. Data as of 9/30/2011. Numbered notes were taken verbatim from Treasury’s 10/3/2011 Transactions Report.

1
    The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
    The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
    Adjusted to show Treasury’s maximum obligations to a fund.
4
    On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
    Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
    Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
    the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
     Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
     On 9/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.

Sources: Treasury, Transactions Report, 10/3/2011; Treasury, Dividends and Interest Report, 10/11/2011; Treasury, response to SIGTARP data call, 10/5/2011.
                                                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                                                                                 251
TABLE D.12                                                                                                                                                                                                                                                                          252

HAMP TRANSACTION DETAIL, AS OF 9/30/2011
            Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                              TARP Incentive Payments
                                                                       Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                            Lenders/                    Total Non-GSE
                                          Transaction Investment       Servicers & Lenders/   Pricing          Adjustment   Cap Adjustment                                                                            Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution           Type        Description      Investors (Cap) 1      Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                       Incentive     Incentives     Incentives        Payments

                                                                                                               6/12/2009     $284,590,000     $660,590,000 Updated portfolio data from servicer

                                                                                                               9/30/2009     $121,910,000     $782,500,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009    $131,340,000     $913,840,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010    ($355,530,000)    $558,310,000 Updated portfolio data from servicer

                                                                                                               7/14/2010     $128,690,000     $687,000,000 Updated portfolio data from servicer

                                                                                                               9/30/2010        $4,000,000    $691,000,000 Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                               9/30/2010       $59,807,784    $750,807,784 Updated portfolio data from servicer

                                                                                                               11/16/2010       ($700,000)    $750,107,784 Transfer of cap due to servicing transfer

                                                                                                               12/15/2010      $64,400,000    $814,507,784 Updated portfolio data from servicer
                                                      Financial
                                                                                                               1/6/2011              ($639)   $814,507,145 Updated portfolio data from servicer
            Select Portfolio Servicing,               Instrument for
4/13/2009                                  Purchase                             $376,000,000 N/A                                                                                                                     $20,439,814   $47,705,106    $43,150,090     $111,295,011
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




            Salt Lake City, UT                        Home Loan
                                                                                                               1/13/2011       ($2,300,000)   $812,207,145 Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                               2/16/2011         $100,000     $812,307,145 Transfer of cap due to servicing transfer

                                                                                                               3/16/2011        $3,600,000    $815,907,145 Transfer of cap due to servicing transfer

                                                                                                               3/30/2011             ($735)   $815,906,410 Updated due to quarterly assessment and reallocation

                                                                                                               4/13/2011        ($100,000)    $815,806,410 Transfer of cap due to servicing transfer

                                                                                                               5/13/2011         $400,000     $816,206,410 Transfer of cap due to servicing transfer

                                                                                                               6/16/2011        ($100,000)    $816,106,410 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011           ($6,805)   $816,099,605 Updated due to quarterly assessment and reallocation

                                                                                                               8/16/2011        ($100,000)    $815,999,605 Transfer of cap due to servicing transfer

                                                                                                               9/15/2011        ($200,000)    $815,799,605 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                                TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                   Lenders/                    Total Non-GSE
                                   Transaction Investment          Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution    Type        Description         Investors (Cap) 1         Mechanism   Note Date                Amount       Adjusted Cap Reason for Adjustment                                         Incentive     Incentives     Incentives        Payments

                                                                                                              6/12/2009    ($991,580,000)    $1,079,420,000 Updated portfolio data from servicer

                                                                                                              9/30/2009    $1,010,180,000    $2,089,600,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009   ($105,410,000)    $1,984,190,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010    ($199,300,000)    $1,784,890,000 Updated portfolio data from servicer & 2MP initial cap

                                                                                                                                                               Transfer of cap to Service One, Inc. due to servicing
                                                                                                              4/19/2010        ($230,000)    $1,784,660,000
                                                                                                                                                               transfer
                                                                                                                                                               Transfer of cap to Specialized Loan Servicing, LLC due
                                                                                                              5/14/2010       ($3,000,000)   $1,781,660,000
                                                                                                                                                               to servicing transfer
                                                                                                                                                               Transfer of cap to multiple servicers due to servicing
                                                                                                              6/16/2010      ($12,280,000)   $1,769,380,000
                                                                                                                                                               transfer

                                                                                                              7/14/2010    ($757,680,000)    $1,011,700,000 Updated portfolio data from servicer

                                                                                                                                                               Transfer of cap to multiple servicers due to servicing
                                                                                                              7/16/2010       ($7,110,000)   $1,004,590,000
                                                                                                                                                               transfer
                                                                                                                                                               Transfer of cap to multiple servicers due to servicing
                                                                                                              8/13/2010       ($6,300,000)    $998,290,000
                                                                                                                                                               transfer
                                                                                                                                                               Transfer of cap to multiple servicers due to servicing
                                                                                                              9/15/2010       ($8,300,000)    $989,990,000
                                                                                                                                                               transfer

                                                                                                              9/30/2010       $32,400,000    $1,022,390,000 Initial FHA-HAMP cap and initial FHA-2LP cap
                                                  Financial
            CitiMortgage, Inc.,                   Instrument for
4/13/2009                            Purchase                             $2,071,000,000 N/A                  9/30/2010     $101,287,484     $1,123,677,484 Updated portfolio data from servicer                        $21,348,143   $59,657,897    $49,805,102     $130,811,142
            O’Fallon, MO                          Home Loan
                                                  Modifications
                                                                                                              10/15/2010      ($1,400,000)   $1,122,277,484 Transfer of cap due to servicing transfer

                                                                                                              11/16/2010      ($3,200,000)   $1,119,077,484 Transfer of cap due to servicing transfer

                                                                                                              1/6/2011              ($981)   $1,119,076,503 Updated portfolio data from servicer

                                                                                                              1/13/2011      ($10,500,000)   $1,108,576,503 Transfer of cap due to servicing transfer

                                                                                                              2/16/2011       ($4,600,000)   $1,103,976,503 Transfer of cap due to servicing transfer

                                                                                                              3/16/2011      ($30,500,000)   $1,073,476,503 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011           ($1,031)   $1,073,475,472 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011          $100,000    $1,073,575,472 Transfer of cap due to servicing transfer

                                                                                                              5/13/2011       ($7,200,000)   $1,066,375,472 Transfer of cap due to servicing transfer

                                                                                                              6/16/2011        ($400,000)    $1,065,975,472 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011           ($9,131)   $1,065,966,341 Updated due to quarterly assessment and reallocation

                                                                                                              7/14/2011      ($14,500,000)   $1,051,466,341 Transfer of cap due to servicing transfer

                                                                                                              8/16/2011       ($1,600,000)   $1,049,866,341 Transfer of cap due to servicing transfer

                                                                                                              9/15/2011          $700,000    $1,050,566,341 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                       253
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)                                                                                                                                                                                    254

            Servicer Modifying Borrowers’ Loans                                                                                                       Adjustment Details                                                                 TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                     Lenders/                    Total Non-GSE
                                    Transaction Investment         Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                 Borrower’s       Investors      Servicers          Incentive
Date        Name of Institution     Type        Description        Investors (Cap) 1         Mechanism   Note Date                Amount        Adjusted Cap Reason for Adjustment                                         Incentive      Incentives     Incentives        Payments

                                                                                                              6/17/2009     ($462,990,000)    $2,410,010,000 Updated portfolio data from servicer

                                                                                                              9/30/2009        $65,070,000    $2,475,080,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009    $1,213,310,000    $3,688,390,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              2/17/2010     $2,050,236,344    $5,738,626,344 Transfer of cap (from Wachovia) due to merger

                                                                                                              3/12/2010            $54,767    $5,738,681,110 Transfer of cap (from Wachovia) due to merger

                                                                                                              3/19/2010      $668,108,890     $6,406,790,000 Initial 2MP cap

                                                                                                              3/26/2010      $683,130,000     $7,089,920,000 Updated portfolio data from servicer

                                                                                                              7/14/2010    ($2,038,220,000)   $5,051,700,000 Updated portfolio data from servicer

                                                                                                              9/30/2010     ($287,348,828)    $4,764,351,172 Updated portfolio data from servicer

                                                                                                                                                                Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                              9/30/2010      $344,000,000     $5,108,351,172
                                                                                                                                                                RD-HAMP

                                                  Financial                                                   12/3/2010         $8,413,225    $5,116,764,397 Transfer of cap (from Wachovia) due to merger
            Wells Fargo Bank, NA,                 Instrument for
4/13/2009                            Purchase                             $2,873,000,000 N/A              2                                                                                                              $42,673,527   $107,418,270    $97,457,848     $247,549,644
                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




            Des Moines, IA                        Home Loan                                                   12/15/2010       $22,200,000    $5,138,964,397 Updated portfolio data from servicer
                                                  Modifications
                                                                                                              1/6/2011             ($6,312)   $5,138,958,085 Updated portfolio data from servicer

                                                                                                              1/13/2011         ($100,000)    $5,138,858,085 Transfer of cap due to servicing transfer

                                                                                                              3/16/2011         ($100,000)    $5,138,758,085 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011            ($7,171)   $5,138,750,914 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011        ($9,800,000)   $5,128,950,914 Transfer of cap due to servicing transfer

                                                                                                              5/13/2011           $100,000    $5,129,050,914 Transfer of cap due to servicing transfer

                                                                                                              6/16/2011         ($600,000)    $5,128,450,914 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011           ($63,856)   $5,128,387,058 Updated due to quarterly assessment and reallocation

                                                                                                              7/14/2011        ($2,300,000)   $5,126,087,058 Transfer of cap due to servicing transfer

                                                                                                              8/16/2011        ($1,100,000)   $5,124,987,058 Transfer of cap due to servicing transfer

                                                                                                              9/15/2011         $1,400,000    $5,126,387,058 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                               Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                        Adjustment Details                                                                 TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                     Lenders/                    Total Non-GSE
                                       Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                  Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount        Adjusted Cap Reason for Adjustment                                          Incentive     Incentives     Incentives        Payments

                                                                                                               6/12/2009      $384,650,000     $1,017,650,000 Updated portfolio data from servicer

                                                                                                               9/30/2009     $2,537,240,000    $3,554,890,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009   ($1,679,520,000)   $1,875,370,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010      $190,180,000     $2,065,550,000 Updated portfolio data from servicer

                                                                                                                                                                 Transfer of cap from Wilshire Credit Corporation due to
                                                                                                               5/14/2010         $1,880,000    $2,067,430,000
                                                                                                                                                                 servicing transfer

                                                                                                               7/14/2010     ($881,530,000)    $1,185,900,000 Updated portfolio data from servicer

                                                                                                               8/13/2010        ($3,700,000)   $1,182,200,000 Transfer of cap due to servicing transfer

                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                               9/30/2010      $119,200,000     $1,301,400,000
                                                                                                                                                                 2MP cap

                                                   Financial                                                   9/30/2010      $216,998,139     $1,518,398,139 Updated portfolio data from servicer
            GMAC Mortgage, Inc., Ft.               Instrument for
4/13/2009                               Purchase                             $633,000,000 N/A                                                                                                                              $14,701,415   $48,452,142    $37,483,212     $100,636,769
            Washington, PA                         Home Loan                                                   12/15/2010        ($500,000)    $1,517,898,139 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               1/6/2011             ($1,734)   $1,517,896,405 Updated portfolio data from servicer

                                                                                                               3/16/2011         ($100,000)    $1,517,796,405 Transfer of cap due to servicing transfer

                                                                                                               3/30/2011            ($2,024)   $1,517,794,381 Updated due to quarterly assessment and reallocation

                                                                                                               4/13/2011         ($800,000)    $1,516,994,381 Transfer of cap due to servicing transfer

                                                                                                               5/13/2011      ($17,900,000)    $1,499,094,381 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011           ($18,457)   $1,499,075,924 Updated due to quarterly assessment and reallocation

                                                                                                               7/14/2011         ($200,000)    $1,498,875,924 Transfer of cap due to servicing transfer

                                                                                                               8/16/2011         $3,400,000    $1,502,275,924 Transfer of cap due to servicing transfer

                                                                                                               9/15/2011           $200,000    $1,502,475,924 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                          255
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                     (CONTINUED)                                                                                                                                                                                     256

            Servicer Modifying Borrowers’ Loans                                                                                                          Adjustment Details                                                                  TARP Incentive Payments
                                                                      Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                      Lenders/                    Total Non-GSE
                                         Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                   Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution          Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount        Adjusted Cap Reason for Adjustment                                           Incentive     Incentives     Incentives        Payments

                                                                                                                 6/17/2009      $225,040,000      $632,040,000 Updated portfolio data from servicer

                                                                                                                 9/30/2009      $254,380,000      $886,420,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                 12/30/2009     $355,710,000     $1,242,130,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010      ($57,720,000)    $1,184,410,000 Updated portfolio data from servicer

                                                                                                                                                                   Transfer of cap to Ocwen Financial Corporation, Inc. due
                                                                                                                 6/16/2010     ($156,050,000)    $1,028,360,000
                                                                                                                                                                   to servicing transfer

                                                                                                                 7/14/2010     ($513,660,000)     $514,700,000 Updated portfolio data from servicer

                                                                                                                 7/16/2010      ($22,980,000)     $491,720,000 Transfer of cap due to multiple servicing transfers

                                                                                                                 9/15/2010         $1,800,000     $493,520,000 Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010         $9,800,000     $503,320,000 Initial FHA-HAMP cap and initial FHA-2LP cap

                                                     Financial                                                   9/30/2010      $116,222,668      $619,542,668 Updated portfolio data from servicer
            Saxon Mortgage                           Instrument for
4/13/2009                                 Purchase                             $407,000,000 N/A                  10/15/2010          $100,000     $619,642,668 Transfer of cap due to servicing transfer                      $16,828,205   $28,562,909    $35,412,742       $80,803,855
            Services, Inc., Irving, TX               Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                                 12/15/2010        $8,900,000     $628,542,668 Updated portfolio data from servicer

                                                                                                                 1/6/2011               ($556)    $628,542,112 Updated portfolio data from servicer

                                                                                                                 1/13/2011         $2,300,000     $630,842,112 Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011           $700,000     $631,542,112 Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011              ($654)    $631,541,458 Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011         $2,100,000     $633,641,458 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011            ($6,144)    $633,635,314 Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011           $200,000     $633,835,314 Transfer of cap due to servicing transfer

                                                                                                                 8/16/2011         ($100,000)     $633,735,314 Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011         ($700,000)     $633,035,314 Transfer of cap due to servicing transfer

                                                     Financial
            Chase Home Finance,                      Instrument for
4/13/2009                                 Purchase                           $3,552,000,000 N/A                  7/31/2009    ($3,552,000,000)               $— Termination of SPA                                                   $—             $—             $—                 $—
            LLC, Islein, NJ                          Home Loan
                                                     Modifications
                                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)

             Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                                TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                   Lenders/                    Total Non-GSE
                                      Transaction Investment        Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                Borrower’s      Investors      Servicers          Incentive
Date         Name of Institution      Type        Description       Investors (Cap) 1         Mechanism   Note Date                Amount       Adjusted Cap Reason for Adjustment                                         Incentive     Incentives     Incentives        Payments

                                                                                                               6/12/2009    ($105,620,000)     $553,380,000 Updated portfolio data from servicer

                                                                                                               9/30/2009     $102,580,000      $655,960,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009    $277,640,000      $933,600,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010       $46,860,000     $980,460,000 Updated portfolio data from servicer

                                                                                                                                                                Transfer of cap from Saxon Mortgage Services, Inc. due
                                                                                                               6/16/2010     $156,050,000     $1,136,510,000
                                                                                                                                                                to servicing transfer

                                                                                                               7/14/2010    ($191,610,000)     $944,900,000 Updated portfolio data from servicer
             Ocwen Financial                       Financial                                                                                                    Transfer of cap from Saxon Mortgage Services, Inc. due
             Corporation, Inc.,                    Instrument for                                              7/16/2010       $23,710,000     $968,610,000
4/16/2009                              Purchase                              $659,000,000 N/A                                                                   to servicing transfer                                    $19,871,707   $51,168,936    $44,563,785     $115,604,428
             West Palm Beach, FL                   Home Loan
                                                   Modifications                                               9/15/2010         $100,000      $968,710,000 Initial FHA-HAMP cap

                                                                                                               9/30/2010        $3,742,740     $972,452,740 Updated portfolio data from servicer

                                                                                                               10/15/2010    $170,800,000     $1,143,252,740 Transfer of cap due to servicing transfer

                                                                                                               1/6/2011            ($1,020)   $1,143,251,720 Updated portfolio data from servicer

                                                                                                               2/16/2011         $900,000     $1,144,151,720 Transfer of cap due to servicing transfer

                                                                                                               3/30/2011           ($1,114)   $1,144,150,606 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011         ($10,044)    $1,144,140,562 Updated due to quarterly assessment and reallocation

                                                                                                               6/12/2009        $5,540,000     $804,440,000 Updated portfolio data from servicer

                                                                                                               9/30/2009     $162,680,000      $967,120,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009    $665,510,000     $1,632,630,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               1/26/2010     $800,390,000     $2,433,020,000 Initial 2MP cap

                                                                                                               3/26/2010    ($829,370,000)    $1,603,650,000 Updated portfolio data from servicer

4/17/2009                                          Financial                                                   7/14/2010    ($366,750,000)    $1,236,900,000 Updated portfolio data from servicer
as amended   Bank of America, N.A.,                Instrument for
                                       Purchase                              $798,900,000 N/A                                                                                                                             $3,616,580   $18,901,766    $10,558,939       $33,077,285
on           Simi Valley, CA                       Home Loan                                                                                                    Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                               9/30/2010       $95,300,000    $1,332,200,000
1/26/2010                                          Modifications                                                                                                RD-HAMP

                                                                                                               9/30/2010     $222,941,084     $1,555,141,084 Updated portfolio data from servicer

                                                                                                               1/6/2011            ($2,199)   $1,555,138,885 Updated portfolio data from servicer

                                                                                                               3/30/2011           ($2,548)   $1,555,136,337 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011         ($23,337)    $1,555,113,000 Updated due to quarterly assessment and reallocation

                                                                                                               8/16/2011        ($300,000)    $1,554,813,000 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                        257
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)                                                                                                                                                                                     258

             Servicer Modifying Borrowers’ Loans                                                                                                       Adjustment Details                                                                  TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                      Lenders/                    Total Non-GSE
                                       Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                  Borrower’s       Investors      Servicers          Incentive
Date         Name of Institution       Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount        Adjusted Cap Reason for Adjustment                                          Incentive      Incentives     Incentives        Payments

                                                                                                               6/12/2009     $3,318,840,000    $5,182,840,000 Updated portfolio data from servicer

                                                                                                               9/30/2009     ($717,420,000)    $4,465,420,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009    $2,290,780,000    $6,756,200,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               1/26/2010      $450,100,000     $7,206,300,000 Initial 2MP cap

                                                                                                               3/26/2010      $905,010,000     $8,111,310,000 Updated portfolio data from servicer

                                                                                                                                                                 Transfer of cap from Wilshire Credit Corporation due to
                                                                                                               4/19/2010        $10,280,000    $8,121,590,000
                                                                                                                                                                 servicing transfer
                                                                                                                                                                 Transfer of cap from Wilshire Credit Corporation due to
                                                                                                               6/16/2010      $286,510,000     $8,408,100,000
                                                                                                                                                                 servicing transfer

                                                                                                               7/14/2010    ($1,787,300,000)   $6,620,800,000 Updated portfolio data from servicer

                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                               9/30/2010      $105,500,000     $6,726,300,000
                                                                                                                                                                 RD-HAMP
             BAC Home Loans
                                                                                                               9/30/2010     ($614,527,362)    $6,111,772,638 Updated portfolio data from servicer
4/17/2009    Financial Servicing, LP               Financial
as amended   (formerly known                       Instrument for
                                        Purchase                           $1,864,000,000 N/A                  12/15/2010     $236,000,000     $6,347,772,638 Updated portfolio data from servicer                         $34,643,420   $102,688,040    $70,013,721     $207,345,181
on           as Countrywide Home                   Home Loan
                                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




1/26/2010    Loans Servicing LP),                  Modifications
                                                                                                               1/6/2011             ($8,012)   $6,347,764,626 Updated portfolio data from servicer
             Simi Valley, CA
                                                                                                               2/16/2011         $1,800,000    $6,349,564,626 Transfer of cap due to servicing transfer

                                                                                                               3/16/2011           $100,000    $6,349,664,626 Transfer of cap due to servicing transfer

                                                                                                               3/30/2011            ($9,190)   $6,349,655,436 Updated due to quarterly assessment and reallocation

                                                                                                               4/13/2011           $200,000    $6,349,855,436 Transfer of cap due to servicing transfer

                                                                                                               5/13/2011           $300,000    $6,350,155,436 Transfer of cap due to servicing transfer

                                                                                                               6/16/2011        ($1,000,000)   $6,349,155,436 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011           ($82,347)   $6,349,073,089 Updated due to quarterly assessment and reallocation

                                                                                                               7/14/2011         ($200,000)    $6,348,873,089 Transfer of cap due to servicing transfer

                                                                                                               8/16/2011        ($3,400,000)   $6,345,473,089 Transfer of cap due to servicing transfer

                                                                                                               9/15/2011        ($1,400,000)   $6,344,073,089 Transfer of cap due to servicing transfer

                                                                                                               6/12/2009      $128,300,000      $447,300,000 Updated portfolio data from servicer

                                                                                                               9/30/2009        $46,730,000     $494,030,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009     $145,820,000      $639,850,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010      ($17,440,000)     $622,410,000 Updated portfolio data from servicer

                                                                                                               7/14/2010      ($73,010,000)     $549,400,000 Updated portfolio data from servicer

                                                                                                               9/30/2010         $6,700,000     $556,100,000 Initial FHA-2LP cap
                                                   Financial
                                                                                                               9/30/2010      ($77,126,410)     $478,973,590 Updated portfolio data from servicer
             Home Loan Services,                   Instrument for
4/20/2009                               Purchase                             $319,000,000 N/A                                                                                                                                $169,858      $2,440,768     $3,698,607        $6,309,233
             Inc., Pittsburgh, PA                  Home Loan
                                                                                                               12/15/2010    ($314,900,000)     $164,073,590 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               1/6/2011               ($233)    $164,073,357 Updated portfolio data from servicer

                                                                                                               2/16/2011        ($1,900,000)    $162,173,357 Transfer of cap due to servicing transfer

                                                                                                               3/16/2011         ($400,000)     $161,773,357 Transfer of cap due to servicing transfer

                                                                                                               3/30/2011              ($278)    $161,773,079 Updated due to quarterly assessment and reallocation

                                                                                                               5/13/2011         ($400,000)     $161,373,079 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011            ($2,625)    $161,370,454 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                               TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                              Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                         Incentive    Incentives     Incentives        Payments

                                                                                                                6/12/2009       $87,130,000    $453,130,000 Updated portfolio data from servicer

                                                                                                                9/30/2009    ($249,670,000)    $203,460,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009    $119,700,000     $323,160,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       $52,270,000    $375,430,000 Updated portfolio data from servicer

                                                                                                                                                               Transfer of cap to Countrywide Home Loans due to
                                                                                                                4/19/2010      ($10,280,000)   $365,150,000
                                                                                                                                                               servicing transfer
                                                                                                                                                               Transfer of cap to GMAC Mortgage, Inc. due to servicing
                                                                                                                5/14/2010       ($1,880,000)   $363,270,000
                                                                                                                                                               transfer
                                                    Financial                                                                                                  Transfer of cap to Countrywide Home Loans due to
            Wilshire Credit                                                                                     6/16/2010    ($286,510,000)     $76,760,000
                                                    Instrument for                                                                                             servicing transfer
4/20/2009   Corporation,                 Purchase                             $366,000,000 N/A                                                                                                                                 $—      $490,394      $1,167,000        $1,657,394
                                                    Home Loan
            Beaverton, OR
                                                    Modifications                                               7/14/2010       $19,540,000     $96,300,000 Updated portfolio data from servicer

                                                                                                                                                               Transfer of cap to Green Tree Servicing LLC due to
                                                                                                                7/16/2010        ($210,000)     $96,090,000
                                                                                                                                                               servicing transfer

                                                                                                                8/13/2010        ($100,000)     $95,990,000 Transfer of cap due to servicing transfer

                                                                                                                9/30/2010       $68,565,782    $164,555,782 Updated portfolio data from servicer

                                                                                                                1/6/2011              ($247)   $164,555,535 Updated portfolio data from servicer

                                                                                                                3/30/2011             ($294)   $164,555,241 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011           ($2,779)   $164,552,462 Updated due to quarterly assessment and reallocation

                                                                                                                6/17/2009      ($64,990,000)    $91,010,000 Updated portfolio data from servicer

                                                                                                                9/30/2009     $130,780,000     $221,790,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009   ($116,750,000)    $105,040,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       $13,080,000    $118,120,000 Updated portfolio data from servicer

                                                                                                                7/14/2010      ($24,220,000)    $93,900,000 Updated portfolio data from servicer

                                                                                                                                                               Transfer of cap from Wilshire Credit Corporation due to
                                                                                                                7/16/2010          $210,000     $94,110,000
                                                                                                                                                               servicing transfer

                                                                                                                8/13/2010        $2,200,000     $96,310,000 Transfer of cap due to servicing transfer

                                                                                                                9/10/2010       $34,600,000    $130,910,000 Initial 2MP cap
                                                    Financial
            Green Tree Servicing LLC,               Instrument for                                              9/30/2010        $5,600,000    $136,510,000 Initial FHA-2LP cap and FHA-HAMP
4/24/2009                                Purchase                             $156,000,000 N/A                                                                                                                            $331,442     $983,403      $1,167,821        $2,482,667
            Saint Paul,MN                           Home Loan
                                                    Modifications                                               9/30/2010       $10,185,090    $146,695,090 Updated portfolio data from servicer

                                                                                                                10/15/2010         $400,000    $147,095,090 Transfer of cap due to servicing transfer

                                                                                                                1/6/2011              ($213)   $147,094,877 Updated portfolio data from servicer

                                                                                                                3/30/2011             ($250)   $147,094,627 Updated due to quarterly assessment and reallocation

                                                                                                                5/13/2011        $1,200,000    $148,294,627 Transfer of cap due to servicing transfer

                                                                                                                6/16/2011          $100,000    $148,394,627 Transfer of cap due to servicing transfer

                                                                                                                6/29/2011           ($2,302)   $148,392,325 Updated due to quarterly assessment and reallocation

                                                                                                                7/14/2011        $1,900,000    $150,292,325 Transfer of cap due to servicing transfer

                                                                                                                9/15/2011          $200,000    $150,492,325 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                      259
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)                                                                                                                                                                             260

            Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                             TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                              Lenders/                    Total Non-GSE
                                    Transaction Investment         Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                           Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution     Type        Description        Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                      Incentive     Incentives     Incentives        Payments

                                                                                                              6/17/2009      ($63,980,000)   $131,020,000 Updated portfolio data from servicer

                                                                                                              9/30/2009       $90,990,000    $222,010,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009      $57,980,000    $279,990,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010       $74,520,000    $354,510,000 Updated portfolio data from servicer

                                                                                                              7/14/2010      ($75,610,000)   $278,900,000 Updated portfolio data from servicer

                                                                                                              8/13/2010        $1,100,000    $280,000,000 Transfer of cap due to servicing transfer
                                                  Financial
            Carrington Mortgage                                                                               9/30/2010        $3,763,685    $283,763,685 Updated portfolio data from servicer
                                                  Instrument for
4/27/2009   Services, LLC, Santa     Purchase                               $195,000,000 N/A                                                                                                                        $2,792,934    $9,232,185     $7,204,230       $19,229,349
                                                  Home Loan
            Ana, CA                                                                                           12/15/2010         $300,000    $284,063,685 Updated portfolio data from servicer
                                                  Modifications
                                                                                                              1/6/2011              ($325)   $284,063,360 Updated portfolio data from servicer

                                                                                                              1/13/2011        $2,400,000    $286,463,360 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011             ($384)   $286,462,976 Updated due to quarterly assessment and reallocation

                                                                                                              6/29/2011           ($3,592)   $286,459,384 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                              8/16/2011        $1,800,000    $288,259,384 Transfer of cap due to servicing transfer

                                                                                                              9/15/2011          $100,000    $288,359,384 Transfer of cap due to servicing transfer

                                                                                                              6/17/2009    ($338,450,000)    $459,550,000 Updated portfolio data from servicer

                                                                                                              9/30/2009      ($11,860,000)   $447,690,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009      $21,330,000    $469,020,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010        $9,150,000    $478,170,000 Updated portfolio data from servicer

                                                                                                              7/14/2010      ($76,870,000)   $401,300,000 Updated portfolio data from servicer
                                                  Financial
            Aurora Loan Services,                 Instrument for
5/1/2009                             Purchase                               $798,000,000 N/A                  9/1/2010           $400,000    $401,700,000 Initial FHA-HAMP cap                                      $6,542,447   $22,131,799    $16,650,631       $45,324,877
            LLC, Littleton, CO                    Home Loan
                                                  Modifications
                                                                                                              9/30/2010       ($8,454,269)   $393,245,731 Updated portfolio data from servicer

                                                                                                              1/6/2011              ($342)   $393,245,389 Updated portfolio data from servicer

                                                                                                              3/30/2011             ($374)   $393,245,015 Updated due to quarterly assessment and reallocation

                                                                                                              5/13/2011       $18,000,000    $411,245,015 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011           ($3,273)   $411,241,742 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                                    TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                     Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                  Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                             Incentive     Incentives     Incentives        Payments

                                                                                                                6/12/2009       $16,140,000    $117,140,000 Updated portfolio data from servicer

                                                                                                                9/30/2009     $134,560,000     $251,700,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009      $80,250,000    $331,950,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       $67,250,000    $399,200,000 Updated portfolio data from servicer

                                                                                                                7/14/2010      ($85,900,000)   $313,300,000 Updated portfolio data from servicer

                                                                                                                8/13/2010          $100,000    $313,400,000 Transfer of cap due to servicing transfer

                                                                                                                                                               Initial FHA-HAMP cap, initial FHA-2LP cap, initial RD-HAMP,
                                                                                                                9/30/2010        $2,900,000    $316,300,000
                                                                                                                                                               and initial 2MP cap
                                                    Financial
            Nationstar Mortgage LLC,                Instrument for                                              9/30/2010       $33,801,486    $350,101,486 Updated portfolio data from servicer
5/28/2009                                Purchase                             $101,000,000 N/A                                                                                                                               $5,873,941   $14,135,098    $13,023,626       $33,032,665
            Lewisville, TX                          Home Loan
                                                    Modifications                                               11/16/2010         $700,000    $350,801,486 Transfer of cap due to servicing transfer

                                                                                                                12/15/2010       $1,700,000    $352,501,486 Updated portfolio data from servicer

                                                                                                                1/6/2011              ($363)   $352,501,123 Updated portfolio data from servicer

                                                                                                                2/16/2011          $900,000    $353,401,123 Transfer of cap due to servicing transfer

                                                                                                                3/16/2011       $29,800,000    $383,201,123 Transfer of cap due to servicing transfer

                                                                                                                3/30/2011             ($428)   $383,200,695 Updated due to quarterly assessment and reallocation

                                                                                                                5/26/2011       $20,077,503    $403,278,198 Transfer of cap due to servicing transfer

                                                                                                                6/29/2011           ($4,248)   $403,273,950 Updated due to quarterly assessment and reallocation

                                                                                                                9/30/2009       ($1,860,000)    $17,540,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009      $27,920,000     $45,460,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       ($1,390,000)    $44,070,000 Updated portfolio data from servicer

                                                                                                                7/14/2010      ($13,870,000)    $30,200,000 Updated portfolio data from servicer

                                                                                                                                                               Initial FHA-HAMP cap, initial FHA-2LP cap, and initial
                                                                                                                9/30/2010          $400,000     $30,600,000
                                                    Financial                                                                                                  2MP cap
            Residential Credit                      Instrument for
6/12/2009                                Purchase                              $19,400,000 N/A                  9/30/2010          $586,954     $31,186,954 Updated portfolio data from servicer                              $322,971      $920,229        $900,991        $2,144,190
            Solutions, Fort Worth, TX               Home Loan
                                                    Modifications
                                                                                                                1/6/2011               ($34)    $31,186,920 Updated portfolio data from servicer

                                                                                                                3/30/2011              ($37)    $31,186,883 Updated due to quarterly assessment and reallocation

                                                                                                                4/13/2011          $100,000     $31,286,883 Transfer of cap due to servicing transfer

                                                                                                                6/29/2011             ($329)    $31,286,554 Updated due to quarterly assessment and reallocation

                                                                                                                9/15/2011       ($1,900,000)    $29,386,554 Transfer of cap due to servicing transfer

                                                                                                                9/30/2009       $13,070,000     $29,590,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009    $145,510,000     $175,100,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010    ($116,950,000)     $58,150,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                7/14/2010      ($23,350,000)    $34,800,000 Updated portfolio data from servicer
            CCO Mortgage,                           Instrument for
6/17/2009                                Purchase                              $16,520,000 N/A                                                                                                                                $587,250     $1,788,165     $1,457,920        $3,833,335
            Glen Allen, VA                          Home Loan
                                                                                                                9/30/2010        $7,846,346     $42,646,346 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011               ($46)    $42,646,300 Updated portfolio data from servicer

                                                                                                                3/30/2011              ($55)    $42,646,245 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                                6/29/2011             ($452)    $42,645,793 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                                           261
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)                                                                                                                                                                           262

            Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                             TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                            Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                          Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                     Incentive    Incentives     Incentives        Payments

                                                                                                                9/30/2009      ($11,300,000)   $45,700,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009     ($42,210,000)    $3,490,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       $65,640,000    $69,130,000 Updated portfolio data from servicer

                                                                                                                4/9/2010       ($14,470,000)   $54,660,000 Updated portfolio data from servicer
                                                    Financial
            RG Mortgage                                                                                         7/14/2010       ($8,860,000)   $45,800,000 Updated portfolio data from servicer
                                                    Instrument for
6/17/2009   Corporation,                 Purchase                              $57,000,000 N/A                                                                                                                        $164,853     $227,582        $401,334          $793,769
                                                    Home Loan
            San Juan, PR                                                                                        9/30/2010       ($4,459,154)   $41,340,846 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                12/15/2010      ($4,300,000)   $37,040,846 Updated portfolio data from servicer

                                                                                                                1/6/2011               ($51)   $37,040,795 Updated portfolio data from servicer

                                                                                                                3/30/2011              ($65)   $37,040,730 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011             ($616)   $37,040,114 Updated due to quarterly assessment and reallocation

                                                                                                                12/30/2009       $2,020,000     $2,790,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            First Federal Savings and               Instrument for
6/19/2009                                Purchase                                 $770,000 N/A                  3/26/2010       $11,370,000    $14,160,000 Updated portfolio data from servicer                            $—            $—             $—                 $—
            Loan, Port Angeles, WA                  Home Loan
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                    Modifications
                                                                                                                5/26/2010      ($14,160,000)            $— Termination of SPA

                                                                                                                9/30/2009          $330,000       $870,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009      $16,490,000    $17,360,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010      ($14,260,000)    $3,100,000 Updated portfolio data from servicer

                                                                                                                7/14/2010       ($1,800,000)    $1,300,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                7/30/2010        $1,500,000     $2,800,000 Updated portfolio data from servicer
            Wescom Central Credit                   Instrument for
6/19/2009                                Purchase                                 $540,000 N/A             12                                                                                                          $93,546     $374,719        $210,613          $678,877
            Union, Anaheim, CA                      Home Loan
                                                                                                                9/30/2010        $1,551,668     $4,351,668 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011                ($2)    $4,351,666 Updated portfolio data from servicer

                                                                                                                3/30/2011               ($2)    $4,351,664 Updated due to quarterly assessment and reallocation

                                                                                                                5/13/2011       ($1,800,000)    $2,551,664 Transfer of cap due to servicing transfer

                                                                                                                6/3/2011        ($1,872,787)      $678,877 Termination of SPA

                                                                                                                9/30/2009          ($10,000)       $20,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009         $590,000       $610,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            Citizens First Wholesale                                                                            3/26/2010        ($580,000)        $30,000 Updated portfolio data from servicer
                                                    Instrument for
6/26/2009   Mortgage Company,            Purchase                                  $30,000 N/A                                                                                                                          $2,750      $10,424         $10,917           $24,091
                                                    Home Loan
            The Villages, FL                                                                                    7/14/2010           $70,000       $100,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                9/30/2010           $45,056       $145,056 Updated portfolio data from servicer

                                                                                                                2/17/2011        ($145,056)             $— Termination of SPA

                                                                                                                12/30/2009       $2,180,000     $2,250,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010        ($720,000)     $1,530,000 Updated portfolio data from servicer

                                                                                                                7/14/2010        ($430,000)     $1,100,000 Updated portfolio data from servicer
                                                    Financial
            Technology Credit Union,                Instrument for
6/26/2009                                Purchase                                  $70,000 N/A                  9/30/2010           $60,445     $1,160,445 Updated portfolio data from servicer                        $11,417      $55,797         $27,417           $94,631
            San Jose, CA                            Home Loan
                                                    Modifications
                                                                                                                1/6/2011                        $1,160,444 Updated portfolio data from servicer

                                                                                                                3/30/2011                       $1,160,443 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($12)    $1,160,431 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                       Adjustment Details                                                              TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                  Lenders/                    Total Non-GSE
                                      Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution       Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount        Adjusted Cap Reason for Adjustment                                        Incentive    Incentives     Incentives        Payments

                                                                                                              9/30/2009      $315,170,000      $610,150,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009       $90,280,000     $700,430,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010      ($18,690,000)     $681,740,000 Updated portfolio data from servicer

                                                                                                              7/14/2010     ($272,640,000)     $409,100,000 Updated portfolio data from servicer

                                                                                                                                                                Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                              9/30/2010        $80,600,000     $489,700,000
                                                                                                                                                                2MP cap

                                                                                                              9/30/2010        $71,230,004     $560,930,004 Updated portfolio data from servicer

                                                  Financial                                                   1/6/2011               ($828)    $560,929,176 Updated portfolio data from servicer
            National City Bank,                   Instrument for
6/26/2009                              Purchase                             $294,980,000 N/A                  2/16/2011           $200,000     $561,129,176 Transfer of cap due to servicing transfer                     $555,924    $2,232,185     $1,647,213        $4,435,321
            Miamisburg, OH                        Home Loan
                                                  Modifications
                                                                                                              3/16/2011         ($100,000)     $561,029,176 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011              ($981)    $561,028,195 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011        ($2,300,000)    $558,728,195 Transfer of cap due to servicing transfer

                                                                                                              5/13/2011         ($200,000)     $558,528,195 Transfer of cap due to servicing transfer

                                                                                                              6/16/2011         ($200,000)     $558,328,195 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011            ($9,197)    $558,318,998 Updated due to quarterly assessment and reallocation

                                                                                                              8/16/2011                $—      $558,318,998 Transfer of cap due to servicing transfer

                                                                                                              9/30/2009      $723,880,000     $1,357,890,000 Updated portfolio data from servicer & HPDP initial cap
                                                  Financial
                                                                                                              12/30/2009     $692,640,000     $2,050,530,000 Updated portfolio data from servicer & HAFA initial cap
            Wachovia Mortgage, FSB,               Instrument for
7/1/2009                               Purchase                             $634,010,000 N/A              3                                                                                                                    $—       $76,890        $162,000          $238,890
            Des Moines, IA                        Home Loan
                                                                                                              2/17/2010    ($2,050,236,344)         $293,656 Transfer of cap (to Wells Fargo Bank) due to merger
                                                  Modifications
                                                                                                              3/12/2010           ($54,767)         $238,890 Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                              9/30/2009        $23,850,000       $68,110,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009       $43,590,000     $111,700,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010        $34,540,000     $146,240,000 Updated portfolio data from servicer

                                                                                                              5/7/2010          $1,010,000     $147,250,000 Initial 2MP cap

                                                                                                              7/14/2010      ($34,250,000)     $113,000,000 Updated portfolio data from servicer

                                                                                                              9/30/2010           $600,000     $113,600,000 Initial FHA-2LP cap
                                                  Financial
            Bayview Loan Servicing,               Instrument for
7/1/2009                               Purchase                              $44,260,000 N/A                  9/30/2010      ($15,252,303)       $98,347,697 Updated portfolio data from servicer                        $2,146,915   $5,651,286     $4,955,833       $12,754,033
            LLC, Coral Gables, FL                 Home Loan
                                                  Modifications
                                                                                                              1/6/2011                ($70)      $98,347,627 Updated portfolio data from servicer

                                                                                                              3/30/2011               ($86)      $98,347,541 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011           $400,000       $98,747,541 Transfer of cap due to servicing transfer

                                                                                                              5/13/2011           $100,000       $98,847,541 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011              ($771)      $98,846,770 Updated due to quarterly assessment and reallocation

                                                                                                              9/15/2011           $600,000       $99,446,770 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                      263
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                     (CONTINUED)                                                                                                                                                                           264

            Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                             TARP Incentive Payments
                                                                      Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                            Lenders/                    Total Non-GSE
                                         Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                          Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution          Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                     Incentive    Incentives     Incentives        Payments

                                                                                                                 9/30/2009          $150,000       $250,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                 12/30/2009         $130,000       $380,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010           $50,000       $430,000 Updated portfolio data from servicer
                                                     Financial
                                                                                                                 7/14/2010          ($30,000)      $400,000 Updated portfolio data from servicer
            Lake National Bank,                      Instrument for
7/10/2009                                 Purchase                                 $100,000 N/A                                                                                                                          $2,000        $2,656         $3,000            $7,656
            Mentor, OH                               Home Loan
                                                                                                                 9/30/2010           $35,167       $435,167 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 1/6/2011                          $435,166 Updated portfolio data from servicer

                                                                                                                 3/30/2011                         $435,165 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011               ($6)      $435,159 Updated due to quarterly assessment and reallocation

                                                                                                                 9/30/2009          ($10,000)      $860,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                 12/30/2009         $250,000     $1,110,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010          ($10,000)    $1,100,000 Updated portfolio data from servicer
                                                     Financial
            IBM Southeast                                                                                        7/14/2010        ($400,000)       $700,000 Updated portfolio data from servicer
                                                     Instrument for
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




7/10/2009   Employees’ Federal Credit     Purchase                                 $870,000 N/A                                                                                                                          $5,917      $14,767         $13,000           $33,683
                                                     Home Loan
            Union, Delray Beach, FL                                                                              9/30/2010          $170,334       $870,334 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 1/6/2011                          $870,333 Updated portfolio data from servicer

                                                                                                                 3/30/2011                         $870,332 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011              ($12)      $870,320 Updated due to quarterly assessment and reallocation

                                                                                                                 9/30/2009       $18,530,000    $42,010,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                 12/30/2009      $24,510,000    $66,520,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010       $18,360,000    $84,880,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010      ($22,580,000)   $62,300,000 Updated portfolio data from servicer
                                                     Financial
            MorEquity, Inc.,                         Instrument for                                              9/30/2010       ($8,194,261)   $54,105,739 Updated portfolio data from servicer
7/17/2009                                 Purchase                              $23,480,000 N/A             11                                                                                                         $345,841    $2,305,003     $1,977,321        $4,628,165
            Evansville, IN                           Home Loan
                                                     Modifications                                               1/6/2011               ($37)   $54,105,702 Updated portfolio data from servicer

                                                                                                                 3/16/2011      ($29,400,000)   $24,705,702 Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011              ($34)   $24,705,668 Updated due to quarterly assessment and reallocation

                                                                                                                                                               Termination of SPA
                                                                                                                 5/26/2011      ($20,077,503)    $4,628,165
                                                                                                                                                               (remaining cap equals distribution amount)

                                                                                                                 9/30/2009      ($36,240,000)   $18,230,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                 12/30/2009      $19,280,000    $37,510,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010        $2,470,000    $39,980,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010      ($17,180,000)   $22,800,000 Updated portfolio data from servicer
                                                     Financial
                                                                                                                 9/30/2010       $35,500,000    $58,300,000 Initial FHA-2LP cap and initial 2MP cap
            PNC Bank, National                       Instrument for
7/17/2009                                 Purchase                              $54,470,000 N/A                                                                                                                         $12,833      $63,282        $135,500          $211,615
            Association, Pittsburg, PA               Home Loan
                                                                                                                 9/30/2010       $23,076,191    $81,376,191 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 1/6/2011              ($123)   $81,376,068 Updated portfolio data from servicer

                                                                                                                 3/30/2011             ($147)   $81,375,921 Updated due to quarterly assessment and reallocation

                                                                                                                 5/13/2011        ($100,000)    $81,275,921 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011           ($1,382)   $81,274,539 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                       Adjustment Details                                                              TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                 Lenders/                    Total Non-GSE
                                       Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                              Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount       Adjusted Cap Reason for Adjustment                                       Incentive     Incentives     Incentives        Payments

                                                                                                               9/30/2009          ($90,000)          $80,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009          $50,000          $130,000 Updated portfolio data from servicer & HAFA initial cap
                                                   Financial
                                                                                                               3/26/2010          $100,000          $230,000 Updated portfolio data from servicer
            Farmers State Bank, West               Instrument for
7/17/2009                               Purchase                                 $170,000 N/A                                                                                                                                 $—             $—             $—                 $—
            Salem, OH                              Home Loan
                                                                                                               7/14/2010        ($130,000)          $100,000 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               9/30/2010           $45,056          $145,056 Updated portfolio data from servicer

                                                                                                               5/20/2011        ($145,056)                $— Termination of SPA

                                                                                                               9/30/2009          $890,000        $2,300,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009       $1,260,000        $3,560,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010          ($20,000)       $3,540,000 Updated portfolio data from servicer

                                                                                                               7/14/2010        ($240,000)        $3,300,000 Updated portfolio data from servicer
                                                   Financial
                                                   Instrument for
7/17/2009   ShoreBank, Chicago, IL      Purchase                               $1,410,000 N/A                  9/30/2010          $471,446        $3,771,446 Updated portfolio data from servicer                         $49,915      $153,906        $143,165          $346,986
                                                   Home Loan
                                                   Modifications
                                                                                                               1/6/2011                ($3)       $3,771,443 Updated portfolio data from servicer

                                                                                                               3/30/2011               ($4)       $3,771,439 Updated due to quarterly assessment and reallocation

                                                                                                               4/13/2011       ($1,100,000)       $2,671,439 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011              ($38)       $2,671,401 Updated due to quarterly assessment and reallocation

                                                                                                               9/30/2009      ($53,670,000)   $1,218,820,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009    $250,450,000     $1,469,270,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010     $124,820,000     $1,594,090,000 Updated portfolio data from servicer

                                                                                                               7/14/2010    ($289,990,000)    $1,304,100,000 Updated portfolio data from servicer

                                                                                                               9/30/2010        $1,690,508    $1,305,790,508 Updated portfolio data from servicer

                                                                                                               10/15/2010         $300,000    $1,306,090,508 Transfer of cap due to servicing transfer
                                                   Financial
            American Home
                                                   Instrument for
7/22/2009   Mortgage Servicing, Inc,    Purchase                           $1,272,490,000 N/A                  11/16/2010       ($100,000)    $1,305,990,508 Transfer of cap due to servicing transfer                 $16,354,747   $59,601,601    $45,875,796     $121,832,144
                                                   Home Loan
            Coppell, TX
                                                   Modifications
                                                                                                               1/6/2011            ($1,173)   $1,305,989,335 Updated portfolio data from servicer

                                                                                                               2/16/2011        ($500,000)    $1,305,489,335 Transfer of cap due to servicing transfer

                                                                                                               3/30/2011           ($1,400)   $1,305,487,935 Updated due to quarterly assessment and reallocation

                                                                                                               4/13/2011        $3,100,000    $1,308,587,935 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011          ($12,883)   $1,308,575,052 Updated due to quarterly assessment and reallocation

                                                                                                               9/15/2011       ($1,000,000)   $1,307,575,052 Transfer of cap due to servicing transfer

                                                                                                               9/30/2009        $1,780,000        $5,990,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009       $2,840,000        $8,830,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010        $2,800,000       $11,630,000 Updated portfolio data from servicer
                                                   Financial
                                                                                                               7/14/2010       ($5,730,000)       $5,900,000 Updated portfolio data from servicer
            Mortgage Center, LLC,                  Instrument for
7/22/2009                               Purchase                               $4,210,000 N/A                                                                                                                             $34,658       $86,428        $107,825          $228,911
            Southfield, MI                         Home Loan
                                                                                                               9/30/2010        $2,658,280        $8,558,280 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               1/6/2011               ($12)       $8,558,268 Updated portfolio data from servicer

                                                                                                               3/30/2011              ($14)       $8,558,254 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                      TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                               6/29/2011             ($129)       $8,558,125 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                      265
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)                                                                                                                                                                           266

            Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                             TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                            Lenders/                    Total Non-GSE
                                       Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                          Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                     Incentive    Incentives     Incentives        Payments

                                                                                                               9/30/2009        ($490,000)       $370,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009       $6,750,000     $7,120,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010       ($6,340,000)      $780,000 Updated portfolio data from servicer
                                                   Financial
            Mission Federal Credit                 Instrument for
7/22/2009                               Purchase                                 $860,000 N/A                  7/14/2010        ($180,000)       $600,000 Updated portfolio data from servicer                        $14,500      $46,992         $35,000           $96,492
            Union, San Diego, CA                   Home Loan
                                                   Modifications
                                                                                                               9/30/2010          $125,278       $725,278 Updated portfolio data from servicer

                                                                                                               3/30/2011                         $725,277 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011               ($4)      $725,273 Updated due to quarterly assessment and reallocation

                                                                                                               9/30/2009       ($1,530,000)    $4,930,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009         $680,000     $5,610,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010        $2,460,000     $8,070,000 Updated portfolio data from servicer
                                                   Financial
                                                                                                               7/14/2010       ($2,470,000)    $5,600,000 Updated portfolio data from servicer
                                                   Instrument for
7/29/2009   First Bank, St Louis, MO    Purchase                               $6,460,000 N/A                                                                                                                        $259,069     $682,180        $663,483        $1,604,732
                                                   Home Loan
                                                                                                               9/30/2010        $2,523,114     $8,123,114 Updated portfolio data from servicer
                                                   Modifications
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                               1/6/2011                ($2)    $8,123,112 Updated portfolio data from servicer

                                                                                                               3/30/2011               ($2)    $8,123,110 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($15)    $8,123,095 Updated due to quarterly assessment and reallocation

                                                                                                               9/30/2009          ($60,000)    $1,030,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009       $1,260,000     $2,290,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                               3/26/2010        $2,070,000     $4,360,000 Updated portfolio data from servicer
                                                   Financial
            Purdue Employees                                                                                   7/14/2010       ($3,960,000)      $400,000 Updated portfolio data from servicer
                                                   Instrument for
7/29/2009   Federal Credit Union,       Purchase                               $1,090,000 N/A                                                                                                                             $—            $—             $—                 $—
                                                   Home Loan
            West Lafayette, IN                                                                                 9/30/2010          $180,222       $580,222 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               1/6/2011                          $580,221 Updated portfolio data from servicer

                                                                                                               3/30/2011                         $580,220 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011               ($8)      $580,212 Updated due to quarterly assessment and reallocation

                                                                                                               9/30/2009      ($37,700,000)   $47,320,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                               12/30/2009      $26,160,000    $73,480,000 Updated portfolio data from servicer & HAFA initial cap
                                                   Financial
                                                                                                               3/26/2010        $9,820,000    $83,300,000 Updated portfolio data from servicer
            Wachovia Bank, N.A.,                   Instrument for
7/29/2009                               Purchase                              $85,020,000 N/A                                                                                                                             $—            $—             $—                 $—
            Charlotte, NC                          Home Loan
                                                                                                               7/14/2010      ($46,200,000)   $37,100,000 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               9/30/2010      ($28,686,775)    $8,413,225 Updated portfolio data from servicer

                                                                                                               12/3/2010       ($8,413,225)            $— Termination of SPA

                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                       Adjustment Details                                                                TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                    Lenders/                    Total Non-GSE
                                      Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                 Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution       Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount        Adjusted Cap Reason for Adjustment                                         Incentive     Incentives     Incentives        Payments

                                                                                                              9/30/2009      ($14,850,000)    $2,684,870,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009    $1,178,180,000    $3,863,050,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010     $1,006,580,000    $4,869,630,000 Updated portfolio data from servicer & 2MP initial cap

                                                                                                              7/14/2010    ($1,934,230,000)   $2,935,400,000 Updated portfolio data from servicer

                                                                                                                                                                Initial FHA-HAMP cap, Initial FHA-2LP cap, and initial
                                                                                                              9/30/2010        $72,400,000    $3,007,800,000
                                                                                                                                                                RD-HAMP

                                                                                                              9/30/2010      $215,625,536     $3,223,425,536 Updated portfolio data from servicer

                                                  Financial                                                   1/6/2011             ($3,636)   $3,223,421,900 Updated portfolio data from servicer
            J.P. Morgan Chase Bank,               Instrument for
7/31/2009                              Purchase                           $2,699,720,000 N/A                  3/16/2011         ($100,000)    $3,223,321,900 Transfer of cap due to servicing transfer                   $65,897,844   $94,125,292    $85,871,164     $245,894,300
            NA, Lewisville, TX                    Home Loan
                                                  Modifications
                                                                                                              3/30/2011            ($3,999)   $3,223,317,901 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011         ($200,000)    $3,223,117,901 Transfer of cap due to servicing transfer

                                                                                                              5/13/2011      $122,700,000     $3,345,817,901 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011           ($34,606)   $3,345,783,295 Updated due to quarterly assessment and reallocation

                                                                                                              7/14/2011           $600,000    $3,346,383,295 Transfer of cap due to servicing transfer

                                                                                                              8/16/2011         ($400,000)    $3,345,983,295 Transfer of cap due to servicing transfer

                                                                                                              9/15/2011         ($100,000)    $3,345,883,295 Transfer of cap due to servicing transfer

                                                                                                              9/30/2009           ($10,000)    $707,370,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009     $502,430,000     $1,209,800,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010     ($134,560,000)    $1,075,240,000 Updated portfolio data from servicer & 2MP initial cap

                                                                                                              7/14/2010     ($392,140,000)     $683,100,000 Updated portfolio data from servicer

                                                                                                              7/16/2010         ($630,000)     $682,470,000 Transfer of cap to Saxon Mortgage Services, Inc.

                                                                                                              9/30/2010        $13,100,000     $695,570,000 Initial FHA-HAMP cap and initial FHA-2LP cap

                                                                                                              9/30/2010        ($8,006,457)    $687,563,543 Updated portfolio data from servicer
                                                  Financial
            EMC Mortgage                                                                                      10/15/2010        ($100,000)     $687,463,543 Transfer of cap due to servicing transfer
                                                  Instrument for
7/31/2009   Corporation,               Purchase                             $707,380,000 N/A                                                                                                                              $7,569,459   $11,592,937    $16,279,383       $35,441,779
                                                  Home Loan
            Lewisville, TX                                                                                    12/15/2010       ($4,400,000)    $683,063,543 Updated portfolio data from servicer
                                                  Modifications
                                                                                                              1/6/2011               ($802)    $683,062,741 Updated portfolio data from servicer

                                                                                                              2/16/2011         ($900,000)     $682,162,741 Transfer of cap due to servicing transfer

                                                                                                              3/16/2011        ($4,000,000)    $678,162,741 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011              ($925)    $678,161,816 Updated due to quarterly assessment and reallocation

                                                                                                              5/13/2011     ($122,900,000)     $555,261,816 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011            ($8,728)    $555,253,088 Updated due to quarterly assessment and reallocation

                                                                                                              7/14/2011         ($600,000)     $554,653,088 Transfer of cap due to servicing transfer

                                                                                                              9/30/2009           $180,000          $600,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009        ($350,000)          $250,000 Updated portfolio data from servicer & HAFA initial cap
                                                  Financial
                                                                                                              3/26/2010            $20,000          $270,000 Updated portfolio data from servicer
            Lake City Bank,                       Instrument for
8/5/2009                               Purchase                                 $420,000 N/A                                                                                                                                 $1,668         $1,834         $6,911           $10,413
            Warsaw, IN                            Home Loan
                                                                                                              7/14/2010           ($70,000)         $200,000 Updated portfolio data from servicer
                                                  Modifications
                                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                              9/30/2010            $90,111          $290,111 Updated portfolio data from servicer

                                                                                                              6/29/2011                ($3)         $290,108 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                                        267
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)                                                                                                                                                                            268

           Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                            TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                             Lenders/                    Total Non-GSE
                                      Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                           Borrower’s     Investors      Servicers          Incentive
Date       Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                      Incentive    Incentives     Incentives        Payments

                                                                                                              9/30/2009          $290,000        $430,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009         $210,000        $640,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010          $170,000        $810,000 Updated portfolio data from servicer

                                                                                                              7/14/2010          ($10,000)       $800,000 Updated portfolio data from servicer
                                                  Financial
                                                                                                              9/30/2010          ($74,722)       $725,278 Updated portfolio data from servicer
           Oakland Municipal Credit               Instrument for
8/5/2009                               Purchase                                 $140,000 N/A             12                                                                                                               $—         $3,568         $6,500           $10,068
           Union, Oakland, CA                     Home Loan
                                                                                                              1/6/2011                           $725,277 Updated portfolio data from servicer
                                                  Modifications
                                                                                                              3/30/2011                          $725,276 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011        ($200,000)        $525,276 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011               ($7)       $525,269 Updated due to quarterly assessment and reallocation

                                                                                                              7/22/2011        ($515,201)         $10,068 Termination of SPA

                                                                                                              9/30/2009    ($121,190,000)    $552,810,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009     ($36,290,000)   $516,520,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                              3/26/2010     $199,320,000     $715,840,000 Updated portfolio data from servicer

                                                                                                              7/14/2010    ($189,040,000)    $526,800,000 Updated portfolio data from servicer

                                                                                                              9/30/2010       $38,626,728    $565,426,728 Updated portfolio data from servicer
                                                  Financial
           HomEq Servicing, North                 Instrument for
8/5/2009                               Purchase                             $674,000,000 N/A                  10/15/2010   ($170,800,000)    $394,626,728 Transfer of cap due to servicing transfer                       $—     $3,036,319     $5,272,500        $8,308,819
           Highlands, CA                          Home Loan
                                                  Modifications
                                                                                                              12/15/2010     ($22,200,000)   $372,426,728 Updated portfolio data from servicer

                                                                                                              1/6/2011              ($549)   $372,426,179 Updated portfolio data from servicer

                                                                                                              2/16/2011        ($900,000)    $371,526,179 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011             ($653)   $371,525,526 Updated due to quarterly assessment and reallocation

                                                                                                              6/29/2011           ($6,168)   $371,519,358 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                        Adjustment Details                                                              TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                                 Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                              Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount       Adjusted Cap Reason for Adjustment                                       Incentive     Incentives     Incentives        Payments

                                                                                                                9/30/2009     $313,050,000     $1,087,950,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                                12/30/2009    $275,370,000     $1,363,320,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010     $278,910,000     $1,642,230,000 Updated portfolio data from servicer

                                                                                                                7/14/2010    ($474,730,000)    $1,167,500,000 Updated portfolio data from servicer

                                                                                                                8/13/2010        ($700,000)    $1,166,800,000 Transfer of cap to due to servicing transfer

                                                                                                                9/15/2010       ($1,000,000)   $1,165,800,000 Transfer of cap to due to servicing transfer

                                                                                                                9/30/2010    ($115,017,236)    $1,050,782,764 Updated portfolio data from servicer

                                                                                                                10/15/2010       ($800,000)    $1,049,982,764 Transfer of cap due to servicing transfer
                                                    Financial
                                                                                                                12/15/2010        $800,000     $1,050,782,764 Updated portfolio data from servicer
            Litton Loan Servicing LP,               Instrument for
8/12/2009                                Purchase                             $774,900,000 N/A                                                                                                                          $10,443,968   $27,386,531    $22,836,042       $60,666,540
            Houston, TX                             Home Loan
                                                                                                                1/6/2011            ($1,286)   $1,050,781,478 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                3/16/2011        $8,800,000    $1,059,581,478 Transfer of cap due to servicing transfer

                                                                                                                3/30/2011           ($1,470)   $1,059,580,008 Updated due to quarterly assessment and reallocation

                                                                                                                4/13/2011       ($3,300,000)   $1,056,280,008 Transfer of cap due to servicing transfer

                                                                                                                5/13/2011        ($300,000)    $1,055,980,008 Transfer of cap due to servicing transfer

                                                                                                                6/16/2011        ($700,000)    $1,055,280,008 Transfer of cap due to servicing transfer

                                                                                                                6/29/2011          ($13,097)   $1,055,266,911 Updated due to quarterly assessment and reallocation

                                                                                                                7/14/2011        ($200,000)    $1,055,066,911 Transfer of cap due to servicing transfer

                                                                                                                9/15/2011       ($2,900,000)   $1,052,166,911 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                       269
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)                                                                                                                                                                               270

            Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                Lenders/                    Total Non-GSE
                                      Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                              Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution       Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                         Incentive    Incentives     Incentives        Payments

                                                                                                              9/30/2009       ($1,200,000)    $5,010,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009      $30,800,000    $35,810,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010       $23,200,000    $59,010,000 Updated portfolio data from servicer

                                                                                                                                                            Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                              6/16/2010        $2,710,000    $61,720,000
                                                                                                                                                            transfer

                                                                                                              7/14/2010      ($18,020,000)   $43,700,000 Updated portfolio data from servicer

                                                                                                                                                            Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                              7/16/2010        $6,680,000    $50,380,000
                                                                                                                                                            transfer

                                                                                                              8/13/2010        $2,600,000    $52,980,000 Transfer of cap to due to servicing transfer

                                                                                                              9/15/2010        ($100,000)    $52,880,000 Transfer of cap to due to servicing transfer

                                                                                                              9/30/2010          $200,000    $53,080,000 Initial FHA-HAMP cap and 2MP initial cap

                                                                                                              9/30/2010       ($1,423,197)   $51,656,803 Updated portfolio data from servicer

                                                  Financial                                                   11/16/2010       $1,400,000    $53,056,803 Transfer of cap due to servicing transfer
            PennyMac Loan Services,               Instrument for
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




8/12/2009                              Purchase                               $6,210,000 N/A                                                                                                                            $682,130    $1,157,014     $1,374,648        $3,213,792
            LLC, Calasbasa, CA                    Home Loan                                                   12/15/2010       ($100,000)    $52,956,803 Updated portfolio data from servicer
                                                  Modifications
                                                                                                              1/6/2011               ($72)   $52,956,731 Updated portfolio data from servicer

                                                                                                              1/13/2011        $4,100,000    $57,056,731 Transfer of cap due to servicing transfer

                                                                                                              2/16/2011        ($100,000)    $56,956,731 Transfer of cap due to servicing transfer

                                                                                                              3/16/2011        $4,000,000    $60,956,731 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011              ($94)   $60,956,637 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011        ($100,000)    $60,856,637 Transfer of cap due to servicing transfer

                                                                                                              5/13/2011        $5,800,000    $66,656,637 Transfer of cap due to servicing transfer

                                                                                                              6/16/2011          $600,000    $67,256,637 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011             ($812)   $67,255,825 Updated due to quarterly assessment and reallocation

                                                                                                              7/14/2011        $2,500,000    $69,755,825 Transfer of cap due to servicing transfer

                                                                                                              9/15/2011        $2,800,000    $72,555,825 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                  (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                                  TARP Incentive Payments
                                                                   Cap of Incentive
                                                                   Payments on Behalf
                                                                   of Borrowers and to                                                                                                                                                     Lenders/                    Total Non-GSE
                                      Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                                  Borrower’s      Investors      Servicers          Incentive
Date        Name of Institution       Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount       Adjusted Cap Reason for Adjustment                                           Incentive     Incentives     Incentives        Payments

                                                                                                              9/30/2009      ($25,510,000)       $4,220,000 Updated portfolio data from servicer & HPDP initial cap

                                                                                                              12/30/2009         $520,000        $4,740,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010        $4,330,000        $9,070,000 Updated portfolio data from servicer

                                                                                                                                                               Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                              4/19/2010          $230,000        $9,300,000
                                                                                                                                                               transfer

                                                                                                              5/19/2010          $850,000       $10,150,000 Initial 2MP cap

                                                                                                              7/14/2010        ($850,000)        $9,300,000 Updated portfolio data from servicer

                                                                                                              9/15/2010          $100,000        $9,400,000 Transfer of cap to due to servicing transfer

                                                                                                              9/30/2010          $100,000        $9,500,000 Initial FHA-HAMP cap

                                                                                                              9/30/2010       $16,755,064       $26,255,064 Updated portfolio data from servicer

                                                                                                              10/15/2010         $100,000       $26,355,064 Transfer of cap due to servicing transfer
                                                  Financial
            Servis One, Inc.,                     Instrument for                                              12/15/2010         $100,000       $26,455,064 Updated portfolio data from servicer
8/12/2009                              Purchase                              $29,730,000 N/A                                                                                                                                  $4,000       $18,817         $29,500           $52,317
            Titusville, PA                        Home Loan
                                                  Modifications                                               1/6/2011               ($40)      $26,455,024 Updated portfolio data from servicer

                                                                                                              1/13/2011          $300,000       $26,755,024 Transfer of cap due to servicing transfer

                                                                                                              2/16/2011          $100,000       $26,855,024 Transfer of cap due to servicing transfer

                                                                                                              3/16/2011        $2,200,000       $29,055,024 Transfer of cap due to servicing transfer

                                                                                                              3/30/2011              ($52)      $29,054,972 Updated due to quarterly assessment and reallocation

                                                                                                              4/13/2011        $1,500,000       $30,554,972 Transfer of cap due to servicing transfer

                                                                                                              5/13/2011        $1,000,000       $31,554,972 Transfer of cap due to servicing transfer

                                                                                                              6/16/2011          $100,000       $31,654,972 Transfer of cap due to servicing transfer

                                                                                                              6/29/2011             ($534)      $31,654,438 Updated due to quarterly assessment and reallocation

                                                                                                              8/16/2011          $700,000       $32,354,438 Transfer of cap due to servicing transfer

                                                                                                              9/15/2011        ($600,000)       $31,754,438 Transfer of cap due to servicing transfer

                                                                                                              10/2/2009     $145,800,000      $814,240,000 HPDP initial cap

                                                                                                              12/30/2009   $1,355,930,000    $2,170,170,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                              3/26/2010     $121,180,000     $2,291,350,000 Updated portfolio data from servicer

                                                                                                              7/14/2010    ($408,850,000)    $1,882,500,000 Updated portfolio data from servicer
                                                  Financial
            OneWest Bank,                         Instrument for
8/28/2009                              Purchase                             $668,440,000 N/A                  9/30/2010        $5,500,000    $1,888,000,000 2MP initial cap                                               $11,532,073   $43,269,786    $27,528,082       $82,329,941
            Pasadena, CA                          Home Loan
                                                  Modifications
                                                                                                              9/30/2010      ($51,741,163)   $1,836,258,837 Updated portfolio data from servicer

                                                                                                              1/6/2011            ($2,282)   $1,836,256,555 Updated portfolio data from servicer

                                                                                                              3/30/2011           ($2,674)   $1,836,253,881 Updated due to quarterly assessment and reallocation

                                                                                                              6/29/2011          ($24,616)   $1,836,229,265 Updated due to quarterly assessment and reallocation

                                                                                                              10/2/2009           $70,000          $370,000 HPDP initial cap

                                                                                                              12/30/2009       $2,680,000        $3,050,000 Updated portfolio data from servicer & HAFA initial cap
                                                  Financial
                                                                                                              3/26/2010          $350,000        $3,400,000 Updated portfolio data from servicer
            Stanford Federal Credit               Instrument for
8/28/2009                              Purchase                                 $300,000 N/A
            Union, Palo Alto, CA                  Home Loan
                                                                                                              7/14/2010       ($1,900,000)       $1,500,000 Updated portfolio data from servicer
                                                  Modifications
                                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                              9/30/2010       ($1,209,889)         $290,111 Updated portfolio data from servicer

                                                                                                              3/23/2010        ($290,111)                $— Termination of SPA

                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                         271
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                     (CONTINUED)                                                                                                                                                                           272

             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                             TARP Incentive Payments
                                                                      Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                            Lenders/                    Total Non-GSE
                                         Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                          Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                     Incentive    Incentives     Incentives        Payments

                                                                                                                 10/2/2009         $130,000        $700,000 HPDP initial cap

                                                                                                                 12/30/2009       ($310,000)       $390,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010        $2,110,000     $2,500,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010        $8,300,000    $10,800,000 Updated portfolio data from servicer
                                                     Financial
             RoundPoint Mortgage                                                                                 9/30/2010        $5,301,172    $16,101,172 Updated portfolio data from servicer
                                                     Instrument for
8/28/2009    Servicing Corporation,       Purchase                                 $570,000 N/A                                                                                                                         $47,122     $126,971        $137,496          $311,590
                                                     Home Loan
             Charlotte, NC                                                                                       1/6/2011               ($22)   $16,101,150 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 3/16/2011        ($400,000)    $15,701,150 Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011              ($25)   $15,701,125 Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011               $—     $15,701,125 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011             ($232)   $15,700,893 Updated due to quarterly assessment and reallocation

                                                                                                                 10/2/2009         $130,000        $690,000 HPDP initial cap

                                                                                                                 12/30/2009       $1,040,000     $1,730,000 Updated portfolio data from servicer & HAFA initial cap
                                                                                                                                                                                                                                                                                   APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                                 3/26/2010       ($1,680,000)       $50,000 Updated portfolio data from servicer
                                                     Financial
                                                                                                                 5/12/2010        $1,260,000     $1,310,000 Updated portfolio data from servicer
                                                     Instrument for
9/2/2009     Horicon Bank, Horicon, WI    Purchase                                 $560,000 N/A                                                                                                                          $2,515        $6,076         $5,570           $14,161
                                                     Home Loan
                                                                                                                 7/14/2010       ($1,110,000)      $200,000 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 9/30/2010         $100,000        $300,000 Initial RD-HAMP

                                                                                                                 9/30/2010           ($9,889)      $290,111 Updated portfolio data from servicer

                                                                                                                 6/29/2011               ($3)      $290,108 Updated due to quarterly assessment and reallocation

                                                                                                                 10/2/2009        $1,310,000     $7,310,000 HPDP initial cap

                                                                                                                 12/30/2009      ($3,390,000)    $3,920,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010         $410,000      $4,330,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010        ($730,000)     $3,600,000 Updated portfolio data from servicer

                                                                                                                 9/15/2010        $4,700,000     $8,300,000 Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010         $117,764      $8,417,764 Updated portfolio data from servicer

                                                                                                                 11/16/2010        $800,000      $9,217,764 Transfer of cap due to servicing transfer
9/2/2009                                             Financial
             Vantium Capital, Inc.dba                                                                            12/15/2010       $2,700,000    $11,917,764 Updated portfolio data from servicer
as amended                                           Instrument for
             Acqura Loan Services,        Purchase                               $6,000,000 N/A             10                                                                                                          $66,171     $118,990         $73,055          $258,215
on                                                   Home Loan
             Plano, TX                                                                                           1/6/2011               ($17)   $11,917,747 Updated portfolio data from servicer
8/27/2010                                            Modifications
                                                                                                                 1/13/2011         $700,000     $12,617,747 Transfer of cap due to servicing transfer

                                                                                                                 2/16/2011        $1,800,000    $14,417,747 Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011              ($19)   $14,417,728 Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011         $300,000     $14,717,728 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011             ($189)   $14,717,539 Updated due to quarterly assessment and reallocation

                                                                                                                 8/16/2011         $300,000     $15,017,539 Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011         $100,000     $15,117,539 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                         Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                            TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                             Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                           Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                      Incentive    Incentives     Incentives        Payments

                                                                                                                10/2/2009          $280,000      $1,530,000 HPDP initial cap

                                                                                                                12/30/2009       ($750,000)        $780,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010          $120,000        $900,000 Updated portfolio data from servicer
                                                    Financial
            Central Florida Educators                                                                           7/14/2010        ($300,000)        $600,000 Updated portfolio data from servicer
                                                    Instrument for
9/9/2009    Federal Credit Union,        Purchase                               $1,250,000 N/A                                                                                                                          $22,506      $45,890         $60,465          $128,861
                                                    Home Loan
            Lake Mary, FL                                                                                       9/30/2010          $270,334        $870,334 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011                           $870,333 Updated portfolio data from servicer

                                                                                                                3/30/2011                          $870,332 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011               ($5)       $870,327 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009       $24,920,000    $139,140,000 HPDP initial cap

                                                                                                                12/30/2009      $49,410,000    $188,550,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       $41,830,000    $230,380,000 Updated portfolio data from servicer
                                                    Financial
            U.S. Bank National                                                                                  7/14/2010      ($85,780,000)   $144,600,000 Updated portfolio data from servicer
                                                    Instrument for
9/9/2009    Association,                 Purchase                             $114,220,000 N/A                                                                                                                        $2,751,393   $9,355,035     $8,466,023       $20,572,451
                                                    Home Loan
            Owensboro, KY                                                                                       9/30/2010       $36,574,444    $181,174,444 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011              ($160)   $181,174,284 Updated portfolio data from servicer

                                                                                                                3/30/2011             ($172)   $181,174,112 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011           ($1,431)   $181,172,681 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009          $950,000      $5,300,000 HPDP initial cap

                                                                                                                12/30/2009       $5,700,000     $11,000,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010          $740,000     $11,740,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                7/14/2010       ($1,440,000)    $10,300,000 Updated portfolio data from servicer
            CUC Mortgage                            Instrument for
9/9/2009                                 Purchase                               $4,350,000 N/A                                                                                                                          $11,881      $44,402         $40,849           $97,133
            Corporation, Albany, NY                 Home Loan
                                                                                                                9/30/2010       ($6,673,610)     $3,626,390 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011                ($5)     $3,626,385 Updated portfolio data from servicer

                                                                                                                3/30/2011               ($6)     $3,626,379 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($52)     $3,626,327 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009          $460,000      $2,530,000 HPDP initial cap

                                                                                                                12/30/2009       $2,730,000      $5,260,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       $13,280,000     $18,540,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                7/14/2010      ($13,540,000)     $5,000,000 Updated portfolio data from servicer
            ORNL Federal Credit                     Instrument for
9/11/2009                                Purchase                               $2,070,000 N/A                                                                                                                           $2,000        $1,450         $4,000            $7,450
            Union, Oak Ridge, TN                    Home Loan
                                                                                                                9/30/2010        $1,817,613      $6,817,613 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011               ($10)     $6,817,603 Updated portfolio data from servicer

                                                                                                                3/30/2011              ($12)     $6,817,591 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011             ($115)     $6,817,476 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009           $60,000        $310,000 HPDP initial cap

                                                                                                                12/30/2009         ($80,000)       $230,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            Allstate Mortgage Loans                                                                             3/26/2010          $280,000        $510,000 Updated portfolio data from servicer
                                                    Instrument for
9/11/2009   & Investments, Inc.,         Purchase                                 $250,000 N/A                                                                                                                           $1,623        $5,899         $4,623           $12,145
                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                    Home Loan
            Ocala, FL                                                                                           7/14/2010        ($410,000)        $100,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                9/30/2010           $45,056        $145,056 Updated portfolio data from servicer

                                                                                                                6/29/2011                          $145,055 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                   273
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)                                                                                                                                                                           274

            Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                             TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                            Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                          Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                     Incentive    Incentives     Incentives        Payments

                                                                                                                10/2/2009           $70,000       $350,000 HPDP initial cap

                                                                                                                12/30/2009         $620,000       $970,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010          $100,000     $1,070,000 Updated portfolio data from servicer
                                                    Financial
            Metropolitan National                   Instrument for
9/11/2009                                Purchase                                 $280,000 N/A                  7/14/2010        ($670,000)       $400,000 Updated portfolio data from servicer                            $—            $—             $—                 $—
            Bank, Little Rock, AR                   Home Loan
                                                    Modifications
                                                                                                                9/30/2010           $35,167       $435,167 Updated portfolio data from servicer

                                                                                                                1/6/2011                          $435,166 Updated portfolio data from servicer

                                                                                                                1/26/2011        ($435,166)             $— Termination of SPA

                                                                                                                10/2/2009        $6,010,000    $33,520,000 HPDP initial cap

                                                                                                                12/30/2009     ($19,750,000)   $13,770,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010       ($4,780,000)    $8,990,000 Updated portfolio data from servicer

                                                                                                                7/14/2010       ($2,390,000)    $6,600,000 Updated portfolio data from servicer
                                                    Financial
            Franklin Credit
                                                    Instrument for
9/11/2009   Management Corporation,      Purchase                              $27,510,000 N/A                  9/30/2010        $2,973,670     $9,573,670 Updated portfolio data from servicer                       $169,131     $339,668        $498,814        $1,007,613
                                                    Home Loan
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




            Jersey City, NJ
                                                    Modifications
                                                                                                                1/6/2011                ($3)    $9,573,667 Updated portfolio data from servicer

                                                                                                                2/16/2011       ($1,800,000)    $7,773,667 Transfer of cap due to servicing transfer

                                                                                                                3/30/2011               ($6)    $7,773,661 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($61)    $7,773,600 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009           $90,000       $500,000 HPDP initial cap

                                                                                                                12/30/2009       $1,460,000     $1,960,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010          $160,000     $2,120,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                7/14/2010        ($120,000)     $2,000,000 Updated portfolio data from servicer
            Bay Federal Credit Union,               Instrument for
9/16/2009                                Purchase                                 $410,000 N/A                                                                                                                             $—            $—             $—                 $—
            Capitola, CA                            Home Loan
                                                                                                                9/30/2010       ($1,419,778)      $580,222 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011                          $580,221 Updated portfolio data from servicer

                                                                                                                3/30/2011                         $580,220 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011               ($8)      $580,212 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009          $960,000     $5,350,000 HPDP initial cap

                                                                                                                12/30/2009      ($3,090,000)    $2,260,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010          $230,000     $2,490,000 Updated portfolio data from servicer

                                                                                                                7/14/2010        $5,310,000     $7,800,000 Updated portfolio data from servicer

                                                                                                                9/30/2010          $323,114     $8,123,114 Updated portfolio data from servicer
                                                    Financial
                                                                                                                1/6/2011               ($12)    $8,123,102 Updated portfolio data from servicer
            AMS Servicing, LLC,                     Instrument for
9/23/2009                                Purchase                               $4,390,000 N/A                                                                                                                             $—            $—             $—                 $—
            Buffalo, NY                             Home Loan
                                                                                                                3/16/2011          $600,000     $8,723,102 Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                3/30/2011              ($16)    $8,723,086 Updated due to quarterly assessment and reallocation

                                                                                                                4/13/2011          $200,000     $8,923,086 Transfer of cap due to servicing transfer

                                                                                                                5/13/2011          $100,000     $9,023,086 Transfer of cap due to servicing transfer

                                                                                                                6/29/2011             ($153)    $9,022,933 Updated due to quarterly assessment and reallocation

                                                                                                                9/15/2011          $100,000     $9,122,933 Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                             TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                            Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                          Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                     Incentive    Incentives     Incentives        Payments

                                                                                                                10/2/2009           $90,000       $480,000 HPDP initial cap

                                                                                                                12/30/2009        $940,000      $1,420,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010        ($980,000)       $440,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                7/14/2010        ($140,000)       $300,000 Updated portfolio data from servicer
            Schools Financial Credit                Instrument for
9/23/2009                                Purchase                                 $390,000 N/A                                                                                                                          $4,833      $21,460         $16,500           $42,794
            Union, Sacramento, CA                   Home Loan
                                                                                                                9/30/2010        $1,150,556     $1,450,556 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                1/6/2011                ($2)    $1,450,554 Updated portfolio data from servicer

                                                                                                                3/30/2011               ($2)    $1,450,552 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($22)    $1,450,530 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009           $60,000       $290,000 HPDP initial cap

                                                                                                                12/30/2009         ($10,000)      $280,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
                                                                                                                3/26/2010         $130,000        $410,000 Updated portfolio data from servicer
            Glass City Federal Credit               Instrument for
9/23/2009                                Purchase                                 $230,000 N/A                                                                                                                          $2,000        $2,018         $4,000            $8,018
            Union, Maumee, OH                       Home Loan
                                                                                                                7/14/2010        ($110,000)       $300,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                9/30/2010           ($9,889)      $290,111 Updated portfolio data from servicer

                                                                                                                6/29/2011               ($3)      $290,108 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009           $10,000        $40,000 HPDP initial cap

                                                                                                                12/30/2009        $120,000        $160,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
            Central Jersey                                                                                      3/26/2010           $10,000       $170,000 Updated portfolio data from servicer
                                                    Instrument for
9/23/2009   Federal Credit Union,        Purchase                                  $30,000 N/A                                                                                                                             $—            $—             $—                 $—
                                                    Home Loan
            Woodbridge, NJ                                                                                      7/14/2010          ($70,000)      $100,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                9/30/2010           $45,056       $145,056 Updated portfolio data from servicer

                                                                                                                10/29/2010       ($145,056)             $— Termination of SPA

                                                                                                                10/2/2009           $60,000       $300,000 HPDP initial cap

                                                                                                                12/30/2009        $350,000        $650,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                3/26/2010        $1,360,000     $2,010,000 Updated portfolio data from servicer
                                                    Financial
            Yadkin Valley Bank,                     Instrument for
9/23/2009                                Purchase                                 $240,000 N/A                  7/14/2010       ($1,810,000)      $200,000 Updated portfolio data from servicer                         $2,000        $5,236        $15,000           $22,236
            Elkin, NC                               Home Loan
                                                    Modifications
                                                                                                                9/30/2010         $235,167        $435,167 Updated portfolio data from servicer

                                                                                                                1/6/2011                          $435,166 Updated portfolio data from servicer

                                                                                                                6/29/2011               ($4)      $435,162 Updated due to quarterly assessment and reallocation

                                                                                                                10/2/2009         $100,000        $540,000 HPDP initial cap

                                                                                                                12/30/2009          $20,000       $560,000 Updated portfolio data from servicer & HAFA initial cap
                                                    Financial
                                                                                                                3/26/2010        ($290,000)       $270,000 Updated portfolio data from servicer
                                                    Instrument for
9/25/2009   SEFCU, Albany, NY            Purchase                                 $440,000 N/A                                                                                                                             $—            $—             $—                 $—
                                                    Home Loan
                                                                                                                7/14/2010          ($70,000)      $200,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                9/30/2010          ($54,944)      $145,056 Updated portfolio data from servicer

                                                                                                                6/29/2011                         $145,055 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                                  275
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                     (CONTINUED)                                                                                                                                                                            276

             Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                             TARP Incentive Payments
                                                                      Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                             Lenders/                    Total Non-GSE
                                         Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                           Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                      Incentive    Incentives     Incentives        Payments

                                                                                                                 12/30/2009       $1,030,000      $1,600,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010        ($880,000)        $720,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010        ($320,000)        $400,000 Updated portfolio data from servicer
                                                     Financial
             Great Lakes Credit Union,               Instrument for
10/14/2009                                Purchase                                 $570,000 N/A                  9/30/2010          $180,222        $580,222 Updated portfolio data from servicer                         $3,917        $4,461         $4,500           $12,878
             North Chicago, IL                       Home Loan
                                                     Modifications
                                                                                                                 1/6/2011                           $580,221 Updated portfolio data from servicer

                                                                                                                 3/30/2011                          $580,220 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011               ($8)       $580,212 Updated due to quarterly assessment and reallocation

                                                                                                                 12/30/2009      ($2,900,000)     $1,960,000 Updated portfolio data from servicer & HAFA initial cap

                                                                                                                 3/26/2010       ($1,600,000)       $360,000 Updated portfolio data from servicer
                                                     Financial
             Mortgage Clearing                       Instrument for
10/14/2009                                Purchase                               $4,860,000 N/A                  7/14/2010        ($260,000)        $100,000 Updated portfolio data from servicer                            $—            $—             $—                 $—
             Corporation, Tulsa, OK                  Home Loan
                                                     Modifications
                                                                                                                 9/30/2010           $45,056        $145,056 Updated portfolio data from servicer

                                                                                                                 3/9/2011         ($145,056)              $— Termination of SPA
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                                 1/22/2010           $20,000        $430,000 Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010          $400,000        $830,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010        ($430,000)        $400,000 Updated portfolio data from servicer
                                                     Financial
           United Bank Mortgage
                                                     Instrument for
10/21/2009 Corporation, Grand             Purchase                                 $410,000 N/A                  9/30/2010          $180,222        $580,222 Updated portfolio data from servicer                        $14,468      $30,509         $34,090           $79,067
                                                     Home Loan
           Rapids, MI
                                                     Modifications
                                                                                                                 1/6/2011                           $580,221 Updated portfolio data from servicer

                                                                                                                 3/30/2011                          $580,220 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011               ($5)       $580,215 Updated due to quarterly assessment and reallocation

                                                                                                                 1/22/2010        $4,370,000     $98,030,000 Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010       $23,880,000    $121,910,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010      ($16,610,000)   $105,300,000 Updated portfolio data from servicer
                                                     Financial
                                                                                                                 9/30/2010        $1,751,033    $107,051,033 Updated portfolio data from servicer
             Bank United, Miami                      Instrument for
10/23/2009                                Purchase                              $93,660,000 N/A                                                                                                                        $1,811,295   $6,337,502     $4,748,124       $12,896,921
             Lakes, FL                               Home Loan
                                                                                                                 1/6/2011               ($77)   $107,050,956 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 3/16/2011       ($9,900,000)    $97,150,956 Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011              ($88)    $97,150,868 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011             ($773)    $97,150,095 Updated due to quarterly assessment and reallocation

                                                                                                                 1/22/2010           $40,000        $800,000 Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010        ($760,000)         $40,000 Updated portfolio data from servicer

                                                                                                                 5/12/2010        $2,630,000      $2,670,000 Updated portfolio data from servicer
                                                     Financial
                                                                                                                 7/14/2010        ($770,000)      $1,900,000 Updated portfolio data from servicer
             IC Federal Credit Union,                Instrument for
10/23/2009                                Purchase                                 $760,000 N/A                                                                                                                           $4,667      $10,534         $12,000           $27,201
             Fitchburg, MA                           Home Loan
                                                                                                                 9/30/2010          $565,945      $2,465,945 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 1/6/2011                ($4)     $2,465,941 Updated portfolio data from servicer

                                                                                                                 3/30/2011               ($4)     $2,465,937 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011              ($40)     $2,465,897 Updated due to quarterly assessment and reallocation

                                                     Financial
           Harleysville National
                                                     Instrument for
10/28/2009 Bank & Trust Company,          Purchase                               $1,070,000 N/A                  4/21/2010       ($1,070,000)             $— Termination of SPA                                              $—            $—             $—                 $—
                                                     Home Loan
           Harleysville, PA
                                                     Modifications
                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                     (CONTINUED)

             Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                          TARP Incentive Payments
                                                                      Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                         Lenders/                    Total Non-GSE
                                         Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments
                                                     Financial
           Members Mortgage
                                                     Instrument for
10/28/2009 Company, Inc, Woburn,          Purchase                                 $510,000 N/A                  4/21/2010        ($510,000)             $— Termination of SPA                                           $—            $—             $—                 $—
                                                     Home Loan
           MA
                                                     Modifications

                                                                                                                 1/22/2010           $10,000        $80,000 Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010           $10,000        $90,000 Updated portfolio data from servicer
                                                     Financial
             DuPage Credit Union,                    Instrument for
10/30/2009                                Purchase                                  $70,000 N/A                  7/14/2010           $10,000       $100,000 Updated portfolio data from servicer                      $1,000      $11,259          $3,500           $15,759
             Naperville, IL                          Home Loan
                                                     Modifications
                                                                                                                 9/30/2010           $45,056       $145,056 Updated portfolio data from servicer

                                                                                                                 6/29/2011                         $145,055 Updated due to quarterly assessment and reallocation

                                                                                                                 1/22/2010           $40,000       $740,000 Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010           $50,000       $790,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010        $1,310,000     $2,100,000 Updated portfolio data from servicer
                                                     Financial
             Los Alamos National                     Instrument for
11/6/2009                                 Purchase                                 $700,000 N/A                  9/30/2010           $75,834     $2,175,834 Updated portfolio data from servicer                      $3,538        $5,572        $12,793           $21,903
             Bank, Los Alamos, NM                    Home Loan
                                                     Modifications
                                                                                                                 1/6/2011                ($3)    $2,175,831 Updated portfolio data from servicer

                                                                                                                 3/30/2011               ($4)    $2,175,827 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011              ($35)    $2,175,792 Updated due to quarterly assessment and reallocation

                                                                                                                 1/22/2010         $890,000     $19,850,000 Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010        $3,840,000    $23,690,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010       ($2,890,000)   $20,800,000 Updated portfolio data from servicer

                                                                                                                 9/30/2010        $9,661,676    $30,461,676 Updated portfolio data from servicer

                                                                                                                 1/6/2011               ($46)   $30,461,630 Updated portfolio data from servicer

                                                                                                                 1/13/2011        $1,600,000    $32,061,630 Transfer of cap due to servicing transfer

                                                                                                                 2/16/2011        $1,400,000    $33,461,630 Transfer of cap due to servicing transfer
                                                     Financial
             Quantum Servicing                       Instrument for
11/18/2009                                Purchase                              $18,960,000 N/A                  3/30/2011              ($58)   $33,461,572 Updated due to quarterly assessment and reallocation         $—         $1,046         $2,000            $3,046
             Corporation, Tampa, FL                  Home Loan
                                                     Modifications
                                                                                                                 4/13/2011         $100,000     $33,561,572 Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011         $100,000     $33,661,572 Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011         $800,000     $34,461,572 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011             ($559)   $34,461,013 Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011         $300,000     $34,761,013 Transfer of cap due to servicing transfer

                                                                                                                 8/16/2011         $200,000     $34,961,013 Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011         $100,000     $35,061,013 Transfer of cap due to servicing transfer

                                                                                                                 1/22/2010           $80,000     $1,750,000 Updated HPDP cap & HAFA initial cap

                                                                                                                 3/26/2010         $330,000      $2,080,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010       ($1,080,000)    $1,000,000 Updated portfolio data from servicer
                                                     Financial
             Hillsdale County National               Instrument for
11/18/2009                                Purchase                               $1,670,000 N/A                  9/30/2010         $160,445      $1,160,445 Updated portfolio data from servicer                      $8,976      $11,896         $25,705           $46,577
             Bank, Hillsdale, MI                     Home Loan
                                                     Modifications
                                                                                                                 1/6/2011                        $1,160,444 Updated portfolio data from servicer

                                                                                                                 3/30/2011               ($2)    $1,160,442 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                                 6/29/2011              ($16)    $1,160,426 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                277
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)                                                                                                                                                                               278

             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                                 TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                Lenders/                    Total Non-GSE
                                      Transaction Investment        Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                              Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution      Type        Description       Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                         Incentive    Incentives     Incentives        Payments

                                                                                                               1/22/2010               $—         $20,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010          ($10,000)       $10,000 Updated portfolio data from servicer
                                                   Financial
             QLending, Inc.,                       Instrument for
11/18/2009                             Purchase                                   $20,000 N/A                  7/14/2010           $90,000       $100,000 Updated portfolio data from servicer                                $—            $—             $—                 $—
             Coral Gable, FL                       Home Loan
                                                   Modifications
                                                                                                               9/30/2010           $45,056       $145,056 Updated portfolio data from servicer

                                                                                                               6/29/2011                         $145,055 Updated due to quarterly assessment and reallocation

                                                                                                               1/22/2010          $950,000    $21,310,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010      ($17,880,000)    $3,430,000 Updated portfolio data from servicer

                                                                                                                                                             Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                               6/16/2010        $1,030,000     $4,460,000
                                                                                                                                                             transfer

                                                                                                               7/14/2010       ($1,160,000)    $3,300,000 Updated portfolio data from servicer

                                                                                                               8/13/2010          $800,000     $4,100,000 Transfer of cap due to servicing transfer

                                                                                                               9/30/2010          $200,000     $4,300,000 Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                                                                                                                                                                                     APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                               9/30/2010        $1,357,168     $5,657,168 Updated portfolio data from servicer
                                                   Financial
             Marix Servicing, LLC,                 Instrument for                                              1/6/2011                        $5,657,167 Updated portfolio data from servicer
11/25/2009                             Purchase                               $20,360,000 N/A                                                                                                                            $206,094     $568,526        $565,892        $1,340,512
             Phoenix, AZ                           Home Loan
                                                   Modifications                                               3/16/2011        $5,700,000    $11,357,167 Transfer of cap due to servicing transfer

                                                                                                               3/30/2011               ($6)   $11,357,161 Updated due to quarterly assessment and reallocation

                                                                                                               4/13/2011        $7,300,000    $18,657,161 Transfer of cap due to servicing transfer

                                                                                                               5/13/2011          $300,000    $18,957,161 Transfer of cap due to servicing transfer

                                                                                                               6/16/2011          $900,000    $19,857,161 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011             ($154)   $19,857,007 Updated due to quarterly assessment and reallocation

                                                                                                               7/14/2011          $100,000    $19,957,007 Transfer of cap due to servicing transfer

                                                                                                               8/16/2011          $300,000    $20,257,007 Transfer of cap due to servicing transfer

                                                   Financial
             Home Financing Center,                Instrument for
11/25/2009                             Purchase                                  $230,000 N/A                  4/21/2010        ($230,000)             $— Termination of SPA                                                  $—            $—             $—                 $—
             Inc, Coral Gables, FL                 Home Loan
                                                   Modifications

                                                                                                               1/22/2010           $50,000     $1,330,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010        $1,020,000     $2,350,000 Updated portfolio data from servicer

                                                                                                               7/14/2010        ($950,000)     $1,400,000 Updated portfolio data from servicer

                                                                                                               9/30/2010           $50,556     $1,450,556 Updated portfolio data from servicer
                                                   Financial
             First Keystone Bank,                  Instrument for
11/25/2009                             Purchase                                $1,280,000 N/A             12   1/6/2011                ($2)    $1,450,554 Updated portfolio data from servicer                             $2,776        $3,423         $8,718           $14,917
             Media, PA                             Home Loan
                                                   Modifications
                                                                                                               3/30/2011               ($2)    $1,450,552 Updated due to quarterly assessment and reallocation

                                                                                                               6/16/2011        ($100,000)     $1,350,552 Transfer of cap due to servicing transfer

                                                                                                               6/29/2011              ($21)    $1,350,531 Updated due to quarterly assessment and reallocation

                                                                                                               7/22/2011       ($1,335,614)       $14,917 Termination of SPA

                                                                                                               1/22/2010           $10,000       $390,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010          $520,000       $910,000 Updated portfolio data from servicer
                                                   Financial
             Community Bank & Trust
                                                   Instrument for
12/4/2009    Company,                  Purchase                                  $380,000 N/A                  7/14/2010        ($810,000)       $100,000 Updated portfolio data from servicer                                $—            $—             $—                 $—
                                                   Home Loan
             Clarks Summit, PA
                                                   Modifications
                                                                                                               9/30/2010           $45,056       $145,056 Updated portfolio data from servicer

                                                                                                               6/29/2011                         $145,055 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                           Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                          TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                         Lenders/                    Total Non-GSE
                                       Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                                                                               1/22/2010          $440,000     $9,870,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010       $14,480,000    $24,350,000 Updated portfolio data from servicer
                                                   Financial
            Idaho Housing and                                                                                  5/26/2010      ($24,200,000)      $150,000 Updated portfolio data from servicer
                                                   Instrument for
12/4/2009   Finance Association,        Purchase                               $9,430,000 N/A                                                                                                                       $5,844        $4,369         $8,844           $19,057
                                                   Home Loan
            Boise, ID                                                                                          7/14/2010          $150,000       $300,000 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               9/30/2010           ($9,889)      $290,111 Updated portfolio data from servicer

                                                                                                               6/29/2011               ($3)      $290,108 Updated due to quarterly assessment and reallocation

                                                                                                               1/22/2010           $10,000       $370,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010          $850,000     $1,220,000 Updated portfolio data from servicer

                                                                                                               7/14/2010        ($120,000)     $1,100,000 Updated portfolio data from servicer
                                                   Financial
            Spirit of Alaska Federal
                                                   Instrument for
12/9/2009   Credit Union,               Purchase                                 $360,000 N/A                  9/30/2010          $100,000     $1,200,000 Initial FHA-HAMP cap                                         $—            $—             $—                 $—
                                                   Home Loan
            Fairbanks, AK
                                                   Modifications
                                                                                                               9/30/2010          $105,500     $1,305,500 Updated portfolio data from servicer

                                                                                                               1/6/2011                ($2)    $1,305,498 Updated portfolio data from servicer

                                                                                                               2/17/2011       ($1,305,498)            $— Termination of SPA

                                                                                                               1/22/2010           $70,000     $1,660,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010        ($290,000)     $1,370,000 Updated portfolio data from servicer

                                                                                                               7/14/2010        ($570,000)       $800,000 Updated portfolio data from servicer
                                                   Financial
            American Eagle Federal
                                                   Instrument for
12/9/2009   Credit Union,               Purchase                               $1,590,000 N/A                  9/30/2010           $70,334       $870,334 Updated portfolio data from servicer                         $—            $—             $—                 $—
                                                   Home Loan
            East Hartford, CT
                                                   Modifications
                                                                                                               1/6/2011                          $870,333 Updated portfolio data from servicer

                                                                                                               3/30/2011                         $870,332 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($13)      $870,319 Updated due to quarterly assessment and reallocation

                                                                                                               1/22/2010           $90,000     $1,970,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010        $1,110,000     $3,080,000 Updated portfolio data from servicer

                                                                                                               7/14/2010       ($1,180,000)    $1,900,000 Updated portfolio data from servicer
                                                   Financial
            Silver State Schools
                                                   Instrument for
12/9/2009   Credit Union,               Purchase                               $1,880,000 N/A                  9/30/2010          $275,834     $2,175,834 Updated portfolio data from servicer                     $12,678      $70,927         $39,845          $123,450
                                                   Home Loan
            Las Vegas, NV
                                                   Modifications
                                                                                                               1/6/2011                ($2)    $2,175,832 Updated portfolio data from servicer

                                                                                                               3/30/2011               ($3)    $2,175,829 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($26)    $2,175,803 Updated due to quarterly assessment and reallocation

                                                                                                               1/22/2010          $140,000     $3,080,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010        $6,300,000     $9,380,000 Updated portfolio data from servicer

                                                                                                               7/14/2010       ($1,980,000)    $7,400,000 Updated portfolio data from servicer
                                                   Financial
            Fidelity Homestead
                                                   Instrument for
12/9/2009   Savings Bank,               Purchase                               $2,940,000 N/A                  9/30/2010       ($6,384,611)    $1,015,389 Updated portfolio data from servicer                         $—            $—             $—                 $—
                                                   Home Loan
            New Orleans, LA
                                                   Modifications
                                                                                                               1/6/2011                        $1,015,388 Updated portfolio data from servicer

                                                                                                               3/30/2011               ($2)    $1,015,386 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($16)    $1,015,370 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                              279
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)                                                                                                                                                                        280

             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                          TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                         Lenders/                    Total Non-GSE
                                      Transaction Investment        Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution      Type        Description       Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                                                                               1/22/2010           $10,000       $240,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010         $440,000        $680,000 Updated portfolio data from servicer
                                                   Financial
             Bay Gulf Credit Union,                Instrument for
12/9/2009                              Purchase                                  $230,000 N/A                  7/14/2010          ($80,000)      $600,000 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Tampa, FL                             Home Loan
                                                   Modifications
                                                                                                               9/30/2010          ($19,778)      $580,222 Updated portfolio data from servicer

                                                                                                               10/15/2010       ($580,222)            $— Termination of SPA

                                                                                                               1/22/2010         $290,000      $6,450,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010           $40,000     $6,490,000 Updated portfolio data from servicer

                                                                                                               7/14/2010       ($2,890,000)    $3,600,000 Updated portfolio data from servicer
                                                   Financial
             The Golden 1 Credit                   Instrument for
12/9/2009                              Purchase                                $6,160,000 N/A                  9/30/2010         $606,612      $4,206,612 Updated portfolio data from servicer                     $52,902     $230,597        $173,569          $457,067
             Union, Sacramento, CA                 Home Loan
                                                   Modifications
                                                                                                               1/6/2011                ($4)    $4,206,608 Updated portfolio data from servicer

                                                                                                               3/30/2011               ($4)    $4,206,604 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($35)    $4,206,569 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                               1/22/2010         $100,000      $2,350,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010        ($740,000)     $1,610,000 Updated portfolio data from servicer

                                                                                                               7/14/2010        ($710,000)       $900,000 Updated portfolio data from servicer
                                                   Financial
             Sterling Savings Bank,                Instrument for
12/9/2009                              Purchase                                $2,250,000 N/A                  9/30/2010         $550,556      $1,450,556 Updated portfolio data from servicer                     $23,451      $61,094         $72,117          $156,662
             Spokane, WA                           Home Loan
                                                   Modifications
                                                                                                               1/6/2011                        $1,450,555 Updated portfolio data from servicer

                                                                                                               3/30/2011                       $1,450,554 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($11)    $1,450,543 Updated due to quarterly assessment and reallocation

                                                                                                               1/22/2010           $20,000       $330,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010         $820,000      $1,150,000 Updated portfolio data from servicer

                                                                                                               7/14/2010        ($350,000)       $800,000 Updated portfolio data from servicer
                                                   Financial
           HomeStar Bank &
                                                   Instrument for
12/11/2009 Financial Services,         Purchase                                  $310,000 N/A                  9/30/2010           $70,334       $870,334 Updated portfolio data from servicer                      $1,333        $3,586         $4,833            $9,752
                                                   Home Loan
           Manteo, IL
                                                   Modifications
                                                                                                               1/6/2011                          $870,333 Updated portfolio data from servicer

                                                                                                               3/30/2011                         $870,332 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($13)      $870,319 Updated due to quarterly assessment and reallocation

                                                                                                               1/22/2010           $20,000       $390,000 Updated HPDP cap & HAFA initial cap
                                                   Financial
             Glenview State Bank,                  Instrument for
12/11/2009                             Purchase                                  $370,000 N/A                  3/26/2010        $1,250,000     $1,640,000 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Glenview, IL                          Home Loan
                                                   Modifications
                                                                                                               5/26/2010       ($1,640,000)           $— Termination of SPA

                                                                                                               1/22/2010           $30,000       $630,000 Updated HPDP cap & HAFA initial cap

                                                                                                               3/26/2010         $400,000      $1,030,000 Updated portfolio data from servicer
                                                   Financial
                                                                                                               7/14/2010        ($330,000)       $700,000 Updated portfolio data from servicer
             Verity Credit Union,                  Instrument for
12/11/2009                             Purchase                                  $600,000 N/A                                                                                                                          $—            $—             $—                 $—
             Seattle, WA                           Home Loan
                                                                                                               9/30/2010           $25,278       $725,278 Updated portfolio data from servicer
                                                   Modifications
                                                                                                               1/6/2011                          $725,277 Updated portfolio data from servicer

                                                                                                               2/17/2011        ($725,277)            $— Termination of SPA

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)

             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                          TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                         Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                                                                                1/22/2010           $30,000       $660,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010         $800,000      $1,460,000 Updated portfolio data from servicer

                                                                                                                7/14/2010        ($360,000)     $1,100,000 Updated portfolio data from servicer
                                                    Financial
             Hartford Savings Bank,                 Instrument for
12/11/2009                               Purchase                                 $630,000 N/A                  9/30/2010           $60,445     $1,160,445 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Hartford, WI                           Home Loan
                                                    Modifications
                                                                                                                1/6/2011                ($2)    $1,160,443 Updated portfolio data from servicer

                                                                                                                3/30/2011               ($2)    $1,160,441 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($18)    $1,160,423 Updated due to quarterly assessment and reallocation

                                                    Financial                                                   4/21/2010        ($150,000)             $— Termination of SPA
             The Bryn Mawr Trust Co.,               Instrument for
12/11/2009                               Purchase                                 $150,000 N/A              9                                                                                                        $3,718        $4,543         $3,718           $11,979
             Bryn Mawr, PA                          Home Loan
                                                                                                                6/16/2011         $100,000        $100,000 Transfer of cap due to servicing transfer
                                                    Modifications

                                                                                                                1/22/2010           $30,000       $650,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010        ($580,000)        $70,000 Updated portfolio data from servicer

                                                                                                                7/14/2010        $1,430,000     $1,500,000 Updated portfolio data from servicer
                                                    Financial
             Citizens 1st National                  Instrument for
12/16/2009                               Purchase                                 $620,000 N/A                  9/30/2010           $95,612     $1,595,612 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Bank, Spring Valley, IL                Home Loan
                                                    Modifications
                                                                                                                1/6/2011                ($2)    $1,595,610 Updated portfolio data from servicer

                                                                                                                3/30/2011               ($3)    $1,595,607 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($24)    $1,595,583 Updated due to quarterly assessment and reallocation

                                                                                                                1/22/2010           $10,000       $180,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010           $30,000       $210,000 Updated portfolio data from servicer
                                                    Financial
             Golden Plains Credit                   Instrument for
12/16/2009                               Purchase                                 $170,000 N/A                  7/14/2010          ($10,000)      $200,000 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Union, Garden City, KS                 Home Loan
                                                    Modifications
                                                                                                                9/30/2010           $90,111       $290,111 Updated portfolio data from servicer

                                                                                                                2/17/2011        ($290,111)             $— Termination of SPA

                                                    Financial                                                   1/22/2010         $160,000      $3,620,000 Updated HPDP cap & HAFA initial cap
           First Federal Savings
                                                    Instrument for
12/16/2009 and Loan Association of       Purchase                               $3,460,000 N/A                                                                                                                          $—            $—             $—                 $—
                                                    Home Loan
           Lakewood, Lakewood, OH                                                                               4/21/2010       ($3,620,000)            $— Termination of SPA
                                                    Modifications

                                                                                                                1/22/2010           $20,000       $460,000 Updated HPDP cap & HAFA initial cap
                                                    Financial
                                                                                                                3/26/2010        $1,430,000     $1,890,000 Updated portfolio data from servicer
             Sound Community Bank,                  Instrument for
12/16/2009                               Purchase                                 $440,000 N/A                                                                                                                          $—            $—             $—                 $—
             Seattle, WA                            Home Loan
                                                                                                                7/14/2010        ($390,000)     $1,500,000 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                9/8/2010        ($1,500,000)            $— Termination of SPA

                                                                                                                1/22/2010           $30,000       $730,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010        $1,740,000     $2,470,000 Updated portfolio data from servicer

                                                                                                                7/14/2010       ($1,870,000)      $600,000 Updated portfolio data from servicer
                                                    Financial
             Horizon Bank, NA,                      Instrument for
12/16/2009                               Purchase                                 $700,000 N/A                  9/30/2010         $850,556      $1,450,556 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Michigan City, IN                      Home Loan
                                                    Modifications
                                                                                                                1/6/2011                ($2)    $1,450,554 Updated portfolio data from servicer

                                                                                                                3/30/2011               ($2)    $1,450,552 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($23)    $1,450,529 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                                               281
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)                                                                                                                                                                        282

             Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                          TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                         Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                                                                                1/22/2010           $40,000       $800,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010         $140,000        $940,000 Updated portfolio data from servicer

                                                                                                                7/14/2010        ($140,000)       $800,000 Updated portfolio data from servicer
                                                    Financial
             Park View Federal                      Instrument for
12/16/2009                               Purchase                                 $760,000 N/A                  9/30/2010           $70,334       $870,334 Updated portfolio data from servicer                      $5,000      $16,545         $13,000           $34,545
             Savings Bank, Solon, OH                Home Loan
                                                    Modifications
                                                                                                                1/6/2011                          $870,333 Updated portfolio data from servicer

                                                                                                                3/30/2011                         $870,332 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($12)      $870,320 Updated due to quarterly assessment and reallocation

                                                                                                                1/22/2010         $200,000      $4,430,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010       ($1,470,000)    $2,960,000 Updated portfolio data from servicer

                                                                                                                7/14/2010       ($1,560,000)    $1,400,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                9/30/2010        $5,852,780     $7,252,780 Updated portfolio data from servicer
                                                    Instrument for
12/23/2009 Iberiabank, Sarasota, FL      Purchase                               $4,230,000 N/A             12                                                                                                           $—       $10,502         $15,000           $25,502
                                                    Home Loan
                                                                                                                1/6/2011               ($11)    $7,252,769 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                                3/30/2011              ($13)    $7,252,756 Updated due to quarterly assessment and reallocation

                                                                                                                4/13/2011        ($300,000)     $6,952,756 Transfer of cap due to servicing transfer

                                                                                                                6/3/2011        ($6,927,254)       $25,502 Termination of SPA

                                                                                                                1/22/2010           $20,000       $360,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010        ($320,000)        $40,000 Updated portfolio data from servicer

                                                                                                                7/14/2010         $760,000        $800,000 Updated portfolio data from servicer
                                                    Financial
             Grafton Suburban Credit                Instrument for
12/23/2009                               Purchase                                 $340,000 N/A                  9/30/2010          ($74,722)      $725,278 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Union, North Grafton, MA               Home Loan
                                                    Modifications
                                                                                                                1/6/2011                          $725,277 Updated portfolio data from servicer

                                                                                                                3/30/2011                         $725,276 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011              ($11)      $725,265 Updated due to quarterly assessment and reallocation

                                                                                                                1/22/2010               $—         $60,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010           $90,000       $150,000 Updated portfolio data from servicer
                                                    Financial
           Eaton National Bank
                                                    Instrument for
12/23/2009 & Trust Company,              Purchase                                  $60,000 N/A                  7/14/2010           $50,000       $200,000 Updated portfolio data from servicer                         $—            $—             $—                 $—
                                                    Home Loan
           Eaton, OH
                                                    Modifications
                                                                                                                9/30/2010          ($54,944)      $145,056 Updated portfolio data from servicer

                                                                                                                5/20/2011        ($145,056)             $— Termination of SPA

                                                                                                                1/22/2010               $—        $110,000 Updated HPDP cap & HAFA initial cap

                                                                                                                3/26/2010          ($20,000)       $90,000 Updated portfolio data from servicer
                                                    Financial
             Tempe Schools Credit                   Instrument for
12/23/2009                               Purchase                                 $110,000 N/A                  7/14/2010           $10,000       $100,000 Updated portfolio data from servicer                         $—            $—             $—                 $—
             Union, Tempe, AZ                       Home Loan
                                                    Modifications
                                                                                                                9/30/2010           $45,056       $145,056 Updated portfolio data from servicer

                                                                                                                12/8/2010        ($145,056)             $— Termination of SPA

                                                                                                                3/26/2010         $480,000        $740,000 Updated portfolio data from servicer

                                                                                                                7/14/2010        ($140,000)       $600,000 Updated portfolio data from servicer
                                                    Financial
                                                                                                                9/30/2010          ($19,778)      $580,222 Updated portfolio data from servicer
             Fresno County Federal                  Instrument for
1/13/2010                                Purchase                                 $260,000 N/A                                                                                                                       $1,000        $6,666         $5,000           $12,666
             Credit Union, Fresno, CA               Home Loan
                                                                                                                1/6/2011                          $580,221 Updated portfolio data from servicer
                                                    Modifications
                                                                                                                3/30/2011                         $580,220 Updated due to quarterly assessment and reallocation

                                                                                                                6/29/2011               ($8)      $580,212 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                     (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                                 TARP Incentive Payments
                                                                      Cap of Incentive
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                                Lenders/                    Total Non-GSE
                                         Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                              Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution          Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                         Incentive    Incentives     Incentives        Payments

                                                                                                                 3/26/2010          $610,000       $850,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010           $50,000       $900,000 Updated portfolio data from servicer
                                                     Financial
            Roebling Bank, Roebling,                 Instrument for
1/13/2010                                 Purchase                                 $240,000 N/A                  9/30/2010          ($29,666)      $870,334 Updated portfolio data from servicer                                $—            $—             $—                 $—
            NJ                                       Home Loan
                                                     Modifications
                                                                                                                 1/6/2011                          $870,333 Updated portfolio data from servicer

                                                                                                                 3/23/2011        ($870,333)             $—    Termination of SPA

                                                                                                                 3/26/2010          $150,000       $290,000 Updated portfolio data from servicer
                                                     Financial
                                                                                                                 7/14/2010           $10,000       $300,000 Updated portfolio data from servicer
            First National Bank of                   Instrument for
1/13/2010                                 Purchase                                 $140,000 N/A                                                                                                                                 $—            $—             $—                 $—
            Grant Park, Grant Park, IL               Home Loan
                                                                                                                 9/30/2010           ($9,889)      $290,111 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 1/26/2011        ($290,111)             $— Termination of SPA

                                                                                                                 3/26/2010      ($51,240,000)   $12,910,000 Updated portfolio data from servicer

                                                                                                                                                               Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                 5/14/2010        $3,000,000    $15,910,000
                                                                                                                                                               transfer
                                                                                                                                                               Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                 6/16/2010        $4,860,000    $20,770,000
                                                                                                                                                               transfer

                                                                                                                 7/14/2010        $3,630,000    $24,400,000 Updated portfolio data from servicer

                                                                                                                                                               Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                 7/16/2010          $330,000    $24,730,000
                                                                                                                                                               transfer

                                                                                                                 8/13/2010          $700,000    $25,430,000 Transfer of cap due to servicing transfer

                                                                                                                 9/15/2010          $200,000    $25,630,000 Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010       ($1,695,826)   $23,934,174 Updated portfolio data from servicer
                                                     Financial
            Specialized Loan                                                                                     11/16/2010         $200,000    $24,134,174 Transfer of cap due to servicing transfer
                                                     Instrument for
1/13/2010   Servicing, LLC, Highlands     Purchase                              $64,150,000 N/A                                                                                                                            $349,720    $1,100,142       $896,540        $2,346,402
                                                     Home Loan
            Ranch, CO                                                                                            1/6/2011               ($32)   $24,134,142 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 1/13/2011        $1,500,000    $25,634,142 Transfer of cap due to servicing transfer

                                                                                                                 3/16/2011        $7,100,000    $32,734,142 Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011              ($36)   $32,734,106 Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011        $1,000,000    $33,734,106 Transfer of cap due to servicing transfer

                                                                                                                 5/13/2011          $100,000    $33,834,106 Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011          $300,000    $34,134,106 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011             ($332)   $34,133,774 Updated due to quarterly assessment and reallocation

                                                                                                                 8/16/2011          $100,000    $34,233,774 Transfer of cap due to servicing transfer

                                                                                                                 9/15/2011          $300,000    $34,533,774 Transfer of cap due to servicing transfer

                                                                                                                 3/26/2010        $8,680,000     $9,450,000 Updated portfolio data from servicer

                                                                                                                 7/14/2010       ($8,750,000)      $700,000 Updated portfolio data from servicer
                                                     Financial
                                                                                                                 9/30/2010          $170,334       $870,334 Updated portfolio data from servicer
            Greater Nevada Mortgage                  Instrument for
1/13/2010                                 Purchase                                 $770,000 N/A                                                                                                                             $17,417      $46,557         $41,750          $105,723
            Services, Carson City, NV                Home Loan
                                                                                                                 1/6/2011                          $870,333 Updated portfolio data from servicer
                                                     Modifications
                                                                                                                 3/30/2011                         $870,332 Updated due to quarterly assessment and reallocation

                                                                                                                 6/29/2011               ($8)      $870,324 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                     Financial                                                   3/26/2010       $12,190,000    $15,240,000 Updated portfolio data from servicer
            Digital Federal Credit                   Instrument for
1/15/2010                                 Purchase                               $3,050,000 N/A                                                                                                                                 $—            $—             $—                 $—
            Union, Marlborough, MA                   Home Loan
                                                                                                                 5/14/2010      ($15,240,000)            $— Termination of SPA
                                                     Modifications

                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                       283
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)                                                                                                                                                                        284

            Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                          TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                         Lenders/                    Total Non-GSE
                                       Transaction Investment       Servicers & Lenders/      Pricing          Adjustment   Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution        Type        Description      Investors (Cap) 1         Mechanism   Note Date                Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                                                                               3/26/2010        ($730,000)       $230,000 Updated portfolio data from servicer

                                                                                                               7/14/2010          $370,000       $600,000 Updated portfolio data from servicer

                                                                                                               9/30/2010          $200,000       $800,000 Initial FHA-HAMP cap and initial 2MP cap
                                                   Financial
            iServe Residential                                                                                 9/30/2010        ($364,833)       $435,167 Updated portfolio data from servicer
                                                   Instrument for
1/29/2010   Lending, LLC, San           Purchase                                 $960,000 N/A                                                                                                                          $—            $—             $—                 $—
                                                   Home Loan
            Diego, CA                                                                                          11/16/2010         $100,000       $535,167 Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                               1/6/2011                          $535,166 Updated portfolio data from servicer

                                                                                                               3/30/2011                         $535,165 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011               ($7)      $535,158 Updated due to quarterly assessment and reallocation

                                                                                                               3/26/2010          $160,000       $700,000 Updated portfolio data from servicer

                                                                                                               9/30/2010           $25,278       $725,278 Updated portfolio data from servicer
                                                   Financial
                                                   Instrument for
1/29/2010   United Bank, Griffin, GA    Purchase                                 $540,000 N/A                  1/6/2011                          $725,277 Updated portfolio data from servicer                         $—           $131         $1,000            $1,131
                                                   Home Loan
                                                   Modifications
                                                                                                               3/30/2011                         $725,276 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                               6/29/2011              ($11)      $725,265 Updated due to quarterly assessment and reallocation

                                                   Financial                                                   7/14/2010        $4,440,000     $5,500,000 Updated portfolio data from servicer
            Urban Trust Bank, Lake                 Instrument for
3/3/2010                                Purchase                               $1,060,000 N/A                                                                                                                          $—            $—             $—                 $—
            Mary, FL                               Home Loan
                                                                                                               9/24/2010       ($5,500,000)            $— Termination of SPA
                                                   Modifications

                                                                                                               5/26/2010          $120,000    $28,160,000 Initial 2MP cap

                                                                                                               7/14/2010      ($12,660,000)   $15,500,000 Updated portfolio data from servicer

                                                                                                               9/30/2010          $100,000    $15,600,000 Initial FHA-HAMP cap
                                                   Financial
                                                                                                               9/30/2010       ($3,125,218)   $12,474,782 Updated portfolio data from servicer
            iServe Servicing, Inc.,                Instrument for
3/5/2010                                Purchase                              $28,040,000 N/A                                                                                                                          $—            $—             $—                 $—
            Irving, TX                             Home Loan
                                                                                                               11/16/2010         $800,000    $13,274,782 Transfer of cap due to servicing transfer
                                                   Modifications
                                                                                                               1/6/2011               ($20)   $13,274,762 Updated portfolio data from servicer

                                                                                                               3/30/2011              ($24)   $13,274,738 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011             ($221)   $13,274,517 Updated due to quarterly assessment and reallocation

                                                                                                               7/14/2010      ($44,880,000)   $15,900,000 Updated portfolio data from servicer

                                                                                                               9/30/2010        $1,071,505    $16,971,505 Updated portfolio data from servicer
                                                   Financial
            Navy Federal Credit                    Instrument for
3/10/2010                               Purchase                              $60,780,000 N/A                  1/6/2011               ($23)   $16,971,482 Updated portfolio data from servicer                     $25,833     $171,763        $161,333          $358,930
            Union, Vienna, VA                      Home Loan
                                                   Modifications
                                                                                                               3/30/2011              ($26)   $16,971,456 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011             ($238)   $16,971,218 Updated due to quarterly assessment and reallocation

                                                                                                               7/14/2010          $400,000       $700,000 Updated portfolio data from servicer

                                                                                                               9/30/2010           $25,278       $725,278 Updated portfolio data from servicer
                                                   Financial
            Vist Financial Corp,                   Instrument for
3/10/2010                               Purchase                                 $300,000 N/A                  1/6/2011                          $725,277 Updated portfolio data from servicer                         $—            $—             $—                 $—
            Wyomissing, PA                         Home Loan
                                                   Modifications
                                                                                                               3/30/2011                         $725,276 Updated due to quarterly assessment and reallocation

                                                                                                               6/29/2011              ($11)      $725,265 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                   (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                                 TARP Incentive Payments
                                                                    Cap of Incentive
                                                                    Payments on Behalf
                                                                    of Borrowers and to                                                                                                                                                  Lenders/                    Total Non-GSE
                                      Transaction Investment        Servicers & Lenders/      Pricing          Adjustment     Cap Adjustment                                                                              Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution       Type        Description       Investors (Cap) 1         Mechanism   Note Date                  Amount     Adjusted Cap Reason for Adjustment                                         Incentive    Incentives     Incentives        Payments

                                                                                                                 7/14/2010         $300,000        $600,000 Updated portfolio data from servicer

                                                                                                                 9/30/2010          ($19,778)      $580,222 Updated portfolio data from servicer
                                                   Financial
                                                                                                                 1/6/2011                          $580,221 Updated portfolio data from servicer
            Midwest Bank and Trust                 Instrument for
4/14/2010                              Purchase                                  $300,000 N/A                                                                                                                                   $—            $—             $—                 $—
            Co., Elmwood Park, IL                  Home Loan
                                                                                                                 3/30/2011                         $580,220 Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                 6/29/2011               ($8)      $580,212 Updated due to quarterly assessment and reallocation

                                                                                                                 7/14/2011        ($580,212)             $— Termination of SPA

                                                                                                                 7/14/2010        ($150,000)     $6,400,000 Updated portfolio data from servicer

                                                                                                                 9/15/2010        $1,600,000     $8,000,000 Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010       ($4,352,173)    $3,647,827 Updated portfolio data from servicer
                                                   Financial
            Wealthbridge Mortgage                  Instrument for
4/14/2010                              Purchase                                $6,550,000 N/A                    1/6/2011                ($5)    $3,647,822 Updated portfolio data from servicer                                $—            $—             $—                 $—
            Corp, Beaverton, OR                    Home Loan
                                                   Modifications
                                                                                                                 3/30/2011               ($6)    $3,647,816 Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011       ($3,000,000)      $647,816 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011               ($9)      $647,807 Updated due to quarterly assessment and reallocation

                                                                                                                 5/26/2010           $30,000        $40,000 Updated FHA-HAMP cap
                                                   Financial
            Aurora Financial Group,                Instrument for
5/21/2010                              Purchase                                   $10,000 N/A             4, 8   9/30/2010         $250,111        $290,111 Updated portfolio data from servicer                            $10,305           $—         $10,472           $20,778
            Inc., Marlton, NJ                      Home Loan
                                                   Modifications
                                                                                                                 6/29/2011           $59,889       $350,000 Updated due to quarterly assessment and reallocation

                                                                                                                                                               Transfer of cap from CitiMortgage, Inc. due to servicing
                                                                                                                 6/16/2010        $3,680,000     $3,680,000
                                                                                                                                                               transfer

                                                                                                                 8/13/2010        $3,300,000     $6,980,000 Transfer of cap due to servicing transfer

                                                                                                                 9/30/2010        $3,043,831    $10,023,831 Updated portfolio data from servicer

                                                                                                                 10/15/2010       $1,400,000    $11,423,831 Transfer of cap due to servicing transfer
                                                   Financial
            Selene Finance LP,                     Instrument for                                                1/6/2011               ($17)   $11,423,814 Updated portfolio data from servicer
6/16/2010                               Transfer                                       $— N/A              9                                                                                                                 $6,750      $17,188          $6,500           $30,438
            Houston, TX                            Home Loan
                                                   Modifications                                                 3/16/2011        $2,100,000    $13,523,814 Transfer of cap due to servicing transfer

                                                                                                                 3/30/2011              ($24)   $13,523,790 Updated due to quarterly assessment and reallocation

                                                                                                                 4/13/2011        $2,900,000    $16,423,790 Transfer of cap due to servicing transfer

                                                                                                                 6/16/2011        ($200,000)    $16,223,790 Transfer of cap due to servicing transfer

                                                                                                                 6/29/2011             ($273)   $16,223,517 Updated due to quarterly assessment and reallocation

                                                                                                                 9/30/2010        $1,585,945     $2,465,945 Updated portfolio data from servicer
                                                   Financial
            Suburban Mortgage                                                                                    1/6/2011                ($4)    $2,465,941 Updated portfolio data from servicer
                                                   Instrument for
8/4/2010    Company of New Mexico,     Purchase                                  $880,000 N/A                                                                                                                                   $—            $—             $—                 $—
                                                   Home Loan
            Albuquerque, NM                                                                                      3/30/2011               ($4)    $2,465,937 Updated due to quarterly assessment and reallocation
                                                   Modifications
                                                                                                                 6/29/2011              ($40)    $2,465,897 Updated due to quarterly assessment and reallocation

                                                                                                                 9/30/2010        $1,040,667     $1,740,667 Updated portfolio data from servicer

                                                                                                                 1/6/2011                ($2)    $1,740,665 Updated portfolio data from servicer
                                                   Financial
            Bramble Savings Bank,                  Instrument for
8/20/2010                              Purchase                                  $700,000 N/A                    3/30/2011               ($3)    $1,740,662 Updated due to quarterly assessment and reallocation                $—            $—             $—                 $—
            Cincinnati, OH                         Home Loan
                                                   Modifications
                                                                                                                 6/29/2011              ($28)    $1,740,634 Updated due to quarterly assessment and reallocation

                                                                                                                 8/10/2011       ($1,740,634)            $— Termination of SPA
                                                                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                       285
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                      (CONTINUED)                                                                                                                                                                         286

            Servicer Modifying Borrowers’ Loans                                                                                                       Adjustment Details                                                          TARP Incentive Payments
                                                                       Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                          Lenders/                    Total Non-GSE
                                          Transaction Investment       Servicers & Lenders/      Pricing          Adjustment    Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution           Type        Description      Investors (Cap) 1         Mechanism   Note Date                 Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                                                                                    9/30/2010       $2,181,334     $3,481,334 Updated portfolio data from servicer
                                                      Financial
                                                                                                                    1/6/2011               ($5)    $3,481,329 Updated portfolio data from servicer
            Pathfinder Bank,                          Instrument for
8/25/2010                                  Purchase                               $1,300,000 N/A                                                                                                                          $917        $1,155         $1,917            $3,988
            Oswego, NY                                Home Loan
                                                                                                                    3/30/2011              ($6)    $3,481,323 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                    6/29/2011             ($58)    $3,481,265 Updated due to quarterly assessment and reallocation

                                                                                                                    9/30/2010       $7,014,337    $11,314,337 Updated portfolio data from servicer
                                                      Financial
                                                                                                                    1/6/2011              ($17)   $11,314,320 Updated portfolio data from servicer
            First Financial Bank, N.A.,               Instrument for
8/27/2010                                  Purchase                               $4,300,000 N/A                                                                                                                           $—            $—             $—                 $—
            Terre Haute, ID                           Home Loan
                                                                                                                    3/30/2011             ($20)   $11,314,300 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                    6/29/2011            ($192)   $11,314,108 Updated due to quarterly assessment and reallocation

                                                                                                                    9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
                                                      Financial
                                                                                                                    1/6/2011           $34,944       $180,000 Updated portfolio data from servicer
            RBC Bank (USA),                           Instrument for
9/1/2010                                   Purchase                                 $100,000 N/A             4, 8                                                                                                      $15,578           $—         $15,662           $31,240
            Raleigh, NC                               Home Loan
                                                                                                                    3/30/2011          $40,000       $220,000 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                    6/29/2011          $50,000       $270,000 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                                    9/30/2010       $5,168,169     $8,268,169 Updated portfolio data from servicer

                                                                                                                    1/6/2011              ($12)    $8,268,157 Updated portfolio data from servicer
                                                      Financial
                                                                                                                    3/30/2011             ($15)    $8,268,142 Updated due to quarterly assessment and reallocation
            Fay Servicing, LLC,                       Instrument for
9/3/2010                                   Purchase                               $3,100,000 N/A                                                                                                                        $9,583      $20,502          $9,667           $39,752
            Chicago, IL                               Home Loan
                                                                                                                    4/13/2011        $400,000      $8,668,142 Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                    6/29/2011            ($143)    $8,667,999 Updated due to quarterly assessment and reallocation

                                                                                                                    9/15/2011        $700,000      $9,367,999 Transfer of cap due to servicing transfer

                                                                                                                    9/15/2010       $1,000,000     $1,000,000 Transfer of cap due to servicing transfer

                                                                                                                    9/30/2010        $450,556      $1,450,556 Updated portfolio data from servicer

                                                                                                                    1/6/2011               ($2)    $1,450,554 Updated portfolio data from servicer
                                                      Financial
                                                                                                                    2/16/2011       $3,000,000     $4,450,554 Transfer of cap due to servicing transfer
            Vericrest Financial, Inc.,                Instrument for
9/15/2010                                  Purchase                                       $— N/A              9                                                                                                        $32,136      $71,915         $60,719          $164,771
            Oklahoma City, OK                         Home Loan
                                                                                                                    3/16/2011      $10,200,000    $14,650,554 Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                    3/30/2011             ($24)   $14,650,530 Updated due to quarterly assessment and reallocation

                                                                                                                    6/29/2011            ($227)   $14,650,303 Updated due to quarterly assessment and reallocation

                                                                                                                    7/14/2011      $12,000,000    $26,650,303 Transfer of cap due to servicing transfer

                                                                                                                    9/30/2010        $180,222        $580,222 Updated portfolio data from servicer
                                                      Financial
                                                                                                                    1/6/2011                         $580,221 Updated portfolio data from servicer
            Midwest Community                         Instrument for
9/15/2010                                  Purchase                                 $400,000 N/A                                                                                                                           $—           $364         $1,000            $1,364
            Bank, Freeport, IL                        Home Loan
                                                                                                                    3/30/2011                        $580,220 Updated due to quarterly assessment and reallocation
                                                      Modifications
                                                                                                                    6/29/2011              ($8)      $580,212 Updated due to quarterly assessment and reallocation

                                                      Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
            American Finance House                    Instrument for
9/24/2010                                  Purchase                                 $100,000 N/A                                                                                                                           $—            $—             $—                 $—
            LARIBA, Pasadena, CA                      Home Loan
                                                                                                                    2/2/2011        ($145,056)             $—    Termination of SPA
                                                      Modifications

                                                                                                                    9/30/2010        $856,056      $2,756,056 Updated portfolio data from servicer
                                                      Financial
                                                      Instrument for
9/24/2010   Centrue Bank, Ottawa, IL       Purchase                               $1,900,000 N/A                    1/6/2011               ($4)    $2,756,052 Updated portfolio data from servicer                         $—            $—             $—                 $—
                                                      Home Loan
                                                      Modifications
                                                                                                                    3/9/2011       ($2,756,052)            $— Termination of SPA

                                                      Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                 Instrument for
9/30/2010                                  Purchase                                 $100,000 N/A                                                                                                                           $—            $—             $—                 $—
            Columbia, SC                              Home Loan
                                                                                                                    3/23/2011       ($145,056)             $— Termination of SPA
                                                      Modifications

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)

            Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                          TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                          Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment    Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                 Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments
                                                    Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
            Amarillo National Bank,                 Instrument for
9/30/2010                                Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Amarillo, TX                            Home Loan
                                                                                                                  6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications

            American Financial                      Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
9/30/2010   Resources Inc.,              Purchase   Instrument for                $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Parsippany, NJ                          Home Loan                                                     6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  9/30/2010        $765,945      $2,465,945 Updated portfolio data from servicer
                                                    Financial
                                                                                                                  1/6/2011               ($3)    $2,465,942 Updated portfolio data from servicer
            Banco Popular de Puerto                 Instrument for                                          4,
9/30/2010                                Purchase                               $1,700,000 N/A                                                                                                                           $—            $—             $—                 $—
            Rico, San Juan, PR                      Home Loan                                              5, 8
                                                                                                                  3/30/2011              ($4)    $2,465,938 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011             ($36)    $2,465,902 Updated due to quarterly assessment and reallocation

            Capital International                   Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
9/30/2010   Financial, Inc., Coral       Purchase   Instrument for                $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Gables, FL                              Home Loan                                                     6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  9/30/2010        $360,445      $1,160,445 Updated portfolio data from servicer
                                                    Financial
            Citizens Community Bank,                Instrument for
9/24/2010                                Purchase                                 $800,000 N/A                    1/6/2011               ($2)    $1,160,443 Updated portfolio data from servicer                         $—            $—             $—                 $—
            Freeburg, IL                            Home Loan
                                                    Modifications
                                                                                                                  3/23/2011      ($1,160,443)           $— Termination of SPA

                                                                                                                  9/30/2010        $901,112      $2,901,112 Updated portfolio data from servicer
                                                    Financial
                                                                                                                  1/6/2011               ($4)    $2,901,108 Updated portfolio data from servicer
            Community Credit Union                  Instrument for
9/30/2010                                Purchase                               $2,000,000 N/A              6                                                                                                            $—            $—             $—                 $—
            of Florida, Rockledge, FL               Home Loan
                                                                                                                  3/30/2011              ($5)    $2,901,103 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011             ($48)    $2,901,055 Updated due to quarterly assessment and reallocation

                                                    Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
            CU Mortgage Services,                   Instrument for
9/30/2010                                Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Inc., New Brighton, MN                  Home Loan
                                                                                                                  6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications

                                                    Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
            First Federal Bank of                   Instrument for
9/30/2010                                Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Florida, Lake City, FL                  Home Loan
                                                                                                                  6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications

                                                    Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
            First Mortgage
                                                    Instrument for
9/30/2010   Coporation, Diamond          Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
                                                    Home Loan
            Bar, CA                                                                                               6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications

                                                                                                                  9/30/2010        $180,222        $580,222 Updated portfolio data from servicer
                                                    Financial
            First Safety Bank,                      Instrument for
9/30/2010                                Purchase                                 $400,000 N/A                    1/6/2011                         $580,221 Updated portfolio data from servicer                         $—            $—             $—                 $—
            Cincinnati, OH                          Home Loan
                                                    Modifications
                                                                                                                  3/23/2011       ($580,221)            $— Termination of SPA

                                                                                                                  9/30/2010        $360,445      $1,160,445 Updated portfolio data from servicer
                                                    Financial
                                                                                                                  1/6/2011               ($2)    $1,160,443 Updated portfolio data from servicer
            Flagstar Capital Markets                Instrument for
9/30/2010                                Purchase                                 $800,000 N/A             7, 8                                                                                                          $—            $—             $—                 $—
            Corporation, Troy, MI                   Home Loan
                                                                                                                  3/30/2011              ($2)    $1,160,441 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011             ($18)    $1,160,423 Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010        $765,945      $2,465,945 Updated portfolio data from servicer
                                                    Financial
                                                                                                                  1/6/2011               ($4)    $2,465,941 Updated portfolio data from servicer
            Franklin Savings,                       Instrument for
9/30/2010                                Purchase                               $1,700,000 N/A              4                                                                                                            $—            $—             $—                 $—
            Cincinnati, OH                          Home Loan
                                                                                                                  3/30/2011              ($4)    $2,465,937 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




                                                                                                                  6/29/2011             ($40)    $2,465,897 Updated due to quarterly assessment and reallocation

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                287
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                    (CONTINUED)                                                                                                                                                                         288

            Servicer Modifying Borrowers’ Loans                                                                                                     Adjustment Details                                                          TARP Incentive Payments
                                                                     Cap of Incentive
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                          Lenders/                    Total Non-GSE
                                        Transaction Investment       Servicers & Lenders/      Pricing          Adjustment    Cap Adjustment                                                                       Borrower’s     Investors      Servicers          Incentive
Date        Name of Institution         Type        Description      Investors (Cap) 1         Mechanism   Note Date                 Amount     Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                    Financial                                                     9/30/2010         $45,056        $145,056 Updated portfolio data from servicer
            Gateway Mortgage                        Instrument for
9/30/2010                                Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Group, LLC, Tulsa, OK                   Home Loan
                                                                                                                  6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications

                                                    Financial                                                     9/30/2010         $45,056        $145,056 Updated portfolio data from servicer
            GFA Federal Credit Union,               Instrument for
9/30/2010                                Purchase                                 $100,000 N/A                                                                                                                           $—            $—             $—                 $—
            Gardner, MA                             Home Loan
                                                                                                                  3/23/2011       ($145,056)             $— Termination of SPA
                                                    Modifications

                                                    Financial                                                     9/30/2010         $45,056        $145,056 Updated portfolio data from servicer
            Guaranty Bank, Saint                    Instrument for
9/30/2010                                Purchase                                 $100,000 N/A             4, 8                                                                                                         $917           $—          $1,000            $1,917
            Paul, MN                                Home Loan
                                                                                                                  6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications

                                                                                                                  9/30/2010        $135,167        $435,167 Updated portfolio data from servicer
                                                    Financial
            James B. Nutter &                                                                                     1/6/2011                         $435,166 Updated portfolio data from servicer
                                                    Instrument for
9/24/2010   Company, Kansas              Purchase                                 $300,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
                                                    Home Loan
            City, MO                                                                                              3/30/2011                        $435,165 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011              ($6)      $435,159 Updated due to quarterly assessment and reallocation
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




                                                                                                                  9/30/2010        $450,556      $1,450,556 Updated portfolio data from servicer
                                                    Financial
                                                                                                                  1/6/2011               ($2)    $1,450,554 Updated portfolio data from servicer
            Liberty Bank and Trust                  Instrument for
9/30/2010                                Purchase                               $1,000,000 N/A                                                                                                                           $—            $—             $—                 $—
            Co, New Orleans, LA                     Home Loan
                                                                                                                  3/30/2011              ($2)    $1,450,552 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011             ($23)    $1,450,529 Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010        $315,389      $1,015,389 Updated portfolio data from servicer
                                                    Financial
                                                                                                                  1/6/2011                       $1,015,388 Updated portfolio data from servicer
                                                    Instrument for
9/30/2010   M&T Bank, Buffalo, NY        Purchase                                 $700,000 N/A             4, 8                                                                                                      $15,736           $—         $16,652           $32,388
                                                    Home Loan
                                                                                                                  3/30/2011                      $1,015,387 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011             ($11)    $1,015,376 Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010        $630,778      $2,030,778 Updated portfolio data from servicer
                                                    Financial
                                                                                                                  1/6/2011               ($3)    $2,030,775 Updated portfolio data from servicer
            Magna Bank,                             Instrument for
9/30/2010                                Purchase                               $1,400,000 N/A              5                                                                                                            $—            $—             $—                 $—
            Germantown, TN                          Home Loan
                                                                                                                  3/30/2011              ($3)    $2,030,772 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011             ($33)    $2,030,739 Updated due to quarterly assessment and reallocation

                                                                                                                  9/30/2010        $225,278        $725,278 Updated portfolio data from servicer
                                                    Financial
            Mainstreet Credit Union,                Instrument for
9/30/2010                                Purchase                                 $500,000 N/A                    1/6/2011                         $725,277 Updated portfolio data from servicer                         $—            $—             $—                 $—
            Lexena, KS                              Home Loan
                                                    Modifications
                                                                                                                  3/9/2011        ($725,277)             $— Termination of SPA

                                                    Financial                                                     9/30/2010         $45,056        $145,056 Updated portfolio data from servicer
            Marsh Associates, Inc.,                 Instrument for
9/30/2010                                Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Charlotte, NC                           Home Loan
                                                                                                                  6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications

                                                                                                                  9/30/2010      $49,915,806    $93,415,806 Updated portfolio data from servicer
                                                    Financial
            Midland Mortgage                                                                                      1/6/2011            ($125)    $93,415,681 Updated portfolio data from servicer
                                                    Instrument for
9/30/2010   Company, Oklahoma            Purchase                              $43,500,000 N/A             4, 5                                                                                                     $554,227      $19,239        $642,398        $1,215,864
                                                    Home Loan
            City, OK                                                                                              3/30/2011           ($139)    $93,415,542 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                  6/29/2011          ($1,223)   $93,414,319 Updated due to quarterly assessment and reallocation

                                                    Financial                                                     9/30/2010         $45,056        $145,056 Updated portfolio data from servicer
            Schmidt Mortgage
                                                    Instrument for
9/30/2010   Company, Rocky               Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
                                                    Home Loan
            River, OH                                                                                             6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                    Financial                                                     9/30/2010         $45,056        $145,056 Updated portfolio data from servicer
            Stockman Bank of                        Instrument for
9/30/2010                                Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
            Montana, Miles City, MT                 Home Loan
                                                                                                                  6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                    Modifications
                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                      (CONTINUED)

             Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                          TARP Incentive Payments
                                                                       Cap of Incentive
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                          Lenders/                    Total Non-GSE
                                          Transaction Investment       Servicers & Lenders/      Pricing          Adjustment     Cap Adjustment                                                                      Borrower’s     Investors      Servicers          Incentive
Date         Name of Institution          Type        Description      Investors (Cap) 1         Mechanism   Note Date                  Amount    Adjusted Cap Reason for Adjustment                                  Incentive    Incentives     Incentives        Payments

                                                                                                                    9/30/2010         $270,334       $870,334 Updated portfolio data from servicer
                                                      Financial
             University First Federal
                                                      Instrument for
9/30/2010    Credit Union, Salt Lake       Purchase                                 $600,000 N/A                    1/6/2011                         $870,333 Updated portfolio data from servicer                         $—            $—             $—                 $—
                                                      Home Loan
             City, UT
                                                      Modifications
                                                                                                                    2/17/2011        ($870,333)            $— Termination of SPA

                                                      Financial                                                     9/30/2010          $45,056       $145,056 Updated portfolio data from servicer
             Weststar Mortgage, Inc.,                 Instrument for
9/30/2010                                  Purchase                                 $100,000 N/A             4, 8                                                                                                          $—            $—             $—                 $—
             Woodbridge, VA                           Home Loan
                                                                                                                    6/29/2011                        $145,055 Updated due to quarterly assessment and reallocation
                                                      Modifications

                                                                                                                    12/15/2010       $5,000,000    $5,000,000 Updated portfolio data from servicer

                                                                                                                    1/6/2011               ($7)    $4,999,993 Updated portfolio data from servicer
                                                      Financial
                                                                                                                    2/16/2011         $500,000     $5,499,993 Transfer of cap due to servicing transfer
             Statebridge Company,                     Instrument for
12/15/2010                                 Purchase                                       $—     N/A          9                                                                                                            $—            $—             $—                 $—
             LLC, Denver, CO                          Home Loan
                                                                                                                    3/16/2011         $100,000     $5,599,993 Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                    3/30/2011              ($9)    $5,599,984 Updated due to quarterly assessment and reallocation

                                                                                                                    6/29/2011             ($85)    $5,599,899 Updated due to quarterly assessment and reallocation

                                                                                                                    12/15/2010       $4,300,000    $4,300,000 Updated portfolio data from servicer
                                                      Financial
             Scotiabank de Puerto                     Instrument for
12/15/2010                                 Purchase                                       $— N/A              9     1/6/2011               ($4)    $4,299,996 Updated portfolio data from servicer                     $76,351     $185,093        $103,013          $364,458
             Rico, San Juan, PR                       Home Loan
                                                      Modifications
                                                                                                                    6/29/2011              ($5)    $4,299,991 Updated due to quarterly assessment and reallocation

                                                                                                                    4/13/2011         $200,000       $200,000 Transfer of cap due to servicing transfer

                                                                                                                    5/13/2011         $100,000       $300,000 Transfer of cap due to servicing transfer
                                                      Financial
             AmTrust Bank, A Division
                                                      Instrument for
4/13/2011    of New York Community         Purchase                                       $— N/A              9     6/16/2011         $300,000       $600,000 Transfer of cap due to servicing transfer                 $1,000        $3,814         $1,000            $5,814
                                                      Home Loan
             Bank, Cleveland, OH
                                                      Modifications
                                                                                                                    6/29/2011              ($9)      $599,991 Updated due to quarterly assessment and reallocation

                                                                                                                    8/16/2011         $200,000       $799,991 Transfer of cap due to servicing transfer

                                                      Financial
             SunTrust Mortgage, Inc.,                 Instrument for
4/13/2011                                  Purchase                                       $— N/A              9     4/13/2011         $100,000       $100,000 Transfer of cap due to servicing transfer                    $—            $—             $—                 $—
             Rochmond, VA                             Home Loan
                                                      Modifications

                                                      Financial                                                     4/13/2011        $1,000,000    $1,000,000 Transfer of cap due to servicing transfer
             Urban Partnership Bank,                  Instrument for
4/13/2011                                  Purchase                                       $— N/A              9                                                                                                        $38,514      $73,272         $39,340          $151,126
             Chicago, IL                              Home Loan
                                                                                                                    6/29/2011         $233,268     $1,233,268 Updated due to quarterly assessment and reallocation
                                                      Modifications

                                                      Financial                                                     4/13/2011         $200,000       $200,000 Transfer of cap due to servicing transfer
             Western Federal Credit                   Instrument for
4/13/2011                                  Purchase                                       $— N/A              9                                                                                                         $2,583      $11,534          $6,000           $20,117
             Union, Hawthorne, CA                     Home Loan
                                                                                                                    6/29/2011          $17,687       $217,687 Updated due to quarterly assessment and reallocation
                                                      Modifications

                                                                                                                    5/13/2011         $500,000       $500,000 Transfer of cap due to servicing transfer

                                                                                                                    6/16/2011         $100,000       $600,000 Transfer of cap due to servicing transfer
                                                      Financial
             FCI Lender Services, Inc.,               Instrument for
5/13/2011                                  Purchase                                       $— N/A              9     6/29/2011              ($9)      $599,991 Updated due to quarterly assessment and reallocation         $—           $699            $—               $699
             Anaheim Hills, CA                        Home Loan
                                                      Modifications
                                                                                                                    7/14/2011         $200,000       $799,991 Transfer of cap due to servicing transfer

                                                                                                                    9/15/2011         $100,000       $899,991 Transfer of cap due to servicing transfer

                                                      Financial
             Gregory Funding, LLC,                    Instrument for
7/14/2011                                  Purchase                                       $— N/A              9     7/14/2011         $200,000       $200,000 Transfer of cap due to servicing transfer                    $—            $—             $—                 $—
             Beaverton, OR                            Home Loan
                                                      Modifications
                                                      Financial
             Bangor Savings Bank,                     Instrument for
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011




9/15/2011                                  Purchase                                       $— N/A              9     9/15/2011         $100,000       $100,000 Transfer of cap due to servicing transfer                    $—            $—             $—                 $—
             Bangor, ME                               Home Loan
                                                      Modifications
                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  289
HAMP TRANSACTION DETAIL, AS OF 9/30/2011                                                          (CONTINUED)                                                                                                                                                                                                                   290

             Servicer Modifying Borrowers’ Loans                                                                                                                           Adjustment Details                                                                              TARP Incentive Payments
                                                                           Cap of Incentive
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                                                               Lenders/                         Total Non-GSE
                                         Transaction Investment            Servicers & Lenders/      Pricing             Adjustment           Cap Adjustment                                                                                             Borrower’s          Investors          Servicers           Incentive
Date         Name of Institution         Type        Description           Investors (Cap) 1         Mechanism      Note Date                        Amount          Adjusted Cap Reason for Adjustment                                                   Incentive         Incentives         Incentives         Payments
                                                        Financial
             PHH Mortgage
                                                        Instrument for
9/15/2011    Corporation, Mt.              Purchase                                            $—     N/A               9   9/15/2011              $1,300,000          $1,300,000 Transfer of cap due to servicing transfer                                      $—                $—                 $—                 $—
                                                        Home Loan
             Laurel, NJ
                                                        Modifications
                                                           Total Initial
                                                                   Cap            $23,831,570,000                 Total Cap Adjustments      $6,052,054,458                                                                            Totals       $313,333,078       $788,044,922       $666,386,013 $1,767,764,013
                                                                                         Total Cap                                          $29,883,624,458
Notes: Numbers affected by rounding. Data as of 9/30/2011. Numbered notes are taken verbatim from from the Treasury’s 9/28/2011, Transactions Report-Housing Programs.

1
   The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors.
   The Cap is subject to adjustment based on the total amount allocated to the program and individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
   On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
   Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
   Initial cap amount includes FHA-HAMP.
5
   Initial cap amount includes RD-HAMP.
6
   Initial cap amount includes 2MP.
7
   Initial cap amount includes FHA2LP.
8
   Initial cap does not include HAMP.
9
   This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
   The amendment reflects a change in the legal name of the institution.
11
   MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 2/1/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
                                                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011




   The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report-Housing Programs, 9/28/2011.



TABLE D.13


 HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2011
                           Seller
                                                                                                             Transaction                                                                           Initial Investment      Additional Investment               Investment Pricing
 Note   Trade Date         Name of Institution                                                               Type                                Investment Description                                       Amount                     Amount                   Amount1 Mechanism

        6/23/2010                                                                                                                                Financial Instrument for HHF Program                  $102,800,000                             —                            N/A

    2   9/23/2010          Nevada Affordable Housing Assistance Corporation, Reno, NV                        Purchase                            Financial Instrument for HHF Program                              —                $34,056,581             $194,026,240 N/A

    3   9/29/2010                                                                                                                                Financial Instrument for HHF Program                              —                $57,169,659                              N/A

        6/23/2010                                                                                                                                Financial Instrument for HHF Program                  $699,600,000                             —                            N/A

    2   9/23/2010          CalHFA Mortgage Assistance Corporation, Sacramento, CA                            Purchase                            Financial Instrument for HHF Program                              —               $476,257,070           $1,975,334,096 N/A

    3   9/29/2010                                                                                                                                Financial Instrument for HHF Program                              —               $799,477,026                              N/A

        6/23/2010                                                                                                                                Financial Instrument for HHF Program                  $418,000,000                             —                            N/A

    2   9/23/2010          Florida Housing Finance Corporation, Tallahassee, FL                              Purchase                            Financial Instrument for HHF Program                              —               $238,864,755           $1,057,839,136 N/A

    3   9/29/2010                                                                                                                                Financial Instrument for HHF Program                              —               $400,974,381                              N/A

        6/23/2010                                                                                                                                Financial Instrument for HHF Program                  $125,100,000                             —                            N/A
                           Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ            Purchase                                                                                                                                       $267,766,006
    3   9/29/2010                                                                                                                                Financial Instrument for HHF Program                              —               $142,666,006                              N/A

        6/23/2010                                                                                                                                Financial Instrument for HHF Program                  $154,500,000                             —                            N/A

    2   9/23/2010          Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI          Purchase                            Financial Instrument for HHF Program                              —               $128,461,559             $498,605,738 N/A

    3   9/29/2010                                                                                                                                Financial Instrument for HHF Program                              —               $215,644,179                              N/A

                                                                                                                                                                                                                                                                   Continued on next page.
    HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2011                                                                                          (CONTINUED)
                             Seller
                                                                                                               Transaction                                                                Initial Investment     Additional Investment       Investment Pricing
    Note   Trade Date        Name of Institution                                                               Type                                Investment Description                            Amount                    Amount          Amount 1 Mechanism

           8/3/2010                                                                                                                                Financial Instrument for HHF Program      $159,000,000                          —                      N/A

     2     9/23/2010         North Carolina Housing Finance Agency, Raleigh, NC                                Purchase                            Financial Instrument for HHF Program                  —               $120,874,221      $482,781,786 N/A

     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $202,907,565                     N/A

           8/3/2010                                                                                                                                Financial Instrument for HHF Program      $172,000,000                          —                      N/A

     2     9/23/2010         Ohio Homeowner Assistance LLC, Columbus, OH                                       Purchase                            Financial Instrument for HHF Program                  —               $148,728,864      $570,395,099 N/A

     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $249,666,235                     N/A

           8/3/2010                                                                                                                                Financial Instrument for HHF Program       $88,000,000                          —                      N/A

     2     9/23/2010         Oregon Affordable Housing Assistance Corporation, Salem, OR                       Purchase                            Financial Instrument for HHF Program                  —                $49,294,215      $220,042,786 N/A

     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —                $82,748,571                     N/A

           8/3/2010                                                                                                                                Financial Instrument for HHF Program       $43,000,000                          —                      N/A

     2     9/23/2010         Rhode Island Housing and Mortgage Finance Corporation, Providence, RI             Purchase                            Financial Instrument for HHF Program                  —                $13,570,770       $79,351,573 N/A

     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —                $22,780,803                     N/A

           8/3/2010                                                                                                                                Financial Instrument for HHF Program      $138,000,000                          —                      N/A

     2     9/23/2010         SC Housing Corp, Columbia, SC                                                     Purchase                            Financial Instrument for HHF Program                  —                $58,772,347      $295,431,547 N/A

     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —                $98,659,200                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program       $60,672,471                          —                      N/A
                             Alabama Housing Finance Authority, Montgomery, AL                                 Purchase                                                                                                                    $162,521,345
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $101,848,874                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program       $55,588,050                          —                      N/A
                             Kentucky Housing Corporation, Frankfort, KY                                       Purchase                                                                                                                    $148,901,875
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —                $93,313,825                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program       $38,036,950                          —                      N/A
                             Mississippi Home Corporation, Jackson, MS                                         Purchase                                                                                                                    $101,888,323
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —                $63,851,373                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program      $126,650,987                          —                      N/A
                             GHFA Affordable Housing, Inc., Atlanta, GA                                        Purchase                                                                                                                    $339,255,819
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $212,604,832                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program       $82,762,859                          —                      N/A
                             Indiana Housing and Community Development Authority, Indianapolis, IN             Purchase                                                                                                                    $221,694,139
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $138,931,280                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program      $166,352,726                          —                      N/A
                             Illinois Housing Development Authority, Chicago, IL                               Purchase                                                                                                                    $445,603,557
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $279,250,831                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program      $112,200,637                          —                      N/A
                             New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                       Purchase                                                                                                                    $300,548,144
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $188,347,507                     N/A

           9/23/2010         District of Columbia Housing Finance Agency, Washington, DC                       Purchase                            Financial Instrument for HHF Program         $7,726,678                         —        $20,697,198 N/A

     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —                $12,970,520                     N/A

           9/23/2010                                                                                                                               Financial Instrument for HHF Program       $81,128,260                          —                      N/A
                             Tennessee Housing Development Agency, Nashville, TN                               Purchase                                                                                                                    $217,315,593
     3     9/29/2010                                                                                                                               Financial Instrument for HHF Program                  —               $136,187,333                     N/A

                                                                                                                                                                                                               Total Investment Amount   $7,600,000,000
Notes: Numbers affected by rounding. Data as of 9/30/2011. Numbered notes are taken directly from Treasury’s 9/28/2011, Transactions Report-Housing Programs.

1
    The purchase will be incrementally funded up to the investment amount.
2
    On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
    On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 9/28/2011.
                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I OCTOBER 27, 2011
                                                                                                                                                                                                                                                                    291
                                                                                                                                                                                                                                                                                  292
TABLE D.14

FHA SHORT REFINANCE PROGRAM, AS OF 9/30/2011
Note    Trade           Seller                           Transaction           Investment Description                                                                                                 Investment Amount          Pricing Mechanism
        Date            Name                             Type
                                                                               Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and
 1      9/3/2010        Citigroup, Inc., New York, NY    Purchase                                                                                                                                      $8,117,000,000            N/A
                                                                               Citibank, N.A

                                                                               TOTAL INVESTMENT                                                                                                        $8,117,000,000

Notes: Numbers affected by rounding. Data as of 9/30/2011. Numbered notes are taken verbatim from Treasury’s 9/28/2011, Tranactions Report-Housing Programs.

1 On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
“L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transactions Report-Housing Programs, 9/28/2011.
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I OCTOBER 27, 2011
                                                CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL ACT OF 1978 | APPENDIX E I OCTOBER 27, 2011                     293




CROSS-REFERENCE OF REPORT TO THE INSPECTOR GENERAL
ACT OF 1978
This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
(P.L. 95-452), as amended, 5 U.S.C. APP.

 Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
 Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
 5(a)(1)    deficiencies...”                                        from SIGTARP audits and investigations.      Section 4: “SIGTARP Recommendations”
            “Description of recommendations for corrective
 Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
            action…with respect to significant problems,
 5(a)(2)                                                            audits and investigations.                   Section 4: “SIGTARP Recommendations”
            abuses, or deficiencies...”
            “Identification of each significant recommendation      List all instances of incomplete
 Section
            described in previous semiannual reports on which       corrective action from previous              Section 4: “SIGTARP Recommendations”
 5(a)(3)
            corrective action has not been completed...”            semiannual reports.
            “A summary of matters referred to prosecutive
 Section                                                            List status of SIGTARP investigations
            authorities and the prosecutions and convictions                                                     Section 1: “The Office of the SIGTARP”
 5(a)(4)                                                            referred to prosecutive authorities.
            which have resulted...”
            “A summary of each report made to the [Treasury
 Section    Secretary] under section 6(b)(2)...” (instances         List TARP oversight reports by Treasury,     Appendix G: “Key Oversight Reports and
 5(a)(5)    where information requested was refused or not          GAO, and SIGTARP.                            Testimony”
            provided).
            “A listing, subdivided according to subject matter,
 Section    of each audit report issued...” showing dollar value
                                                                    List SIGTARP audits.                         Section 1: “The Office of the SIGTARP”
 5(a)(6)    of questioned costs and recommendations that
            funds be put to better use.
 Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                 Section 1: “The Office of the SIGTARP”
 5(a)(7)    report...”                                              SIGTARP audits.
            “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
 Section                                                                                                         Section 1: “The Office of the SIGTARP”
            reports and the total dollar value of questioned        value of questioned costs from SIGTARP
 5(a)(8)                                                                                                         Section 4: “SIGTARP Recommendations”
            costs...”                                               audits.
                                                                                                                 As detailed in Section 1: “The Office of the
            “Statistical tables showing the total number of audit   Provide statistical tables showing dollar    SIGTARP,” SIGTARP has made important
 Section
            reports and the dollar value of recommendations         value of funds put to better use by          findings in its audit reports. However, to date
 5(a)(9)
            that funds be put to better use by management...”       management from SIGTARP audits.              SIGTARP’s audits have not included funds put
                                                                                                                 to better use findings.
            “A summary of each audit report issued before
            the commencement of the reporting period for
                                                                    Provide a synopsis of significant
            which no management decision has been made by
 Section                                                            SIGTARP audit reports in which               Section 1: “The Office of the SIGTARP”
            the end of reporting period, an explanation of the
 5(a)(10)                                                           recommendations by SIGTARP are               Section 4: “SIGTARP Recommendations”
            reasons such management decision has not been
                                                                    still open.
            made, and a statement concerning the desired
            timetable for achieving a management decision...”
                                                                    Explain audit reports in which significant
 Section    “A description and explanation of the reasons for                                                    Section 1: “The Office of the SIGTARP”
                                                                    revisions have been made to manage-
 5(a)(11)   any significant revised management decision...”                                                      Section 4: “SIGTARP Recommendations”
                                                                    ment decisions.
            “Information concerning any significant manage-
 Section                                                            Provide information where management         Section 1: “The Office of the SIGTARP”
            ment decision with which the Inspector General is
 5(a)(12)                                                           disagreed with a SIGTARP audit finding.      Section 4: “SIGTARP Recommendations”
            in disagreement...”
294           APPENDIX F I PUBLIC ANNOUNCEMENTS OF AUDITS I OCTOBER 27, 2011




      PUBLIC ANNOUNCEMENTS OF                                                  GAO3
      AUDITS                                                                   Ongoing Audits
      This appendix provides an announcement of new and                        •	 Financial statement audit expected in November.
      ongoing public audits by the agencies listed below. See                  •	 Overview report expected in January.
      Appendix G: “Key Oversight Reports and Testimony” for a                  •	 Updated review of CPP looking at the status of the overall
      listing of published reports. Italic style indicates narrative              program and the condition of the institutions still in the
      taken verbatim from the agencies’ responses to SIGTARP’s                    program, with expected issuance in the spring.
      data call.                                                               •	 AIG indicator report after fourth quarter filings will be 	
      •	 U.S. Department of Treasury Office of Inspector General                  issued in the spring.
          (“Treasury OIG”)
      •	 Federal Reserve Board Office of Inspector General                     FDIC OIG4
          (“Federal Reserve OIG”)                                              Ongoing Audits
      •	 Government Accountability Office (“GAO”)                              •	 None
      •	 Federal Deposit Insurance Corporation Office of
          Inspector General (“FDIC OIG”)                                       Endnotes
                                                                               1
                                                                                	 Treasury OIG, response to SIGTARP data call, 10/3/2011.
                                                                               2
                                                                                	 Federal Reserve OIG, response to SIGTARP data call, 9/30/2011.
      Treasury OIG1                                                            3
                                                                                	 GAO, response to SIGTARP data call, 10/5/2011.
      Ongoing Audits                                                           4
                                                                                	 FDIC OIG, response to SIGTARP data call, 9/30/2011.

      •	 None

      Federal Reserve OIG2
      Ongoing Audits
      •	 None
                                                                           KEY OVERSIGHT REPORTS AND TESTIMONY I APPENDIX G I OCTOBER 27, 2011                295




KEY OVERSIGHT REPORTS AND TESTIMONY
This list reflects TARP-related reports and testimony published in the quarter ended September 30, 2011.
See previous SIGTARP quarterly reports for lists of prior oversight reports and testimony.


U.S. DEPARTMENT OF THE TREASURY (TREASURY)
ROLES AND MISSION
The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury advises
the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial institutions.
OVERSIGHT REPORTS
Treasury, Transactions Report, 7/1/2011 – 9/29/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-transactions/Pages/
default.aspx, accessed 10/11/2011. (released weekly)
Treasury, Daily TARP Update, 7/1/2011 – 9/30/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/tarp-daily-summary-report/
Pages/default.aspx, accessed 10/11/2011.
Treasury, TARP Monthly 105(a) Report, 7/11/2011 – 9/12/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/reports/105/Pages/
default.aspx, accessed 10/11/2011.
Treasury, Dividends and Interest Report, 7/11/2011 – 9/12/2011, www.treasury.gov/initiatives/financial-stability/briefing-room/
reports/dividends-interest/Pages/default.aspx, accessed 10/11/2011. (released monthly)
Treasury, Making Home Affordable Program Report, 7/1/2011 – 9/1/2011, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/Pages/
default.aspx, accessed 10/11/2011. (released monthly)
Treasury, HAMP Activity by Metropolitan Statistical Area, 7/1/2011 – 9/1/2011, www.treasury.gov/initiatives/financial-stability/results/MHA-Reports/
Pages/default.aspx, accessed 10/11/2011. (released monthly)


GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION
GAO is tasked with performing ongoing oversight of TARP’s performance, including:
•	 evaluating the characteristics of asset purchases and the disposition of assets acquired
•	 assessing TARP’s efficiency in using the funds
•	 evaluating compliance with applicable laws and regulations
•	 assessing the efficiency of contracting procedures
•	 auditing TARP’s annual financial statements and internal controls
•	 submitting reports to Congress at least every 60 days.
OVERSIGHT REPORTS
GAO, “Troubled Asset Relief Program: Status of GAO Recommendations to Treasury,” 9/16/2011,
www.gao.gov/new.items/d11906r.pdf, accessed 10/11/2011.
GAO, “Troubled Asset Relief Program: The Government’s Exposure to AIG Following the Company’s Recapitalization,” 7/18/2011,
www.gao.gov/new.items/d11716.pdf, accessed 10/11/2011.
296                APPENDIX G I KEY OVERSIGHT REPORTS AND TESTIMONY I OCTOBER 27, 2011




      SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
      ROLES AND MISSION
      Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of the
      purchase, management, and sale of assets under the Troubled Asset Relief Program (“TARP”).

      SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
      coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
      OVERSIGHT REPORTS

      SIGTARP, “Quarterly Report to Congress,” 7/28/2011,
      www.sigtarp.gov/reports/congress/2011/July2011_Quarterly_Report_to_Congress.pdf, accessed 10/11/2011.

      SIGTARP, “Legal Fees Paid Under the Troubled Asset Relief Program: An Expanded Report,” 9/28/2011,
      www.sigtarp.gov/reports/audit/2011/G%2009%20OFS%20Contracting%20Final%2011-004%2009-28-2011.pdf, accessed 10/11/2011.

      SIGTARP, “Exiting TARP: Repayment by the Largest Financial Institutions,” 9/29/2011,
      www.sigtarp.gov/reports/audit/2011/Exiting_TARP_Repayments_by_the_Largest_Financial_Institutions.pdf, accessed 10/11/2011.

      Note: Italic style indicates verbatim narrative taken from source documents.

      Sources: Treasury, www.treasury.gov, accessed 10/5/2011; GAO, www.gao.gov, accessed 10/5/2011; SIGTARP, www.sigtarp.gov, accessed 10/5/2011; GAO, response to SIGTARP data call, 10/5/2011;
      Treasury, response to SIGTARP data call, 10/3/2011.
                                                                                 CORRESPONDENCE I APPENDIX H I OCTOBER 27, 2011   297




CORRESPONDENCE
This appendix provides a copy of the following correspondence:

 CORRESPONDENCE
 Date          From             To              Regarding
 8/31/2011     SIGTARP          Treasury        Recommendations on Making Home Affordable
 9/26/2011     OCC              SIGTARP         Response to SIGTARP Audit Report on Exiting TARP
 9/27/2011     FRB              SIGTARP         Response to SIGTARP Audit Report on Exiting TARP
 9/28/2011     Treasury         SIGTARP         Response to SIGTARP Audit Report on Exiting TARP
 9/28/2011     Treasury         SIGTARP         Response to SIGTARP Audit Report on Legal Fees
 10/5/2011     Treasury         SIGTARP         Status Update on Recommendations in the SIGTARP Quarterly Report
 10/11/2011    SIGTARP          Treasury        Exit Paths for Community Banks Participating in TARP
 10/19/2011    Treasury         SIGTARP         Response to SIGTARP’s October 11, 2011, Letter
298   APPENDIX H I CORRESPONDENCE I OCTOBER 27, 2011
CORRESPONDENCE I APPENDIX H I OCTOBER 27, 2011   299
300   APPENDIX H I CORRESPONDENCE I OCTOBER 27, 2011
CORRESPONDENCE I APPENDIX H I OCTOBER 27, 2011   301
302   APPENDIX H I CORRESPONDENCE I OCTOBER 27, 2011
CORRESPONDENCE I APPENDIX H I OCTOBER 27, 2011   303
304   APPENDIX H I CORRESPONDENCE I OCTOBER 27, 2011
CORRESPONDENCE I APPENDIX H I OCTOBER 27, 2011   305
306   APPENDIX H I CORRESPONDENCE I OCTOBER 27, 2011
CORRESPONDENCE I APPENDIX H I OCTOBER 27, 2011   307
308   APPENDIX H I CORRESPONDENCE I OCTOBER 27, 2011
CORRESPONDENCE I APPENDIX H I OCTOBER 27, 2011   309
310   APPENDIX H I CORRESPONDENCE I OCTOBER 27, 2011
ORGANIZATIONAL CHART
                                                                                                          Special Inspector General
                                                                                                           Christy Romero (Acting)

                                                                                                                                                                                                  EEO Program
                                                                                                                                                                                                    Manager
                                                                                                                                                                                                  Raymond Campbell
                                                                                                                Deputy Special
                                                                                                              Inspector General
                                                                                                               Christy Romero
                                          Chief of Staff                                                                             Senior Policy Advisor                  General Counsel
                                           Mia Levine                                                                                        Vacant                         Roderick Fillinger



                                                                                                                                                              Communications                Director of
                                                                                                                                                                 Director               Congressional Affairs
                                                                                                                                                             Troy Gravitt (Acting)           Lori Hayman




                         Deputy SIG –                                                                           Deputy SIG –                                                                               Deputy SIG –
                        Investigations                                                                           Audit and                                                                                  Operations
                        Scott Rebein                                                                            Evaluations
                                                                                                                                                                                                                Cathy Alix
                                                                                                                 Kurt Hyde


 Chief Investigative        ADSIG                                                                                Assistant                                           ADSIG − Special          ADSIG − HR                 ADSIG − CIO     ADSIG − CFO
      Counsel               Vacant                                                                              Deputy SIG –                                            Programs
                                                                                                                                                                                                  Sally Ruble                AJ Germek   Deborah Mathis
   Michael Rivera                                                                                                Audit and                                            Lynn Perkoski
                                                                                                                Evaluations
                          Investigative                                                                       Kimberley Caprio
Investigative Counsel      Operations



                                                HQ Operations



                                                   Hotline

                                                                       Director              Director              Director              Director              Director                Director
                                             Computer Forensics
                                                                   Shannon Williams         Alisa Davis         Brenda James           Craig Meklir           Eric Mader             Clayton Boyce



                                                                  Auditors & Analysts   Auditors & Analysts   Auditors & Analysts   Auditors & Analysts   Auditors & Analysts    Auditors & Analysts




    Note: SIGTARP organizational chart as of 10/10/2011.
                                                                                                                                                                                                                                                          ORGANIZATIONAL CHART I APPENDIX I I OCTOBER 27, 2011
                                                                                                                                                                                                                                                          311
SIGTARP
SIG-QR-11-04

202.622.1419
Hotline: 877.SIG.2009
SIGTARP@treasury.gov
www.SIGTARP.gov
